<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                  AGRICULTURE, RURAL DEVELOPMENT, FOOD
                  AND DRUG ADMINISTRATION, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

     SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES

                     JOE SKEEN, New Mexico, Chairman

JAMES T. WALSH, New York               MARCY KAPTUR, Ohio
JAY DICKEY, Arkansas                   VIC FAZIO, California
JACK KINGSTON, Georgia                 JOSE E. SERRANO, New York
GEORGE R. NETHERCUTT, Jr., Washington  ROSA L. DeLAURO, Connecticut
HENRY BONILLA, Texas                   
TOM LATHAM, Iowa                       

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Timothy K. Sanders, Carol Murphy, John J. Ziolkowski, and Joanne L. Orndorff,
                            Staff Assistants
                                ________

                                 PART 4
               RESEARCH, EDUCATION, AND ECONOMICS PROGRAMS
 Research, Education, and Economics
     Agricultural Research Service
     Cooperative State Research, Education, and
       Extension Service
     Economic Research Service
     National Agricultural Statistics Service

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 40-872 O                   WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          




                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director








AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 1998

                              ----------                              

                                            Tuesday, March 4, 1997.

                   RESEARCH, EDUCATION, AND ECONOMICS

                               WITNESSES

CATHERINE E. WOTEKI, ACTING UNDER SECRETARY
FLOYD P. HORN, ACTING DEPUTY UNDER SECRETARY
EDWARD KNIPLING, ACTING ADMINISTRATOR, AGRICULTURAL RESEARCH SERVICE
B.H. ROBINSON, ADMINISTRATOR, COOPERATIVE STATE RESEARCH, EDUCATION, 
    AND EXTENSION SERVICE
SUSAN OFFUTT, ADMINISTRATOR, ECONOMIC RESEARCH SERVICE
DON BAY, ADMINISTRATOR, NATIONAL AGRICULTURAL STATISTICS SERVICE
STEPHEN B. DEWHURST, BUDGET OFFICER, DEPARTMENT OF AGRICULTURE

    Mr. Skeen. The committee will come to order.
    Today we have the Department of Agriculture research 
agencies, the Agricultural Research Service, the Cooperative 
State Research, Education, and Extension Service, National 
Agricultural Statistics Service, and the Economic Research 
Service.
    And I want to say from the outset that I consider, and I 
think so does anyone else that knows anything about 
agriculture, research to be the savior of the whole system. We 
have to find a better product. And if we're to compete with 
France, Australia, Brazil or anyone else, we have to give the 
customer what they want.
    We have to find a way to have a longer staple cotton, more 
protein in our wheat, less fat in our hogs, and these are 
things that the consumer and the buyer of our products want. 
The only way to do this is through better research.
    Dr. Woteki, I want to welcome you and the group with you. 
If you would be kind enough to go ahead and start by 
introducing the folks that are with you at the table and make 
your presentation.
    Dr. Woteki. Certainly, Mr. Chairman. I'd like to introduce 
to you Stephen Dewhurst, who I don't think needs any 
introduction.
    Mr. Skeen. He's fairly new.
    Dr. Woteki. Dr. Floyd Horn, who is my Acting Deputy Under 
Secretary. And then to my right and your left, Dr. Ed Knipling, 
the Acting Administrator of the Agricultural Research Service.
    Mr. Skeen. Welcome.
    Dr. Woteki. Dr. Bob Robinson, the Administrator----
    Mr. Skeen. He's been here a few times.
    Dr. Woteki. Yes. He sure has. He is the CSREES 
Administrator. Mr. Don Bay, the NASS Administrator, and Dr. 
Susan Offutt, the Administrator of the Economic Research 
Service.
    Mr. Skeen. It's nice to have all of you. Please continue.
    Dr. Woteki. What we'd like to do, sir, is to introduce for 
the written record our statements. And I'd like to summarize 
all of them for you very briefly.
    Mr. Skeen. You are a genius. Thank you; go ahead.
    Dr. Woteki. What I'd like to do is highlight our fiscal 
year 1998 budget request for Research, Education and Economics. 
It is a total of $1.816 billion, and actually represents a 
decrease of $49 million or 2.6 percent from our fiscal year 
1997 level.
    I believe this budget request in total funding and in the 
specific initiatives that we're putting forward represents a 
sound balance between our commitment to research, education and 
extension on the one hand, and the Administration's commitment 
to a balanced budget on the other hand. To get on the path to a 
balanced budget by the year 2002, the four agencies that are 
represented here, along with other agencies within the 
Department, have had to make some very difficult decisions to 
reduce or to terminate some important programs in order to fund 
what we believe are higher priority programs.
    However, through a careful assessment of priorities, funds 
for research in this budget increased by $11 million or by one 
percent. The Agricultural Research Service budget is 
essentially the same as this year, $800 million. The request 
reflects adjusted priorities leading to an additional $10 
million in research and a commensurate decrease in funds for 
buildings and facilities.
    The budget also provides for redirecting some funding 
permitting the Agency to allocate a total of approximately $30 
million in funding for high priority research programs.
    The Cooperative State Research, Education, and Extension 
Service budget request is for $840 million. Funding for Formula 
Programs is held constant at fiscal year 1997 appropriated 
levels.
    For the National Research Initiative, or the NRI as it is 
popularly called, we're requesting an increase of $36 million. 
Decreased funding is proposed for earmarked Special Research 
Grants Programs, for buildings and facilities projects and 
selected extension programs.
    The Administration continues to believe that the NRI 
Competitive Grants Program provides the most effective 
mechanism for eliciting and supporting the most meritorious 
science that's being conducted by our university scientists.
    The Economic Research Service's request is $54 million. 
With an increasingly market oriented agricultural sector the 
need for economic analysis to understand the implications of 
new developments and technology, policy and trade is critical 
for both public and private sector decision makers. The fiscal 
year 1998 budget request provides funds to secure critical data 
that is important to enable us to perform that analysis.
    The National Agricultural Statistics Service requests $120 
million; an increase of $20 million largely for funding the 
peak year of the Census of Agriculture. Responsibility for the 
Census of Agriculture was transferred from the Department to 
Commerce to NASS on October 1, 1996. NASS is conducting the 
Census under the Agency's broad authority to conduct 
agricultural surveys. And, sir, we will be seeking specific 
authorizing legislation to clarify our authorities with respect 
to the Census of Agriculture. I'd like to ask your assistance 
and support for swift passage of that legislation.
    In addition to the Census, our budget request focuses on 
some high priority Administration initiatives. These include 
food safety, human nutrition, germplasm collection and 
preservation, integrated pest management, emerging infectious 
diseases--which also include exotic pests--and the Children, 
Youth, and Families At-Risk Program. This last increase will 
restore funding for the Children, Youth, and Families At-Risk 
Program to its 1995 level and provides an additional $1.7 
million to be targeted to the Colleges of 1890 that are now 
eligible to receive Smith-Lever 3d funding directly.
    I mentioned earlier the slight decrease in the collective 
REE Agency budgets. This is due largely to reductions in the 
Agricultural Research Service and the CSREES budgets for 
building and modernization of research facilities.
    The funding level for buildings and facilities reflects a 
total decrease of $72 million; $10 million of this is in the 
ARS budget and $62 million of this decrease is in CSREES. Given 
the constraints in this budget and the future costs that are 
associated with maintenance of new facilities, we believe it's 
more important to put funds into research and education than 
into bricks and mortar.
    In closing, I'd like to express my interest in working with 
you and with this subcommittee as we continue to develop the 
strategic plans and the annual performance plans that are 
required by the Government Performance and Results Act.
    I thank you for the opportunity to present the Research, 
Education and Economics budget request. My colleagues and I at 
this point will be happy to answer any questions you might 
have.
    [Clerk's note.--Dr. Woteki's written testimony appears on 
pages 533 through 547. Dr. Knipling's written testimony appears 
on pages 549 through 563. Dr. Robinson's written testimony 
appears on pages 564 through 583. Dr. Offutt's written 
testimony appears on pages 584 through 596. Mr. Bay's written 
testimony appears on pages 597 through 608. Dr. Woteki's, Dr. 
Horn's, Dr. Knipling's, Dr. Robinson's, Dr. Offutt's, and Mr. 
Bay's biographical sketches appears on pages 527 through 532. 
The Agricultural Research Service's budget justification 
appears on pages 609 through 706. The Cooperative State 
Research, Education, and Extension Service's budget 
justification appears on pages 707 through 860. The Economic 
Research Services budget justification appears on pages 861 
through 885. The National Agricultural Statistics Service's 
budget justification appears on pages 886 through 918.]
    Mr. Skeen. Thank you very much, Dr. Woteki. I think that 
was a good summarization of where we stand. You can tell this 
is kind of becoming a war between the budget of the Congress 
and the budget of the Administration. Let's see if we can't 
sift through this thing and come out with something that's 
whole.

                      Research Related to Cloning

    Let's start with the question of the hour and that has to 
be what is USDA spending on cloning research? My Scottish 
ancestors have already done this with sheep. And I wondered 
what was going on. What kind of research are you doing related 
to animal cloning, if any?
    Dr. Woteki. We are doing related research.
    Mr. Skeen. I'm glad the clones are also related.
    Dr. Woteki. That's right. They are related to each other. 
We are not doing research that is exactly of the sort that's 
gotten all of the press attention over the last week or so, in 
that we have no research underway that is attempting to take a 
cell from an adult or a mature animal and then to produce 
clones of that animal.
    We have in the past, though, and continue to do research 
that involves animal embryos and the cloning of those; 
essentially making twins or triplets from an embryo. We also 
have research in areas, as I said, that are related that 
involve understanding the genetics of livestock. We are 
conducting research in the mapping of the genome of cattle, 
pigs, and sheep. We are also conducting research that involves 
the insertion of genes from one animal or even a different 
species into an animal.
    Mr. Skeen. A little gene engineering.
    Dr. Woteki. Exactly. It is called transgenics.
    Mr. Skeen. Transgenics. It's called what?
    Dr. Woteki. Transgenic research.
    Mr. Skeen. Transgenic research. Go ahead.
    Dr. Woteki. Well, that is an overview of the type of 
research that's being done. At this point I can't give you an 
exact dollar figure. We did receive a request this morning from 
the Congressional Research Service asking us to provide that 
information.
    Mr. Skeen. Thank you. What's the objective of cloning? What 
are the up-sides or the profit motivation of it, if there is 
any, to gain?
    Dr. Woteki. There are two reasons for doing this kind of 
research. One is just from a very fundamental perspective to 
understand the life process. What makes the genes of a cell 
turn on and go from a single cell, a fertilized cell, to an 
entire animal. And then what turns off some of those genes in 
the process.
    So, improving on basic understanding of what makes our 
genomes function the way they do is one of the intents of this 
kind of research. That will have applications both with respect 
to agriculture and with respect to human health.
    It will help us to understand what causes a cell to become 
a cancer cell and perhaps to develop some better treatments for 
it. It will also give us some understanding of the processes of 
aging; what makes our cells replicate so many times and then 
stop replicating.
    So, there are some questions on the basic understanding of 
life processes that will be answered by this kind of research. 
And then there are a lot of different applications, both with 
respect to human health and also with respect to agriculture.
    Agricultural applications include things like the genetic 
improvement of livestock; our ability to produce leaner animals 
that are more conducive to a health promoting diet; our ability 
to use those animals to produce products that are of importance 
to us.
    There are some experiments, for instance, using again this 
transgenics approach so that milk producing animals can be used 
to produce drugs, that are protein in nature, in their milk. 
So, there are some practical applications.
    Mr. Skeen. Thank you, Dr. Woteki. I wasn't being capricious 
with it because I think what we're trying to do is further our 
knowledge of just what life is all about. The genetic side of 
the thing is always of great interest. And we're making great 
progress. I hope that somewhere in that pile of information we 
do something that betters our chances for a longer life with 
fewer digression factors built into it. So, I'm very pleased 
that it's taking some real notice.
    Of course the news media has been having a hay day with the 
thing. So, I think we ought to get it down to what are the 
practicalities of it. That's what research is all about.

                  REE Research Serving Other Agencies

    When I look at the budgets of the Department of Agriculture 
and I see research funding in lots of places, there is money 
for research in the Food Safety and Inspection Service, Food 
and Consumer Service, the Foreign Agricultural Service and 
others. And it sure seems like everyone has a handle on what's 
going on.
    What's wrong with taking all of the funds in USDA that is 
related to research and putting them in one place?
    Dr. Woteki. Well, our reorganization went a long way 
towards accomplishing that end. Forest Service----
    Mr. Skeen. Excuse me. How far?
    Dr. Woteki. Well, to my mind, the major research 
organization that is not currently within the Research, 
Education and Economics area is the Forest Service research. 
The research that's done within FSIS and Food and Consumer 
Service is research that's a much more applied and evaluation 
type of research that's very close to the programmatic needs of 
those Agencies.
    For both of them we do more fundamental kinds of research 
to meet their needs for new technologies, for detection in the 
case of FSIS, and also for providing information to Food and 
Consumer Service about dietary intake patterns.
    Mr. Skeen. Well, it seems like good administration. On a 
related issue, we hear from the USDA agencies that they don't 
get what they need from the research side of USDA. And that 
they imply ARS does what it wants and does not provide what the 
Agency needs.
    However, you, I think, have made the explanation that we're 
coordinating those needs. Is that precisely the management 
effort and the goal of the management effort?
    Dr. Woteki. Most definitely, it's the goal of the 
management effort. And I think the opinion that you're 
reflecting is perhaps an oversimplification of some people's 
complaints about responsiveness to their needs. Certainly, with 
respect to food safety and also with Food and Consumer Services 
we have processes where we consult with them as to what their 
research needs are going to be for the coming year.
    We work closely with them to identify what specific 
projects will meet those needs. And then, as I said, we meet 
with them annually to assess progress on them. Also, as a part 
of this budget request, we are including two requests that are 
closely related to both of these areas as well: a food safety 
research that totals $8 million, and has been very closely 
coordinated with both FSIS, FDA, and the Environmental 
Protection Agency, as far as the determination of the 
priorities that will meet their needs.
    And in the nutrition initiative is a request for $6 million 
of the $12 million for funding our survey of dietary intake 
that is also something that is of enormous use for program 
planning purposes to Food and Consumer Services.
    Mr. Skeen. So, in effect, you have communication with the 
agency about specifically what their needs are and the reasons 
for what you're doing with it. So, there is a communication 
link going on there. They're not being ignored.
    Dr. Woteki. Most definitely, there is a communication link.
    Mr. Skeen. I appreciate that response. And I'm going to end 
my questioning here for the time being and yield to Mr. 
Nethercutt because he has another committee that he must appear 
before, with the advice and consent of the Minority. Mr. 
Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman. I'm sorry to jump 
ahead.
    Mr. Skeen. Ms. DeLauro, yielded. Thank you both very much. 
Go ahead.
    Mr. Nethercutt. Thank you, sir. Welcome, Ladies and 
Gentlemen. I do have a hearing to Chair at 1:30 p.m. So, I'll 
rush through these questions as best I can.
    Dr. Woteki, I notice that the President seems to come out 
regularly with new initiatives, food safety and others, and to 
great fan fair and publicity and so on. My concern is as a 
person who comes from the West, and the Fifth District of 
Washington is very rich farm country in our Nation and in our 
State.

                       Supporting Basic Research

    My concern is that we're somehow in a time of tight budgets 
focusing more on initiatives than we are basic research which I 
very, very strongly support and I believe it should be a 
priority of the entire Department of Agriculture to look at 
basic research that helps farmers on the ground; disease 
resistance and so on.
    I'd be interested in knowing whether you agree that perhaps 
the initiative approach is going to have a detrimental effect 
on basic research as it relates to farmers. If you don't or if 
you do, please state why.
    Dr. Woteki. Well, I guess I disagree that the initiatives 
that we've proposed in this budget are going to take away 
funding from basic research. We have done an analysis of our 
research and education portfolio. It indicates that about a 
third of the funding to the four agencies that are represented 
here is in basic research. About a quarter of it is in applied 
research. About 15 percent in developmental research. And the 
remainder of our budget, which is about another quarter of it, 
is in the extension, outreach, information, and higher 
education area.
    I've gone all across the country asking people in 
agriculture, people in Land Grant Universities--whether they're 
researchers, educators or administrators--as well as people 
representing the different commodity interests what they think 
about that balance in the portfolio. And most of them have said 
it's about right.
    So, the initiatives that we're proposing in the budget 
array roughly in the same way across those priorities. I don't 
think that they're taking away from the basic research.
    Mr. Nethercutt. Well, let me give you an example of where I 
think they are taking away from basic research, and that is as 
it relates to my state. In ARS' analysis of all the country and 
the stations that exist, two are being eliminated; one of which 
is in Prosser, Washington, not my district, but affects our 
farmers in our state and in our region. Pea and lentil research 
is extremely important for the commodities that exist there.
    Potato research is important at the Prosser station. But 
yet somehow someone felt it prudent to eliminate it. And the 
Secretary, in all fairness, has said that he'd take a look at 
it. And I appreciate that. Canada is spending I think $12 
million on just pea and lentil research alone. And they're a 
competitor of ours. I'm just wondering how that can be 
justified?
    Dr. Woteki. Let me first of all provide you some 
information about how we went about making that decision. And 
then I'm going to ask Dr. Knipling and Dr. Horn if they would 
like to address specifically the pea and lentil research 
question.
    When one sets priorities like this, it's not an easy job to 
do. It's very hard, especially given the importance of 
agriculture to our economy, in general, and specific state 
economics, in specific.
    But in making the decisions that we made about the project 
terminations and also about the closures of sites, Mandan, 
North Dakota; Prosser, Washington, the one in which you have an 
interest; and the two work sites in Brawley, California, and 
Orono, Maine. We essentially went to the area directors and the 
national program staff within the Agriculture Research Service. 
This is essentially the ARS senior management team. They are 
scientists by training. We asked them to use the criteria that 
they have used similarly in the past in making these decisions.
    The criteria have included questions about the relevance of 
the work that's being done. How relevant is the project to the 
research priorities of the agency? The second criterion has to 
do with capacity. Do we have the resources to conduct the 
research? And thirdly, what will be the overall impact of the 
research. What will be the effect of this research on American 
agriculture?
    They reviewed every project within the portfolio against 
those criteria and then ranked them. And then after they had 
done their ranking, the Administrator reviewed their 
recommendations and made some final decisions about which of 
those in the lowest tier, would be the ones that would be 
terminated and then recommended those to me.
    So, my sense of the process that was used was that it was a 
credible process. And it was based on strong criteria.
    Mr. Nethercutt. Are you saying there is pea and lentil 
research done elsewhere that would apply or be available?
    Dr. Woteki. I'm going to ask Dr. Knipling and Dr. Horn to 
respond specifically on pea and lentil.
    Mr. Nethercutt. Thank you; and potato research as well.
    Dr. Knipling. With respect to the pea and lentil research, 
that project is actually being retained and consolidated at 
Pullman, Washington. There were six projects at Prosser. And 
according to the process that Dr. Woteki described, four of 
them would be terminated and the resources reallocated to other 
research locations.
    But two projects, the vegetable project is scheduled for 
retention, and consolidation with Pullman. The potato germplasm 
is also scheduled for retention and consolidated either at 
Aberdeen, Idaho or Corvallis, Oregon, where we already do 
similar research.
    Mr. Nethercutt. I appreciate that. I know my time is short. 
I'll just say, I think we need to be careful as we look at 
terminating research stations and researchers. My sense is 
we're low on researchers and trying to generate people to get 
into the research business in agriculture, and in all phases of 
it and keep them, rather than to lose them this year and try to 
get them back the next. It is very tough to sustain that 
research level. So, that's my concern; less parochial and more, 
honestly, less parochial, and more system concern. So, perhaps 
we can have a later discussion about this issue and go from 
there.
    Thank you, Mr. Chairman, for your indulgence and for 
letting me step ahead.
    Mr. Skeen. Ms. DeLauro.
    Ms. DeLauro. Thank you very, very much, Mr. Chairman. And I 
want to say thank you to all of the witnesses that are here 
today; and especially to you, Madam Secretary, for your 
testimony. And let me just say that there is outstanding 
research that's been performed by the Department of 
Agriculture.
    Often times, that's been in conjunction with universities 
and the state entities. And I think it really has helped to 
ensure the safety and abundance of our agricultural products, 
both here and around the world. I just might add that my 
hometown of New Haven, Connecticut can boast that it is the 
site of the nation's first agricultural experiment station.
    They do incredible research there with respect to 
pesticides; water and soil; taxol research; how we combat the 
gypsy moth; a whole variety of those efforts, and as I say, do 
an outstanding job.
    Also, exciting biotechnology efforts that are going on at 
the University of Connecticut hold wonderful research promise, 
but also development potential as well. Thank you for what 
you're doing. I look forward to those kinds of successful 
partnerships in the future. Let me mention a couple of areas 
I'm concerned about.

                         food safety initiative

    We have heard lots of testimony on the subcommittee in 
support of the President's Food Safety Initiative. Witnesses 
have emphasized that the improved food safety system, 
particularly the HACCP system will be based on good science.
    As the research arm of the Agriculture Department, can you 
describe how the Food Safety Initiative will take advantage of 
science; and specifically how the research improvements will be 
translated into concrete food safety improvements?
    Dr. Woteki. What we're proposing is that within the 
research part of the Food Safety Initiative the funds will be 
used within the Agricultural Research Service. Our request is 
for $4 million that will be specifically targeted to a half 
dozen micro-organisms that currently pose the greatest threats 
to our food supply.
    The focus of the research on those half dozen organisms 
will be on better identification and control methods, both pre-
harvest and post-harvest. We view that as leading directly into 
efforts, both on the part of government agencies that are 
responsible for regulating the food system's methods of 
detection, as well as those in private enterprise who want to 
also ensure that the greatest amount of protection is built 
into their processing.
    The other $4 million request is in the CSREES budget; $2 
million of which is for extension education activities related 
to food safety and $2 million is for a competitive special 
research grant in support of those education efforts.
    It's clear that as the various studies are done of public 
knowledge of food safety, both in the home as well as among 
those who've got direct responsibilities for food preparation, 
that there is a lot that we could do to improve the practices. 
And the education initiative is going to have those dual 
audiences as its targets.
    So, I see that what we're requesting under this initiative 
is going to tie very tightly into the regulatory, as well as 
production systems, and also into the education programs.
    Ms. DeLauro. Is it your sense that in terms of the 
implementation of what we find out about food safety programs, 
these plans will get immediate attention?
    I happen to be fixated on the food safety issue. I think 
that if you take your kids to McDonald's or wherever, people 
should have a sense of security about what they're eating and 
what they're drinking. What I want to be assured of is that the 
work you are doing in the research end of this is somehow 
immediately translatable to the general public obviously, but 
also internally within the government.
    Do we have the opportunity to take a look at what's being 
done because our job is to ensure that the public is safe when 
they're eating and drinking? Your internal mechanisms are such 
that we can take advantage of them?
    Dr. Woteki. Yes, I understand the nature of your request. 
You want to make sure that our new findings are going to be 
immediately translated into applications.
    Ms. DeLauro. Yes.
    Dr. Woteki. And we will do everything to make sure that 
this happens.

                       human nutrition initiative

    Ms. DeLauro. Please. Yes. That's important. You also in 
your testimony mentioned that the Department's Human Nutrition 
Initiative will undertake a new effort to examine how diet 
affects cognitive development in children. Ensuring that our 
children start off on the right foot is essential.
    Lots of work is being done in the area of when our 
youngsters learn; how quickly they progress from zero to three; 
all of these kinds of things. And your work may be a terrific 
complement to these ongoing studies of development. Can you 
tell us what has led your research in this direction and what 
you might expect to find?
    Dr. Woteki. Well, there are several different sources of 
this initiative. It's roots probably trace back to a major 
study that was done by the Food and Nutrition Board at the 
Institute of Medicine. The Board essentially reviewed what we 
know about human nutrition and recommended that there were some 
very promising pathways of research that needed some additional 
funding.
    So, that report was certainly taken into account by the 
directors of the half dozen nutrition research centers within 
ARS as they went about developing their initiative. There is, 
as you've said, a lot of interest broadly in the health 
community, in the health of our children.
    A lot of attention has been given by a number of groups 
focusing on what happens in the early years that affects 
children's learning ability. Clearly diet is one of those very 
important variables.
    It's been recommended by a number of different 
organizations that this research should be part of those 
broader studies of how we prepare our children best to learn. 
So, it has a lot of different roots.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Mr. Skeen. Thank you, Ms. DeLauro. Mr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman. I have several 
different questions. On the issue of children, I'd like to talk 
a little bit about the survey that's called for by the Food 
Quality Protection Act. There is some concern that USDA and EPA 
haven't worked this closely together in the past as perhaps 
they could have or should have.
    In order to get this study done and done right, have there 
been discussions between USDA and EPA regarding survey methods 
and how the data will be used in order to make sure that there 
is no duplication?
    Dr. Woteki. I'm assuming that you're referring to the food 
intake survey for children?
    Mr. Walsh. Yes, for children.
    Dr. Woteki. We've certainly had ongoing discussions with 
EPA about their needs for this information. We also have more 
recently established a liaison position with the EPA. Dr. Dick 
Parry is going to be working in that role so that we will have 
a focal point on our side for those discussions to take place.
    Clearly, we see that there is a need for a better 
understanding of what children need, not only to meet the 
requirements of EPA, but also more broadly the mandate that we 
have within the Department. So, ARS is proceeding in planning 
about how to go about designing the survey. And if you'd like 
some additional information on it, I will ask Dr. Knipling to 
provide you with it.
    Mr. Walsh. That's okay. I just wanted to make sure that we 
get an accurate survey, certainly, and that its useful to EPA 
because they're making some very important decisions on what 
pesticides, old and new, can be used. And rightly so, it's an 
important question.
    I think that was a major consideration, the passage of that 
bill last year. I think it helped us all to support the bill 
knowing that this analysis would be done. As I understand it, 
it will take some time to have that study completed. It's a 36-
month study.
EPA is going to be making decisions on pesticides based on the 
results of that study. But in the meantime, what will they do? 
They're not going to wait three years to start okaying or 
recertifying pesticides. What will they do?
    Dr. Woteki. Well, they have some alternative sources of 
information about children's dietary patterns and about dietary 
patterns broadly in the population. The National Health and 
Nutrition Examination Survey that was conducted from 1988 
through 1994 provides them with some information. In addition, 
they have historical data upon which they've been relying so 
far.
    Mr. Walsh. But is it a feeling that this new survey will 
give them better data than what they're using now?
    Dr. Woteki. Yes. They will have a larger number of 
observations on children. And that's important.
    Dr. Horn. You should know also that we are looking for ways 
to expedite this process; perhaps through identification of 
funds that could be redirected within the Department which we 
have not identified yet; perhaps amending an existing contract 
to begin this earlier.
    The analysis that's been done suggests that something 
between eight and 12 months could be saved that way. We're 
working very closely on the protocols with EPA to make sure 
they will be adequate.

                        golden nematode Research

    Mr. Walsh. Good. On the specific research relating to the 
Golden Nematode in New York--there's been an ongoing program to 
identify the soil where this is located in order to prevent it 
from spreading to other states.
    And there is some real concern that as the amount of money 
that's allocated to deal with the Golden Nematode is reduced, 
there is a real concern in the New York agriculture industry, 
that there is a perception that we aren't doing our job. My 
worry is that other states may begin to ban our products which 
would cause just havoc in New York.
    In New York, as you know, we grow a lot of different and 
varying crops that we export to other states and to other 
nations. Can you give me any sense of assurance that the money 
that you've requested is enough to deal with this problem? Last 
year it was I believe $444,000 and you've asked for less than 
that. The estimates are that we need a lot more.
    Dr. Woteki. I'd like Dr. Horn to reply and then Dr. 
Knipling.
    Dr. Horn. We're aware of this problem which was discovered 
years ago on Long Island. And the details of it, I'm going to 
defer to Dr. Knipling. But clearly it is one of the most 
serious pests. On the other hand, we have done a considerable 
amount of work that has taught us how to control the disease.
    And I think our sense is that the funding for this is more 
or less adequate in the context of the budgetary environment 
we're working with. However, let me defer for the details to 
Dr. Knipling.
    Dr. Knipling. I would only add that we have not reduced any 
funding for that program. It has been stable over several 
years. If there is any problem, it's just the continuing 
erosion of purchasing power. That work is done at Ithaca, New 
York, by Dr. Bill Brodie.
    We are making a few other changes within that research unit 
unrelated to the potato nematode work that actually may lend 
some opportunities for strengthening the activity within the 
program. It's a multiple commodity, multiple problem oriented 
research program. But the portion on Golden Nematode has not 
diminished in the sense of a project termination.
    Mr. Walsh. So, it's your feeling that the program is 
adequate and that there is no need for concern among other 
states that this could spread?
    Dr. Knipling. I think that's true in terms of this concern 
from other states. We've actually made considerable progress in 
that program. It's one of the flag ship activities to actually 
contain the problem.

                        duplication of research

    Mr. Walsh. Okay. The other dilemma we have is with regard 
to our budget. The fact is that our subcommittee has $14.3 
billion in requests for discretionary spending and will wind up 
with probably less than $13 billion available to spend.
    We're going to ask everybody the hard questions. But is 
there any way that research duplication can be eliminated? Are 
there any areas where consolidation can be done? I realize it's 
a difficult question especially given Mr. Nethercutt's 
question. What is being done or what can be done to eliminate 
duplication and consolidate?
    Dr. Woteki. Well, among the things that I think we need to 
consider is that the USDA research and education budgets have 
been fairly flat for quite a number of years. So, we have made 
an enormous effort over the past few years to reduce 
duplication wherever it existed. Also, we have introduced as 
many administrative efficiencies as possible in managing both 
the intramural programs, as well as the extramural programs.
    Given the budget trajectory that's planned for the out 
years, it doesn't look like there is going to be much relief in 
sight from that situation. And I think that we all need to work 
very much together to try to identify what is going to be the 
best pathway to take in this kind of a situation.
    I think we're going to have to continue to do some 
consolidation of our intramural research facilities, making 
sure that the high priority research that's done is still going 
to be continued but getting some additional administrative 
savings out of being able to consolidate worksites.
    And I think that clearly if there is some remaining 
duplication of effort that we need to certainly pay attention 
to them. If you're aware of some that we are not yet aware of, 
I'd certainly like to know about that. But my sense is that 
we've really worked very hard over the last several years to 
eliminate the duplication that existed, and I don't think there 
was that much to begin with. In this process we have tried to 
gain as many administrative efficiencies as possible.

                           APPLE FIRE BLIGHT

    Mr. Walsh. That's a fair answer. Let me just ask one last 
question, if any of you would care to comment. In the last 
several years, we've appropriated some funds for apple fire 
blight, which affects the apple crop in Michigan and in New 
York, and I guess to a lesser extent elsewhere.
    And we have also allocated some funds for grape and wine 
research which obviously benefits New York, California, and 
other wine growing regions. Could any of you comment on either 
of those programs and how they're working? What sort of work is 
being done?
    Dr. Woteki. Dr. Knipling.
    Dr. Knipling. Yes. Several years ago this committee 
provided some funding for an apple consortium. We placed that 
money at Kearneysville, West Virginia; our Appalachian Fruit 
Laboratory. In turn, they've been supporting cooperative work 
in New York, Michigan and California on the apple issues. They 
hadn't been totally restricted to the apple blight, but various 
disease and quality problems of the apple.

                        GRAPE AND WINE RESEARCH

    Regarding the grape and wine research, we have a stable 
program there also. In terms of base resources within ARS, we 
have $2.4 million in grape research. Much of that is located in 
California locations, but some at our Geneva, New York location 
as well.
    Mr. Walsh. Can you comment on this insect that has affected 
the root stocks of grapes?
    Dr. Knipling. It was probably the phylloxera which is a 
root insect. And yes, we've been working on that at Fresno and 
at Davis, California. We're working with the industry in trying 
to develop resistance root stocks and making some good 
progress.
    Mr. Walsh. Has that approach been effective?
    Dr. Knipling. Yes. We feel that's the most promising 
approach.
    Dr. Woteki. I think Dr. Robinson would also like to add to 
that.
    Dr. Robinson. CSREES funding also provides an additional 
avenue for viticulture research. In fiscal year 1996 and 1997 
Congress appropriated, under special research grant funding, 
monies to help form an operative and effective consortium that 
deals with issues of grape production and viticulture.
    We have been working primarily with California and New York 
to initiate the project; the idea to develop a consortium that 
shares information, helps set priorities, identifies problems 
that are emerging and helps build partnerships between Land 
Grant Universities, USDA and industry groups in order to 
address those problems. My sense is that this project has been 
a very successful one.
    Mr. Walsh. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Latham.

                           RESEARCH PORTFOLIO

    Mr. Latham. Thank you, Mr. Chairman. I'm going to have to 
leave here very shortly for another hearing at 2:00 p.m. First 
of all, just to let you know there is no one who is more 
supportive of basic agricultural research than I am. And it is 
absolutely critical for the long-term success in agriculture.
    I will have to tell you that I have real concern that some 
of the new initiatives may be diluting the emphasis you have 
toward basic research. I think that is the vital role that you 
have today. But having said that, what criteria or guiding 
rationale did the Administration use when making the decision 
about which ARS buildings and facilities to fund this time?
    Dr. Woteki. We used three criteria. First, we evaluated all 
of the projects within the ARS portfolio. We used the same 
three criteria in evaluating every project. One was its 
relevance. How relevant is the project to the research 
priorities of the Agency? Secondly, capacity. Do we have the 
resources to conduct the research? And thirdly, the impact. 
What will be the affect of this research on American 
agriculture? All of the projects within ARS were ranked. And 
then a decision was made about the lowest tier of those. And 
then from that, decisions were made about which sites to close.

                               IOWA STATE

    Mr. Latham. I'm going to be very brief here. What's ARS' 
position on assuming operation of the swine research facility 
at Iowa State when it's completed?
    Dr. Woteki. Well, at this point as I understand it, the 
facility is still supposed to be deeded to Iowa State 
University.
    Mr. Latham. Right. And I think they want ARS to take 
control of it. Do you have a position on that?
    Dr. Woteki. Well, I think there are a variety of 
arrangements under consideration, recognizing who is going to 
ultimately hold the deed is still apparently in question. Among 
the things that we are talking about is a partnership with the 
State, the University, and the industry in support of research 
that's conducted there, with ARS being one of the partners.
    That's a more innovative type of approach towards the 
funding of the work that will be done there. And certainly at 
the other end of the spectrum, if indeed the facility 
ultimately ends up in ARS' hands, would be full funding of a 
research program there. There is a spectrum of ways that it 
could be dealt with that are under consideration.
    Mr. Latham. Thank you. Mr. Chairman, I'm just wondering 
when you're talking about clones, you know, at Iowa State, we 
have the cyclones. And we also refer to them as the clones. I 
hope that was not a direct reference to anyone at Iowa State. 
I'm sure the news of the cloning of sheep had a great impact on 
you. Thank you, Mr. Chairman. I appreciate your indulgence.

                         ARS RESEARCH PROJECTS

    Mr. Skeen. If the gentleman yields, I'd like to ask some 
questions that's pertinent to what you just got through talking 
about. Who was it that made the decision to eliminate the ARS 
research projects? Was it ARS, OMB, the Department or who? Who 
actually made the decision?
    Dr. Woteki. As I explained to you, the ARS program staff 
and senior management came up with a set of recommendations.
    Mr. Skeen. They made the recommendations.
    Dr. Woteki. Yes. They made the recommendations. Those were 
reviewed and accepted.
    Mr. Skeen. I want to be clear about how the decision was 
made. Thank you very much, Dr. Woteki.
    Dr. Woteki. Certainly.
    Mr. Skeen. Mr. Fazio.
    Mr. Fazio. Thank you, Mr. Chairman. I'm sorry I wasn't here 
to hear all of the introductory remarks. I've done an Evelyn 
Wood course through a couple of those statements that were 
submitted to us to see if I could focus on a few things that I 
don't think were mentioned.

                              WORLD TRADE

    I was particularly interested in having you address the 
World Trade Organization now in existence. Any reference you 
may have made to research in the phytosanitary area where 
increasingly we seem to think that our future in world trade, 
certainly in specialty crop agriculture, is going to be 
sustaining our real commitment to science and not to trade 
restraints.
    If Ms. Kaptur were here, you would have heard a good deal 
about the science behind the decision on the avocado issue. And 
we could cite many on both sides of U.S. foreign trade 
relations. Is there something that the Department is doing 
under your purview that would help us at some point attain a 
level playing field out there in the future between countries 
that sometimes discriminate against imports based on what we 
think are unscientific criteria?
    Dr. Woteki. You've probably heard the Secretary wax 
eloquent on the position that he has taken very strongly that 
science has got to be the basis for our regulatory approach and 
that any artificial trade barriers that are placed on 
agricultural products based on phytosanitary regulations need 
to be addressed from a scientific basis.
    We have a variety of research projects underway that 
address those concerns. And in addition to those research 
projects that we could go over with you in more detail, but 
probably should be done off-line, the Economic Research Service 
has put together an inventory of sanitary and phytosanitary 
barriers, globally. Dr. Offutt could give you a little bit of 
an overview of that effort.
    Mr. Fazio. Great.
    Dr. Offutt. What the Economic Research Service tried to do 
in collaboration with ARS, with APHIS, with the Foreign 
Agricultural Service, with the trade representatives was to 
take a first look at an inventory. How big is the problem 
today? And we did that and it's not the most scientific method, 
but I think it's the common sense place to start.
    We started by asking all of the Foreign Agricultural 
Service attaches around the world what they perceived as trade 
barriers in the country in which they worked. We took their 
answers and went back to ARS and APHIS and said, well, number 
one, how many of these would have counterparts in US trade 
regulation and supposed them to be science based. And then we 
asked whether they felt that there was legitimate science basis 
for countries having the trade restrictions that they did.
    As I said, this approach is more common sense than science, 
but what it leads us to is an early estimate that there are 
several billion dollars outstanding that we think may represent 
trade which is forgone because of barriers. That's against $60 
billion worth of U.S. exports.
    So, that might lead one to say that's not the biggest 
problem right now. However, as global trade expands, that's the 
place to be vigilant. So, the work that goes on from here I 
think will be to try to not only to square the science with 
actual experience but to determine whether there are systems we 
can use to anticipate these barriers. Once you get into a 
dispute you already have a problem. Many different agencies may 
be involved in that analysis. But we think we've made a good 
start.
    Mr. Fazio. I appreciate that. And I think the approach is a 
good one too. Let's go to the practical examples of where we 
have a problem instead of just worrying about where we 
theoretically might down the road. Could you submit that for 
the record? I think we'd all be interested in seeing where 
those problems have been identified. Is that workable?
    Dr. Woteki. Yes. I believe we're looking at a Departmental 
publication that is close to being on the street. We will 
certainly see that you get one as soon as it is published.
    Mr. Fazio. Great. I have a feeling that you will find a lot 
of specialty crop agriculture listed. So, while it may not be 
billions and billions of dollars in the context of our total 
trade, it can be absolutely essential, perhaps life or death, 
for some crops. I hope we can direct our research and efforts 
to those areas that we obviously see coming down the track that 
are going to really impact, not only on some crops, but on some 
regions of the country.

                           nutrition centers

    I wanted to ask a question about the nutrition programs. 
You're very proud of your work at Beltsville, Baylor, and Grand 
Forks, North Dakota. I know that you are very, very proud of 
the work that's done at Tufts in Massachusetts, and also at the 
Presidio.
    There, we are about to see a federal hospital, Letterman 
Army Hospital, close. We're about to see the Presidio go to a 
new form of national park. And the Department has made a 
decision to move their western nutrition center to UC Davis, 
which I happen to have some interest in; similar to Mr. Walsh's 
interest in Cornell. We represent them.
    I wondered if you could indicate to me why there wasn't any 
funding in this year's budget to begin the transfer of that 
facility, given the fact that it's time at the Presidio is 
obviously limited?
    Dr. Woteki. Before I answer the specific of why, let me 
assure you that we have got a very great interest in seeing 
that the Western Human Nutrition Research Center has a good 
home so they can continue to do the excellent research that 
they are noted for.
    And I have talked on several occasions with Dr. Janet King, 
the Director of that Center, about how best to effect that 
move. So, it certainly is something that I'm intensely 
interested in seeing happen.
    There are two things though that have happened this year 
that have made it impossible for us to include as a part of our 
request, new funds for that center. One of them was just the 
enormous constraints under which this budget was being put 
together. And also, the decision we made, that it was more 
important to put the funds into the research and education 
programs than into new buildings in this year. Secondly, the 
Farm Bill that was passed last year has a requirement that we 
have a task force of outside experts conduct a review of 
Federally funded agriculture facilities.
    It's called a Strategic Planning Task Force for Agriculture 
Research Facilities. That task force is going to be named. The 
secretary signed off on it this morning. So, we're just 
notifying people and getting ready to put out the press 
release. And they will have two years in which to review all of 
our agriculture research facilities and to make some 
recommendations about the next ten years as to new construction 
and new consolidations and perhaps some closure of sites.
    So, given that this task force was also going to be 
beginning its work in the requests that we put in for new 
facility in ARC, included those that were of highest priority 
and had been in that situation for quite some time. So, the 
Parlier, California Laboratory, for instance, is on that list.

                human nutrition at little rock, arkansas

    Mr. Fazio. I was looking at the human nutrition budget 
under ARS. I noticed there is a plus up for $12 million and 
we've got $6 million for the headquarters, and then divide it 
into equal parts; $6 million additional. In additional to 
Beltsville and the four nutrition centers I mentioned, there is 
one for Little Rock, Arkansas.
    Since Mr. Dickey isn't here at the moment, I thought I 
might ask what is the program the Department is supporting in 
Little Rock, Arkansas. It didn't seem to me to be included 
traditionally among the centers that I've mentioned that USDA 
is so proud of in terms of nutrition research.
    Dr. Woteki. The Arkansas facility is a newcomer to the 
nutrition centers within the Agriculture Portfolio. It actually 
is one of the nutrition centers that I have not yet visited. 
So, I look forward to visiting the site and getting to talk 
with the scientists and learn more about their research 
program.
    The research focus at that center is also on child 
nutrition and understanding how nutrition in the early 
childhood years affects long-term health. I could also ask Dr. 
Knipling, if you'd like, for some additional information on 
that subject.
    Mr. Fazio. Just became an official USDA nutrition center?
    Dr. Woteki. Yes.
    Mr. Fazio. Is that no longer a question of Congressional 
add-on? It's now a designated location. Is that correct?
    Dr. Woteki. We consider it on one of our human nutrition 
centers yes.
    Mr. Fazio. I see, good. Additional testimony on that? I'd 
be interested for the record.
    Dr. Woteki. Dr. Horn.
    Dr. Horn. I might be able to add to this. We have virtually 
every configuration in carrying out our program, who owns the 
building, who owns the program, where the scientists are, 
whether we operate under a memorandum of understanding or a 
contract, and so forth.
    This particular program came into being because of the 
intense interest of the Arkansas Childrens Hospital in brain 
development and cognitive development of children and how diet 
affects neural development and how it affects nutritional 
imprinting and programming. We did not have that activity as a 
part of our National Human Nutrition Initiative.
    So, that's the principal reason they have become a center 
and that's what they have brought to the table. They are asking 
how does nutrition influence cognitive and emotional 
development in performance. They're also really world renowned 
as a pediatric hospital. And I think they're about fourth in 
size now of children's hospitals, nationally. And they have 
quite a bit of other activity that's not directly nutrition 
related that supports the program as a whole. So, they are 
significant contributors. They have also not asked for 
facilities and structures. They've achieved that in other ways. 
And so, in an academic and in a scientific sense, they're 
bringing a great deal to the table.

                           food intake survey

    Mr. Fazio. Will each of these facilities be engaged in work 
under the children's study that Mr. Walsh referenced earlier as 
a part of the implementation of the Food Quality Protection 
Act?
    Dr. Woteki. The survey itself will be done at the Human 
Nutrition Center at Beltsville.
    Mr. Fazio. In addition to the Children's Hospital in Little 
Rock, what other nutrition centers will be working with you and 
EPA to complete that work? Could you tell me?
    Dr. Woteki. Sure.
    Dr. Horn. This actually is a survey that's normally 
contracted out. And in fact if we are able to supplement the 
existing contract and save the six to eight months or whatever, 
it will go to a company called Westat. The protocols and the 
questions are generated jointly. And the centers do provide 
input into that.
    But it's a contract that's managed for administrative 
convenience through the Beltsville Agricultural Research 
Center. Later on, in the analytical process, the other centers 
become directly involved in looking at the data.
    Mr. Fazio. Would that be true of Little Rock as well?
    Dr. Horn. Yes.
    Mr. Fazio. So, I misspoke. It really won't be involved in 
the up-front analysis, the children's study that we've 
referenced here.
    Dr. Horn. The Little Rock Center will not be involved in 
the survey. But there are many other children's studies, 
physiological in nature, that both Baylor and Little Rock will 
emphasize. They are different, but they are complementary.
    Mr. Fazio. Those are the two that will be working on 
children's related matters.
    Dr. Woteki. Yes.
    Dr. Horn. It's almost impossible to eliminate any center 
because, for instance, Tufts is looking at the effect of early 
life nutrition on old age problems. And the Grand Forks unit is 
looking at the effects of trace elements on the entire life 
cycle. So, it's almost impossible to eliminate any center 
entirely, but the principal activity would be in Arkansas and 
in Texas.

                       integrated pest management

    Mr. Fazio. One other question, Mr. Chairman, and I'll hold 
on that at least. Integrated pest management is something I'm 
very interested in. I notice the Department has quite a 
reference here to your program. Where is most of the research 
being done on integrated pest management applications?
    Dr. Woteki. Generally in two sites. One is within the 
Agricultural Research Service at its multiple sites. And the 
other is through the Land Grant Universities at their multiple 
sites throughout the country. The Integrated Pest Management 
Program with its goal of having 75 percent of agricultural land 
under IPM practices by the year 2000, essentially mandates that 
we be doing this research, applied research, in many different 
places throughout the country.
    Mr. Fazio. Well, I'm very hopeful that you can attain that 
goal. Obviously I think we should be getting production 
agriculture committed to IPM based on cost savings if nothing 
else. Effectiveness really is the key to getting that kind of 
acreage covered.
    Again, I worry about specialty crop agriculture as I was a 
minute ago where we have less benefit perhaps to be derived by 
the manufacturer given the limited number of acres. I'm 
wondering if you could, perhaps if not here, then for the 
record, indicate to me where most of the specialty crop IPM is 
being done.
    [The information follows:]

      Cooperative State Research, Education, and Extension Service

                      specialty crop ipm programs
    CSREES programs are supporting speciality crop IPM programs at a 
variety of locations across the country, including the University of 
California. Agricultural Research Service and University of California 
scientist are developing biologically based IPM systems on the Davis 
and Riverside campuses, at the Kerny Agricultural Center, and at 
several other field stations in California. The same is true in other 
states with extensive acreage of high value crops. Our IPM research and 
extension education effort matches the needs of growers. This truly a 
public-private partnership which addresses the needs of active grower 
and industry groups. This partnership has resulted in many successful 
IPM efforts for specialty crops. For example, public concerns about the 
use of pesticides led California's processed tomato industry to form a 
partnership with the University of California to develop and implement 
improved pest management methods. The resulting IPM system has been 
implemented by about half of the state's processed tomato producers, 
resulting in a 40 percent reduction of pesticide use and a $10 per acre 
increase in profitability. Recently, the University of California IPM 
Program used Smith-Lever 3(d) funds to validate disease forecasting 
models on several speciality crops including grapes, pears, tomatoes, 
lettuce and strawberries. These models allow producers to reduce 
fungicide applications by 25 to 50 percent on those crops, a fact that 
is especially significant since fungicides are one of the most targeted 
and also one of the most important pesticides used in speciality crop 
production. There are also successful specialty crops IPM efforts in 
other states. For example, IPM research and education conducted by 
Texas A&M University has saved $1.5 billion per year and spared the 
environment 17.3 million pounds of insecticides alone. One IPM program 
in the Rio Grande Valley for carrots destined for baby food, soup and 
frozen foods reduced insecticide use by 66 percent while increasing 
individual farmer profits by $22,000. At the same time, 20,000 new jobs 
in the state are associated with IPM. IPM research and extension 
efforts at Oregon State University have helped growers reduce their 
need for miticide applications from three to one per year on twenty 
thousand acres of apples, for a savings of $120,000.

    Dr. Woteki. We'd be happy to do that.
    Mr. Fazio. My sense is it might be in Land Grant 
Institutions that are not too far from where I'm located.
    Dr. Woteki. We'd be happy to do that.
    Mr. Fazio. I thank you.
    Mr. Skeen. Mr. Bonilla.

                        special research grants

    Mr. Bonilla. Thank you, Mr. Chairman. I'd like to talk a 
little more about Special Research Grants and how those are 
being cut to further national priorities. We understand that. 
I'm interested in learning more about the details regarding how 
the decision making process took place in deciding which 
projects to eliminate and which ones to keep.
    Dr. Woteki. Well, we used a process that we've used in the 
past in making hard decisions about setting priorities that 
involves the national program staff and the area directors 
within the Agricultural Research Service. We asked them to rate 
all of the projects in the ARS portfolio against three 
criteria: relevance, capacity and impact.
    Then, based on that assessment we ask them to rank them. 
Your question though had to do with special research grants, 
not necessarily with the rankings that we made within ARS. 
Essentially, we had the criteria that those grants that were 
Congressional earmarks, particularly the ones that dealt with 
construction of facilities, were our lowest priority.
    And those are essentially zeroed out in our budget request. 
Again, the rationale is at this point in time when we are 
putting such enormous constraints on our research and education 
budget, our sense was that it was more important to put funds 
into research and into education than it was into the 
construction of new buildings.
    Mr. Bonilla. So, would this be strictly limited to 
construction then? I'm talking research grants, because there 
certainly could be some that are already underway. What happens 
to those? Are they just eliminated in the proposal?
    Dr. Woteki. Certainly, we gave much lower priority to those 
that were earmarked special research grants. I'd like to ask 
Dr. Robinson to give you a specific response on the research 
grants.
    Dr. Robinson. Proceeding from the criteria that Dr. Woteki 
laid out, for Special Research Grants priority was given to 
those projects that have national or regional impact. Given 
that we are trying to balance the expenditure of federal funds 
with a very tight budget, it seemed that those were the two 
most important criteria to use.
    In using those criteria, areas such as integrated pest 
management and other related programs, including minor crop 
pest management activities that Mr. Fazio referred to a moment 
ago, were viewed as being very high priority areas for U.S. 
agriculture. They were given a great deal of emphasis in our 
budget.
    Less emphasis was given to those grants that were primarily 
state or local projects. The Department thus began to look at 
all of the earmarked grants from the point of view of those 
which were of national or regional perspective.
    Mr. Bonilla. I have a question now about the Cooperative 
State Research, Education, and Extension Service. Is it your 
position, Dr. Woteki, that this funding should not be for any 
programs if they're limited in geographical scope. Do programs 
have to have a broader perspective than that?
    Dr. Woteki. Our emphasis is clearly on those programs that 
have a multi-state or regional impact or a national impact. 
Those would be the ones on which we will place the highest 
priority.
    Mr. Bonilla. Would you think that on occasion when 
sometimes things seem like they're not going to have a greater 
than regional impact that indeed sometimes they wind up having 
a broader impact long term? Are you concerned that special 
grants and research projects like that might go by the wayside 
and something that may have been helpful in the future might be 
lost?
    Dr. Woteki. I could certainly construct scenarios in which 
that would be the case. The problem is we're facing a budget 
that is not growing. So, we're having to set some priorities. 
Given that we are the federal funder, the federal partner in 
the work that's done through the CSREES, we believe that we 
should be putting greater priority on those things that are 
multi-state, regional, and national in scope.
    Mr. Bonilla. As you know, I'm a new Member on this 
subcommittee. So, I'm digesting a lot of information as quickly 
as I can. So, I look forward to working with you in the future 
as we get our numbers together this spring.
    I have no further questions. Thank you, Mr. Chairman. Thank 
you.
    Mr. Skeen. Mr. Serrano.
    Mr. Serrano. I have no questions.

                         census of agriculture

    Mr. Skeen. In that case, we've talked about this before. 
There is a pertinent part of this thing that should be 
discussed and that's the budget request for the National 
Agricultural Statistics Service which includes an increase of 
$18.8 million for the Census of Agriculture.
    The Census is conducted every five years, and in the past 
it has been conducted by the Department of Commerce. We 
provided funding in the fiscal year 1997 Agriculture 
Appropriations Bill for census work in anticipation that the 
authorizing committee would pass legislation needed to transfer 
this function from Commerce to the USDA. This didn't happen. Do 
you plan to submit some legislation to effect that change?
    Dr. Woteki. Yes, we do, sir.
    Mr. Skeen. You have some ready to go?
    Dr. Woteki. Very close.
    Mr. Skeen. Very good.
    Dr. Woteki. And we would certainly like any assistance you 
can give us in ensuring swift passage of that legislation.
    Mr. Skeen. We hope that we have some assistance to offer by 
the time it gets here. If there is anything left in this 
budget, we'll try to accommodate it.
    Mr. Bay. Mr. Chairman, I would like to comment.
    Mr. Skeen. Yes.
    Mr. Bay. This House did pass that bill last year to 
authorize the transfer of the Census of Agriculture. It didn't 
get through the Senate, but the House did pass House Bill 3665 
which brought the authorization bill to the Senate.
    Mr. Skeen. We thank you for laying the responsibility for 
its failure in the right place. Mr. Walsh.

                             polyacrylamide

    Mr. Walsh. Thank you, Mr. Chairman. I just have been going 
through the bag up here of some of these things that you're 
working on. There are always amazing things in there. This is 
one of the best days on the Hill for me because you come over 
with your magic every year. This is amazing. I've never heard 
of this before; PAM. Is anybody at the table familiar enough to 
talk about this a little bit?
    Dr. Woteki. Dr. Knipling, do you want to talk about it.
    Mr. Walsh. Just for the sake of the audience who may not 
know what this is, let me describe it. I've never heard of it 
before. It is polyacrylamide. It is an additive to surface 
irrigation. And it reduces soil erosion by 94 percent. It's 
astounding. This should be a front page story somewhere. How is 
it applied? Do you have to add it to the water source?
    Dr. Knipling. Yes. It's a synthetic material, 
polyacrylamide, that's actually used in surface irrigation 
situations. It's actually dripped into the water flow as it 
flows across the soil into the furrows.
    Mr. Walsh. How is it applied to the water?
    Dr. Knipling. It's dripped in.
    Mr. Walsh. So, based on the volume of flow you add at a 
certain speed?
    Dr. Knipling. It's probably on the order of five pounds per 
acre for irrigation. What this material does is bond to the 
soil in some way which then retards the detachment of the soil 
particles in the water flow.
    Mr. Walsh. It says it not only reduces irrigation, but it 
increases the infiltration of the water which would seem to me 
would get it into the soil faster and thereby reduce the 
erosion.
    Dr. Knipling. Yes. Maintaining the integrity of the soil 
structure helps facilitate the infiltration. I might add that 
this work was done in Kimberly, Idaho. But we're doing similar 
work at other ARS locations using other types of materials. 
This is a synthetic material.
    Other materials are derived from agricultural products. 
Also, some of the waste material from the coal combustion 
activities is also being used. And it has similar affects.
    Mr. Walsh. Does it leave a residue?
    Dr. Knipling. Yes. I'm sure it's still there. I don't know 
the details of that. It's not regarded as harmful or 
detrimental to the environment. It's environmentally benign.
    Mr. Walsh. I've heard that before. Obviously, you know, if 
it left a residue that degraded, that's one thing. If it left a 
residue that didn't degrade, sooner or later somebody would 
find out what it does. It's not benign. But it is fascinating.
    Now, farmers, obviously when you do agriculture indoors and 
you feed plants and vegetables and so forth there are little 
bits of water with little bits of nutrients in the water. Is 
this the sort of application where you're adding this element 
to the water to irrigate? Is there also application with the 
possibility to add to do your fertilization that way and 
pesticide treatment that way?
    Dr. Knipling. Yes. That practice is actually much more 
advanced. It is often referred to as chemigation. That's a 
commercial practice, adding fertilizer nutrients to the water. 
This is clearly in it's formative stages. Although it was 
adopted on about a quarter of a million acres this past season 
or so.
    Mr. Walsh. Yes. You know, given all the work that we do and 
all of the money that we spend on soil conservation around the 
country, to have an innovation that reduces soil erosion by 94 
percent is truly remarkable. And I think you're to be 
commended. This kind of thing, if people would think about it 
for a second, and they probably wouldn't, but if they did 
they'd recognize that it would be great for New York State.
    We're spending millions of dollars to protect those water 
sheds. All of those watersheds provide drinking water for the 
different communities in the area; Rochester, Syracuse, the 
suburbs and so on. These are also tremendous tourist resorts 
for a lot of a reasons.
    The biggest problems that those lakes all have is 
turbidity. Now, there is not a whole lot you can do about that 
because that water is being administered by the Lord. And he is 
not going to put any of this stuff in it.
    Dr. Woteki. Not so far.
    Mr. Walsh. Not so far anyway. Maybe we can work a deal with 
Him. But this has real value. And I think this just shows that 
there is a little bit of magic in what you do. Whether you do 
it at your own shops, or they do it at Davis, or they do it at 
Cornell, or they do it at Texas A&M, wherever they do it, 
you're to be commended. This is remarkable research. Thank you.
    Mr. Skeen. Mr. Nethercutt.

                         environmental research

    Mr. Nethercutt. Thank you, Mr. Chairman. I really want to 
follow-up on Jim's remarks about the benefit of the research 
that's done, this polyacrylamide and other areas, certainly 
touch on environmental issues that affect all of our 
agriculture community.
    I noticed Dr. Woteki in your testimony you state that 
priority research area for the requested increase in the NRI 
will be environmentally oriented research. I read an article in 
the Smithsonian magazine. Mr. Fazio may have seen this. It was 
quite a discussion of methyl bromide as it relates to 
strawberries and the consequences of that; that problem in 
California especially.
    And I'm just wondering, number one, is there a dollar 
figure attributed to the priority that you've put on 
environmentally oriented research? And really what types of 
research can you tell the subcommittee you're engaged in? The 
third part of my compound question would be to what extent have 
you done any PM10 research or PM2.5 research that affects the 
Pacific Northwest; particulate matter concentrations?
    We're struggling with that in the air; not only the air 
quality component of it, but others as well. So, three 
questions, but I apologize. Maybe you can give me a broad range 
here.
    Dr. Woteki. Those are big ones too.
    Mr. Nethercutt. Yes.
    Dr. Woteki. The budget for the environmentally oriented 
research that we do is about $300 million. It's one of the five 
priority areas that we've identified in our strategic planning 
activities. Methyl bromide research, particularly to find a 
replacement for methyl bromide, is a high priority within ARS.
    So, I'd like to ask Dr. Knipling to address that. And I'd 
also like both he and Dr. Robinson to talk about the very broad 
portfolio of research that we have underway that's 
environmentally-orientated. I think while you were out we 
fielded some questions about integrated pest management which 
is an Administration initiative and is also a part of this 
portfolio of environmentally-oriented research. So, they should 
touch on that as well.
    Mr. Nethercutt. Forgive me if you're duplicating your 
testimony. I don't want you to do that. I can check the 
transcript.

                             methyl bromide

    Dr. Knipling. I'll comment briefly on the methyl bromide 
research and the PM-10 research in ARS. Clearly methyl bromide 
has been one of our highest priorities for the past few years. 
This committee has supported our work in this area. We have 
about $15 million nationwide directed toward that problem. And 
about half of that is in the so-called pre-harvest areas which 
is where the strawberry concern is.
    The other half is in the post-harvest. We're doing quite a 
bit of work at several locations in California; specifically on 
the strawberry. The emphasis, as I indicated before, for grapes 
is more on genetic resistance, developing biocontrols for the 
soil pests. That's an alternative to the methyl bromide and so 
forth.
    We're working very closely with the industry. And also in 
your bag there is a newsletter that's a sample of the 
communication we're using to provide our customers and the 
Congress information on the methyl bromide.
    Mr. Nethercutt. Did you see that Smithsonian article by any 
chance?
    Dr. Knipling. Yes.
    Mr. Nethercutt. It was really quite interesting I thought.
    Dr. Knipling. Yes. And there were several other articles in 
there related to ARS research as well, beyond what we're 
talking about.

                             PM-10 Research

    The PM-10 is of course the particulate matter that gets 
into the air from various sources. We're working on that in 
various locations, including Pullman, Washington; and have 
actually made some significant accomplishments in determining 
the origin of the dust.
    It's almost like DNA fingerprinting if you will; actually 
looking at some of the analysis of the dust particles. Actually 
there are some biological materials associated with the dust. 
And we can determine whether the dust is coming from 
agricultural areas, municipal areas, and so forth.
    So, that activity looks very promising. It does show that 
yes, some of this dust is originating from agriculture as 
alleged. But a very large portion of it is coming from other 
sources. So, agriculture is certainly not the only culprit.
    Similar work is being done in Manhattan, Kansas, and 
Lubbock, Texas. And I believe Dr. Robinson might discuss some 
activity that's going on in California and in other places.

                          Environmental Issues

    Dr. Robinson. Yes. There is work on PM-10 in California and 
in Washington under a Direct Federal Administration Grant. I 
might also address one of the issues that you mentioned a 
moment ago in your questions; on methyl bromide and the IPM 
programs. These were discussed briefly while you were out of 
the room.
    Within the biological control portion of the IPM program, 
which was funded at $2.7 million in 1996 and 1997; and proposed 
for an increase to $8.0 million in 1998.
    Methyl bromide issues could be addressed through other 
special research grants and the NRI which supports research at 
the Land Grant Universities. The methyl bromide issue continues 
to be a high priority in terms of trying to find an alternative 
for that as well as other pesticides that are on a list of 
problem issues as far as the environment is concerned.
    Additionally, I will address the component of your question 
that dealt broadly with environmental issues. The IPM program 
does have a large component, of that in IPM, in both the 
research program and the extension education program, that is 
dealing with the interface between agricultural production and 
other demands upon natural resources and the environment.
    With the goal of placing 75 percent of the cropland under 
IPM practices by the year 2000 you get back to two or three 
real basic issues. One is the point raised by Mr. Fazio earlier 
today: is IPM an economical practice for a farmer to adopt. I 
think that most of the studies that we have at this stage of 
the game, although incomplete but continuing, are showing that 
IPM practices that have positive economic impacts for the 
farmer.
    Just as an example, a study that was conducted two or three 
years ago showed that there was a $600 million annual savings 
in pesticide expenditures by U.S. agriculture from the use of 
IPM practices.
    When we consider that a farmer or producer may have 35 or 
38 percent of their variable costs associated with pesticides 
or chemicals of one sort or another, it becomes an alarmingly 
important issue, both for the environment and for Agriculture's 
competitiveness.

                          Fundamental Research

    Another issue that you raised, is your concern with 
fundamental research. Perhaps I could address it from the 
point-of-view of the emphasis being placed in this budget on 
the NRI.
    There is a $36 million increase requested in the budget 
because of just the points that you and others on this 
committee have made about the absolute necessity of focusing 
funds on fundamental plant and animal issues that get at the 
heart of the underlying problems that lead to the applied 
research that we ultimately need to be competitive.
    The NRI is focusing 57 percent of the overall program on 
very fundamental research. And of the remainder of the program 
which is approximately 43 percent is what we call mission 
linked research.
    Within mission linked research some of that is also basic 
research such as understanding plant and animal life systems 
and issues that lead to solutions to some of these very basic 
problems.
    One more point that I thought would be interesting to you 
and, particularly to Mr. Walsh because he talked about the 
Golden Nematode. In Long Island, is research supported by the 
NRI. Researchers at North Carolina State University discovered 
a couple of years ago that the nematode exuded an enzyme when 
it attached itself to the roots of a plant. This in effect 
triggered a genetic code inside the plant that diverted food 
from the roots of the plant to the nematode. So, with some 
genetic engineering, the scientists were able to alter that 
trigger. So, now after the nematode attaches to the plant and 
exudes the enzyme it starves to death because the plant no 
longer will divert its food sources to the nematode. Those are 
the basic fundamental life issues that this type of basic 
research is addressing.

                                 EFNEP

    Mr. Nethercutt. It's fascinating. I guess you don't know 
what you'll find either. I just have one quick and final 
question. I notice that we spend about $60 million on food and 
nutrition education.
    I know the Food and Consumer Service is responsible for a 
lot of the nutrition programs. What's the $60 million for? How 
is the data used? How does it interface with FCS?
    Dr. Woteki. There are a number of different ways in which 
we interface with the education programs of Food and Consumer 
Services. But the funds that are in our budget in support of 
nutrition education are funds that largely are within our 
extension program.
    Among the largest expenditures there are the Expanded Food 
and Nutrition Education Program. It is a program that provides 
nutrition skills and food skills to low income people. It is an 
extremely important education program; particularly given 
changes that are now occurring in the Food Stamp Program and 
other programs.
    The nutrition education that we do, as I said, is largely 
delivered through our extension partners and through a variety 
of different programs. I'd like to ask Dr. Robinson if he could 
give you a complete overview of what those programs are in 
addition to EFNEP which I mentioned.
    Dr. Robinson. I will take Dr. Woteki's points a bit farther 
and this relates to an issue Ms. DeLauro raised early on. That 
issue is, how are we ultimately going to get nutrition research 
and basic findings to people who need them? Nutrition education 
programs are the vehicles for doing that. There are a number of 
different nutrition education programs.
    The program you referred to is a very specific one in the 
extension portfolio; Our budget request includes $59 million to 
support the Expanded Food and Nutrition Education Program. This 
program is aimed primarily at people who have a limited 
understanding of nutrition, and who are struggling on limited 
budgets to achieve a better nutritional balance for themselves 
and their children.
    For example, over 51 percent of the people who are 
participants in EFNEP have monthly incomes of less than $500. 
We are addressing a very specific audience with this program. 
We are trying to help program participants overcome a lack of 
understanding of nutritional and human nutrition needs, and 
enable them to interface both Food Stamp and other food 
assistance programs, with their family budgets and nutritional 
needs.
    Mr. Nethercutt. We're not covering that in WIC, for 
example? I'm just trying to see what duplication there is in 
the system in terms of food and nutrition education.
    Dr. Robinson. WIC is limited to women, infants, and 
children. The education program that they have in WIC is a very 
limited program. In fact about three years ago there was the 
Nutrition Education Initiative, a program within cooperative 
extension, which cooperated with the Food and Consumer Service 
unit in offering food and nutrition education specifically to 
WIC recipients.
    That program was eliminated in fiscal year 1996. But the 
program that we have actually takes the very limited 
educational activities of WIC and expands them. In fact, many 
of the WIC recipients are also participants in this program 
which allows them to go well beyond the very basic WIC training 
to more detailed training on how to interface diets and budgets 
and the problems that they're facing.
    Mr. Nethercutt. Thank you.
    Dr. Woteki. Dr. Horn I think wants to add something.
    Mr. Nethercutt. I'm sorry.
    Dr. Horn. I think it's very important to note how 
complementary these two programs have become. The average 
length of time spent in nutritional counseling in WIC is about 
15 minutes. The referrals go from WIC to this EFNEP program 
when they spot a real problem.
    So, in fact they are indeed complementary. In addition to 
that, I would say that whatever success we have achieved in 
human nutrition research we hope will be superimposed on our 
food assistance programs in such a way that they become model 
nutrition programs. And EFNEP, the extension programs, and the 
education program will be an extremely important part of that.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Skeen. Thank you. One little comment. When you were 
talking about the nematode awhile ago, it's amazing to me the 
analogy between plant health and human being health. That's 
precisely the process that they're going through now on tumors, 
cancerous tumors. They're starving them to death by causing the 
blood flow to quit feeding the tumor. The same process is going 
on with the nematode, almost exactly. Mr. Fazio.
    Mr. Fazio. Thank you, Mr. Chairman. I think Mr. Nethercutt 
and I have such similar districts that we could ask the same 
questions. I'll put my PM10 research question in the record. I 
also wanted to ask you, Mr. Robinson. I was looking with the 
help of our able staff through the budget submission here.

                         DELTA TEACHERS ACADEMY

    And I discovered there were some interesting items that you 
are about to eliminate. One of them was the Delta Teachers 
Academy. I wonder what Delta are we educating those teachers in 
and for what purpose was that originally provided. I guess in 
terms of eliminating that--it seems a bit out of place in a 
budget that's designed as yours is. Maybe you could further 
enlighten us as to how this anomaly occurred.
    Dr. Robinson. Well, the Delta Teachers Academy is one of 
the programs which as I mentioned a moment ago, that when we 
reviewed to see if it had a national or regional focus. This 
one has a more localized focus. That is not to say that it 
isn't an important program because it did have some very 
important results.
    It is based in Louisiana to train or upgrade the training 
of teachers in the southern region, particularly in Mississippi 
and Louisiana, to help them offer better educational programs 
to students. In the program evaluation the recipients reported 
that they received excellent training.
    It's not to say that it isn't important, it's just that it 
wasn't one of the highest priority issues when we looked at our 
overall budget priorities.
    Mr. Fazio. Was this training in agricultural issues?
    Dr. Robinson. It was broader training for secondary 
education programs in rural areas.
    Mr. Fazio. So, in other words, it was just out of place 
here. It may well have done what it was designed to do, but it 
should have been with the Department of Education perhaps?
    Dr. Robinson. Probably there are several places that it 
could have been located. We were chosen.
    Mr. Fazio. Sometimes that happens. When you're chosen, you 
must perform.
    Dr. Robinson. That's correct.

                             Methyl Bromide

    Mr. Fazio. And I guess in this case you've decided you've 
done about enough of that. I understand the pressures you come 
under. I'm under tremendous pressure as Mr. Nethercutt would 
imply on the methyl bromide issue. I can't tell you how 
provocative this has become. You can start a fight in five 
minutes just mentioning the word.
    We have a whole agricultural economy, whether it's a pre-
planning or a post-planning economy that's depending on this. 
I've got a $500 million strawberry industry not far from where 
I am; I've got a tomato industry in my area.
    We've got the Japanese Government requiring us to fumigate 
before we export our prunes, almonds, walnuts, raisins. We have 
2001 looking at us in the face and despite efforts which I 
guess in the last three fiscal years would amount to in your 
budget about $14 million each year. Not a lot reassurance for 
people who are dependent on this product.
    Could you fill in further behind Mr. Nethercutt's question? 
How far have we come? Are we getting anywhere that's at all 
reassuring in terms of a future without methyl bromide?
    Dr. Horn. We have accepted this as clearly one of the very 
highest priorities of the department. It is probably the most 
important single chemical that's used to protect our food 
supply and make it marketable around the world. Yet it is a 
serious ozone depleter. We've signed various treaties, and 
we've passed various laws at home that make it impossible to 
continue it's use at least under current agreements, past the 
year 2001.
    We are searching everywhere for alternatives. The sense is 
that there is no single chemical alternative, no silver bullet. 
We have, in the past, been challenged to come up with other 
things. EDB was a good example. In fact, we were successful 
with EDB because we had methyl bromide. It is not so this time.
    It would appear from all of our interactions with the 
industry and the international community that we have a real 
challenge in front of us. On the other hand, there are some 
promising alternatives. We are not certain at this point 
whether it's going to be economically useful.
    We have probably a dozen technologies, solarization, etc. 
There are some alternative chemicals, mulching and other things 
that seem promising and we're about to get in to the business 
of doing the economic analysis. We've also upscaled these 
technologies from the laboratory so to speak to the commercial 
operation and have gone into partnership, both in Florida and 
in California, with a number of producers to make sure that 
they can make use of the technology in the way they do business 
and to make the appropriate adjustments to see that it's 
properly evaluated.
    They are advising us regularly I mean very regularly, as to 
how well we are doing and what we should be concentrating on. 
So, this is job one in many ways. We are very well aware of not 
only how important it is, but the disadvantage it will put the 
United States under if we stop using it ten years before some 
of the developing countries of the world.
    Mr. Fazio. Well, you've just touched on what I hope is 
something we can remedy not only in our international 
discussions but also with a pretty narrow and clinical 
amendment in the Clean Air Act that I think will be absolutely 
required if we're going to give our growers the chance to live 
under the same laws that their competition is going to be 
allowed to live under by treaty.
    But in the interim, I guess we will continue to make every 
effort to find the solution to this. But at the moment it 
doesn't sound as if we have any particularly good alternative.
    Dr. Horn. There are some that are not particularly good 
compared to methyl bromide, but they're a lot better than any 
we knew about a few years ago. The newsletter that you have in 
the bag there, the previous issues of it, are used to 
communicate with the industry and anyone else interested.
    I can tell you we are also working with our partners 
internationally. For instance, the Israelis both use and 
produce this stuff. And we have been able to bring some extra 
funds to bear through a U.S.-Israel Science and Technology 
Commission that will be applied to finding alternatives to 
methyl bromide.
    So, we're doing everything to get an adequate research 
program up and running that will do some good in the short time 
that's allowed.
    Mr. Fazio. Are you getting any support financially from the 
private sector?
    Dr. Horn. There has been support from the outset from such 
groups as the California Strawberry Commission. And they have 
funded their own research. The same is true of the vegetable 
growers in Florida. So, the answer to that is yes.
    Mr. Fazio. But it's been from the growers, not those who 
produce methyl bromide.
    Dr. Horn. That's right. I know of none.
    Mr. Fazio. That's not an unusual pattern I've noted in this 
regard. The growers are the ones on the line who have far fewer 
resources than people who often are the purveyors of these 
products. I'd like to figure out how we can get more 
cooperative research going with people who perhaps have even 
more profit on the line.
    Dr. Horn. So would we.
    Mr. Fazio. If you've got any great ideas, supply it for the 
record. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Walsh?
    Mr. Walsh. I have no questions at this time, Mr. Chairman.
    Mr. Skeen. Mr. Nethercutt?
    Mr. Nethercutt. No further questions, Mr. Chairman.
    Mr. Skeen. Mr. Fazio?
    Mr. Fazio. No, sir.
    Mr. Skeen. Mr. Serrano said he'd be back, so he'd better 
hurry. I want to say one thing. The research has been 
absolutely the main spring of our success in agriculture. There 
is no two ways about this. Our problem is how do you get people 
into agriculture? That's been the short part. I don't know what 
kind of research we could do because the investment on a start-
up on an agricultural enterprise is enormous if it's going to 
support a family of four. I don't think that any research group 
could sit around and say, well, what are we going to do to keep 
people in the farming and agriculture business?.
    On a per unit basis we're probably the best producers as an 
agricultural unit anywhere in the world. I used to say that we 
have the ability to feed the entire world. One of the 
economists said, don't ever say that. It comes close to being 
pretty near true.
    There are a few other places in the entire world where you 
have a small population involved in agriculture that are 
producing as much as we produce. One of the countries that 
comes to mind is Australia, New Zealand, areas like that. We're 
fighting each other over the wheat exports. They don't want us 
in Indonesia. We don't want them in the corn business.
    I think what we're really talking about here is the very 
heartbeat of our agricultural system. I appreciate the work 
that you folks do and how well you do it. The responses that 
we've had from year-from-year, and of course we play politics 
with the budget. It's a part of the political process. There is 
no question about it. We still have to come to some consensus 
on what produces the most for us. We appreciate the work that 
you do and the time that you give us. With that, I think we 
will just adjourn. May we also submit questions to be answered 
in writing?
    Dr. Woteki. We're certainly expecting some, Mr. Skeen.
    Mr. Skeen. You're always looking ahead; aren't you?
    Dr. Woteki. Yes. It's a characteristic of a researcher.
    Mr. Skeen. This is a trained response.
    Dr. Woteki. We'd be happy to answer any questions you might 
have.
    Mr. Skeen. Thank you all. Thank you all very much. We're 
adjourned.
    [The following questions were submitted to be answered for 
the record:]

                     Agricultural Research Service

                                  bard
    Mr. Skeen. The U.S.-Israeli Binational Agricultural Research and 
Development Program was established in 1977. The original endowment was 
for $80 million. What is currently in the endowment?
    Response. The amount currently in the endowment is $110 million.
    Mr. Skeen. What has been provided to date for the BARD program?
    Response. The original $80 million endowment was established in 
1977. In 1984 Congress provided an additional $15 million which was 
matched by the Israeli Government. Currently the total endowment is 
valued at $110 million U.S. Dollars.
    Mr. Skeen. For the record, what were the original conditions for 
funding this program?
    Response. The original conditions for funding this program required 
that both the U.S. and Israel contribute $40 million each to an 
endowment for the promotion and support of agricultural research and 
the development of research of mutual interest and benefit particularly 
for geographical areas in which water supply and rain fall limit crop 
production.
    Mr. Skeen. What is the current interest rate at which the corpus is 
accumulating funds?
    Response. The current interest at which the body is accumulating 
funds includes the original investment of $80 million at 7 percent, and 
the additional $30 million invested at the London Interbank Offer Rate 
of 6.9 percent.
    Mr. Skeen. Has Israel matched all U.S. funding in this account?
    Response. Yes, Israel has matched all U.S. funding in this account.
    Mr. Skeen. What is the total amount of Israeli funding to date?
    Response. The total amount of Israeli funding to date is $55 
million contributed to the endowment plus $7.5 million ($2.5 million 
each year) to fund research grants in 1994 through 1996. It is 
anticipated that the same level of funding will be provided in FY 1997.
    Mr. Skeen. For the record please provide some specifics of what has 
been accomplished so far in this research project.
    Response. Some of the recent accomplishments include:
    Integrated Pest Management.--Increased resistance to pesticides and 
pressing environmental and food safety concerns have led to intense 
interest in biological pest control in both the U.S. and in Israel. 
Harvested fruits have high-market value, however, losses due to disease 
and damage are considerable. BARD supported collaboration between 
scientists from the U.S. and Israel have found natural bacterial and 
yeast antagonists of citrus green mold, blue mold and sour rot fungi. 
The emerging technology from these joint projects has been co-patented.
    Improved Water Utilization for Agriculture.--In addition to being 
available in limited supply, water resources in arid areas often are 
saline. About two-thirds of the U.S. groundwater supply contains 1,000-
3,000 ppm salt. Israel is a pioneer in the profitable agricultural use 
of brackish water. U.S.-Israeli joint BARD projects have resulted in 
special irrigation schedules, developed from a series of computerized 
models, which have helped to save pecan orchards in the American 
Southwest. The technology is also advantageous for Israel, where 
agriculture consumes 70% of the water resources.
    Identification of Genetic Markers.--Genetic markers are useful and 
important in poultry and beef breeding. BARD projects have already 
provided the central foundation for development of genetic maps of the 
poultry genome. Current BARD projects are developing genetic markers 
for important properties such as growth, and production in both beef 
and poultry.
                           ars budget request
    Mr. Skeen. For the record, would you provide a list of every 
proposed research project termination shown in the budget 
justification, showing what the fiscal years 1996 and 1997 spending 
levels are, and list where the research is currently being conducted.
    [The information follows:]

[Pages 33 - 38--The official Committee record contains additional material here.]


    Mr. Skeen. Your budget shows over $30 million in budget increases. 
Please provide a list of each specific research increase and show the 
amount and location of the research activity. Please be specific, for 
example the request for soil, water and air sciences is $3,996,000--
please show us where each dollar would be spent.
    [The information follows:]

[Pages 40 - 44--The official Committee record contains additional material here.]


    Mr. Skeen. The fiscal year 1997 budget request included $7.9 
million in ``administrative savings.'' The Congress agreed to those 
reductions. Again this year you proposed to save $3.5 million in 
administrative and program management support. For the record, please 
provide a list showing those decreases by research area.
    [The information follows:]
                                                               Amount of
Research area:                                                  decrease
    Soil Water and Air Sciences...............................  $406,000
    Plant Sciences............................................ 1,449,000
    Animal Sciences...........................................   650,000
    Commodity Conversion and Delivery.........................   696,000
    Human Nutrition...........................................   121,000
    Integration of Agricultural Systems.......................    88,000
    Information and Library Services..........................    90,000
          consultant/extramural activities to be discontinued
    Mr. Skeen. Please provide for the record a list of all consultants 
and extramural activities that you would discontinue in fiscal year 
1998.
    Response. A list of all extramural activities that will be 
discontinued in fiscal year 1998 will be provided for the record. ARS 
has not hired consultants under 5 U.S.C. 3109 since 1993.

[Pages 46 - 52--The official Committee record contains additional material here.]


                           object class table
    Mr. Skeen. A review of your budget justification shows a 
significant change to Object Class 25.2, Other Services. Please provide 
a breakout of the Other Services object class.
    [The information follows:]

                           25.2 OTHER SERVICES                          
                              [Fiscal year]                             
------------------------------------------------------------------------
                                               1997            1998     
------------------------------------------------------------------------
Purchases and contracts.................      $6,075,900      $5,569,800
Training/tuition fees, etc..............         992,600         909,600
Fees....................................         213,500         196,000
Participation fees......................          64,100          58,700
Construction contracts..................          82,800          75,900
ARCH & engineering contracts............       2,338,700       2,143,500
Insurance claims and indemnities........          86,400          79,500
                                         -------------------------------
      Subtotal..........................       9,854,000       9,033,000
Buildings and facilities................      30,500,000      33,000,000
                                         -------------------------------
      Total.............................      40,354,000      42,033,000
------------------------------------------------------------------------

                         cooperative agreements
    Mr. Skeen. Please provide a list of specific cooperative agreements 
with state institutions for fiscal year 1996 and 1997.
    [The information is provided:]

[Pages 54 - 58--The official Committee record contains additional material here.]


                       plant science base budget
    Mr. Skeen. The Committee has always supported integrated pest 
management research. The budget targets that area for significant 
increases. Your goal is to have IPM practices on 75 percent of all crop 
acres by the year 2000. Can you tell how many acres currently are being 
farmed using IMP practices and the source of your information?
    Response. Integrated pest management strategies have been applied 
in agriculture for over 30 years. Upon the commencement of USDA's 
integrated pest management initiative in 1994, the Department estimated 
that American farmers have adopted IPM methods for pest management on 
nearly half of all fruit and nut, vegetable, and major field crop 
acreage. Total cropland used for cross in the United States is 
estimated at 332 million acres. The level of use of IPM practices 
depends on the crop, the region and the pest problem. The National 
Agricultural Statistical Service is currently conducting national 
surveys of major field crops, and selected fruits and vegetables to 
ascertain levels of IPM adoption and chemical use. The challenge for 
USDA as the initiative continues is to further increase the knowledge 
of IPM, improve delivery of technical expertise and increase adoption 
of IPM practices.
                    preharvest food safety research
    Mr. Skeen. Last year the Committee directed The Food Safety and 
Inspection Agency to coordinate its research with ARS and expected FSIS 
to in-general get out of the research business and let the research 
agencies (ARS & CREES) handle any needs. Has that happened?
    Response. The ARS has continued to work with the Food Safety 
Inspection Service to use Agency resources to the best advantage to 
meet the research needs of the Food Safety Inspection Service. 
Coordination is carried out through the ARS/FSIS Food Safety Research 
Workshop, regular discussions between the liaisons from each agency, 
and scientific discussions between the scientists of each agency 
concerned. However, the FSIS is (1) soliciting for information 
regarding new technologies that will assist them with verification of 
hazard reduction, particularly, pathogenic hazards, from farm to table; 
and (2) soliciting for proposals for a series of pilot demonstration 
projects which may assist food animal producers, the slaughter and 
processing industry, and their Agency in meeting food safety challenges 
in a preventive HACCP framework.
    Mr. Skeen. What is the total amount spent for preharvest food 
safety in fiscal year 1997?
    Response. ARS will spend $11,371,900 for preharvest food safety 
research in fiscal year 1997.
    Mr. Skeen. How much is programmed in fiscal year 1997 and where is 
this research being conducted?
    Response. ARS has programmed $11,371,900 for preharvest food safety 
research in fiscal year 1997. This research is being conducted at 
Fayetteville, Arkansas; Athens, Georgia; Ames, Iowa; Beltsville, 
Maryland; Clay Center, Nebraska; and college Station, Texas.
                postharvest pathogen reduction research
    Mr. Skeen. What does ARS currently spend on postharvest research? 
Please provide a table showing how much and where funds were used in 
fiscal years 1996 and 1997 and where they would be used in fiscal year 
1998.
    Response. ARS currently spends $13,580,200 on postharvest pathogen 
reduction research. The dollars and locations where funds were used in 
fiscal years 1996 and 1997 and where they would be used in fiscal year 
1998 will be provided for the record.
    [The information follows:]

------------------------------------------------------------------------
                                           Fiscal years; funds--        
             Location             --------------------------------------
                                       1996         1997         1998   
------------------------------------------------------------------------
Albany, CA.......................   $1,424,900   $2,569,800   $2,869,800
Athens, GA.......................    1,464,700    2,194,700    2,465,600
Ames, IA.........................  ...........      334,600      334,600
Beltsville, MD...................      725,500      719,000    1,019,000
Clay Center, NE..................      756,300      748,600      748,600
Wyndmoor, PA.....................    4,682,400    6,464,300    7,464,300
College Station, TX..............      554,800      549,200      549,200
Pullman, WA......................  ...........  ...........      300,000
                                  --------------------------------------
      Total......................    9,608,600   13,580,200   15,751,100
------------------------------------------------------------------------

                        human nutrition research
    Mr. Skeen. The fiscal year 1998 budget proposes a significant 
increase for human nutrition research of $12 million. How much does the 
Department of Health and Human Services spend on human nutrition 
research?
    Response. In FY 1995, NIH funds for nutrition research and training 
were $428,687,000; about 95 percent of the funds spent by the 
Department of Health and Human Services for human nutrition research is 
done by NIH. Of Federal funds spent on human nutrition research and 
training, about 80 percent is through NIH; about 14 percent is through 
USDA, which is the designated lead agency of the Federal government for 
human nutrition research. Much of human nutrition research in NIH is 
directed towards studying the biochemistry and molecular biology of 
nutrients, the use of nutrients to treat disease and nutritional needs 
during illness. USDA has the primary responsibility for developing 
fundamental information on nutrient requirements of healthy people, 
which is used to set Dietary Guidelines for Americans and is the basis 
for Federal food assistance programs. Thus, the USDA/ARS Human 
Nutrition Research Centers are performing research resulting in 
knowledge that will greatly solidify the relationship between nutrition 
research and production agriculture, assure the availability of a 
nutritious food supply, expand the development of sound dietary 
recommendations, result in the establishment of more effective food 
assistance programs, reduce health care costs, and improve quality of 
life. To accomplish the preceding will require consultation and 
coordination with many others in the Federal government including the 
National Institutes of Health. Research objectives of the USDA/ARS 
Human Nutrition Research Centers include: (1) Reduce health care costs 
and enhance the quality of life by defining the relationship between 
diet, inheritance, and lifestyle and the risk for chronic disease such 
as obesity, diabetes, ischemic heart disease, and cancer. (2) Improve 
the resistance to acute infections and immune disorders by 
investigating the interaction between nutrition and immune function. 
(3) Enhance the capacity to promote changes in dietary habits by basic 
research on neural processes, memory and learning, appetite regulation, 
and physiological factors influencing food habits. (4) Improve the 
scientific basis for more effective federal food assistance programs by 
better defining nutrient requirements and monitoring food and nutrient 
consumption and identifying socio-economic, cultural, and environmental 
forces that influence eating habits. (5) Extend dietary guidance to 
nutritionally-vulnerable groups within the U.S. by determining how food 
consumption at critical points in the life cycle affects normal 
development and risk of disease. (6) Generate a more nutritious food 
supply by conducting research that defines the basis for modifying the 
health promoting properties of plant and animal foods, and make 
beneficial changes in the composition of foods by using biotechnology, 
genetics, and new food processing technologies.
    Mr. Skeen. For the record, please provide a table showing each 
location for ARS funding of human nutrition research and how much 
funding is allotted for fiscal year 1996, 1997, and 1998.
    Response. The funding for the ARS Human Nutrition Research Centers 
and other related programs for fiscal years 1996, 1997, and 1998 will 
be provided for the record.
    [The information follows:]

------------------------------------------------------------------------
                                             Fiscal years--             
            Center             -----------------------------------------
                                    1996          1997          1998    
------------------------------------------------------------------------
Beltsville Human Nutrition                                              
 Research Center, Beltsville,                                           
 MD...........................  $18,689,200   $18,499,900   $19,499,900 
Grant Forks Human Nutrition                                             
 Research Center, Grant Forks,                                          
 ND...........................    8,081,600     7,999,700     8,999,700 
Human Nutrition Research                                                
 Center on Aging at Tufts                                               
 University, Boston, MA.......   14,864,200    14,747,900    15,747,900 
    (Includes Geriatric                                                 
     Nutrition Research,                                                
     Danville, PA)............     (200,000)     (188,000)     (188,000)
Children's Nutrition Research                                           
 Center at Baylor College of                                            
 Medicine, Houston, TX........   10,841,400    10,756,600    11,756,600 
Western Human Nutrition,                                                
 Research Center, San                                                   
 Francisco, CA................    5,372,000     5,317,600     6,317,600 
Arkasas Children's Nutrition                                            
 Research Center, Little Rock,                                          
 AR...........................    1,393,000     1,878,800     2,878,800 
Lower Mississippi Delta                                                 
 Nutrition Intervention                                                 
 Research Initiative (LA, AR,                                           
 MS)..........................    2,436,400     3,166,900     3,166,900 
National Agricultural Library,                                          
 Beltsville, MD...............      800,000       693,400       693,400 
Headquarters (Food Intake                                               
 Survey)......................  ............  ............    6,000,000 
Other Locations...............    1,545,600     1,075,600     1,089,600 
                               -----------------------------------------
      Total...................   64,023,400    64,136,400    76,150,400 
------------------------------------------------------------------------

    Mr. Skeen. What would be necessary to fully fund and staff each 
human nutrition research facility?
    Response. Fully funding and staffing of the USDA/ARS Human 
Nutrition Research Centers is needed to accomplish the following 
objectives: (1) Reduce health care costs and enhance the quality of 
life by defining the relationship between diet, inheritance, and 
lifestyle and the risk for chronic disease such as obesity, diabetes, 
ischemic heart disease, and cancer. (2) Improve the resistance to acute 
infections and immune disorders by investigating the interaction 
between nutrition and immune function. (3) Enhance the capacity to 
promote changes in dietary habits by basic research on neural 
processes, memory and learning, appetite regulation, and physiological 
factors influencing food habits. (4) Improve the scientific basis for 
more effective federal food assistance programs by better defining 
nutrient requirements and monitoring food and nutrient consumption and 
identifying socio-economic, cultural, and environmental forces that 
influence eating habits. (5) Extend dietary guidance to nutritionally-
vulnerable groups within the U.S. by determining how food consumption 
at critical points in the life cycle affects normal development and 
risk of disease. (6) Generate a more nutrition food supply by 
conducting research that defines the basis for modifying the health 
promoting properties of plant and animal foods, and make beneficial 
changes in the composition of foods by using biotechnology, genetics, 
and new food processing technologies.
    The funding required for the ARS Human Nutrition Research Centers, 
if each was fully funded and staffed, is provided for the record.
    Beltsville Human Nutrition Research Center, Beltsville, Maryland--
The total funding to operate the Center at a full capacity of 50 
scientists (43 Sys currently on board) is $32.5 million, requiring an 
increase of $14 million from current base funding.
    Reaching full staffing will maximize the capability of the Center 
to define the role of food and its components in optimizing health and 
reducing the risk of nutritionally related disorders in the diverse 
American population. This includes: an expanded and greatly needed 
continuation of National Nutrition Monitoring ($7 million); development 
of analytical methods to measure biologically important substances 
(phytochemicals) in foods of plant origin ($2 million); studies of the 
relationship between nutritional status and viral pathogenesis ($2 
million); mathematical modeling of diet/health relationships ($1.5 
million); and nutrient regulation of gene expression ($1.5 million). 
Approximately $10.5 million of this expanded research will be 
accomplished through cooperative agreements and contracts.
    Grant Forks Human Nutrition Research Center, Grand Folks, North 
Dakota--The total funding to operate the Center at a full capacity of 
26 scientists (12.2 Sys currently on board) is $12.9 million, requiring 
an increase of $4.9 million from current base funding.
    Reaching full staffing will maximize the capability of the Center 
to serve the public by determining nutrients needs for humans and to 
provide information concerning healthy food choices and a healthful 
food supply with an emphasis on mineral requirements that prevent 
disease and promote health and optimal function throughout life. This 
includes: determination of the importance of mineral elements at the 
molecular level with an emphasis on chronic disease ($1.0 million); 
identification of detrimental functional changes, especially in bone, 
brain, cardiovascular, and reproductive systems that occur in the U.S. 
population because of improper mineral element nutriture ($2.4 
million); identification and validation of biochemical and 
physiological status assessment indicators that can be used in the 
study of populations that are likely to suffer from inadequate mineral 
element nutriture ($1.0 million); and the definition of the impact of 
environmental, dietary, physiological, and psychological stressors on 
mineral element requirements ($0.5 million).
    Jean Mayer USDA Human Nutrition Research Center on Aging at Tufts 
University, Boston, Massachusetts.--The total funding to operate the 
Center at full capacity of 60 ARS (2.9 Sys currently on board) and 
contract scientists at this Government Owned Contractor Operated 
facility is $20.8 million, requiring an increase of $6.0 million from 
current base funding.
    Reaching full staffing will maximize the capability of the Center 
to develop information about safe and adequate nutrient intakes and 
identification of factors that may contribute to degenerative processes 
associated with aging. This includes: determination of age-related loss 
of cognitive function and dementias in the elderly with special 
attention to nutritional factors that may prevent vascular forms of 
dementia, including dietary oxidants and B vitamins in foods ($1.0 
million); expansion of the capacity to conduct metabolic and applied 
nutritional studies in elderly humans with the focus on nutritional 
requirements for healthy aging and prevention of disease ($2.5 
million); definition of basic mechanisms that connect aging and loss of 
muscle strength and function, and nutritional influences on this 
process ($1.5 million); development of assessment tools by using 
molecular, genetic, body composition and functional biochemistry 
methods that can be applied to the measurement of nutritionally-related 
disease risk in the elderly ($1.0 million). Most of the expanded 
research will be accomplished through cooperative agreements.
    Children's Nutrition Research Center at Baylor College of Medicine, 
Houston, Texas.--The total funding to operate the Center at full 
capacity of 50 ARS (3 Sys currently on board) and contract scientists 
at this facility operated under a General Cooperative Agreement is 
$19.8 million, requiring an increase of $9.0 million from current base 
funding.
    Reaching full staffing will maximize the capability of the Center 
to define the nutritional needs of pregnant and lactating women and of 
their infants and children from conception through adolescence. This 
includes: determination of which genes are regulated directly by 
dietary nutrients and, conversely, which genes alter the way 
individuals are able to deal with common patterns of dietary nutrient 
intake leading to adverse health consequences ($2.0 million); 
determination of which nutrients consumed at the time of conception, 
during the earliest stage of embryo formation, and during fetal life 
alter the normal course of human development and, therefore, produce 
permanent consequences for the child after birth ($2.0 million); 
determination of the biochemical, physiological, and neurophysiological 
regulators of energy intake, energy expenditure, appetite, and satiety, 
and which genes control these processes leading to the development of 
obesity in childhood and adolescence ($2.5 million); identification of 
the nutritional, biochemical, and hormonal regulators of skeletal 
mineralization during infancy, childhood, and adolescence, and how 
these relate to the subsequent development of osteoporosis in later 
life ($1.0 million); and identification of the specific, unique 
components of mother's milk that affect the developmental and 
maturational function of various organ systems in the infant, and the 
specific nutritional factors necessary for optimal health and post-
natal development of the prematurely born infant of very low birth 
weight ($1.5 million). Approximately $4.5 million of this expanded 
research will be accomplished through cooperative agreements.
    Western Human Nutrition Research Center, San Francisco, 
California.--The total funding to operate the Center at full capacity 
of 30 scientists (12 Sys currently on board) is $11.8 million, 
requiring an increase of $6.5 million from current base funding.
    Reaching full staffing will maximize the capability of the Center 
to improve human health and performance by determining the impacts of 
dietary, environmental, behavioral, and genetic factors on nutrient 
requirements and functions. This includes: determination of factors 
that affect the maintenance of healthy body weight, and of biomarkers 
of risk of obesity ($1.0 million); determination of the influence of 
nutrition on infection and immune disorders ($1.5 million); use of 
stable isotopes and mathematical modeling of nutrient metabolism to 
integrate levels of nutrient requirements for different functions ($1.0 
million); and identification of protective factors of health in foods 
(e.g., phytoestroegens, phytonutrients, etc.) and determination of 
their mechanism of action ($3.3 million).
    Arkansas Children's Nutrition Research Center, Little Rock, 
Arkansas.--The total funding to operate the Center at full capacity is 
$14.5 million requiring an increase of $12.6 million from current base 
funding.
    Reaching full staffing will maximize the capability of the Center 
to determine the role of nutrition in cognitive and behavioral 
function, and the health consequences of infant consumption of dietary 
factors (phytochemicals) such as phytoestrogens on endocrine and 
metabolic development and prevention of chronic diseases. This 
includes: determination of nutritive factors affecting cognitive and 
brain function ($2.5 million); identification of phytoestrogens and 
determination of how they affect important body functions such as 
reproduction and prevention of chronic disease ($2.9 million); 
determination of the impact of nutrition on reducing infections and/or 
adverse immune responses, and the factors influencing the development 
of adverse immunologic reactions to foods ($1.8 million); determination 
of the relationship between childhood dietary intake and prevention of 
adulthood chronic diseases (e.g., cancer) ($3.5 million); and 
determination of dietary intake and neuronal processes underlying 
appetite regulation and physiological factors influencing childhood 
eating disorders so as to promote good diet habits leading to better 
health ($1.9 million). Most of this expanded research will be 
accomplished through cooperative agreements.
    The overall outcome of these news areas of research along with 
current areas of research within USDA/ARS Human Nutrition Research 
Centers is that the knowledge obtained will greatly solidify the 
relationship between nutrition research and production agriculture, 
assure the availability of a nutritious food supply, expand the 
development of sound dietary recommendations, result in the 
establishment of more effective food assistance programs, reduce health 
care costs, and improve quality of life. To accomplish the preceding 
will require consultation and coordination with many others in the 
Federal government including ARS scientists in agricultural production 
and post-harvest research, and personnel in agencies such as Center for 
Nutrition Policy and Promotion, Food and Consumer Services, Cooperative 
State Research, Education and Extension Service, and the National 
Institutes of Health.
    Mr. Skeen. Of the six centers mentioned three are owned and 
operated by ARS. One is government-owned and contractor-operated by 
Tufts University and one is operated under a cooperative agreement with 
Baylor University. How is the ARS facility operated at the Arkansas 
Children's Hospital? How is the research is at this facility related to 
ARS mission?
    Response. The Arkansas Children's Nutrition Research Center is 
operated under two cooperative agreements with ARS; it also receives a 
special grant from CSREES. All Human Nutrition Research Centers have 
primary responsibility for developing fundamental information on human 
nutrient requirements that provide the basis for dietary guidelines for 
Americans of all ages, and for federal food assistance programs. They 
also are charged to conduct research that will show the importance of 
diet in promoting health and preventing disease. The Arkansas 
Children's Nutrition Research Center conducts research that will give 
fundamental information on the nutrient requirements to maintain good 
cognitive and behavior functions in children. The Center also is 
investigating the health consequences of infant consumption of hormone-
like compounds found in vegetables, grains and fruits (phytochemicals) 
on their development and the prevention of chronic diseases.
    Mr. Skeen. Please describe for the record the type of research 
carried out at each of the Centers and some of the recent 
accomplishments of each center.
    Response. The type of research carried out at each of the six ARS 
Human Nutrition Research Centers and in related human nutrition 
research programs, and their recent accomplishments will be provided 
for the record.
    Beltsville Human Nutrition Research Center, Beltsville, Maryland, 
develops new methods of food analysis; studies the role of nutrients 
and their interactions in maintaining health; conducts nutrition 
monitoring and maintains the database of the nutrient content of foods; 
studies the expenditure of energy by using direct and indirect 
calorimetry; and conducts studies investigating the consequences of 
altered nutrient intakes in free-living humans.
    Jean Mayer USDA Human Nutrition Research Center on Aging at Tufts 
University, Boston, Massachusetts, determines factors related to 
prevention of age-related loss of bone density leading to osteoporosis 
and fracture, and the preservation of muscle strength; identifies 
dietary factors critical in slowing or preventing cataract development; 
studies the relation of antioxidant food components to heart disease 
and immune function; and explores relationships between vitamins and 
brain function, stroke and dementia.
    Grand Forks Human Nutrition Research Center, Grand Forks, North 
Dakota, determines the importance of mineral elements at the molecular 
level with an emphasis on chronic disease; identifies detrimental 
functional changes, especially in bone, brain, cardiovascular and 
reproductive systems that occur in the U.S. population because of 
improper mineral element nutriture; identifies and validates 
biochemical and physiological status assessment indicators that can be 
used in the study of populations that are likely to suffer from 
inadequate mineral element nutrition; and defines the impact of 
environmental, dietary, physiological and psychological stressors on 
mineral element requirements.
    Children's Nutrition Research Center, Baylor College of Medicine, 
Houston, Texas, establishes nutrient requirements to prevent low birth 
weight babies, particularly in pregnant adolescents; studies nutrient-
gene interactions that regulate metabolism and disposition of 
nutrients; determines nutrient requirements for growth and development 
of school-aged and adolescent children; and establishes nutritional 
connections to acute and chronic childhood diseases.
    Western Human Nutrition Research Center, San Francisco, California, 
determines the impacts of dietary, environmental, behavioral, and 
genetic factors on nutrient requirements and functions with emphasis on 
maintenance of healthy body weight, infection and immune disorders, and 
protective factors in food; and designs and tests strategies for 
nutrition interventions for use in national action programs.
    Arkansas Children Nutrition Research Center, Little Rock, Arkansas, 
determines nutrient requirements for the maintenance of cognitive and 
behavior functions in children; and determines the healthy consequences 
of infant consumption of phytochemicals (hormone-like compounds found 
in vegetables, grains and fruits) on their development and the 
prevention of chronic diseases.
    Related Research Programs.--Research on nutritional qualities of 
plants and animals is conducted at the ARS regional research laboratory 
in Peoria, Illinois, and the Plant, Soil and Nutrition Laboratory at 
Ithaca, New York.
    Some recent accomplishments include:
    Girls' calcium intake is crucial during early puberty.--Until now, 
scientists have not be been able to identify the best time for growing 
girls to get enough calcium from their diets in order to prevent 
osteoporosis, also called brittle-bone disease, later in life. At the 
USDA/ARS Children's Nutrition Research Center in Houston, Texas, 
researchers studied girls age 11 to 17 years in order to determine how 
their bodies absorbed calcium and used it for bone growth at different 
age periods. After taking measurements involving harmless calcium 
isotopes given by mouth and vein, the researchers found that the girls 
best retained calcium during the early part of their pubertal 
development, prior to their first menstrual period. This study has 
broad significance for lifelong nutrition and health of females by 
identifying the optimal window of time for making sure that girls get 
enough dietary calcium to guard against bone problems later in life.
    New function for vitamin K.--Fifty percent of the American 
population consumes less than the recommended dietary allowance, or 
RDA, for vitamin K. Over the past decade it has become increasingly 
clear that vitamin K plays a role in the development and maintenance of 
healthy bone and cartilage as well as its essential function in blood 
coagulation. The observation that half of all Americans consume less 
than the RDA for vitamin K (16 billionths of an ounce) was made by the 
USDA/ARS Human Nutrition Research Center on Aging at Tufts University 
in Boston, Massachusetts. These results were obtained by using a newly 
developed table of vitamin K composition of various foods and 
beverages, and a food consumption model in collaboration with the FDA 
Total Diet Study.
    Reduced consumption of vitamin K may be related to the risk of bone 
fractures and the development of osteoporosis in the elderly because of 
the role of vitamin K in the skeletal system. Increased vitamin K 
consumption may prevent these problems.
    Dietary copper deficiency impairs blood clotting and clot 
dissolution.--Some critically ill people in the U.S. die because of 
excessive internal bleeding and accumulation of blood clots. It is 
somewhat paradoxical that while bleeding time is increased in copper 
deficiency, deficient rats and mice often die with large undissolved 
clots. Scientists at the USDA/ARS Grand Forks Human Nutrition Research 
Center in Grand Forks, North Dakota, and Federally funded scientists at 
the University of Louisville, Louisville, Kentucky, have examined blood 
clotting factors, clot breakdown, and the clumping of platelets (blood 
cells that initiate clotting). Clot dissolution was impaired, bleeding 
time was increased, adhesion of platelets to platelets was increased, 
and adhesion of platelets to blood vessel walls was decreased, because 
of specific changes in protein chemistry. These findings help explain 
why copper deficiency causes both increased bleeding and increased 
presence of clots. The findings should further encourage the general 
public to make an effort to consume a diet adequate in copper, 
especially because the U.S. diet often is low in copper in comparison 
to standards set by the National Academy of Sciences.
    Rice cereal added to formula increases calcium and iron intake.--
Parents often add cereal to the formula fed to infants, but there has 
been no information on how this practice affects calcium and iron 
absorption. Researchers at the USDA/ARS Children's Nutrition Research 
Center at Baylor College of Medicine in Houston, Texas, used specially 
marked, harmless calcium and iron tracers to compare the absorption of 
these minerals when infants were fed formula alone to when they were 
fed rice cereal mixed with formula. The results indicated that adding 
rice cereal to formula not only did not interfere with the absorption 
of minerals by the infants, but provided more calcium and iron than 
formula alone.
    Early predictor of risk of osteoporosis. Individual genetic markers 
predict low bone mass in young black and white women, and may be useful 
as an early predictor of osteoporosis risk. Osteoporosis is caused 
primarily by demineralized bones that break easily with minimal trauma 
resulting in a quarter of million older Americans breaking there hips 
each year, which adds 8 billion dollars to the health bill of the U.S. 
and puts one-half of these people into long term nursing home care. The 
development of an early warning system to detect those individuals with 
increased propensity to develop low bone mass would be a significant 
step forward in preventing this chronic disease and protecting the 
health of older Americans. Scientists at the Human Nutrition Research 
Center on Aging at Tufts University in Boston, Massachusetts, have 
found that young women (both black and white) with a particular genetic 
variation of a gene (vitamin D receptor) that is involved in regulating 
how the body handles calcium are more prone to have low bone mineral 
density, and thus could be at greater risk of developing osteoporosis 
as they age. Future developments in our understanding of how genetic 
markers affect osteoporosis risk could lead to insights into how we can 
identify susceptible individuals, and the development of new treatment 
strategies to prevent the personal and financial strains associated 
with this disease.
    A dietary omega-3 fatty acid (docosahexanoic acid) reduces elevated 
triglyceride levels in human blood.--Hypertriglyceridemia is a 
condition afflicting millions of Americans in which the blood fats, 
known as triglycerides, are elevated to levels that many researchers 
believe puts one at risk for cardiovascular and other diseases. Fish 
oil, a mixture of several omega-3 fatty acids, especially 
eicosapentaenoic acid, substance not found in most other foods or human 
tissues, will reduce triglyceride levels. Scientists at the Western 
Human Nutrition Research Center in San Francisco, California, have 
shown that docosahexanoic acid will also reduce triglyceride levels 
when supplemented in the diet. This fatty acid, unlike eicosapentaenoic 
acid, is in all meats and other animal products as well as fish oil, 
and is a normal component of human tissues. Thus, people with 
hypertriglyceridemia could acquire this fatty acid by consuming food 
containing this compound rather than fish oil or eicosapentaenoic acid.
    Dieting to lose weight can result in borderline anemia and lower 
cognitive performance in women.--According to a recent report by the 
Center for Disease Control, 40 percent of women and 25 percent of men 
in the United States are trying to lose weight at any one time. Most 
utilize some form of dieting to achieve their weight loss. In a weight 
loss study conducted at the USDA/ARS Western Human Nutrition Research 
Center in San Francisco, California, scientists found that about half 
of the women developed borderline anemia and also displayed poor 
cognitive performance on a sustained attention test. These findings 
highlight the need for awareness by nutritionists and physicians of the 
functional consequences of dieting when formulating diet and exercise 
regimes for weight loss. Failure to do so could account for significant 
losses in productivity of dieting Americans.
    Consumption of one to two alcoholic drinks per day reduces blood 
levels of some B vitamins.--Heavy alcohol consumption, which is a 
serious health problem in the United States, reduces B vitamins 
concentrations in blood which leads to neurological and mental 
problems. Scientists at the Beltsville Human Nutrition Research Center, 
Beltsville, Maryland, conducted a study to determine whether alcohol or 
alcohol-free red wine affected the blood concentrations of B vitamins. 
Even though the diets contained more than the recommended amounts of 
vitamin B-12 and folic acid, blood concentrations of these two vitamins 
in both men and women were lower when they consumed the equivalent of 
one to two drinks a day. Therefore, daily consumption of even low 
amounts of alcohol can reduce blood B vitamins although dietary intake 
of these vitamins is adequate. This study emphasizes the care which 
must be taken by nutritionists and health professionals who counsel 
those who consume even low amounts of alcohol.
    New test determines the best sugars to feed premature infants.--
Problems associated with providing sufficient nutrition to premature 
infants ultimately prolong their hospitalization, which results in 
significant increases in medical costs. New techniques developed by 
researchers at the USDA/ARS Children's Nutrition Research Center at 
Baylor College of Medicine in Houston, Texas, made it possible to test 
the ability of premature infants to digest and absorb different sugars. 
Researchers found that a starch-based sugar, in combination with the 
sugar found in mother's milk, was digested and absorbed best. This 
information should make it easier to feed premature infants and 
consequently shorter their hospitalization.
    What and where our children eat.--A recent survey by the USDA, 
``What We Eat in America,'' conducted by the Beltsville Human Nutrition 
Research Center in Beltsville, Maryland, has identified changes in food 
consumption by children when compared to data collected in 1977-78. 
Milk consumption by children and teenagers dropped, and low-fat and 
skim milk is now consumed more frequently than whole milk among school-
age children. The proportion of these children drinking low- or non-fat 
milk has doubled since the late 1970s, and consumption of soft drinks 
has markedly increased. Fruit consumption decline with age for children 
and teenagers, with fewer than half of teenagers in the U.S. consuming 
a serving of fruit or fruit juice daily. On any given day, nearly two-
thirds of the school-age children now consume food or drink provided 
outside the home. Food outside the home provided about 25 percent of 
the total calories for grade school-age children and 33 percent for 
teenagers. This information is extremely valuable in understanding 
changes in food consumption among children and provides a basis for 
designing effective intervention strategies and food assistance 
programs.
    Improved bioavailability of iron in infant formula.--Infants are a 
population group that is at risk for iron deficiency; thus, 
bioavailability of iron in infant formula is an important issue. 
Scientists at the U.S. Plant, Soil and Nutrition Laboratory in Ithaca, 
New York, have developed a method for estimating iron bioavailability 
that simulates digestion followed by measurement of iron uptake by 
cells grown in tissue culture. They found that the iron in human breast 
milk was more available than that from infant formula. Additionally, 
they found that bioavailability of iron from infant formula could be 
increased by almost 50 percent by reducing the concentration of citric 
acid, an organic compound found in relatively high concentrations in 
several infant formulas. The method of using simulated digestion and 
uptake by cell cultures to estimate iron bioavailability is of interest 
to nutritionists, formula manufacturers, and plant breeders who are 
trying to improve plant foods as sources of dietary iron.
    Latest version of the USDA nutrient database made available.--Food 
composition data for more than 5600 foods and 70 components were 
released to the public in September, 1996. These data are the major 
source of food composition information in the world. This new release 
by the Nutrient Data Laboratory, Beltsville Human Nutrition Research 
Center, Beltsville, Maryland, includes new data on beef and lamb cuts, 
updated values for breakfast cereals, and selected new food items. It 
supersedes previous releases of the database. This information may now 
be accessed by the general public through the Internet. USDA food 
composition data are used by other Federal agencies and by scientists 
at the state, national and international levels to monitor food 
consumption patterns to conduct nutrition research, and to stimulate 
product development. In addition, it is used by the agricultural and 
food industries to ensure adequate nutrient quality and to develop new 
products.
    New methods for studying loss of muscle with age.--Sarcopenia, 
defined as the loss of skeletal muscle with age, leads to frailty, bone 
fracture because of falls, and reduced immunity to disease. By 
understanding the causes of muscle loss with age it is possible to 
evaluate ways of maintaining functional capacity and quality of life 
for the elderly. A new approach has been validated and used at the 
USDA/ARS Human Nutrition Research Center on Aging in Boston, 
Massachusetts; this approach provides investigators with a sensitive 
tool to test the efficacy of interventions (such as diet and exercise) 
to manage sarcopenia and loss of appetite. Elemental Partition Analysis 
is a new approach to body composition assessment. A major element of 
the body is measured and then, by means of other measurements, it is 
partitioned to the contributing compartments. Such elements are carbon 
for fat, oxygen for lean, nitrogen for protein, and soft tissue 
phosphorus for muscle. The direct measurement of the elements of the 
body became possible with the collaboration of the Department of Energy 
which modified existing neutron production technology, used by the 
weapons program, to develop the neutron-generating devices necessary 
for the measurements.
    Supplements increase DHA in mothers' milk and their infants' 
blood.--Getting adequate amounts of docosahexaenoic acid (DHA), a fatty 
acid found in brain and eye tissues as well as breast milk, is crucial 
during early infancy, but milk DHA content is lower in lactating women 
in the United States than in many other countries. At the USDA/ARS 
Children's Nutrition Research Center in Houston, Texas, researchers 
provided breast-feeding mothers with DHA supplements in three different 
forms to determine whether they would increase the DHA content of their 
milk. The results showed that all the supplements--a capsule containing 
an algae-derived product, a capsule containing a special fish oil, and 
high-DHA eggs--increased DHA content in the milk of mothers and the 
blood of their infants. This study will affect the direction of future 
research aimed at determining whether maternal DHA supplementation 
improves visual and brain development in breast-fed infants.
    Decreasing cadmium content of durum wheat.--Durum wheat grain 
produced in the northern Great Plains of the United States can contain 
amounts of cadmium, a toxic mineral element, that exceeds allowable 
international limits and could exclude durum wheat grown in this region 
from international trade. Soils in this region contain naturally-high 
amounts of cadmium and low amounts of plant-available zinc, an 
essential micronutrient. Scientists at the USDA/ARS Plant, Soil and 
Nutrition laboratory in Ithaca, New York, have found evidence that the 
movement of cadmium via phloem (a nutrient transport system in plants) 
from one region of the root system to another is reduced by the 
presence of zinc in the surrounding medium. These results support the 
hypothesis that the amount of cadmium that moves into developing wheat 
seeds, via phloem, depends upon the amount of zinc present in the plant 
and suggests that sub-soil zinc deficiency may contribute to high 
cadmium concentrations in durum wheat grain. The findings could lead to 
agronomic practices that could be used by wheat growers to increase the 
zinc content of wheat plants and reduce the accumulation of cadmium in 
the wheat grain.
    Mr. Skeen. Please provide a table showing the total USDA program 
for human nutrition research and education, including the NRI, special 
grants, Hatch Act, Smith-Lever, and other programs.
    [The information follows:]

       HUMAN NUTRITION RESEARCH, EDUCATION AND RELATED ACTIVITIES       
                          [Dollars in millions]                         
------------------------------------------------------------------------
                                                  Fiscal years--        
                                        --------------------------------
                                            1996       1997       1998  
                                           actual    estimate    budget 
------------------------------------------------------------------------
Human Nutrition Research and Monitoring                                 
 Program:                                                               
    Agricutural Research Service.......      $63.2      $63.4      $75.5
    CSREES-Research and Education......       13.2       12.8       12.7
    Economic Research Service..........        1.5        1.5        1.5
                                        --------------------------------
      Total............................       77.9       77.7       89.7
                                        ================================
Human Nutrition Education, Evaluation                                   
 and Demonstrations:                                                    
    Agricultural Research Service......        0.8        0.7        0.7
    CSREES-Extension Activities........       77.5       76.7       78.2
    Food and Consumer Service..........      268.1      252.9      277.8
    Food Safety and Inspection Service.        0.1        0.1      (\1\)
                                        --------------------------------
      Total............................      346.5      330.4      356.7
                                        ================================
      Total, Research, Education and                                    
       Information.....................      424.4      408.1      446.4
------------------------------------------------------------------------
\1\ Less than $50,000.                                                  

                  university human nutrition research
    Mr. Skeen. For the record, please describe the major research 
programs in the field of human nutrition carried out at various 
universities around the country.
    Response. The major research programs in the field of human 
nutrition at the various universities in the United States include 
those at land-grant institutions as well as medical schools across the 
country. These include Cornell University, Ithaca, New York; University 
of California, Davis, and Berkeley, California; Iowa State University, 
Ames, Iowa; University of Illinois, Urbana, Illinois; Pennsylvania 
State University, University Park, Pennsylvania; University of Florida, 
Gainesville, Florida; Texas A & M University, College Station, Texas; 
and the University of Wisconsin, Madison, Wisconsin. Medical schools 
that have NIH-funded Clinical Nutrition Research Units are University 
of Chicago; University of California at Davis; University of 
Washington; Vanderbilt University; University of Colorado Health 
Sciences; Massachusetts General Hospital; Harbor-UCLA Medical Center; 
and Oregon Health Sciences Center. St. Luke's Roosevelt-Columbia 
University has a NIH-funded Obesity Center. Obesity and Nutrition 
Research Centers are at the University of Vermont, Burlington, Vermont; 
New England Medical Center, Boston, Massachusetts; and University of 
Pittsburgh, Pittsburgh, Pennsylvania. The Pennington Biomedical 
Research Center in Baton Rouge, Louisiana, has a nutrition research 
program associated with the Louisiana State University medical and 
nutrition programs.
    Mr. Skeen. How does ARS coordinate its research efforts with that 
of universities to assure there is no duplication?
    Response. Nutrition research is also competitively funded by NIH in 
universities. Very few universities have facilities to conduct live-in, 
controlled diet studies of suitable numbers of volunteers such as are 
conducted at ARS Human Nutrition Research Centers. ARS Nutrition 
Research Center Directors meet regularly to review our programs in 
relation to other nutrition research and national needs. ARS scientists 
have all research proposals peer reviewed and publish in peer reviewed 
Journals that assure effort is not duplicated.
    In planning research and setting priorities for human nutrition 
research, ARS is continually involved in interactions with other groups 
and individuals that deal with nutrition research conducted by 
university scientists. Three of the six ARS Human Nutrition Research 
Centers are directly affiliated with Universities; the other three are 
co-located with or near Universities. Within USDA, ARS coordinates at 
the senior staff and policy level with the Cooperative State Research 
Education and Extension Service (CSREES) which provides competitive 
nutrition research funding to Universities and otherwise administers 
Federal funding support to Universities. Additionally, there are 
interagency committees and boards that have University representation, 
activities with the Food and Nutrition Board of the National Academy of 
Sciences and intensive involvement with the Committee on Health, Safety 
and Food of the National Science and Technology Council.
                             swine research
    Mr. Skeen. For the record, will you provide a list of all the 
locations and how much is being funded for each location where ARS is 
currently conducting swine research?
    [The information follows:]

Fiscal year 1997

        Location                                                   Funds
Fayetteville, AR..............................................   $49,900
Albany, CA....................................................    55,100
Athens, GA.................................................... 1,309,800
Ames, IA...................................................... 5,088,400
Peoria, IL....................................................   184,000
West Lafayette, IN............................................   197,100
Beltsville, MD................................................ 6,448,000
Columbia, MO..................................................   629,000
Fargo, ND.....................................................   186,400
Clay Center, NE............................................... 5,712,300
Greenport, NY................................................. 5,718,900
Wyndmoor, PA.................................................. 1,704,200
College Station, TX...........................................   365,300
Headquarters..................................................\1\ 65,500
                    --------------------------------------------------------------
                    ____________________________________________________

    Total.....................................................27,713,900

\1\ The Headquaters portion represents the amounts allocated to swine to 
support the ARS program on Animal Genetic Resources. It is used to 
operate the Animal Component of the Genetic Resources Information 
Network (GRIN) Database; to develop and equip the Beltsville Repository; 
and to maintain, store, and conduct required research on unique animal 
germplasm at several ARS locations.

    Mr. Skeen. What is the total amount of funding ARS is spending on 
swine research in fiscal years 1996 and 1997?
    Response. In fiscal year 1996, ARS allocated $26,839,000 for swine 
research. In fiscal year 1997, $27,713,900 is allocated.
    Mr. Skeen. What is the status of the Iowa State swine research 
construction project?
    Response. The Iowa State swine research construction project, 
National Swine Research Center (NSRC), includes a laboratory office 
complex and a research farm. Construction of the laboratory office 
complex on campus is underway, on schedule, and should be completed by 
October 1, 1997. The pre-design of the research farm has been 
completed. The Administration expects to turn-over the laboratory 
office complex to Iowa State University when construction is completed, 
as directed in statute.
                         centers of excellence
    Mr. Skeen. In the past few years, USDA has proposed several Centers 
of Excellence. Were any new centers established in fiscal years 1995, 
1996 or 1997?
    Response. In fiscal year 1995, ARS in collaboration with the Food 
Safety and Inspection Service established an 1890's Center of 
Excellence at the University of Maryland, Eastern Shore, Princess Anne, 
Maryland. In fiscal year 1996, funds were provided to ARS to establish 
a similar Center of Excellence at Alcon State University in Lorman, 
Mississippi, in collaboration with the Rural Business-Cooperative 
Service. In fiscal year 1997, ARS was provided money to establish a 
Center of Excellence at Delaware State University, Dover, Delaware. 
NRCS established a center at Virginia State University in Petersburg, 
Virginia; and NRCS and FS collaborated on a center of Florida A&M 
University in Tallahassee, Florida.
    Mr. Skeen. Where are all the ARS Centers of Excellence and how much 
funding is provided for each is fiscal year 1997?
    Response. The ARS 1890's Centers of Excellence funded in fiscal 
year 1997 are the University of Arkansas at Pine Bluff, Arkansas, 
$373,000; University of Maryland Eastern Shore at Princess Anne, 
Maryland, $246,000; Tennessee State University of McMinnville, 
Tennessee, $491,000; Alcorn State University at Lorman, Mississippi, 
$166,000; and Delaware State University at Dover, Delaware, $250,000.
    Mr. Skeen. Are new centers proposed for fiscal year 1998?
    Response. ARS is requesting $200,000 in fiscal year 1998 for a new 
1890's Center of Excellence in Grazing Lands Management at Langston 
University, Langston, Oklahoma; the Animal & Plant Health Inspection 
Service is seeking funds to establish a Center of Excellence at 
Tuskegee University, Tuskegee, Alabama, and the Foreign Agricultural 
Service proposes to establish a Center of Excellence at North Carolina 
A&T University in Greensboro, North Carolina.
                                crada's
    Mr. Skeen. How many CRADA's does ARS have signed in operation?
    Response. ARS has signed 671 CRADAs of which 263 are active.
    Mr. Skeen. How much will ARS receive in monies from its CRADA's in 
fiscal years 1996, 1997, and 1998?
    Response. Incoming money for active CRADAs was $3.0 million actual 
receipts in 1996. Based upon currently active CRADA budgets, 
cooperators are scheduled to contribute $2.0 million in 1997 and $0.8 
million in 1998. As new CRADAs are signed and/or amended these amounts 
will increase.
    Mr. Skeen. When a CRADA participant provides in-kind services, what 
does ARS receive?
    Response. Services include expertise by participation of the 
cooperator's scientists and technicians in the project, and use of 
cooperator's equipment and analytical processes. ARS also receives 
access to confidential information, cooperator facilities, proprietary 
products, and materials.
                                patents
    Mr. Skeen. USDA enjoys sharing in the patents its research 
generates. Do you have estimates on the total long-term value of these 
patents?
    Response. For a patent to have long-term value, it must be licensed 
to a company which will produce and sell a product in the marketplace. 
With a new technology, it requires a number of years for the licenses 
to develop a commercially viable product. At the present time, ARS 
earns about $2 million per year in royalty income. Assuming a median 
royalty rate of 3 percent, this represents total annual sales of about 
$67 million. Royalty income has been increasing each year; therefore, 
we would expect to future value of ARS patents to increase.
    Mr. Skeen. How many patents does USDA currently have and how many 
are currently pending?
    Response. USDA currently has 671 issued patents. An additional 420 
patents are pending.
                           aflatoxin research
    Mr. Skeen. Please describe for the Committee the research you have 
underway on aflatoxin.
    Response. Research in ARS is primarily directed toward prevention 
of aflatoxin in corn, peanuts, cottonseed and tree nuts. Special 
varieties of crops possessing natural resistance to Aspergillus flavus, 
the fungus which produced aflatoxin, are being developed for use in 
breeding commercial, high yielding crop lines that are not vulnerable 
to the aflatoxin contamination. Alternatively, resistance is 
bioengineered into the crops using genes known to encode specific mold 
inhibitors. ARS is also testing aflatoxin non-producing strains of 
Aspergillus flavus which are being applied to crop systems as 
``biopesticides'' to outcompete and replace toxin-producing strains. 
Other segments of the research identify and improve postharvest 
agronomic and ecological factors, such as insects, and postharvest 
handling procedures which minimize conditions that predispose crops to 
aflatoxin contamination.
    Mr. Skeen. What are some of the agency's accomplishments in 
aflatoxin research in recent years?
    Response. Recent accomplishments of ARS include the identification 
of sources of resistance corn, peanut and tree nut germplasm, which are 
being used in breeding programs to produce aflatoxin resistant 
commercial lines. Genes for biosynthesis of aflatoxin have been 
localized on the fungal chromosome. Methods to regenerate cotton, 
peanut and tree nut tissues transformed with genes for resistance to 
aflatoxin have been developed. Aflatoxin contamination in cottonseed 
and peanut was lowered through application of aflatoxin non-producing, 
biocompetitive strains of Aspergillus flavus in small scale field 
trials. A formulation of an aflatoxin non-producing strain of 
Aspergillus flavus is now being tested in EPA-approved large scale 
field trials on cotton.
    Mr. Skeen. By location, please indicate the dollars and staff years 
devoted to aflatoxin research in fiscal years 1996, 1997, and 1998.
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal years--                            
                                         -----------------------------------------------------------------------
                Location                           1996                    1997                    1998         
                                         -----------------------------------------------------------------------
                                             Funds    Scientists     Funds    Scientists     Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Albany, CA..............................  $1,923,400        8.1   $1,813,200        6.7   $1,813,200        6.7 
Dawson, GA..............................     766,800        3.0      759,000        2.9      759,000        2.9 
Tifton, GA..............................     559,800        1.5      554,100        1.6      554,100        1.6 
Peoria, IL..............................     850,900        3.4      842,200        3.4      842,200        3.4 
New Orleans, LA.........................   3,053,000       13.0    2,884,000       13.0    2,884,000       13.0 
Mississippi State, MS...................     605,800        2.5      681,200        2.8      681,200        2.8 
Headquarters............................     885,700  ..........     876,800  ..........     876,800  ..........
                                         -----------------------------------------------------------------------
      Total.............................   8,645,400       31.5    8,410,500       30.4    8,410,500       30.4 
----------------------------------------------------------------------------------------------------------------

                          aquaculture research
    Mr. Skeen. Please describe for the Committee the research you are 
doing in connection with aquaculture research.
    [The information follows:]
    Auburn, AL--Diagnosis and control of diseases and parasites of 
cultured fish.
    Beltsville, MD--Aquaculture Information Center. Provides the public 
with information on all aspects of aquaculture.
    Albany, CA (Hilo, HI)--Tropical aquaculture feeds and culture 
technology development.
    New Orleans, LA--Improve flavor quality of farm-raised catfish.
    Pine Bluff, AR--Aquaculture production and processing technology.
    Stoneville, MS--Improve production efficiency, including breeding, 
genetics, and endocrinology of catfish.
    Kearneysville, WV--Water quality control and intensive culture of 
fish.
    College Station, TX--Food safety of catfish.
    Stuttgart, AR--Research on therapeutics evaluation, health 
management and culture systems for farm-raised fish.
    Dover, DE (Wyndmoor, PA Worksite)--Food safety of farm-raised fish.
    Mr. Skeen. What are some of the agency's research accomplishments 
in the field of aquaculture?
    Response. ARS scientists conducting disease research at Auburn, AL 
have demonstrated that some strains of commercial channel catfish have 
resistance against columnaris disease. Columnaris disease, caused by 
the bacterium Cytophaga columnaris, is responsible for widespread 
mortality in channel catfish farms. Through a Cooperative Research and 
Development Agreement with Gold Kist, Inc., Inverness, MS, ARS 
scientists at the Fish Diseases and Parasites Research Laboratory, 
Auburn, AL demonstrated that some strains of channel catfish 
selectively bred by Gold Kist were more resistant than other strains to 
mortality from columnaris disease. Selective breeding of the resistant 
strains should result in commercial catfish less susceptible to 
columnaris disease. This could reduce losses to the disease by $10 to 
$15 million annually.
    ARS scientists at Auburn, AL have developed an experimental vaccine 
to control enteric septicemia of commercial catfish. Edwardsiella 
ictaluri causes the disease, enteric septicemia, in catfish. Losses 
from the disease reduce catfish farm revenues by $25 million annually. 
Scientists at the Fish Diseases and Parasites Research Laboratory, 
Auburn, AL have developed a modified live vaccine to protect commercial 
catfish. Protection from the vaccine lasts 6 months or more. While the 
vaccine is presently applied through immersion of the fish in water, 
the ARS scientists are working on feed-delivery of the vaccine for 
catfish fingerling producers.
    ARS scientists at Stuttgart, AR have shown that disease treatment 
with copper sulfate poses no hazard to human consumers of cultivated 
food fish. Copper sulfate has been effectively used for many years as a 
treatment for waterborne parasitic, bacterial, and fungal diseases of 
cultivated fish, but has never been approved by the U.S. Food and Drug 
Administration (FDA) for use on food fish because of questions about 
human food safety. Scientists at the National Aquaculture Research 
Center, Stuttgart, AR, demonstrated that copper concentrations in fish 
tissue remain unchanged when cultivated channel catfish are exposed to 
levels of copper sulfate far in excess of concentrations required to 
treat diseases. The FDA has accepted the results of the study as 
demonstrating that the use of copper sulfate for treatment of waterbone 
diseases of cultivated food fish presents no hazard to the health of 
human consumers.
    ARS scientists in Stoneville, MS have developed genetically 
improved strains of channel catfish for commercial culture. Commercial 
use of improved catfish germplasm, developed through an applied 
selective breeding program, will dramatically improve production 
efficiency in commercial catfish production. Scientists at the Catfish 
Genetics Research Unit, Stoneville, MS, have evaluated and selected 
strains of channel catfish for commercially important traits such as 
growth, reproductive performance, processing characteristics, and 
disease resistance. DNA markers, termed microsatellites, have been 
isolated and characterized; the microsatellites are useful for 
identifying and tracking genetically improved strains. These markers 
will form the basis of a catfish genetic map that will improve the 
efficiency of genetic selection in this species.
    Canned bighead carp products developed by an ARS food technologist 
at Pine Bluff, AR were evaluated by consumer taste panels and were 
found to have a high level of acceptance.
    ARS scientists in New Orleans, LA have developed highly sensitive 
methods to detect off-flavor compounds in farm-raised catfish. The high 
incidence of environment-derived off-flavors in farm-raised catfish has 
consistently been identified as the most important production-related 
problem in the catfish aquaculture industry. Scientists at the Southern 
Regional Research Center have developed extraction and gas 
chromatographic methods that can detect geosmin and MIB, the two most 
important catfish off-flavor metabolites, at concentrations near the 
theoretical limits of the most sensitive electronic sensors and equal 
to the levels of human perception.
    Scientists at Shepherdstown, WV have developed an improved 
ultrasonic waste feed monitor through a cooperative arrangement with 
the University of Mississippi's National Center for Physical Acoustics. 
This device efficiently detects waste feed, while ignoring fecal 
material, and represents an improvement over earlier technology 
developed by these scientists. The device is currently being 
commercialized through a California computer company.
    Mr. Skeen. By location, what is the funding and staff for 
aquaculture research for fiscal years 1996, 1997, and 1998, by 
location?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal years--                             
                                      --------------------------------------------------------------------------
               Location                          1996                     1997                     1998         
                                      --------------------------------------------------------------------------
                                          Funds     Scientists     Funds     Scientists     Funds     Scientists
----------------------------------------------------------------------------------------------------------------
Auburn, AL...........................     $850,400        3.0      $841,800        3.0      $841,800        3.0 
Pine Bluff, AR.......................      224,800        1.0       373,300        2.0       373,300        2.0 
Stuttgart, AR........................  ...........  ..........    1,235,600        4.0     1,235,600        4.0 
Hilo, HI Oceanic Inst................    1,628,900  ..........    1,612,400  ..........  ...........  ..........
New Orleans, LA......................      803,900        2.5       759,400        2.4       759,400        2.4 
Beltsville, MD.......................      143,700  ..........      142,800  ..........      142,800  ..........
                                      ==========================================================================
Stoneville, MS:                                                                                                 
    Warm Water Aquaculture...........    1,463,200  ..........    2,652,000        2.5     2,652,000        2.5 
    Other-In House...................      514,100        2.5       505,100        2.5       505,100        2.5 
                                      --------------------------------------------------------------------------
      Total MS.......................    1,977,300        2.5     3,157,100        5.0     3,157,100        5.0 
                                      ==========================================================================
Wyndmoor, PA \1\.....................  ...........  ..........      250,000        1.0       250,000        1.0 
Kearneysville, WV....................    1,462,000  ..........    1,447,200  ..........    1,447,200  ..........
                                      ==========================================================================
Headquarters:                                                                                                   
    College Station, TX..............      369,000  ..........      365,200  ..........      365,200  ..........
    Stuttgart, AR Fish Farm Lab......    1,097,500  ..........  ...........  ..........  ...........  ..........
                                      --------------------------------------------------------------------------
      Total Headquarters.............    1,466,500  ..........      365,200  ..........      365,200  ..........
                                      ==========================================================================
      Total..........................    8,557,500        9.0    10,184,800       17.4     8,572,400      17.4  
----------------------------------------------------------------------------------------------------------------
\1\ Dover, DE worksite.                                                                                         

                         biodegradable plastic
    Mr. Skeen. Please describe for the Committee the research you are 
doing in connection with biodegradable plastic, by location.
    Response. Development of totally biodegradable polymer materials 
based on starch is a major emphasis of research at the National Center 
for Agricultural Utilization Research (NCAUR), Peoria, Illinois. At 
NCAUR, scientists are developing new materials from starch, cereal 
proteins, and other biodegradable polymers using extrusion, molding, 
and jet-cooking processing technologies which have acceptable strength 
and water resistance for many one-use consumer applications. At the 
Western Regional Research Center (WRRC) in Albany, California, research 
is focussing on development of biodegradable materials from wheat 
carbohydrates and proteins. Development of films from another natural 
biopolymer, pectin, is the focus of biodegradable research at the 
Eastern Regional Research Center (ERRC) in Wyndmoor, Pennsylvania. 
Another program at Wyndmoor produces biodegradable polymers called 
polyhydroxy alkanoates (PHA's) by microbial fermentation of commodity 
fats and oils.
    Mr. Skeen. What are some of the agency's accomplishments in this 
field of research?
    Response. In cooperation with industrial CRADA partners, NCAUR 
scientists at Peoria have developed blends of starch and biodegradable 
polymers for use as agricultural mulch films and loose-fill packaging 
foams. Molded articles with higher starch content than previous 
technologies have also been developed. At WRRC, research conducted with 
a CRADA partner led to a new technology for making biodegradable foams 
from wheat starch. Containers made from this new material are being 
studied for possible use in the fast-food industry. Two other 
discoveries from CRADA-sponsored work on edible films include a natural 
germicidal film for animal veterinary use and an edible coating for 
pre-cut fruit that greatly extends shelf life. The work at ERRC has 
resulted in two major patents on new materials made from pectin-starch 
and pectin-polyvinyl alcohol blends. These materials are currently 
being evaluated by industry for biodegradable packaging and biomedical 
implant applications. ARS research results are widely utilized by 
companies introducing biodegradable plastic materials and molded 
products.
    Mr. Skeen. By location, what is the funding and staff for 
biodegradable plastic research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal years--                            
                                         -----------------------------------------------------------------------
                Location                           1996                    1997                    1998         
                                         -----------------------------------------------------------------------
                                             Funds    Scientists     Funds    Scientists     Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Albany, CA..............................    $299,700        1.4     $661,500        2.7     $379,000        1.3 
Peoria, IL..............................   1,304,100        4.7    1,290,900        4.3    1,290,900        4.3 
Wyndmoor, PA............................     632,700        2.6      626,200        2.6      626,200        2.6 
                                         -----------------------------------------------------------------------
      Total.............................   2,236,500        8.7    2,578,600        9.6    2,296,100        8.2 
----------------------------------------------------------------------------------------------------------------

           biotechnology research and development corporation
    Mr. Skeen. Please describe for the Committee the research underway 
at the Biotechnology Research and Development Corporation.
    Response. The Biotechnology Research and Development Corporation 
(BRDC) is engaged in research and development activities designed to 
enhance the commercial opportunities for the United States' 
agricultural products. This research focuses on developing commercial 
opportunities to broaden the utilization of commodities and improve the 
efficiency of production and quality of both plant and animal based 
products.
    In order to accomplish these goals, ``BRDC'' partners its private 
sector shareholders and cooperators, and interested third parties, with 
USDA/ARS and academic scientists in intermediate to near term R&D 
projects that address industry's market needs.
    Research endeavors carried out under the auspices of the original 
``BRDC'' charter are directed toward developing new market 
opportunities for commodity crops, new and safer, i.e., ``green'', 
methods of pest control, more cost effective means of performing 
biochemical and chemical transformations of raw materials derived from 
crops, better methods of developing and controlling new genetic 
characteristics in plants and animals, and new methods of detection and 
elimination of agents impacting food safety and quality.
    Mr. Skeen. Please describe the research carried out by the Animal 
Health Consortium headquartered at Ames, Iowa.
    Response. The animal health care activities are focused on 
development of new biologicals, i.e., vaccines and therapeutics for 
production animals and more efficient methods to deliver the materials. 
There is also a substantial effort being devoted to refine methods for 
performing molecular genetic manipulations on production animals as 
well as studying genetic elements associated with either resistance or 
susceptibility to disease and reproductive characters.
    Mr. Skeen. Please discuss some of the Corporation's research 
accomplishments.
    Response. Some of ``BRDC's'' key achievements include, but are not 
limited to the following:
    Plant Technology:
1. Plant promoters useful for genetic engineering
    A promoter is a genetic element that controls the expression of 
genes. A simple analogy would be that a promoter is to a gene what the 
switch is to a light, i.e. it can turn it off or on and regulate the 
intensity. There are only a few broadly applicable promoters available 
for use in genetic engineered plants and the great majority are tightly 
protected by patents, privately owned and generally unavailable. 
``BRDC'' scientists have developed one that ``BRDC'' has made available 
to the entire plant biology industry. To date ``BRDC'' has entered into 
twelve license agreements, and is negotiating three other agreements, 
for the use of this promoter. If all the negotiations are successful 
``BRDC'' will have licensed the technology to eighty percent of the 
world's largest seed companies and plant biotechnology concerns. 
``BRDC'' has also granted a free license to ARS by which ARS can make 
the promoter available to any of its scientists for evaluation in their 
research activities.
2. Starch polyester resins for biodegradables
    For the past twenty years, scientists around the world have been 
trying to develop biodegradable synthetic polymers at competitive 
prices or by using starch or other ``natural'' polymers as additives to 
synthetic polymers to make them biodegradable while retaining the 
strength and mechanical properties of the synthetic polymers. Until 
just recently the successes were polyethylene/starch composites that 
resulted in polyethylene with holes, but at $10 per pound these 
biopolymeric materials had no hope of commercial utility. Recently, Dow 
Chemical, a ``BRDC'' shareholder, and ``BRDC'' scientists combined 
their talents with synthetic and starch polymers, respectively, and 
developed a brand new synthetic/starch polymeric material that is not 
only biodegradable and has mechanical/strength properties comparable to 
many common synthetic polymers, but is also less expensive than its 
synthetic competitors. It is possible that a conversion to this new 
material will occur not only because of environmental concerns but also 
because of cost and profit considerations. ``BRDC'' and Dow Chemical 
company are currently exploring a variety of commercialization options 
including the possibility of niche market applications that could be 
addressed by a manufacturing facility in central Illinois.
    The new synthetic/starch polymers have been shown to be amenable to 
thermoforming as blends, foaming, film blowing and being used as 
laminates. These characteristics make the utility of materials almost 
unlimited. A major benefit is that high volume everyday items, e.g. 
cups, plates, eating utensils, plastic bags, wrapping films et., that 
are biodegradable and compostable can be made from these materials. The 
technology also will provide a new major market for corn and other 
starch containing cereals.
    At this time, the Dow Chemical Company is planning a new product 
launch in 1997 and ``BRDC'' is involved in negotiations with a third 
party that has proposed to start a new business, located in the Peoria 
area, based on this technology. In addition, Dow and McDonald's 
Corporation are discussing a joint development program to adapt the 
technology to food service applications.
3. Pesticide encapsulation using agricultural commodities
    Scientist at ARS' National Center for Agricultural Utilization 
Research (NCAUR) and ``BRDC'' have encapsulated pest control agents in 
formulations comprised of corn starch, casein, gluten and lignin. The 
formulations have been shown to provide rainfastness, solar stability 
and to result in lower required rates of application.
4. New methods for controlling postharvest diseases
    ``BRDC'' has been supporting research, at ARS' Appalachian Fruit 
Research Station in Kearneysville, West Virginia, that is targeted to 
controlling postharvest disease in commodity fruit species, including 
most citrus fruits. The technology is based on exclusionary growth of a 
nonpathogen organism. To date, early field trials have yielded very 
promising results. ``BRDC'' and one of its shareholders are currently 
negotiating a commercial license.
    Animal Health Care Projects:
1. Validation of gene marker for litter size in domestic pigs
    This technology has been exclusively licensed to the world's 
largest producer of breeder pigs. In 1995, this producer used it to 
test over 25,000 head of their breeder stock and paid ``BRDC'' more 
than $100,000 in royalties. The company is currently evaluating the 
option of making the test generally available. If they do, it is 
estimated that it would be used to test more than 100,00 pigs annually. 
The test predicts, in certain breeds of pigs, the size of litters 
females will produce and is based on a polymorphic DNA marker that is 
associated with the swine estrogen receptor gene. Positive 
identification of high producing sows (11.5 vs. 10.0 live born per 
litter) adds substantial value to the pig breeders and pork growers.
2. Production of chimeric/transgenic swine via embryonic stem cells
    A stem cell is a cell that is undifferentiated and therefore has 
the potential to become one of any of a myriad of cells. Embryonic stem 
cells are derived from the very early embryo before cellular 
differentiation begins and each of them has the theoretical capacity of 
growing into a whole organism. In this instance, a single swine 
embryonic stem cell could develop into an embryonic pig. ``BRDC'' and 
the University of Illinois have filed patents, throughout the world, on 
the ability to grow swine embryonic stem cells, genetically engineer 
them and eventually produce genetically engineered ``designer'' pigs 
from the cells. ``BRDC'' has licensed this technology to one of its 
shareholders for the production of genetically engineered pigs that can 
be used as organ donors in xenotransplantation (transplants between 
species, e.g., pig to human). The purpose of xenotransplantation is to 
provide a new source of organs for organ transplants in humans in order 
to eliminate the current deficiency.
3. Construction of vaccines for bovine pneumonic pasteurellosis
    Researchers at ARS' National Animal Disease Center (NADC) in Ames, 
Iowa have developed a method by which they can produce deletion mutants 
in Pasteurella sp. and Haemophilus sp. that exhibit growth attenuation 
except under rigidly controlled laboratory conditions. These organisms 
hold promise of being able to be used in the development of a live 
vaccine for cattle shipping fever. The researchers are currently 
collaborating with scientists from a ``BRDC'' shareholder is further 
refine this technology. ``BRDC'' has exclusively licensed this 
technology to that shareholder who anticipates introducing a new 
product in late 1997 to early 1998.
    Mr. Skeen. What private funds does the Corporation receive?
    Response. In 1996, ``BRDC'' received $0.6 million from its 
corporate participants, $0.2 million from the State of Illinois, and 
$0.6 million in licensing revenue.
    Mr. Skeen. Please provide a table for the record indicating a 
funding history for the Corporation.
    [The information follows:]

                BIOTECHNOLOGY RESEARCH AND DEVELOPMENT CORPORATION, CALENDAR YEAR FUNDING HISTORY               
                                            [In thousands of dollars]                                           
----------------------------------------------------------------------------------------------------------------
                                                                                                          1997  
                  Source of funding                     1992      1993      1994      1995      1996      Proj. 
----------------------------------------------------------------------------------------------------------------
Federal (USDA)......................................  $2,542.0  $2,542.0  $2,599.6  $2,599.6  $2,576.0  $2,576.0
Federal (AARC)......................................  ........  ........      37.5      50.0     230.2     230.2
State (Illinois Dept of Agricultural................      60.0     200.0     200.0     250.0     200.0     200.0
Corporate Participants..............................   1,150.0   1,233.3   1,407.5   1,150.0     617.7     350.0
Royalties, interest, licensing fees and other income     103.1      49.5     166.2     200.0     679.8     700.0
                                                     -----------------------------------------------------------
      Total.........................................   3,855.1   4,024.8   4,410.8   4,249.6   4,303.7   4,056.2
----------------------------------------------------------------------------------------------------------------

                      blueberry/cranberry research
    Mr. Skeen. Please describe for the Committee the research you are 
doing in connection with blueberries and cranberries, by location.
    [The information follows:]
    Beltsville, MD--Blueberry germplasm evaluation, variety 
development, and genome mapping; adaptation of blueberry root systems 
to upland pH neutral soils; breeding of blueberries and improved 
methods of disease control in blueberries and cranberries.
    Corvallis, OR--Preservation and evaluation of germplasm.
    Peoria, IL--Identification, evaluation, and development of natural 
products to control postharvest fungal diseases of blueberries.
    Poplarville, MS--Breeding, field testing, and introduction of new 
blueberries.
    Mr. Skeen. What is the need for this research?
    Response. Blueberries, cranberries, and food products derived from 
them are highly desired by consumers. Blueberries and cranberries are 
important crops nationwide, and production is increasing in some areas, 
such as the Pacific Northwest and the Southern United States. In 
addition, production of these crops is suitable for small farms. 
However, a variety of problems limit the production potential for 
blueberries and cranberries in many areas. These include availability 
of varieties adaptable to marginal soils and other variable 
environmental conditions, appropriate cultural practices, suitable pest 
management strategies during production and postharvest, and suitable 
production and processing equipment. ARS addresses these needs through 
its current research program activities.
    Mr. Skeen. What are some of the agency's accomplishments in this 
field of research?
    Response. In 1994, ARS jointly released, with the New Jersey 
Agricultural Experiment Station, a new highbush blueberry cultivar 
named Chandler. This variety produces good yields of high-quality 
fruit.
    A small group of proteins has been identified in blueberries that 
may function in development of cold hardiness. The genes for these 
proteins can be used to improve the adaptability of blueberries and 
other small fruit crops to cold environments.
    A genetic map of blueberry has been constructed allowing genes 
involved in the control or dormancy and cold hardiness development to 
be located. Genetic markers near these genes will allow these traits to 
be more easily followed during breeding.
    Molecular methods have been developed for improved virus detection 
in blueberries and cranberries.
    Mr. Skeen. By location, what is the funding and staff for 
blueberry/cranberry research for fiscal years 1996, 1997, and 1998?
    Response. By location, what is the funding and staff for blueberry/
cranberry research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal years--                          
                                            --------------------------------------------------------------------
                  Location                            1996                   1997                   1998        
                                            --------------------------------------------------------------------
                                               Funds    Scientists    Funds    Scientists    Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Peoria, IL.................................    $48,100        0.2     $47,600        0.2     $47,600        0.2 
Beltsville, MD.............................  1,114,400        3.9   1,103,100        3.9   1,103,100        3.9 
Poplarville, MS............................    435,200        2.0     430,800        2.0     430,800        2.0 
Corvallis, OR..............................    510,900        1.1     756,500        2.1     691,500        2.1 
                                            --------------------------------------------------------------------
      Total................................  2,108,600        7.2   2,338,000        8.2   2,273.000        8.2 
----------------------------------------------------------------------------------------------------------------

                          brucellosis research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with brucellosis research, by location.
    Response. The purpose of the ARS bovine brucellosis program, 
conducted at the National Animal Disease Center in Ames, Iowa, is to: 
(1) evaluate and modify brucellosis vaccines for the protection of 
cattle, bison and elk against infection with Brucella abortus; (2) 
improve existing diagnostic tests for brucellosis in cattle, bison, and 
elk; (3) develop rapid strategies to trace the source of brucellosis 
outbreaks; and (4) identify genes that are involved in the ability of 
Brucellae to cause disease and use this information to develop improved 
vaccines.
    Mr. Skeen. What are some of the Agency's accomplishments in this 
field of research?
    Response. The National Animal Disease Center has demonstrated that 
a new vaccine strain of Brucella abortus, strain RB51, is effective in 
protecting cattle against brucellosis. Efficacy of the RB51 vaccine is 
being tested in bison. The RB51 vaccine has been licensed by veterinary 
biologics, Animal and Plant Health Inspection Service. The advantage of 
using RB51 is that it does not induce antibodies that react in current 
serologic tests used to detect natural infection. A patent was issued 
to cover a new rapid DNA diagnostic assay, and this technology is now 
being tested by the Animal and Plant Health Inspection Service. Efforts 
are being focused on developing improved vaccines and vaccine 
strategies for use in bison and elk.
    Mr. Skeen. By location, what is the funding and staff for 
brucellosis research for fiscal years 1996, 1997, and 1998?
    Response. The funding and scientific staff for brucellosis research 
for fiscal year 1996 was $2,453,300 and five scientists. For fiscal 
years 1997 and 1998, estimated funding is $2,224,500 with five 
scientific staff in each year. The brucellosis program is located at 
the National Animal Disease Center in Ames, Iowa.
                            canola research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with canola research, by location?
    Response. ARS research at Peoria, Illinois is concerned with 
evaluation of canola germplasm for physical and chemical properties of 
oil to develop high quality, value-added products.
    Mr. Skeen. What is the need for this research? What are the uses of 
this oil? What is the domestic usage and the amount imported?
    Response. Evaluation of canola germplasm is needed to provide 
materials for developing varieties adapted to climatic growing regions 
in the United States. Evaluation of the performance properties and 
stability of canola oil provides information needed by the food 
industry for the commercial use of this new edible oil. Canola oil is 
primarily a cooking and frying oil used directly by consumers. The food 
industry interest in canola oil stems from it having the lowest 
saturated fatty acid content among the vegetables oils. Domestic use of 
canola was 899 million pounds in 1995/1996, of which 558 million pounds 
was imported.
    Mr. Skeen. By location, what is the funding and staff for canola 
research for fiscal years 1996, 1997, and 1998?
    [The information follows:]


----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal years--                          
                                            --------------------------------------------------------------------
                  Location                            1996                   1997                   1998        
                                            --------------------------------------------------------------------
                                               Funds    Scientists    Funds    Scientists    Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Tifton, GA.................................    $73,700        0.5   .........  ..........  .........  ..........
Peoria IL..................................     99,300        0.5    $147,400        0.7    $147,400        0.7 
                                            --------------------------------------------------------------------
      Totals...............................    173,000        1.0     147,400        0.7     147,400        0.7 
----------------------------------------------------------------------------------------------------------------

                           citrus root weevil
    Mr. Skeen. The Committee has provided additional funds for citrus 
root weevil research. What is your plan of work to control and 
eradicate this pest? Describe what kind of damage this pest causes and 
any dollar estimates of losses due to damages from this pest.
    Response. In August of 1993, a Diaprepes Task Force was organized 
to help coordinate research and action activities to control this pest. 
The task force is still quite active and is composed of representatives 
from ARS, University of Florida, Florida Division of Plant Industry, 
commodity and grower groups, and the pest control industry. The task 
force completed and implemented a research and action plan in January 
1995. Some of the major goals of the action plan are to strengthen 
research through increased cooperation within the research 
establishment, and develop and implement effective control methods. At 
the current time there are no technologies on-line to eradicate this 
pest and the task force has not included such a strategy in the 
research and action plan. The current aim is to contain the pest, 
minimize production losses and damage, and mitigate the problem with an 
adoptable, economic, and environmentally-sound IPM system. No effective 
soil pesticides are currently available for the more critical strategy 
of killing or suppressing the larvae. A number of control strategies 
are currently being tested by ARS and the University of Florida, and 
include monitoring for the pest, as well as the use of traps, nematode 
applications, sanitation procedures, attractants and pheromones, 
insecticidal fungi, and select chemical insecticides.
    The Diaprepes root weevil not only attacks citrus, but also many 
other commercial crops including sugarcane, ornamental plants, yucca, 
papaya, sweetpotato, cotton, and peppers. The larvae of the pest feed 
on the roots of the citrus tree, eventually killing the tree. Adults of 
the insect also harm the leaves through their feeding. Damage in 
Florida is increasing and has reached over $75 million each year.
    Mr. Skeen. Which laboratories will be involved in the research?
    Response. The U.S. Horticultural Research Laboratory located in 
Orlando, Florida, is currently undertaking this research effort in 
partnership with the University of Florida, Institute of Food and 
Agricultural Sciences, Citrus Research and Education Center, Lake 
Alfred, Florida.
                         citrus tristeza virus
    Mr. Skeen. Citrus tristeza virus is causing considerable damage to 
plants in Florida. For the record, describe what kind of damage is 
occurring and any dollar value losses that are estimated from this 
pest.
    Response. Citrus tristeza virus (CTV) has been present in Florida 
for decades. In the 1980s, severe decline strains of CTV reappeared in 
Florida and have since spread across the state, killing trees on the 
susceptible sour orange rootstock. About 20 percent of Florida's orange 
trees remain on sour orange. Various strategies have provided 
reasonably effective disease control for trees on other rootstocks. 
However, the brown citrus aphid (BCA) was found in Florida for the 
first time in 1995 and within a year or two is expected to appear 
throughout the state. Because the BCA is a more efficient vector than 
other aphid species, and because it can transmit severe stem-pitting 
strains that the others cannot, a greatly increased risk of loss now 
exists, especially for trees on sour orange rootstock. Although stem-
pitting strains are now rare in Florida, with the arrival of the BCA, 
they are expected to become more prevalent. These strains attack citrus 
regardless of rootstock.
    Current annual losses are estimated to be about 400,000 trees with 
a value of $40-$60 million. Losses over the next 20 years are expected 
to be about $400 million for the trees on sour orange rootstock. Any 
loss due to stem pitting strains on other rootstocks would be 
additional.
    Mr. Skeen. By location, what is the funding and staffing for the 
tristeza virus research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal years--                          
                                            --------------------------------------------------------------------
                  Location                            1996                   1997                   1998        
                                            --------------------------------------------------------------------
                                               Funds    Scientists    Funds    Scientists    Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Fresno, CA.................................   $470,000         .0    $466,300         .0    $466,300         .0 
Orlando, FL................................    582,900        1.5     572,400        1.5     572,400        1.5 
Beltsville, MD.............................     30,000        0.1      46,100        0.1      46,100        0.1 
                                            --------------------------------------------------------------------
  Total....................................  1,082,900        2.6   1,084,800        2.6   1,084,800        2.6 
----------------------------------------------------------------------------------------------------------------

                               germ plasm
    Mr. Skeen. By location, what is the funding and staff for germ 
plasm facilities for fiscal years 1996, 1997, and 1998?
    Response. The estimated ARS funding and scientist staff for the 
major plant germplasm repositories and research facilities will be 
provided for the record.

[Page 79--The official Committee record contains additional material here.]


    Mr. Skeen. For the record, please list the germplasm collections 
that are maintained by ARS.
    Response. The information on location-specific germplasm 
collections maintained by ARS in cooperation with the State and private 
sector will be provided for the record.
    Davis, CA.--almond, fig, grape, kiwi, mulberry, olive, persimmon, 
pistachio, pomegranate, stone fruit, and walnut.
    Riverside, CA.--citrus and related genera, and dates.
    Salinas, CA.--lettuce genetic stocks.
    Fort Collins, CO.--base seed collection of major economic crops.
    Washington, D.C.--woody landscape genera.
    Miami, FL.--annona, avocado, mango, passiflora, sugarcane.
    Griffin, GA.--cowpea, melon, peanut, pepper, sorghum, and 
sweetpotato.
    Tifton, GA.--pearl millet.
    Hilo, HI.--acerola cherry, atemoya, breadfruit, carambola, guava, 
litchi, macadamia, papaya, passion-fruit, peach palm, pili nut, 
pineapple, and rambutan.
    Ames, IA.--alfalfa, cabbage, maize, melon, sugarbeet, sunflower, 
and soybean genetic stocks.
    Aberdeen, ID.--barley, barley genetic stocks, oat, rice, rye, 
triticale, and wheat.
    Urbana, IL.--maize genetic stocks and soybean.
    Columbia, MO.--triticale and wheat genetic stocks.
    Oxford, NC.--tobacco.
    Fargo, ND.--durum wheat genetic stocks and flax.
    Geneva, NY.--apple, brassicas, celery, sour cherry, hardy grape, 
squash, and tomato.
    Corvallis, OR.--blackberry, blueberry, cranberry, current, filbert, 
gooseberry, hop, mint, pear, raspberry, and strawberry.
    Mayaguez, PR.--bamboo, banana, Brazil nut, cacao, coffee, mango, 
and plantain.
    College Station, TX.--cotton and cotton genetic stocks, sorghum 
genetic stocks, chestnut, hickory, and pecan.
    Logan, UT.--range grass collection.
    Pullman, WA.--alfalfa, bean, chickpea, clover, grasses, lentil, 
onion, pea and pea genetic stocks, and safflower.
    Madison, WI.--potato.
    Mr. Skeen. For the record, please list major germplasm collections 
in the world and their locations.
    Response. Several countries maintain large and diverse major 
collections, including Brazil, Canada, China, Colombia, Ethiopia, 
Germany, Hungary, India, Italy, Japan, Republic of Korea, Mexico, The 
Netherlands, the Nordic countries, Peru, Poland, and Russia. Large, 
crop-specific collections are also held at international agricultural 
research centers of the Consultative Group on International 
Agricultural Research (CGIAR) in developing countries. Major crop-
specific germplasm collections and their locations will be provided for 
the record.

------------------------------------------------------------------------
               Crop                      Location and organization      
------------------------------------------------------------------------
Bean.............................  Cali, Colombia--International Center 
                                    for Tropical Agriculture.           
Cassava..........................  Cali, Colombia--International Center 
                                    for Tropical Agriculture and        
  ...............................  Ibadan, Nigeria--International       
                                    Institute for Tropical Agriculture. 
Chickpea.........................  Hyderabad, India--International Crops
                                    Research Institute for the Semi-Arid
                                    Tropics.                            
Cowpea...........................  Ibadan, Nigeria--International       
                                    Institute for Tropical Agriculture. 
Maize............................  El Batan, Mexico--International      
                                    Center for Maize and Wheat          
                                    Improvement.                        
Peanut...........................  Hyderabad, India--International Crops
                                    Research Institute for the Semi-Arid
                                    Tropics.                            
Pearl Millet.....................  Hyderabad, India--International Crops
                                    Research Institute for the Semi-Arid
                                    Tropics.                            
Pidgeonpea.......................  Hyderabad, India--International Crops
                                    Research Institute for the Semi-Arid
                                    Tropics.                            
Potato...........................  Lima, Peru--International Potato     
                                    Center.                             
Rice.............................  Los Banos, Philippines--International
                                    Rice Research Institute.            
Sorghum..........................  Hyderabad, India--International Crops
                                    Research Institute for the Semi-Arid
                                    Tropics.                            
Sweetpotato......................  Lima, Peru-International Potato      
                                    Center.                             
Wheat............................  El Batan, Mexico--International      
                                    Center for Maize and Wheat          
                                    Improvement.                        
------------------------------------------------------------------------

                            grape phylloxera
    Mr Skeen. Please describe for the Committee the research you are 
doing in connection with grape phylloxera, by location.
    Response. At Davis, California, research is conducted on the cause 
of the death of newly planted phylloxera-resistant rootstocks in young 
replanted vineyards. This work is focused on the role of grapevine 
viruses and water mold fungi. At Fresno, California, grape rootstocks 
with resistance to phylloxera and other soilborne pests are being 
developed by conventional breeding and evaluated. Using biotechnology, 
new genes providing resistance to soilborne pests are also being 
introduced into grapes.
    Mr. Skeen. Please describe the need for this research.
    Response. Grape phylooxera, also known as the grapevine root louse, 
is a root-sucking insect pest of grape plants. Until recently, this 
pest did not cause significant economic losses in California because of 
the general resistance of the most commonly used grape rootstock. In 
the late 1980's a new strain of phylloxera appeared which overcomes 
this resistance and kills or severely debilitates the vines. Economic 
losses have been particularly severe in the coastal wine-growing 
regions of California. The pest is now widespread in California, 
including the interior valleys, and the Pacific Northwest. Affected 
plants must be removed and vineyards replanted. Grape rootstocks 
resistant to phylloxera are available, but they suffer other 
shortcomings, such as susceptibility to plant viruses and soilborne 
diseases.
    Mr. Skeen. By location, what is the funding for grape phylloxera 
research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

------------------------------------------------------------------------
                                                Fiscal years; funds--   
                 Location                  -----------------------------
                                              1996      1997      1998  
------------------------------------------------------------------------
Davis, CA.................................   $58,100   $36,000   $36,000
Fresno, CA................................   188,600   137,200   137,200
                                           -----------------------------
  Total...................................   246,700   173,200   173,200
------------------------------------------------------------------------

    Mr. Skeen. The grape and wine industry are one of the largest 
agricultural value crops in the U.S. What percentage of the overall 
agriculture value is grape products?
    Response. Grape cash receipts represent 1.4 percent of all farming. 
The farm gate value of the crop is estimated to be $2.2 billion with 
value added in excess of $7 billion.
                        grape virology research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with grape virology research, by location.
    Response. ARS conducts grape virology research at Davis, 
California. The research involves identifying the causal agents, 
describing disease spread, and devising control method for viruses and 
graft-transmissible pathogens affecting grapevines. This research 
effort also includes developing specific assays for the rapid detection 
and identification of the pathogens. Sensitivities of various 
commercial grape rootstocks to viruses and graft-transmitted pathogens 
are being investigated.
    Mr. Skeen. What is the need for this research?
    Response. Currently, large acreages of vineyards are being 
established with various scions grated onto several kinds of grape 
rootstocks of different Vitis species. Often the scion sources appear 
healthy, but in fact, are infected with one or more (latent) disease 
agents that eventually move into the rootstock and cause general plant 
declines. The sensitivities of these rootstock to specific viruses are 
unknown. Also, the identities of the latent disease agents remain 
unknown due, in part, to the time-consuming assay procedures currently 
in use. Improved methods are needed to more rapidly and reliably 
identify sources of both rootstock and scionwood free of such latent 
viruses.
    Mr. Skeen. What are some of the agency's accomplishments in this 
field of research?
    Response. Improved purification procedures for grape leafroll-
associated closteroviruses (GLRV) have been developed. Highly reactive 
antisera against GLRV types II and IV have been produced. Cooperative 
research is under way to develop anti-grape fanleaf virus (GFLV)-
resistant rootstocks using GFLV genes.
    Mr. Skeen. By location, what is the funding and staff for grape 
virology research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                         Fiscal years--                         
                                              ------------------------------------------------------------------
                   Location                             1996                  1997                  1998        
                                              ------------------------------------------------------------------
                                                 Funds    Scientists    Funds   Scientists    Funds   Scientists
----------------------------------------------------------------------------------------------------------------
Davis, CA....................................   $210,700        1.0    $36,000        0.1    $36,000        0.1 
----------------------------------------------------------------------------------------------------------------

                     grasshopper and mormon cricket
    Mr. Skeen. Please describe for the Committee the research you are 
doing in connection with research on grasshoppers and Mormon crickets.
    Response. The ARS Northern Plains Agricultural Research Laboratory 
in Sidney, Montana, conducts a research program on grasshopper and 
Mormon cricket control which focuses on environmentally compatible, 
economical, and publicly-acceptable control technology. The scientists 
conducting this research were recently relocated from Bozeman to 
Sidney, Montana, which is situated more closely to major grasshopper 
problem areas. The research now being conducted at Sidney includes the 
use of biological control--especially with microbial agents--reduced 
pesticide use through baits in place of sprays, and grazing systems 
research. Additionally, ARS scientists working on grasshoppers and 
Mormon crickets have greatly increased the knowledge of general biology 
and population dynamics of these pests culminating in the development 
of ``Hopper'', an expert management advice system for ranchers. 
Taxonomic support for the program is provided by the Systematic 
Entomology Laboratory in Beltsville, Maryland, which helps to identify 
potential natural parasites as biological control agents. The overall 
ARS Integrated Pest Management Program has been highly coordinated with 
the 5-year interagency Grasshopper Integrated Pest Management Project 
begun in 1987 and managed by the Animal and Plant Health Inspection 
Service (APHIS). A Grasshopper Integrated Pest Management Project 2-
year technology transfer plan was developed, following the completion 
of the 5-year Grasshopper Integrated Pest Management Project, for 
fiscal years 1994 and 1995 and implemented by APHIS. The grasshopper 
IPM program was transferred to the farmers and ranchers for adoption in 
FY 1996. Technology developed by ARS is an integral part of the 
program, which includes the Hopper decision support system, baits, and 
microbial biocontrol agents. The laboratory is continuing to develop 
new survey and sampling techniques, forecasting tools, decision aids, 
and biological control agents for integration of additional pest 
management options into farm/ranch and crop/ranch operations.
    Mr. Skeen. By location, what is the funding for grasshopper and 
Mormon cricket research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

                           [Fiscal year funds]                          
------------------------------------------------------------------------
              Location                   1996        1997        1998   
------------------------------------------------------------------------
Sidney, MT..........................    $697,600    $690,600    $690,600
------------------------------------------------------------------------

                          alcohol consumption
    Mr. Skeen. In the past several years there have been several media 
events that discussed what is known as the ``French Paradox.'' This 
generally shows an equation between moderate alcohol consumption and 
some health benefits. The Committee asked the Department to support 
research efforts in this area. What is the status of this research?
    Response. In 1993, research to scientifically validate the reported 
beneficial health effects of alcohol consumption was initiated at the 
USDA/ARS Beltsville Human Nutrition Research Center in Beltsville, 
Maryland. Findings obtained thus far indicate that although moderate 
regular alcohol consumption does not beneficially or adversely affect 
metabolic rate, it improves body fat metabolism, helps in weight 
control, and beneficially changes some risk factors associated with 
cardiovascular disease. The study of the relationship between moderate 
alcohol consumption and some health benefits are continuing; it is 
planned that an additional study will be conducted in 1997. This study 
will examine the effect of pattern of consumption of alcohol on 
bringing forth beneficial outcomes, and whether alcohol consumption 
affects antioxidant status and oxidative stress which can alter the 
susceptibility to some chronic diseases including heart disease and 
cancer.
    Mr. Skeen. How much money is dedicated to this effort and where is 
the research being conducted?
    Response. In fiscal year 1997, $560,900 has been dedicated to study 
the health effects of alcohol. The study will involve human volunteers 
and will be conducted at the ARS Human Research Center at Beltsville.
    Mr. Skeen. The Committee has asked the ARS to develop a working 
strategy to look into the potential benefits of alcohol use and 
cardiovascular health and longevity. Please describe the strategy.
    Response. In addition to findings which suggest that moderate 
alcohol ingestion is helpful in preventing cardiovascular disease, it 
has been observed that individuals that consume alcohol regularly are 
generally leaner than those individuals that abstain from alcohol, 
being learner promotes longevity. Thus, over the next two years studies 
will be performed that will address three general questions. First, 
does the pattern of drinking affect the energy value, or amount of 
calories, derived from alcohol? In other words, is the energy value of 
alcohol different for individuals who binge drink than for individuals 
who consume alcohol regularly in moderate amounts? The answer to this 
question will provide intake guidance for obtaining beneficial effects 
from alcohol. Second, what is alcohol replacing in the diet? Third, 
does alcohol consumption affect the breakdown of other dietary 
components in energy? Based on the finding that the energy value of 
alcohol is near its expected value, to be lean, consumers of alcohol 
must be displacing some of their diet with alcohol, or alcohol is 
affecting the conversion of other food into energy. The determination 
of what is being replaced by alcohol and whether alcohol affects energy 
production most likely will help in the understanding of why moderate 
intakes of alcohol may be beneficial.
                                guayule
    Mr. Skeen. Please describe for the Committee the research you are 
going in connection with guayule, by location.
    Response. ARS research on guayule addresses both production and 
utilization of the guayule plant. At Phoenix, Arizona and Fresno, 
California, we are developing varieties with improved agronic 
properties, salinity and disease tolerance, and cost-effective 
production management practices. At Albany, California, we are 
conducting biotechnology research to identify key enzymes and 
structural proteins required for latex synthesis and subsequent genetic 
engineering to enhance latex yield. Collaborative research between 
Phoenix and Albany is concerned with development of extraction and 
isolation procedures, and preparation of the guayule latex for product 
evaluation.
    Mr. Skeen. Please describe any recent accomplishments.
    Response. Success in increasing the yield of guayule rubber and 
coproducts through breeding and improved agronomic practices continues. 
Plant yields are now 200 percent higher than those obtained from 
standard USDA lines dated to the 1950's. Success in commercialization 
of the process developed for extraction of the hypoallergenic guayule 
latex continues. Guayule latex unlike Helvea rubber latex does not 
induce allergies. This is particularly important to the medical, 
dental, and health care workers who may become severely allergic over 
time to Helvea latex. A patent has been issued for the process of 
guayule latex isolation and issuance of an exclusive license for this 
process has been announced in the Federal Register.
    Mr. Skeen. By location, what is the funding and staff for guayule 
research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal years--                          
                                            --------------------------------------------------------------------
                  Location                            1996                   1997                   1998        
                                            --------------------------------------------------------------------
                                               Funds    Scientists    Funds    Scientists    Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Phoenix, AZ................................   $233,700        0.9    $231,300        0.9    $231,300        0.9 
Albany, CA.................................    174,700        0.4     288,300        0.7     288,300        0.7 
Fresno, CA.................................     48,700  ..........     48,100  ..........  .........  ..........
                                            --------------------------------------------------------------------
      Total................................    457,100        1.3     567,700        1.6     519,600        1.6 
----------------------------------------------------------------------------------------------------------------

                            africanized bees
    Mr. Skeen. Would you please provide for the record a map similar to 
the one provided last year which shows the advance of the Africanized 
bee, by year?
    Response. I submit to you a map that shows South America, Central 
America, and the Southwestern United States and how the Africanized 
honey bee has advanced by year.

[Page 84--The official Committee record contains additional material here.]


    Mr. Skeen. Would you please describe in detail the research you are 
doing in connection with Africanized bees?
    Response. ARS supports USDA and State action and regulatory 
programs and the concerns of the beekeeping industry through 
Africanized honey bee research at four major laboratories. The Bee 
Research Laboratory at Beltsville, Maryland, develops new techniques 
for Africanized honey bee identification and genetic characterization 
of honey bee populations in the New World, and provides authoritative 
identification services and training for regulatory agencies. A 
polymerase chain reaction-based method has been developed to identify 
Africanized bee populations from stingers collected from victims. This 
method assists regulatory and public health agencies to monitor and 
control this behaviorally aggressive species. A DNA fingerprinting 
method is helping in the assessment of effects of Africanization on 
honey bee stocks and in the evaluation of effectiveness of regulatory 
efforts to control Africanized honey bee populations. At the Honey Bee 
Breeding, Genetics and Physiology Research Laboratory in Baton Rouge, 
Louisiana, research emphasis is given to the development of barrier and 
control technologies and manipulation of the genetic process of 
Africanization. Research at the Honey Bee Research Laboratory, Weslaco, 
Texas, focuses on the management of European and Africanized honey 
bees, monitoring changes in feral honey bee populations, negating the 
impact of Africanization on pollination of fruit and vegetable crops, 
and the development of methods for personal protection from Africanized 
honey bee stinging incidents, and monitoring mite and disease 
resistance. At the Carl Hayden Bee Research Center, Tucson, Arizona, 
scientists are developing new bait hive technologies and improved 
methods for monitoring the process of Africanization in arid 
environments and for destroying Africanized honey bees in high-usage 
public lands. They have transferred the personal protection technology 
to professionals and the general public. For example, they have 
developed techniques for rescue workers to intervene in major stinging 
incidents.
    Mr. Skeen. Would you please provide for the record the funding 
assigned to the Africanized bee program, by location.
    Response. During fiscal year 1997, funding for Africanized honey 
bee research at the four honey bee research locations is: Baton Rouge, 
Louisiana--$748,300; Tucson, Arizona--$373,300; Weslaco, Texas--
$406,200; and Beltsville, Maryland--$332,200. Total funds expended for 
Africanized honey bee research amounts to $1,860,000 which is 41 
percent of the total honey bee research effort.
    Mr. Skeen. What developments have occurred in the Africanized bee 
program during the past 12 months?
    Response. Africanized honey bees (AHB) queens continue to enter 
domestic hives in increasing numbers. This is jeopardizing commercial 
beekeeping, pollination, and the production of mite resistant stocks. 
Two AHB apiaries were established for research to develop colony 
management and other strategies for coping with AHB. AHB queens have a 
shorter development time than European honey bees (EHB) such that, at 
the time of queen replacement, AHB queens emerge first and mate with 
drones before the queens of European honey bees emerge. This ``locks'' 
AHB traits into the subsequent colony populations. This information is 
now being used in AHB management studies.
    Surveys indicate Varroa and tracheal mites have practically 
decimated feral bees and are responsible for declining domestic honey 
bee colonies. Feral colony losses have reached 65-70 percent. 
Preliminary studies indicate that AHB exhibit resistance to parasitic 
mite species.
    Feral population monitoring in northeast Mexico and south Texas 
continue to show the Mexican population as 100 percent Africanized, and 
the Rio Grande Valley population hovering between 70-80 percent 
Africanized, depending on season. Only six new counties in Texas were 
added to the quarantine area, primarily in central and west Texas. 
Reasons for the slowing of the spread may be climate or the Varroa 
mite. Hybridization of AHB with EHB is extensive in Arizona, with 
hybrids retaining aggressive behavior of AHB.
    Investigations of Africanized-bee biology indicate that AHB were 
not immune to a bacterial disease common in North America. Current 
studies are evaluating susceptibility to Varroa and tracheal mites. 
Also, baseline data are being collected for a study of the process of 
Africanization of bees existing in a temperate zone. Research into 
control methods demonstrated that two novel methods of abating feral 
Africanized colonies can be used by commercial queen breeders in 
Africanized areas to enhance the quality of queens they produce.
    ARS scientists have developed a homeowners guide to safe honey bee 
swarm control. Africanized honey bees swarm frequently and attack 
humans and animals while vigorously defending their territory. In areas 
colonized by Africanized bees, there is an increasing need to remove 
unwanted honey bee swarms before they become permanent inhabitants of 
cavities within the walls of structures such as homes, schools, and 
nursing home facilities. Swarm removal can be hazardous. Even though 
use of beekeepers or exterminator services is recommended, these are 
expensive. Moreover, many people living in remote areas are unable to 
access these services. A video was produced at the ARS Carl Hayden Bee 
Research Center in cooperation with the University of Arizona, Tucson, 
which provides a do-it-yourself alternative by demonstrating how 
homeowners can use common items of apparel for personal safety and use 
a solution of dishwashing detergent to destroy unwanted honey bee 
swarms. ARS scientists are developing repellents against AHB.
    ARS scientists in Baton Rouge, Louisiana, in cooperation with 
National Park Service in Big Bend National Park in west Texas, have 
developed baiting procedures recently highlighted in a ``Nature'' 
television program and in an ARS manual. The bait is designed to 
eliminate AHB problem colonies that cannot be treated directly because 
they are remote or inaccessible. These procedures provide detailed 
information for program development, training and direct mitigation of 
nuisance honey bees on Federal lands. Land managers can use this manual 
as a guide in developing strategies to cope with Africanized honey 
bees.
                               honey bee
    Mr. Skeen. What resources do you spend on honey bee research?
    Response. In fiscal year 1997, funding for honey bee research will 
be $4,720,000. This excludes funds for ``other pollinating insects'' in 
the amount of $1,193,100. The ARS total bee and pollination research 
budget in fiscal year 1997 amounts to $5,913,100.
    Mr. Skeen. Where are the research activities carried out?
    Response. ARS has active honey bee research programs at Tucson, 
Arizona; Baton Rouge, Louisiana; Beltsville, Maryland; and Weslaco, 
Texas.
    Mr. Skeen. What specific research is being conducted at the 
Weslaco, Texas, laboratory?
    Response. The honey bee research program at Weslaco, Texas, 
involves five research activities. The first involves the development 
of reliable methods to detect and quantify Africanization of managed 
and feral honey bee (HB) colonies and its impact on their parasitic 
mite load. The second activity is the management of the growing varroa 
mite resistance to pyrethroid chemicals, and development and testing of 
new chemicals and application methods for mite control. The third 
activity is managing pestiferous Africanized honey bees (AHB) in high-
usage public lands. The fourth activity is to manage AHB and their 
hybrids for pollination and honey production in the Rio Grande Valley; 
and the fifth is to establish a breeding program to develop improved 
domestic (European) HB stock(s) by incorporating desirable genes of 
AHB, such as its resistance to mites and diseases.
                             ir-4 research
    Mr. Skeen. Please describe for the Committee the IR-4 program and 
the ARS role under that program.
    Response. The IR-4 program is a cooperative program among Federal, 
State, and Industry scientists to register minor uses of pesticides. 
Major research components to develop performance and residue data lie 
within USDA-ARS, USDA-CSREES, the State agricultural experiment 
stations, and private industry. A staff headquartered at Rutgers 
University maintains files, tracks projects, prepares research 
protocols, and develops petitions for submittal to regulatory agencies 
and the chemical registrants. The program is guided by an 
Administrative Advisory Committee and a Technical Committee. Dr. 
Knipling represents ARS on the Advisory Committee and one of our 
scientists is Chairman of the Technical Committee. In addition, ARS 
conducts field experiments to determine pesticide efficacy and performs 
laboratory analyses to determine pesticide residues.
    Mr. Skeen. How are the IR-4 projects selected and how will this 
research be coordinated with the new initiative for IPM?
    Response. Minor use needs are identified by growers, researchers, 
and extension specialists. The researchable needs are prioritized at 
National IR-4 workshops. Annual selection of tentative projects are 
made at regional meetings by the IR-4 State and ARS liaison 
representatives. These selections are based on the priorities 
established by workshops and by regional and national needs and 
availability of scientific expertise and resources to conduct the 
studies. The States and ARS coordinate the projects at a national 
meeting each year.
    The judicious use of chemicals is an integral part of IPM programs. 
IPM chemical needs are identified and prioritized together with other 
IR-4 needs. In addition, IR-4 is assisting in the registration of 
biopesticides useful for IPM programs. To help coordinate the IPM-
related activities, the National Director of IR-4 serves on the CSREES 
Pest Management Strategies Subcommittee.
    Mr. Skeen. By location, what is the funding and staff for IR-4 
research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal years--                            
                                         -----------------------------------------------------------------------
                Location                           1996                    1997                    1998         
                                         -----------------------------------------------------------------------
                                             Funds    Scientists     Funds    Scientists     Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Salinas, CA.............................    $140,900  ..........    $139,500  ..........    $139,500  ..........
Washington, DC..........................      78,200  ..........      77,400  ..........      77,400  ..........
Tifton, GA..............................     644,800        0.2      638,300        0.2      638,300        0.2 
Urbana, IL..............................      10,200  ..........      10,200  ..........      10,200  ..........
Beltsville, MD..........................     373,400        1.8      369,900        1.8      458,500        1.8 
Wooster, OH.............................     102,600  ..........     101,600  ..........     101,600  ..........
Corvallis, OR...........................      61,800  ..........      61,200  ..........      61,200  ..........
Charleston, SC..........................      62,800        0.2       62,200        0.2       62,200        0.2 
Weslaco, TX.............................     112,500        0.2      111,400        0.2      111,400        0.2 
Prosser, WA.............................      89,500  ..........      88,600  ..........  ..........  ..........
Yakima, WA..............................     449,700        0.1      445,200        0.1      445,200        0.1 
                                         -----------------------------------------------------------------------
      Total.............................   2,126,400        2.5    2,105,500        2.5    2,105,500        2.5 
----------------------------------------------------------------------------------------------------------------

    Mr. Skeen. What is the total USDA budget for IR-4 for fiscal years 
1996, 1997, and 1998 by agency and by program?
    [The information follows:]

------------------------------------------------------------------------
                                             Fiscal years--             
            Agency             -----------------------------------------
                                    1996          1997          1998    
------------------------------------------------------------------------
ARS...........................    $2,126,400    $2,105,500    $2,105,500
CSREES........................     6,186,000     6,186,000    11,186,000
                               -----------------------------------------
      Total...................     8,312,400     8,291,500    13,291,500
------------------------------------------------------------------------

                  jointed goat grass control research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with jointed goat grass control, by location.
    Response. At Pullman, Washington, research involves (1) integrated 
management, including crop rotations and herbicides, to control the 
weed while maintaining profitability and minimizing soil erosion; (2) 
population dynamics and economic thresholds of jointed goatgrass; (3) 
identification and utilization of traits that increase wheat 
competitiveness against the weed; and (4) biocontrol of the weed using 
soil bacteria. At Akron, Colorado, research mainly involves the effect 
of cultural management practices and crop rotations on control and 
infestation levels in dryland wheat. Scientists at both locations 
participate in regional projects on the biology and control of winter 
annual grasses in dryland winter wheat, and they have cooperative 
research projects with scientists at Washington State University, 
Colorado State University, and other universities in the West and High 
Plains.
    Mr. Skeen. What is the need for this research?
    Response. Jointed goatgrass has become a serious pest of winter 
wheat in the Great Plains and western U.S. It infests an estimated 
5,000,000 acres and is spreading at a rate of at least 50,000 acres per 
year. The plant is genetically related to wheat, and no herbicides 
control it selectively without damage to the wheat crop. No 
economically feasible cleaning methods are available to remove the seed 
from the wheat grain. Dockage charges for presence of jointed goatgrass 
in harvested wheat are steep, so that realistic management plans must 
reduce its level to virtually zero. For control of jointed goatgrass, 
farmers must cultivate their fields extensively, creating soil erosion 
problems, or rotate into less profitable crops. Seeds are fairly long-
lived in the soil, so at least 4 years in a crop rotation cycle are 
needed to eliminate serious infestations. Direct costs to wheat growers 
from jointed goatgrass are estimated at $35,000,000 in yield losses and 
$10,000,000 in penalties for grain quality.
    Mr. Skeen. By location, what is the funding and staff for jointed 
goat grass control research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal years--                            
                                         -----------------------------------------------------------------------
                Location                           1996                    1997                    1998         
                                         -----------------------------------------------------------------------
                                             Funds    Scientists     Funds    Scientists     Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Akron, CO...............................    $104,700        0.3     $136,000        0.5     $136,000        0.5 
Pullman, WA.............................     147,900        0.7      146,400        0.7      146,400        0.7 
                                         -----------------------------------------------------------------------
      Total.............................     252,600        1.0      282,400        1.2      282,400        1.2 
----------------------------------------------------------------------------------------------------------------

                                 kenaf
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with kenaf, by location.
    Response. ARS has kenaf research underway at seven locations. At 
Weslaco and College Station, Texas, Lane, Oklahoma, and Stoneville, 
Mississippi, ARS scientists conduct variety improvement and agronomic 
research to devise production systems appropriate to the particular 
area and climate. At Stoneville, ARS scientists cooperate with 
scientists at Mississippi State University to develop applications and 
markets for kenaf and the development of harvesting and fiber 
processing systems. At Athens, Georgia, research focuses on 
biotechnological ways of separating kenaf fiber from the stalk of the 
plant. Research projects in New Orleans, Louisiana, and in several 
small projects funded from Headquarters, are developing technologies 
for the processing of kenaf fiber into non-woven mats and the 
incorporation of the fiber into resin-reinforced fiber board.
    Mr. Skeen. What are some of the agency's accomplishments in this 
field of research?
    Response. Through the agronomic work at Weslaco and College 
Station, Texas, Lane, Oklahoma, and Stoneville/Mississippi State 
University, Mississippi, management of the crop has been refined with 
particular emphasis to the region where kenaf is grown. ARS and ARS-
cooperator research has demonstrated commercial targets for kenaf 
products: oil spill adsorbent, drilling mud component, greenhouse and 
mulch growth medium, insulation paneling and as a component in 
reinforced thermoplastics for automobile door and head liners. 
Additional studies in Mississippi show kenaf's potential as a concrete 
aggregate. ARS scientists are exploring kenaf's potential in the 
bioremediation of selenium- and boron-contaminated soils in 
California's San Joaquin Valley. Core Products Co., Mississippi, is 
marketing kenaf core for animal litter. ARS in Athens, Georgia, is 
exploring novel biotechnological ways to separate the fiber component 
from kenaf.
    Mr. Skeen. Originally, this research was promoted as a means to 
develop a new product that would be used to replace imported newsprint. 
To what extent has this occurred?
    Response. It is unlikely that kenaf will capture a major share of 
the newsprint market in the foreseeable future. Major newsprint 
producers are committed to wood feedstock, and a declining market for 
newsprint is compounded by major recycling efforts. Nevertheless, there 
is a growing ``green'' market for high quality unbleached bond paper 
made from kenaf. One entrepreneur in Texas is convinced that success 
with kenaf in the paper market requires a vertically-integrated effort, 
from production through papermaking; he and his investors project such 
a facility in south Texas, backed by the planting of several thousand 
acres of kenaf in that region. Experience in Mississippi shows that 
there is a more ready market for kenaf core materials than for the 
fiber--an ironic reversal of the product/byproduct concept associated 
with this crop.
    Mr. Skeen. By location, what is the funding and staff for kenaf 
research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal years--                            
                                         -----------------------------------------------------------------------
                Location                           1996                    1997                    1998         
                                         -----------------------------------------------------------------------
                                             Funds    Scientists     Funds    Scientists     Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Athens, GA..............................    $104,200        0.5     $103,100        0.5     $103,100        0.5 
New Orleans, LA.........................     131,900        0.3      146,600        0.3      146,600        0.3 
Stoneville, MS..........................     496,600        0.1      491,600        0.1   ..........  ..........
Lane, OK................................     152,300        1.0      150,800        1.0      150,800        1.0 
College Station, TX.....................      38,100        0.1       37,700        0.1   ..........  ..........
Weslaco, TX.............................     358,700        1.1      355,000        1.1   ..........  ..........
Headquarters............................     369,600  ..........     106,900  ..........  ..........  ..........
                                         -----------------------------------------------------------------------
      Total.............................   1,651,400        3.1    1,391,700        3.1      400,500        1.8 
----------------------------------------------------------------------------------------------------------------

                           locoweed research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with locoweed research, by location.
    Response. ARS research on locoweed is conducted at Logan, Utah. The 
research objectives are to identify the toxic effects of locoweed on 
livestock and to develop improved diagnostic, therapeutic, and 
management techniques to minimize the pathologic and economic effects 
of locoweed intoxication. Specific research projects include 
determining the conditions of locoweed poisoning, the doses and 
duration of poisoning that result in economically important locoweed 
damage, the clearance rates of swainsonine (the locoweed toxin) from 
animal tissues and products, and effects on the reproduction and immune 
systems of livestock. Additional studies include development of 
immunodiagnostic techniques, such as ELISA, to better identify and 
monitor intoxication, and potential therapies, including vaccine 
development and toxin-binding compounds. Current work delineates the 
many locoweed-induced changes in reproduction, the immune system, and 
specific neurologic functions. This research is essential in developing 
management plans and treatments to minimize the effects of locoweed 
poisoning of livestock. Management strategies to minimize locoweed 
poisoning and the potential for control with herbicides, plant 
pathogens, and/or native insect biocontrol agents are being studied 
through a cooperative agreement from the Logan Laboratory with New 
Mexico State University.
    Mr. Skeen. Please describe the need for this research and 
information you have concerning the total losses to U.S. agriculture.
    Response. Locoweed is a native plant that grows in all Western 
States. It consistently poisons animals in Utah, Arizona, New Mexico, 
Texas, Colorado, Wyoming, California, South Dakota, and Montana. 
Animals are poisoned when locoweed is consumed at a rate of between 5 
and 10% of their diet for several weeks. Locoweed poisoning is an 
insidious disease that is often not recognized until severe damage, 
including abortions, birth defects, congestive right heart failure, 
decreased fertility, altered immune function, anorexia, emaciation, and 
death has occurred. Animals that survive may have irreversible 
neurological changes that make them useless for most work and of 
limited value for breeding and food. Locoweed interferes with the 
harvesting of useful forage resulting in the disruption of grazing 
programs and the loss of considerable livestock forage. It has, on 
occasion, resulted in the poisoning of big game such as elk and 
antelope.
    Mr. Skeen. By location, what is the funding and staff for locoweed 
research for fiscal years 1996, 1997, and 1998?
    Response. The funding for locoweed research at Logan, Utah, was 
$578,400 in FY 1996. For FY 1997 and 1998, funding is projected to be 
$572,500 each year, with two ARS scientists working on locoweed 
research. This includes an estimated $113,000 in support of a 
cooperative agreement with New Mexico State University in FY 1997 and 
1998.
                   low-input sustainable agriculture
    Mr. Skeen. Would you please describe for the Committee, in detail, 
the work ARS has underway in the field of low-input sustainable 
agriculture?
    Response. Recent classifications of the ARS research program 
indicates that approximately 360 projects or 30% of the total program 
contributes substantially to sustainable agriculture. Classification as 
``contributing substantially'' is based on the program contributing to 
two or more of the following criteria: integrates plant and animal 
production practices into cost effective production systems; satisfies 
human food and fiber needs; enhances environmental quality; conserves 
or enhances natural resources; improves utilization of biological 
resources; increases economic viability; enhances qualify of life. 
Specific examples of ARS sustainable agriculture research underway in 
fiscal year 1997 are as follows:
    Cheyenne, Wyoming; Pendleton, Oregon; Oxford, Mississippi; and 
Ames, Iowa--Contributions of root and above ground portions of crops 
and grasses to residual organic matter in soils and the roles of 
tillage, double cropping and winter cover crops are being evaluated, 
and cropping systems are being developed to improve soil quality where 
most of the above ground portions of the crop can be harvested for 
fiber, animal feed, or energy production.
    Columbia, Missouri; Beltsville, Maryland; Ithaca, New York; 
Gainesville, Florida; and Beckley, West Virginia--Field and pasture 
species are being identified with specific abilities to penetrate acid 
subsoils, and other soil layers that restrict rooting depth of most 
crops. Cropping systems are being developed which can be used to 
penetrate restrictive soil layers and facilitate deeper penetration of 
successive crop roots to permanently expand the reservoirs of water 
available, thereby reducing drought stress and increasing crop yields.
    Columbus, Ohio, and Athens, Georgia--Crop species (soybean and 
wheat) are being developed that survive and continue growth under 
flooded conditions in order to reduce flood damage and decrease 
drainage costs.
    Akron, Colorado; Mandan, North Dakota; Bushland, Texas; Lincoln, 
Nebraska; and Sidney, Montana--Crop rotations and alternative farming 
systems are being developed to more fully utilize stored soil water and 
expected rainfall, to reduce soil erosion and the time that land is in 
fallow, to better control insects and diseases, and to increase net 
incomes of Great Plains farmers.
    Ithaca, New York, and Pullman, Washington--New varieties of crops 
are being evaluated that grow more rapidly in cold winter and early 
spring soils and thereby mature more quickly and avoid summer drought 
or fall frosts, and are better adapted to rotational crop systems in 
the colder regions of the U.S.
    Mr. Skeen. Where is this work carried out?
    Response. ARS work on sustainable agriculture is carried out in 39 
States at over 90 ARS laboratories and work sites with soil and climate 
conditions representative of all the major U.S. crop and animal 
production areas.
    Mr. Skeen. What is the budget for fiscal years 1996, 1997, and 
1998?
    Response. During 1994, ARS developed and began using criteria 
established for the classification of sustainable agriculture research, 
as defined in the 1990 Farm Bill. ARS convened panels to reassess the 
contribution of individual research projects to sustainability. These 
panels included farmers, representatives from non-profit organizations, 
as well as scientists. They concluded that ARS research contributing to 
low-input sustainable agriculture was budgeted for fiscal year 1996 at 
$210,105,000. ARS estimates that $221,890,000 is budgeted for 
sustainable agriculture research in fiscal year 1997 and $218,387,000 
in fiscal year 1998.
    Mr. Skeen. What is the total USDA program, by agency, for low-input 
sustainable agriculture for fiscal years 1996, 1997, and 1998?
    Response. The USDA budget for sustainable agriculture research is 
as follows:

----------------------------------------------------------------------------------------------------------------
                                                                              Funds--fiscal year--              
                                                              --------------------------------------------------
                                                                     1996             1997             1998     
----------------------------------------------------------------------------------------------------------------
Agricultural Research Service................................     $210,105,000     $221,890,000     $218,387,000
Cooperative State Research Education, and Extension Service..      115,566,000      131,485,000      128,668,000
                                                              --------------------------------------------------
      Total..................................................      325,671,000      353,375,000      347,055,000
----------------------------------------------------------------------------------------------------------------

                         lyme disease research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with lyme disease research, by location.
    Response. At Beltsville, Maryland, Lyme disease research is 
conducted on the ecology of adult deer ticks at the woods/pasture 
interface. Research addresses the movement of deer ticks as it relates 
to protecting premises from the risk of exposure, and includes the 
development of physical/chemical barrier technology. At the Knipling-
Bushland U.S. Livestock Insects Laboratory, Kerrville, Texas, emphasis 
is given to the characterization of the host/parasite interactions with 
particular attention to wildlife. Research is also underway to develop 
chemical control technologies, including novel delivery systems for 
controlling adult ticks on white-tailed deer, and their utilization 
within integrated management systems.
    Mr. Skeen. What is the need for this research?
    Response. Since the deer tick is the principal vector (carrier) of 
Lyme disease, research is necessary to devise methods of reducing the 
tick's population density in order to break the disease transmission 
cycle.
    Mr. Skeen. What are some of the Agency's accomplishments in this 
field of research?
    Response. ARS scientists have developed fundamental knowledge 
concerning methods for controlling deer ticks, also known as black-
legged ticks, which are the vectors of the pathogen causing Lyme 
disease. Specifically, ARS scientists in Beltsville, Maryland, designed 
barriers treated with an acaricide that were found to prevent dispersal 
of host-seeking ticks. A simple system has been devised that will allow 
scientists to assess the effectiveness of treatments to control adults 
ticks on deer. ARS scientists have demonstrated external leg glands of 
white-tailed deer are important in determining where adult ticks attach 
to host animals. ARS scientists in Kerrville, Texas, have developed a 
medicated corn bait technology to control ticks on white-tailed deer 
which are the primary host animals for the tick species that transmit 
Lyme disease. This is the only available, easy-to-use, and most 
effective method of controlling ticks on wildlife during the non-
hunting season or in wildlife refuge areas. Automatic deer feeders or 
open troughs containing invermectin-treated whole kernel corn are used 
for feeding deer. By this method, reductions of 92, 93, and 100 percent 
of adults, nymphs, and larvae, respectively, have been achieved in the 
treatment area thus greatly reducing the risk to humans of possibly 
contracting disease organisms. For controlling ticks on deer during 
hunting season, ARS scientists have developed a recently patented 
tropical pesticide treatment device called ``FOUR POSTS.'' It delivers 
a known quantity of pesticide in the tick infested areas of neck and 
ears when deer come to eat unmedicated corn in the ``FOUR POSTS.'' This 
method of topic treatment of white-tailed deer and the medicated corn 
bait are being evaluated in the wildlife refuge areas in the Southern 
Plains, northeast and Midwest regions.
    Mr. Skeen. By location, what is the funding and staff for lyme 
disease research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal years--                          
                                            --------------------------------------------------------------------
                  Location                            1996                   1997                   1998        
                                            --------------------------------------------------------------------
                                               Funds    Scientists    Funds    Scientists    Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Beltsville, MD.............................   $702,700    \1\ 1.0    $695,600    \1\ 1.0    $520,400        1.0 
Kerrville, TX..............................    259,600        1.0     257,000        1.0     257,000        1.0 
                                            --------------------------------------------------------------------
      Total................................    962,300        2.0     952,600        2.0     777,400        2.0 
----------------------------------------------------------------------------------------------------------------
\1\ Includes $157,500 for a cooperative agreement with Yale University.                                         

                        methyl bromide research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with methyl bromide research, by location.
    Response. ARS conducts research at 19 locations to find 
alternatives to present soil fumigation and postharvest uses of metyhyl 
bromide. A description of our research projects at these locations 
follows.
    Research to develop alternatives to methyl bromide treatments for 
commodity exports produced in the western United States is conducted at 
ARS laboratories in Fresno, California, and Yakima, Washington. 
Commodities being studied include nectarines, cherries, apples, raisins 
and other dried fruits, citrus, tree nuts, cotton, and hay. Many of 
these commodities cannot currently be exported without methyl bromide 
treatment to eliminate quarantine pests. Research approaches include 
alternative fumigants, heat and cold, modified atmospheres, and 
combinations of treatments.
    At Weslaco, Texas, and at Orlando and Miami, Florida, we are 
developing alternative quarantine treatments for citrus, vegetables, 
and subtropical fruits, as well as studying ways to minimize phytotoxic 
effects of these treatments. Emphasis is placed on pest-free zones, 
heat and cold treatments, and advanced quarantine pest detection 
systems.
    At our Hilo/Honolulu, Hawaii, laboratory, we are developing 
alternatives for tropical fruit infested with fruit flies, especially 
Mediterranean and oriental fruit flies, to allow export of Hawaii-grown 
fruit to foreign markets and mainland United States, and to protect 
mainland United States from introduction of pests present in Hawaii. 
This research focuses on heat and cold commodity treatments and on 
techniques to eradicate fruit flies.
    Research to develop alternatives to soil fumigation with methyl 
bromide to control pathogens and weeds is conducted at 15 ARS 
locations. Methyl bromide is used to some extent on more than 100 
crops, although nearly 80 percent of all the preplant methyl bromide 
soil fumigation is used on just four crops--strawberries, tomatoes, 
ornaments/nursery crops, and peppers. Alternatives to methyl bromide 
soil fumigation include host plant resistance, biological control, 
alternative chemicals, and different cultural practices, either alone 
or combination.
    At Washington, D.C., biological control and alternative, naturally-
occurring chemicals are being evaluated as alternatives to methyl 
bromide for control of soilborne diseases of ornamentals.
    At Beltsville, Maryland biological control agents are being 
identified and their mode of action determined to improve control of 
diseases of vegetables.
    At Kearneysville, West Virginia, cultural and biological controls 
are sought to reduce disease losses in tree fruits.
    At Fresno, California, integrated strategies are being tested that 
involve host plant resistance, biological control and alternative 
chemicals for control of disease, nematodes and insects of 
strawberries, grapes, tree fruits, and vegetables.
    At Riverside, California, research is under way to reduce methyl 
bromide emission in strawberry and vegetable production and to track 
the movement and degradation of methyl bromide and alternative 
fumigants.
    At Davis, California, work is directed at using host plant 
resistance and cultural modifications to manage diseases in tree fruits 
and nuts.
    At Salinas, California, research is aimed at finding biological and 
cultural control methods to manage strawberry and vegetable diseases.
    At Wenatchee, Washington, disease problems in tree fruit production 
are being identified, and biological agents for their control are being 
sought.
    At Corvallis, Oregon, biological controls are being investigated 
for diseases of ornamentals, and the role of beneficial microorganisms 
in disease and weed management is being explored.
    At Stoneville, Mississippi, biological control agents to control 
weeds in vegetables are being identified and characterized.
    At Tifton, Georgia, the emphasis is on finding cultural methods and 
alternative chemical treatments for control of nematodes and diseases 
on vegetables.
    At Byron, Georgia, research is aimed at improving cultural 
practices and host resistance to manage nematodes and diseases in 
peaches and other tree fruits.
    At Gainesville, Florida, work is under way to find alternative soil 
treatments, such as solarization, flooding, or heating, to control 
pests, weeds, and pathogens.
    At Orlando, Florida, integrated methods involving biologic control, 
cultural practices, and alternative chemicals are being developed for 
control of weeds, nematodes and diseases in tomatoes, peppers, and 
other vegetables.
    At Charleston, South Carolina, alternative fumigants, host-plant 
resistance, and cultural practices are being explored as alternative 
disease management strategies in vegetables and fruits.
    In addition, field-scale validation projects were begun in fiscal 
year 1996 in Fresno, California, and Orlando, Florida, to determine if 
the most promising experimental alternatives were effective, 
economically feasible, and adaptable to commercial production systems.
    Mr. Skeen. What is the need for this research?
    Response. Methyl bromide is a halogenated hydrocarbon used as a 
soil fumigant to control insects, weeds, and soil pathogens affecting 
production of fruits, vegetables, and other crops, and a postharvest 
fumigant for pest disinfestation of fruits for export and import. The 
Environmental Protection Agency has banned the import and manufacture 
of methyl bromide, effective January 1, 2001, because of its ozone 
depletion potential. Loss of methyl bromide as a postharvest commodity 
and soil fumigant will adversely affect crop production in the United 
States, as well as both export and import trade between the U.S. and 
its trading partners. Additionally, methyl bromide is the only 
available tool for emergency use to permit movement of commodities out 
of agricultural areas quarantined because of the Mediterranean fruit 
fly or other pest outbreaks. Serious economic losses to U.S. producers 
and handlers of many agricultural commodities are anticipated if 
economically feasible alternatives are not available after January 1, 
2001. The development of alternative technologies to the use of methyl 
bromide is one of USDA's highest research priorities.
    Mr. Skeen. What are some of the agency's accomplishments in this 
field of research?
    Response. Methyl bromide was only recently identified as an ozone 
depleting material. However, because ARS has for many years been 
developing non-chemical procedures to replace chemical soil and 
postharvest fumigations, ARS has several accomplishments in this area.
    In relation to postharvest treatments ARS developed or assisted in 
developing cold treatment for citrus and carambola from Florida to 
Japan, pest-free certification for walnuts to New Zealand, heat 
treatments for papaya and cold treatment for carambola from Hawaii to 
Japan and mainland U.S., phospine fumigation of hay to Japan, gamma 
irradiation treatment of exotic fruit and blueberry, and forced hot air 
protocol for control of medfly in citrus.
    Accomplishments pertinent to replacing methyl bromide as a soil 
treatment include improved strawberry and vegetable varieties with 
increased resistance to some soilborne diseases and pests; 
microbiological agents for the biological control of some soilborne 
diseases of vegetables and ornamental crops; improved cultural 
practices, such as improved soil preparation, crop rotation systems, 
and altered planting dates, to mitigate the effects of some soilborne 
pests of strawberries, vegetable, and ornamental crops; and improved 
pesticide formulation and application technology for available 
chemicals other than methyl bromide to control plant parasitic 
nematodes.
    Non-pathogenic variants of a tomato-infecting fungus were shown to 
be effective in controlling pathogenic strains. Grapevine and peach 
rootstocks with improved nematode resistance have been developed. 
Methods were devised for mass-producing and stabilizing mycoherbicidal 
fungi for control of several weed species. Solarization of soil was 
shown to be effective for controlling weeds in vegetable production. 
Root-knot nematode resistance has been incorporated into commercial 
bell peppers.
    Mr. Skeen. By location, what is the funding and staff for methyl 
bromide research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal years--                             
                                      --------------------------------------------------------------------------
               Location                          1996                     1997                     1998         
                                      --------------------------------------------------------------------------
                                          Funds     Scientists     Funds     Scientists     Funds     Scientists
----------------------------------------------------------------------------------------------------------------
Davis, CA............................     $232,500        1.0      $230,100        1.0      $230,100        1.0 
Fresno, CA...........................    3,365,100        9.3     3,531,600        9.3     3,531,600        9.3 
Riverside, CA........................      130,200        0.5       128,900        0.5       128,900        0.5 
Salinas, CA..........................      248,200        1.0       545,600        1.0       545,600        1.0 
Washington, DC.......................      248,000        1.0       245,500        1.0       245,500        1.0 
Gainesville, FL......................      198,500        0.5       196,500        0.8       196,500        0.8 
Miami, FL............................    1,254,000        5.0     1,241,300        4.0     1,241,300        4.0 
Orlando, FL..........................    1,137,600        3.5     1,626,000        3.1     1,626,000        3.1 
Byron, GA............................       86,300        0.2        85,400        0.2        85,400        0.2 
Tifton, GA...........................      475,300        1.3       470,500        1.3       470,500        1.3 
Hilo, HI.............................    1,703,400        3.1     1,686,100        3.1     1,686,100        3.1 
Beltsville, MD.......................    1,137,500        3.3     1,140,800        3.5     1,140,800        3.5 
Stoneville, MS.......................      187,400        0.8       185,500        0.8       185,500        0.8 
Corvallis, OR........................      507,100        1.7       501,000        1.5       501,000        1.5 
Charleston, SC.......................      338,200        1.0       336,600        1.0       336,600        1.0 
Weslaco, TX..........................    1,525,100        5.2     1,509,700        5.2     1,509,700        5.2 
Wenatchee, WA........................      215,200        0.8       213,000        0.8       213,000        0.8 
Yakima, WA...........................      265,400        0.9       262,700        0.9       262,700        0.9 
Kearneysville, WV....................      447,400        1.7       442,900        1.6       442,900        1.6 
                                      --------------------------------------------------------------------------
      Total..........................   13,702,400       41.8    14,579,700       40.6    14,579,700       40.6 
----------------------------------------------------------------------------------------------------------------

                           mushroom research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with mushroom research, by location.
    Response. ARS conducts a limited amount of research on improving 
mushroom quality at the Eastern Regional Research Center (ERRC) in 
Wyndmoor, Pennsylvania. A washing process has been developed that not 
only cleans mushrooms but also greatly extends shelf-life beyond that 
obtained with conventional washing. A scaled-up, continuous washing 
system, located in a commercial mushroom packing plant, is being 
evaluated by ARS scientists and their industry collaborators for 
technical and economic feasibility.
    Mr. Skeen. By location, what is the funding and staff for mushroom 
research for fiscal years 1996, 1997, and 1998?
    Response. For fiscal year 1996 funding for mushroom research at 
Wyndmoor, Pennsylvania, was $77,100. In fiscal years 1997 and 1998 
funding is estimated at $102,400 and $102,400, respectively. We 
estimate a third of a scientist year is related to mushroom research.
    Mr. Skeen. Is your research coordinated with the industry?
    Response. Mushroom research at ERRC is closely coordinated with the 
industry through a succession of cooperative agreements with 5 major 
U.S. producers. Under these agreements, the mushroom industry has 
funded research associates at FERC, contributed corporate resources to 
the program, and participate in annual workshops to review research 
progress and plan future research directions.
                       narcotics control research
    Mr. Skeen. Please describe the work you have underway on narcotics 
control research.
    Response. The Agricultural Research Service (ARS) narcotics control 
research program supports narcotic crop cultivation control efforts of 
other federal law enforcement, foreign affairs, and intelligence 
agencies.
    ARS currently maintains research programs for the eradication of 
narcotic crops using chemical and bioherbicidal means, the 
identification of illicit crops through remote sensing, the estimation 
of narcotic crop yields, narcotic plant biochemistry and the 
development of alternative crops in narcotics-producing countries. 
During the last year ARS supported herbicidal eradication programs in 
Columbia, crop estimation efforts in Peru and Burma, crop substitution 
research in Peru and Mexico, and is in the process of publishing peer-
reviewed journal monographs relating to the feasibility of 
bioherbicides for narcotics control.
    Mr. Skeen. What funding do you receive from other agencies?
    Response. In fiscal year 1996 ARS received $250,000 from the 
intelligence community for crop estimate research; $50,000 for 
eradication research from the State Department and $100,000 for 
alternative crop research from the U.S. diplomatic mission, Lima, Peru.
    Mr. Skeen. By location, what is the funding and staff for narcotics 
research in fiscal year 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal years--                             
                                      --------------------------------------------------------------------------
               Location                          1996                     1997                     1998         
                                      --------------------------------------------------------------------------
                                          Funds     Scientists     Funds     Scientists     Funds     Scientists
----------------------------------------------------------------------------------------------------------------
Beltsville, MD.......................   $2,677,800        9.1    $3,053,200        9.4    $3,051,300        9.4 
Weslaco, TX..........................      277,800        1.0   ...........  ..........  ...........  ..........
Headquarters.........................    1,756,400  ..........    1,658,800  ..........    1,657,700  ..........
                                      --------------------------------------------------------------------------
      Total..........................    4,712,000       10.1     4,712,000        9.4     4,709,000        9.4 
----------------------------------------------------------------------------------------------------------------

                           national arboretum
    Mr. Skeen. Please provide for the record the budget for the 
National Arboretum for fiscal years 1996, 1997, and 1998.
    Response. Funding for the National Arboretum for fiscal year 1996 
was $7,331,300. For fiscal year 1997 and 1998, the estimated funding is 
$7,273,900.
    Mr. Skeen. The fiscal year 1996 conference report provided 
additional funding for an interpretive specialist and an internship 
program. What is the status of these initiatives?
    Response. Recruitment is underway to employ an interpretive 
specialist and an internship coordinator has been employed. New 
directional and interpretive signage was added to the Arboretum grounds 
in fiscal year 1995. There was an 11 percent increase in public 
visitation to the Arboretum during fiscal years 1995 and 1996.
                               new crops
    Mr. Skeen. ARS has been doing research on several new crops such as 
Cuphea, Vernonia, Hevea, Meadowfoam, and several others. For the 
record, would you please describe each of these new crops and what its 
likely potential is for American agriculture.
    Response. The ARS new crops research is focused on those new or 
alternative crops that are compatible with environmental concerns, that 
contribute to sustainable production systems, and that possible 
potential for domestically processed value-added products or strategic 
materials. Most are oil-bearing seed crops useful in industry or as 
replacements for imports.
    Cuphea--Cuphea viscosissimal is native to the temperate regions of 
the U.S. and contains medium chain oils. Cuphea oil has the potential 
to replace oils that are now imported (1 billion pounds in 1991) as 
coconut and palm oils from tropical regions for use in detergents and 
other industrial products. For Cuphea to become a domestic crop, the 
wild seed needs to be domesticated by changing several of the wild 
seed's characteristics--like the tendency to scatter its seed before 
harvest and to require a dormant period before it sprouts.
    Vernonia--Vernonia galamensis is native to Africa, but has been 
bred to grow in shorter day-length regions. Vernonia oil (epoxy oil) 
has the potential to replace solvents in paints and become part of the 
finished coating, which reduces air pollution from solvents. The 
domestication and commercialization of vernonia depends on development 
of high yielding cultivars and development of reliable agronomic 
practices.
    Hevea--Hevea braziliensis is the natural rubber tree which is the 
source of the U.S.'s imported natural rubber. There is research to 
determine the biochemical pathway and enzymes responsible for 
production of natural rubber in Hevea for incorporation into other 
plants, such as guayule, or organisms, but there is not research in ARS 
to domestically develop Hevea as a new crop in the U.S.
    Meadowfoam--Limnanthes alba is being commercially grown in Oregon 
on about 3,000 acres, but it could be grown in other regions of the 
U.S. as well. Meadowfoam oil which has long chains and is very stable 
in air, has been modified chemically to develop potential new products 
for the personal care, lubricants and detergent industries while the 
seed meal may have application as a natural preemerge herbicide and 
nematocide. The market for meadowfoam products is developing rapidly, 
but seed varieties that are self-pollinating and consistency high 
yielding for many regions of the U.S. are needed.
    Crambe--Crambe abyssinica is grown commercially in North Dakota and 
a derivative of the oil is being used industrially to keep plastic bags 
from sticking back together when they are made. The current use can 
support about 100,000 acres of crambe production. New markets for the 
oil need to be found to ensure crambe's potential as a significant crop 
for the Northern tier of states in the U.S.
    Guayule--Parthenium argentatum is a desert shrub that has been 
grown in Arizona, California, and Texas. Guayule produces natural 
rubber that has potential markets in non-allergenic surgical gloves and 
a resin that has potential in paints and coatings. Continued developed 
of the fledgling guyaule industry in areas such as agronomy and 
processing are needed to bring guayule to commercialization.
    Jojoba--Simmondsia chinensis is a perennial shrub being 
commercially grown in the desert Southwest for its unique oil. The oil 
has markets in lubricants and personal care items and 70% of U.S. 
production is exported to Japan and Europe but much larger acreage 
would be economically feasible if coproducts were developed to support 
high farmgate value, even when oil prices are low. The seed meal was 
being discarded, but now new markets are being explored and development 
of the processing of the meal and its commercial uses need to be 
supported.
    Milkweed--Asclepias syriaca is a fiber crop being grown in Nebraska 
which reached a value of 1 million dollars in 1995. The fiber has 
potential as a high quality insulating fiber. Development of coproduct 
oil needs to be supported to increase the commercial viability and 
acreage of milkweed in the Midwest.
    Lesquerella--Lesquerella fendleri is a winter annual that can be 
grown in the Southern U.S. for its oil, gum, and meal. There is a large 
potential market for every product from lesquerella, so we would expect 
that several thousand acres could be supported by the value of the 
crop. Barriers to commercialization are the current incomplete 
development of high oil content, self-pollinating seed, reliable 
cultural practices and seed harvesting and cleaning equipment.
    Euphorbia--Euphorbia lagascae is a potential new crop that can be 
grown in the temperate regions of the U.S. The oil is similar to 
vernonia oil, but Euphorbia lagascae has potential for supplying the 
paints and coatings industry from a different geographic area of the 
U.S. than vernonia. Knowledge is very limited in the varietal 
development, agronomics, processing and product development of this 
potential new crop.
    Kenaf--Hibiscus cannibinus is an annual fiber crop grown in the 
Southern U.S. on 3,000-4,000 acres in 1995 for a number of specialty 
fiber applications. Fiber separation facilities are in Texas, 
Mississippi, and Louisiana, and kenaf has potential as a forage crop as 
well as a fiber crop. One limitation is the need for a pulping plant 
that is near the growing areas.
    Mr. Skeen. What are you spending, in terms of actual obligations, 
for each of these?
    Response. The actual obligations for fiscal 1996 were; Cuphea 
$294,689; Vernonia $160,517; Hevea $278,842; Meadowfoam $101,908; 
Crambe $77,922; Guayule $621,617; Jojoba $152,862; Milkweed--none; 
Lesquerella $589,801; Euphorbia--none; Kenaf $1,328,338.
                 northwest small fruit research center
    Mr. Skeen. Please describe the work you are funding at the 
Northwest Small Fruit Research Center in Corvallis, Oregon.
    Response. ARS research at the Northwest Small Fruit Research Center 
in Corvallis, Oregon, is directed toward development of virus-resistant 
and virus-free small fruits, and development of beneficial 
microorganisms to enhance plant health, growth, and yield. Through 
specific cooperative agreements, ARS supports extramural research on 
small fruit evaluation, virus indexing, biological control of diseases 
of small fruits, and non-chemical pesticidal control of insects through 
host resistance and microbial pesticides.
    Mr. Skeen. What is the funding and staff for research at this 
Center for fiscal years 1996, 1997, and 1998?
    Response. The funding for research at this Center for fiscal year 
1996 was $1,721,000, fiscal year 1997 is $2,575,000, and fiscal year 
1998 is proposed at $2,264,800, respectively, to support 4.4 scientists 
each year.
                            peanut research
    Mr. Skeen. Please describe the work you have underway on peanut 
research.
    Response. We have research on peanuts at 10 locations. The 
objectives of this research by location will be provided for the 
record. The ARS peanut research program is carried out at several 
Federal research laboratories. The program is a nationally managed, 
fully coordinated, multidisciplinary approach to solving production and 
postharvest issues of peanuts.
    Dawson, GA--Development of new production handling and storage 
systems, and biocontrol of aflatoxin production.
    Fort Collins, CO--Acquisition, maintenance, and preservation of 
germplasm.
    Gainseville, FL--Bioregulation of stored product insects.
    Griffin, GA--Maintenance, evaluation, and distribution of 
germplasm.
    Ithaca, NY--Increases bioavailability of essential elements and 
decrease accumulation of toxic elements.
    Mayaguez, PR--Germplasm development and seed increase.
    New Orleans, LA--Genetic regulation of aflatoxin biosynthesis and 
biocontrol of aflatoxin production.
    Raleigh, NC--Development of quality and flavor components.
    Stillwater, OK--Evaluation of peanut germplasm of disease 
resistance.
    Tifton, GA--Improved management practices and germplasm resistance 
to diseases, insects, nematodes, and aflatoxin production.
    Mr. Skeen. By location, what is the funding and staff for peanut 
research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal years--                             
                                      --------------------------------------------------------------------------
               Location                          1996                     1997                     1998         
                                      --------------------------------------------------------------------------
                                          Funds     Scientists     Funds     Scientists     Funds     Scientists
----------------------------------------------------------------------------------------------------------------
Athens, GA...........................      $42,700        0.2   ...........  ..........  ...........  ..........
Beltsville, MD.......................       19,400  ..........  ...........  ..........  ...........  ..........
Dawson, GA...........................    2,302,600        8.1    $2,279,300        8.0    $2,279,300        8.0 
Ft. Collins, CO......................  ...........  ..........      113,800        0.4       113,800        0.4 
Gainesville, FL......................      255,900        .08       282,300        0.9       282,300        0.9 
Griffin, GA..........................      368,800        1.2       342,700        1.3       342,700        1.3 
Ithaca, NY...........................       68,000        0.2        67.300        0.2        67,300        0.2 
Mayaguez, PR.........................      121,500        0.1       120,300        0.1       120,300        0.1 
New Orleans, LA......................      784,700        3.3       741,300        2.7       741,300        2.7 
Raleigh, NC..........................      769,700        4.0       683,300        3.6       397,500        2.6 
Stillwater, OK.......................      274,700        1.0       421,800        1.0       271,800        1.0 
Tifton, GA...........................    1,005,800        2.5       873,000        2.1       873,000        2.1 
Headquarters.........................      221,400  ..........      219,200  ..........      219,200  ..........
                                      --------------------------------------------------------------------------
      Totals.........................    6,235,200       21.4     6,144,300       20.3     5,708,500       19.3 
----------------------------------------------------------------------------------------------------------------

                              pear thrips
    Mr. Skeen. Please describe the work you have underway on pear 
thrips.
    Response. ARS has provided insect pathology support and established 
a cooperative agreement with the University of Vermont for research on 
the control of pear thrips. The ARS European Biological Control 
Laboratory at Montpellier, France, has been working cooperatively with 
the University of Vermont to explore for biological control agents of 
pear thrips.
    Mr. Skeen. By location, what is the funding and staff for pear 
thrips research for fiscal years 1996, 1997, and 1998?
    Response. The funding at Ithaca, New York, for pear thrips for 
fiscal year 1996 was $82,000 and is $80,300 for fiscal year 1997. 
Proposed funding in fiscal year 1998 is $30,300. The scientist years 
are 0.2 for each year.
                       peas, lentils, and legumes
    Mr. Skeen. Please describe the work you have underway on peas, 
lentils, and legumes.
    Response. ARS conducts research on peas, lentils, and legumes at 
eight locations. The objectives of this research by location will be 
provided for the record. The program is a nationally managed, fully 
coordinated, multi disciplinary approach to solving production and 
postharvest issues of peas, lentils, and legumes.
    Albany, CA--Development of assays for pesticide residues on fresh 
peas, and genetic engineering of ethylene responses.
    Charleston, SC--Development of legumes with increased resistance to 
nematodes and other soilborne pathogens; determination of alleopathic 
factors affecting weed control.
    Fargo, ND--Characterization of internal chemistry of whitefly to 
determine their roles in predator/prey recognition and predator 
nutrition; identify and characterize genes controlling insect 
developments.
    Griffin, GA--Detection and elimination of viruses in legume 
germplasm; detection of resistance to viruses in legume germplasm.
    Prosser, WA--Evaluation and enhancement of pea germplasm; 
identification of disease resistance; and computer modeling of 
conservation trillage-based production systems.
    Pullman, WA--Identification of insect and disease resistance in dry 
peas and lentils; establishment of genetic linkage maps in lentils, dry 
peas, and chickpeas; development of improved varieties; development of 
integrated pest management systems; and maintenance of pea germplasm 
and pea genetic stocks.
    Pendleton, OR--Evaluation of tillage systems on residue placement 
and decomposition in relation to soil erosion.
    Headquarters--Review and evaluate research proposals from ARS 
scientists and Crop Germplasm Committees.
    Mr. Skeen. By location, what is the funding and staff for peas, 
lentils, and legumes research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal years--                          
                                            --------------------------------------------------------------------
                  Location                            1996                   1997                   1998        
                                            --------------------------------------------------------------------
                                               Funds    Scientists    Funds    Scientists    Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Albany, CA.................................   $173,600        0.4    $239,700        0.6    $239,700        0.6 
Fresno, CA.................................     21,900  ..........  .........  ..........  .........  ..........
Griffin, GA................................    201,000        0.6     450,900        1.5     450,900        1.5 
Fargo, ND..................................    177,800        0.4     176,000        0.4     176,000        0.4 
Pendleton, OR..............................  .........  ..........     87,600        0.4      87,600        0.4 
Charleston, SC.............................    297,400        1.0     294,000        1.0     294,000        1.0 
Prosser, WA................................    234,900        1.0     275,000        1.0   .........        \1\ 
Pullman, WA................................    776,400        3.2     728,700        3.2   1,003,700        4.2 
Headquarters...............................     64,600  ..........     64,000  ..........     64,000  ..........
                                            --------------------------------------------------------------------
  Total....................................  1,947,600        6.6   2,315,900        8.1   2,315,900        8.1 
----------------------------------------------------------------------------------------------------------------
\1\ Prosser, WA project redirected to Pullman, WA.                                                              

                             pecan research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with pecan research, by location.
    [The information follows:]
    College Station, TX--Pecan genetics, breeding and germplasm 
maintenance.
    Byron, GA--Germplasm enhancement; and development of improved pecan 
cultivation and pest (disease and insect) management strategies. 
Cooperative research is supported at New Mexico State University.
    Stoneville, MS--Development of biological and other non-
insecticidal methods to manage insect pests of pecan.
    New Orleans, LA--Development of technologies to assist commodity 
processors (nut shellers) in converting their by-products to value-
added absorbents.
    Mr. Skeen. By location, what is the funding and staff for pecan 
research for fiscal years 1996, 1997 and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal years--                            
                                         -----------------------------------------------------------------------
                Location                           1996                    1997                    1998         
                                         -----------------------------------------------------------------------
                                             Funds    Scientists     Funds    Scientists     Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Byron, GA...............................  $1,263,000        3.1   $1,291,500        3.1   $1,291,500        3.1 
New Orleans, LA.........................      36,600        0.1       34,600        0.1       34,600        0.1 
Stoneville, MS..........................     134,800        0.5      133,400        0.5      133,400        0.5 
College Sta., TX........................     563,000        1.8      557,300        1.8      557,300        1.8 
                                         -----------------------------------------------------------------------
      Total.............................   1,997,400        5.5    2,016,800        5.5    2,016,800        5.5 
----------------------------------------------------------------------------------------------------------------

                      plant gene expression center
    Mr. Skeen. Please describe for the Committee some of the 
accomplishments of the Plant Gene Expression Center during the past 12 
months.
    Response. Some of the accomplishments of the Plant Gene Expression 
Center--PGEC--at Albany, California, will be provided for the record.
    Regulatory genes that alter growth patterns--PGEC scientists have 
continued in their identification and analysis of regulatory genes that 
alter the growth pattern of maize plants. Due to the fact that gene 
order is conserved in the grasses, and thus all cereal grains, the 
analysis in maize has potential application for other cereals. The 
teosinte branched gene has been isolated and shown to function in 
auxillary buds to regulate the number of tillers in a corn plant. 
Although tillering is not a desirable trait in maize, it is desirable 
in rice and forage grasses. The function of the indeterminate spikelet 
gene was determined through a CRADA with Pioneer Hi-Bred International. 
This gene regulates the number of flowers in a maize spikelet. 
Manipulation of this gene in cereals has the potential to increase 
yield.
    Mutants in pollen-specific receptor-like kinase genes from corn--A 
CRADA has been entered into with Pioneer Hi-Bred International, Inc., 
Johnston, Iowa, to isolate and characterize mutants in pollen-specific 
receptor-like kinase genes from corn. PGEC researchers are studying how 
the pollen grain interacts with the female tissue during pollination 
and fertilization; receptor-like kinases are thought to be involved in 
such cell-cell interactions in many situations, such as interactions 
between plants and their pathogens. PGEC scientists have isolated and 
characterized pollen-specific kinase genes from tomato and from corn. 
Corn seed likely to have transposable element-induced mutations in 
these kinases has been provided to the PGEC by Pioneer, and PGEC 
scientists are testing pollen of these plants to determine if pollen-
female interactions are disrupted in these mutants. In parallel, PGEC 
researchers are using transgenic plants to deduce the roles of the 
tomato pollen kinases. If these kinases play critical roles, plant 
breeders may try to manipulate the kinases as a new means to control 
pollination and fertilization.
    Genic control of cell division in pollen--Many aspects of gene 
regulation during development of the male gametophyte (pollen grain) 
are poorly understood and therefore genetic manipulation of pollen is 
difficult. PGEC scientists are using a tissue culture pollen maturation 
system to assess the relative importance of different types of gene 
regulation (e.g., RNA stability, protein turnover) on the progression 
through normal pollen development.
    Control of plant cell growth--Plants use hormones such as ethylene 
and auxin to control fruit ripening and cell growth, respectively. ARS 
scientists at the PGEC have been able to halt fruit senescence in 
tomato using antisense technology. Now they are attempting to alter 
fundamental processes that are regulated by the plant hormone auxin 
using genes that are regulated by the hormone. The long-term goal of 
the investigation is to enhance the value of agronomic products and to 
enhance crop productivity.
    PGEC, a participant in the NSF-DOE-USDA Arabidopsis Genome 
Project--The PGEC initiated a large-scale genome sequencing of the 
model plant Arabidopsis in collaboration with the Stanford University 
and University of Pennsylvania. The Genome Sequence Lab of the PGEC has 
produced one megabase--1,000 kilobases--of genomic sequencing since its 
establishment last fall. This project constitutes an international 
effort for identifying for the first time the genes--about 20,000--that 
are responsible for making a plant.
    Control of plant tolerance to heavy metals--PGEC scientists are 
characterizing several genes that affect metal toxicity in plants. 
Defining the genes that control metal accumulation in plants could lead 
to lower dietary consumption of the toxic elements. Conversely, 
enhancing metal accumulation in certain plants would facilitate the 
bioextraction of toxic metals from contaminated sources.
    Improving gene transfer in cereal crops--The gene transfer process 
produces unpredictable DNA integration and expression patterns in 
plants. PGEC scientists are applying novel site-specific recombination 
technology to wheat transformation to allow for precise DNA 
integration.
    Degrading the gossypol compount--PGEC scientists have isolated a 
bacterium that can degrade the toxic compound in cotton known as 
gossypol. Current efforts are underway to identify the gene(s) 
responsible for gossypol breakdown. Gossypol-free cottonseed could be 
used for food and feed.
    Transgenic plants--PGEC scientists have developed transgenic plants 
with suppressed shade avoidance response that have now been shown by 
collaborators in field trials to exhibit increased harvest index in 
response to increasing planting densities relative to non-transgenic 
controls. The significance of these findings is that through the study 
of the fundamental molecular genetics of the phytochrome photoreceptor 
system an ecofriendly framework has been established with the potential 
to improve the productivity of agriculturally important crops without 
the need for increased fertilizer or agrochemical use or changed 
cultivation practices.
    New approaches for isolating resistance genes to potato late 
blight--Scientists at the PGEC are using their experience in isolating 
plant resistance (R) genes imparting resistance to fungi, bacteria, 
viruses, and nematodes in evolutionarily divergent plant species (rice 
to Arabidopsis) to locate and isolate resistance to potato late blight. 
ARS scientists at the PGEC previously isolated the tobacco mosaic virus 
resistance gene N, which belongs to a multigene resistance family in 
tobacco. The genomes of tobacco, tomato, and potato are highly similar 
in content and organization, and the N gene homologues have been 
located to a region of the potato chromosome bearing R genes that 
confer resistance to the fungus that causes potato late blight, 
Phytophthora infestans, and the virus that causes potato virus X. The 
scientists are presently working to isolate and sequence N homologous 
genomic clones in the vicinity of the R1 gene on chromosome 5 of potato 
where they postulate that a cluster of N gene homologues will be found 
linked to the R1 gene. Success will be measured in having developed an 
efficacious approach that can be applied to isolation of numerous 
disease resistance loci of most crops as well as provide important 
information and eventually a genetic means to combat disease that 
threatens an agriculturally important crop.
    Mr. Skeen. What is the budget for the Plant Gene Expression Center 
for fiscal years 1996, 1997, and 1998?
    Response. The budgets for the Plant Gene Expression Center for 
fiscal years 1996, 1997, and 1998 are $3,145,700, $3,091,300, and 
$3,091,300, respectively.
                            potato research
    Mr. Skeen. Please describe for the Committee the work your are 
doing in connection with potato research, by location.
    Response. A description of ARS potato research programs by location 
will be provided for the record. The program is a nationally managed, 
fully coordinated, multi disciplinary approach to solving production 
and postharvest issues of potatoes.
    ARS Headquarters.--Funds maintained at headquarters are allocated 
for extramural research on ring rot, early dying, and scab disease 
problems, aphid and beetle control, marketing, and variety development.
    Albany, CA (PGEC).--Development of new genetic engineering 
techniques and gene expression of economically important genes in 
potato.
    Albany, CA (WRRC).--Improved potato quality using plant cell 
transformation and other genetic engineering techniques.
    Aberdeen, ID.--Development of new improved pest resistant varieties 
and disease management strategies.
    Beltsville, MD.--Germplasm evaluation, enhancement, and breeding 
improved varieties, protoplast fusion and other genetic engineering 
techniques; processing germplasm introductions; pathogen-host 
interactions and genetics of pest resistance; and biological control of 
potato insects. Field trials in support of the breeding program are 
conducted at Presque Isle, Maine.
    Columbia, MO.--Identify natural products to improve artificial 
diets of beneficial organisms used for biological control of insect 
pests.
    Fargo, ND.--Marketing, storage, and inhibition of sprouting. 
Physical properties and other factors associated with processed potato 
quality; volatiles and prediction of potato quality from bulk storage; 
processing quality factors of potatoes following storage; evaluation of 
potential new varieties for processing attributes; and inhibition of 
sprouting.
    Frederick, MD.--Characterization and genetics of new and exotic 
strains of fungal pathogens of potato, especially the potato late 
blight disease pathogen.
    Ithaca, NY.--Evaluation of potato germplasm for nematode 
resistance; biology and integrated management of the golden nematode 
based on host resistance, cultural practices, biological control, and 
soil fumigation. Control of potato disease and nematodes; development 
of integrated pest management strategies, and determination of soil and 
water stress effect on potato production.
    Wyndmoor, PA.--Biochemical nature of the interaction of potato 
pathogens with host plant; mycotoxin production in plants; and improved 
food processing methods for potatoes.
    Prosser, WA.--Evaluation and enhancement of potato germplasm, 
including use of genetic engineering techniques, development of new 
improved varieties,and methods of disease control.
    Yakima, WA.--Insect behavior; insect ecology; biological control; 
and improved non-pesticidal methods to control potato insects.
    Peoria, IL.--Determination of the chemical mode of action of potato 
sprout inhibitors.
    Madison, WI.--Classification, evaluation, preservation, and 
distribution of introduced germplasm; potato genetics and cytogenetics; 
and protoplast fusion and other genetic engineering techniques.
    Weslaco, TX.--Biological control of sweetpotato whitefly and 
diamondback moth on vegetable crops.
    Mr. Skeen. By location, what is the funding and staff for potato 
research for fiscal years 1996, 1997, and 1998.
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal years--                            
                                         -----------------------------------------------------------------------
                Location                           1996                    1997                    1998         
                                         -----------------------------------------------------------------------
                                             Funds    Scientists     Funds    Scientists     Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Albany, CA..............................  $1,739,900        6.3   $1,503,500        6.3   $1,383,800        6.3 
Aberdeen, ID............................     392,800        2.0      388,800        2.0    1,035,000        2.0 
Peoria, IL..............................     360,200        1.3      356,500        1.3      356,500        1.3 
Beltsville, MD..........................   3,738,900       11.1    3,593,400       11.1    3,893,400        9.7 
Frederick, MD...........................     172,200        0.6      170,400        0.6      170,400        0.6 
Columbia, MO............................      61,200        0.2       60,600        0.2       60,600        0.2 
Fargo, ND...............................   1,376,000        4.4    1,373,000        4.4    1,373,000        4.4 
Ithaca, NY..............................     839,400        2.8      898,900        2.8      802,400        2.8 
Wyndmoor, PA............................     216,800        0.9      445,400        1.7      307,100        1.1 
Weslaco, TX.............................      91,800        0.2       90,900        0.2       90,900        0.2 
Prosser, WA.............................   1,107,800        3.1    1,096,600        3.1   ..........  ..........
Yakima, WA..............................     840,300        2.6      831,800        2.6      831,800        2.6 
Madison, WI.............................     621,300        4.3      700,700        4.3      700,700        4.3 
Headquarters \1\........................   1,413,000  ..........   1,398,700  ..........   1,398,700  ..........
                                         -----------------------------------------------------------------------
      Total.............................  12,971,600       39.8   12,909,200       40.6   12,404,300      35.5  
----------------------------------------------------------------------------------------------------------------
\1\ Funds provided for cooperative research to the following States: Idaho, Michigan, Minnesota, North Dakota,  
  Maine, New York, Ohio, Oregon, Washington, Wisconsin, Wyoming, and Colorado in FY 1997.                       

    Mr. Skeen. Please provide for the record a table showing the 
research funding devoted to ring rot, early dying, marketing, aphids, 
potato beetle, weeds, variety development, soils, and agricultural 
engineering for fiscal years 1996, 1997, and 1998.
    Response. A table showing the research funding devoted to ring rot, 
early dying, marketing, aphids, potato beetle, weeds, variety 
development, soils, and agricultural engineering for fiscal years 1996, 
1997 and 1998 will be provided for the record.

------------------------------------------------------------------------
                                             Fiscal years; funds--      
                                     -----------------------------------
                                         1996        1997        1998   
------------------------------------------------------------------------
Ring Rot............................    $259,900    $257,300    $257,300
Early Dying.........................     407,400     490,200     490,200
Marketing...........................   2,447,000   2,736,900   2,617,200
Aphids..............................     326,800     323,500     323,500
Potato Beetle.......................   2,872,800   2,692,500   2,692,500
Weeds...............................  ..........  ..........  ..........
Variety Development.................   2,155,000   2,155,400   2,013,200
Soils...............................     227,300     158,400     116,400
Agricultural Engineering............  ..........  ..........  ..........
                                     -----------------------------------
      Total.........................   8,696,200   8,814,200   8,510,300
------------------------------------------------------------------------

                      late blight potato research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with Late Blight potato research, by location.
    [The information follows:]
    Aberdeen, ID.--Development of resistant or tolerant varieties, and 
characterization of the nature and genetics of resistance to late 
blight.
    Beltsville, MD.--Development of resistant germplasm and varieties 
by conventional plant breeding and biotechnology; determination of the 
ecology of the pathogen; determination of the mechanism(s) of 
resistance; mapping of resistance genes; and screening of experimental 
germplasm.
    Frederick, MD.--Characterization of the virulence, pathogenicity, 
and genetics of different strains, races, and types of the pathogen; 
development of improved pathogen detection and identification methods; 
and development of methods to reduce the stability of the pathogen.
    Madison, WI.--Transfer of late blight-resistance genes from wild 
potato-related species into cultivated potato varieties using tissues 
culture and other biotechnological techniques to overcome natural 
barriers to gene transfer. Identification of resistant germplasm in 
wild potato relatives and in potato germplasm from around the world.
    Ithaca, NY.--Development of integrated disease management 
strategies; development of cropping systems and other cultural 
practices to reduce disease incidence.
    Mr. Skeen. What is the need for this research?
    Response. Potato late blight, the disease responsible for the Irish 
potato famine, has, since 1993, become an increasingly important 
problem in the United States. Losses in 1994 totaled as much as $100 
million with another $100 million spent on fungicides in attempts to 
control the epidemic. In 1995, the disease occurred in Idaho where it 
had not been seen for several generations. Decreased yields in the 
field and increased losses due to storage rots are expected to continue 
whenever environmental conditions are conducive to the disease, which 
is often the case in U.S. potato-growing regions. The problem has 
resurfaced because of the appearance of new strains of the fungus that 
are resistant to the fungicide that has kept the disease largely in 
check for decades. Research is needed to develop potato varieties 
resistant to disease and to devise other control strategies to minimize 
disease losses.
    Mr. Skeen. By location, what is the funding and staff for Late 
Blight potato research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal years--                             
                                      --------------------------------------------------------------------------
               Location                          1996                     1997                     1998         
                                      --------------------------------------------------------------------------
                                          Funds     Scientists     Funds     Scientists     Funds     Scientists
----------------------------------------------------------------------------------------------------------------
Aberdeen, ID.........................      $38,300        0.2       $38,900        0.2       $38,900        0.2 
Beltsville, MD.......................      353,000        1.3       351,400        1.3       351,400        1.3 
Frederick, MD........................      172,200        0.7       170,400        0.7       170,400        0.7 
Ithaca, NY...........................      138,100        1.2       257,700        1.2       241,400        1.2 
Madison, WI..........................       61,000        0.2        63,700        0.2        63,700        0.2 
                                      --------------------------------------------------------------------------
      Total..........................      763,600        3.6       882,100        3.6       865,800        3.6 
----------------------------------------------------------------------------------------------------------------

                          russian wheat aphid
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with the Russian wheat aphid, by location.
    Response. ARS research objectives on Russian wheat aphid by 
location are as follows:
    Beltsville, MD.--Provide a predictive classification for aphids and 
aphid natural enemies to aid in development of control methods. 
Participate in the international program for biological control of 
Russian wheat aphid.
    Brookings, SD.--Investigate seed treatments and genetic 
modifications to protect wheat from Russian wheat aphid.
    Ithaca, NY.--Investigate fungal insect pathogens for control of 
Russian wheat aphids.
    Lincoln, NE.--Develop and evaluate small grain cultivars with 
resistance to the Russian what aphid.
    Manhattan, KS.--Identify resistance to Russian what aphid in wild 
plants for incorporation into what germplasm by genetic manipulation.
    Montpellier, France.--Discover, collect, and evaluate predators and 
parasites of Russian wheat aphid in Europe and Asia.
    Newward, DE.--Evaluate exotic predators and parasites of Russian 
wheat aphid in quarantine and conduct releases of beneficial insects 
into grain fields.
    Stillwater, OK.--Identify and characterize genotypes of cultivated 
and related wheat and barley species that are resistant to Russian 
wheat aphid, and release cereal germplasm to breeders. Rear, release, 
and evaluate natural enemies of the Russian wheat aphid for the control 
of this insect pest.
    Mr. Skeen. What is the need for this research?
    Response. Russian wheat aphid is an insect pest of wheat, barley, 
and grasses that first appeared in the United States in 1986. The 
current known distribution in North America, includes 16 U.S. states--
Arizona, California, Colorado, Idaho, Kansas, Montana, Nebraska, New 
Mexico, Nevada, Oklahoma, Oregon, South Dakota, Texas, Utah, 
Washington, Wyoming; three Canadian provinces--Alberta, British 
Columbia, and Saskatchewan; and several areas of Mexico. The cumulative 
economic impact of Russian wheat aphid has been more than $400 million 
in direct losses, in addition to more than $430 million in indirect 
losses. Because of these economic losses, there is an urgent need to 
develop and transfer to the growers economical, publicly-acceptable, 
and environmentally-sound Russian wheat aphid control strategies in 
order to ameliorate this serious problem.
    Mr. Skeen. By location, what is the funding and staff for Russian 
wheat aphid research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal years--                             
                                      --------------------------------------------------------------------------
               Location                          1996                     1997                     1998         
                                      --------------------------------------------------------------------------
                                          Funds     Scientists     Funds     Scientists     Funds     Scientists
----------------------------------------------------------------------------------------------------------------
Newark, DE...........................     $229,900        0.7      $215,700        0.7      $215,700        0.7 
Manhattan, KS........................       80,000        0.6       129,200        0.6        79,200        0.6 
Beltsville, MD.......................       96,100        0.3        95,100        0.5        95,100        0.5 
Lincoln, NE..........................  ...........  ..........      109,800        0.5       109,800        0.5 
Ithaca, NY...........................      148,700        0.4       131,600        0.4       121,600        0.4 
Stillwater, OK.......................    1,379,800        5.2     1,365,900        5.1     1,365,900        5.1 
Brookings, SD........................      202,100        0.9        60,200        0.3        60,200        0.3 
Montpellier, France..................      228,600        0.7       226,300        0.8       226,300        0.8 
                                      --------------------------------------------------------------------------
      Total..........................    2,365,200        8.8     2,333,800        8.9     2,273,800        8.9 
----------------------------------------------------------------------------------------------------------------

                        soil and water research
    Mr. Skeen. How many research laboratories are currently working on 
soil and water research? Where are they located?
    Response. ARS currently has 44 principal laboratories conducting 
soil and water research. At most of these locations, other research 
besides soil and water is being conducted. The locations of the soil 
and water laboratories are as follows: Auburn, AL; Tucson, AZ; Phoenix, 
AZ; Fresno, CA; Salinas, CA; Riverside, CA; Fort Collins, CO; Akron, 
CO; Gainesville, FL; Athens, GA; Tifton, GA; Boise, ID; Ames, IA; 
Kimberly, ID; West Lafayette, IN; Urbana, IL; Manhattan, KS: Baton 
Rouge, LA; New Orleans, LA; Beltsville, MD; Stoneville, MS; Oxford, MS; 
Columbia, MO; St. Paul, MN; Morris, MN; Lincoln, NE; Ithaca, NY; 
Mandan, ND; El Reno, OK; Lane, OK; Columbus, OH; Coshocton, OH; 
Pendleton, OR; University Park, PA; Florence, SC; Temple, TX; Lubbock, 
TX; Bushland, TX; Weslaco, TX; Pullman, WA; Wenatchee, WA; Prosser, WA; 
Kearneysville, WV; and Beckley, WV.
    Mr. Skeen. What are the objectives of each site?
    Response. Objectives of each laboratory conducting soil and water 
research are as follows:
    Auburn, AL.--Understand the physics of dynamic soil properties and 
how these properties are impacted by such farming operations as tillage 
and harvest. Develop methodology for improving water intake and storage 
in soils, for dispensing the vast zone, and for utilizing organic 
wastes in soil building.
    Tucson, AZ.--Quantify soil, water, and vegetation processes in arid 
and semi-arid climates for sustainable agriculture. Determine the most 
appropriate spatial and temporal scale of natural resource variability 
in semi-arid regions. Develop decision support systems for producers to 
improve water quality and rangeland management.
    Phoenix, AZ.--Develop management tools, new practices, and computer 
software to improve water application practices and water delivery 
systems for irrigated agriculture. Determine the effects on plant 
growth and water use efficiency of elevated levels of carbon dioxide in 
the atmosphere. Identify, develop, and refine remote sensing approaches 
for evaluating crop stresses, and the benefits of precision farming.
    Fresno, CA.--Develop improved water and nutrient management 
practices for annual and perennial irrigated crops to protect water 
quality. Coordinate the development of cropping systems that provide 
alternatives to preplant methyl bromide fumigation for strawberry and 
perennial vine and orchard crops.
    Salinas, CA.--Develop biologically-based alternatives for preplant 
methyl bromide fumigation under vegetable crops that address natural 
resources and environmental issues.
    Riverside, CA.--Develop user-friendly models to simulate the 
movement of salts and dissolved agricultural chemicals through the root 
zone. Develop a salinity assessment system to inventory soil salinity 
and evaluate Geographic Information System techniques to improve the 
management of salt affected soils. Determine and characterize the 
chemical processes that affect the movement of potentially toxic trace 
elements in soil and water. Develop irrigation and pesticide management 
practices to reduce the potential for environmental contamination.
    Fort Collins, CO.--Develop a basic understanding of the soil 
processes involved in nitrogen and carbon cycling and quantify the 
fluxes of trace gases from soils into the atmosphere. Determine the 
contribution of fertilizer and other nitrogen sources to nitrate 
leaching and develop testing procedures to improve nitrogen management. 
Evaluate the economic and water quality benefits of crop production 
systems using the Nitrate Leaching and Economic Analysis Package model. 
Develop integrated and sustainable irrigated cropping systems for 
spatially variable soils. Refine the Root Zone Water Quality Model to 
include the capability of assessing the benefits of alternative crop 
production practices and systems throughout the Great Plains.
    Akron, CO.--Develop alternative crop rotations that maximize 
production and nutrient-use efficiency in dryland cropping systems for 
the Northern Great Plains.
    Gainesville, FL.--Determine the interrelationships between soil and 
water factors in the production of citrus crops.
    Athens, GA.--Conduct research on and development of crop and animal 
agricultural management systems that conserve and enhance the soil 
resource and protect the environment. Improve our understanding of 
system component interactions at plot, field, and watershed scales.
    Tifton, GA.--Determine the fate of agricultural chemicals and 
sediment in managed and restored riparian buffer systems. Develop 
procedures for determining the distribution of agrichemicals within 
different landscape features for watersheds of the Coastal Plains. 
Characterize the effects of these landscape features on water and 
agrichemical movement and develop models for use at various watershed 
scales. Develop a physical process model to describe the behavior and 
fate of pesticides in soil.
    Boise, ID.--Develop predictive models of upland and basin-scale 
hydrologic systems to evaluate the water resource, water quality, range 
productivity and environmental implications of climatic variability, 
including global climate change impacts, for semi-arid rangeland 
ecosystems.
    Kimberly, ID.--Develop systematic methods to integrate fertility 
and tillage into irrigated crop production. Develop irrigation 
scheduling and application methods to improve water-use efficiency and 
uniformity of application. Develop conservation tillage cropping 
systems to reduce soil erosion and nitrate leaching on irrigated lands.
    Urbana, IL.--Develop real-time sensors for determining the nitrate 
status of cropland soils. Develop low-rate pesticide application 
techniques that protect water quality. Evaluate the effects of soil 
properties, temperature, and biological activity on the degradation of 
pesticides in soils.
    West Lafayette, IN.--Develop procedures for routing water, 
sediment, and nutrients across land surfaces to improve watershed 
management. Refine the soil erosion model, developed by the Water 
Erosion Prediction Project, to provide a useful management tool for 
resource conservation agencies.
    Ames, IA.--Develop improved methods to detect the presence of 
pesticides and nitrate in soil and water. Develop crop and soil 
management systems that minimize adverse environmental impacts of 
spatial and temporal variability in soils and climate. Develop 
management practices that enhance soil structure and minimize sediment 
losses in runoff from croplands. Develop integrated agricultural 
production systems that protect environmental quality at field and 
watershed scales.
    Manhattan, KS.--Understand the physics of erosion of soils by wind 
and the consequent emission of fine particulate dusts (PM-10). Develop 
science-based tools for predicting wind erosion and particulate 
emissions, given such physical and biological knowledge of soils, 
climates, crops, and control practices, so that effective land use and 
practice planning may take place.
    Baton Rouge, LA.--Develop integrated water table management systems 
for sustainable crop production and environmental protection. Develop 
soil and water management systems that do not adversely affect nearby 
wetlands.
    New Orleans, LA.--Determine the influence of crop rotations on soil 
surface populations of Aspergillus flavus.
    Beltsville, MD.--Develop alternatives for methyl bromide for 
managing soilborne pathogens in ornamentals. Identify and evaluate 
those soil and plant factors that affect the concentration and 
bioavailability of cadmium in crops. Develop techniques, based on the 
reflectance and fluorescence properties of landscapes, for assessing 
crop status, snow cover, biomass, and soil properties. Develop 
integrated soil-crop-pest management strategies for sustainable 
agriculture. Evaluate the influence of soil quality factors on soil 
ecology and sustainable agriculture. Develop techniques for the 
biodegradation of agricultural chemicals and the bioremediation of soil 
contaminants. Develop integrated soil, crop, and biocontrol systems as 
alternatives to the use of methyl bromide for controlling plant 
pathogens. Identify and characterize naturally-occurring biocontrol 
agents in soil for plant disease control. Identify soil and root 
development factors that limit fruit crop growth on soils treated with 
gypsifeous byproducts. Assess the relative impact of conservation 
tillage and plow tillage systems on nitrate losses to groundwater, 
streams, and estuaries. Assess the impact of winter cover crops on 
nitrate losses to shallow groundwater. Develop magnetic resonance 
spectroscopy and imaging techniques to assess water quality by 
identifying indicators of toxins and pollutants. Determine threshold 
levels of phosphorus in agricultural watersheds of the Northwest that 
impair surface water quality. Determine the effects of phosphorus 
management in pastures on the availability and loss of phosphorus in 
runoff. Develop decision aids for farm consultants and producers to 
promote economical and environmentally safe farming practices.
    St. Paul, MN.--Develop tillage and residue management systems to 
sustain or improve soil organic matter and crop production. Develop 
improved alfalfa germplasms that increase the ability of the crop to 
remove nitrate in soil from manure, fertilizer, and other sources. 
Develop innovative integrated farming systems to protect water and 
environmental quality in the Northern Sand Plains regions.
    Morris, MN.--Develop a simulation model to characterize the fate of 
nitrogen and pesticides during soil freezing. Develop tillage systems 
and traffic control patterns for crop rotations that protect the 
environment.
    Stoneville, MS.--Evaluate the impacts of sustainable soil, water, 
and pesticide management practices on cotton and soybean production. 
Develop cropping systems for cotton that reduce pesticide application 
rates. Develop ultra-low volume techniques for reducing herbicide 
application rates and associated environmental risks.
    Oxford, MS.--Develop solutions to upland and channel erosion and 
sedimentation problems in the Demonstration Erosion Control project. 
Quantify the effects of cropping systems and tillage on rill and 
interrill erosion in Mid South soils. Develop acoustic-based technology 
to nondestructively measure spatial variability in soil and water 
properties. Characterize long-term watershed changes as affected by 
stream channel measures that stabilize channel ecosystems. Develop 
improved erosion prediction technology for use by action agencies. 
Evaluate the pathways of surface water and groundwater movement for 
conservation tillage systems. Develop integrated farming systems to 
improve water and environmental quality in the Mississippi Delta.
    Columbia, MO.--Develop integrated farming systems to protect water 
and environmental quality on clay-pan soils in the Midwest. Develop 
simulation procedures to describe sediment detachment and transport 
during rainfall. Develop linear and non-linear procedures to model 
hydrologic processes and chemical transport across the landscape and 
through the soil profile.
    Lincoln, NE.--Define and evaluate a minimum set of soil 
measurements to characterize soil quality. Develop management 
techniques to optimize utilization of nitrogen from soil, water, and 
waste sources. Develop integrated production systems to protect water 
and environmental quality including remote sensing technologies for 
irrigated crops.
    Ithaca, NY.--Determine soil and plant factors limiting the 
availability of beneficial nutrients to plants and the uptake of 
potentially harmful heavy metals. Develop soil, water, and disease 
management strategies for controlling early-dying disease of potato.
    Mandan, ND.--Develop conservation tillage systems that reduce 
pesticide use and optimize water and nutrient use. Develop sustainable 
and environmentally sound integrated production systems for glacial-
till soils in the Northern Great Plains.
    Columbus, OH.--Develop water table management strategies for poorly 
drained soil using subsurface drainage to minimize year-to-year 
variability in crop yield.
    Coshocton, OH.--Determine the seasonal movement of nutrients and 
pesticides over the land surface and through sloping soils used for 
pasture and row crop production. Determine how runoff and subsurface-
flow processes can be systematically combined to represent the 
variability found in larger watersheds.
    El Reno, OK.--Develop site-specific management practices for 
rangelands that optimize animal production, soil and water 
conservation, and environmental protection. Develop techniques to 
generate spatially dependent weather data for use in water resources 
assessment models, agricultural production models, and ecosystem 
responses to global climate change. Determine the distribution of 
water, salts, nutrients, and other agricultural chemicals beneath playa 
lakes in the Southern High Plains receiving runoff from feedlots. 
Develop practices that minimize the environmental impact of animal 
waste application to agricultural land. Evaluate the effects of 
riparian zones and wetlands on the movement of water, nutrients, and 
sediments from agricultural watersheds.
    Lane, OK.--Develop effective soil and water technologies for 
disease control caused by soilborne pathogens in horticultural crops.
    Pendleton, OR.--Develop improved crop and soil management practices 
that will enhance sustainability in dryland agroecosystems. Determine 
climatic scenario probabilities for the Pacific Northwest that impact 
runoff and erosion.
    University Park, PA.--Evaluate the role of spatial variability in 
soil properties on watershed response, and develop techniques for using 
spatially variable properties in watershed models. Determine the 
effects of phosphorus management practice on phosphorus loads in runoff 
from pastured watersheds in the Northeast. Describe and quantify the 
processes controlling groundwater recharge and storm runoff for fields 
and watershed in the Northeast. Determine the role, and characterize 
the relative importance, of spatial variability in modeling water and 
nutrient movement at field, watershed, and basin scales.
    Florence, SC.--Enhance water and fertilizer use efficiency in 
Coastal Plain soils to improve farm productivity and enhance the 
environment. Identify and remediate water quality problems in the 
eastern Coastal Plain to enhance water and environmental quality. 
Develop improved conservation tillage practices for crop production in 
the eastern Coastal Plains.
    Temple, TX.--Develop sustainable and environmentally sound 
conservation tillage for clay soils. Develop a comprehensive basin 
scale water quality model that incorporates climatic and carbon dioxide 
changes and permits Geographical Information System inputs for use in 
regional and national assessments of conservation programs.
    Lubbock, TX.--Develop a simulation submodel to predict how tillage, 
surface residue cover, and wind velocity affect wind erosion and 
emission of PF-10 dust. Evaluate sustainable cropping systems for semi-
arid environments including evaluation of modified genetic materials 
for the purposes of controlling erosion and fine particulate dust 
emissions.
    Bushland, TX.--Develop sustainable cropping systems for the 
Southern Great Plains that optimize soil, water, and nutrient 
resources. Develop improved irrigation scheduling procedures for the 
Southern High Plains. Evaluate the benefits of wind energy technologies 
for pumping irrigation water.
    Weslaco, TX.--Conduct research on conservation tillage systems 
under subtropical conditions and develop management systems that 
conserve moisture and prevent wind erosion.
    Pullman, WA.--Characterize the effect of soil freezing on water 
infiltration, soil strength, erodibility of soils, and emission of PM-
10 dust. Develop integrated management systems to protect the 
environment and the atmosphere. Develop integrated wheat cropping 
systems for the Northwest.
    Wenatchee, WA.--Determine the primary causal agents of apple and 
cherry replant disease in the Northwest and develop soil-treatment 
preventive measures.
    Prosser, WA.--Develop agricultural production systems that 
incorporate reduced use of pesticides, manage on-farm and off-farm 
natural resources, and promote economic potato production.
    Kearneysville, WV.--Develop integrated and biologically-based 
alternatives to methyl bromide for controlling soilborne pathogens 
fruit production. Design and develop water reuse and recycling systems 
for integrated greenhouse and aquaculture operations that minimize the 
impact of effluent discharge.
    Beckley, WV.--Develop management systems to optimize plant growth 
on acid soils using natural and industrial by-products. Select forage 
and crop plants that are genetically adapted for growth on acid soils. 
Develop management strategies to protect water quality and enhance 
livestock profitability in the Appalachian hill-lands.
    Mr. Skeen. Since we are always looking for ways to manage more 
efficiently, could this research be more effective if consolidated?
    Response. There are only limited opportunities to make the research 
more efficient through consolidation. However, the fiscal year 1998 
budget proposals for ARS do reflect the termination of soil and water 
management research projects at several locations, in part based on the 
fact that other ARS laboratories are conducting related research that 
could be broadly applicable on a regional basis. Generally speaking, 
however, local differences in climatic patterns, soils, and crops make 
it necessary to conduct research at diverse locations to assess the 
resource conservation and environmental impacts of agricultural 
production systems on a national basis. Multiple year studies are 
essential to capture the production and environmental impacts of year-
to-year climatic variability. Integrated research on the movement of 
water, nutrients, and agricultural chemicals is needed to fully address 
issues related to crop and animal production and environmental quality. 
Efficient strategies of resource use must consider not only energy, 
water, and other inputs into food and fiber production systems, but 
also the effects of land use and treatment on wildlife populations and 
habitats and on the quality of soil and water. Therefore, the soil and 
water laboratories do more than soil and water research. ARS is a model 
for efficient research consolidation that provides critical information 
at regional and national levels for improving agricultural productivity 
and environmental quality.
                            soybean research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with soybean research, by location.
    Response. We have research on soybeans at 28 locations. The program 
is a nationally managed, fully coordinated, multidisciplinary approach 
to solving production and postharvest issues of soybeans. The 
objectives of this research by location will be provided for the 
record.
    Albany, CA.--Genetic modification of soybean oil for industrial 
use.
    Ames, IA.--Genetic research for soybean improvement.
    Beltsville, MD.--Develop improved varieties with desired genetic 
traits such as resistance to pathogens and insects, and suppression of 
weeds, and develop management/crop models.
    Brookings, SD.--Integrated crop management systems.
    Columbus, OH.--Production optimization, water quality, and flooding 
tolerance.
    Columbia, MO.--Cropping systems and water management strategies.
    Coshocton, OH.--Management practices for erosion control and water 
quality.
    Florence, SC.--Development of cropping systems to optimize water 
management.
    Fort Collins, CO.--Acquisition, maintenance, and preservation of 
germplasm.
    Frederick, MD.--Molecular characterization of soybean dwarf virus.
    Gainesville, FL.--Environmental, physiological, and genetic 
limitations to production.
    Ithaca, NY.--Genetic enhancement of nutritional quality.
    Lincoln, NE.--Management practices to maximize production 
efficiency.
    Madison, WI.--Minimize harmful effects of bacterial pathogens.
    Manhattan, KS.--Grain odor assessment technology.
    Mayaguez, PR.--Winter nursery facilities to accelerate improved 
variety development.
    Morris, MN.--Environmental and crop management limitations to 
production.
    New Orleans, LA.--Biomodification of soybean oil to value-added 
products.
    Oxford, MS.--Develop sustainable cropping system.
    Peoria, IL.--Product development, conversion of oil and protein for 
new industrial uses.
    Raleigh, NC.--Eliminate genetic and physiological limitations in 
production and enhance nitrogen fixation.
    St. Paul, MN.--Management and cropping practices affecting water 
quality.
    Stoneville, MS.--Develop insect resistant germplasm and improve 
weed control techniques, and host resistance to soybean cyst nematodes.
    Tifton, GA.--Develop pesticide technology for control of nematodes, 
weeds, and insects.
    Urbana, IL.--Develop comprehensive soybean production technologies 
and maintain, evaluate, and distribute germplasm.
    West Lafayette, IN.--Management practices for weed and disease 
control, and develop improved germplasm.
    Wooster, OH.--Management practices for pest control and to develop 
germplasm for divergent environments.
    Wyndmoor, PA.--Develop oil products for industrial use.
    Mr. Skeen. What are some of the agency's accomplishments in soybean 
research in recent years?
    Response. ARS focuses its soybean research on developing new uses 
for soybeans and on increasing soybean production efficiency so that 
production costs are lowered and soybeans are more competitive in the 
global market. Several ink formulations have been developed by 
scientists at Peoria, Illinois. This work resulted in a patent being 
issued for newspaper printing ink and a pending patent for heat-set and 
sheet-fed printing inks. Market potential use of soy or vegetable oil 
in ink formations is estimated at one billion pounds or eight percent 
of domestic soybean oil production and would represent a 300 percent 
increase in current industrial use of soybean oil. Modified soybean oil 
continues to be evaluated as an alternative for diesel fuel by 
developing cost-effective technology for conversion to fatty acid 
esters and commercial testing of performance enhancing additives. Work 
is progressing on use of soy foamed plywood glues. Soybeans could be 
used as a foaming agent for softwood plywood adhesives, replacing blood 
protein at a lower cost. Work is also continuing to develop soybean-
derived lubricants that are biodegradable and friendly when lost to the 
environment such as when used on chainsaws.
    Significant advancement has been made toward broadening the genetic 
base of soybeans by obtaining hundreds of soybean lines from China and 
adding these to the soybean collection maintained at Urbana, Illinois. 
The soybean plant originated in China and adding new lines brings new 
genes for pest resistance and for developing new value-added products. 
The nation's commercial soybean varieties are descended from a small 
number of ancestral lines. Thirty-five lines account for more than 95% 
of the genes in all commercial varieties grown in the United States. 
Soybean lines also have been developed that are expected to have longer 
shelf-lives without developing rancidity, and other lines have less 
capability of developing off-flavors. The projected cost savings for 
processors is about $200 million per year. A new variety, jointly 
released with the University of Illinois, lacks an enzyme inhibitor 
that interferes with protein digestion by people and animals, thus 
making the meal a higher quality and more nutritious feed. This will 
considerably increase the feeding efficiency of animal fed soymeal. 
Progress continues in identifying new lines with resistance to nematode 
infections and other disease organisms. Drought-resistant germplasm is 
nearing the stage of public release, and lines have been identified 
that will contribute flooding tolerance genes to soybeans. A new 
soyfood variety, ``Pearl,'' has been released and provides a new high-
value product for export to Japan. Another variety recently released 
demonstrates it is possible to achieve simultaneous increase in 
protein, oil, and yield. The high protein variety, ``Prolina'', should 
deliver high protein meal for the poultry and swine feed industry.
    Mr. Skeen. By location, what is the funding and staff for soybean 
research for fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal years--                          
                                            --------------------------------------------------------------------
                   State                              1996                   1997                   1998        
                                            --------------------------------------------------------------------
                                                Funds    Scientist     Funds    Scientist     Funds    Scientist
----------------------------------------------------------------------------------------------------------------
Albany, CA.................................    $593,300        2.6    $559,300        2.5     $82,000        0.5
Ames, IA...................................     811,500        2.2     803,300        2.2     624,400        1.0
Athens, GA.................................     167,600        0.6  ..........  .........  ..........  .........
Auburn, AL.................................     199,900        0.8  ..........  .........  ..........  .........
Beltsville, MD.............................   4,297,300       15.3   4,514,600       15.3   4,342,800       14.3
Brookings, SD..............................      26,000        0.1     148,600        1.0     148,600        1.0
Columbus, OH...............................     100,200        0.4      99.200        0.4      99,200        0.4
Columbia, MO...............................     270,500        0.8     267,700        0.8     220,500        0.8
Coshocton, OH..............................      70,100        0.3      69,400        0.3      69,400        0.3
Fargo, ND..................................      43,200        0.2  ..........  .........  ..........  .........
Florence, SC...............................     204,000        0.8     198,400        0.8     198,400        0.8
Ft. Collins, CO............................     231,400        0.5     279,100        0.5     279,100        0.5
Frederick, MD..............................      27,400        0.1      83,900        0.1      83,900        0.1
Gainesville, FL............................      53,400  .........      52,900  .........      52,900  .........
Ithaca, NY.................................     148,200        0.6      22,100        0.6  ..........  .........
Lincoln, NE................................      64,600        0.2      63,900        0.2      63,900        0.2
Madison, WI................................      20,300        0.1      21,200        0.1      21,200        0.1
Manhattan, KS..............................     129,500        0.6     128,200        0.6     128,200        0.6
Mayaguez, PR...............................     121,500        0.1     120,200        0.1     120,200        0.1
Morris, MN.................................     379,600        1.3     249,700        1.3     249,700        1.3
New Orleans, LA............................   1,125,400        5.0   1,063,100        4.0   1,063,100        4.0
Oxford, MS.................................     102,100        0.3     101,000        0.3     101,000        0.3
Peoria, IL.................................   5,864,800       18.8   5,643,200       18.0   5,585,400       18.0
Raleigh, NC................................     996,800        6.0   1,022,600        6.0   1,022,600        6.0
St. Paul, MN...............................     310,600        1.3     307,500        0.9     307,500        0.9
Stoneville, MS.............................   3,551,500       11.8   3,515,500       12.0   3,515,500       12.0
Tifton, GA.................................     146,800        0.4      64,000        0.4      64,000        0.4
Urbana, IL.................................   2,568,700       11.1   2,117,800       11.1   1,603,400        9.1
W. Lafayette, IN...........................     802,000        3.0     793,900        3.0     793,900        3.0
Wooster, OH................................     300,600        1.4     297,500        1.4      87,400        0.4
Wyndmoor, PA...............................     748,800        2.7     741,300        2.7     741,300        2.7
                                            --------------------------------------------------------------------
      Total................................  24,477,600       89.4  23,349,100       86.6  21,669,500       78.8
----------------------------------------------------------------------------------------------------------------

                          nal usage indicators
    Mr. Skeen. Please update the table that appears on page 162 of last 
year's hearing record on usage indicators of the National Agricultural 
Library.
    Response. I will provide an update to the table that reflects NAL 
usage indicators to include fiscal year 1996 actuals and estimated 
usages for 1997 and 1998.

                          NAL USAGE INDICATORS                          
------------------------------------------------------------------------
                                               Fiscal years--           
                                  --------------------------------------
                                                    1997         1998   
                                       1996      estimated    estimated 
------------------------------------------------------------------------
Document Delivery Requests Filled      154,314      152,000      150,000
Reference Requests...............       41,430       42,000       43,000
Current Awareness Profiles \1\...       61,572       62,000       63,000
Accesses to NAL Electronic Info                                         
 \2\.............................    3,608,206    5,000,000    8,000,000
                                  --------------------------------------
      Total \3\..................    3,865,522    5,256,000    8,256,000
------------------------------------------------------------------------
\1\ Consists of total number of Profiles entered and maintained.        
  Previous figures were based on individual search strategies           
  maintained.                                                           
\2\ Access to NAL electronic information resources is becoming an       
  increasingly important usage indicator. Consists of total number of   
  times users accessed NAL's electronic information resources either    
  through network connection or by dial-up.                             
\3\ Statistics for online and CD-ROM database searches are no longer    
  being collected. NAL users are now more sophisticated concerning the  
  use of electronic media, and physical access to databases has been    
  enhanced for users at the Library. NAL provides access to the         
  databases and basic assistance and training for users. Consequently,  
  users are performing many of the searches themselves.                 

                       nal repair and maintenance
    Mr. Skeen. Please provide a list of all repair and maintenance 
activities anticipated in fiscal year 1997.
    Response. The projected repair and maintenance activities at NAL 
are:

Construction of the balance of the Phase I sprinkler project..  $275,000
Design of the first, third, fourth, and fifth floor renovation   300,000
Design of a replacement cooling tower.........................    40,000
Improved security system for the NAL collection...............    85,000
Miscellaneous/emergency repairs...............................   200,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   900,000
                            corn germ plasm
    Mr. Skeen. Please describe the work you have underway on corn germ 
plasm.
    Response. The Germplasm Enhancement of Maize--GEM--Project is an 
unprecedented public/private research effort to strengthen U.S. corn 
hybrids brought about by rescuing and using irreplaceable Latin 
American germplasm. Its goal is to identify useful new grain and forage 
characteristics in the exotic corn germplasm which can be bred into new 
hybrids for delivery to U.S. farmers.
    The cooperation includes 18 private companies and 36 State and 
Federal public scientists working together to intermate elite private 
and public sector germplasm with 268 elite selections of maize 
identified in the Latin American Maize Project--LAMP, coordinated by 
the USDA in cooperation with 12 Latin American countries. After the 
initial crosses, the germplasm is broadly shared among scientists to 
identify useful economic traits, such as for quality, performance, and 
to reduce biotic and abiotic stresses.
    Broadening the genetic base of commercial corn hybrids, identifying 
host plant resistance to common pests, and improving productivity of 
the corn plant are all goals of the GEM project. Host plant resistances 
offer the most promise to help reduce chemical control treatments which 
contaminate the soil and pollute the water resources upon which we are 
dependent. Stress resistance factors can play a role in drought 
tolerance and the overall reduction of irrigation water to the crop. 
The likeness of genomes among the grass family, genome syntony, helps 
this project play a role in improving other grass family crops. A gene 
found in corn which controls a specific trait is likely conserved in 
the other important grasses such as sorghum, rice, and wheat, and 
opposite. This opens the opportunity for crop advances in related 
genera. Latin American countries that participated in the LAMP project 
will have access to the germplasm developed in GEM upon its release at 
various stages of the project. Currently, insufficient funding for this 
project limits their full participation.
    Mr. Skeen. By location, what is the funding and staff for corn germ 
plasm in fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal years--                          
                                            --------------------------------------------------------------------
                  Location                            1996                   1997                   1998        
                                            --------------------------------------------------------------------
                                               Funds    Scientists    Funds    Scientists    Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Ames, IA...................................   $333,300        1.0    $330,700        1.0    $330,700        1.0 
Raleigh, NC................................    166,700        1.0     165,300        1.0     165,300        1.0 
                                            --------------------------------------------------------------------
      Total................................    500,000        2.0     496,000        2.0     496,000        2.0 
----------------------------------------------------------------------------------------------------------------

                    Agriculture Research Investment

    Mr. Skeen. Can you tell us how much money is invested in 
agricultural research in the U.S. by the Federal Government, 
Universities, and the private sector?
    Response. Approximately $6.3 billion were invested in agricultural 
research in 1992. Of that amount, $1.6 billion was invested by the 
Federal Government, $1 billion by the States, and an estimated $3.8 
billion by the private sector. Those investments supported $1 billion 
of agricultural research in USDA; $2 billion in State Agricultural 
Experiment Stations, universities and colleges; and an estimated $3.4 
billion in the private sector.
    Mr. Skeen. Can you tell us how this investment compares with other 
industrialized nations of the world?
    Response. In absolute expenditures, the U.S. funds more public 
agricultural research than any other single country. However, this gap 
has been closing since the 1960's. In the early 1980's the EC as a 
whole surpassed the U.S. in absolute expenditures. Measured in terms of 
percentage of agricultural GDP, in the early 1980's U.S. public 
expenditures were lower than our major trade competitors, for example 
Canada and Australia, approximately the same as northern Europe and 
considerably higher than southern Europe. Statistics on private 
investments are harder to obtain and less reliable. However, estimates 
suggest that in 1985 absolute expenditures on private agricultural 
research in the U.S. were considerably less than in northern Europe and 
somewhat larger than in Japan. I am submitting for the record a chart 
that provides an international comparison of spending for public 
agricultural research.
    [Chart follows:]

[Page 111--The official Committee record contains additional material here.]



    Mr. Skeen. Can you tell us to what extent we share our research 
results with other countries and they with us?
    Response. The REE agencies and agency researchers have considerable 
interaction with international agriculture research and education 
institutions around the world, all of which involve, in one way or 
another, sharing of research findings. U.S. scientists are part of the 
international community of scientists engaged in agricultural research. 
As participants in that community, they regularly share research 
findings through the scientific literature and at conferences. In that 
process they build on the results from research carried out in other 
countries. The cloning research in Scotland that led to Dolly is an 
example of such research. Exchange of personnel and formal joint 
research programs, such as the U.S.-Israel Bilateral Agricultural 
Research and Development program, also promote development of 
complementary research agendas and sharing of research results. In yet 
other arrangements, U.S. staff provide advice on linking research to 
formal and informal education and in the process learn from other 
institutions.
    Mr. Skeen. How much money or what percent of USDA research 
appropriations are now spent on chemical and non-chemical research on 
crop and livestock pests and weeds? Are these resources focused on IPM 
and, if not, why not?
    Response. In fiscal year 1997, the REE agencies will spend an 
estimated $171,722,000 on chemical and non-chemical research on crop 
and livestock pests and weeds. For the most part these funds are 
focused on IPM. ARS estimates $134,236,000 will be spent on chemical 
and non-chemical research. All of these funds are targeted to develop 
the pest control components of IPM systems. ERS allocates approximately 
$2,600,000 for pest control, also designed to support IPM systems, and 
CSREES spends approximately $34,886,000 on chemical and non-chemical 
research.
                  laboratory closures--under secretary
    Mr. Skeen. Last year, the Under Secretary testified that he 
believed ARS could consolidate its research into 15 or 20 Centers of 
Excellence. Is that your belief?
    Response. The context of the Under Secretary's remarks made last 
year was related to his vision for the future of the ARS facilities. 
There had been no comprehensive study of the feasibility of the 
development of the concept of Centers of Excellence. I do not believe 
we can transform the intramural research system to a network of 15 to 
20 Centers of Excellence without in-depth review and study. The 
Strategic Planning Task Force authorized in FAIR 96 allows us the 
opportunity to do such a review and explore the adoption of the concept 
of Centers of Excellence.
    Mr. Skeen. The Farm Bill provides for a task force to review and 
examine research facilities and make recommendations as to their needs? 
Is this task force operational?
    Response. The nomination process for membership on the Strategic 
Planning Task Force as described in FAIR 96 has been completed and the 
task force should be appointed in the very near future. As soon as the 
membership of the task force is confirmed, staff and financing is in 
place to begin the review immediately. The task force will have 2 years 
from the date of appointment to complete the study.
    Mr. Skeen. How many members are to be involved and how will they be 
chosen?
    Response. The FAIR 96 directs that there will be 15 members on the 
task force appointed by the Secretary from nominations submitted by the 
Research, Education, Extension and Economics Advisory Board. The 
Advisory Board submitted a list of 48 nominations from which the 
appointments are being made.
    Mr. Skeen. What criteria will they utilize to review the Federal 
Facilities? Will they make judgments based on structural, i.e., bricks 
and mortar needs or will decisions be based on programmatic aspects of 
research? What kinds of programmatic issues will be addressed? Please 
provide this Committee with a detailed list of criteria, issues, and 
areas of concern to be evaluated by this task force.
    Response. I am submitting for the record a brief paper outlining 
the charge and criteria to be used by the Task Force in conducting 
their review.

[Pages 113 - 116--The official Committee record contains additional material here.]


    Mr. Skeen. How will the task force be funded and how much money are 
we dealing with?
    Response. The task force will be funded from redirected existing 
funds from within the REE mission area of the Department. A total of 
$937,000 has been budgeted over the 2-year life of the task force to 
cover all costs, including staff salaries, data collection, task force 
meeting expenses and preparation and printing of the report.
                 project terminations--under secretary
    Mr. Skeen. The 1998 Budget requests a number of research project 
terminations necessary to fund the Administration's new program 
requests. A significant number of the decreases recommended for 
termination are important research projects that the Congress 
recommended to be included in this year's budget. It appears that the 
Department doesn't think Congressional research priorities are 
important. Where was the decision made to eliminate Congressional 
priorities included in the 1997 budget? At the agency, the Department 
or OMB?
    Response. Decisions on termination of all projects are based on 
agency assessments and recommendations that are subsequently reviewed 
at the Department level and at OMB.
    Mr. Skeen. Is it your thinking that the Administration has the only 
knowledge of important research needs in this country?
    Response. Clearly the Administration does not have a monopoly on 
knowledge of important research needs in this country. However, the 
program decisions embedded in the budget are based, to a considerable 
extent, on formal and informal discussions with government officials 
that take place throughout the year. These conversations are held with 
the broad range of individuals and institutions, including producers, 
environmentalists, scientists at universities and in the private 
sector, consumers, and agribusinesses who are concerned about the 
future of our food and fiber system. The budget represents our 
assessment of the best way to invest limited Federal research and 
development funds to achieve broad national goals and address pressing 
national issues.
                       project terminations--ars
    Mr. Skeen. Congress receives information on critical research needs 
from a diverse crosssection of stakeholders in agricultural research 
throughout the nation. Research that impacts production, trade, 
environment, health and safety. We don't expect this indifference to 
continue--especially in time of limited budgets. How did the research 
agencies decide to terminate the specific projects that are listed in 
the Explanatory Notes?
    Response. In the Agricultural Research Service each project in the 
Agency's portfolio was evaluated by the ARS senior management team 
using the Project Evaluation Guide. After first establishing that the 
activity was consistent with the Federal role, the guide was used to 
evaluate projects based on relevance of the activity to National and 
Departmental priorities; the resource capability and capacity of the 
project to meet the stated objective, including facilities and human 
resources; and the anticipated or current impact of the research on 
science, the national economy, society and national policy. This Guide 
was the same one used last year to evaluate the Agency's programs in 
preparation for the President's fiscal year 1997 budget.
    With respect to CSREES, CSREES proposed to eliminate those programs 
and projects that were state specific and/or did not address current 
national and regional priorities. In keeping with the Administration's 
policy of awarding research, education, and extension grants through a 
competitive, merit-review process, programs and projects earmarked for 
specific institutions were also proposed for elimination. Depending on 
whether it is a research or extension program or project proposed for 
termination, it is possible that funding from basic formula programs, 
the National Research Initiative, State and local governments, and/or 
private sources could be used to continue aspects of the program deemed 
to be of a high priority at State or local levels.
    Mr. Skeen. ARS has over 100 locations. On what basis did the Agency 
determine Mandan, North Dakota and Prosser, Washington should be 
closed?
    Response. The Agency does not consider any of its ongoing projects 
as low priority. However, because of critical research needs in the 
areas proposed for increases in FY 1998, some ongoing projects deemed 
less critical are proposed for termination. While the projects at 
Mandan and Prosser have contributed to the solution of agricultural 
problems, they are considered less essential to continue under a 
constrained Federal budget. The Prosser Washington, location currently 
has seven research projects. Three of these existing projects are 
proposed for retention and transfer to other locations. The Bean and 
Pea Germplasm project will be transferred to Pullman, Washington; the 
Potato Variety project will be transferred to Aberdeen, Idaho; and 
funds for an IR-4 minor use and pesticide evaluation project on 
Herbicide Efficacy and Residues will be returned to Headquarters to be 
redistributed to other high priority area wide IR-4 projects. The 
remaining four research projects at this location are proposed for 
termination. These projects focus on precision agriculture in the 
context of center pivot irrigation in potato and wheat production and 
similar research is carried out at Ft. Collins, Colorado, and Florence, 
South Carolina.
    The Mandan, North Dakota, location currently has four research 
projects. The research project on Integrated Forage-Livestock Systems 
will be retained but relocated to the ARS laboratory at Miles City, 
Montana, where it will be consolidated with similar research underway. 
Three other Mandan projects will be terminated. These focus on water 
management systems; soil management; and forage germplasm. Similar 
research on water management is being conducted at ARS locations in 
Akron, Colorado; Sidney, Montana; and Bushland, Texas. Research related 
to soil management is conducted at Lubbock, Temple and Weslaco, Texas 
and research to improve forage germplasm is carried out at ARS 
locations in Lincoln, Nebraska, and Logan, Utah.
    Mr. Skeen. Last year the department closed locations at Durant, 
Oklahoma and Bozeman, Montana. What program benefit and cost savings 
has been achieved from these consolidations?
    Response. Consolidating the research activities of Durant and El 
Reno is expected to provide an administrative savings amounting to 
$171,900 in FY 1997. Consolidation will provide the Southern Plains 
Area with an agricultural research program that produces information 
and technology which effectively deals with water, soil, and climate as 
an integral part of livestock and crop production systems. The 
consolidation of the Durant and El Reno laboratories will also enable 
ARS to enhance the coordination of regional research programs and share 
scientific expertise with ARS laboratories in Woodward, Oklahoma; 
Bushland and Temple, Texas; and Booneville, Arkansas. Research will 
focus on forage components; farmland livestock-forage systems on a farm 
scale; watershed hydrologic processes in large, complex, heterogeneous 
watersheds; and wetlands, riparian zones, and other landscape elements 
as they ecologically fit into large-scale watershed systems.
    Consolidating the research activities of Bozeman and Sidney is 
expected to provide an annual savings of $45,500 which includes rent 
for office, greenhouse, storage space, network charges, phone and 
recharge fees by moving to government-owned facilities. Also, annual 
savings of $114,000 in administrative support will be saved by 
consolidating the programs at Sidney. Consolidation will provide the 
Northern Plains Area with an agricultural research program that 
provides better information and technology to our customers throughout 
Montana and elsewhere in the Northern Great Plains. The consolidation 
will preserve the high priority research of current programs and allow 
for the development of an integrated crop and pest management program. 
This transfer will also place our research programs in a much stronger 
and more defensible position to proceed and to cooperate with other 
existing ARS, private sector and university research partners.
    Mr. Skeen. In REE, were decisions to close locations and terminate 
projects and grants done on a detailed evaluation basis? Please provide 
details on this process to the Committee?
    Response. In the Agricultural Research Service each project in the 
Agency's portfolio was evaluated by the ARS senior management team 
using the Project Evaluation Guide. After first establishing that the 
activity was consistent with the Federal role, the guide was used to 
evaluate projects based on relevance of the activity to National and 
Departmental priorities; the resource capability and capacity of the 
project to meet the stated objective, including facilities and human 
resources; and the anticipated or current impact of the research on 
science, the national economy, society and national policy. This Guide 
was the same one used last year to evaluate the Agency's programs in 
preparation for the President's fiscal year 1997 budget.
    With respect to CSREES, CSREES proposed to eliminate those programs 
and projects that were state specific and/or did not address current 
national and regional priorities. In keeping with the Administration's 
policy of awarding research, education, and extension grants through a 
competitive, merit-review process, programs and projects earmarked for 
specific institutions were also proposed for elimination. Depending on 
whether it is a research or extension program or project proposed for 
termination, it is possible that funding from basic formula programs, 
the National Research Initiative, State and local governments, and/or 
private sources could be used to continue aspects of the program deemed 
to be of a high priority at State or local levels.
    Mr. Skeen. In ARS, how many scientists and support personnel will 
be impacted by the proposed project terminations?
    Response. Fifty-nine scientists and 95 support staff for a total of 
154 permanent positions will be impacted by the proposed project 
terminations.
    Mr. Skeen. Please detail ARS project terminations by location, 
funding and staff years.
    [The information follows:]

[Pages 120 - 124--The official Committee record contains additional material here.]


    Mr. Skeen. Please identify ARS' dollar resources on commodities and 
identifiable diseases and pests that will be reduced as a result of the 
proposed project terminations.
    Response. A number of commodities and identifiable diseases and 
pests will be reduced as a result of project terminations. Although 
program increases of $30,114,000 are being proposed which may result in 
actual increases in some areas, the following major commodities and 
identifiable diseases and pests will still reflect decreased research 
efforts in fiscal year 1998: aquaculture, small fruits and nuts, corn, 
forage, rice, grain sorghum, soybeans, peanuts, potatoes, sugar crops, 
oilseed/oil crops, composting, lyme disease, pear thrips, formosan 
termite, and Russian wheat aphid. Those areas of research that are 
projected to have net increases include citrus, wheat, cotton, poultry, 
beef cattle, dairy cattle, swine, weeds, microorganisms, plants, 
sweetpotato whitefly, bollworm, beet armyworm, European corn borer, 
tobacco budworm, bollweevil, Colorado potato beetle, insects, karnal 
bunt, salmonellosis, E. coli, parasite diseases, scrapies, bovine 
virus, bovine influenza, newcastle disease, African swine fever, 
listeriosis, foot and mouth disease, tuberculosis and Johnes disease, 
campylobacter, weed control and pest control.
                          project terminations
    Mr. Skeen. In REE, identify significant areas of research that will 
be reduced as a result of the proposed project terminations; i.e., 
sustainable research, new uses for agricultural commodities; pest 
management; research to promote exports; production efficiency 
research; rural development, etc.
    Response. No significant area of research will be totally reduced 
as a result of the proposed selected project terminations. Some of 
these terminations are categorized in the following program areas: new 
uses for agricultural commodities; sustainable agriculture; plant 
production; biotechnology and pest management. However, the FY 1998 
budget is requesting reallocation of the resources associated with the 
project terminations to higher priority projects and areas of research 
including Human Nutrition, Food Safety, Genetic Resources and Emerging 
Infectious Diseases, Grazinglands, Integrated Pest Management and the 
South Florida Ecosystems Restoration Initiative.
    Mr. Skeen. In ARS, list funding for projects terminated from 1995 
through 1997.
    Response. A list of projects which were terminated as part of the 
budget reallocation process from fiscal year 1995 through 1997 will be 
provided for the record.

[Pages 126 - 128--The official Committee record contains additional material here.]


    Mr. Skeen. ARS plans to reduce management costs at Headquarters in 
1998. How will this be accomplished? Reflect savings in dollars and 
staff years by function and organization.
    Response. The reduction of $550,000 in management costs in fiscal 
year 1998 is tentatively planned to be applied proportionally to the 
ARS Headquarters program and administrative support staffs.

------------------------------------------------------------------------
                                         Fiscal years--                 
                                  ----------------------------          
        Headquarters Staff             1997                     Savings 
                                     Estimate     1998 Budget           
------------------------------------------------------------------------
Program Management:                                                     
    Office of the Administrator..    $3,140,462    $3,094,925    $45,537
    Civil Rights Staff...........       907,226       894,071     13,155
    Budget and Program Management                                       
     Staff.......................     1,264,758     1,246,419     18,339
    Information Staff............     3,679,765     3,626,408     53,357
    Office of Technology Transfer     1,724,304     1,699,302     25,002
    National Program Staff.......     7,554,790     7,445,246    109,544
                                  --------------------------------------
      Subtotal...................    18,271,305    18,006,371    264,934
                                  ======================================
Administration and Financial                                            
 Management:                                                            
    Deputy Administrator, AFM....     1,571,887     1,549,094     22,793
    Human Resources Division.....     7,829,323     7,714,682    114,641
    Financial Management Division     1,603,623     1,580,370     23,253
    Extramural Agreements                                               
     Division....................       205,114       202,140      2,974
    Procurement and Property                                            
     Division....................     2,254,042     2,221,358     32,684
    Facilities Division..........     3,896,082     3,839,589     56,493
    Admin Info and Tech Division.     2,222,614     2,190,386     32,228
                                  --------------------------------------
      Subtotal...................    19,582,685    19,297,619    285,066
                                  ======================================
      Total......................    37,853,990    37,303,990    550,000
------------------------------------------------------------------------

    Mr. Skeen. Provide funding and staff years for Headquarters and 
field management by organization for fiscal years 1996-1998.
    Response. Fiscal years 1996-1998 funding and staff years for 
Headquarters and field management are as follows:

----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal years--                
                                                                 -----------------------------------------------
                                                                       1996            1997            1998     
----------------------------------------------------------------------------------------------------------------
Funding:                                                                                                        
    HQ..........................................................     $44,168,024     $47,255,187     $46,705,187
    Field.......................................................     $15,582,455     $15,127,800     $15,127,800
Staff Years:                                                                                                    
    HQ..........................................................             526             526             515
    Field.......................................................             243             243             243
----------------------------------------------------------------------------------------------------------------

    Mr. Skeen. ARS plans to reduce management costs in its Headquarters 
and field offices in fiscal year 1999. How much will be saved at 
Headquarters and in the field through this action?
    Response. ARS intends to reduce its management costs by an 
additional $1,250,000 in FY 1999 to alleviate the impact of decreased 
appropriations to ARS' research activities. The Headquarters and field 
program and administrative management activities will share in these 
reductions.
    Mr. Skeen. How many field/area management offices does ARS 
currently maintain? Where are these offices located. Provide funding 
and staff years for each.
    Response. ARS currently maintains eight field/area management 
offices. The following provides the location and FY 1997 funding and 
staff years for each.

------------------------------------------------------------------------
                                                                   Staff
                                                       Funding     years
------------------------------------------------------------------------
Beltsville........................................    $2,850,400      11
North Atlantic....................................     1,642,200      30
Midwest...........................................     1,744,200      34
Pacific West......................................     2,231,800      47
Northern Plains...................................     1,851,100      31
Southern Plains...................................     1,464,900      30
Mid South.........................................     1,539,100      28
South Atlantic....................................     1,804,100      32
                                                   ---------------------
      Total.......................................    15,127,800     243
------------------------------------------------------------------------

    Mr. Skeen. What functions are carried out at your Area management 
sites?
    Response. Our eight Area Offices provide executive leadership for 
operational planning and implementation of broad goal-oriented research 
and management programs within their respective areas; recommend 
research priorities and projects, budget, and use of facilities based 
on perceived needs of agriculture; provide leadership and direction to 
systematic identification of research needs, planning research 
approaches, forecasting required resources, and evaluating Area program 
implementation in the context of ARS plans; inform the Administrator of 
program and related considerations which could have significant impact 
on the overall ARS research program and management activities; manage 
human and other resources to carry out ARS plans; collaborate with 
other Areas and cooperators to carry out joint research; and advise the 
Administrator and other Agency officials on technical and 
administrative problems. Within each Area Office there is an Area 
Administrative Office Staff. This staff is responsible for assisting 
the Area Director in implementing and managing ARS research programs 
within the area; participating in executing Area management policies; 
providing direct operational support to the Area and the ARS mission in 
the management of personnel, equipment, services and construction 
acquisition, real and personal property, research agreements, budget 
execution and financial control, safety and health management programs, 
automated information management systems, and engineering management. 
Where the Area Administrative Office is co-located with an ARS research 
location, administrative management support is also provided for the 
location by the Area Administrative Office.
    Mr. Skeen. Are any of these administrative functions carried out at 
research locations below the Area management level?
    Response. Yes, some of the administrative functions performed 
within the Area Administrative Office are also performed, to a lesser 
degree, at the research location level.
    Mr. Skeen. Provide the Committee with a detailed listing of 
administrative functions carried out by ARS in Headquarters, area 
offices and research locations. List these functions by location and 
provide funding and staff years.
    Response. Human resources functions are primarily performed at the 
ARS Headquarters level, with some limited delegated authorities at the 
ARS Area Office and Location level. Budget and finance; procurement and 
contracting; facility, property, and space management; and safety and 
health responsibilities are performed, under varying degrees of 
delegated authority, at the Headquarters, Area, and Location levels.
    The following tables list administrative functions carried out by 
ARS in Headquarters, area offices and research locations and shows 
funding and staff years. The table reflecting positions at the location 
level are not broken down by administrative functions since the 
positions at this level are multifunctional, providing services across 
the administrative function assignment areas.

------------------------------------------------------------------------
                                                     Fiscal year 1997   
                                                      estimated costs   
                                                 -----------------------
                                                                  Staff 
                                                     Funding      years 
------------------------------------------------------------------------
Headquarters:                                                           
    Function:                                                           
        Personnel...............................    $8,400,000     150.5
        Financial...............................     1,822,500      30.5
        Contracts...............................     2,224,800      36.7
        Facilities..............................     4,104,600      55.9
        Computer................................     3,363,600      48.6
                                                 -----------------------
          Total.................................    19,915,500     322.2
                                                 =======================
Area Offices:                                                           
    Function:                                                           
        Personnel...............................       598,200      15.0
        Financial...............................     2,580,400      53.2
        Contracts...............................     3,653,300      78.2
        Facilities..............................     2,846,800      43.5
        Computer................................     1,361,500      23.6
                                                 -----------------------
          Total.................................    11,040,200     213.5
------------------------------------------------------------------------


[Pages 132 - 134--The official Committee record contains additional material here.]


    Mr. Skeen. How does ARS intend to reduce its Area management costs 
proposed in 1999? Given advances in electronic and information 
technologies, what considerations will be given to consolidation of 
many of these activities?
    Response. ARS will continue to look for all opportunities to 
utilize technology advances in carrying out the Agency's mission. Over 
the past several years the Agency has undergone a significant reduction 
in the number of administrative support positions and has consolidated 
and in some cases eliminated all together redundant overhead functions. 
ARS has clustered administrative support functions in the field where 
appropriate and we have managed our administrative resources to ensure 
that only those critical functions are maintained. I have also 
established a cross functional Agency team of ARS managers and 
employees to assist me in the identification of additional 
opportunities for management savings.
    In terms of electronic and information technologies, ARS currently 
has or is participating in several initiatives underway to make greater 
use of technology which will help us in achieving future savings. These 
include:
    Financial Information System Vision (FISVIS), a Departmental 
initiative, will seek to modernize outdated financial accounting and 
reporting systems. Improved financial system applications will offer 
agencies greater opportunities to meet streamlining goals and move data 
electronically.
    USDA Reengineering Purchase Card Management System. ARS has been an 
active participant in the pilot test for this system which utilizes 
modern personal computer technology and client/server software tools to 
streamline the acquisition process. The reengineered system will 
provide for online reconciliation of monthly statements by cardholders, 
eliminating several current steps and paper transactions. Full 
deployment of the new system will begin in October 1997. Based on 
annual credit card transactions totaling 94,000, ARS should save $1.4 
million in administrative costs each year.
    Vacancy Announcement Distribution. The Human Resources Division is 
providing full-text vacancy announcements on the ARS Internet Home Page 
and the Office of Personnel Management's Federal Job Opportunity Board 
(FJOB) for all ARS vacant positions. Printed copies of the ARS vacancy 
announcement are only being distributed to a limited number of 
addresses for organizations and schools representing minorities, 
veterans, and people with disabilities. Use of electronic technology to 
publish ARS vacancy opportunities will save ARS over $100,000 annually 
on printing and distribution costs.
    Office automation technology such as e-mail, voice mail and word 
processing systems make communicating easier, quicker and less 
expensive. Using technology such as Wide Area Networking and Internet 
make it possible for people at different locations to quickly and 
easily share information. It also becomes possible for information to 
be stored at one place so it is easy to keep up to date and also 
accessible to employees at many locations when they need it.
    Use of Two-Way Video Conferencing makes it possible to reduce the 
travel cost associated with people at different locations working 
together. ARS also uses satellite downlink technology to provide 
agency-wide training and information sharing sessions with dramatically 
reduced travel costs.
    Mr. Skeen. What efficiencies can be achieved in ongoing human 
nutrition research; i.e., consolidation of resources, termination of 
lower priority research investigations, operational efficiencies, etc.?
    Response. In a recent evaluation of all ARS research projects, all 
human nutrition research projects were rated highly and none were 
identified for termination because of a low evaluation rating. 
Consolidation of resources and operational efficiencies have been 
identified and put into place to accommodate past funding limitations. 
This includes, at the ARS Human Nutrition Research Centers, energy 
saving modifications in facilities and equipment; reductions in 
professional support and administrative staff enabled by increasing the 
use of computers, new computer software, and robotic scientific 
equipment; reductions in the number of temporary scientists 
(postdoctorates and visiting scientists); elimination of positions of 
retiring and departing scientists with incorporation of critical 
components of their projects that would have a high impact on human 
health and well-being into other programs; reductions in Cooperative 
Agreements to accomplish research; and expansion of outside funding for 
research projects.
    Mr. Skeen. How much of your nutrition research is in support of 
food and nutrition programs carried out by the Department; chronic 
disease research in support of biomedical initiatives at NIH; food 
intakes requirements of EPA and other regulatory agencies?
    Response. The Agricultural Research Service has the primary 
responsibility for developing fundamental information on human nutrient 
requirements that provide the basis for development of dietary 
guidelines and for food assistance programs that prevent disease and 
maintain good health. The ARS is also responsible for the Continuing 
Survey of Food Intakes by Individuals (CSFII) which is a nationwide 
survey that measures the kinds and amounts of food eaten by Americans, 
and uniquely links diet and health knowledge and attitudes of 
individuals with their food and nutrient intake. The CSFII is used by 
Federal agencies such as EPA as a primary source of continuing and 
timely food consumption data for food and nutrition-related policies, 
regulations, and programs, including the evaluation of the adequacy of 
American diets for meeting Federal dietary guidelines and 
recommendations, development of food fortification, enrichment, and 
labeling policies, and for safety issues such as estimating exposure to 
pesticide residues, food additives, and contaminants. The ARS allocated 
actual funds of $13.1 million in FY 1996, and estimated funds of $8.5 
million in FY 1997 and $14.6 million in FY 1998 for nutritional status 
and food intake projects. Part of the mission of the ARS is to study 
the importance of nutrition in the prevention of chronic disease. The 
ARS does not perform research in support of biomedical initiatives at 
NIH that involve the treatment of disease or understanding non-
nutritional related biochemical changes that occur in chronic disease; 
this is the mission of NIH.
    Mr. Skeen. You are requesting $12 million for nutrition research. 
If Congress provides half of these resources, how would they be 
implemented?
    Response. The $12 million is for two distinct purposes; $6 million 
for a supplemental survey on the food consumption patterns of infants 
and children so that the Environmental Protection Agency can be 
provided with a valid sample size with which the pesticide intakes by 
children can be adequately estimated, and $6 million for the six ARS 
Human Nutrition Research Centers ($1 million each) so that they can 
initiate new programs that will help in the fight against chronic 
disease and generally improve the quality of life of all Americans. If 
only $6 million is provided, the top priority will be to fund the 
supplemental food survey in its entirety.
                     germplasm and genetic research
    Mr. Skeen. Please identify appropriations received for plant 
germplasm and genetic diversity initiatives from 1993 through 1997.
    Response. Appropriations received for plan germplasm and genetic 
diversity for fiscal years 1993, 1994, 1995, 1996, and 1997 are: 
$20,377,300, $20,432,900, $20,073,800, $19,487,300, and $20,057,900, 
respectively. There was one increase for the genetic diversity 
initiative of $500,000 in fiscal year 1997.
    Mr. Skeen. Provide funding and staff years for plant germplasm 
research and germplasm repositories for fiscal years 1996, 1997, and 
1998.
    [The information follows:]

[Pages 137 - 183--The official Committee record contains additional material here.]


    Mr. Skeen. ARS established a system of CRIS research project 
accountability in the mid-eighties. This system was implemented to 
assure that funds were allocated as directed by Congress. Is the 
Committee correct in assuming the integrity of this system is still 
maintained as initially described; i.e., that funds are allocated and 
monitored by research project? Describe this process.
    Response. The ARS Research Management Information System (RMIS) 
continues to maintain the integrity of the research project 
accountability by the research project. The project documentation and 
fund accountability are maintained at the research unit level of the 
Agency by the research project. The review and approval process is 
performed electronically through the hierarchical line of authority.
    Mr. Skeen. In Fiscal Year 1996, Congress provided funds for a 
number of research projects. Provide the actual obligations incurred 
for the following projects: Citrus Root Weevil; Wheat Virology; Citrus 
Tristeza.
    Response. The actual obligations incurred in fiscal year 1996 were 
as follows: Citrus Root Weevil $430,709; Wheat Virology $432,825 and 
Citrus Tristeza $855,693.
                        major issues in research
    Mr. Skeen. Please identify the priority research issues or problems 
in ARS' major areas of research: plant science, animal science, soil, 
water, and air; post-harvest research, human nutrition, library 
services, etc.
    [The information follows:]
                 major programs and specific objectives
Soil, water, and air sciences
            Specific objectives
    Conserve and enhance soils.
    Control and reduce soil erosion.
    Ensure adequate water resources.
    Protect and enhance water quality.
    Manage and utilize agricultural and other wastes.
    Improve the biodiversity of rangelands.
    Preserve and restore wetlands.
    Improve rangelands through the simulation of the relationships 
among soil, water, vegetation, livestock, and climate.
Plant sciences
            Specific objectives
    Identify and protect genetic resources/biodiversity.
    Breed crops for improved characteristics.
    Develop new biological/biorational technology for pest control.
    Reduce the need for chemical pesticides through the use of 
integrated/areawide pest management systems.
    Develop new technology to improve production efficiency and market 
quality.
    Improve small farm production systems to meet the needs of rural 
America.
    Identify the optimum combination of crops, soil management, 
fertilizers, water management, and pest control for different soils and 
climate conditions.
Animal sciences
            Specific objectives
    Utilize more effectively germplasm diversity, disease vectors, 
recombinant DNA technology, gene mapping, and genetic engineering.
    Accelerate genetic improvements.
    Identify animals with genetic resistance to diseases.
    Reduce losses from diseases and parasites.
    Control tuberculosis and parasites in live animals.
    Develop integrated animal/crop producing systems to make the best 
use of existing natural resources.
                 major programs and specific objectives
Commodity conversion and delivery
            Specific objectives
    Maintain and improve food safety.
    Develop new uses, new crops and alternative processing 
technologies.
    Manage postharvest disinfestation and develop alternative 
quarantine treatments.
    Maintain and enhance commodity quality.
    Apply scientific/engineering principles to monitor and assess 
changes during storage, transport, and delivery of agricultural 
products.
Human nutrition
            Specific objectives
    Determine the nutritional needs of infants, children and pregnant 
women.
    Define the nutritional needs of the elderly to maintain health and 
independence.
    Identify the relationship between diet and resistance of diseases.
    Survey/assess the nutritional status of the population.
    Provide information on the nutrient composition of foods.
    Identify the relationship between diet and cognitive ability in the 
developing child and the elderly.
Agricultural information and library services
            Specific objectives
    Acquire, organize, manage, and provide access to agricultural 
information.
    Utilize technology to promote the availability of agricultural and 
scientific information electronically.
    Maximize access to agricultural information through collaborative 
efforts.
    Enhance global competitiveness through the international exchange 
of agricultural information.
    As a national library of the United States, provide stewardship of 
the agricultural legacy of the nation by preserving and protecting 
information for future generations.
                          extramural research
    Mr. Skeen. Please provide research funding implemented through 
extramural mechanisms utilized by ARS, such as research contracts, 
grants, specific research agreements, etc.
    Response. During fiscal year 1996, a total of $100 million of 
research funding was implemented through extramural agreement 
mechanisms.
    Mr. Skeen. How much was obligated under each funding mechanism for 
fiscal years 1995 and 1996 and estimated for fiscal years 1997 and 
1998?
    [The information follows:]

                                              [Dollars in millions]                                             
----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal years--                  
                      Funding mechanism                      ---------------------------------------------------
                                                                  1995         1996         1997         1998   
----------------------------------------------------------------------------------------------------------------
Specific cooperative agreements.............................         23.9         23.6         23.6         23.6
Research contracts..........................................         17.0         18.0         18.1         18.1
Grant.......................................................         10.3         14.2         14.2         12.0
General type and cooperative agreement......................         14.2         17.7         17.8         17.8
Research support agreements.................................         29.3         26.5         26.6         26.6
                                                             ---------------------------------------------------
      Total.................................................         94.7        100.0        100.3         98.1
----------------------------------------------------------------------------------------------------------------

                     ars scientists and staff years
    Mr. Skeen. Provide a list of scientists and engineers by 
discipline? How many scientists and engineers were on board October 1, 
1996?
    Response. The following table lists scientists and engineers by 
discipline. There were 1,849 scientists and engineers on board October 
1, 1996.

[Pages 186 - 187--The official Committee record contains additional material here.]


                             ars scientists
    Mr. Skeen. How many scientists and engineers were on board for the 
past ten fiscal years? What are your projections through 2002?
    Response. The following table lists actual scientists and engineers 
on board at the end of fiscal year 1986 through 1996 and projected 
numbers for fiscal years 1997 through 2002.

Fiscal year:
                                                               No. of SY
    1986......................................................     2,470
    1987......................................................     2,391
    1988......................................................     2,338
    1989......................................................     2,277
    1990......................................................     2,200
    1991......................................................     2,134
    1992......................................................     2,116
    1993......................................................     2,056
    1994......................................................     1,969
    1995......................................................     1,906
    1996......................................................     1,849
    1997......................................................     2,000
    1998......................................................     2,000
    1999......................................................     2,000
    2000......................................................     2,000
    2001......................................................     2,000
    2002......................................................     2,000
                           staff year ceiling
    Mr. Skeen. Your staff year ceiling has been on a steep decline. How 
does the agency plan to operate its laboratories efficiently if it 
can't have the necessary personnel?
    Response. Every effort will be made to take advantage of new 
technological advances in computer equipment, scientific 
instrumentation, and virtual scientific laboratories, in the operation 
of our laboratories. Use of these advanced technologies should ensure 
that our laboratories operate efficiently even as we continue to 
downsize and streamline throughout ARS. In addition, consolidation of 
locations will also be considered as a viable option for addressing the 
declining FTE base and the decreasing operating resources into the 
future.
                          streamlining effort
    Mr. Skeen. Provide the table reflecting ARS' streamlining effort 
from 1993 to 2002. Detail the specific positions to be reduced and 
identify them by Headquarters and field.
    Response. ARS streamlining targets were established based on the 
overall guidance provided by the Office of Management and Budget (OMB). 
Those requirements call for Agency streamlining plans to run through 
Fiscal Year 1999. They also specifically outlined what positions were 
to be covered including a special ``Headquarters'' category which 
includes a select group of positions involved in the establishment of 
Agency programmatic policy. These requirements also call for agencies 
to report by FTE, Supervisors, Supervisory Ratio, Personnel 
Specialists, Budget Specialists, Acquisition Specialists, Accountants 
and Auditors, and Organizational Layers. The table below reflects 
Agency Plans through the year 2002. The fiscal years beyond 1999 show 
the same streamlining levels as 1999 since our Agency goals were all 
targeted to be met by 1999.

                                      STREAMLINING PLANS 1993 THROUGH 2002                                      
----------------------------------------------------------------------------------------------------------------
                                                                                                           1999-
                                                           1993    1994    1995    1996    1997    1998    2002 
----------------------------------------------------------------------------------------------------------------
FTE's...................................................   8,423   7,950   7,618   7,614   7,800   7,614   7,591
Supervisors.............................................     729     709     670     594     597     577     570
Supervisory ratio.......................................    1:11    1:11    1:10    1:13    1:12    1:12    1:12
Headquarters............................................      16      16      16      11      15       8       8
Personnel specialists...................................     157     157     143     141     143     138     133
Budget specialists......................................     103     101     101     101      95      93      87
Acquisition specialists.................................     200     198     216     207     175     155     131
Accountants and auditors................................     136     135     115     112     100      80      74
Organizational layers...................................       4       4       4       4       4       4       4
----------------------------------------------------------------------------------------------------------------

                  streamlining impact on ars locations
    Mr. Skeen. How will streamlining impact ARS' ability to maintain 
and operate over 100 research and management locations?
    Response. As ARS continues to streamline to meet its goals, the 
level of administrative support services in impacted areas will be 
reduced. Currently ARS is able to maintain its facilities and expects 
to do so for the next few years. However, eventually, the reduced 
number of employees may have a negative impact with regard to 
maintaining facilities.
                     ars scientists and staff years
    Mr. Skeen. What is the current occupancy at each ARS laboratory? 
What is projected for fiscal year 2002?
    Response. The projected occupancy of each ARS laboratory by 
scientists for fiscal year 2002 is 2,000. The current occupancy for ARS 
research scientists (categories 1 and 4) as of February 28, 1997 of 
each ARS laboratory will be provided for the record.

[Pages 190 - 193--The official Committee record contains additional material here.]


                        buildings and facilities
    Mr. Skeen. ARS is requesting $59.3 million for Building and 
Facilities. The Committee notes a significant unexpended balance in the 
Buildings and Facilities Account. Provide a listing by project of these 
balances and explain why each balance exists.
    Response. The following table identifies by project all unobligated 
balances as of February 28, 1997.

[Pages 195 - 199--The official Committee record contains additional material here.]


                        strategic plan and gpra
    Mr. Skeen. Who will approve these plans? Did the agencies have 
Strategic Plans already in place before GPRA requirements? How do the 
draft strategic plans differ from existing strategic plans for each REE 
agency?
    Response. ARS has used strategic plans to guide the work of the 
agency for almost 15 years. The earlier ARS strategic plans were 
organized around broad areas of scientific activity such as; Soil, 
water, and air; Plant productivity; Animal productivity; Commodity 
conversion and delivery; Human nutrition; and Integration of systems. 
These plans laid out, in considerable detail, the purpose and direction 
of the research to be conducted. The new GPRA driven strategic plan is 
organized around the following 5 broad societal goals; an agricultural 
system that is highly competitive in the global economy; a safe and 
secure food and fiber system, a healthy, well nourished population; 
greater harmony between agriculture and the environment; and enhanced 
economic opportunity and quality of life for Americans. The new 
approach seeks to articulate the work of ARS in terms of its ultimate 
outcome or benefit to American agriculture and to the broader society. 
The ARS strategic plan has been approved by the Agency's Administrator, 
and by the Acting Under Secretary for Research, Education and 
Economics. The USDA Chief Financial Officer is responsible for 
obtaining Departmental approval of the agency plans.
    Mr. Skeen. ARS plans to collect statistics and provide estimates on 
the value of the long-term benefits of its research to industry and 
consumers in the areas of basis and applied research. How does ARS plan 
to capture this data? Can it distinguish between the value and benefits 
resulting from its research effort alone? How will this be done? On 
what basis will ARS support its estimates in these areas?
    Response. The Agency is in the very early stages of looking at how 
we might estimate or determine the long term benefits of research to 
consumers, stakeholders, and to the broader society. We have had some 
informal discussions with the Economic Research Service but nothing has 
evolved with enough certainty to allow us to respond in great detail at 
this time.
                      status of current activities
    Mr. Skeen. Your examples of progress state that biocontrol agents 
reduce leafy spurge throughout the Northern Great Plains. How many 
acres have been infested and how many acres have been eradicated as a 
result of these biocontrol agents? Please identify the biocontrol 
agents involved?.
    Response. Leafy spurge (Euphorbia esula) has infested an estimated 
5 million acres in 29 states. This figure, however, is felt to be an 
underestimate of the actual area infested by this pernicious, perennial 
weed that is continuing to overrun and degrade grazing lands for cattle 
and horses, and natural lands that supports wildlife, native plants and 
human recreational activities. Eradication of this weed from North 
America has not been the goal of State and Federal action agencies nor 
private groups as the technical feasibility of eradication is beyond 
current technology and even if possible would be prohibitively 
expensive. Leafy spurge management activities have instead been 
developed around the integrated use of chemical, cultural, and 
biological control activities. ARS scientists at Sidney, Montana, and 
Montpellier, France, have focused on the development of biological 
control of leafy spurge.
    In the past 5 years, ARS has worked with the USDA-Animal and Plant 
Health Inspection Service (APHIS), a number of State Department's of 
Agriculture, and many other private and governmental land managers to 
identify, develop and implement biological control alternatives for 
leafy spurge control throughout the Northern Plains States. Biological 
control has been cited as the most cost effective means of controlling 
this past as once the natural enemies become established, they 
reproduce and spread on their own. Of the 29 leafy spurge infested 
states, ARS scientists have provided one or more biological control 
agents to cooperators in at least 20 of these locations. In the 
Northern Plains, all states have been inoculated with most available 
agents and in the centers of many of these release sites, leafy spurge 
has been reduced by an estimated 85 percent. In these areas, leafy 
spurge populations follow a general decline and desired grass species 
are increasing dramatically in the place of this exotic weed. 
Unfortunately, this process takes 5-7 years, has only been implemented 
on less than 5 percent of the affected acreage and does not work in all 
habitats. ARS scientists are working with state-based programs and 
USDA-APHIS to expand the areas inoculated with biological control 
agents and are continuing to identify, test and introduce new agents 
into habitats where leafy spurge is not affected by existing natural 
enemies.
    Insect natural enemies that have been released as biological 
control agents into the Northern Plains States include the: Minute 
spurge flea beetle, Aphthona abdominalis; Brown dot leafy spurge flea 
beetle, Aphthona cyparissiae; Black leafy spurge flea beetle, Aphthona 
czwalinae; Copper leafy spurge flea beetle, Aphthona flava; Brown-
legged leafy spurge flea beetle, Aphthona lacertosa; Black dot leafy 
spurge flea beetle, Aphthona nigriscutis; Hungarian clearwing moth, 
Chamaesphecia hungarica; Leafy spurge hawkmoth, Hyles euphorbiae; Red-
headed leafy spurge stem borer, Oberea erythrocephala; Leafy spurge tip 
gall midge, Spurgia esulae; and Leafy spurge sesid, Chamaesphecia 
crassicornis.
    Biological control agents under final testing by ARS in 
Montpellier, France include: a new flea beetle, Aphthona chinchihi; a 
new weevil, Thamnurgus euphorbiae; and the Leafy spurge gall fly, 
Spurgia capitigena.
    Mr. Skeen. You specify that rising levels of carbon dioxide will 
stimulate wheat production by the middle of the next century. Have 
similar studies been made on other agricultural crops and what are the 
results to date?
    Response. Studies have been conducted projecting increased 
productivity with an elevation of CO<INF>2</INF> concentrations, from 
today's level of about 360 parts per million by volume (ppmv) to 550 
ppmv, on several agricultural crops. Measured increases include: 
wheat--8-15% grain yield increases under wet conditions and 20-25% 
under water-stress conditions; cotton--40% increase in seed cotton 
yield under both wet and dry conditions and 60% increase in lint yield 
under wet conditions; orange trees--90% increase in fruit numbers (with 
no change in fruit numbers but somewhat thicker rinds); soybeans--25% 
yield increase; rice--20-30% yield increase; sorghum--10% increase in 
yield under well watered conditions; alfalfa--no change in biomass 
production; and tomato--10% increase in fruit production.
                      status of current activities
    Mr. Skeen. ARS in cooperation with industry has developed a process 
to tenderize meat using water and an explosive charge. Please describe 
this process in more detail. What is the plausibility of industry and 
consumer acceptance of the process and product?
    Response. The Hydrodyne process (U.S. Patents 5,273,766 and 
5,328,408) presents a new way the meat industry could tenderize meat. 
The process involves a high pressure, hydrodynamic wave of very short 
time duration generated by underwater detonation of a small amount of 
precisely calculated high explosive. A two-part explosive is used, 
neither part of which are explosive until combined, and are very 
stable. When combined the two parts are quite insensitive and therefore 
takes a substantial force to detonate. This minimizes any safety 
concerns that meat processors might have. The current Hydrodyne system 
being tested is designed for batch (600-800 lb/detonation) production. 
Vacuum packaged sections of meat are immersed in water contained in a 
large (3 " thick) steel kettle (tank). The meat is lowered to the 
bottom of the tank and a small explosive charge is submerged in the 
water at a chosen distance from the meat. A heavy metal cover locks in 
place on the top of the steel tank and contains the blast and resulting 
water splash. An explosion (pressure shock wave) is generated in the 
water sending the shock wave through the water and through the meat. 
The meat and water have quite similar mechanical impedances, and are 
therefore an acoustic match. The transit of the shock wave through the 
meat ruptures proteins and bonds in the meat, producing instantaneous 
tenderness.
    The process has been presented formally to the USDA-Food Safety and 
Inspection Service, Occupational Safety and Health Administration, 
Environmental Protection Agency, and the Bureau of Alcohol, Tobacco, 
and Firearms. There have been no objections to the process regarding 
hazards or health and no negative environmental effects of the 
operation have been expressed. Several major meat slaughter/packing/
processing companies have shown interest in commercialization. Several 
studies have been conducted in a commercial prototype unit with 
different representatives from major meat industries as collaborators. 
Consumer acceptance studies (e.g., surveys) have not been performed, 
however, due to the nature of the process, it is unlikely this process 
would meet any resistance. Since the meat products are packaged at the 
time of the treatment and the meat never comes in contact with any 
foreign material, there are presently no restrictions nor labeling 
requirements. Sensory properties have been evaluated by trained taste 
panelists. Tenderness scores improved with the process while no affects 
were found for juiciness or flavor properties.
                           soybean-based ink
    Mr. Skeen. What have been the developments with regard to the 
commercial use of soybean-based ink during the past year?
    Response. Interest in commercial development of ARS patented 
technology on soybean-based ink continues. One company in Oklahoma has 
an exclusive license limited to their region. Negotiations are underway 
with a second company for an exclusive license that would cover all 
areas except the region covered by the Oklahoma license. This company 
has also expressed interest in a second ARS patent application 
submission. The President's Executive Order requiring that vegetable 
oil-based ink be used in all government printing continues to provide 
an impetus for commercialization.
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with soybean-based ink, by location.
    Response. At the National Center for Agricultural Utilization 
Research (NCAUR), in Peoria, Illinois, we have developed resins and 
vehicles for heatset and sheetfed lithographic inks and formulated 
black and colored inks using 100 percent modified soy oil-based 
vehicles. These formulations have the additional environmental benefit 
of improved biodegradability and no volatile organic chemicals (VOC). 
Scaled up testing for sheetfed ink for printing book-type paper has 
been done at Rodale Press, Pennsylvania, and Rochester Institute of 
Technology, Rochester, New York. Scaled up testing for heatset 
technology for use with slick, high clay content paper is underway. A 
cooperative project on newspaper deinking and paper recycling was 
completed between NCAUR and Western Michigan University, Kalamazoo, 
Michigan. Soybean-based ink for producing newborn footprints has been 
developed at the request of the hospital industry out of concern for 
infant safety. Soy oil-based flexographic news ink studies are 
continuing.
    Mr. Skeen. By location, what is the funding and staff for soybean-
based ink research for fiscal years 1996, 1997, and 1998?
    Response. The ARS funding for soybean-based ink research at Peoria, 
Illinois, was $505,700 in fiscal year 1996 and is expected to be 
$503,600 in fiscal years 1997 and 1998. This funding will support the 
research activity of one scientist year.
    Mr. Skeen. What non-federal funds do you receive for work related 
to soyink?
    Response. ARS does not receive any non-federal funds for work 
related to soyink.
                           steep ii research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with STEEP II research, by location.
    Response. ARS has two locations involved in what is now called 
STEEP III research--Pullman, Washington, and Pendleton, Oregon. STEEP 
III continues the emphasis of STEEP I (economical soil erosion control) 
and STEEP II (economical soil erosion control plus water quality) and 
increases their scope to include broader soil quality issues than in 
the past. This program, more than its predecessors, emphasizes 
involvement of producers in on-farm testing and demonstration of 
natural resource conservation and management practices.
    At Pullman, the research is being conducted on the improvement of 
soil quality as a management approach to meet productivity, 
environmental, and food safety and water quality goals. The research 
focuses on the measurement of soil quality and the use of microbial 
processes to formulate soil building management practices. Studies are 
underway to improve surface residuemeasuring techniques for more 
reliable assessments of conservation compliance. The location is also 
participating in a regional wind erosion project to assess 
contributions of farmlands to small particulate dust and loss of air 
quality. Management practices are being developed for controlling wind 
erosion and atmospheric dust loads.
    At Pendleton, acoustical methods are being developed to measure the 
stability of soil surface roughness and porosity. In cooperation with 
the Natural Resources Conservation Service, technologies to measure 
non-random soil cover are being developed, and equations to predict 
runoff and erosion are being refined for more accurate use in the 
different agronomic zones of the Pacific Northwest. New tillage systems 
to minimize weed seed infestations associated with residues are being 
evaluated. Ripping frozen soil in fields seeded to winter wheat is 
being investigated to improve erosion control on summer fallow fields. 
Information from a small agricultural watershed is also being used to 
test runoff models for the region so that stream flows from 
agricultural lands can be better predicted.
    Mr. Skeen. What are some of the accomplishments of this research?
    Response. ARS research has led to several important results under 
STEEP II. For example, researchers have shown that weed seed left near 
the soil surface is the primary factor causing downy brome infestations 
in Pacific Northwest winter wheat fields. They have gone on to develop 
a new mow-plow system that buries downy brome seed but maintains up to 
40% residues on the surface for erosion control. Field studies have 
demonstrated that alternative cropping practices, such as stubble 
burning followed by no till, can reduce pesticide applications without 
increasing soil erosion while at the same time increasing soil organic 
matter content. Other field studies have shown the relative impacts of 
wind speed, surface roughness, and surface residue conditions on 
erosion and dust emissions. A newly developed practice of ripping 
planted frozen winter wheat fields was effective in reducing soil 
erosion on the steep slopes of the Palouse without loss of wheat yield 
during the 1994-1995 winter, the worst erosion year in the area in the 
last 10 years. Research has led to preliminary development of a method 
to identify source areas of particulate matter dust.
    Mr. Skeen. By location, what is the funding and staff for STEEP II 
research for fiscal years 1997, 1998, and 1999?
    Response. The funding and staff for STEEP II and STEEP III research 
will be provided for the record.

----------------------------------------------------------------------------------------------------------------
                                             Fiscal year 1997        Fiscal year 1998        Fiscal year 1999   
                Location                 -----------------------------------------------------------------------
                                             Funds    Scientists     Funds    Scientists     Funds    Scientists
----------------------------------------------------------------------------------------------------------------
Pendleton, OR...........................    $456,500         1.9    $456,500         1.9    $456,500         1.9
Pullman, WA.............................     201,700         1.0     201,700         1.0     201,700         1.0
                                         -----------------------------------------------------------------------
      Total.............................     658,200         2.9     658,200         2.9     658,200         2.9
----------------------------------------------------------------------------------------------------------------

                         sweet potato whitefly
    Mr. Skeen. Please describe for the Committee the work you have 
underway on sweet potato whitefly.
    Response. The research work we have underway on sweet potato 
whitefly, also known as the silverleaf whitefly, is a very extensive 
and well coordinated effort. Scientists at each research location bring 
together unique experience and technical expertise to combat the 
whitefly under a variety of environments and circumstances. The 
research work, by location, will be provided for the record.
    Beltsville, Maryland--Development of naturally-occurring 
attractants and whitefly control products from plant sources. 
Systematics of whiteflies.
    Charleston, South Carolina--Research on sweet potato whitefly 
tolerant plant varieties and the biology of the sweet potato whitefly 
in the southeastern United States.
    College Station, Texas--Development of improved pesticide 
application technology for the sweet potato whitefly.
    Fargo, North Dakota--Investigation of the chemical factors for host 
recognition and the nutritional requirements for mass rearing of 
natural enemies.
    Ithaca, New York--Introduction and evaluation of fungal biocontrol 
agents.
    Mississippi State, Mississippi--Evaluation and rearing of parasites 
and predators for control of the sweet potato whitefly.
    Montpellier, France--Exploration for and introduction of exotic 
parasites, predators, and microbial biocontrol agents for the sweet 
potato whitefly.
    Newark, Delaware--Introduction and evaluation of exotic parasites 
and predators.
    Orlando, Florida--Development and evaluation of naturally-occurring 
sweet potato whitefly growth regulators, and development of biological 
control agents and integrated pest management systems for the 
southeast.
    Oxford, Mississippi--Development of biorational pesticides.
    Phoenix, Arizona--Research on the identification and evaluation of 
naturally-occurring predators; development of techniques for mass 
production of natural enemies; evaluation of the biological 
characteristics of the sweet potato whitefly; determination of the 
ecology and population dynamics of the pest; and development of 
integrated pest management approaches for the sweet potato whitefly in 
the desert southwest cropping system.
    Salinas, California--Investigations of virus-vector relationships 
and effects of naturally-occurring plant virus reservoirs on the 
incidence of viral diseases.
    Stoneville, Mississippi--Investigations on sweet potato whitefly 
rearing and reproductive potential and the biology of natural enemies 
such as parasites.
    Tifton, Georgia--Development of management and control technologies 
for sweet potato whitefly on peanuts and other susceptible crops.
    Washington, D.C.--National Arboretum. Pest management systems for 
greenhouse and nursery crops.
    Weslaco, Texas--Greenhouse and field evaluations of new pesticides 
and application technology; investigations of insect-specific fungi for 
control of sweet potato whitefly and evaluation of exotic biocontrol 
agents.
    Mr. Skeen. Please describe the need for this research.
    Response. The sweet potato whitefly has caused significant damage 
to food and fiber crops in California, Arizona, Texas, Florida, 
Georgia, and Hawaii and in greenhouses across the United States. Losses 
in the United States are estimated to exceed $200 million annually. The 
expanding territory, the increasing threat to segments of American 
agriculture--especially to cotton, vegetable, melons and cucurbits, 
cole crops and ornamental crops--and the increasing incidence of 
vectored diseases clearly shows the need for continuing research 
efforts on this pest. Additionally, this pest and the diseases it 
vectors have become international in scope and many developing 
countries are looking to the United States for research leadership.
    Mr. Skeen. What developments have occurred during the past year?
    Response. During the past year, a new sweet potato whitefly 
research plan that includes a proactive mechanism for technology 
transfer has been formulated and implemented.
    The new research and technology transfer plan identifies additional 
research and action activities to develop effective management methods 
and to increase our levels of technology transfer. Integration of 
spatial analysis, geographic information systems, communications 
networking, ecological modeling, and extension programs is continually 
improving our efforts to provide information and management strategies 
to producers. An excellent insecticide resistance management program 
developed in California has been implemented, with a weekly newsletter 
to the grower community that assesses the status of chemical control 
efforts.
    Mr. Skeen. By location, what is the funding and staff for sweet 
potato whitefly research for fiscal years 1966, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal years--                             
                                      --------------------------------------------------------------------------
               Location                          1996                     1997                     1998         
                                      --------------------------------------------------------------------------
                                          Funds     Scientists     Funds     Scientists     Funds     Scientists
----------------------------------------------------------------------------------------------------------------
Phoenix, AZ..........................   $1,555,100        5.4    $1,539,400        5.3    $1,539,400        5.3 
Salinas, CA..........................       58,800        0.2        58,300        0.2        58,300        0.2 
Washington, DC.......................      176,500        1.0       174,700        1.0       174,700        1.0 
Newark, DE...........................       54,800        0.2        49,700        0.2        49,700        0.2 
Gainesville, FL......................  ...........  ..........  ...........  ..........      125,000        0.3 
Orlando, FL..........................      359,200        1.4       311,900        1.0       611,900        2.0 
Athens, GA...........................       75,300        0.3   ...........  ..........  ...........  ..........
Tifton, GA...........................       74,600        0.2        73,800        0.2        73,800        0.2 
Beltsville, MD.......................      255,100        1.2       173,200        0.8       173,200        0.8 
Miss. State, MS......................      111,300        0.4       217,800        1.1       217,800        1.1 
Oxford, MS...........................  ...........  ..........       64,800        0.3        64,800        0.3 
Stoneville, MS.......................      137,000        0.6       135,700        0.6       135,700        0.6 
Ithaca, NY...........................       74,300        0.2        65,800        0.2        60,800        0.2 
Fargo, ND............................      620,900        2.1       691,700        2.1       691,700        2.1 
Charleston, SC.......................      412,200        1.0       447,100        1.4       447,100        1.4 
Coll. Stat., TX......................      221,900        0.9       219,700        0.9       219,700        0.9 
Weslaco, TX..........................      832,500        2.0       874,000        2.5       874,000        2.5 
Montpellier, France..................      180,700        0.8       178,900        0.8       178,900        0.8 
                                      --------------------------------------------------------------------------
      Total..........................    5,200,200       17.9     5,276,500       18.6     5,696,500       19.9 
----------------------------------------------------------------------------------------------------------------

                             taxol research
    Mr. Skeen. Please describe for the Committee the work you are doing 
in connection with taxol research, by location.
    Response. A cell culture technology developed and patented by ARS 
researchers at Ithaca, New York, was transferred to Phyton Catalytic, 
Inc. in 1991. The ARS researchers worked with the company via a 
Cooperative Research and Development Agreement ending in 1993. As part 
of the patent licensing agreement, ARS has continued to keep Phyton 
Catalytic, Inc. apprised of improvements in the plant cell culture 
process. ARS is currently funding its research in this area with a 
reimbursable agreement from Washington State University. In fiscal year 
1997, ARS received about $15,000 from Washington State. ARS provided 
$8,910 of these funds to Cornell University through a Specific 
Cooperative Agreement to demonstrate rapid production of economically 
significant quantities of taxol via ARS's plant cell cultures grown in 
Cornell's unique facility. ARS base funding was not used during fiscal 
year 1996 and 1997. Both taxol-producing and nonproducing cell lines 
have been generated from six Taxus species as a result of ARS-conducted 
research; five of these cell lines will be evaluated for economic 
potential by Phyton Catalytic, Inc. via a material transfer agreement 
to be signed in April 1997. Discussions have been held between Phyton 
Catalytic, Inc. and the Food and Drug Administration to establish the 
framework for approving plant cell-culture derived taxol for treatment 
of ovarian and other types of cancer.
    Mr. Skeen. What is the funding and staff for taxol research for 
fiscal years 1996, 1997, and 1998?
    Response. There was no base funding for taxol research during 
fiscal years 1996 or 1997 and none is planned for fiscal year 1998. 
Research efforts at the Ithaca location in fiscal year 1997 are being 
funded by a $15,000 reimbursable agreement from Washington State 
University.
                          technology transfer
    Mr. Skeen. Please describe the ARS activities and cooperative 
efforts involved in transferring technology to industry and other users 
of ARS research.
    Response. ARS has a proactive and targeted marketing and outreach 
program designed to inform private sector customers of ARS commercial 
opportunities. These efforts include:
    Targeting and attending trade shows and meetings to reach a broader 
customer base and offer personal assistance on ARS technology 
opportunities and programs.
    Coordinating with conference organizers to make ARS technology 
transfer personnel and scientists available to deliver key 
presentations to broaden awareness of the ARS research program.
    Developing formal partnerships with state economic development and 
agriculture entities in efforts to coordinate and enhance the transfer 
of ARS technology to the private sector. Approximately 25 states are 
developing partnerships with ARS to assist the agency in reaching a 
broader industrial base, while allowing industries in respective states 
to stay abreast of the latest technology advancements for enhanced 
global and economic competitiveness.
    Developing an entry outlining ARS technology transfer programs and 
services for the USDA Resource Guide for Value-Added Agriculture and 
Forest Products, scheduled for publication in May 1997.
    Disseminating concise technology summaries of patented technologies 
containing pertinent technical and business information.
    Actively assist sister USDA agencies and other federal agencies in 
response to customer needs.
    Mr. Skeen. Last year ARS made the statement that its technology 
transfer program had created new businesses and jobs. Can you give us 
some examples? Are you able to quantify either?
    Response. In the majority of cases, ARS technologies are licensed 
to established businesses which have taken these developments and 
developed new product lines to compliment existing ones. This has 
enabled these companies to remain strong and retain employment through 
diversification. Because ARS does not get involved in proprietary 
matters of its licensees, it is difficult to place an exact number on 
the total employment impact derived from the transfer of ARS 
technology.
    For example, a fat replacer made from soluble oat fiber was 
licensed to ConAgra Inc. of Omaha, Nebraska. This technology enabled 
ConAgra and the A.E. Staley Co. to form the joint venture, Mountain 
Lake Manufacturing, and build a new plant in Mountain Lake, Minnesota 
to manufacture the fat replacer. Eight people are employed at the 
Minnesota plant and the company has plans to increase employment. 
However, the majority of the jobs created by this technology are with 
end-user companies, which are making a variety of products using the 
fat replacer manufactured by Mountain Lakes. Information on these end-
user companies is confidential business information of the licensee.
    ARS technology has also led to the creation of new businesses, with 
some starting to bear economic fruit. EMBREX Inc. of Research Triangle 
Park, North Carolina began as a two-person operation in 1985. An ARS 
patented method to immunize poultry by injecting vaccines into the egg 
was exclusively licensed in 1987 to EMBREX. The ARS technology allowed 
EMBREX to develop and patent the INOVOJECT<SUP>TM</SUP>. The 
INOVOJECT<SUP>TM</SUP> can inoculate 20 to 50 thousand hatchery eggs 
per hour. Today this method protects 65 percent of the U.S. poultry 
market and 70 percent of the Canadian producers. EMBREX also employs 
more than 100 people, and opened an international office in London 
where it has entered the European and African markets. The company is 
also working on similar arrangements with the Japanese to enter the 
Asian market and continues to be a customer of additional ARS 
technologies.
    ARS technology incorporation beneficial organisms to control the 
presence of pathogens such as Salmonella was licensed to Milk 
Specialties Inc. of Dundee, Illinois. This development enabled Milk 
Specialties to create a new BioSciences Division, which opened a 
manufacturing facility in early 1996 in Madison, Wisconsin to 
manufacture products based on ARS technology. The new BioSciences 
Division currently employs 14 people.
    Other examples of businesses created by ARS technology with 
products on the horizon include:
    Phyton Catalytic Inc. of Ithaca, New York, which is scaling up an 
ARS-patented method to produce the anti-cancer drug taxol in tissue 
culture.
    Wisconsin Global Technologies of Black River Falls, Wisconsin, 
which is beginning to manufacture textile products using an ARS-
patented thermoadaptable finish.
    Pre-Peeled Fruit Inc. of Groveland, Florida, which is using ARS 
patented technology to process citrus products for the fresh-cut fruit 
market.
    Yulex Inc. of Philadelphia, PA which is scaling up an ARS-patented 
process to manufacture hypoallergenic latex products from the guayule 
plant for the health care industry.
                            tobacco research
    Mr. Skeen. Are there any ongoing research projects related to 
tobacco?
    Response. There are no ongoing ARS research projects related to 
tobacco. All ARS tobacco production and health-related research 
projects were terminated at the end of fiscal year 1994.
                     tropical/subtropical research
    Mr. Skeen. Please describe for the Committee the tropical and 
subtropical research being carried on under Section 406 of the 
Agricultural Trade and Development Assistance Act.
    Response. ARS conducts tropical and subtropical research in Hawaii 
and Puerto Rico under Section 406 of the Agricultural Trade and 
Development Assistance Act. In Hawaii, our research programs are 
directed to postharvest quarantine treatments to enhance the export of 
tropical fruit crops grown, and production and marketing of certain 
horticultural and forage crops. In Puerto Rico, emphasis is placed on 
evaluation of new crop varieties and species thought to have economic 
potential for development in the Caribbean Basin. These include fruit 
crops, vegetables, cereal crops, tannier and other root crops. We also 
have educational programs in Puerto Rico to train individuals to 
produce and market certain crops. Training in entomology and plant 
pathology is also provided to help remove quarantine restrictions on 
commodities. These trained specialists then return to their farming 
communities and production areas to help train others in tropical/
subtropical agriculture.
    Mr. Skeen. By location, what is the budget for this research for 
fiscal years 1996, 1997, and 1998?
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal years--                
                            Location                             -----------------------------------------------
                                                                    1996 Funds      1997 Funds      1998 Funds  
----------------------------------------------------------------------------------------------------------------
Hilo, HI........................................................        $165,000        $163,700        $163,700
Mayaguez, PR....................................................         673,100         667,700         509,000
                                                                 -----------------------------------------------
      Total.....................................................         838,100         831,400         672,700
----------------------------------------------------------------------------------------------------------------

    Mr. Skeen. What is the total USDA budget for tropical/subtropical 
research for fiscal years 1996, 1997, and 1998, by location?
    [The information follows:]

------------------------------------------------------------------------
                                               Fiscal years--           
              Agency              --------------------------------------
                                    1996 funds   1997 funds   1998 funds
------------------------------------------------------------------------
ARS..............................     $838,100     $831,400     $672,700
CSREES...........................   14,919,000   14,830,000   10,543,000
                                  --------------------------------------
      Total......................   15,757,100   15,661,400   11,215,700
------------------------------------------------------------------------

                           urban pest control
    Mr. Skeen. Please describe the work you have underway on urban pest 
control research.
    Response. Urban pest control research emphasizes reduced-risk 
management of cockroaches, fire ants, pest ants, and fleas to safeguard 
human health and the quality of our food for the next century. General 
goals are to eliminate existing infestations, mitigate damage to indoor 
environmental quality caused by pests (allergens and biocontamination), 
and proactively prevent future infestations. Special research teams 
address the development of insecticide-free or reduced-risk, least-
toxic technologies. Research strategies include truly integrated pest 
management using novel environmentally-dynamic baits, biological 
control agents, structural modications promoting management of moisture 
and airflow (insect-resistant construction), and non-toxic repellents 
to force pests from habitats and/or to prevent infestations. These 
tools are being combined, under a sophisticated implementation concept 
called ``Precision Targeting,'' into a comprehensive management plan to 
reduce pesticide use by 50 percent before the turn of the century. 
Multiple-species ant bait has been developed for management of urban 
ants. A patent, ``An Ant Bait Attractive to Multiple Species of Ants,'' 
invented by ARS scientists has been submitted. This water soluble bait 
is attractive to various types of ants afflicting urban environments. 
It is anticipated that commercial development of this bait will provide 
the public with better technology for the most common pest ant species.
    All ARS research on urban pest control is conducted at Gainesville, 
Florida. Much of this research is carried out in cooperation with the 
Environmental Protection Agency, Department of Defense, the private 
sector, and universities. No additional funds were provided last year 
to ARS for urban pest control research. The last increase of $100,000 
was provided in 1992.
    Mr. Skeen. By location, what is the funding for urban pest control 
research for fiscal years 1996, 1997, and 1998?
    Response. All ARS urban pest research is conducted at the Imported 
Fire Ant and Household Insects Research Unit; Center for Medical, 
Agricultural and Veterinary Entomology; Gainesville, Florida.
    In fiscal year 1996, funding was $816,900. Funds for fiscal year 
1996 and 1997 include $120,288 for cooperative research on Formosan 
termites at the University of Hawaii. In fiscal year 1997 funding if 
$808,700, and is estimated to be $664,600 in fiscal year 1998.
                          utilization centers
    Mr. Skeen. For the record, please describe each of the major 
utilization research centers.
    Response. Authorization for the four ARS utilization centers was a 
small part of the omnibus 1938 legislation--the Agricultural Adjustment 
act of 1938. In 1939, Congress appropriated $4 million to build and 
equip the laboratories and by the end of 1940 or early 1941, the 
buildings had been completed and equipped, the first scientist 
employed, and research begun. Few people fully appreciate the magnitude 
of what has been accomplished by these Centers since then. By all 
estimates, the research has paid for itself many times over. A 
description of current activities at each of the centers follows.
    WRRC--The Western Regional Research Center (WRRC) in Albany, 
California, has 59 scientists, a total staff of 161, and a fiscal 1997 
budget allocation of $15.4 million. WRRC conducts mission-oriented 
research to enhance the healthfulness of foods; to develop new and 
novel food and industrial products from renewable resources; and to 
protect and enhance the quality of the environment. The results of 
research efforts are implemented through the effective transfer of new 
technologies to clients and users. Research objectives include: 
enhancing the quality and healthfulness of foods by creating new crop 
plants and food products which promote health, and by developing 
systems and methods to help ensure the safety of the food supply; 
developing new and novel food and industrial products from cereals, 
fruits, and vegetables; using biotechnology to improve and tailor crops 
and bioengineering to create new products from agriculture and 
processing coproducts; and developing ecologically-sound methods for 
pest control.
    SRRC--The Southern Regional Research Center (SRRC), New Orleans, 
Louisiana, has 82 scientists, a total staff of 239, with a 1997 funding 
allocation of $18.8 million. SRRC conducts research related primarily 
to postharvest processing, products enhancement, safety and use of 
agricultural commodities produced in the Southern United States, 
utilizing multidisciplinary teams of scientists. Research objectives 
include achieving maximum use of agricultural products for domestic 
markets and export; devolving new uses and processes for farm products, 
and the means of promoting optimum human health and well-being through 
improved nutrition; and promoting products safety and quality. Major 
efforts focus on improving the quality of cotton products and the 
safety and health of cotton workers and consumers; development of new 
process to improve the efficiency and effectiveness of food-processing 
systems and reduction of processing costs; enhancement in the quality 
and nutritional value of such food products as rice and peanuts; 
improved production and processing efficiency of sugar; studies 
prevention of contamination of agricultural products by fungal toxins 
to promote product safety and health, flavor quality in fish, peanuts, 
fruits, and vegetables; the application of recent advancements in 
biotechnology to promote new uses and added value of agricultural 
commodities, including medicinal uses of phytoestrogens.
    NCAUR--The National Center for Agricultural Utilization Research 
(NCAUR), Peoria, Illinois, has 93 scientists, a total staff of 259, and 
a fiscal 1997 allocation of $21.9 million. NCAUR creates new uses of 
agricultural commodities for industrial and food products, develops new 
technology to improve environmental quality and provides technical 
support to Federal regulatory and action agencies. NCAUR, the largest 
of the four utilization centers, has a diverse research program in 
which microorganisms and/or their enzymes are identified and used to 
transform raw agricultural materials (starch, proteins, oils) to 
commercially valuable products such as food additives, fuels, insect 
and weed controls, cosmetics, and industrial lubricants; processing 
technologies like extrusion, jet cooking, high pressure reactions and 
supercritical extraction are used to make new value-added products such 
as biodegradable plastics, edible films, printing inks, novel flavors 
and pigments; and biotechnology tools are used to produce new products 
for many industrial uses and improved food safety and biocontrol agents 
and delivery systems are devised to reduce pesticide use and enhance 
environmental quality.
    ERRC--The Eastern Regional Research Center (ERRC), Wyndmoor, 
Pennsylvania, has 80 scientists, a total staff of 211, and a fiscal 
1997 allocation of $19.7 million. ERRC programs support fundamental, 
developmental and applied research on agricultural commodities 
including meat, milk, hides, wool, fats, oils, and fruits and 
vegetables. New knowledge and technology that will ensure an abundance 
of high quality agricultural commodities and products at reasonable 
prices to meet the increasing needs and to provide a continued 
improvement in the standard of living of all Americans are obtained 
through the following research objectives: improve and reduce pre- and 
postharvest losses; develop new and improved food and industrial 
products and processing technologies; insure microbial and chemical 
food safety via molecular biology studies, rapid detection-sensing 
methods, intervention technologies and risk assessment; upgrade 
nutritional value; open new and expand existing domestic and foreign 
markets; reduce marketing costs; utilize byproducts, particularly 
potential pollutants, minimize energy consumption; decrease costs for 
production of fuel-grade alcohol from agricultural feedstocks; improve 
economy in respect to consumer interests; and transfer technology.
    Mr. Skeen. What is the funding level of each of these centers in 
fiscal years 1996, 1997, and 1998?
    [The information follows:]

------------------------------------------------------------------------
                                             Fiscal years--             
           Location            -----------------------------------------
                                    1996          1997          1998    
------------------------------------------------------------------------
Albany, CA--WRRC..............   $15,251,200   $15,401,900   $14,021,400
New Orleans, LA--SRRC.........    18,516,700    18.831,000    18,471,000
Peoria, IL--NCAUR.............    22,059,600    21,887,000    20,779,400
Wyndmoor, PA--ERRC............    18,233,800    19,707,300    19,984,800
------------------------------------------------------------------------

                    staffing of research facilities
    Mr. Skeen. Would you please provide for the record a table 
indicating, by location, your total laboratory capacity in terms of the 
number of scientists, indicating the total number of scientists 
assigned to that facility and the percent staffed?
    [The information follows:]

[Pages 209 - 212--The official Committee record contains additional material here.]


                        new research facilities
    Mr. Skeen. Please describe any laboratory space you have acquired 
during the past 12 months and indicate the reason why the facilities 
were acquired.
    Response. ARS has not acquired any laboratory space during the past 
12 months.
    Mr. Skeen. What is the status of the replacement of the Orlando, 
Fla. research facility?
    Response. For the past several year, ARS has been pursuing the 
relocation of the ARS U.S. Horticultural Research Laboratory located in 
Orlando, Florida. Orlando's increasing population has surrounded the 
laboratory with commercial buildings and a city cultural park, leaving 
the laboratory unable to provide the full range of research activities. 
The city of Orlando has supported the laboratory's relocation. After 
evaluations of several sites in Florida, a site adjacent to the 
University of Florida Agricultural Research and Education Center at Ft. 
Pierce was selected. Total costs for design and construction are 
estimated at $34,770,000.
    Funding in the amount of $470,000 for planning has been approved 
from the $1,270,000 fiscal year 1993 line item for ARS facilities--
France, Parlier, and Orlando. In FY 1994, $2,900,000 was appropriated 
for design from the FY 1994 Building and Facilities account. An 
additional $2,900,000 in FY 1995, $1,500,000 in FY 1996, and 
$27,000,000 in FY 1997 was appropriated for construction. An architect-
engineering design contract was warded in the fourth quarter of FY 
1994, and design was completed in the first quarter of FY 1997. A 
construction award is scheduled for the third quarter of FY 1997.
    On December 13, 1993, ARS signed a sublease agreement with the 
University of Florida, Institute of Food and Agricultural Sciences 
(IFAS), for two parcels of University-owned land totaling 190 acres in 
Ft. Pierce, Florida. One parcel, 18 acres located adjacent to the IFAS 
Research Center, will be the site of the new Horticultural Research 
Laboratory. The 172-acre farm site which will be used for field plots, 
is approximately one mile from the first site. The Board of Regents and 
the Trustees executed the sublease on April 11, 1994. On January 29, 
1997, ARS recorded a lease with the St. Lucia County School Board for 
142.12 acres for wetland mitigation purposes.
                           ars-owned aircraft
    Mr. Skeen. Please provide for the record a listing of aircraft 
owned by the Agricultural Research Service, including where the 
aircraft are located, the types of aircraft, and how the aircraft were 
acquired. Also indicate, for the record, the number of flying hours for 
each of these aircraft during fiscal years 1995 and 1996.
    Response. The Agricultural Research Service owns and operates seven 
aircraft located at College Station and Weslaco, Texas. The requested 
information will be provided for the record.

----------------------------------------------------------------------------------------------------------------
                                                                                              Flying     Flying 
               Location                           Type              Method of acquisition    hours FY   hours FY
                                                                                               1995       1996  
----------------------------------------------------------------------------------------------------------------
College Station, TX...................  Cessna T188C............  Purchase................        162        154
                                        Cessna P206B \1\........  Excess..................          4         10
                                        Cessna U206B............  Excess..................         10         22
                                        Hiller 12E..............  Excess..................        100          2
Weslaco, TX...........................  Cessna TU206G...........  Excess..................         61         72
                                        Cessna 182J \2\.........  Excess..................          0          0
                                        Aero Commander 680......  Excess..................        102        115
                                       -------------------------------------------------------------------------
      Total for all...................  ........................  ........................        439        375
----------------------------------------------------------------------------------------------------------------
\1\ In FY 1996, ARS obtained a waiver from GSA to trade this aircraft in for a new Air Tractor 402-B. However,  
  the new aircraft was accepted in October 1996 (FY 1997).                                                      
\2\ This aircraft was taken out of service in FY 1995 and reported ``excess''. In June 1996, the aircraft was   
  transferred to the U.S. Department of Justice.                                                                

    Mr. Skeen. Whate were the fiscal year 1996 maintenance costs for 
each of the ARS-owned aircraft?
    [The information follows:]

------------------------------------------------------------------------
                                                             Maintenance
              Location                        Type              costs   
------------------------------------------------------------------------
College Station, TX................  Cessna T188C \1\......      $26,800
                                     Cessna P206B..........        1,000
                                     Cessna U206B..........        1,470
                                     Hiller 12E............          210
Weslaco, TX........................  Cessna TU206G.........        9,324
                                     Cessna 182J...........            0
                                     Aero Commander 680....        3,875
                                    ------------------------------------
      Total for all................  ......................       42,679
------------------------------------------------------------------------
\1\ The maintenance work included a new engine, propeller blade,        
  alternator, starter, and mixture control cable.                       

                         facility requirements
    Mr. Skeen. Would you please list for the record all of your planned 
modernization or construction projects, showing both the facility and 
the estimated needs?
    Response. The following is a list of planned modernization and 
construction projects for ARS to date:
                                                 Balance estimated needs
Modernization:
    Beltsville, Maryland................................    $102,000,000
    New Orleans, Louisiana..............................      22,650,000
    Peoria, Illinois....................................      70,200,000
    Greenport, New York.................................      66,000,000
    Wyndmoor, Pennsylvania..............................      25,700,000
    Albany, California..................................      15,000,000
    Gainesville, Florida................................       6,200,000
    National Animal Disease Center, Iowa................     139,000,000
    Sidney, Montana.....................................       7,900,000
    Weslaco, Texas......................................      10,708,000
    Manhattan, Kansas...................................       9,050,000
    East Lansing, Michigan..............................      18,100,000
    National Agricultural Library, Maryland.............      18,000,000
    El Reno, Oklahoma...................................       7,500,000
Construction:
    Parlier, California.................................      23,400,000
    Montpellier, France.................................       3,400,000
    Athens, Georgia.....................................       5,100,000
    Charleston, South Carolina..........................      14,030,000
    Ft. Lauderdale, Florida.............................       4,000,000
    Leetown, West Virginia..............................       6,000,000
    Davis, California...................................      19,000,000
    Hilo, Hawaii........................................       2,090,000
    Oahu, Hawaii........................................      12,890,000

    The ``Balance Estimated Costs'' amount represents remaining 
modernization and construction project funding requirements that were 
either originally identified via facility condition studies, the 
development of Program of Requirement documents, or design drawings. 
Funding to date for these projects was either congressionally funded 
through the Agency's Building and Facilities account, or through the 
Agency's Annual Repair and Maintenance budget line item appropriation.
                          montpellier, france
    Mr. Skeen. Would you please describe for the Committee the status 
of the relocation to Montpellier, France?
    Response. ARS research operations have been relocated from Behoust 
and Rome to leased space in the Science Park at Montpellier, France, 
until a new ARS facility can be built on a nearby site in Montpellier.
    The design of the new European Biological Control Laboratory was 
completed in the fourth quarter of FY 1995. The total FY 1998 
construction funding need for Phase 1 is $3,400,000.
                            behoust, france
    Mr. Skeen. Has the land at Behoust been sold?
    Response. On February 8, 1996, ARS formally accepted an offer to 
sell the land and facilities at Behoust. The American Embassy in Paris 
finalized the sales transaction on June 17, 1996.
                           fresno, california
    Mr. Skeen. Would you also describe for the Committee the status of 
the Fresno relocation?
    Response. The U.S. Horticultural Crop and Water Management Research 
Laboratory requires a new permanent facility of approximately 78,000 
gross square feet of research laboratory, office, headhouse/greenhouse, 
farm center, storage, and shop space. Site development, additional 
land, and specialized equipment are required. Total cost is 
$29,000,000. In FY 1993, $300,000 was appropriated for pre-design as 
part of a $1,270,000 appropriation for France, Orlando, and Parlier. In 
FY 1994, an additional $2,630,000 was appropriated for planning and 
design. In FY 1995, $2,630,000 was appropriated for construction. An 
additional $23,400,000 is requested in FY 1998 to complete 
construction.
    A pre-design contract was awarded in the first quarter of FY 1995. 
The design will be completed in the third quarter of FY 1997. On June 
26, 1992, ARS completed the acquisition of a 105-acre parcel of land in 
Parlier, California, for the Horticultural Crop and Water Management 
Research Laboratory. The purchase price for the site was $1,000,000. On 
January 5, 1996, ARS completed the acquisition of an additional 22 
acres of land for $265,000 adjacent to the original 105-acre parcel. 
This additional piece of property is being developed as a farm work 
site to support research of the ARS, Plant Germplasm Introduction and 
Testing Research, Pullman, Washington.
                             weslaco, texas
    Mr. Skeen. Would you describe for us the status of the replacement 
of the Weslaco, Texas, research facility?
    Response. In FY 1994, $1,400,000 was appropriated for planning, 
design, and construction; in FY 1995, $3,009,000 for construction; in 
FY 1996, $1,000,000 for construction; and in FY 1996, $383,000 was 
redirected from residual construction funds of the Honey Bee Research 
Laboratory; and in FY 1997, $4,000,000 for construction for the 
modernization of the Subtropical Agricultural Research Laboratory in 
Weslaco, Texas. The design and construction will be phased over 6 
years--FY 1995 through FY 2000. A design contract for the first two 
construction phases was awarded in the first quarter of FY 1995. 
Demolition of structures for site preparation has been completed. 
Construction of Phase 2 (utility and site upgrade) awarded in the 
fourth quarter of FY 1996, and will be complete in the fourth quarter 
of FY 1997. Award of a construction contract for renovation of two 
existing greenhouses and two new greenhouses is pending. Construction 
will be complete for these facilities in the first quarter of FY 1998. 
Design is ongoing for Phase 3 (new 24,000 gross square feet (GSF) 
laboratory/office) and will be complete in the second quarter of FY 
1997.
    The scope of work for the modernization will include new 
construction--40,000 GSF, major/minor renovation--51,000 GSF, 
demolition--27,000 GSF, and sitework. The types of facilities will 
include research office/laboratories, headhouse/greenhouses, chemical 
storage, pesticide storage, and shops. The total estimated cost will be 
$18,600,000 for construction and $1,900,000 for design.
                    backlog of facility replacement
    Mr. Skeen. For the record, please provide a list of all ARS 
facilities and the known backlog of replacement or major repairs.
    [The information follows:]
    The Repair and Maintenance Program is specifically intended to 
improve ARS facilities within six guidelines: protection of life, 
protection of property, implementation of mandated regulations, 
compliance with building codes, more effective space utilization, and 
implementation of energy conservation. The definition of repair as 
customarily applied to ARS facilities and buildings is the restoration 
and repair of components of an existing facility to a condition 
substantially equivalent to its original state and efficiency with the 
repair work complying with the requirements contained in the current 
applicable codes and standards. Typical examples of this type of work 
are: HVAC/Electrical/plumbing system replacement due to age; Roof 
replacement/building envelope repair/maintenance; Site utility system 
replacement; Fire protection installation/replacement; Fume hood 
replacement/modification to correct air flow deficiency; and Road 
paving/site pedestrian and vehicular circulation/correct site drain.

[Pages 216 - 219--The official Committee record contains additional material here.]


                         repair and maintenance
    Mr. Skeen. What is your planned budget for repair and maintenance 
of facilities in fiscal years 1997 and 1998?
    Response. The fiscal year 1998 repair and maintenance budget is 
projected to be the same as appropriations in the fiscal year 1997, 
which is $18,262,000. This amount includes $14,246,000 in Agency funds, 
$900,000 for the National Agricultural Library, $740,000 for the 
National Arboretum, and $2,376,000 in BARC Renaissance '93 funds.
    Mr. Skeen. How were these funds used in fiscal year 1996?
    Response. Some of the types of repair and maintenance projects 
funded in fiscal year 1996 include: bridge repairs, roof repair, HVAC 
repair, plumbing repairs, upgrade to sewage lines, electrical repairs, 
fencing replacement, painting, pavement repair, asbestos and lead 
abatement, accessibility projects, and replacement of fire alarm 
systems.
    Mr. Skeen. What was the largest single expenditure?
    Response. The largest single expenditure of repair and maintenance 
funds in 1996 covered the cost of the Eastern Regional Research Center 
Modernization, Philadelphia, Pennsylvania, Phase 2 construction. This 
expenditure totaled $4,567,625.
                            contingency fund
    Mr. Skeen. Please describe the Contingency Fund that was 
established by Congress in 1962 and explain how these funds are used.
    Response. The Contingency Research Fund was established by Congress 
in fiscal year 1962 to provide a ready source of funds to meet 
unforeseen and immediate research needs. Releases are generally made in 
situations where an emergency funding need exists, for example, an 
unexpected scientific ``breakthrough,'' or outbreaks of diseases or 
pest problems where it appears inadvisable to wait for consideration of 
additional funding through the regular budget process. The agency 
policy is to make no commitment beyond the current fiscal year when 
allocating these funds.
    Mr. Skeen. How much is included in the fiscal year 1997 request and 
is that amount adequate?
    Response. The fiscal year 1997 request of $928,523 for contingency 
funds appears to be adequate based on prior year experience. This 
amount is also requested for fiscal year 1998.
    Mr. Skeen. Please provide the details of any specific use of the 
Contingency Fund in fiscal year 1996 and any use, so far, in 1997.
    [The information follows:]
                                                           1996 releases
Cooperative Agreement with Univ. of Arizona for 
    cyclospora organism research, Beltsville, Maryland..        $113,907
Karnal Bunt Disease research, Frederick, Maryland.......         370,893
Research for TCK smut on wheat..........................         266,756
    Frederick, Maryland--187,164
    Raleigh, North Carolina--79,592
Irradiation research on cyclospora organism, Wyndmoor, 
    Pennsylvania........................................          25,000
Drydock, maintenance, and navigational system upgrade 
    for marine vessel M.S. Shahan, Greenport, L.I., New 
    York................................................          51,967
Removal and replacement of fence damaged by lightning-
    induced grass fires, Miles City, Montana............          30,000
Repair high-wind damage to trees, roofs, doors, and HVAC 
    systems, Mandan, North Dakota.......................          20,000
Repair roofs, walls, replace walk-in coolers, fencing, 
    wiring and gates due to hurricane damage, Mayaguez, 
    Puerto Rico.........................................          50,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total, Contingency Research Fund..................         928,523

    Use in fiscal year 1997 includes $350,000 to conduct an alternative 
methodology pilot study and $50,000 for emergency research on control 
of varroa mites at Beltsville, Maryland; $75,000 for streptococcal 
infections in farm-raised fish at Auburn, Alabama; and $50,000 for 
emergency research using formic acid for control of varroa mites at 
Baton Rouge, Louisiana.
                              library fees
    Mr. Skeen. Last year, ARS indicated it was to have in place by the 
end of fiscal year 1996 a new policy for charging users for its 
services at the National Agricultural Library. What is the status of 
that effort?
    Response. User fees for services of the National Agricultural 
Library (NAL) are collected by the National Technical Information 
Service (NTIS). Negotiations with NTIS concerning the new policy have 
been completed. Public notice will be issued by July 1, 1997 and the 
new fee structure will be implemented during FY 1997.
    Mr. Skeen. Do you expect to receive revenues from this proposal?
    Response. The National Agricultural Library expects to receive 
revenues that will offset the direct costs of providing document 
delivery services to users who pay fees.
    Mr. Skeen. For the record please update and provide a table similar 
to the one that appears on page 158 of last year's hearing record.
    [The information follows:]

                                 NAL DOCUMENT DELIVERY SERVICE ACTIVITY AND COST                                
----------------------------------------------------------------------------------------------------------------
                                                                                                          1997  
                                                       1992      1993      1994      1995      1996    estimated
----------------------------------------------------------------------------------------------------------------
Requests received..................................   237,190   227,738   205,655   195,891   193,619    190,000
Requests filled....................................   189,101   182,763   163,830   156,618   154,314    152,000
Amount spent (millions)............................      $2.3      $2.3      $2.3      $2.3      $2.3       $2.3
Amount recovered (millions) \1\....................     $.033     $.032     $.058     $.012     $.010      $.010
----------------------------------------------------------------------------------------------------------------
\1\ For 1995, 1996 and 1997 the amount recovered decreases because of increased fees charged to NAL by the      
  billing agency that processes invoices and payments.                                                          

            national agriculture library object class table
    Mr. Skeen. For the record, please provide an object class table for 
fiscal years 1996, 1997 and 1998 for the Library.
    [The information follows:]

------------------------------------------------------------------------
                                                Fiscal years--          
                                    ------------------------------------
              Object classification                               1998  
                                        1996         1997        budget 
                                       actual   appropriation   estimate
------------------------------------------------------------------------
      Personnel Compensation:                                           
    11Permanent positions             $7,782       $8,162       $8,192  
    11Positions other than               258          270          271  
       permanent                                                        
    11Other personnel                     88           92           92  
       compensation                                                     
                                  --------------------------------------
            Total, Personnel           8,128        8,524        8,555  
             Compensation                                               
    12Personnel benefits:              1,619        1,699        1,706  
       civilian retirement                                              
    13Former employees                    18  .............  .........  
                                  --------------------------------------
            Total, Object Classes      9,765       10,223       10,261  
             11-13                                                      
                                  ======================================
      Other Obligations:                                                
    21Travel and transportation          132          108          108  
       of persons                                                       
    22Transportation of things            91           75           75  
    23Comm., util, other rents           739          605          605  
    24Printing and reproduction          110           90           90  
    25Other services                   2,163        1,768        1,805  
    25Purchases of goods and              62           51           51  
       services                                                         
    25Operations & maintenance of      1,928        1,577        1,577  
       facil                                                            
    25Research & development           1,310        1,072        1,072  
       contracts                                                        
    25Operations & maintenance of        150          132          122  
       equip                                                            
    25Subsistence & support of             6            5            5  
       persons                                                          
    26Supplies & materials             1,259        1,030        1,030  
    31Equipment                        2,481        2,029        2,029  
    41Grants, subsidies and              690          564          564  
       contributions                                                    
                                  --------------------------------------
            Subtotal, All Other       11,121        9,096        9,133  
                                  ======================================
            Total                     20,886       19,319       19,394  
------------------------------------------------------------------------

               leflar school of law agricultural library
    Mr. Skeen. For the past several years, the Congress has provided 
funds for the Leflar School of Law Agricultural Library. Has USDA ever 
audited the expenditures of their funds to assure they are being spent 
properly?
    Response. USDA has never audited the expenditures of the funds 
Congress provides for the Leflar School of Law Agricultural Library. 
USDA does, however, monitor closely the use of those funds. Leflar 
files the required financial status reports every year, and USDA staff 
review those reports and, as needed, requests additional information. 
An official file on this project is maintained by USDA.
    Mr. Skeen. Does the National Agricultural Library receive products 
from the Leflar Law Library free of charge?
    Response. Yes. The National Agricultural Library receives products 
from the Leflar Law Library of charge.
    Mr. Skeen. Can you tell us what the demand has been for products 
from the Leflar Law Library?
    Response. The National Agricultural Library is not able to 
determine the demand for products from the Leflar Law Library. The 
Library of Leflar's products, services, and use is described in the 
document by the National Center for Agricultural Law Research and 
Information: Congressional Report 1996: A Summary of the Activities and 
Accomplishments of the National Center for Agricultural Law Research 
and Information (NCALRI) for March 1, 1988 to March 1, 1996 and Year In 
Review March 1, 1995 through March 1, 1996.
    Potential users may locate Leflar publications by using INFOLINKS, 
the University of Arkansas online library catalog, NAL's AGRICOLA 
database and ISIS online catalog, and catalogs of other libraries. 
Users may obtain these publications through interlibrary loan 
departments at the NAL, the University of Arkansas Mullins Library, and 
other libraries. Instructions for ordering many of the Leflar 
publications can be found on the Leflar home page.
                                centers
    Mr. Skeen. How many different information centers have been 
established at the Library?
    Response. There are currently nine information centers covering the 
following subject areas: Agricultural Trade and Marketing; Alternative 
Farming Systems; Animal Welfare; Biotechnology; Food and Nutrition; 
Plant Genome; Rural Information; Technology Transfer; and Water 
Quality. In FY 1997, Aquaculture became a program area within the 
Alternative Farming Systems Information Center.
    Mr. Skeen. Please update the tables that appears on pages 160 and 
162 of last year's hearing record.
    Response. I will provide for the record updated tables of the 
Library's 1996 and 1997 (estimated) resources in support of the 
specialized subject areas handled by the information centers. Please 
note that after last year's tables were submitted, revisions were made 
in the standard practices used to make those calculations. Due to these 
changes, some of the numbers in this year's tables differ from the 
numbers that would be expected based on last year's tables.

[Pages 223 - 224--The official Committee record contains additional material here.]


    Mr. Skeen. Are you able to track the usage to each center, and if 
so, describe the actual use for each?
    Response. We do track the usage made of the NAL information 
centers, and I will provide a table which illustrates some of the ways 
the centers provide traditional information services. A great deal of 
the usage of these centers is not reflected in these statistical 
measures, since the customers are increasingly involved in creating and 
providing electronic access to information in their subject area via 
the Internet. Statistics on Internet usage are generally not counted as 
``reference requests,'' and mechanisms to track Internet usage are not 
in place in all cases. Available data indicate that NAL information on 
World Wide Web sites was accessed more than 3.6 million times in fiscal 
year 1996.

         TRADITIONAL USAGE INDICATORS OF THE INFORMATION CENTERS        
------------------------------------------------------------------------
                                                                Print   
             Information centers                Reference   publications
                                                 requests    distributed
------------------------------------------------------------------------
Agricultural Trade and Marketing.............        1,719        12,098
Alternative Farming Systems..................        1,466        52,017
Animal Welfare...............................        2,075        36,760
Aquaculture..................................        2,611        11,446
Biotechnology................................          584         4,509
Food and Nutrition...........................        8,236        22,661
Plant Genome.................................          149        21,093
Rural Information............................        1,786        12,221
Technology Transfer..........................          341         2,332
Water Quality................................          269           748
                                              --------------------------
    Total....................................       19,236       175,885
------------------------------------------------------------------------

                 Government Performance and Results Act

  implementation of the government performance and results act (gpra)
    (1) GPRA known as the Results Act, requires each executive agency 
to issue, no later than September 30, 1997, a strategic plan covering 
at least five years. In addition to a mission statement grounded in 
legislative requirements, the plans are to contain general goals and 
objectives that are expected to be outcome or results oriented (such as 
to improve literacy) as opposed to output or activity oriented (such as 
to increase the number of education grants issued).
    Mr. Skeen. What progress is the agency making in developing its 
strategic plan, including defining its mission and establishing 
appropriate goals?
    Response. The ARS Strategic Plan was developed over the last 18 
months by an Agency-wide Strategic Planning Team (SPT). The plan has 
received extensive review by the Agency's senior managers and it 
underwent a period of public comment last summer. The current draft was 
completed on February 10, 1997 and submitted to the Under Secretary for 
Research, Education and Economics. We plan at least one more round to 
respond to comments from Department officials and others. We fully 
expect that the plan will be ready to take effect on October 1, 1997 
and guide the work of the Agency in FYs 1998-2002.
    Mr. Skeen. Has the agency identified conflicting goals for any of 
its program efforts? If so, what are the performance consequences of 
these conflicting goals and what actions--including seeking legislative 
changes--is the agency taking to address these conflicts?
    Response. ARS did not identify any conflicts in its authorizing 
legislation.
    (2) Strategic plans must be based on realistic assessments of the 
resources that will be available to the agency to accomplish its goals. 
As you are developing your strategic plan.
    Mr. Skeen. a. How are you taking into account projected resources 
that likely will be available--especially as we move to a balanced 
budget? b. What assumptions are you making? c. How are you ensuring 
that your goals are realistic in light of expected resources?
    Response. The strategic plan was developed assuming the budget 
projections contained in the President's FY97 and, more recently, FY98 
proposed budget. This implies an essentially flat budget for several 
years. Given this constrained budget environment, the mission area and 
its agencies are seeking ways to do more with the same or less funding. 
We are working to realize these gains through administrative 
efficiencies and grater coordination among the REE agencies and with 
our partners in the research community.
    (3) For Congress, the heart of the Results Act is the statutory 
link between agency plans, budget requests, and the reporting of 
results. Starting with fiscal year 1999, agencies are to develop annual 
performance plans that define performance goals and the measures that 
will be used to assess progress over the coming year. These annual 
goals are to measure agency progress toward meeting strategic goals and 
are to be based on the program activities as set forth in the 
President's budget.
    Mr. Skeen. What progress have you made in establishing clear and 
direct linkages between the general goals in your strategic plan and 
the goals to be contained in your annual performance plans? OMB 
expressed concern last year that most agencies had not made sufficient 
progress in this critical area.
    Response. Following OMB guidance, ARS has taken advantage of the 
long lead time on GPRA to develop its strategic plan, and to explore 
new ways to organize and manage its research program to meet the 
requirements of the new statute. ARS developed a combination of output 
and outcome performance measures that are reflected in the 
``Agricultural Research Service FY 1998--Explanatory Notes''. Later 
this spring the Agency will begin developing its FY 1999 budget which 
will be accompanied by an GPRA driven Annual Performance Plan directly 
linking the ARS strategic plan with the proposed budget submission.
    Mr. Skeen. More specifically, how are you progressing in linking 
your strategic and annual performance goals to the program activity 
structure contained in the President's budget? Do you anticipate the 
need to change or modify the activity structure to be consistent with 
the agency's goals?
    Response. ARS is currently restructuring its research activities 
(approximately 1,100 research projects) by aggregating them into 25 new 
National Programs. These National Programs will strengthen and better 
focus the Agency's research programs on finding solutions to high 
priority National agricultural needs. The Agency anticipates modifying 
the budget activities to reflect the new ARS strategic plan.
    Mr. Skeen. Overall, what progress has your agency made--and what 
challenges is it experiencing--defining results-oriented performance 
measures that will allow the agency and others to determine the extent 
to which goals are being met?
    Response. The nature of scientific research does not easily lend 
itself to setting relatively short-term result-oriented performance 
goals. ARS is a mission driven agency dedicated to solving the problems 
that confront American agriculture. To accomplish its mission ARS must 
maintain its scientific core capacity to be able to mobilize the 
knowledge generated by basic, applied and developmental research to 
solve existing and emerging problems. It is not always possible to 
anticipate what needs will emerge, and by its very nature, the ultimate 
outcomes of research are unknowable. Having made these points; the 
agency has developed a strategic plan which has a hierarchy of outcome 
oriented goals, general goals, and specific goals, is reorganizing its 
National Program Staff, and is aggregating its approximately 1,100 
research projects into 25 new National Programs. When these changes are 
fully implemented, ARS will be able to measure and report its progress 
towards meeting the goals established in the strategic plan.
    Mr. Skeen. If applicable, a. What lessons did the agency learn from 
its participation in the Results Act pilot phase and how are those 
lessons being applied to agency-wide Results Act efforts? b. What steps 
is the agency taking to build the capacity (information systems, 
personnel skills, etc.) Necessary to implement the Results Act?
    Response. ARS was not an OMB-designated GPRA pilot program. The 
Agency did, however, conduct some informal internal pilot projects to 
test the application of GPRA principles in an intramural research 
environment. These pilot projects successfully identified approaches 
the agency could use in meeting the requirements of GPRA.
    Mr. Skeen. The Results Act requires agencies to solicit and 
consider the views of stakeholders as they develop the strategic plans. 
Stakeholders can include state and local governments, interest groups, 
the private sector, and the general public, among others. Who do you 
consider to be your agency's primary stakeholders and how will you 
incorporate their views into the strategic plans?
    Response. ARS defines stakeholders as organizations or individuals 
that have an interest in the work of the agency but do not directly use 
the agency's products. The ARS strategic plan identifies the following 
organizations or categories of organizations as stakeholders: 
Legislative branch; Executive branch; ARS employees; National and 
international organizations; Producer and processor organizations; Food 
and commodity organizations; Foreign countries/governments; Trade 
organizations; Environmental organizations; Retail organizations; and 
Consumer organizations.
    ARS defines customers as individuals or organizations that directly 
use ARS products or services. The ARS strategic plan identifies the 
following organizations or categories of organizations as customers: 
Producers (farmers, growers, and ranchers) and processors; National and 
international organizations; Advocacy groups; Commodity and futures 
markets; International trade organizations; International science and 
research organizations; Legislative Branch; Executive Branch; U.S. 
Department of Agriculture; Secretary of Agriculture; Other mission 
areas; Action and regulatory agencies; Office of Budget and Program 
Analysis; Inspector General; Chief Financial Officer; Other Federal 
agencies; Scientific community; Medical community; Health and dietary 
community; Environmental community; State and local Governments; and 
News media.
    The first step ARS took in developing its GPRA strategic plan was 
to convene 5 regional visioning conferences that solicited input from 
the agency's customers, stakeholders, partners, and employees. When the 
visioning process was complete the information it generated was used in 
developing the ARS plan. As required by GPRA, the ARS Strategic 
Planning Team (SPT) developed an aggressive plan to secure comments 
from ARS employees, customers, stakeholders, partners, and the general 
public. The draft plan, and a invitation for review and combat, was 
placed on the ARS Home Page where it was available to users of the 
Internet. The draft plan was also printed in the Federal Register on 
July 22, 1996 (vol. 61, no. 141) with a formal 30 day comment period 
which closed on August 21, 1996. Approximately 1,400 copies of the 
Federal Register reprint were mailed to ARS customers, stakeholders and 
partners. On Wednesday, July 24, ARS participated in an ARS-wide 
employee telecast designed to briefly introduce the Agency plan. 
Employees and partners who viewed the telecast were told how to access 
copies of the ARS plan and invited to submit comments. The SPT received 
and carefully reviewed approximately 50 written and E-mail comments on 
the ARS draft strategic plan during the review period. The comments 
were positive, substantive, thoughtful, and helpful to the task of 
developing the plan. This is the process that ARS used to incorporate 
the views of its customers and stakeholders into its strategic plan.
    Mr. Skeen. For the Results Act to be successful, agencies with 
similar missions, goals, or strategies will need to ensure that their 
efforts are coordinated. What other federal agencies are you working 
with to ensure that your strategic plans are coordinated? What steps 
have you taken to ensure that your efforts complement and do not 
unnecessarily duplicate other federal efforts?
    Response. ARS worked closely with the Office of the USDA Under 
Secretary for Research, Education and Economics (REE), with the other 
REE agencies Economic Research Service (ERS), Cooperative, State, 
Research, Education, and Extension Service (CSREES), and National 
Agricultural Statistics Service (NASS), and with a wide range of action 
and regulatory agencies that use the products of the agency's research 
in developing its plan. Working collegially within the REE mission area 
framework will ensure that the four principle Federal agricultural 
research components will not duplicate activities unnecessarily.
    Mr. Skeen. The Results Act requires agencies to consult with 
Congress as they develop their strategic plans. Since these plans are 
due in September, now is the time for agencies to begin the required 
consultations. What are your plans for congressional consultations as 
you develop your strategic plan? Which Committees will you consult 
with? How will you resolve differing views?
    Response. All USDA Mission Areas/Agencies have prepared draft 
Strategic Plans which are currently being reviewed by the Under/
Assistant Secretary (or other relevant official), the Senior Policy 
Staff and the Secretary. Upon completion of the review, the Department 
plans to provide copies of the Strategic Plan (including an overall 
Departmentwide Executive Summary and the Strategic Plans for individual 
Mission Areas/Agencies) to relevant Congressional Committees. 
Thereafter, we will look forward to meeting with Members or Staff to 
discuss our Strategic Plan and to solicit your input and advice on 
refinements to that Plan.
    We plan to provide copies of the Department Strategic Plan to the 
following Committees: Senate Agriculture Committee; Senate 
Appropriations Committee (Agriculture); Senate Energy and Natural 
Resources Committee; House Agriculture Committee; House Education and 
Work Force Committee; House Appropriation Committee (Agriculture); 
Senate Governmental Affairs Committee; House Government Reform and 
Oversight Committee.
    In passing the Results Act, Congress sought to fundamentally change 
the focus of federal management and decision making to be more results-
oriented. Organizations that have successfully become results-oriented 
typically have found that making the transformation envisioned by the 
Results Act requires significant changes in what they do and how they 
do it.
    Mr. Skeen. What changes in program policy, organization structure, 
program content, and work process has the agency made to become more 
results-oriented?
    Response. In implementing GPRA, ARS has taken or is taking a number 
of steps that will change the way the agency manages its research 
program. These steps include:
    Organizing approximately 1,100 research projects into 25 new 
National Programs that will enhance programmatic accountability.
    Restructing the National Program Staff so that interdisciplinary 
teams of National Program Leaders (NPLs) will now oversee the new 
National Programs. In the past, individual NPLs were responsible for 
number of research projects.
    Developing interactive home pages on the INTERNET for each National 
Program that will keep customers and stakeholders informed of the most 
recent developments that may be of interest to them (full 
implementation of this activity may require a year or two).
    Mr. Skeen. How are managers held accountable for implementing the 
Results Act and improving performance?
    Response. As the new organizational and programmatic structure is 
fully implemented, the managers' performance standards will be modified 
to hold them accountable for their new responsibilities.
    Mr. Skeen. How is the agency using Results Act performance goals 
and information to drive daily operations?
    Response. In implementing GPRA, ARS has taken or is taking a number 
of steps that will change the way the agency operates. These steps 
include: organizing approximately 1,100 research projects into 25 new 
National Programs that will dramatically change the way the agency 
manages its research programs, and restructuring the National Program 
Staff so that interdisciplinary teams of National Program Leaders 
(NPLs) will oversee the new National Programs (under current 
operations, NPLs are responsible for a number of individual research 
projects). The new Strategic Plan will change the way the agency 
presents its budget, and articulates its programs, giving both a 
distinct outcome/impact orientation.

                   Southern Regional Research Center

    Mr. Livingston. Last year the Committee provided $450,000 for the 
Southern Regional Research Center to conduct a broad-based research 
program to investigate the mechanisms of production and action of 
phytoestrogens, the design and formulation of pharmacologically active 
forms of candidate phytoestrogens, and to test their efficacy in animal 
and human subjects. How is the Department responding to this 
recommendation?
    Response. The amount of funds that were finally provided to ARS was 
$350,000. After appropriate allocation of funds for administrative 
expenses, the Southern Regional Research Center received $315,000. Of 
these funds, $105,000 were retained by the Southern Regional Research 
Center and $210,000 were used to fund a specific cooperative agreement 
with Tulane University; $10,000 of these funds were provided to Xavier 
University through a specific cooperative agreement. Research at the 
Southern Regional Research Center focuses on the identification of the 
role of microbes in influencing the biosynthesis in legumes of 
isoflavonoids with potential phytoestrogenic activities and to develop 
procedures to manipulate isoflavonoid content in legumes. Funds 
designated for Tulane University supports research testing individual 
or combinations of isoflavonoid compounds for phytoestrogenic effects 
in animal systems, or in rapid microbial assays that mimic animals 
systems. Xavier University scientists will be involved in testing 
versions of phytoestrogens with the goal of identifying those with high 
activity and minimal potential side effects when consumed by animals or 
humans.
    In addition to the research initiated by the new funds, $600,000 of 
ARS funds at the Arkansas Children's Nutrition Research Center will be 
used in FY 97 for the purpose of determining the effects of 
phytoestrogens on long term health of children. The Beltsville Human 
Nutrition Research Center, Food Composition Laboratory, has allocated 
funds of $129,900 for phytoestrogen research mainly in the area of 
identification, quantitation, and bio-availability in humans. In FY 
1996, phytoestrogen research was supported by funds totaling $437,100 
from the National Research Initiative; $195,000 at the University of 
Minnesota, St. Paul and $242,000 at the Tufts University, Boston, MA. 
The Cooperative State Research, Extension and Education Service 
(CSREES) also supports 17 research projects through formula and grant 
funds in which $288,000 is designated for the identification, 
quantitation, and mechanism of action of phytoestrogens.
    Mr. Livingston. What are some of the benefits of this research and 
is this an important area of scientific research?
    Response. There are two types of phytoestrogens; they are 
isoflavones found in soybeans and soy products, and lignans found in 
high fiber foods such as flax and rye products, and selected fruits and 
vegetables. Based on some epidemiological and biological studies, they 
are believed to prevent sex-hormone related diseases such as breast and 
prostate cancer. This is an important area of research because expanded 
knowledge on the effects of phytoestrogens on health should enhance the 
quality of life, particularly in the aging population, have a positive 
impact on health care costs, and create an expanded market for soybean 
products and other foods containing phytoestrogens.
    Mr. Livingston. What are the Department's plan for FY 98 and what 
type of funding would be necessary, should Congress make it available, 
for any follow up efforts?
    Response. Because phytoestrogens, and phytochemcials in general, 
are of nutritional importance for health and quality of life, the 
Department plans to continue support for research in this area. Because 
the Department has the Federal lead role in human nutrition, much of 
the support for the research on phytoestrogens and phytochemicals will 
be directed towards the ARS Human Nutrition Research Centers. The 
Beltsville Human Nutrition Research center, Food Composition 
Laboratory, will continue research to identify, quantitate, and assess 
bioavailability of phytoestrogens to humans. The Arkansas Children's 
Nutrition Research center, Little Rock, Arkansas will continue research 
on the long-term effects of phytoestrogens on the health of children. 
However, more funding in this area of research is needed, especially 
for nutritional studies using human volunteers. The Department has 
recommended a multi-year increase of $53 million in human nutrition 
research of which $12 million is being requested in FY 1998. This 
increase will have as one of its major areas of emphasis the role of 
phytochemicals including phytoestrogens in preventing chronic diseases 
such as cancer, cataracts, and heart disease. Each of the six ARS Human 
Nutrition Research Centers have projects that will be initiated if 
Congress should make available the recommended increase in funds for 
human nutrition research.
                             fungal phytase
    Mr. Livingston. What is the status of ongoing research on the 
genetic engineering of fungal phytase to reduce groundwater 
contamination?
    Response. Genetic engineering research on fungal phytase to reduce 
groundwater contamination is conducted at the Agricultural Research 
Service's Southern Regional Research Center (SRRC) in New Orleans, 
Louisiana. Phytic acid, a natural component in soybean meal, is the 
major storage form for phosphorous in soybean seeds. Pigs, chickens and 
other non-ruminant animals lack an enzyme, phytase, in their digestive 
tract to digest this compound. All this ``phytin'' phosphorus is 
therefore excreted in animal wastes which contribute to the phosphorus 
load on the environment. If phytic acid could be digested by addition 
of a phytase enzyme to animal feeds, costly phosphorus feed supplements 
could be eliminated and groundwater contamination could be reduced. 
Research at SRRC is focused on developing phytases for this application 
that would be more stable and useful than those currently available.
    Recent research at SRRC has led to identification of several 
sources of unique, heat-stable fungal phytases. Researchers are 
characterizing the genes encoding the enzymes. Molecular modification 
and genetic engineering techniques will be used to increase the 
activity and efficiency of these heat stable phytases to produce a 
superior phytase for the animal feed industry. Use of such enzymes in 
feeds will result in greater phosphorus utilization by animals and in 
less phosphorus in animal wastes. The potential impact from this animal 
feed additive research is projected to be in excess of $186 million per 
year.
    Mr. Livingston. Is this effort budgeted for in FY 98?
    Response. Yes, these funds are included in the FY 98 budget.
    Mr. Livingston. What level of funding in FY 98 would be necessary 
to maintain current research efforts?
    Response. The funding required to maintain current research efforts 
in FY 98 is $564,000.
                   research, education, and economics
    Mr. Walsh. As you know, the floriculture and nursery industry 
represents nearly 11 percent of all U.S. farm crop cash receipts yet 
there has been hardly any federal agricultural research in this area. 
In your 1998 budget request you are proposing to drop funding for the 
small level of research that is done on floriculture and nurseries.
    Could you please tell me the progress and status of your research 
on floriculture and the nursery industry and why are you redirecting 
funds away from this valuable research in your budget request?
    Response. ARS recognizes the importance of the floral and nursery 
industries to the U.S. economy. ARS has worked closely with industry to 
establish research priorities. Recent progress includes the 
introduction of new varieties and the development of improved methods 
of pest and disease control that are more environmentally acceptable. 
The total ARS base research program on floral and nursery crops in 
fiscal year 1996 was $7,316,100. In fiscal year 1997, Congress 
appropriated an additional $200,000 to support floriculture and nursery 
research. This additional increment of funding was not included in the 
ARS budget for fiscal year 1998; however, $7,157,700 will continue to 
be spent on research benefitting the floriculture industry. The 
Department was required to make difficult choices to terminate selected 
projects in order to initiate new programs in the broader national 
interest.
             condition of facilities at fresno, california
    Mr. Fazio. The administration's budget request has very few 
proposed new facilities,but obviously deems the facility in Parlier, 
California to be a high priority.
    Please describe the current condition of the present facility and 
the benefits that will be gained if the committee decides to fund the 
budget request.
    Response. The existing laboratories at Fresno, California, have 
conducted applied and fundamental research in support of the 
agricultural industries in the San Joaquin Valley and the western 
United States for the past 80 years. The industries and U.S. science 
have prospered because of ARS efforts and commitment. During this 
period the agricultural industries have grown more complex and are 
impacted by rapidly changing environmental, societal, regulatory, and 
immigration issues. More directly, in order for U.S. agricultural 
industries to complete effectively in a global economy, it is 
imperative that sound technical information, new technologies, and 
innovations are forthcoming from research to support these endeavors. 
The present aged-structures are wood framed, concrete block building, 
and trailer laboratories that are timeworn, antiquated, and the 
location also suffers from urban encroachment. All of the existing 
facilities have had additions and alternations made to them since they 
were first constructed in the 1920's and 1930's. Some of the early 
buildings need seismic upgrading. The structures cannot adequately be 
relied upon to provide the expected technical and logistic supports for 
the vital national agricultural industries. California produces over 50 
percent of the nation's fresh fruits and vegetables and dried fruits 
and nuts. These commodities are distributed domestically and exported 
worldwide which contributes significantly to the economy of California 
and the nation's balance of payments. This recognition that agriculture 
is the lifeline of human existence and the foundation of commerce and 
industry necessitates that a modern facility be constructed. The 
mission of the San Joaquin Valley Agriculture Center is to increase 
food and fiber production, efficiently utilize and conserve water and 
other natural resources, develop quarantine treatments for new markets 
and alternatives to chemical based treatments, maintain postharvest 
fruit quality and protect fresh and dried commodities from pathogens 
and pests in order to secure domestic food adequacy and enhance 
exports.
    There will be 26 scientists and support staff (120 total) housed in 
the new facility.
    The realization of the planned facility equipped with state-of-the-
art equipment and instrumentation will provide the Agency with the 
capability to meet the needs and challenges of tomorrow's 
biotechnological agriculture. The new facilities also will be in closer 
proximity to research plots and will reduce the current need for plots 
in 5 locations scattered throughout central and coastal California.
                        methyl bromide research
    Mr. Fazio. What steps is USDA taking to find an alternative to 
methyl bromide?
    Response. ARS is conducting research at 19 locations to find 
alternatives to present soil fumigation and postharvest uses of methyl 
bromide. ARS is seeking alternatives to soil fumigation through several 
approaches: 1) new cultural practices; 2) improved host-plant 
resistance to pests and diseases; 3) biological control systems using 
beneficial microorganisms; 4) safer fumigants; and 5) combinations of 
the above. For postharvest treatment, research is directed at 1) 
creation of pest-free agricultural zones; 2) physical methods such as 
heat or cold treatment or storage in modified atmospheres; 3) 
alternative fumigants; 4) methyl bromide trapping and recycling 
technologies; 5) biological control; and 6) combinations of the above.
    Mr. Fazio. Will we have an alternative by 2001?
    Response. ARS has undertaken a multifaceted approach to identifying 
alternatives to methyl bromide by 2001. Because ARS has for many years 
been developing non-chemical procedures to replace chemical soil and 
postharvest fumigations, ARS has several accomplishments in this area.
    Postharvest treatments ARS has developed or assisted in developing 
include cold treatment for citrus and carambola from Florida to Japan; 
pest-free certification for walnuts to New Zealand; heat treatment for 
papaya and cold treatment for carambola from Hawaii to Japan and 
mainland U.S.; phospine fumigation of hay to Japan; gamma irradiation 
treatment of exotic fruit and blueberry; and forced hot air protocol 
for control of medfly in citrus.
    Accomplishments pertinent to replacing methyl bromide as a soil 
treatment include the identification of improved strawberry and 
vegetable varieties with increased resistance to some soilborne 
diseases and pests; microbiological agents for the biological control 
of some soilborne diseases of vegetables and ornamental crops; improved 
cultural practices, such as improved soil preparation, crop rotation 
systems, and altered planting dates, to mitigate the effects of some 
soilborne pests of strawberries, vegetable, and ornamental crops; and 
improved pesticide formulation and application technology for available 
chemicals other than methyl bromide to control plant parasitic 
nematodes. Other related research found that non-pathogenic variants of 
a tomato-infecting fungus were shown to be effective in controlling 
pathogenic strains. Grapevine and peach rootstocks with improved 
nematode resistance also have been developed. Methods were devised for 
mass-producing and stabilizing mycoherbicidal fungi for control of 
several weed species. Solarization of soil was shown to be effective 
for controlling weeds in vegetable production. Root-knot nematode 
resistance has been incorporated into commercial bell peppers.
    Mr. Fazio. Will your agency work within this Administration and 
with the appropriate congressional committees to make certain that our 
farmers have a level playing field in 2001?
    Response. Loss of methyl bromide as a postharvest commodity and 
soil fumigant will adversely affect crop production in the United 
States, as well as both export and import trade between the U.S. and 
its trading partners. Additionally, methyl bromide is the only 
available tool for emergency use to permit movement of commodities out 
of agricultural areas quarantined because of the Mediterranean fruit 
fly or other pest outbreaks. Serious economic losses to U.S. producers 
and handlers of many agricultural commodities are anticipated if 
economically feasible alternatives are not available after January 1, 
2001. The development of alternative technologies to the use of methyl 
bromide is one of USDA's highest research priorities. I, as Secretary 
of Agriculture, will work with anyone who can assist our farmers in 
having a level playing field in 2001.
                    integrated pest management plan
    Ms. DeLauro. It seems that striking the right balance between pest 
control and environmental concerns is essential, and I applaud the 
Department's efforts with regard to the Integrated Pest Management 
plan. I understand you are looking at the broad implications of 
pesticides. I would like to know what positive health effects IPM 
practices might have?
    Response. Integrated pest management relies primarily on biological 
and ecological tools as alternatives to sole reliance on chemical 
pesticides. Increased adoption of IPM practices will reduce the 
nation's reliance and use of chemical pesticides in agriculture, and 
thus reduce environmental and human exposure to these chemicals. 
Positive health effects due to IPM practices might include decreased 
exposure to pesticide residues on food and in the environment.
                         lyme disease research
    Ms. DeLauro. An ongoing concern, particularly in my home state of 
Connecticut, is the debilitating effects of Lyme Disease. I appreciate 
the Department's past support for Lyme Disease research and ask that 
you provide a brief update on the Department's efforts. Are we making 
progress? Where might we make the most progress in the future?
    Response. ARS scientists at Kerrville, Texas, have developed lyme 
tick control technologies that are broadly applicable to Connecticut 
and neighboring States. Two devices called ``Four Poster'' and 
``Medicaid Corn Bait'' have been proven to be very effective in 
controlling ticks on white-tailed deer, which are the primary host 
animals responsible for reproduction and maintenance of the black-
legged tick population in the suburban areas. These two devices will 
reduce the risk of human infection with the agent of Lyme disease by 
controlling ticks on white-tailed deer. The ``Four Poster'' is a 
recently patented topical acaricide treatment device, and can be used 
to control ticks on deer during hunting season. It delivers a known 
minimum quantity of acaricide in the tick infested areas of neck and 
ears when deer rub against the four posts while feeding on unmedicated 
corn. Under EPA regulations, the deer treated with Amitraz in the 
``Four Poster'' can be hunted right away and its meat can be consumed 
without any risk of tissue residue. The ``Medicated Corn Bait'' device 
containing ivermectin-treated whole kernel corn is best suited for 
controlling ticks on deer during non-hunting season or in wild refuge 
areas. The FDA required a 90-day ivermectin-free feeding period before 
hunting for meat consumption.
    On November 13, 1996, ARS scientists, together with a cooperator at 
the Yale University, New Haven, Connecticut, held a meeting with State 
officials to plan for the use of ARS tick control devices in 
Connecticut. Thea attendees included the State public health and 
regulation officials, the director and two members of the staff of the 
Connecticut Agricultural Experiment Station, faculty of the Yale 
University, and a local wildlife biologist. The overall response for 
ARS-Yale pilot tick control project was very positive. Possible pilot 
test sites discussed included areas around Lyme and Old Lyme, 
Connecticut, where the incidence of disease is high and for which a 
substantial database on the epidemiology of Lyme disease exists. A 
private game-proofed fenced area near Bridgeport, Connecticut, was 
offered as a site for preliminary studies.
    Currently, the pilot tick control project is waiting EPA approval 
for an Experimental Use Permit for use of Amitraz, an effective and 
safe acaricide which will be used in the ``Four Poster'' device.
                      maricopa agricultural center
    Mr. Pastor. Because growth in the Phoenix metropolitan area has 
made field research at the present facilities of the Water Conservation 
Laboratory and the Western Cotton Research Laboratory impossible, 
Congress provided $396,000 in FY 1995 for the planning and design of 
the consolidation and relocation of these facilities to the University 
of Arizona Maricopa Agricultural Center (MAC). MAC is an irrigated farm 
40 kilometers south of Phoenix, encompasses 766 hectares and is 
suitable for both small and large field research. It has research 
plots, demonstration fields, laboratories, offices, meeting rooms and 
temporary living quarters. An excellent history of cooperation exist 
between ARS and the University of Arizona, especially at MAC, and the 
relocation would allow both to better serve Arizona and the Southwest 
region of the United States.
    Madam Secretary, can you tell me what work has been done to date 
with the funds that have been appropriated?
    If no work has been done with the appropriated funds, can you tell 
me what additional funding is necessary to carry out the planning and 
design of this relocation?
    Response. The cost of the planning and design of the Maricopa 
Agricultural Center is projected at $5.5 million. An additional $5.1 
million is required to supplement the $396,000 appropriated in fiscal 
year 1995 in order for ARS to proceed with the planning and design of 
this project.

                               Vomitoxin

    Mr. Barcia. In the last two years, wheat growers in Michigan, 
Indiana, Ohio and a number of other states have encountered problems 
with vomitoxin, which present yields with unacceptably high levels of 
toxic concentrations. There is concern about whether or not sufficient 
research is being done on this subject.
    Can you describe how much research ARS currently has underway, and 
whether or not your FY '98 request in any way expands upon this 
research?
    Response. Current ARS research on wheat scab disease and associated 
vomitoxin contamination of wheat is focused on development of an 
understanding of the etiology of the disease on wheat, knowledge of the 
mechanism of how this mycotoxin is formed, assay procedures for the 
fungus and vomitoxin, and prevention of Fusarium scab before harvest 
through breeding for resistance. This research is conducted at ARS 
locations in Peoria, Illinois, and St. Paul, Minnesota, totaling 
$275,100 in funding. Increases are requested in fiscal year 1998 at 
Pullman, Washington for $300,000 and St. Paul, Minnesota for $250,000 
to develop control strategies utilizing bioengineering technologies to 
enhance natural resistance in crops.
    Mr. Barcia. What do you believe to be the most essential research 
needs with respect to vomitoxin that are not being funded with your FY 
'98 request, including the cost of each of those research needs?
    Response. The most essential research needs not being adequately 
funded are correlation of weather conditions with severe infection in 
order to adequately predict when an epidemic will occur ($250,000) and 
acceptable effective biological control methods ($250,000).
    Mr. Barcia. Can you tell us whether or not other private entities 
are conducting additional vomitoxin research that you consider to be of 
importance?
    Response. Private companies and the Federal Grain Inspection 
Service of USDA are developing ``quick test'' kits for assaying for 
vomitoxin contamination in the marketplace. Problems still exist with 
cost, time of assay and sensitivity of presently used test kits.
    Mr. Barcia. I understand that vomitoxin has been present in Europe 
for some years, and the tolerance levels for vomitoxin in Europe both 
safeguard human health while being higher than US tolerance levels. 
What can you tell the committee about the European experience?
    Response. The two European countries that have thus far addressed 
vomitoxin have established lower tolerance limits that those in the 
U.S. Available epidemiological data is not sufficient to assess the 
effect on public health of regulations in the various countries.

                 Dissemination of Research Information

    Mr. Barcia. Research information is not of great value to the 
public unless they can get access to it. What is being done to harness 
the latest developments in information technology to make long-term 
scientific data and information more available to the research 
community and the public?
    Response. The ARS Office of Technology Transfer (OTT) developed a 
Home Page in fiscal year 1996, offering interactive on-line access to 
research information, commercial opportunities and technology transfer 
programs from the Internet. Through the OTT Home Page, ARS customers 
can access newly-issued ARS patents and recently filed patent 
applications available for license are accessible to the private 
sector. Licensing information is available on-line and patent 
information is updated monthly to ensure that private sector customers 
are kept aware of the latest commercial opportunities. The OTT Home 
Page also provides on-line visitors with direct access to ARS 
regionally-based technology transfer coordinators, who can be E-mailed 
directly for further inquiries. In addition, more than 13,000 pre-
publication research projects can be accessed through the TEXTRAN data 
base, which was put on the Internet in fiscal year 1996. Records from 
the National Agricultural Library show that inquiries for this 
information exceeds 20,000 per month.
    To obtain financing information, private sector customers can be 
linked directly from the OTT Home Page to sister USDA agencies, such as 
the Rural Business-Cooperative Service (RB-CS), Alternative 
Agricultural Research and Commercialization (AARC) program and the 
Small Business Innovation Research Program (SBIR) administered through 
the Cooperative State, Research, Education and Extension Service 
(CSREES).
    Industrial and public customers or ARS research can also E-mail 
individual technology requests for search by ARS staff from the OTT 
Home Page. More than 30 specialized requests from industry were 
received and answered in fiscal year 1996.
       fda joint institute for food safety and applied nutrition
    Mr. Barcia. There has been a great emphasis in recent years on food 
safety research. The Food and Drug Administration has established a 
Joint Institute for Food Safety and Applied Nutrition with the 
University of Maryland at College Park. Can you tell the committee to 
what extent ARS may be involved in this project, and to what extent you 
may have been consulted in its development?
    Response. ARS has held some preliminary discussions with the Food 
and Drug Administration in regard to participation in the Joint 
Institute for Food Safety and Applied Nutrition with the University of 
Maryland at College Park. Areas of possible joint interest have been 
identified, but no formal arrangements for participation have been 
developed.
              genetically engineered fruits and vegetables
    Mr. Barcia. A panel of the National Academy of Sciences reported 
last year that food borne carcinogenic risk to human health from 
naturally occurring agents, such as chemicals produced by plants 
themselves, is likely greater than that from man-made chemicals. This 
may be a particular concern with genetically engineered fruits and 
vegetables that may lead to increased production of defensive toxins by 
these plants. What work, if any, has ARS been doing in this area, and 
to what extent have you coordinated with the National Institute for 
Environmental Health Sciences and the Food and Drug Administration?
    Response. The ARS does not know of any substantive scientific 
studies that point to any increased production of defensive toxins by 
genetically engineered fruits and vegetables. Thus, the Agency has no 
basis on which to carry out studies to assess toxic potential of these 
crops emanating from their alleged production of defensive toxins. If 
the NIEHS or the FDA does identify any problem areas, the ARS will work 
with them to help provide solutions.

      Cooperative State Research, Education, and Extension Service

                    fiscal year 1998 budget request
    Mr. Skeen. Please provide for the record the fiscal year 1998 
budget funding level, by program, requested by the Cooperative State 
Research, Education, and Extension Service (CSREES) to the Secretary, 
the level requested by the Secretary to OMB, and the final OMB 
allowance. Please provide this information for each of the categories 
reflected in the summary table on pages 184 and 185 of last year's 
hearings.
    [The information follows:]

[Pages 235 - 236--The official Committee record contains additional material here.]


                             agency audits
    Mr. Skeen. Provide a brief description of all GAO, OIG, and 
internal audits that are ongoing.
    Response. The following audits are ongoing or in final stages of 
completion:
    Small Business Innovation Research--SBIR--Program--Audit Report No. 
13-099-1-KC.--All recommendations in the audit report have been closed 
out except for two recommendations relating to questioned costs 
involving an award made by the Cooperative State Research, Education, 
and Extension Service--CSREES--to a small business enterprise. With 
respect to the Small Business Innovation Research Program--SBIR--grants 
awarded to this particular enterprise, the audit concluded that the 
grantee did not manage the funds with reasonable care and did not 
comply with regulations governing allowable costs and financial record 
keeping. The audit identified $17,468 in expenses which were improperly 
applied against grant funds and $176,855 in expenses which were not 
supported by records or related to funded research efforts. CSREES 
corresponded and reviewed documentation provided by the grantee to 
evaluate the property of an support for claimed expenditures of grant 
funds, and based on this review, determined that the grantee had not 
provided acceptable documentation to support questioned costs in the 
amount of $54,276. Numerous attempts to obtain from the grantee the 
additional documentation or justification to support this amount were 
unsuccessful, and the account was referred to the USDA National Finance 
Center--NFC--for collection. NFC has referred the account to a private 
collection agency, which also has not been successful in the collection 
of the debt. The delinquent account will not be referred to credit 
bureaus and the Internal Revenue Service for offset from the grantee's 
income.
    The Oceanic Institute--OI--Audit Report Nos. 50099-1-SF and 13099-
1-HQ.--Final action has been completed on 10 of the 25 recommendations 
in the audit reports. Of the remaining 15 recommendations, all 
administrative and corrective actions are complete and a schedule has 
been established for the repayment of the disallowed costs. The total 
amount of disallowed costs is $972,476. Final action is contingent upon 
final payment which is scheduled for May 2003. OI has already made two 
payments totaling $215,000 in 1996. The third installment payment, 
including interest, is due May 1997, and future installments are due in 
May of succeeding years. The installment payments returned by OI for 
disallowed costs are credited to the Agency's appropriation account. 
These funds can be reobligated by the Agency provided the funds are 
used for the same purposes as set forth in the appropriation act in 
which they were initially appropriated (fiscal year 1988). The fiscal 
year 1988 appropriation act provides that ``the alteration, and 
purchase of fixed equipment or facilities and for grants to states and 
other eligible recipients for such purposes to carry out the 
agriculture research, extension, and teaching programs of the 
Department of agriculture.'' At this time, no grant awards have been 
made with the funds returned by the OI. CSREES and the Office of 
Inspector General--OIG--also have recently completed a joint follow-up 
review at OI. The review included an evaluation of OI's implementation 
of the corrective actions and revised management procedures addressing 
the findings and recommendations in the audit reports. Based on the 
results of this review and a recently issued organization-wide audit of 
OI for the two-year period ended December 31, 1995, we believe that OI 
has taken definite and positive actions to implement the corrective 
actions and revised management procedures that were recommended in the 
audit reports.
    Oregon-Massachusetts Biotechnology Partnership--Audit Report No. 
13801-1-Hy.--OIG has accepted the corrective action plan proposed by 
CSREES for 20 of the 21 recommendations in the report. However, 
additional action--i.e., bill the grantee for disallowed costs, prepare 
the request for proposals, etc.--must be taken by CSREES to reach a 
final management decision with OIG. Also, OIG did not accept the 
corrective action proposed by CSREES on one recommendation relating to 
anti-lobbying violations. CSREES is currently negotiating with OIG to 
reach a solution to this issue.
    1890 Institution Capacity Building Grants Program--Audit Report No. 
13011-1-AT.--Final action has been completed on 6 of the 12 
recommendations. Final action for the remaining recommendations will be 
completed in 1997. These actions include completing the long-term 
strategic plan for the program, developing performance measures which 
will measure the effectiveness of the program, conducting a program 
evaluation of the program, and revising the audit compliance supplement 
to include review procedures of this program.
                            tobacco research
    Mr. Skeen. Are there any funds being used in fiscal year 1997 for 
tobacco research? By what means did you advise all grantees for Hatch 
Act funds or other Federal funds of the tobacco research restriction?
    Response. The Cooperative State Research, Education, and Extension 
Service no longer approves Federally-supported research projects that 
deal with tobacco production, processing, or marketing. This policy was 
initially communicated to research directors in tobacco-producing 
states by telephone in 1992. Subsequently, if projects proposing to 
conduct research on these topics are revised, the institution is 
instructed to either withdraw the project or take out those activities 
related to tobacco.
    Some Federally-funded research uses tobacco as a model system for 
basic genetic and physiology studies. Research dealing with the health 
effects of tobacco use is still permitted.
                     biotechnology risk assessment
    Mr. Skeen. Section 1668 of the Farm Bill requires that one percent 
of the biotech funds shall be set aside for risk assessment. Please 
provide a table for the record listing all USDA biotech funds, by 
agency, for fiscal years 1996, 1997, and 1998.
    [The information follows:]

    U.S. DEPARTMENT OF AGRICULTURE, FUNDS AVAILABLE FOR BIOTECHNOLOGY   
                                RESEARCH                                
                        [In thousands of dollars]                       
------------------------------------------------------------------------
                                                  Fiscal years--        
                 Agency                 --------------------------------
                                            1996       1997       1998  
------------------------------------------------------------------------
Cooperative State Research, Education,                                  
 and Extension Service.................    $47,919    $79,146    $63,875
Agricultural Research Service..........     81,962     77,439     75,261
Forest Service.........................      7,210      7,200      6,800
                                        --------------------------------
    Total..............................    137,091    163,785    145,936
------------------------------------------------------------------------
Note: For CSREES, FY 1996 was the first year that the National Research 
  Initiative (NRI) was no-year money. Statistics included in this table 
  for FY 1996 are based on actual obligations. The estimate for FY 1997 
  includes the remainder of FY 1996 grants to be awarded in FY 1997 plus
  estimates for FY 1997 awards.                                         

                          plant genome mapping
    Mr. Skeen. For each of the following commodities what is the status 
of their genome mapping: corn, wheat, soybeans, cotton, and peanuts?
    Response. Genome mapping for the commodities mentioned has advanced 
rapidly since 1991, largely due to research projects supported by the 
USDA. The USDA Plant Genome Research Program has led the research 
efforts to identify molecular markers that can be used as 
``diagnostic'' tools to identify genes important to agriculture. Map 
information for the commodities mentioned, and many others, is 
maintained at the USDA National Agricultural Library for use by the 
research community.
    In corn, over 6,500 molecular markers and 850 genes have been 
mapped. Coordination efforts are now underway to integrate molecular 
markers common to over 25 non-overlapping genome maps. Extensive 
discovery of common genes and common gene order amongst maize and its 
relatives--sorghum, rice, wheat, and barley--provides a broad set of 
tools and knowledge that is useful across all four species.
    In wheat, two major mapping efforts predominate with over 2,000 
molecular markers mapped. The close relationship among wheat, barley, 
and oat has been utilized to make ``comparative maps'' thus leveraging 
the utility of genome information from any one of the three, for use on 
the other two.
    In soybeans, three maps comprised of over 2,000 molecular markers 
are in use. Cooperative efforts are underway to integrate information 
from these maps from more efficient use by the research community. Many 
genes have been mapped, including genes associated with quality and 
productivity traits such as seed oil and protein levels, as well as 
disease resistance.
    In cotton, maps include about 1,500 molecular markers. The cotton 
map is being applied to the improvement of fiber quality in leading 
cotton varieties.
    In peanut, the first comprehensive map of cultivated peanut has 
been initiated, and about 200 molecular markers have been mapped. 
Researchers are making progress toward transferring new genes into 
peanut from its wild relatives.
    Mr. Skeen. Who has participated in the mapping?
    Response. Since 1991, competitive grants were awarded to over 500 
scientists from public, private, or government research institutions 
from over 40 states. More than 50 agronomic, horticultural, and forest 
tree species are included in the plant genome research effort. Most of 
the awards went to efforts in Douglas fir, pine, poplar, arabidopsis, 
brassica, alfalfa, bean, mungbean, pea, peanut, soybean, pepper, 
potato, tomato, barley, corn, oats, rice, rye, sorghum, sugarcane, and 
wheat.
    Mr. Skeen. What are some of the recent accomplishments in this 
area?
    Response. Several accomplishments have been made. Genomic maps are 
empowering contemporary geneticists to realize the potential 
contribution of classical ``genetic stocks'' for improving our 
understanding of disease, insect and nematode resistance, as well as 
plant growth and development, chromosome pairing, and genome evolution. 
Genomic maps are being aligned with those of Arabidopsis, a model plant 
system, to use Arabidopsis genome information to accelerate progress in 
identifying important agricultural traits. The close relationship among 
plant species is being utilized to make ``comparative maps'' that 
enables leveraging of genomic information and technology from other 
related species. Recent results suggest that many disease resistance 
genes isolated in other plants may also play important roles in other 
crops, thus accelerating the rate at which scientists can respond to 
new and existing disease outbreaks.
    Mr. Skeen. How is this work coordinated with ARS?
    Response. The USDA Plant Genome Research Program is a single 
program with two parts: First, the competitive grants awarded through 
the Cooperative State Research, Education, and Extension Service's 
National Research Initiative Competitive Grants Program--NRICGP; and 
second, the Plant Genome Database funded through and managed by the 
ARS. As part of the coordination, the ARS program staff reviews and has 
the opportunity for defining the scope and description of the 
competitive grants component of the program.
    In addition, ARS scientists compete for and are awarded competitive 
grants in support of ARS missions and goals in plant genome research, 
and ARS scientists provide reviews of proposals and serve on panels 
that provide the merit review and consensus rankings of proposals for 
funding by this program. The ARS administrator serves on the NRICGP 
Board of Directors that approves the annual NRICGP program description 
and call for proposals to the USDA Plant Genome research program.
    Competitive Grants are awarded for research aimed at improving 
agronomic qualities through genomic research. The Request For Proposals 
invites proposals addressing three areas: first, the generation of 
molecular markers and mapping data, and map-based cloning of 
agriculturally important plant genes; second, the development of new 
technologies for genome mapping, genome manipulation, gene isolation, 
or gene transfer in plants; and third, the use of genome technologies 
to create new germplasm and varieties that solve problems important to 
U.S. agriculture or will create new products for the U.S. agricultural 
industry. All pertinent data should be deposited into the Plant Genome 
Database.
    The plant genome database component is aimed at the rapid 
assimilation and analysis of genome mapping data so that it can be 
disseminated to the user community electronically. The database is 
handling tens of thousands of inquiries each month. The success in 
making these analyses useful depends on appropriate database 
development and subsequent easy access by the many researchers 
throughout the country and the world who can benefit from its use.
    Mr. Skeen. How much is being spent on each of these projects?
    Response. The average size award for an NRI plant genome project is 
approximately $60,000 per year for just under three years.
    Mr. Skeen. Are there other plant genome mapping projects being 
funded with CSREES monies?
    Response. Plant genome mapping also is supported through the 
Regional Barley Mapping special research grant, the Midwest 
Biotechnology consortium special research grant, and Hatch Act formula 
funds.
                      ir-4 and pesticide clearance
    Mr. Skeen. Please provide for the record a table which shows total 
USDA funding for IR-4 work for fiscal years 1996, 1997, and 1998.
    Response. Total USDA funding for IR-4 for fiscal years 1996, 1997, 
and 1998 is shown in the following table:

                            USDA IR-4 PROGRAM                           
                        [In thousands of dollars]                       
------------------------------------------------------------------------
                                                  Fiscal years--        
              USDA Agency               --------------------------------
                                            1996       1997       1998  
------------------------------------------------------------------------
Cooperative State Research, Education,                                  
 and Extension Service (CSREES):                                        
    Hatch Act..........................       $475       $475       $475
    Special Research Grants, Pesticide                                  
     Clearance.........................      5,711      5,711     10,711
                                        --------------------------------
      Subtotal, CSREES.................      6,186      6,186     11,186
Agricultural Research Service..........      2,126      2,106      2,106
                                        --------------------------------
      Total, USDA......................      8,312      8,292     13,292
------------------------------------------------------------------------

    Mr. Skeen. How many registrations were completed in 1996 and what 
is the goal for fiscal year 1997?
    Response. Fewer registrations were completed in Fiscal year 1996 
since the Environmental Protection Agency--EPA--did not grant 
registrations after August 3 because of the Food Quality Protection 
Act--FQPA. Nevertheless, the IR-4 Project completed 80 minor use 
registrations and reregistrations on food crops in FY 1996, compared to 
104 in FY 1995 and 141 in FY 1994; 891 new registrations on nursery and 
floral crops; and 21 registrations for biological pest control 
products. Goals for FY 1997 are 135 registrations on food crops, 220 
ornamental crop registrations, and 30 registrations for biologicals.
    Mr. Skeen. What is the current backlog of pesticide clearance 
requests?
    Response. There is presently a backlog of 1,248 clearance requests 
for food crops, 2,115 registration requests for nursery and floral 
crops, and 81 for biopesticides.
    Mr. Skeen. What financial assistance do you receive from industry?
    Response. Direct financial assistance from commodity producers and 
the agricultural chemicals totalled $470,500 in FY 1996. During the 
first two months of FY 1997, industry contributions have totalled 
$30,000.
    Mr. Skeen. The Department, through the Agricultural Marketing 
Service, has for several years managed a program called the Pesticide 
Data Program. Do you know if any of the data from that program have 
been used to approve minor use registrations?
    Response. IR-4 emphasizes data that complies with EPA mandated Good 
Laboratory Practice (GLP) Standards to support a registration petition 
submitted to EPA. The Pesticide Data Program also uses similar 
laboratory analysis controls. PDP data have been used to support minor 
use crop registration and special review activities. Recently, EPA 
identified 14 minor use pesticides for which PDP will be providing data 
in the registration process.
                         minor use animal drugs
    Mr. Skeen. What is the backlog on minor use animal drugs and how 
many were registered in 1996?
    Response. Since the Minor Use Animal Drug Program was established, 
282 drug requests have been submitted to the minor Use Animal Drug 
Program for clearance. Working in conjunction with many universities, 
other agencies, and numerous pharmaceutical companies, studies have 
been completed for human safety, target animal safety, environmental 
safety, and efficacy for 25 new drugs. The results, in the form of 
public master files, were published in the Federal Register providing 
clearance for 25 new drugs. Of the remaining 257 requests, 
approximately 75 percent, or 193, are potential projects for the minor 
use animal drug program. Currently, there are 24 active research 
projects that will be continued through 1997 to establish data for 
clearances. However, the backlog of requests continues to grow. Last 
year, for example, 5 new drugs were approved, but 15 new requests were 
received.
    Limiting factors for the program include the lack of a 
pharmaceutical company to sponsor the research, the unavailability of 
research investigators, the fact that the drug is not approved in a 
major species, and the insufficient funds for research. In addition, 
the scope of the program has expanded due to increased emphasis on 
aquatic species, the classification of veal and sheep as minor species, 
and the requests from the gamebird industry. The importance of 
environmental assessment, residue withdrawals and occupational safety 
have increasingly been given more attention during the approval process 
to help assure consumer protection.
    Mr. Skeen. What is the goal for fiscal years 1997 and 1998?
    Response. The regional coordinators and investigators expect to 
complete the research for several additional animal drug studies in the 
next two years. It is anticipated that the research in progress will 
result in four new minor use animal drug approvals in 1997 and 1998. 
One public master file is currently being reviewed for publication by 
the Food and Drug Administration--FDA. The demands on the program 
continue to increase for several reasons. New requests are received for 
additional species, including non-food species such as llamas and 
tropical fish. There is increased pressure on the Minor Use Animal Drug 
program to include the development of production drugs such as spawning 
hormones for certain aquaculture industries. The Animal Medical Drug 
Use Clarification Act--AMDUCA--enacted in 1996, legalized extra-label 
drug use by veterinarians. However, the legislation restricts extra-
label drug use through medication in feed; virtually the only route of 
drug administration available to the aquaculture and game bird 
industries as well as others.
    Increased costs also are being incurred due to the need for 
research laboratories to comply with Federal requirements for Good 
Laboratory practices--GLP. More expensive analytical techniques and 
sophisticated research are required especially to assure human safety 
and target animal safety.
    Mr. Skeen. What financial assistance do you receive from industry?
    Response. The NRSP-7 Minor Use Animal Drug Program continues to 
benefit from the pharmaceutical companies that have cooperated as 
sponsors for animal drug research projects for this program. The major 
contribution to NRSP-7 is the cost borne by the pharmaceutical industry 
for the registration of drugs for a major species, estimated at 
approximately $20 million per drug. Research data from these 
registrations are used by the Minor Use Animal Drug Program to obtain 
drug approval for use in a minor species, at cost of $200,000 or less 
per drug. Thus, the pharmaceutical industry provides the major portion 
of the cost of attaining drug approval. The drug manufacturers also 
contribute to NRSP-7 by donating quantities of the drug for research 
purposes, and often providing analytical analyses for residue studies. 
The animal industries, together with the pharmaceutical industries, 
routinely contribute research animals and other in-kind services for 
the Minor Use Animal Drug Program. In several instances industry 
provides direct financial support to the program, however, most of the 
industries are quite small and their ability to provide support is 
limited. Another significant contribution to the program is from 
universities via in-kind contributions in terms of facilities, 
equipment, salaries for researchers, animal caretakers, and general 
support such as utilities and publication costs. Funding from non-
Federal sources includes state appropriations, direct contributions 
from private industry, and endowments. The total support from non-
Federal sources is much greater than the funding provided by NRSP-7.
                             overhead rates
    Mr. Skeen. For the last several years, the Appropriations Act for 
the Department of Agriculture has limited the overhead rate on grants 
to 14 percent. What has been the impact of this limitation on the 
number of applications received?
    Response. There is no easy measure of the effect of the limitation 
of the overhead rate on grants to 14 percent. Because the National 
Research Initiative Competitive Grants Program--NRICGP--has continued 
to receive a large number of proposals, it could be inferred that many 
institutions are not deterred by the limitation. However, there is no 
way to estimate the number of additional proposals that would have been 
submitted had the restriction not been in place because only 
institutions willing to accept awards carrying the restrictions submit 
proposals. Even under the current limitations, we continue to hear that 
universities and/or colleges within universities are requiring academic 
departments to make up from other sources the difference in the allowed 
cost and the actual overhead costs. Further, it could be surmised that 
institutions declining to submit proposals would be those private and 
public institutions which lack a tradition of pursuing agricultural 
research. Yet it is exactly these institutions which would be attracted 
by the NRICGP to bring their resources to bear on agricultural 
problems. In the six years since the inception of the NRICGP and during 
which time there has been an overhead limitation, the submission rate 
by the non-traditional institutions has not increased but has remained 
constant at about 16-17 percent. The 1997 President's proposed budget 
requests that the cap on indirect costs for NRICGP grants be raised to 
25 percent. The 25 percent level is a better reflection of the true 
costs of conducting research at universities and colleges and would be 
a greater incentive for more institutions to participate in the 
program, a central goal of the NRICGP.
    Mr. Skeen. Please list for the record any universities or 
organizations that have declined grants because of the overhead rate.
    Response. Scientists at the Department of Energy are not allowed to 
submit proposals to the National Research Initiative because there is a 
requirement for recovery of actual costs by that Department. For 
educational and research institutions, while there is limited anecdotal 
evidence that some institutions do not permit submission of proposals, 
thee is no means to determine their identity nor to know the extent to 
which this occurs. The proposals are not submitted so that there is no 
formal declination of a grant.
                             genome mapping
    Mr. Skeen. How much of the NRI funds for fiscal years 1996 and 1997 
have been for plant genome mapping?
    Response. In fiscal year 1996, $9,080,665 of the National Research 
Initiative Competitive Grants funds supported plant genome mapping. 
Research submissions for fiscal year 1997 are currently undergoing 
competitive peer review. Funding recommendations and award decisions 
will be known by September 1997.
    Mr. Skeen. How much of the NRI funds for fiscal years 1996 and 1997 
have been for animal genome mapping?
    Response. In fiscal year 1996, a total of $1,074,907 supported 
animal genome projects. Research submissions for fiscal year 1997 are 
currently undergoing competitive peer review. Funding recommendations 
and award decisions will be known by September 1997.
                           competitive grants
    Mr. Skeen. For the record, please provide a breakdown into the 
smaller subsets of research for each of NRI components for 1996, 1997 
and your proposal for 1998.
    [The information follows:]

[Page 243--The official Committee record contains additional material here.]



               1890 institutions and tuskegee university
    Mr. Skeen. Please update the table which appears on page 305 of 
last year's hearings, which shows the total funds available to the 1890 
institutions and Tuskegee University.
    [The information follows:]

------------------------------------------------------------------------
                                                    1997         1998   
             Program               1996 Actual    Estimate     Estimate 
------------------------------------------------------------------------
Research Activities:                                                    
    Evans-Allen formula..........         27.7         27.7         27.7
    Capacity Building Grants.....          9.2          9.2          9.2
    Other Programs, Grants to                                           
     Other Historically Black                                           
     Institutions................          3.4          2.8          2.0
                                  --------------------------------------
      Subtotal, Res. & Educ.                                            
       Activities................         40.3         39.7         38.9
                                  ======================================
Extension Activities:                                                   
    Formula Payments for                                                
     Extension...................         25.1         25.1         25.1
    Facilities Grants............          7.8          7.5          7.5
    Other Programs, Grants to                                           
     Other Historically Black                                           
     Institutions................          1.8          1.9          3.6
                                  --------------------------------------
      Subtotal, Extension                                               
       Activities................         34.7         34.5         36.2
                                  ======================================
Other Agencies:                                                         
    Cooperative Research, Support                                       
     of Agency Programs, Student                                        
     Assistant and Recruiting....           16           15           18
                                  ======================================
      Total, Program Funds.......           91         89.2         93.1
------------------------------------------------------------------------

                        capacity building grants
    Mr. Skeen. Please list for the record the capacity building grants 
that were awarded in fiscal year 1996 and those that have been awarded 
to date for fiscal year 1997.
    [The information follows:]

[Page 245--The official Committee record contains additional material here.]


    Mr. Skeen. Have any schools experienced problems during the past 12 
months with the matching requirement?
    Response. Matching funds have never been required under the 1890 
Institution Capacity Building Grants Program. Initially, proposals that 
had matching funds from institutional and outside resources were viewed 
more favorably in the merit review process. However, the 1890 
institutions stated that obtaining matching funds became increasingly 
difficult. As a result, in 1995 the matching was simply encouraged. In 
the proposed review process, matching is used to break ties between 
otherwise equally-ranked projects. With this incentive, colleges still 
endeavor to obtain commitments of matching, frequently in-kind 
institutional or private sector contributions. As States have 
experienced growing difficulties in funding higher education, these 
types of support have become increasingly difficult to obtain and have 
been withdrawn on occasion, leaving an institution with an almost 
impossible obligation. In fiscal year 1996, the percentage of match 
achieved on funded projects declined slightly to 45.7 percent from 47.4 
percent in 1995.
                   animal health and disease research
    Mr. Skeen. Please describe how the $4,775,000 appropriated for 
fiscal year 1997 is being used for the animal health and disease 
program.
    Response. These funds will be used to support research projects on 
a varity of animal health and disease issues at the land-grant 
universities. For the most part, these funds are awarded via an 
internal competitive review process at each institution, and the focus 
is on starting research efforts on new or re-emerging problems. Some 
funds are also used to bridge gaps in extramural funding on major 
disease projects when that seems to be most desirable. Examples of 
current projects include allocation of funds to support increased 
efforts to determine the cause of the sudden increase in severity of 
disease and resultant economic losses to the pork industry due to the 
Porcine Reproductive and Respiratory Syndrome--PRRS--virus in the 
Midwest. Another project is focused on a prospective study of 
management practices, and the incidence of human pathogens in pigs. The 
specific goal is to generate epidemiologic data about the relationship 
between numbers of such bacteria in the live animals and the incidence 
of food-borne illness in a controlled population which eats the food 
products coming from these production units. In addition to projects 
which focus on specific disease agents, some funds are used by 
institutions to purchase a major piece of equipment which enables 
several researchers at that university to do better research and be 
more competitive for extramural funding from programs such as the 
National Research Initiative.
                    critical agricultural materials
    Mr. Skeen. For fiscal years 1996 and 1997, please describe how the 
funds for Commercializing Alternative Crops at the Polymer Institute 
are being used.
    Response. This research continues to focus on utilizing 
agricultural materials as feedstocks for new and/or potentially 
valuable industrial products or product substitutes for the polymer 
industry that have traditionally been derived from petroleum-based raw 
materials. The polymer industry is the largest chemical products 
industry in the world, and thus, there is much demand for polymer-
related products such as foams, adhesives, coatings, elastomers, and 
high performance thin films. The University of Southern Mississippi is 
one of the top two polymer science programs in America and provides to 
U.S. agriculture the expertise, interest in agriculture, facilities, 
significant industrial ties, and a professional commitment to 
commercializing agricultural materials. Development work at the 
University of Southern Mississippi emphasizes the execution of quality 
science that can potentially lead to industrial products.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The Commercializing Alternative Crops program began in 
fiscal year 1991 with an appropriation of $300,000; $400,000 was 
appropriated per year in fiscal years 1992 and 1993; and $500,000 per 
year in fiscal years 1994 through 1997, totalling $3,100,000.
    Mr. Skeen. Does this project receive any other Federal (other than 
USDA) funds? If so, please explain the source and amounts.
    Response. The Polymer Institute at the University of Southern 
Mississippi has received $100,000 from the Agricultural Research 
Service from 1994-1997 for research conducted on the Chinese melon as a 
polymer raw material.
    Mr. Skeen. What has been accomplished to date with this funding?
    Response. The original goal of the research was to plan and 
establish an organizational structure and/or protocol for 
commercializing agricultural products. This has been accomplished 
through the technical work that has been performed, technology coverage 
by patent protection, and manufacturing and marketing capability, i.e., 
the process for commercialization which has been established. The 
Polymer Institute has performed focused research, marketed their 
technology, and has submitted five patent applications in cooperation 
with Celanese, Inc. Developmental research is being performed in 
cooperation with L'Oreal, an internationally known cosmetics firm, 
because of their interest in the novel odor-free, volatile organic 
compound-free emulsion technology developed by the Polymer Institute. 
Monsanto is in the process of developing a contractual relationship 
with the research group, and work has been completed during 1996 for 
DuPont, Lubrizol, Southern Chemical Formulators, and Celanese. The 
research group has developed an agricultural based water-borne water 
proofer for use on wood and other porous substrates. An industrial firm 
is currently in pilot manufacturing and marketing stages with this 
product. Novel ultraviolet cured coatings have been developed for 
ultraviolet curing polymers, with no emissions of volatile organic 
compounds.
    The foam industry is a huge market for raw materials. Closed cell 
or open cell foams, using vegetable oils can be blown with water, 
resulting in no volatile organic compound emissions. These foams have 
passed government regulations for shipping munitions, and are currently 
being evaluated for biodegradability and powder contamination.
                          aquaculture centers
    Mr. Skeen. Each year for the past several years, $4,000,000 has 
been appropriated for the aquaculture centers. Please describe for the 
Committee how the funds were used at each of these centers in fiscal 
years 1995, 1996, and 1997.
    Response. Funds have supported aquaculture research, development, 
demonstration, and extension education in each of the five centers in 
fiscal years 1995, 1996, and 1997. During this period, the Northeastern 
Regional Aquaculture Center has supported projects related to 
aquaculture quality assurance; cultivation of scallops, hard clams, 
salmon, and summer flounder; nutrition of striped bass; genetic 
selection in oysters; aquaculture waste management; control of 
predators; health management and disease control; aquaculture 
education; and improved communications. The North Central Regional 
Aquaculture Center has supported projects related to aquaculture 
extension; economics and marketing; waste management; aquaculture 
drugs; and cultivation of tilapia, yellow perch, hybrid striped bass, 
walleye, sunfish, salmonids, crayfish, and baitfish. The Southern 
Regional Aquaculture Center has supported projects related to 
aquaculture waste management; food safety and sanitation of aquaculture 
products; improvement of production efficiency; nutrient utilization 
and diet optimization; management of off-flavor; yield verification; 
and cultivation of catfish, baitfish, crawfish, and trout. The Tropical 
and Subtropical Regional Aquaculture Center has supported projects 
related to aquaculture waste management; aquaculture drugs; aquaculture 
extension and training; information dissemination; health management 
and disease control; marketing; stock enhancement through aquaculture; 
culture technology for pacific threadfin and milkfish; cultivation of 
new tropical species with market potential; and public policy impacts 
on aquaculture. The Western Regional Aquaculture Center has supported 
projects related to genetic improvement of salmonids and shellfish; 
health management and disease control; aquaculture waste management; 
development of sturgeon broodstocks; predator control; evaluation of 
high performance feeds; and extension education.
    Mr. Skeen. How do these centers coordinate their research with ARS, 
other programs around the country, and with private industry?
    Response. Coordination between the Regional Aquaculture Centers and 
Agricultural Research Service--ARS--programs is accomplished through 
the National Coordinating Council. The National Coordinating Council--
NCC--is composed of the directors of the five Regional Aquaculture 
Centers and the CSREES program leaders. The ARS program leader 
participates in NCC meetings. The National Coordinating Council meets 
twice a year to assure that aquaculture programs and activities in 
Research, Education, and Economics and the centers are well coordinated 
and communicated. Coordination with their national programs in other 
Federal agencies is accomplished through the Joint Subcommittee on 
Aquaculture of the National Science and Technology Council. The Joint 
Subcommittee on Aquaculture meets quarterly. Coordination with industry 
is accomplished through Industry Advisory Councils at each of the five 
centers, and through the National Aquaculture Industry Forum which 
meets quarterly in Washington, DC.
    Mr. Skeen. Please provide a table for the record showing the amount 
of funding received by each center for fiscal years 1996, 1997, and 
1998.
    [The information follows:]

                       CSREES AQUACULTURE CENTERS                       
------------------------------------------------------------------------
                                          Fiscal year; funding--        
                                 ---------------------------------------
             Center                                             1998    
                                      1996         1997     estimate \1\
------------------------------------------------------------------------
Northeastern....................      760,480      760,480       760,480
North Central...................      760,480      760,480       760,480
Southern........................      760,480      760,480       760,480
Tropical/Subtropical............      760,480      760,480       760,480
Western.........................      760,480      760,480       760,480
------------------------------------------------------------------------
\1\ Funding levels presented for fiscal year 1998 represent the         
  Administration's budget request.                                      

    Mr. Skeen. The centers annually support approximately 60 projects. 
What type of support is provided?
    Response. The centers provide funding for research, development, 
demonstration, and extension education in support of high priority 
needs for the regions' aquaculture industry. Centers projects are 
designed to directly impact aquaculture development in all states and 
U.S. territories. Programs ensure a region-wide team approach to 
projects jointly conducted by research, extension, government, and 
industry personnel.
    Mr. Skeen. Provide a few specific examples of these projects.
    Response. At the Northeastern Regional Aquaculture Center--NRAC, 
researchers and industry collaborators from Maryland, Massachusetts, 
New York, and Pennsylvania have been working together to reduce 
nitrogen, phosphorous, and solid waste from farmed salmon, rainbow 
trout, and striped bass production, by enhancing digestibility of 
feeds. Results show that increased efficiency of retention of dietary 
nitrogen and reduced waste discharge can be achieved in addition to 
reduced reliance on costly fish meal by dietary inclusion of corn 
gluten meal and soybean meal, with amino acid supplementation. 
Application of these research findings will improve the sustainability 
and environmental compatibility of a variety of aquaculture production 
systems.
    At the North Central Regional Aquaculture Center--NCRAC, scientists 
from Illinois, Iowa, Nebraska, and Wisconsin have perfected out-of-
season spawning of white bass and developed improved methods for white 
bass and striped bass sperm storage and transport. Many hybrid striped 
bass producers have adopted the out-of-season spawning protocol in 
order to more fully meet the global, year-round demand for these fish. 
The out-of-season spawning research also involved extensive studies on 
the use of human chorionic gonadotropin, hCG, to induce spawning. This 
research served as a springboard to initiate an hCG target animal 
safety study which is one of two pivotal studies needed to obtain FDA 
approval for its use in aquaculture. The sperm extender technology 
recently has been used for producing hybrids from parental stocks 
separated by nearly a thousand miles. This project has led to improved 
production efficiency and profitability in the national hybrid striped 
bass industry.
    At the Southern Regional Aquaculture Center--SRAC, cooperative 
research by scientists from Texas, Mississippi, Arkansas, Louisiana, 
Kentucky, South Carolina, Alabama, Georgia, and Tennessee will lead to 
substantial improvements in the profitability of aquaculture by 
reducing the cost of meeting the fish's nutritional requirements and 
increasing the efficiency of feed utilization. For example, dietary 
supplementation of several vitamins in practical diets for channel 
catfish may be reduced substantially without affecting fish growth or 
health, resulting in decreased feed costs which represent a 
considerable savings to the industry. Results indicate that 
manipulation of dietary protein sources also may provide considerable 
cost savings. Significant advancements also have been made on the 
nutritional requirements of baitfish and how to meet those requirements 
and most economically. This information will improve the efficiency and 
profitability of baitfish production. Information concerning 
nutritional requirements of hybrid striped bass and their utilization 
of feedstuffs also has been obtained to allow optimization of diet 
formulations that will reduce costs and improve production efficiency. 
Several of the improvements in diet formulations and feeding schedules 
already have been implemented in commercial production.
    At the Center for Tropical and Subtropical Aquaculture--CTSA, 
researchers have developed prevention and management strategies to 
minimize losses from diseases that have had severe negative impacts on 
production of several major farmed aquatic species in the Pacific 
region. Research has led to a better understanding of the epidemiology 
and control of bacterial diseases in Chinese catfish. Effective methods 
have been developed for decontamination of marine shrimp farms impacted 
by the introduction of viral pathogens. Practical on farm measures to 
mitigate the impact of Taura Syndrome virus on marine shrimp farms have 
also been developed.
    At the Western Regional Aquaculture Center--WRAC, scientists from 
California, Idaho, and Montana are cooperatively working to develop 
sturgeon broodstocks and establish reliable production of domestic 
seedstock for the aquaculture industry. Production of sturgeon has 
relied on the capture of reproducing adults from the natural 
environment, resulting in user conflicts, in an unreliable supply, and 
in uncertain quality of seedstock. These investigations have led to 
development of techniques for successful reproduction of captive 
broodstocks and enabled reliable production of small fish for grow-out 
as well as enabling the marketing of a new product from the industry, 
domestic caviar.
                           rangeland research
    Mr. Skeen. For fiscal years 1996 and 1997, $475,000 was 
appropriated for grants for rangeland research. What is the major 
thrust of this research and what has been accomplished?
    Response. The Nation's grazing lands include well over 750 million 
acres of rangelands. Rangelands are complex ecosystems that serve a 
multitude of beneficial uses--whether they are used to graze livestock 
as principal watersheds or as wildlife habitat and feedstock. 
Rangelands, combined with other grazing lands, comprise more than half 
the terrestrial United States. The research being conducted in this 
program addresses the establishment of beneficial plants on the 
rangeland and the management of those lands.
    In fiscal year 1997, the Cooperative State Research, Education, and 
Extension Service will award grants competitively to conduct applied 
research on rangelands targeted at very specific research problems.
    Recent accomplishments include:
    (1) Measurement of the impact of grazing on nutrient cycling in 
aspen and conifer soils. This study included determination of changes 
in soil properties as a function of depth and grazing treatment.
    (2) Bunchgrass is a generic term for a type of grass that dominates 
the world's savannahs and grasslands. Research under the Rangeland 
Research program is currently investigating the relationship of soil 
organic carbon and nitrogen in the immediate vicinity of bunchgrass 
growths. The effect of livestock grazing and annual burning will be 
evaluated on bunchgrass productivity.
    (3) Several species of shrubs have been identified for revegetation 
of severely eroded and degraded range. These shrubs are tenacious and 
hardy and will also provide winter feed for wildlife and livestock.
    (4) Research in Montana is being sponsored under this program to 
determine whether winter stress on cattle can be measured and predicted 
accurately.
    Mr. Skeen. Which institutions received these grants and in what 
amounts for fiscal years 1996 and 1997?
    [The information follows:]

------------------------------------------------------------------------
                                                     Fiscal years--     
                  Institution                  -------------------------
                                                    1996         1997   
------------------------------------------------------------------------
Colorado State University.....................      $79,999  ...........
Montana State University......................       59,941  ...........
Texas A&M University..........................      159,893  ...........
Utah State University.........................      151,702  ...........
                                               -------------------------
      Subtotal, Grants........................      451,535  \1\ $449,23
                                                                       1
SBIR..........................................        9,215       11,519
Biotechnology Risk Assessment.................            0            0
Federal Administration........................       14,250       14,250
                                               -------------------------
      Total...................................      475,000      475,000
------------------------------------------------------------------------
\1\ Fiscal Year 1997 awards have not been made, but should be awarded in
  mid July.                                                             

    Mr. Skeen. Your budget proposal for FY 1998 proposes to terminate 
this program. Yet, at the same time, the Natural Resources Conservation 
Service is implementing a grazing land initiative. How do you reconcile 
this seeming incongruity?
    Response. The Agricultural Research Service also conducts rangeland 
research. Our sense is that we can provide continuity in this area by 
fully utilizing the scope of programs within our mission area. 
Moreover, CSREES already has the Department's delegated authority for 
education and extension activities, and we anticipate providing such 
services in cooperation with NRCS on the grazing lands initiative as 
well as other conservation programs.

    [Clerk's note.--It is obvious from the response that the 
agency is unable to answer the question.]
                           alternative crops
    Mr. Skeen. The budget proposes to eliminate funding for canola and 
hesperaloe and, instead, provides a $650,000 program for advanced 
materials. How will this program work? Will the grants be awarded 
competitively? Will they be earmarked for specific projects?
    Response. Funding for research and development would be focused on 
industrial crops. Funding would be provided for a comprehensive program 
including agronomics, materials characterization, and product 
development/marketing, as required, for the crops that are selected. 
The choice of crops for industrial product development would be based 
on the potential for collaboration and leveraging with other agencies 
such as the Department of Defense and the Department of Energy and 
those agencies' level of activity in relevant materials science, 
technology, and/or product usage. Grants would be awarded competitively 
and administered as cooperative agreements that require cost sharing 
and allow maximum participation of the USDA departmental 
representative, as appropriate. Awards would be made on a competitive 
basis.
                            crambe/rapeseed
    Mr. Skeen. Would you please describe for the Committee the work 
being carried out on crambe and rapeseed under the Alternative Crops 
Program for fiscal years 1996 and 1997?
    Response. Crambe/rapeseed was not funded in fiscal years 1996 and 
1997, and all research conducted under the Alternative Crops Program 
has been completed.
    Mr. Skeen. Please list the locations where this work is carried 
out, including the funding levels for fiscal years 1996 and 1997.
    Response. No funding was appropriated in fiscal years 1996 and 
1997. A draft final report has been prepared by the Department of 
Agricultural Economics, University of Missouri.
                                 canola
    Mr. Skeen. Would you please describe for the Committee the work 
being carried out on canola under the Alternative Crops Program for 
fiscal year 1996?
    Response. Canola is an edible oilseed crop that is currently grown 
extensively in Canada. Canola oil is lower in saturated fat than any 
other commercially available food-grade vegetable oil and also 
addresses environmental concerns when used in industrial lubricant 
formulations; hence the market demand is increasing rapidly for both 
food and non-food products. Funding is provided to establish increased 
acreage in the U.S. which is approaching a total of 500,000 acres. 
Research is focused on expanding and improving production practices for 
six regions across the country.
    Mr. Skeen. Please list the locations where this work is carried 
out, including the funding by location.
    Response. Funding for canola research was provided to the six 
universities which head the six regions. Proposals were submitted to 
the regional committees made up of the states represented by each 
institution, and awards were made based on expertise and budget to 
address agronomic issues relevant to the region. Each region is 
represented at the following institutions:

University of Arkansas........................................   $78,813
University of Georgia.........................................    78,812
University of Montana.........................................    78,813
Southern Illinois University..................................    78,813
Kansas State University.......................................    78,812
North Dakota State University.................................    78,812

                               hesperaloe
    Mr. Skeen. Would you please describe for the Committee the work 
being carried out on hesperaloe under the Alternative Crops Program in 
fiscal year 1996?
    Response. Hesperaloe is a fiber crop that offers a domestically 
produced source of hard fibers currently processed from abaca, sisal, 
and other imported tropical crops. Research continues on agronomics, 
commercial-scale stand establishment and optimization of harvest and 
processing equipment. The process of obtaining herbicide registration 
for Hesperaloe has begun. Product development is currently being 
conducted by a commercial specialty paper company.
    Mr. Skeen. Where is this work carried out?
    Response. This research is conducted at the University of Arizona.
                       rural development centers
    Mr. Skeen. How much in state, local, and private funding have the 
centers been able to generate?
    Response. Non-federal funds available to the Regional Centers for 
Rural Development were: fiscal year 1991, $1,117,000; fiscal year 1992, 
$790,000; fiscal year 1993, $900,000; fiscal year 1994, $776,591; and 
fiscal year 1995, $710,050; for a collective total of $4,293,641 across 
the five years for which there are complete data.
         sustainable agriculture research and education program
    Mr. Skeen. How were the funds for the Sustainable Agriculture 
Research and Education (SARE) Program used, by location, for fiscal 
years 1995, 1996, and 1997. Include with that information a table 
showing how much funding went to each SARE location.
    Response. The Sustainable Agriculture Research and Education 
Program and the Training Programs for Chapters 1 and 3 were used to 
support research, education, and training projects recommended by the 
four SARE Regional Administrative Councils and approved by CSREES. 
Table 1 shows FY's 95-97 funding. Project proposals funded for FY 96 
are presented in Table 2. At this time, proposals are being solicited 
for review under FY 1997 guidelines. Therefore, award data for FY 1997 
is not yet available.

TABLE 1.--COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE--
SUSTAINABLE AGRICULTURAL RESEARCH AND EDUCATION PROGRAM FISCAL YEAR 1995-
                              1997 FUNDING                              
                        [In thousands of dollars]                       
------------------------------------------------------------------------
                                                   Fiscal years--       
                                           -----------------------------
                                              1995      1996    1997 \2\
------------------------------------------------------------------------
Cooperative Agreements/Grants Chapter 1...    $5,438    $6,071  ........
Cooperative Agreements/Grants Chapter 3...     2,319     2,632  ........
Agricultural in Concert Projects \1\......     1,400       103  ........
State Training Coordination...............       609     1,232  ........
Regional Administration...................       814       828  ........
Outreach Initiatives......................       N/A       N/A  ........
National Initiatives......................       456       100  ........
Federal Administration....................       539       545  ........
                                           -----------------------------
      SARE/extension--Total...............    11,575    11,511   11,309 
------------------------------------------------------------------------
\1\ Agriculture in Concert with the Environment (ACE) is a joint grant  
  program of the U.S. Environmental Protection Agency and U.S.          
  Department of Agriculture. ACE grants help farmers accomplish two key 
  goals: reducing risk of pollution from pesticides and soluble         
  fertilizers, and safeguarding environmentally sensitive areas such as 
  critical habitat and wetlands.                                        
\2\ Proposals have been solicited for FY 1997. Therefore, award data are
  not available for FY 1997.                                            


    TABLE 2.--FISCAL YEAR 1996 SUSTAINABLE AGRICULTURE RESEARCH AND EDUCATION AND EXTENSION PROGRAM PROPOSALS   
                                     RECEIVED AND PROJECTS FUNDED BY REGION                                     
----------------------------------------------------------------------------------------------------------------
                                                               N. East  Southern  N. Central   Western    Total 
----------------------------------------------------------------------------------------------------------------
Proposals received..........................................        67        41          39        34       181
SARE projects funded........................................        20        10          17        15        62
Proposals received..........................................       103        37         144        96       380
Farmer/grant-funded.........................................        42        11          34        31       118
Extension projects received.................................        37        17          27        10        91
Extension projects funded...................................        12         9          10        10        41
----------------------------------------------------------------------------------------------------------------

    Mr. Skeen. Please list the four regional councils, their 
membership, and their annual budgets.
    Response. The FY 1996 annual budget for each region was $2,517,250. 
The four regional councils and their membership, are as follows:
                          north central region
Name/Affiliation
John Allen, Lincoln, NE; University of Nebraska-Lincoln, Extension 
        1998.
Molly Bartlett, Hiram, OH; Silver Creek Farm, Private 1997.
Ben Bartlett, Chatham, MI; Upper Peninsula Experiment Station, 
        Administrative Council.
Gordon L. Bultena, Ames, IA; Iowa State University, Research 1997.
Birl Lowery, Madison, WI; University of Wisconsin-Madison, Research 
        1999.
Ron Macher, Clark, MO; Administrative Council, Private 2000.
Alan Schlegel, Tribune, KS; Kansas State University, Research 1999-
        Executive, Technical Committee Liaison.
Ann Sorensen, Concord, NE; Center for Ag in the Environment, Private 
        1998.
Bill Wilcke, St. Paul, MN; University of Minnesota, Extension 1999.
Doug Zalesky, Rapid City, SD; West River Research & Extension Center, 
        Extension 1999.
Richard Leep, Chatham, MI; Michigan State University, University 1997.
Tom Guthrie, Delton, MI; Past Chair Executive Committee, Private 1997.
Jerry DeWitt, Ames, IA; Iowa State University, CSREES Chapter 3 
        Liaison.
Elbert Dickey, Lincoln, NE; University of Nebraska-Lincoln, NCR SARE 
        Extension Rep.
Adrianna Hewings, Peoria, IL; USDA/ARS, Executive 1997.
Mary J. Hanks, St. Paul, MN; Minnesota Department of Agriculture, State 
        Agency Executive Committee/1997.
Frederick W. Madison, Madison, WI; Wisconsin Geo. & Natural History 
        Survey, Adm. Council Chair Executive 1997.
Robert Myers, Washington, D.C.; USDA/CSREES.
Dave Swaim, Crawfordsville, IN; Swaim & Associates Agronomic, 
        Agribusiness Executive Committee/1998.
Harry Wells, Washington, D.C.; U.S. Environmental Protection Agency.
Oran Hesterman, East Lansing, MI; Michigan State University, 
        Foundation.
Donald Pettit, Madison, WI; Natural Resources Conservation Service.
                            northeast region
Name/affiliation
Obie Ashford, Chester, PA; NE National Tech Center-NRCS.
Herbert Cole, University Park, PA; Pennsylvania State University.
Richard Conklin, Fort Ann, New York; Farmer.
E. Demisle, Princess Anne, MD; University of Maryland-Eastern Shore.
William Doepkens, Gambrills, MD; Farmer.
Julia Freedgood, Northampton, MA; American Farmland Trust.
Elizabeth Henderson, Rose, New York; Farmer.
Samuel Kaymen, Londonderry, NH; Farmer.
Charles Kruegar, University Park, PA; Pennsylvania State University.
Fred Magdoff, Burlington, VT; University of Vermont.
Robert Myers, Washington, D.C.; USDA/CSREES.
Shanna Ratner, St. Albans, VT; Yellow Wood Assoc. Inc.
Eero Ruutila, Wilton, NH; Farmer.
Neill Schaller, Greenbelt, MD; Henry A. Wallace Inst.
Frank Green, Philadelphia, PA; USDA/ARS.
David Smith, Ithaca, NY; Cornell University.
Jon Turmal, Montpelier, VT; Vermont Department of Agriculture, Food and 
        Marketing.
Eric Vowinkel, West Trenton, NJ; U.S. Geological Survey.
Harry Wells, Washington, D.C.; U.S. Environmental Protection Agency.
                            southern region
Name/affiliation
Adell Brown, Baton Rouge, LA; Southern University.
D.C. Coston, Stillwater, OK; Agricultural Experiment Station, Oklahoma 
        State University.
David Foster, Little Rock, AR; Cooperative Extension.
Phil Greeson, Norcross, GA; U.S. Geological Survey.
Alex Hitt, Graham, NC; Farmer/Producer.
James Horne, Poteau, OK; Kerr Center for Sustainable Agriculture.
Larry Jeffries, New Castle, KY; Farmer.
Steve Carmichael, Atlanta, GA; NRCS/EPA, Liaison.
Byrce Malone, Baton Rouge, LA; Louisiana Dept. of Agriculture & 
        Forestry.
Lorna McMahon, Tiptonville, TN; Agribusiness.
Robert L. Myers, Washington, D.C.; USDA/CSREES.
Andy Clark, Beltsville, MD; National Agriculture Library.
Charles A. Onstad, College Station, TX; USDA/ARS.
Oscar P. Butler, Orangeburg, SC; South Carolina State University.
Jerry Pennick, Atlanta, GA; Federation of Southern Cooperatives.
La Rhea Pepper, O'Donnell, TX; Agribusiness, Organic Cotton Growers.
Tom Trantham, Pelzer, SC; Farmer/Producer.
Gene Turpin, Lebanon, KY; Farmer.
Donald Voth, Fayetteville, AR; University of Arkansas.
Harry Wells, Washington, D.C.; U.S. Environmental Protection Agency.
Kim Kroll, College Park, MD; Sustainable Agriculture Programs.
David Nelson, Afton, MN; Nelson, Whiteford & Associates.
                             western region
Name/affiliation
Jerry DeWitt, Ames, Iowa; Iowa State University.
Jim Dyer, Carbondale, CO; Dyer Environmental Consulting.
Robert D. Heil, Ft. Collins, CO; Colorado State University.
Valerie J. Kelly, Portland, OR; U.S. Geological Survey.
Robert Myers, Washington, D.C.; USDA/CREES.
Ralph Nave, Albany, CA; USDA/ARS.
Jerry Schickendanz, Las Cruces, NM; New Mexico State University.
Larry Thompson, Boring, OR; Thompson Farms.
Harry Wells, Washington, D.C.; U.S. Environmental Protection Agency.
Wilbur Wuertz, Coolidge, AZ; Rancher.
Ray Bernal, Tucson, AZ; Grower/Agribusiness, Native American/Nations.
Dennis Teranishi, Honolulu, HI; Ag Consultant/Organic Agribusiness, 
        Pacific Islands.
Kai Siedenburg, Santa Cruz, CA; California Sustainable Ag. Working 
        Group.
Mike Somerville, Portland, OR; State Conservationist, NRCS.

    Mr. Skeen. Please list the administrative or overhead costs of each 
regional council.
    Response. The administrative overhead for the SARE programs for FY 
96 are as follows:

------------------------------------------------------------------------
                                         Salaries   Benefits     Total  
------------------------------------------------------------------------
SARE Chapter 1:                                                         
    North Central Region..............    $84,986    $19,344    $104,330
    Northeastern Region...............     83,755     31,373     115,128
    Southern Region...................    114,581     32,949     147,530
    Western Region....................    123,507     46,933     170,440
Extension Chapter 3:                                                    
    North Central Region..............     50,462     16,009      66,471
    Northeastern Region...............     54,243     18,210      72,453
    Southern Region...................     32,766      7,185      39,951
    Western Region....................     77,128     17,564      94,692
------------------------------------------------------------------------

    Mr. Skeen. Please provide for the record the USDA funds related to 
sustainable agriculture, by agency, for fiscal years 1996, 1997, and 
1998.
    [The information follows:]

[Page 254--The official Committee record contains additional material here.]


               small business innovation research program
    Mr. Skeen. The Small Business Innovation Research (SBIR) Program 
was designed to strengthen the role of small innovation firms in 
federally funded research and development. What is the criteria used to 
define a small business?
    Response. The criteria used to define a small business for purposes 
of eligibility to the SBIR program are that the business (1) is 
organized for profit and independently owned or operated, (2) has its 
principal place of business located in the United States and is at 
least 51 percent owned, or in case of a publicly-owned business, at 
least 51 percent of its voting stock is owned, by United States 
citizens or lawfully admitted permanent resident aliens, (3) has a 
number of employees not exceeding 500, including full-time, part-time, 
temporary, or other, in all affiliated concerns owned or controlled by 
a single parent concerns, and (4) meets all other regulatory 
requirements outlined in 13 CFR Part 121.
    Mr. Skeen. For the record, please provide a table that shows the 
amount of funding for each of the past three years for the Small 
Business Innovation Research Program.
    [The information follows:]

Total Funding for the Small Business Innovation Research Program

Fiscal year 1995..............................................$9,289,107
Fiscal year 1996.............................................. 9,058,554
Fiscal year 1997..............................................10,941,752

    Mr. Skeen. How much is set-aside from ARS for this program?
    Response. The total amount of funds that are set-aside for ARS for 
the Small Business Innovation Research Program for the past three years 
are: $671,960 in fiscal year 1995; $805,000 in fiscal year 1996; and 
$753,000 in fiscal year 1997.
              native american institutions endowment fund
    Mr. Skeen. Last year the Congress provided $4.6 million for the 
Native American Institutions Endowment Fund. What interest rate are 
these funds earning in fiscal year 1997 and how have funds been 
distributed to universities to date?
    Response. The current interest rate for the endowment fund is 6.88 
percent. Interest earned on the funds invested in FY 1996 has been 
distributed as follows:

        Institution                                               Amount
Bay Mills Community College, MI.........................       $2,657.68
Blackfeet Community College, MT.........................        4,143.10
Cheyenne River Community College, SD....................        2,493.92
College of Menominee Nation, WI.........................        2,592.56
Crownpoint Institute of Technology, NM..................        2,973.59
D-Q University, CA......................................        2,501.66
Dull Knife Memorial College, MT.........................        2,428.80
Fond du Lac Community College, MT.......................        1,867.26
Fort Belknap College, MT................................        2,668.64
Fort Berthold Community College, ND.....................        2,586.76
Fort Peck Community College, MT.........................        3,610.57
Haskell Indian Nations University, MT...................        6,648.46
Institute of American Indian Arts, NM...................        2,573.86
Lac Courte Oreilles Ojibwa Community College, WI........        3,529.33
Leech Lake Tribal College, NM...........................        2,430.09
Little Big Horn College, MT.............................        3,238.57
Little Hoop Community College, ND.......................        2,293.41
Navajo Community College, AZ............................       13,123.34
Nebraska Indian Community College, NE...................        2,738.33
Northwest Indian College, WA............................        5,137.90
Oglala Lakota College, SD...............................        5,886.41
Salish Kootenai College, MT.............................        6,296.45
Sinte Gleska University, SD.............................        4,990.26
Sisseton Wahpeton Community College, SD.................        2,409.46
Sitting Bull College, ND................................        2,916.14
Southwest Indian Polytechnic Institute, NM..............        5,436.40
Stone Child Community College, MT.......................        3,139.92
Turtle Mountain Community College, ND...................        4,669.19
United Tribes Technical College, ND.....................        3,134.77
                    --------------------------------------------------------
                    ____________________________________________________
    Total Payments to Institutions......................      111,116.83
    Administration......................................        4,629.87
                    --------------------------------------------------------
                    ____________________________________________________
          Grand total...................................      115,746.87
                    ========================================================
                    ____________________________________________________
           usda-hispanic education partnership grants program
    Mr. Skeen. For the record, provide a list showing which 
universities and how much each received from this account.
    Response. The Hispanic-Serving Institutions Education Grants 
Program is a new program for fiscal year 1997. The deadline for receipt 
of applications was March 17, 1997. The peer review panel meeting is 
scheduled for the week of June 2-6 and awards will be announced by 
September 1, 1997.
    Mr. Skeen. Are institutions required to cost share or match funds 
under this program?
    Response. No. The Department encourages, but does not require, 
matching funds from non-Federal sources for this program.
                       capacity building program
    Mr. Skeen. How many students were supported by the Capacity 
Building Program in fiscal year 1996? How many are anticipated in 
fiscal year 1997?
    Response. In fiscal year 1996, 155 students were supported by this 
program. Funding decisions for fiscal year 1997, have not yet been 
made. Proposals have been requested and awards should be made by the 
end of July 1997.
    Mr. Skeen. Provide a breakout for fiscal years 1995, 1996, and 1997 
of how much was spent in direct support of students and how much was 
spent on scientific instrumentation purchases.
    Response. In fiscal year 1995, direct support of students provided 
through 1890 Institutions via the Capacity Program was $525,563. In 
fiscal year 1996, it was $532,886. Scientific instrumentation purchases 
totaled $1,353,211 in fiscal year 1995, and $1,726,080 in fiscal year 
1996. Fiscal year 1997 decisions have not yet been made.
    Mr. Skeen. How many students are now working in the field of food 
and agriculture science and business?
    Response. Employment is currently estimated at 2,008,245 for 
graduates with bachelors, masters, doctorate, and first professional 
degrees in the food and agricultural sciences and closely allied 
fields. Employment is projected to increase to 2,112,816 by the year 
2000. These employment opportunities include workers in 84 occupations 
throughout 129 industries. The largest clusters of jobs by 
specialization are in agricultural production; science and engineering; 
and marketing, merchandising, and sales.
                            higher education
    Mr. Skeen. How many doctoral students and masters fellows are being 
supported with the $33,500,000 provided for fiscal year 1996.
    Response. The fiscal year 1996 National Needs Graduate Fellowship 
Grants Program is supporting the recruitment and three years of 
education for 64 doctoral fellows at 20 institutions in 19 states. 
Funds were not sufficient to allow for support of masters fellowships.
    Mr. Skeen. How many applications for the challenge grants have you 
received in fiscal year 1997.
    Response. A total of 117 applications have been received for the 
fiscal year 1997 competition.
                  pesticide impact assessment program
    Mr. Skeen. The National Agricultural Pesticide Impact Assessment 
Program was established in 1976 as a cooperative state-Federal effort. 
How much has been spent to date in the program in both Federal and 
state funds?
    Response. Under the CSREES National Agricultural Pesticide Impact 
Assessment Program--NAPIAP, Federal funds have been appropriated as 
follows: Fiscal years 1977 through 1981, $1,810,000 per year; fiscal 
years 1982 through 1985 $2,069,000 per year; fiscal years 1986 through 
1988 $1,968,000 per year; fiscal year 1989, $2,218,000; fiscal year 
1990, $2,437,000; fiscal years 1991 through 1993, $2,968,000 per year; 
fiscal year 1994, $1,474,000; and fiscal years 1995 through 1997, 
$1,327,000 per year. Total appropriations to date are $42,244,000. The 
exact contribution of each state has not been reported. The Federal 
program funds provided by CSREES have been used by the states to 
partially defray their costs of staffing a Pesticide Impact Assessment 
Program State Liaison Representative. The remainder of those costs, 
which include salaries, facilities, clerical support, and supplies, are 
borne by the states. State estimates of their contributions to this 
program have ranged from 3 to 6 times the Federal dollars that have 
been provided.
    Mr. Skeen. What has been accomplished to date through this program?
    Response. Research conducted under NAPIAP discovers, gathers, 
publishes, and distributes information relating to the use and 
effectiveness of pest management alternatives essential to the 
maintenance of U.S. agricultural crops and livestock production. These 
data involve valuating the biologic and economic impact and 
consequences of restricting the use of key pesticides either through 
voluntary cancellations or regulatory action. NAPIAP data augments data 
compiled by USDA's National Agricultural Statistics Service--NASS--by 
conducting commodity-based assessments on minor or small acreage crops. 
To insure that there is no duplication of effort, NAPIAP coordinates 
information collection with NASS and concentrates its pest management 
inquiring on commodities not surveyed by NASS. NAPIAP has been an on-
going research effort whose original goal in 1977 was to gather data to 
provide comprehensive assessments documenting what would be the impact 
on agriculture if certain pesticides would no longer be available. A 
Federally-coordinated network of state scientist contacts was developed 
in the intervening years as broader and more environmentally-
enlightened goals evolved within this program. Today, the NAPIAP goals 
are defined in its strategic plan as: in collaboration with USDA, EPA, 
and land-grant partners, to focus activities on collecting and 
delivering high quality, science-based pest management information for 
use in the regulatory process; and maintain and enhance a strong 
partnership between USDA and the land-grant system to continue the 
interactive flow of vital pest management information between USDA, the 
regulatory community, and production agriculture.
    Mr. Skeen. Assessment information on benefits of pest control 
agents are made available through the program. How is this information 
disseminated? Who are the recipients of this information? Is this 
information distributed on a request basis only?
    Response. The National Agricultural Pesticide Impact Assessment 
Program--NAPIAP--distributes unsolicited copies of its assessment 
reports to the State Liaison Representative in each state/territory, 
members of the NAPIAP Board, the U.S. Environmental Protection Agency, 
and to appropriate commodity groups. Summaries of these reports are 
disseminated to approximately 2,000 recipients of the Re-registration 
Notification Network newsletter, which includes an address to request a 
complete report. Request for copies of complete reports are filled by 
the Pesticide Impact Assessment Program staff. Printed copies of each 
study are submitted to the National Agriculture Library for cataloging 
and shelving. Assessment of broad interest, such as the Corn and 
Soybean assessment and the Phenoxy Herbicide assessment, are mounted as 
complete documents on the World War Web making them available to 
scientist and other throughout the world.
                         improved pest control
    Mr. Skeen. For each of the items covered under the improved pest 
control program, please provide a breakout of each item and where the 
funds for each was spent in fiscal year 1996, and 1997.
    Response. The following tables provide a breakout of the Improved 
Pest Control Program for funds awarded in FY 96 and FY 97. Funds 
awarded in FY 97 are year-to-date since all awards have not been made.

[Pages 258 - 260--The official Committee record contains additional material here.]


    Mr. Skeen. The budget request includes significant increases for 
most of these projects. What will you do differently with these funds?
    Response. New funding is needed to move forward with several new 
and expanded team-based, multidisciplinary field research projects. 
Research will focus on implementation of biologically-based Integrated 
Pest Management--IPM--in regions where tough pest problems continue to 
cause major losses to growers, threaten the competitiveness of U.S. 
food industries, and pose unacceptable risks to the environment and 
workers.
    These IPM projects will be carried out through a participatory 
process that has involved more than 4,000 farmers around the country 
since 1994. Grower-interest in IPM is at an all-time high. More than 70 
organizations are now participating in the Environmental Protection 
Agency's Pesticide Environmental Stewardship Program, and this number 
continues to grow. We are requesting this new funding so that we can 
expand research and education activities needed to address the science 
and technology issues that will emerge as growers progress along the 
IPM continuum toward more biologically-based IPM systems. Such issues 
might include: The incorporation of newly developed technologies, such 
as transgenic plants and variable rate technology, into IPM systems; 
the development and dissemination of efficient monitoring technologies 
and decision support systems, including economic thresholds; 
assessments of the economic and environmental impacts of IPM practices 
and systems; refinement of cropping systems to minimize pest abundance; 
and the development and implementation of pest management alternatives, 
including new biological control approaches and techniques.
    The need for this new effort is perhaps greatest in a number of 
high-value fruit and vegetable crops that are likely to be impacted 
significantly by implementation of the Food Quality Protection Act of 
1996. Based on the timetable for implementation of the Food Quality 
Protection Act, growers will need practical, proven alternatives to 
several important pesticides within the next four or five years. For 
this reason, the Department feels that it is imperative to increase 
investments in IPM research and extension education activities.
    The request for increases in funding for the IR-4 program will help 
expedite the registration process by accelerating the development of 
field residue chemistry and environmental fate data for a large number 
of safer, reduced risk biopesticides moving through EPA registration 
channels. For the foreseeable future, many farmers will continue to 
rely on access to both synthetic and biopesticides to save crops in 
situations where biointensive IPM systems do not work as intended. 
Expanding the supply of reduced risk biopesticides will keep farming 
operations profitable, while also greatly reducing the risks of 
pesticide use.

[Pages 262 - 263--The official Committee record contains additional material here.]


                              peer panels
    Mr. Skeen. How much did CSREES pay out in honoraria and travel for 
peer panels in fiscal year 1996? What is the budget for fiscal year 
1997?
    Response. In fiscal year 1996, honoraria costs were $188,100 and 
travel costs were $520,124. In fiscal year 1997, estimated costs for 
honoraria and travel are $281,000 and $773,000 respectively. Fiscal 
year 1997 is the first year to the Fund for Rural America, and peer 
panel costs reflect this new program.
                        buildings and facilities
    Mr. Skeen. For the record, please provide a list of all projects 
and tell us the status of each, including the amount that has been 
appropriated to date and the amount of Federal funds needed to complete 
the project. This list should include all feasibility studies as well.
    [The information follows:]

[Pages 265 - 268--The official Committee record contains additional material here.]


                          extension activities
    Mr. Skeen. How many Extension agents are currently located at the 
state and county levels?
    Response. There are approximately 9,543 County Agent positions 
within a total of 16,993 Extension personnel. Aside from including 
agent positions, the total also includes specialists and support staff.
    Mr. Skeen. In last year's hearing record you provided a table 
showing the total Extension funding, by state, for fiscal year 1995. 
Would you please provide this same information for fiscal year 1996.
    [The information follows:]

[Page 270--The official Committee record contains additional material here.]


                       integrated pest management
    Mr. Skeen. The Administration has set a goal for implementation of 
Integrated Pest Management, IPM, on 75 percent of crop acres by the 
year 2000. What percentage of crop acres are currently under IPM? Give 
us a status report on this initiative.
    Response. Much work has been done over the last year, both inside 
USDA and in the private sector, to refine the methodology used to 
measure IPM adoption. Consensus has emerged that IPM systems exist 
along a continuum, much like the one set forth by the Department in the 
1994 report Adoption of Integrated Pest Management in the United 
States, which was published by the Economic Research Service. This 
report concluded that about one-half the nation's crop acreage is now 
under IPM, and that the level of implementation depends on the crop, 
the region, and the pest problem. The goal of the National IPM 
Initiative is to increase the number of farmers using basic levels of 
IPM and to help IPM-users progress along the IPM continuum 
incrementally toward biologically based IPM systems.
    Measuring IPM adoption along the continuum is a complex and 
resource-intensive task. The Department's National Agricultural 
Statistics Service is currently conducting national surveys of major 
field crops and selected fruits and vegetables to measure levels of IPM 
adoption, and the results of the first of these surveys will be 
available in early 1998. Much more work is needed to refine and 
implement a sound measurement methodology. Since the ERS report was 
published in 1994, additional studies have been completed by Department 
analysts and outside experts, and most support ERS' conclusion that 50 
percent or more of the nation's crop acreage is currently managed under 
at least a ``low'' level of IPM. However, several analyses, including 
the one published by Consumers Union in Pest Management at the 
Crossroads, have concluded that the 75 percent adoption goal has nearly 
been achieved in many crops if ``low'' level IPM is counted, but that 
considerable more work is needed to meet the goal if only acres in the 
``medium'' and ``high'' zones along the IPM continuum are counted. We 
believe that an accelerated effort is needed, and warranted, to help 
growers move incrementally along the IPM continuum, thereby reducing 
reliance on high-risk pesticides and enhancing the sustainability of 
farm operations. Additional work is also needed to refine and apply 
measurement methodologies.
    Mr. Skeen. Pest Management consists of two components, integrated 
pest management and cotton pest management. Cotton pest management 
focuses on cotton insects and is an earmarked program in 11 states. How 
much was provided for cotton pest management activities in fiscal years 
1995 and 1996 and how was this funding used? What are the estimates for 
fiscal year 1997?
    Response. A separate IPM program for cotton is needed because of 
the severity of yield losses caused by the boll weevil and other cotton 
pests and the tremendous economic impact of these losses to rural 
communities in the South. The severity of losses caused by cotton pests 
may result in extremely high rates of pesticide use if conventional 
pest management practices are used. Funding for this program has 
remained level at $1,464,000 for fiscal years 1995, 1996 and 1997, and 
is allocated to 11 cotton producing States by a formula. The formula 
distributes the funds on the basis of National Cotton Council 
statistics on planted cotton acreage with 4.5 percent or more losses 
due to boll weevil infestation, value and location of losses caused by 
the boll weevil in 1974, and the percent of total U.S. cotton 
production based on 1973 crop data. The Cotton Pest Management Program 
permits Cooperative Extension to develop and deliver education programs 
to cotton growers, grower organizations, private consultants, and other 
end-users. There are many successful outcomes attributable to this 
investment of public resources. For example, the fiscal year 1996 
annual report indicates an insecticide resistance monitoring program 
conducted by Louisiana State University and the Cooperative Extension 
Service resulted in a reduction of pesticide use that saved Louisiana 
cotton farmers as much as $45 per acre. The fiscal year 1996 
Mississippi annual report indicates the cotton IPM program conducted by 
the Cooperative Extension Service is estimated to have saved growers 
$40 per acre in reduced control costs while increasing yields by $50 
per acre. In Texas, Cooperative Extension has helped Williamson County 
cotton growers implement a series of biointensive IPM practices to 
increase net profits by $8 per acre, for a county-wide net economic 
impact of $216,626 in 1995.
                     pesticide applicator training
    Mr. Skeen. Since the mid-1970's the Environmental Protection 
Agency, EPA, has been providing USDA with funding for the Pesticide 
Applicator Training program. In fiscal year 1995 you received 
$2,080,000 for the program and an additional $575,000 for special 
projects. How much did USDA receive in fiscal year 1996? Do you 
anticipate receiving any funds in fiscal year 1997?
    Response. In fiscal year 1996, USDA received $1,500,000 for the 
program and an additional $178,000 for special projects. We expect to 
receive $1,700,000 from EPA in fiscal year 1997.
    Mr. Skeen. You state in the budget justifications that EPA is 
making a joint request for a funding increase in its budget for the 
Pesticide Applicator Training program. What is the EPA funding level 
for this program in fiscal year 1997 and what is the budget request for 
fiscal year 1998?
    Response. In fiscal years 1997 and 1998 the EPA budget contains 
$1.88 million for the Pesticide Applicator Training Program.
                  pesticide impact assessment program
    Mr. Skeen. How much of the pesticide impact assessment funding is 
awarded competitively and how much is distributed on a formula basis?
    Response. In fiscal year 1996, $3.0 million were allocated on a 
formula basis to the states/territories to provide partial support for 
their participation in the National Pesticide Impact Assessment 
program. The PIA allocation funding is distributed through a non-
competitive process according to an algorithm based upon each state's 
proportion of number of farms, farm sales plus on-farm use value, 
pesticide sales, and minor crop production. The Pesticide Impact 
Assessment program also provided $250,000 to each of four regions, for 
a total of $1.0 million, for regional competitive grants programs to 
collect benefit related data which can be used by the Environmental 
Protection Agency's Office of Pesticide Programs to make informed re-
registration decisions regarding agricultural pesticides.
                               agrability
    Mr. Skeen. How many requests for AgrAbility projects did you 
receive and how many did you fund in fiscal year 1996? How many 
requests have you received to date this fiscal year?
    Response. There were 20 requests for funding in fiscal year 1996, 
and we funded 19 AgrAbility projects. There was no request for new 
state or regional projects in fiscal year 1996. This fiscal year we 
received 14 applications to continue projects that are eligible for 
renewal and 16 applications for new projects. We requested applications 
for new projects this fiscal year and will be able to fund four new 
projects.
                         food safety initiative
    Mr. Skeen. In fiscal year 1996, Congress provided $2,438,000 for 
the food safety initiative. Competitive awards were to be disbursed in 
July 1996. This is ten months after the start of the fiscal year. Why 
does it take so long to disburse these funds?
    Response. Since the inception of the Food Safety and Quality 
Initiative Program, awards have been made in July. Proposal 
applications are received in April, applications are reviewed by panels 
in May, awards are announced in June, and funds are allocated in July.
    Mr. Skeen. How much of this funding was made available to states on 
a project proposal basis? How many proposals were funded with this 
amount? What were these proposals?
    Response. Of the $2,438,000 Congress provided for the food safety 
initiative in fiscal year 1996, $2,242,960 were made available to 
states on a project proposal basis. A total of 63 projects were funded. 
A list of the funded projects follows:

[Pages 274 - 276--The official Committee record contains additional material here.]


         sustainable agriculture research and education program

    Mr. Skeen. How many sustainable agriculture projects were funded 
through the Sustainable Agriculture Research and Education program in 
fiscal year 1996? How many are planned for fiscal year 1997?
    Response. In fiscal year 1996 the Sustainable Agriculture Research 
and Education Program funded 221 projects out of 883 proposals 
submitted. In FY 1997, the number of projects funded will be based on 
the quality of proposals submitted. Proposals are merit-reviewed, and 
only the highest quality proposals are funded.
                         youth at risk program
    Mr. Skeen. How many programs and projects were funded under the 
Youth-at-Risk program in 1996, and how many are proposed to be funded 
in 1997?
    Response. In fiscal year 1996, 63 projects were funded under the 
Children, Youth and Families at Risk Program. These projects fall under 
competitive categories that include Youth at Risk, Children, Youth and 
Family Networks and State Strengthening Projects. Forty-seven of the 63 
projects funded were renewals of projects awarded competitively in 
fiscal year 1992 through 1995.
    Of the 50 projects proposed for funding in fiscal year 1997, 38 are 
renewals of projects that were funded in fiscal years 1993 through 
1996.
    Mr. Skeen. Please update the table that appears on page 350 of last 
year's hearing record showing the funding levels for each of the 
Centers that support programs for at-risk youth and families to include 
fiscal years 1996 and 1997.
    Response. The following table indicates the funding levels for each 
Center or Network.

                              CHILDREN, YOUTH AND FAMILY NETWORKS FUNDED BY CSREES                              
----------------------------------------------------------------------------------------------------------------
                                      Federal     Non-     Federal     Non-       Partner                       
              Network                   1996     federal     1997     federal  universities     Fiscal manager  
----------------------------------------------------------------------------------------------------------------
Child Care.........................   $175,000   $52,500   $175,000   $52,500         14     Kansas State       
                                                                                              University.       
Science & Technology...............    175,000    52,500    175,000    52,500         12     Michigan State     
                                                                                              University.       
Family Resiliency..................    175,000    52,500    175,000    52,500         40     Iowa State         
                                                                                              University.       
Health.............................    175,000    52,500    175,000    52,500         29     North Carolina     
                                                                                              State University. 
Collaboration......................    175,000    52,500    200,000    60,000         21     Ohio State         
                                                                                              University.       
----------------------------------------------------------------------------------------------------------------

    Mr. Skeen. You are requesting an increase of $2,146,000 for the 
Youth-At-Risk program of which $1,700,000 will be earmarked for the 
1890 land-grant colleges and Tuskegee University. Describe in further 
detail how this money will be used.
    Response. Since 1991, USDA has received an annual Congressional 
appropriation to expand Extension programs to reach at-risk children 
and families. Through this Children, Youth, and Families at Risk 
Initiative, the Cooperative State Research, Education and Extension 
Service has supported community-based projects in over 400 communities 
in 49 states and 3 territories. County Extension staff have formed 
collaborations with other community agencies and with citizens to 
create programs that meet critical needs of children and families.
    This Children, Youth and Families at Risk appropriation has been 
distributed through a competitive application and review process to 
Cooperative Extension Services in 1862 Land-Grant Universities. Since 
only 1862 Land-Grant Universities have been eligible to apply, they 
were urged to partner with 1890 Universities. Changes in the 1996 Farm 
Bill allow 1890 institutions to apply for these programs--if there is 
new or increased funding over the FY 1995 level. The funding will be 
awarded via the competitive peer review process.
    Increasing the appropriation and, thus, opening the Children, 
Youth, and Families at Risk Initiative to 1890 Universities, would 
provide them the opportunity to support community-based programs for 
children, youth and families at risk. 1890 Universities will benefit 
from State Strengthening Projects which include funding for statewide 
staff development; for direct funding to community programs designed to 
address needs identified by youth and adult citizens; and for training 
and technical assistance to community programs. State Strengthening 
Projects include funding for electronic connectivity to provide 
computers, software, Internet connections, and technology training for 
staff as well as youth and adult participants in community programs. 
This electronic connectivity could insure active involvement of the 
1890 universities in collaborative sharing of research and educational 
resources of the Children, Youth and Family Networks also funded by 
this initiative.
    With Children, Youth and Families at Risk funding for 1890 
Universities, educational resources of the entire University Extension 
System could be made available to people and communities least likely 
to have access. 1890 universities would be able to support prevention 
education programs to met critical needs of children and families. Some 
types of programs would include drug and alcohol prevention, computer 
literacy, teen pregnancy, child abuse, job training, parent education, 
prenatal care education, new parent support, family financial planning, 
and career counseling.
                                 efnep
    Mr. Skeen. What percent of the total EFNEP funds are devoted to 
families on food stamps, the WIC program, or other federal food 
assistance programs?
    Response. Approximately 80 percent of the Federal funds are used to 
support programs for the adult food preparer, and 20 percent are used 
to support youth programming. We do not gather data on participation in 
food assistance programs from youth, but the majority are low income 
youth who are eligible for free or reduced price school meals and whose 
families are likely to be receiving Food Stamps and/or Women, Infants, 
or Children--WIC--benefits.
    For the adult participants, 61 percent are receiving Food Stamps, 
51 percent receive WIC benefits, 28 percent receive Child Nutrition 
benefits, 13 percent receive The Emergency Food Assistant Program, and 
1 percent receive Food Distribution Programs on Indian Reservations. 
Families may participate in more than one program. Only 13 percent are 
not receiving Federal food assistance at the time they enroll in EFNEP, 
and many of these are aided by the EFNEP nutrition assistants in 
accessing services for which they were eligible but not enrolled. An 
additional 2 percent of the EFNEP families are able to get food stamps, 
2 percent get WIC benefits, 2 percent get Child Nutrition benefits, and 
3 percent access the Emergency Food Assistance Program. Overall, EFNEP 
helped achieve over 27,000 new enrollments in Federal food assistance.
    Mr. Skeen. All states should be using the new EFNEP Evaluation/
Reporting System to submit 1995 data. This is a comprehensive 
evaluation system that will allow you to determine program impact and 
effectiveness at the local level. What were the results of the 1995 
data and what changes to the EFNEP program have you made as a result of 
information generated by this system?
    Response. The EFNEP Evaluation/Reporting System was released in 
1993, and we have received our third year of data using this new 
system. At the national level, this gives us a very good indication of 
the success of EFNEP. For example, over 85 percent of the adult 
participants improve in one or more food resource management practices, 
such as planning meals, comparing prices, using grocery lists, and not 
running out of food or cutting the size of children's meals because 
there was not enough money to buy food. Over 90 percent of adult 
participants showed improvements in one or more nutrition practices, 
such as making healthy food choices, preparing foods without added 
salt, reading nutrition labels for fat and sodium contents, having 
children eat breakfast, and feeling that the food and nutrition needs 
of their families are being met. Nearly 70 percent of adult 
participants improved in one or more food safety practices related to 
thawing and storing foods properly.
    We were also able to measure improvements in nutrient and food 
intakes that occur as a result of participants in EFNEP. The EFNEP 
Evaluation/Reporting System measures the intake of six key nutrients 
that are often limited in the diets of low income audiences: protein, 
iron, calcium, Vitamin A, Vitamin C, and Vitamin B6. For each nutrient, 
the levels at completion of the program were higher than at entry. 
There were also substantial differences in the intake of foods to meet 
the recommendations of the Food Guide Pyramid. At entry, only about 17 
percent of participants consume a diet that provides even one-half of 
the recommended numbers of servings of breads and cereals, and at least 
one serving from each of the other food groups. Upon graduation, over 
40 percent of the participants had achieved this minimal level of 
intake.
    States are using the data from the system to make program 
modifications. For example, Massachusetts found the calcium intakes of 
their participants were particularly low, and that the levels were not 
increasing very much as a result of the educational intervention. To 
address this, they held special staff development training sessions to 
emphasize the importance of calcium in the diet, and also modified 
lessons to highlight good sources of calcium in several lessons, rather 
than just covering the topic in one lesson. These changes resulted in 
an improvement in the calcium intakes in participants.
    Other states use the data from the system to measure case loads and 
effectiveness of the nutrition assistants. It becomes part of the 
performance evaluation, by helping to identify staff that are 
outstanding, and those who may need more training or supervision. It 
can also be used to compare several curricula, delivery modes or target 
audiences, allowing for programming changes to meet customer needs.
    At the national level, we have heard from the states that they 
would like to be able to use the system to measure impacts of programs 
such as the programs, funded under the Food Stamp Family Nutrition 
Program. As a result, we will soon be releasing an upgraded version of 
the software that will measure perinatal impacts, such as birth weight 
and days of hospitalization, breastfeeding initiation and duration, and 
similar impacts, and will offer streamlined capabilities for creating 
reports on subgroups, such as pregnant teens or food stamp 
participants. Modifications to the behavior checklist will allow states 
to ask up to 15 additional questions for selected populations, to 
capture additional impact data. The system has been pilot tested in a 
variety of settings and has been found useful for many different 
nutrition education programs conducted by the Cooperative Extension 
System.
                       rural development centers
    Mr. Skeen. Please update the table that appears on page 352 of last 
year's hearing record, indicating how each of The Rural Development 
Centers allocated their funds, to include fiscal year 1997.
    Response. The Rural Development Centers have allocated their funds 
as follows:

------------------------------------------------------------------------
                                                Fiscal years--          
                                     -----------------------------------
                                         1995        1996        1997   
------------------------------------------------------------------------
North Central Regional Rural                                            
 Development--Iowa State University:                                    
    Personnel.......................      90,250     111,834     124,796
    Travel and subsistence..........       6,000       8,000      10,932
    Publications and educational                                        
     materials......................      18,000      14,200      29,140
    Current expenses (supplies,                                         
     eqpt)..........................       1,040       1,190           0
    Subcontracts and agreements with                                    
     other institutions.............      74,000      50,000      14,980
                                     -----------------------------------
      Subtotal......................     189,290     185,224     179,848
North Dakota Institute for Business                                     
 and Industry Development--North                                        
 Dakota State University:                                               
    Personnel.......................     182,400     185,224     179,848
                                     -----------------------------------
      Subtotal......................     182,400     185,224     179,848
Northeast Regional Center for Rural                                     
 Development--Pennsylvania State                                        
 University:                                                            
    Personnel.......................      79,236      82,987      94,845
    Travel..........................      16,000      16,000      20,000
    Equipment and supplies..........       9,918       9,237       5,003
    Center-funded projects..........      65,136      60,000      50,000
    Publication/printing costs......      19,000      17,000      10,000
                                     -----------------------------------
      Subtotal......................     189,290     185,224     179,848
Southern Rural Development Center--                                     
 Mississippi State University:                                          
    Personnel.......................     104,810     105,043      58,553
    Travel..........................      25,567      17,109      16,628
    Other (fringe benefits).........      24,259      26,261      14,291
    Material and supplies...........           0       9,273      10,202
    Contractual.....................      34,654      27,538      80,174
                                     -----------------------------------
      Subtotal......................     189,290     185,224     179,848
Western Rural Development Center--                                      
 Oregon State University:                                               
    Personnel.......................     118,911     138,673     114,125
    Travel (staff)..................      36,279      24,000      14,093
    Office expenses and publications      27,100      21,801      10,000
    Equipment and other expenses....           0           0      12,000
    Other operating expenses (seed,                                     
     CAP, and ACT)..................       7,000         750      29,630
                                     -----------------------------------
      Subtotal......................     189,290     185,224     179,848
    Payments to States amount.......     939,560     926,120     899,240
    Federal Administration amount...      10,440       9,880       8,760
                                     -----------------------------------
      Total appropriation...........     950,000     936,000     908,000
------------------------------------------------------------------------

    Mr. Skeen. Also provide a table that shows the amount of non-
Federal funding available to the Centers since fiscal year 1991.
    Response. Non-Federal funding available to Centers from fiscal year 
1991 to the present is as follows:

      COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE      
                        Rural Development Centers                       
------------------------------------------------------------------------
                         Centers                              Funding   
------------------------------------------------------------------------
North Central Regional Center for Rural Development.....        $556,611
North Dakota Institute for Business and Industry                        
 Development............................................               0
Northeast Regional Center for Rural Development.........       1,400,940
Southern Rural Development Center.......................       1,525,000
Western Rural Development Center........................       1,194,000
------------------------------------------------------------------------

    Mr. Skeen. I read in the explanatory notes that these funds are 
distributed according to the extent of the problem that requires 
attention in each state. How is this determined?
    Response. Funds are distributed from the Southern Rural Development 
Center based on input from the Program Advisory Committee and are 
approved by the Southern rural Development Center Board of Directors. 
The Program Advisory Committee is a committee made up of 
representatives from the 29 Land-Grant institutions served by the 
Center and from private partners. The Program Advisory Committee 
identifies needed areas of research and education across the region, 
and the Center manages the funding of specific projects of regional 
importance; support activities and dissemination of information of 
regional importance; and coordinates various pools of people and money 
to best address activities of regional importance. The process is a 
very coordinated, collaborative, and multi-faceted plan of work.
    The North Central Regional Center for Rural Development distributes 
funds based on regional opportunities for rural development. The Board 
of Directors which meets twice a year and communicates regularly, 
decides on the priorities of the North Central Center for Rural 
Development. The Board comes from the private and public sector. Once 
those priorities are determined, in light of strategic plans and its 
updated goals, the center receives requests for funding. Major grants 
are through a refereed request for proposal process. Smaller grants for 
travel and research are based on the degree to which the proposed 
activity meets the criteria of: (1) multistate, (2) linking research 
and action and (3) multidisciplinary.
    The Northeast Regional Center sub-contracts are awarded according 
to the following procedures:
    (a) Must be multi-state and multi-disciplinary as other funding 
sources are available for single state disciplinary efforts.
    (b) Feedback from the Center's Technical Advisory Committee and the 
Board of Directors are factored into the priority areas for soliciting 
pre-proposals. This feedback is enriched via monthly conference with 
the community resource development research and extension state 
contacts and the executive directors of the State Rural Development 
Councils. Finally, site visits are scheduled by the Center staff to 
each of the 15 host land-grant institutions on a biennial basis to 
complete the salient issue environmental scan with administrators and 
university and field based faculties.
    Funds are distributed from the Western Rural Development Center 
based on input from the Western Rural Development Center Advisory 
Committee and approved by the Western Rural Development Center Board of 
Directors. The Advisory Committee is made up of representatives from 
the 17 Land-Grant institutions served by the Center and representatives 
from private partners. The Western Rural Development Center Advisory 
Committee identified needed areas of research and education across the 
region, and the Center manages the funding of specific projects of 
regional importance.
    The process is a very coordinated, collaborative, and multi-faceted 
plan of work.
    The North Dakota Center for Rural Development resources are 
allocated for technology transfer efforts that benefit rural 
manufacturers and food and non-food agriculture processing plants and 
in collaboration with the National Institute of Standards and 
Technology Manufacturing Extension Partnership program.
          
                      4-h youth enrollment

    Mr. Skeen. Please provide a ten year table that shows both rural 
and urban 4-H enrollment including fiscal year 1997 estimates.
    [The information follows:]

[Page 282--The official Committee record contains additional material here.]


                     national 4-h recognition model
    Mr. Skeen. Describe in further detail the newly developed National 
4-H Recognition Model including how it works and the results you are 
seeing.
    Response. The National 4-H Recognition Model, introduced over the 
past three years, provides a framework for designing appropriate 
recognition for young people. States and counties utilize the model in 
designing appropriate recognition for young people participating in 4-H 
Youth Development educational activities. The purpose of recognition in 
the 4-H Youth Development program is to encourage and support the 
efforts of young people in learning to increase their knowledge and 
develop their life skills. Appropriate recognition respects the 
diversity of individuals and teams and is the most effective in 
encouraging and supporting their development. Recognition as a strategy 
for youth development affirms positive learning behaviors in youth. As 
such, it is based on the youth's involvement, participation, and 
efforts. It is designed to meet the needs, interests and aspirations of 
young people from different backgrounds and experience. It is focused 
on individual learning. It should not be influenced by such factors as 
monetary resources to purchase the best materials, equipment, or 
opportunities.
    The National 4-H Recognition Model is useful in providing 
recognition to all participants and consists of five types of 
recognition. Recognition can have a significant effect on a young 
person's continued involvement. When properly used, it can inspire 
young people to continue to participate and learn.
    Recognition of young people for participation in educational 
experiences acknowledges involvement as a first step in building a 
sense of belonging and accomplishment.
    Recognition for progress toward personal goals enables youth to 
gain experience in goal setting and realistic self assessment.
    Recognition for achievement of standards of excellence gives youth 
an external, predetermined target for their learning experiences.
    Recognition through peer competition is a strong motivation for 
some but not all young people. It is not appropriate for youth under 
age eight.
    Recognition for cooperation helps youth learn and work 
cooperatively, preparing them for living in today's inter-dependent, 
global society.
    A key to the use of recognition as a strategy for youth development 
is to remember that each child is an individual and has unique, 
individual needs, interests, and aspirations. Recognition is one 
element of the learning experience and is appropriate to the needs of 
the young person, whether that form of recognition is external and 
tangible or internal and inherently satisfying. The 4-H youth 
development vision of recognition is that all youth will experience 
positive personal growth and increased self-reliance through 
encouragement and support of awide variety of learning experiences. 
Recognition can give the message to young people: ``you are valuable, 
competent and important'' to the program, the community and society.
Rationale
    4-H is a non-formal education program whose mission is to assist 
young people in realizing their full potential and develop a positive 
image of themselves and their future. It is an educational program, 
where young people and adults from diverse backgrounds and with diverse 
experience learn as a result of interaction with and between 
technology, ideas, and people.
    4-H is a voluntary program where young people become involved and 
stay involved for a variety of reasons: they want to be with their 
friends, they want to learn something, they want to do something for 
their community and they want to have fun. To meet these needs, 4-H 
programs offer a wide range of interesting projects, provide numerous 
activities and events, and use various forms of recognition to 
encourage young people to become involved, to learn, and to continue 
learning and staying involved.
    Recognition becomes a strategy for youth development when we define 
it as: encouragement and support for learning. It comes as a result of 
participation in educational experience and is an acknowledgment and 
affirmation of the personal growth of an individual. Young people are 
motivated by factors operating in relation to one another and might 
include: the level of curiosity; the variety of opportunities; openness 
for creativity and flexibility; developmental level of challenge for 
the individual; ability to choose among options; and choice of 
competitive, individual, or cooperative activity. Recognition is an 
appreciation of each person's effort and provides positive 
reinforcement to continue participating in learning activities.
    The National 4-H Recognition Model provides a framework useful in 
designing recognition matches for the needs of young people. 
Participation in 4-H is essentially voluntary, and young people join 
because they benefit personally, not because it is a good program. They 
make choices depending on their need for security, new experiences, 
affirmation and affiliation. Used appropriately, recognition is 
designed to meet the needs of individuals. Individual progress must be 
recognized and individual enthusiasm must be encouraged. There is no 
one way to encourage and support young people. They come from varied 
backgrounds and with different experiences. They have individual 
interests, values, needs, attitudes, and aspirations. It is important 
to remember that recognition is encouragement and support for learning 
and can take on different forms to meet the needs of individual young 
people. For some youth intrinsic or internal recognition is a powerful 
reason for them to continue to learn and grow. The feeling of 
accomplishment, satisfaction, enjoyment, and competence is more 
important to them than someone else's approval. This recognition comes 
from inside rather than outside. Although, adults can provide the 
measure of that accomplishment for the youth, helping them understand 
or providing guidelines for what they are learning and doing. For other 
young people, external or extrinsic recognition is important. In this 
case, affirmation by others helps young people measure their 
accomplishment and competence and encourages them to continue learning. 
Understanding that the reasons young people continue to learn and stay 
involved is a complex blend of environment, attitude and self concept. 
It is what motivates them which in turn energizes them and determines 
their individual actions. And is necessary to remember that appropriate 
recognition is influenced by a variety of factors within the 
individual, depending on where they are in a specific time in relation 
to what they are doing. So one type of recognition doesn't always work 
for the same individual all of the time. Youth are motivated to 
participate at varying levels of challenges by reaching particular 
self-selected milestones. To provide a range of opportunities to 
optimize growth potential is a key to appropriate, well-balanced 
recognition.
    As a strategy of development, recognition has several purposes. It 
can foster self-appraisal skills, providing a strong foundation for 
each young person to engage in self-reflection and self-praise without 
the need for external rewards. Appropriate recognition can be a 
motivator for some young people to excel and take prosocial risks. It 
can encourage and support the efforts of young people as they engage in 
individualized learning, peer competition, or cooperation. Finally, 
recognition used in all its forms can provide balance to the 
recognition young people receive as they move through our educational 
programs to increasingly difficult challenges.
Introduction and implementation
    The National 4-H Recognition Model was developed by a design team 
representing youth development, human development, state, and county 
staff revising and providing further development from the model 
introduced in 1985. It has been introduced to the Cooperative Extension 
system using a variety of methods. An introductory publication was 
widely distributed to States for sue and distribution and was used 
during workshops at Regional Volunteer Leader Forums. Over the past 
year, regional training was conducted for State and County staff as 
well as volunteer adult and youth leaders using a training package 
recommended by the national design team.
Results
    Use of the model varies from state to state meeting the needs of 
the youth development program and participants. Illinois has been using 
a similar model since the mid-1980's and has had a great deal of 
success in balancing their recognition program. Montana has been 
utilizing the model and its concepts since the early 1990s and has 
changed the way recognition is provided throughout the state. Both 
States are providing a balanced recognition system for young people 
participating in 4-H Youth Development. The outcomes of introduction of 
the model has varied. Examples include the following:
    (a) A change in terminology from awards and incentives to 
recognition. Recognition defined as support and encouragement for 
learning.
    (b) Awareness of the need to balance recognition in the state 
program. The Recognition Model affirms many of those aspects of the 
model currently in use, while focusing on the need to have more 
balance.
    (c) States have set up county and/or state level recognition teams 
to analyze current status and recommend and implement changes.
    (d) States have changed ways of selecting young people to 
participate in Regional and National activities. They are focusing on 
overall learning and recognizing effort.
                     multicultural scholars program
    Mr. Skeen. The Multi-cultural Scholars Program was established in 
fiscal year 1994. Provide a table that shows, by fiscal year, the 
amount of Federal and non-Federal funding provided, the number of 
scholarships awarded, and the number of resulting graduates including 
fiscal year 1997 estimates.
    [The information follows:]

                                      CSREES MULTICULTURAL SCHOLARS PROGRAM                                     
----------------------------------------------------------------------------------------------------------------
                                                                                           No.           No.    
                        Fiscal year                           Federal    Non-federal  scholarships    resulting 
                                                              funding      funding       awarded      graduates 
----------------------------------------------------------------------------------------------------------------
1994-95 \1\...............................................   $1,924,160     $481,040          102         (\2\) 
1996-97 \1\...............................................    1,923,000      480,750          104   ............
----------------------------------------------------------------------------------------------------------------
\1\ Funds for fiscal years 1994 and 1995 were combined into a single competition, as were funds for fiscal years
  1996 and 1997.                                                                                                
\2\ It is anticipated that the first cohort of 7 students with 2-year scholarships from the combined 1994/1995  
  competition will graduate at the end of this academic year.                                                   

                  children's nutrition research center
    Mr. Skeen. You have established a joint position with the 
Children's Nutrition Research Center at the Baylor College of Medicine 
to enhance the transfer of knowledge from the research lab to the 
public in regards to nutritional needs of pregnant women, mothers, 
babies, and children. What has been accomplished to date?
    Response. We are very pleased with the progress made in this unique 
position. The purpose of putting a national program leader in that 
research facility was to strengthen the linkages between research and 
education and to establish a mechanism to get the latest research out 
across our system to educators and others who could then incorporate it 
into their teaching and training at local and state levels. The 
following are a few specific examples of accomplishments:
    (a) An electronic newsletter entitled Maternal & Child Health Links 
is now sent quarterly to several thousand professionals in 12 
countries. The contents of the newsletter include both research 
findings and educational resources. We have had great response to this 
efficient means of communication.
    (b) We sponsored a national meeting on the Texas Medical Center 
campus in Houston titled, ``Nutrition Education for Diverse Audiences: 
Research and Practice.'' This meeting provided training for educators 
from 49 states and 5 territories on successful ways to work with 
families from various racial/ethnic backgrounds in improving their 
nutritional status. This conference was truly precedent-setting in that 
it was the first time key staff from three major nutrition education 
programs--the Expanded Food and Nutrition Education Program, the 
Extension Service/Women, Infants and Children Nutrition Education 
Initiative, and the Food Stamp Family Nutrition Program--had ever met 
to share educational resources, research results, and program impacts. 
This conference illustrated the model of how we are trying to work 
collaboratively and across departmental and program areas for the 
benefit of the families with whom we work.
    (c) We have provided leadership to land-grant universities that has 
resulted in their educational materials being the most accurate and up 
to date in the field reflecting the most current research findings.
    (d) Additionally, CSREES works with other agencies and 
organizations on the Medical Center campus.
    In summary, the outcome of this partnership has been increased 
visibility for all collaborators, increased audiences for research 
dissemination, and stronger linkages with educators, policy makers, and 
agency administrators across the country.
                             audit reports
    Mr. Skeen. What is the status of the two open audit reports on the 
University of Guam for fiscal years 1993 and 1994?
    Response. These two audit reports have been closed out.
                         international programs
    Mr. Skeen. Describe the work you are doing for AID-PASA this fiscal 
year for $7.0 million.
    Response. The Cooperative State Research, Education, and Extension 
Service's Office of International Programs is responsible for 
designing, implementing, and evaluating technical assistance projects 
overseas. Current activities include projects in Armenia, Ukraine, and 
Russia, along with a few smaller initiatives supported by funding from 
the U.S. Agency for International Development--AID.
    In Armenia, CSREES is working closely with the Armenian Ministry of 
Food and Agriculture and newly privatized farmers to enhance 
production, processing, and marketing capabilities. In 1996, an 
agriculture market assistance project began to help private 
entrepreneurs market high-value horticultural products. Simultaneously, 
the expertise of personnel from U.S. cooperating universities was 
utilized to develop the Armenian Extension Service's ability to meet 
the needs of clientele at the local level. In collaboration with 
California State University at Fresno, we are also assisting the 
Armenian Agricultural Academy to improve its applied research, 
marketing, and outreach capacity.
    In October 1996, CSREES embarked on an effort to assist private 
farmers in Ukraine. Two-person teams from U.S. cooperating university 
systems are currently serving eight-month assignments in four regions 
in Ukraine. Working in collaboration with private farmer associations, 
agricultural universities and institutes, and the Ukrainian Ministry of 
Agriculture, the teams are providing training in such areas as farm 
management, marketing, and business planning--all aimed at helping 
struggling private farmers work effectively in a market economy.
    The Russian/American Farm Privatization Project near St. Petersburg 
is assisting a community of farm families in making the transition to 
private farm ownership. It is designed to demonstrate a relatively low-
cost approach to privatization that could be adopted by other Russian 
communities with limited resources. This year the project is expanding 
its reach by developing a pilot extension effort similar to the U.S. 
extension system. A Farm Business Planning Center was also established 
to carry out management training programs for advisors and farmers.
    In addition to these major initiatives, Texas A&M University will 
be managing and monitoring sustainable agricultural practices for the 
U.S. Agency for International Development's mission in Honduras. CSREES 
will also be assisting the Foreign Agricultural Service this year in 
establishing youth development activities in sub-Saharan Africa.
    Also, a team, with CSREES participation, visited South Africa as 
part of the U.S.-South Africa Binational Commission. This Working 
Group, a part of the Commission's Agriculture Committee, is working 
with South African counterparts to develop a mutually beneficial 
assistance effort.
           national agricultural pesticide impact assessment
    Mr. Skeen. Provide a table that shows, by agency, the amount 
contributed to the National Agricultural Pesticide Impact Assessment 
Program for fiscal years 1994, 1995, 1996, and estimates for 1997.
    [The information follows:]

                   COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE NAPIAP FUNDING                  
----------------------------------------------------------------------------------------------------------------
                                                                  1994         1995         1996         1997   
----------------------------------------------------------------------------------------------------------------
Extension activities........................................    3,363,000    3,363,000    3,313,000    3,214,000
Research activities.........................................    1,474,000    1,327,000    1,327,000    1,327,000
                                                             ---------------------------------------------------
      Total, CSREES.........................................    4,837,000    4,690,000    4,640,000    4,541,000
----------------------------------------------------------------------------------------------------------------

    Mr. Skeen. Provide specific examples of the changes your agency has 
undergone as a result of passage of the 1996 farm bill.
    Response. As a result of provisions set forth in the 1996 Farm 
Bill, the Federal Agriculture Improvement and Reform--FAIR--Act, CSREES 
has: implemented several new programs; initiated the development and 
implementation of a comprehensive database system known as the 
Research, Education, and Economics Data Information System; 
participated in the establishment and activities of a consolidated 
advisory board known as the National Agricultural Research, Extension, 
Education, and Economics Advisory Board; expects to participate in a 
Task Force on the 10-Year Strategic Plan for Agricultural Research 
Facilities; and participated in activities resulting from conservation 
and environmental changes resulting from the FAIR Act. Highlights of 
these activities follow:
New programs
            Fund for rural America.
    The Fund for Rural America, authorized under Sec. 793 of the FAIR 
Act, was established as an account in the Treasury of the United States 
and coincided with fundamental reforms to Federal farm programs. The 
Fund provides $100 million in each of three years to aid critical rural 
development programs, assist beginning and socially disadvantaged 
farmers, and fund a competitive grant program to support research, 
education, and extension activities. CSREES was charged with 
administering the competitive grants program supported by the Fund for 
Rural America and has implemented the program in fiscal year 1997. 
CSREES expects to award $43.7 million in 1997 for grants to support 
applied, developmental, and adaptive research; technology transfer; 
extension and related out-reach activities; and education. Projects 
will be awarded for short- and intermediate-term application of 
existing investments in research and development through integration of 
research, extension, and education activities and will emphasize 
biological, physical, and social sciences to address systems-based 
problems. This requires involvement of affected parties within the 
system, such as producers, commodity groups, environmental interests, 
rural communities, and others; therefore, funding priorities will be 
given to projects that are designed and proposed by eligible grant 
recipients in collaboration with institutions, organizations, and 
communities of interest.
            Community food projects programs.
    The Community Food Projects program, authorized by Sec. 25 of the 
Food Stamp Act of 1977, as amended by Sec. 401 of the FAIR Act, 
supports the development of community food projects designed to meet 
the food needs of low-income people; increase the self-reliance of 
communities in providing for their own needs; and promote comprehensive 
responses to local food, farm, and nutrition issues. The Secretary 
delegated the authority to implement and administer the Community Food 
Projects Program to CSREES which implemented the program in fiscal year 
1996 and competitively awarded 13 grants totaling $1 million. 
Recipients of these funds are required to provide matching resources 
amounting to at least 50 percent of the total cost of the project.
            Hispanic Serving Institutions Education Grants Program
    Sec. 1455 of the National Agricultural Research, Extension, and 
Teaching Policy Act of 1977 was amended by the FAIR Act to authorize 
the Hispanic Serving Institutions Education Grants Program which is 
administered by CSREES. CSREES implemented the program in fiscal year 
1997 and expects to award $1.4 million for projects that promote and 
strengthen the ability of Hispanic-serving institutions to carry out 
higher education programs in the food and agricultural sciences. Funded 
projects will address one or more targeted need areas: curricula design 
and materials development; faculty preparation and enhancement for 
teaching; instruction delivery systems; scientific instrumentation for 
teaching; student experiential learning; and student recruitment and 
retention.
Research, education, and economics information system--REEIS
    Sec. 804 of the FAIR Act authorized the development and 
implementation of a system to monitor and evaluate activities conducted 
or supported by USDA to measure the impact and effectiveness of 
agricultural research, extension, and education programs. USDA and its 
Research, Education, and Economics--REE--Mission Area agencies, along 
with our university partners, lack an integrated, user-friendly 
electronic data system to serve as an inventory of the thousands of 
programs and projects that focus on food, agriculture, natural 
resources, and rural development. Such an information system is needed 
to enable the Department and its partners to readily conduct both 
comprehensive baseline and ongoing assessments as well as evaluations 
of research, education, extension, and economics programs and projects. 
Leadership responsibility for REEIS rest with CSREES and an initial 
appropriation of $.4 million in fiscal year 1997 is being used to 
initiate planning of the system's design and development. We are in the 
process of establishing a National Steering Committee to provide advice 
and guidance throughout the development and implementation process 
which will be comprised of both users and producers of REE agencies' 
data, including program officials and program leaders, information 
system managers from other Federal agencies, representatives from 
Federal oversight agencies, program/project leaders from partner 
institutions, and private sector users of REE data.
Advisory committees
    The National Agricultural Research, Extension, Education, and 
Economics Advisory Board, mandated by Sec. 802 of the FAIR Act, has 
been in operation since September 1996 and is comprised of 30 members 
representing 30 constituent categories, as set forth in the FAIR Act. 
In addition, ex-officio members defined in the FAIR Act include: The 
Secretary; Under Secretary for Research, Education, and Economics; and 
the Administrators for the Agricultural Research Service, the 
Cooperative State Research, Education, and Extension Service, the 
Economic Research Service, and the National Agricultural Statistics 
Service. The National Agricultural Research, Extension, Education, and 
Economics Advisory Board replaced the Joint Council on Food and 
Agricultural Sciences, the Users Advisory Board, and the Agricultural 
Science and Technology Review Board. The FAIR Act also terminated the 
Committee of Nine, the Animal Health Research Advisory Committee, and 
the National Sustainable Agriculture Advisory Council. The Advisory 
Board has addressed the short-term objectives included in the FAIR Act 
requirements, such as nominating members to the agricultural research 
facilities Strategic Planning Task Force, recommending priorities for 
implementing the Fund for Rural America, and reviewing agricultural 
research priorities drafted by USDA for the Strategic Plans of the REE 
mission area agencies. The Advisory Board will sponsor a ``Stakeholder 
Symposium'' in March 1997 for stakeholder input on the REE agencies' 
Strategic Plans and will provide input on the reauthorization of the 
Research Title of the Farm Bill. Some of the broad long-term agenda 
items for the Board include mechanisms for more effective stakeholder 
input to REE priority setting involving regional listening sessions, 
the Fund for Rural America implementation and long-term vision, and 
input to the REE Strategic Plan.
    The FAIR Act, Sec. 803, exempts public meetings with university 
cooperators from the provisions of the Federal Advisory Committee Act. 
CSREES is using this exemption to obtain recommendations from the land-
grant university system on the allocation of Hatch Act Regional 
Research funds, an issue which was formerly addressed by the Committee 
of Nine.
Task force on 10-year strategic plan for agricultural research 
        facilities
    Sec. 884 of the FAIR Act amended the Research Facilities Act (7 
U.S.C. 390 et seq.). A stipulation of the amendment is that the 
Secretary establish a Strategic Planning Task Force to review all 
currently operating agricultural research facilities constructed in 
whole or in part with Federal funds, and all planned agricultural 
research facilities proposed to be constructed with Federal funds, to 
ensure that a comprehensive research capacity is maintained. The 
National Agricultural Research, Extension, Education, and Economics 
Advisory Board has nominated members to the agricultural research 
facilities Strategic Planning Task Force, and the Secretary is expected 
to name the 15 members of the Task Force in the near future. In 
accordance with the amended Research Facilities Act, the Task Force 
will, within 2 years, prepare and submit to the Secretary and the 
congressional agriculture committees a 10-year strategic plan 
reflecting national and regional perspectives regarding agricultural 
research facilities proposed to be constructed with Federal funds.
Conservation and environmental impacts
    The FAIR Act made some significant changes in conservation and 
environmental aspects impacting the nation's farmers and ranchers. A 
grass roots effort to increase the attention provided to private 
grazing land owners/managers has resulted in CSREES being involved at 
the Federal and state levels. CSREES advises the National Steering 
Committee of the Grazing Lands Conservation Initiative and participants 
in the formation of state grazing land coalitions. The Environmental 
Quality Incentives Program and the Conservation Reserve Program have 
required CSREES to aggressively assist in the development of 
communications plans and to provide current information to the states 
so that appropriate educational programs can be developed and delivered 
to assist the producer in making the best choices for a given 
situation. As a result of the FAIR Act and the creation of the Risk 
Management Agency, CSREES is working with RMA and the Commodity Futures 
Trading Commission to develop a Memorandum of Understanding that 
encourages the organizations to collaborate more closely in the 
development of comprehensive educational materials, more than options 
and insurance, to assist farmers and ranchers in reducing or better 
managing risk.
                        1890 facilities program
    Mr. Skeen. The 1990 farm bill authorized a $40 million, five-year 
facilities program for the 1890 Land-Grant Colleges and Tuskegee 
University. Funding began in fiscal year 1993 and will end in fiscal 
year 1997. Was this program reauthorized in the 1996 farm bill?
    Response. The Federal Agricultural Improvement and Reform Act of 
1996 reauthorized Section 1447(b) of the National Agricultural 
Research, Extension, and Teaching Policy Act of 1977 for fiscal years 
1996 and 1997. This grant program to upgrade agricultural and food 
sciences facilities at 1890 Land-Grant Colleges authorizes $15,000,000 
for each of fiscal years 1996 and 1997.
                           food and nutrition
    Mr. Skeen. Does Extension conduct any studies and evaluations in 
the area of food and nutrition assistance? If so, provide a brief 
description of all ongoing work including the amount being spent in 
this area.
    Response. The Cooperative State Research, Education, and Extension 
Service, in partnership with the Cooperative Extension System, is 
conducting several ongoing projects in nutrition education with an 
evaluation component related to the food assistance programs. The 
following are a few specific examples of accomplishments:
ES/WIC Nutrition Education Initiative
    ES/WIC Nutrition Education Initiative was designed to change 
behavior and promote the nutritional well-being of the neediest Women, 
Infants, and Children--WIC--participants. To accomplish this goal, 
outcome objectives were aimed at increasing knowledge and improving 
behavior in such areas as prenatal diets, breast feeding initiation and 
duration, meal planning, food selection, purchasing, and preparation.
    Over 260 WIC Clinics nationwide collaborated with the Cooperative 
Extension System to serve over 141,650 participants. Additionally, more 
than 3,200 participants have completed the program so far. Preliminary 
results from ongoing studies suggest that these programs facilitate 
participants' increased knowledge or skills related to diet and 
lifestyle such as:
    In Washington, 92 percent of participants reported increased 
knowledge about planning nutritionally balanced meals:
    In Nebraska, 90 percent of program graduates reported improvements 
in their ability to plan meals;
    In Hawaii, 84 percent of the program graduates showed increased 
knowledge in their ability to interpret food labels, select, buy, and/
or prepare appropriate foods to meet nutritional needs for themselves 
and their families;
    In New Jersey, more than 70 percent of the participants could 
identify missing food groups from planned meals or could use food 
models to develop a well balanced menu, and 85 percent of the 
participants demonstrated proper handling procedures during food 
preparation;
    In Arizona, 81 percent of the participants demonstrated increased 
knowledge or skill related to diets of lactating women and their 
infants; and
    In Iowa, 46 percent of participants scored 100 on the Lactation 
Inventory which measured the knowledge of breast feeding.
    There were 74 projects funded. The total allocation for the past 
three years were as follows:

Fiscal year 1993........................................      $3,530,000
Fiscal year 1994........................................       4,265,000
Fiscal year 1995........................................       4,265,000
Family Nutrition Programs (FNP)
    The Cooperative Extension System, in at least 35 States, is 
conducting nutrition education programs for Food Stamp recipients under 
the Family Nutrition Program funded by the Food Stamp Program. In 
Fiscal Year 1996, the Federal dollars awarded were over $36 million. An 
amount at least equal to this was contributed by the states, usually 
from Cooperative Extension funds. The following summarizes some of 
these efforts:
    New Hampshire's FNP includes working in the specific subject areas 
of money management and nutrition. The staff has worked with internal 
and external teams to identify needs, develop programs and materials, 
implement these projects and evaluate them.
    Minnesota delivers FNP in multiple locations throughout the state. 
Upon completion of the program, Food Stamp recipients are recruited to 
be volunteer food consultants. Those participating increase self-esteem 
and self-confidence.
    In South Dakota's FNP, a group of mothers participated in examining 
ways to incorporate the Food Guide Pyramid and low calorie nutritious 
food into their diets to attain a healthier weight.
    Colorado FNP graduates report that they are able to extend their 
food stamps by an average of 6.39 days, and have an average savings of 
$85.82 on their monthly grocery bills; 96 percent of FNP graduates 
demonstrated positive change in their eating habits.
    Of the 381 food stamp participants in Iowa's FNP from Jan-Mar 1996, 
50 percent reported that they were better able to meet family 
nutritional needs and to budget food dollars to last all month; 71 
percent increased their skills in setting up a spending plan; and 70 
percent were able to control impulse buying.
    In 1996, the nutrition program in Maine expanded to include 12 
counties, and included partnering with the Bureau of Elder and Adult 
Services to provide nutrition education and information to elderly food 
stamp recipients via congregate meal sites and home meal delivery.
Nutrition education networks and other projects
    Last summer, the Food and Consumer Service funded 12 projects for 
the development of nutrition education networks within a state. Of the 
12 projects, all included Cooperative Extension Service--CES--partners 
in the list of ``committed members''. Virginia, Minnesota, Alabama, and 
Washington all had CES as the primary applicant. Vermont, Maine, 
Indiana, Georgia, Iowa, Missouri, Arizona and California are listed as 
committed members for the remaining projects. The amount of funding 
varied from $61,231 to $99,514 per state. The total amount awarded was 
$967,355.
                          project terminations
    Mr. Skeen. How did the research agencies decide to terminate the 
specific projects that are listed in the Explanatory Notes?
    Response. As a part of the Administration's efforts to balance the 
budget and direct spending to higher priority areas, CSREES proposed to 
eliminate those programs and projects that were state specific and/or 
did not address current national or regional priorities. In keeping 
with the Administration's policy of awarding research, education, and 
extension grants through a competitive, merit-review process, programs 
and projects earmarked for specific institutions were also proposed for 
elimination. Depending on whether it is a research or extension program 
or project proposed for termination, it is possible that funding from 
basic formula programs, the National Research Initiative, State and 
local governments, and/or private sources could be used to continue 
aspects of the program deemed to be of a high priority at State or 
local levels.
                                  bard
    Mr. Skeen. The U.S.-Israeli Binational Agricultural Research and 
Development Program was established in 1977. The original endowment was 
for $80 million. What is currently in the endowment?
    Response. The amount currently in the endowment is $110 million.
    Mr. Skeen. What has been provided to date for the BARD program?
    Response. The original $80 million endowment was established in 
1977. In 1984, Congress provided an additional $15 million which was 
matched by the Israeli Government. Currently, the total endowment is 
valued at $110 million U.S. Dollars.
    Mr. Skeen. For the record, what were the original conditions for 
funding this program?
    Response. The original conditions for funding this program required 
that both the U.S. and Israel contribute $40 million each to an 
endowment for the promotion and support of agricultural research and 
the development of research of mutual interest and benefit particularly 
for geographical areas in which water supply and rainfall limit crop 
production.
    Mr. Skeen. What is the current interest at which the corpus is 
accumulating funds?
    Response. The current interest at which the body is accumulating 
funds includes the original investment of $80 million at 7 percent, and 
the additional $30 million invested at the London Interbank Offer Rate 
of 6.9 percent.
    Mr. Skeen. Has Israel matched all U.S. funding in this account?
    Response. Yes, Israel has matched all U.S. funding in this account.
    Mr. Skeen. What is the total amount of Israeli funding to date?
    Response. The total amount of Israeli funding to date is $62.5 
million derived from a $55 million contribution to the endowment, plus 
a dollar-for-dollar match of $2.5 million each year in fiscal years 
1994 through 1996 for a total of $7.5 million. It is anticipated that 
Israel will provide a dollar-for-dollar match to the $2.0 million 
appropriated to CSREES for BARD in FY 1997.
    Mr. Skeen. For the record please provide some specifics of what has 
been accomplished so far in this research project.
    Response. Some of the recent accomplishments include:
    Integrated Pest Management.--Increased resistance to pesticides and 
pressing environmental and food safety concerns have let to intense 
interest in biological pest control in both the U.S. and in Israel. 
Harvested fruits have high-market value, however, losses due to disease 
and damage are considerable. BARD-supported collaboration between 
scientists from U.S. and Israel have found natural bacterial and yeast 
antagonists of citrus green mold, blue mold, and sour rot fungi. The 
emerging technology from these joint projects has been co-patented.
    Improved Water Utilization for Agriculture.--In addition to being 
available in limited supply, water resources in arid areas often are 
saline. About two-thirds of the U.S. groundwater supply contains 1,000-
3,000 ppm salt. Israel is a pioneer in the profitable agricultural use 
of brackish water. U.S.-Israeli joint BARD projects have resulted in 
special irrigation schedules, developed from a series of computerized 
models, which have helped to save pecan orchards in the American 
Southwest. The technology is also advantageous for Israel, where 
agriculture consumes 70 percent of the water resources.
    Identification of Genetic Markers.--Genetic markers are useful and 
important in poultry and beef breeding. BARD projects have already 
provided the central foundation for development of genetic maps of the 
poultry genome. Current BARD projects are developing genetic markers 
for important properties such as growth, and production in both beef 
and poultry. BARD awardees typically are working on fundamental science 
in agriculturally important areas supported by the National Research 
initiative. Therefore, BARD also contributes to the overall knowledge 
base needed to address agricultural problems.
                     biotechnology risk assessment
    Mr. Skeen. Describe how CSREES has used these funds and provide a 
few specific examples of grants and their accomplishments.
    Response. Funding for the Biotechnology Risk Assessment Research 
Grants Program is provided by a one percent set-aside of USDA funds 
allotted annually for biotechnology research. The program became fully 
operational in fiscal year 1992 and is administered jointly by the 
Cooperative State Research, Education, and Extension Service and the 
Agricultural Research Service. The purpose of the program is to assist 
Federal regulatory agencies in making science-based decisions about the 
safety of introducing genetically modified plants, animals, and 
microbes into the environment. It is intended to provide a science-
based evaluation and interpretation of factual information in which a 
given hazard and consequence, if any, is identified and explored. Nine 
research topic areas are supported, including: (1) development of risk 
assessment methods and procedures; (2) creation of information systems 
and computer models; (3) risk assessment of the environment fate of 
genetically modified fungi, bacteria, viruses, plants, arthropods, 
fish, birds, and mammals introduced into the environment; (4) risk 
assessment of bidirectional rates, effects of selection pressures, 
mechanisms and impact of gene transfer between transformable crop 
species and existing weedy relatives of those crops; (5) assessment of 
the potential for recombination between plant viruses and plant-encoded 
viral genes; (6) assessment of changes in viral host ranges or the 
types of viral vectors as a result of the use of transgenic plants 
expressing viral genes; (7) assessment of the potential for nontarget 
effects of introducing plant-defense compounds expressed in genetically 
modified plant-associated microorganisms especially in regard to 
persistence of the organisms and material in the environment; (8) 
identification of genes which can confer additional pathogenicity to 
animal pathogens; and (9) environmental risk analysis of larger scale 
deployment of genetically engineered organisms that may not be revealed 
through small scale evaluations and tests. Since 1992, a total of 49 
research projects and 3 annual conference-symposia have received funds 
totaling $8.0 million. In fiscal year 1996 key areas for which grants 
were awarded include research to assess the risk of the release of 
genetically engineered viruses, insects and microbes for use as 
biopesticides, alternative pest management, or vaccine production. 
Additionally, research on genetically engineered fish, plants and 
microbes was funded to assess the potential consequences of their 
release into terrestrial or aquatic ecosystems.
                      aflatoxin research, illinois
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Aflatoxin Research, Illinois grant.
    Mr. Response. Past work on this problem has involved identifying 
corn germplasm resistant to aflatoxin, identifing Aspergillus flavus-
inhibiting compounds, identifying fungus-inhibiting enzymes, developing 
transformation methods, and developing tissue culture/plant 
regeneration procedures.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for the 
research?
    Response. Aflatoxins are potent carcinogens with other toxic 
properties, and pose potential health risks wherever toxin-contaminated 
corn occurs. Aflatoxin contamination occurs frequently in the 
southeastern United States, but outbreaks have also occurred in the 
upper midwest.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was the reduction of 
aflaxtoxin production in corn. Recent accomplishments include 
identification of corn germplasm producing high levels of fungus-
inhibiting enzymes, production of transformed corn plants, finding new 
sources of resistance, and developing advanced corn lines for hybrid 
production.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1990, $87,000; fiscal year 1991, $131,000; and 
fiscal years 1992-1993, $134,000 per year, fiscal year 1994, $126,000; 
and fiscal years 1995, 1996, and 1997, $113,000 per year. A total of 
$951,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are: $21,251 university operating funds for project investigator salary 
and fringe benefits, and $18,000 in corn seed company support.
    Mr. Skeen. Where is this work being carried out?
    Response. This research is being conducted at the University of 
Illinois.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated completion date for the original 
objectives was 1995. The original objectives have not been completely 
met. In other related work, the project leaders, working with 
collaborating corn breeders, anticipate providing the different sources 
of resistance to commercial seed companies for incorporation into high-
yielding commercial hybrids within five to seven years.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The last agency evaluation was in December 1996. In 
summary, the evaluation stated that the research techniques are 
consistent with high likelihood that specific objectives will be 
accomplished. There is a good balance between fundamental and applied 
research, which should foster the development of new, highly-desirable 
corn germplasm.
        agricultural diversification and specialty crops, hawaii
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Agricultural Diversification and Specialty Crops 
grant.
    Response. The white taro project is in its final phase. Many of the 
processing obstacles have been overcome, flour is being produced in 
pilot-scale quantities, better taro food product formulations are 
coming out and the project is ready to turn over to the private sector. 
Due to demand conditions, the pineapple wet-pack processing project was 
changed to a high pressure minimal processing of tropical fruits. High 
pressure processing of tropical fruits provides a ready-to-eat chilled 
fresh product by adding value to fruit which can not meet fresh fruit 
quality standards and eliminating the fruit fly quarantine problem. 
Once the high pressure equipment arrives in February 1997, qualitative 
results should be out quickly. An agricultural business development 
handbook called, ``The Hawaii Product Went to Market'' was published. 
It contains 43 short chapters written by 46 people representing 26 
companies and institutions in Hawaii. This book was necessary to help 
others with business initiation and expansion. A new taro production 
manual is nearing completion. Agribusiness interested in taro now have 
what all good agribusinesses need: a cost of production study, market 
reconnaissance information delivered by the project's newsletter, 
marketing tools developed in earlier phases of this project, and a 
production manual. Underlying all of this information is a business 
guide.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. Hawaii's economy needs help to recover after the decline 
of sugar and pineapple in the State. Taro products would be one such 
avenue, albeit relatively small at the outset. These gluten-free 
products could be a staple to many people in the U.S. who suffer from 
food ingredient intolerance. In general, collaboration with the private 
sector is needed to evaluate the commercial potential of university-
based work.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of the original proposal was to screen potential 
food and non-food crops for commercial development in Hawaii. As 
mentioned above, white taro emerged as one of the most promising 
opportunities and also offered the opportunity to develop an 
infrastructure what will help new crop ideas come on line even faster. 
Overall, the researchers have identified a need, people with food 
sensitivities; then identified a crop; figured out a mechanism to 
inexpensively process the crop into flour; worked with a private sector 
company to set-up a pilot-scale facility; developed the operating 
protocol for the facility; worked with local food processors to develop 
prototype products and have improved on them; and found some interested 
parties that might be willing to invest in the commercial version of 
this project. Currently, the University of Hawaii is working on 
handing-off the project to the private sector. The high pressure 
project is just getting off the ground because it took a long time to 
acquire the equipment.
    Mr. Skeen. How long has work been underway and how much has been 
appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriate as 
follows: fiscal year 1992, $145,786; fiscal year 1993, $145,401; fiscal 
year 1994, $136,895; fiscal year 1995, $123,060; fiscal years 1996 and 
1997, $123,109 per year. A total of $797,360 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The University of Hawaii provides in-kind support in the 
form of laboratory and office facilities, equipment and equipment 
maintenance and administrative support services: $68,503 in fiscal year 
1992; $75,165 in fiscal year 1993; and $74,663 in each fiscal year 
1994-1997. In addition, nearly $35,000 of in-kind support has come from 
private sector partners and $30,000 is committed from the private 
sector on the high pressure minimal processing project.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at the University of Hawaii's 
College of Tropical Agriculture and Human Resources, and on the Big 
Island of Hawaii.
    Mr. Skeen. What is the anticipated completion date for the original 
objectives of this project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Response. All taro-related work will be done by May 31, 1997 and 
all objectives will be met. The high pressure processing project will 
have a great deal of work done by May 31, 1998 but will need to be 
continued on private sector funds.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The CSREES agency representative to this project meets 
with the University of Hawaii investigators at least twice each year to 
review progress and plan subsequent activities. This close interaction 
has led the project through a progression of steps from research 
discovery to near-term commercialization, and, in the case of high 
pressure processing, back to testing and development of a new 
technology for possible commercial use.
           alliance for food protection, nebraska and georgia
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Alliance for Food Protection grant.
    Response. The fiscal year 1997 appropriation supports the 
continuation of a collaborative alliance between the University of 
Georgia Center for Food Safety and Quality Enhancement and the 
University of Nebraska Department of Food Science and Technology. 
Fiscal year 1996 funds supported research at the University of Nebraska 
on the detection, identification and characterization of food 
allergens, the effects of processing on peanut allergens, and 
investigation of the efficacy of using various types of thermal 
processes to reduce or destroy the toxicity and mutagenicity of certain 
Fusarium metabolites in corn and corn products. Research at the 
University of Georgia was directed toward determining the foodborne 
significance of Helicobacter pylori, determining the fate of Arcobacter 
in foods and the effect of environmental factors on survival and 
growth, determining the efficacy of nisin and environmental factors on 
controlling Bacillus cereus, and developing a device to rapidly detect 
foodborne pathogens using immunomagnetic separation technology.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researchers believes the proposed research 
addresses emerging issues in food safety which have national, regional 
and local significance. Specifically, research will address bacterial 
pathogens that can cause ulcers, cancer and diarrheal illness and 
allergens in foods that cause serious reactions, including death, in 
sensitive people. These emerging issues affect consumers, the food 
industry, and food producers at all levels, national, state, and local.
    Mr. Skeen. What was the original goal of the research and what has 
been accomplished to date?
    Response. The original goal of this research was to: (1) facilitate 
the development and modification of food processing and preservation 
technologies to enhance the microbiological and chemical safety of 
products as they reach the consumer and (2) develop new rapid and 
sensitive techniques for detecting pathogens and their toxins as well 
as toxic chemicals and allergens in foods. The University of Nebraska 
developed assays for the detection of milk and egg residues in 
processed foods, produced high-quality antibodies for soybean proteins, 
partially characterized sunflower seed and soybean allergens, and 
developed a simple liquid chromatographic procedure for determination 
of moniliformin toxin. The University of Georgia developed a method to 
culture Helicobacter pylori, identified a treatment to prevent Bacillus 
cereus from producing toxin in refrigerated foods, determined survival 
and growth characteristics of Arcobacter and Helicobacter pylori, and 
determined the appropriate homogenization conditions to prepare food 
samples for rapid detection of pathogens by immunoseparation.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1996, and $300,000 was appropriated in fiscal years 1996 and 1997, for 
a total appropriation of $600,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were $117,000 state funds and $250,000 industry and miscellaneous in 
fiscal year 1996 and are expected to be $141,000 state funds and 
$175,000 industry and miscellaneous in fiscal year 1997.
    Mr. Skeen. Where is this work being carried out?
    Response. Research will be conducted at the University of Georgia 
Center for Food Safety and Quality Enhancement in Griffin, Georgia and 
at the University of Nebraska Department of Food Sciences and 
Technology in Lincoln, Nebraska.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional related 
objectives?
    Response. The original objectives have not yet been met. The 
researchers anticipate that work will be completed on the original 
objectives in 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An agency science specialist conducts a merit review of 
the proposals submitted in support of the appropriation on an annual 
basis. A review of the proposal from the University of Nebraska was 
conducted on December 20, 1996, and good progress was demonstrated on 
the objectives undertaken to date as discussed above. A progress report 
from the University of Georgia was evaluated by the agency on January 
16, 1997, and demonstrated good progress on its 1996 objectives.
                alternative crops for arid lands, texas
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Alternative Crops for Arid Lands, Texas grant.
    Response. This grant is to develop the two most abundant plants in 
southwestern United States, i.e. mesquite and cactus, into commercial 
crops through a combination of applied research and market development. 
In Texas, New Mexico, Arizona and California these plants occupy 72 
million acres.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this goal?
    Response. The semi-arid regions of the United States that border 
with Mexico in Texas, New Mexico, Arizona, and California have some of 
the highest unemployment rates, lowest economic returns per acre, and 
lowest incomes in the United States. The two most abundant plant 
species in this region are prickly pear cactus and mesquite. By working 
with Mexican researchers, this grant will help to stabilize the 
economic situation of rural poor in Mexico and the United States. There 
are few crops capable of being grown sustainably in these regions. Due 
to the nitrogen fixing capability, and thus soil improving properties, 
of mesquite and high water use efficiency of cactus, these plants 
contribute to sustainable agriculture, and will diversify southwestern 
agriculture. This research group is the only center in the United 
States developing these plants as crops. The principal researcher has 
been active with a national New Crops initiative supported by the 
Center for Agricultural Science and Technology (CAST) to develop grants 
programs for new feed/food from new crops.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal is to improve the economic returns, and year-to-
year economic stability in the southwestern United States. 
Accomplishments have been sale of a new cactus vegetable variety in 100 
stores of the largest retail grocery chain in Texas, presentations to 
architects in all major cities in Texas on mesquite technical qualities 
and all mesquite sawmill and furniture manufacturers, publication of 4 
year field trials in which cactus was found to be the most efficient 
converter of water to dry matter of all plant types, a major collection 
of 130 fruit, forage and vegetable varieties of cactus, 10 year non-
irrigated pruning and spacing trial with mesquite found diameter growth 
rates greater than walnut and oak in the northeastern United States, 
and a sustainable system for mesquite management that avoids use of 
bulldozers and aerial herbicides by creating markets for mesquite 
products and utilizing mesquite's nitrogen fixing properties. As a 
result of an international workshop held at the National Academy of 
Sciences in Washington, the Global Environment Facility encouraged 
submission of a proposal for a network including Mexico, Haiti, Peru, 
Argentina, Brazil, Senegal, Pakistan, India and the United States on 
mesquite technical cooperation. Closely related work tested our biomass 
harvester on salt cedar along the Rio Grand in Albuquerque, New Mexico 
and on pinyon/juniper on Acoma Indian Reservation to find economical 
harvesting techniques and uses for these problem species.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Fiscal year 1994 was the first year of funding for this 
grant and $94,000 was appropriated. In fiscal years 1995 through 1997, 
$85,000 was appropriated each year. A total of $349,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. In fiscal year 1994, $43,215, was provided by the Texas 
legislature.
    Mr. Skeen. Where is the work being carried out?
    Response. The work is being conducted by Texas A&M University, 
Kingsville, Texas.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project: Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. Significant but small Texas cactus and mesquite 
industries now exist. Transformation of these small industries into 
medium industries and transfer of the arid technologies to low rainfall 
areas of the Midwestern and southeastern United States will carry on 10 
years into the next century.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Evaluation of this project is conducted annually based on 
the annual progress report and discussions with the principal 
investigator, as appropriate. The review is conducted by the cognizant 
staff scientist who has determined that this research is in accordance 
with the mission of the agency.
                    alternative crops, north dakota
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Alternative Crops, North Dakota program.
    Response. In this investigation of alternative crops, there are two 
main thrusts: the development and commercialization of novel new crops, 
and the differentiation of traditional crops. Both avenues of research 
have the shared goals of increasing biodiversity at the farm and field, 
while producing new crops and products for current and future societal 
needs. Some of these include (a) the development of crambe, flax, 
sunflower, safflower, and various rapeseeds as a renewable supply of 
industrial oil, (b) the study of products from amaranth, potatoes, 
sugarbeets, carrots, soybeans, barley, and sunflower for novel new uses 
in the paints, coatings, as food ingredients, and critical human 
nutrition markets, and (c) the development of new biochemical and 
enzymatic process to refine and create supercritical and other high-
value fluids from oilseed crops which could serve as effective 
renewable replacements for industrial uses.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes that nationally, 
developing new crops and new markets for agricultural products is 
critical for both environmental and economic reasons. Enhanced 
biodiversity that comes from the successful commercialization of new 
crops aids farmers in dealing with pests, reducing the dependency upon 
pesticides. New markets are needed to provide more economic stability 
for agricultural products, especially as federal price supports are 
gradually withdrawn. The development of new crops and products, offers 
a unique way to satisfy national goals of enhanced environmental 
quality, while at the same time opening new economic opportunities to 
farmers and other rural entrepreneurs. Regionally, the temperate areas 
of the Midwest have the potential to grow a great number of different 
crops, but are in need of publicly sponsored research efforts to reveal 
the most practical, efficient, and economical crops and products to 
pursue. This effort has forged a strong link with the private sector, 
and successfully spawned several crops and products into profitable 
private sector businesses.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was and still is to 
introduce, evaluate and test new crops which will broaden the economic 
diversity of crops grown in North Dakota. Over the past eight years, 
this special federal appropriation has been an important part of North 
Dakota State University's approach to research and development on 
agricultural alternatives. It has helped sponsor research on crambe, 
lupin, canola, safflower, cool-season grain legumes, buckwheat, 
amaranth, field pea production and utilization, transgenic sugar beets 
to produce levan, utilization and processing of lupin flour, 
confectionary sunflower production, and growing and marketing of 
carrots in North Dakota. It has helped develop a crop-derived red food 
dye, and high quality pectin as food ingredients. It has sponsored 
research on innovative new biochemical means of splitting crop oils, 
and other new uses of oilseed crops. It has also helped develop markets 
for new crops as livestock and fish feeds. This appropriation has 
helped create both new knowledge and new wealth.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Appropriations by fiscal year are as follows: 1990, 
$494,000; 1991, $497,000; 1992 and 1993, $700,000 per year; 1994, 
$658,000 and in fiscal year 1995, $592,000; and in 1996 and 1997, 
$550,000 per year. A total of $4,691,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. In fiscal year 1991, $10,170 was provided by state 
appropriations. In fiscal year 1992, $29,158, was also provided by 
state appropriations and self-generated funds. In fiscal year 1993, 
$30,084, was provided by state appropriations. In fiscal year 1994, 
$161,628 was provided by state funds, $3,189 provided by industry and 
$9,020 provided by other sources, totalling $174,417. In fiscal year 
1995, $370,618 was provided by state appropriations, $1,496 provided by 
self-generated funds, $1,581 provided by industry and $5,970 was 
provided in other non-federal funds, totalling $379,665 for FY 95. In 
fiscal year 1996 $285,042 was provided by state appropriation, $4,742 
provided by industry, $14,247 provided from other non-federal funds, 
totalling $304,031 for 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. The work is conducted on the campus of North Dakota State 
University and at the Carrington Research and Extension Center, 
Carrington, North Dakota, and the Williston Research Center, which are 
both in North Dakota. Work is also being done in eastern Montana.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. Fiscal year 1997 is the eighth year of activity under 
this grant. The primary emphasis has been to find new crops with non-
food uses and create value added products. The original objectives have 
been met, and continue to expand. As U.S. agriculture enters a new 
policy era with less emphasis on commodity subsidies, great opportunity 
may exist to better establish greater biodiversity in agriculture. Such 
a change, however will remain dependent upon research and development 
programs specifically targeted at such a goal. Therefore, research 
activities will continue indefinitely, as new products are developed.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. This project has been evaluated based on the annual 
progress report and agency participation in evaluating proposals 
submitted to the Agricultural Experiment Station under this grant. The 
cognizant staff scientist has reviewed the project and determined that 
the research is conducted in accordance with the mission of this 
agency.
         alternative marine and freshwater species, mississippi
    Mr. Skeen. Please provide a description of the research that has 
been funded under the alternative marine and freshwater species grant.
    Response. The research has focused on the culture of hybrid striped 
bass, prawns, and crawfish. Nutritional requirements and alternative 
management strategies for these species have been evaluated and field 
tested. utilization of improved technologies will enhance production 
efficiency and accelerate the use of these alternative species and 
alternative management strategies in commercial aquaculture.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher indicates that as the 
aquaculture industry continues to grow, it is extremely important to 
consider alternative species and production strategies for culture in 
order to help the industry diversity. Diversification is of benefit to 
both the producer and consumer of aquaculture products.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to develop and 
evaluate aquaculture production technologies that would lead to the use 
of alternative species and management strategies in commercial 
aquaculture production. Research evaluating stocking rates, nutritional 
requirements, and methods to reduce stress in hybrid striped bass 
production systems has led to the development of improved production 
efficiency in these systems. Recent research indicates that feed 
formulations for hybrid striped bass should be adjusted for seasonal 
fluctuations in temperature. Nutritional studies also indicate that the 
niacin requirement for striped bass may be much lower than previously 
reported. Field testing of alternative management strategies for 
crawfish indicates that the most efficient and cost effective 
production strategy involves the appropriate combination of stocking, 
feeding, and harvesting practices. In addition, researchers evaluating 
product quality of cryogenically frozen whole prawns indicate that 
prawns can be kept in frozen storage up to 7 months with no loss of 
quality.
    Mr. Skeen. How long has the work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1991 and the appropriation for fiscal years 1991-1993 has been $275,000 
per year, $258,000 in 1994, and $308,000 in fiscal years 1995-1997 each 
year. A total of $2,007,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The university reports a total of $332,091 of non-federal 
funding to support research carried out under this program for fiscal 
years 1991-1994, $70,636 in fiscal year 1995 and $79,935 in fiscal year 
1996. The primary source of the non-federal funding was from state 
sources.
    Mr. Skeen. Where is the work being carried out?
    Response. Research is being conducted at Mississippi State 
University.
    Mr. Skeen. What was the anticipated completion date for the 
original objective of the project? Have those objectives been met? What 
is the anticipated completion date of additional or related objectives?
    Response. The original specific research objectives were to be 
completed in 1994. These specific research objectives have been met, 
however, the broader research objectives of the program are still being 
addressed. The specific research outlined in the current proposal will 
be completed in fiscal year 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates the progress of this project on an 
annual basis. The university is required to submit an accomplishment 
report when the new grant proposal is submitted to CSREES for funding. 
The 1996 review indicated that the research addresses an important 
opportunity in the aquaculture industry, that progress on previous 
research was well documented, and that the proposed research builds on 
the previous work funded through this program.
                 animal science food safety consortium
    Mr. Skeen. Please provide a description of the research that has 
been funded under the animal science food safety consortium program.
    Response. The research goal of the consortium has been to enhance 
the safety of red meat and poultry products for human consumption. 
Research has focused on accomplishing six objectives: (1) develop rapid 
detection techniques for pathogenic bacteria and toxic chemicals for 
use by the red meat and poultry production-marking system; (2) devise a 
statistical framework from which to develop tolerance levels for these 
hazardous substances; (3) identify effective interdiction points and 
develop methods to prevent or reduce substance presence; (4) develop 
monitoring techniques and methodologies to detect and estimate the 
human health risk of these contaminants; (5) develop technologies to 
reduce hazards and enhance quality of animal food products to 
complement the development of Hazard Analysis Critical Control Point 
(HACCP) programs by the Department's Food Safety and Inspection 
Service; and (6) estimate benefits and costs and risks associated with 
interdiction alternatives. The consortium's researchers have focused 
their efforts primarily on the first, fifth, and sixth objectives.
    Mr. Skeen. According to the research proposal, or the principal 
researchers, what is the national, regional, or local need for this 
research?
    Response. The principal researchers believe a safer national meat 
product food supply could reduce large economic losses, they estimate 
$4 to $7 billion a year, as a result of lost productivity and wages and 
medical treatment of victims of food-borne illnesses, in addition to 
reducing the human suffering and loss of life that occur every year as 
a result of these illnesses. Safer products could also find greater 
acceptance in global markets, and, therefore, could contribute to 
increased meat product exports and rural economic growth.
    Mr. Skeen. What was the original goal of this research, and what 
has been accomplished to date?
    Response. The goal is to develop detection, prevention, and 
monitoring techniques that will reduce or eliminate the presence of 
food borne pathogens and toxic substances from the Nation's red meat 
and poultry supplies.
    The consortium is organized and operated along institutional lines 
with a coordinator and directors managing the research program. 
Advisory and technical committees consist of outside representation and 
provide advice on research planning and expertise on technical matters.
    Major accomplishments this past year by the University of Arkansas 
include showing that young infants and children are more likely to be 
infected with Salmonella by caretakers than through food consumption, 
developing a technique to distinguish strains of Salmonella that are 
epidemiologically related, discovering anti-microbial bacteriocins with 
potentially broad application in the food system, and testing a process 
for mechanically stripping meat from poultry carcasses which may reduce 
microbiological contamination. Researchers have also developed a 
research oven which is leading to valuable models for cooking processes 
that kill pathogens while retaining quality of cooked poultry. They 
have also found that certain enzyme-linked immunosorbent assays for 
Listeria monocytogenes may not be useful in detecting these pathogens 
in cooked food products as on uncooked products. An experimental system 
for detection of Salmonella typhimurium organisms in pure culture has 
been developed which is based on immunomagnetic, immunofluorescent 
staining and image analysis which results in a significant reduction in 
time for analysis. Intervention techniques have been shown to aid in 
the reduction of bacterial populations as an integral component in 
successful HACCP program implementation.
    Major accomplishments this past year at Iowa State University 
include development of rapid detection methods for foodborne pathogens 
in live swine and on pork products, intervention approaches at 
production and processing levels to enhance product safety, and 
assessment of health risks from pathogens which may be borne by pork or 
pork products. Specifics include the application of polymerase chain 
reaction technology to detect and differentiate, Campylobacter jejuni 
and the more prevalent Campylobacter Coli in pork, effective 
application of enzyme-linked immunosorbent assays to identification and 
antibodies against prevalent Salmonella species in swine sera and pork 
meat extracts, and development of a reliable culture test for rapid 
detection and differentiation of coliform and E. coli bacteria. 
Effectiveness of a new vaccine for Salmonella developed with partial 
sponsorship of the Consortium has been assessed in laboratory 
experimentation and field experience. Research found that bacteria are 
readily inactivated by practical levels of irradiation but viruses, 
especially the small RNA viruses were quite resistant to irradiation 
and were not sensitized to low heat treatment which would be sublethal 
to non-irradiated contaminated pork. Willingness to pay for irradiated 
pork or chicken was 10-30% above non-irradiated products in customer 
market tests. Risk assessment studies on foodborne pathogens placed 
public health impact from pork at high level for no pathogens, at 
moderate level for Salmonella, Yersinia, Clostridium, and 
Staphylococcus, and at low to negligible level for all other potential 
pork borne pathogens.
    Kansas State University has demonstrated under commercial 
conditions that electronic identification systems to track and 
determine contamination points for beef cattle are feasible from an 
implant retention, operational, or retrievability standpoint; developed 
analytical procedures to detect mycotoxin and organophosphate pesticide 
contaminates in animal tissue; demonstrated optimum carcass washing and 
trimming practices supplemental treatments of carcasses and cuts after 
final handling to be effective in the removal of pathogens; and 
demonstrated the efficacy of steam pasteurization and steam vacuuming 
in eliminating pathogenic bacteria from beef carcasses. University 
researchers have also determined that low dose irradiation is a viable 
intervention technology with minimal effects on beef quality; 
demonstrated that processing protocols for large diameter Lebanon 
bologna are sufficient to control E. coli 0157:H7; determined that 
monitoring endpoint cooking temperature of ground beef patties or 
following a prescribed time/temperature interaction known to achieve a 
given endpoint are the safest ways to prevent consumption of 
undercooked ground beef; and developed technology to enhance growth of 
pathogenic bacteria so they can be rapidly detected at very low but 
potentially hazardous levels.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $1,400,000; fiscal year 1990, $1,678,000; 
fiscal year 1991, $1,845,000; fiscal years 1992-1993, $1,942,000 per 
year; fiscal year 1994, $1,825,000; fiscal years 1995-1996, $1,743,000 
each year; and fiscal year 1997, $1,690,000. A total of $15,808,000 has 
been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are as follows: $1,313,653 State appropriations, $2,959 product sales, 
$35,600 industry, and $259,735 miscellaneous for a total of $1,611,947 
in 1991; $1,270,835 State appropriations, $10,129 product sales, 
$90,505 industry, and $267,590 miscellaneous for a total of $1,639,059 
in 1992; $1,334,680 State appropriations, $1,365 product sales, $33,800 
industry, and $356,308 miscellaneous for a total of $1,726,153 in 1993; 
$1,911,389 State appropriations, $192,834 industry, and $200,000 
miscellaneous for a total of $2,304,223 in 1994; $1,761,290 State 
appropriations, $221,970 industry, and $91,885 miscellaneous for a 
total of $2,075,145 in 1995; $2,643,666 State appropriations and 
$152,431 industry, for a total of $2,796,097 in 1996; and $1,508,112 
State appropriations, $638,172 industry, and $129,753 product sales, 
for a total of $2,276,037 in 1997. Thus, from 1991 through 1997 a total 
of $14,428,661 in non-federal funds was provided.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at the University of Arkansas 
at Fayetteville, the University of Arkansas for Medical Sciences at 
Little Rock, Arkansas Children's Hospital, Iowa State University, and 
Kansas State University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional related 
objectives?
    Response. The current program of research outlined under the 
Consortium's revised strategic research plan should be completed in 
1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An agency science specialist evaluates the progress of 
this project on an annual basis.
                apple fire blight, michigan and new york
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Apple Fire Blight, Michigan and New York grant.
    Response. This project studies fire blight in apple trees, which is 
a disease that can kill fruit spurs, branches, and whole trees. The 
research supported under this project will help develop fire blight 
resistant varieties, evaluate biological and chemical controls, and 
develops an education and extension component.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. Fire blight is a destructive disease of apple trees that 
can kill fruit spurs, branches, and whole trees. This disease is caused 
by bacteria and effects apple trees in all apple growing areas of the 
nation. In the northeast, the disease is more prevalent because of 
humid weather conditions. The management of this disease is difficult 
because only one antibiotic treatment is available.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The objectives are to develop transgenic apple trees 
through various molecular technologies, to develop new approaches to 
antibiotic treatment of the disease, to develop an early screening 
technique for tree sensitivity to the disease, to evaluate biological 
and cultural controls and to develop and improve education and 
extension components of disease management. The last objective involves 
using disease prediction models, especially the MARYBLYT tm.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Fiscal year 1997 was the first year funds were 
appropriated for this grant. A total of $325,000 was appropriated.
    Mr. Skeen. What are the source and amount of non-federal funds 
provided by fiscal year?
    Response. The proposed non-federal funds for 1997 for the Michigan 
proposal are estimated for state appropriated matching at $20,127 in 
salaries and $20,000 miscellaneous whereas New York is estimating state 
appropriated funds at $104,166 for 1997.
    Mr. Skeen. Where will this work be carried out?
    Response. Research will be conducted Michigan State University and 
Cornell University, New York Experiment Station.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated date of completion of the projects is in 
fiscal year 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The projects underwent merit reviews in January 1997. The 
objectives outlined in the proposal appear to be satisfactory to meet 
the goals.
                         aquaculture, illinois
    Mr. Skeen. Please provide a description of the research that has 
been funded under the aquaculture, Illinois grant.
    Response. Researchers are developing and evaluating closed system 
technology for application to commercial aquaculture. System design and 
cost of production analysis for these systems have been conducted in 
commercial trials and pilot studies.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The principal researcher believes the development of 
alternative aquaculture production systems, such as closed 
recirculating systems, would reduce demands for water and would provide 
for greater control over production in aquaculture systems. Closed 
systems could be established independent of climatic condition in any 
region of the country. These systems also offer greater opportunity to 
manage aquacultural waste and reduce environmental impact.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of this program is to develop closed 
recirculating aquacultural systems in order to lower production cost, 
improve product quality, and reduce the potential environmental impact 
of aquacultural production systems. An analysis of production costs and 
risk factors has been conducted on a new system design and on 
commercial systems in cooperation with the private sector. Best 
management practices have been developed for these systems. Solid waste 
management techniques are also being evaluated.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1992. The appropriation for fiscal years 1992-1993 was $200,000 per 
year; fiscal year 1994, $188,000; and fiscal years 1995-1997, $169,000 
each year. A total of $1,095,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The university estimates that non-federal funding for 
this program is as follows: in fiscal year 1992, $370,000; in fiscal 
year 1993, $126,389; in fiscal year 1994, $191,789; in fiscal year 
1995, $152,682; and in fiscal year 1996, $171,970. The primary source 
of funding is from state with gifts and grants accounting for the 
remainder. This estimate does not include substantial in-kind 
contributions from industry as this program conducts cooperative 
research with commercial producers.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being carried out at Illinois State 
University at Normal, Illinois, through a subcontract with the 
University of Illinois.
    Mr. Skeen. What was the anticipated completion date for the 
original objective of the project? Have those objectives been met? What 
is the anticipated completion date of additional or related objectives?
    Response. The original objectives were to be completed in fiscal 
year 1995. The original specific objectives have been met. The specific 
research outlined in the current proposal will be completed in fiscal 
year 1997.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates the progress of this project on an 
annual basis. The university is required to provide an accomplishment 
report each year when the new grant proposal is submitted to CSREES for 
funding. The 1996 review of the project indicated that the project has 
met stated objectives.
                         aquaculture, louisiana
    Mr. Skeen. Please provide a description of the research that has 
been funded under the aquaculture, Louisiana grant.
    Response. Research has focused on catfish, crawfish, redfish, and 
hybrid striped bass in commercial aquaculture. Research has included 
basic and applied research in the areas of production systems, 
genetics, aquatic animal health, nutrition, and product quality.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher indicates that there is a need 
to improve production efficiency for a number of important aquaculture 
species such as catfish, crawfish, hybrid striped bass, and redfish in 
order to enhance the profitability and sustainability of the 
aquaculture industry in the region. The research also addresses the 
issue of food safety and the quality of farm-raised products.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to expand the 
technology base to enhance the development of aquaculture through a 
broad research program that addresses the needs of the industry. The 
University has completed studies in the area of fish nutrition, fish 
health, production management strategies, alternative species, seafood 
processing and broodstock development. Research has led to improved 
feed formulations, improved production strategies for crawfish, and 
improved processing technologies for aquaculture products.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. Research to be conducted under this program will continue 
research initiated under the Aquaculture General program in fiscal 
years 1988 through 1991. The work supported by this new grant category 
began in fiscal year 1992 and the appropriation for fiscal years 1992-
1993 was $390,000 per year, $367,000 in fiscal year 1994, and $330,000 
in fiscal years 1995-1997 each year, for a total of $2,137,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The university estimates that non-federal funding for 
this program is as follows: in fiscal year 1991, $310,051; in fiscal 
year 1992, $266,857; in fiscal year 1993, $249,320; in fiscal year 
1994, $188,816; in fiscal year 1995, $159,810; and in fiscal year 1996, 
$150,104. The primary source of this funding is from state sources with 
minor contributions from industry and other non-federal sources.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at Louisiana State 
University.
    Mr. Skeen. What was the anticipated completion date for the 
original objective of the project? Have those objectives been met? What 
is the anticipated completion date of additional or related objectives?
    Response. The original specific objectives were to be completed in 
1990. These specific research objectives have been met. The specific 
research outline in the current proposal will be completed in fiscal 
year 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates the progress of this project on an 
annual basis. The university is required to provide an accomplishment 
report each year when the new grant proposal is submitted to CSREES for 
funding. In addition, the CSREES program manager made a site visit in 
1996 to meet with the scientists involved in the project and review the 
progress of the research. The 1996 review of the project indicated that 
the research is addressing important research needs of the aquaculture 
industry, the proposed research represented a logical progression of 
research previously funded through this program, and that the progress 
on previous research funded under this program is well documented.s
             aquaculture research, stoneville, mississippi
    Mr. Skeen. Please provide a description of the research funded 
under the aquaculture research, Stoneville, Mississippi, grant.
    Response. The primary objectives of this research have been to 
improve practical feeds and feeding strategies and improve water 
quality in channel catfish ponds. Additionally, scientists are 
evaluating the application of acoustical instrumentation in commercial 
aquaculture.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The principal researcher indicates that the research 
findings from this project have a direct impact on the profitability 
and sustainability of a significant segment of the domestic aquaculture 
industry. The farmed-raised catfish industry accounts for over 55 
percent of the total U.S. aquaculture industry. Research funded in this 
program is directed towards two of the most important research needs of 
the industry; water quality and improved feeds and feeding strategies.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to address the 
research needs of the catfish industry in the areas of water quality 
and nutrition. The research has led to improved waste quality 
management practices in commercial catfish ponds. Research in the area 
of catfish nutrition has led to improved diet formulation and feeding 
strategies that have been widely adopted by the industry. Scientists 
are currently evaluating five protein levels under two different 
feeding regimes using conditions that closely reflect commercial 
catfish ponds. Studies evaluating acoustical instrumentation have 
demonstrated possible applications in commercial aquaculture. 
Researchers are determining the accuracy and effectiveness of upgrade 
and calibrated acoustical monitoring equipment.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal years 1980-81, $150,000 per year; fiscal year 1982, 
$240,000; fiscal years 1983-84, $270,000 per year; fiscal year 1985, 
$420,000; fiscal years 1986-87, $400,000 per year; fiscal year 1988, 
$500,000; fiscal year 1989, $588,000; fiscal year 1990, $581,000; 
fiscal year 1991, $600,000; fiscal years 1992-1993, $700,000 per year; 
fiscal year 1994, $658,000; and fiscal years 1995-1997, $592,000 each 
year. A total of $8,403,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The university estimates a total of $2,101,508 in non-
federal funding to support this research for fiscal years 1991-1994; 
$1,128,451 in fiscal year 1995; and $601,473 in fiscal year 1996. The 
primary source of non-federal funding is from the state. Additional 
funding is provided from product sales, industry contributions, and 
other miscellaneous sources.
    Mr. Skeen. Where is this work being carried out?
    Response. The grants have been awarded to the Mississippi 
Agricultural Experiment Station. All research is conducted at the Delta 
Branch Experiment Station, Stoneville, Mississippi. The acoustical 
research in aquaculture will be conducted in cooperation with the 
National Center for Physical Acoustics at the University of 
Mississippi.
    Mr. Skeen. What was the anticipated completion date for the 
original objective of the project? Have those objectives been met? What 
is the anticipated completion date of additional or related objectives?
    Response. The anticipated completion date for the specific original 
research objectives was 1984. These specific research objectives have 
been met. The specific research outlined in the current proposal will 
be completed in December 1997.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates the progress of this project on an 
annual basis. The university is required to provide an accomplishment 
report when the new proposal is submitted to CSREES for funding. The 
1996 review indicated that the research addresses important 
opportunities in the farm raised catfish industry, significant progress 
has been reported on specific research objectives, and that the 
scientists involved in the project are leading authorities in this area 
of research.
                      aquaculture, north carolina
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Aquaculture, North Carolina grant.
    Response. CSREES has requested the university to submit a grant 
proposal that has not been received. The researchers indicate that the 
research will focus on reducing the environmental impact of aquaculture 
systems, reducing the impact of diseases in cultured finfish, and 
reducing the inherent risk of culturing emerging species.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher indicates that there is a need 
to reduce the environmental impact of aquaculture systems, to enhance 
fish health management strategies, and to reduce the impediments to 
culture selected emerging species. Improved environmental quality and 
improved production efficiency in aquacultural systems could have 
regional and national impacts. Diversification of the industry in terms 
of species cultured is of benefit to both the producer and consumer of 
aquaculture products. The principal researcher believes this research 
to be of national, regional or local needs.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goals of the research are to reduce environmental 
impacts of aquaculture systems by improved system design and improved 
feeding strategies, to evaluate the efficacy of current vaccination 
methods and develop improved methods for vaccine administration, and to 
develop culture techniques for potentially important aquaculture 
species.
    Mr. Skeen. How long has the work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1997 and the appropriation for fiscal year 1997 is $150,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The university reports a total of $94,000 of non-federal 
funding to support research carried under this program for fiscal year 
1997. The primary source of the non-federal funding was from state 
sources.
    Mr. Skeen. Where is the work being carried out?
    Response. Research is being conducted at North Carolina State 
University.
    Mr. Skeen. What was the anticipated completion date for the 
original objective of the project? Have those objectives been met? What 
is the anticipated completion date of additional or related objectives?
    Response. This is the first year of the project. The researchers 
anticipate that the specific research objectives will be completed in 
1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency will conduct the initial review of this 
proposal when it is submitted to CSREES for funding. Since this is the 
first year of the program, the proposal will be externally peer 
reviewed as part of the CSREES evaluation.
   babcock institute for international dairy research and development
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Babcock Institute grant.
    Response. The Babcock Institute for International Dairy Research 
and Development was established with participation of the University of 
Wisconsin-Madison College of Agriculture and Life Sciences, School or 
Veterinary Medicine and the Cooperative Extension Division. The 
objective of the Babcock Institute is to link the U.S. dairy industry 
with the rest of the world through degree training, continuing 
education, technology transfer, adaptive research, scientific 
collaboration and market analysis.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes the need is to 
strengthen dairy industries around the world, to enhance international 
commercial and scientific collaborative opportunities for the U.S. 
dairy industry, and to draw upon global perspectives to build insight 
into the strategic planning of the U.S. dairy industry.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of the Institute remains the linkage of the U.S. 
dairy industry with the rest of the world through training, continuing 
education and outreach, technology transfer, adaptive research, 
scientific collaboration and market analysis. Initial efforts were 
focused on planning and staffing. An initial activity was, and 
continues to be, the development of multilanguage extension materials 
about basic management techniques essential to optimize performance of 
U.S. germplasm overseas. This activity has grown to include manuals on 
Breeding and Genetics, Lactation and Milking, and Basic Dairy Farm 
Financial Management published in English, Spanish, French, Russian, 
and Chinese. Research on potential implications of NAFTA and GATT on 
the U.S. dairy industry was completed. A technical workshop on dairy 
grazing in New Zealand and the midwest was organized and held in 
Madison during the fall of 1993. A technical workshop on Nutrient 
Management, Manure and the Dairy Industry: European Perspectives and 
Wisconsin's Challenges was held in Madison, Wisconsin during September 
1994. A round table was held in January 1995 addressing ``World Dairy 
Markets in the Post-GATT Era.'' Funding from this project also 
supported the Great Lakes Dairy Sheep Symposium in 1995 and 1996, and 
created a World Wide Web site in 1996 for distribution of Babcock 
Institute technical dairy fact sheets in four languages. The first 
International Dairy Short Course for a group of producers and 
technicians from Argentina has been organized on the University of 
Wisconsin Campus. Scientist's are being supported in collaborative 
research with New Zealand <plus-minus>primarily to gain a better 
understanding of grazing systems as related to dairy management.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal years 1992 and 1993, $75,000 per year: fiscal year 
1994, $250,000; and fiscal years 1995-1997, $312,000 per year. A total 
of $1,336,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Response. During fiscal year 1992, $13,145 of State funds were used 
to support this program and $19,745 of State funds in fiscal year 1993 
for a total of $32,890 during the first two years of this research. 
Information is not available for fiscal year 1994-1996.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at the University of 
Wisconsin-Madison College of Agriculture and Life Sciences.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The Babcock Institute's overarching mission has been to 
link the U.S. dairy industry and its trade potential with overseas 
dairy industries and markets. The original objectives of this project 
have remained consistent over the years. However, each year specific 
objectives were proposed to further the mission of the Institute and to 
build on previous accomplishments. The Institute has accomplished 
specific objectives each year in a timely manner. This objective 
remains of increasing importance with continued development of 
international markets for dairy products and technologies. The 
University researchers anticipate that work currently in progress will 
be completed by September 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The Babcock Institute undergoes two independent review 
processes each year. The first is done by a committee of university and 
industry representatives who review the annual research proposal and 
amend it prior to submission to the agency. The annual proposal is 
reviewed by agency technical staff prior to approval for fund release. 
In addition, the institute was included in a comprehensive review of 
the programs of the Department of Dairy Science at the University of 
Wisconsin in May 1995. The agency project officer has conducted two on-
site reviews of the institute since it's formation in 1992. The most 
recent review has found that the approach proposed by the researchers 
is appropriate and that the researchers are well qualified to perform 
the objectives as stated.
               barley feed for rangeland cattle, montana
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Barley Feed for Rangeland Cattle, Montana grant.
    Response. This project will support research on the nutritional 
value of barley cultivars as feed for beef cattle. This effort will 
assist with the breeding and selection of superior types that can be 
more competitive with other feed grains and improve farmer income from 
barley crops grown in rotational systems in the Northern Great Plains.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. Barley as a feed grain is grown extensively in the United 
States. Based on chemical analyses and the experience of some cattle 
feeders the principal researcher believes it should have a feed value 
on par with corn and wheat. However, it is listed as inferior to both 
in feeds hand books and is therefore discounted in the market. 
Comprehensive feeding studies of various barley types will be conducted 
to document the value as a feed grain for beef cattle.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to determine the 
true feed value of barley for feeder cattle, and thereby improve the 
economic return to barley production.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant begins in fiscal year 
1996 and the appropriation for fiscal year 1996 was $250,000, and for 
fiscal year 1997 is $500,000. The total appropriation is $750,000.
    Mr. Skeen. What is the source and amount of nonfederal funds 
provided by fiscal year?
    Response. The Montana State Agricultural Experiment Station is 
estimated to provide $30,000 in staff time and operational funds toward 
this project. The PI has generated an additional $130,000 of grant 
funding to support the work.
    Mr. Skeen. Where is this work being carried out?
    Response. Research will be conducted at Montana State University.
    Mr. Skeen. When was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The project is proposed for completion following fiscal 
year 2001. Progress toward the objectives have been reported by the 
principal researcher.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted?
    Response. The project was peer reviewed in 1996 and judged to be 
scientifically sound and appropriate for the stated objectives.
                      biodiesel research, missouri
    Mr. Skeen. Please provide a description of the research that has 
been funded under the biodiesel research grant.
    Response. Research on biodiesel involves examining the feasibility 
of producing biodiesel and other higher value products from oilseed 
crops including soybeans, canola, sunflower and industrial rapeseed. It 
also involves identifying and evaluating potential markets for the fuel 
and other products. An important thrust is to identify how biodiesel 
and other environmentally-friendly products can help meet state and 
federal environmental mandates of reduced air and water pollution. The 
project is also evaluating local processing plants whereby farmers 
could produce crops, process the crops locally and use the fuel and 
high protein feed coproducts on their farms or locally.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The initial work is being done in Missouri. The results 
may provide the agricultural community with alternative crops and more 
diverse markets, additional marketable products and a locally grown 
source of fuel. This may result in increased investment in local 
communities, additional jobs, and increased value added in the farm and 
rural community sectors. The principal investigator believes this 
research to be of local, regional and national importance.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goals were to examine the feasibility of producing 
biodiesel and other higher value products from oilseed crops, plus to 
increase the value of coproducts. Results indicate that biodiesel can 
be produced most economically from soybeans, primarily because of the 
high value of soybean meal. Research indicates that with a community 
based biodiesel processing plant, costs of production could be as low 
as $0.59 per gallon, although farmers might increase revenues by 
selling the soybean oil rather than using it to produce biodiesel. 
Since small quantities of biodiesel regularly sell for $4.00 to $9.00 
per gallon, the structure of the production, marketing and 
transportation is currently under evaluation to identify more efficient 
and less costly ways to produce and market biodiesel. Also, a study of 
which markets might provide the best opportunity to use increased 
levels of biodiesel is underway. Such markets might include underground 
mining and the marine industry in addition to urban mass transit 
systems and cities having problems meeting more stringent air quality 
mandates. Research results indicate that for each one million gallons 
of biodiesel used in a B20 blend (20 percent biodiesel and 80 percent 
petroleum-based diesel) by the Kansas City, Missouri, transit fleet 
would have the following estimated impacts: almost 100 additional jobs; 
increased investment of $500,000; net increase in personal income of 
$3.2 million; and increase in total economic activity in the region of 
$9.6 million. Research has also identified that rapeseed meal compares 
favorably to soybean meal and blood meal as an animal feed. It has a 
higher escape protein value than soybean meal. This research is carried 
out in close cooperation and coordination with other state and federal 
agencies, plus trade associations such as the National Biodiesel Board, 
the United Soybean Board, American Soybean Association, and others.
    Mr. Skeen. How long has this work been underway, and how much has 
been appropriated, by fiscal year, through fiscal year 1996?
    Response. The work began by this program began in fiscal 1993, and 
the appropriation for that year was $50,000. The appropriation for 1994 
was $141,000; and for fiscal years 1995 and 1996 was $152,000 annually. 
A total of $495,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The source of non-federal funds is state appropriated 
funds. The level in 1994 was $7,310. The funding level 1995 was 
$74,854. Additionally, some work funded by this grant has been 
conducted in cooperation with the National Biodiesel Board, plus the 
Missouri Soybean Merchandising Council. The level of those matching 
funds for these two sources are not available.
    Mr. Skeen. Where is this work being carried out?
    Response. The work is being carried out at the University of 
Missouri-Columbia.
    Mr. Skeen. When do the principal researchers carrying out this work 
anticipate that the work will be complete?
    Response. The principals estimate that the work with biodiesel will 
require an additional two years to complete. Additionally, the work on 
higher value products, such as solvents from biodiesel, is expected to 
be on-going. Successes with the higher value products will help make 
bio-based business more profitable, thus increasing chances for success 
which will result in more value added opportunities for farmers and 
rural communities.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The CSREES agency scientist reviews the annual proposal 
submissions to evaluate progress to date.
                         biotechnology, oregon
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Biotechnology Oregon grant.
    Response. Research that has been funded under the Biotechnology 
Oregon project includes the use of nematodes for biocontrol of insect 
pests; development of bacterial vectors for vaccines and food 
additives; resistance to crown gall disease in plants; enhancement of 
anthocyanin pigments in plants, and enzymes for degrading lignin and 
wood waste.
    Mr. Skeen. According to the research proposal, or the principal 
researchers, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes the research funding is 
requested to enhance the biotechnology research infrastructure in basic 
and applied biotechnology within the cooperating institutions, Oregon 
State University, the University of Oregon, and the Oregon Graduate 
Institute of Science and Technology.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of the program is to improve the biotechnology 
research infrastructure, to foster research discoveries, and to develop 
technologies that lead to agricultural applications. Preference is 
given to research that has potential for commercial development in the 
near future and that has the potential for additional funding from 
other sources. Five research projects in the areas mentioned above were 
funded under the grant in 1996.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1996, and the appropriation for fiscal year 1996 was $217,000, and for 
fiscal year 1997 is $250,000. A total of $467,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. In fiscal year 1995, the State of Oregon appropriated 
$1,226,706 for biotechnology research at Oregon State University. For 
fiscal year 1996, non-federal support amounted to $303,100, mostly from 
the private sector.
    Mr. Skeen. Where is the work being carried out?
    Response. The research is being carried out at three cooperating 
institutions, Oregon State University, the University of Oregon, and 
the Oregon Graduate Institute of Science and Technology.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. Both the overall grant and the individual research 
projects funded under it are funded on a two-year basis. The 
Biotechnology Oregon grant was first awarded in 1996 and the 
anticipated completion date is July 31, 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency has not yet received the Biotechnology Oregon 
proposal for fiscal year 1997. The project was last evaluated for 
scientific merit by a Peer Review Panel in the spring of 1996. The 
panel recommended approval without change in the research approach and 
plans.
                            broom snakeweed
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Broom Snakeweed, New Mexico grant.
    Response. Current research addresses several areas for broom 
snakeweed control, including efforts to understanding more fully the 
onset of invasion and persistence of broom snakeweed, evaluate the 
toxicology and physiological effects of broom snakeweed on livestock, 
and develop an integrated weed management approach for broom snakeweed.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. Broom snakeweed is a serious weed in the southwestern 
United States and adjacent Western States. About 22 percent of 
rangeland in Texas, and 60 percent in New Mexico, is infested to some 
degree by the weed. Current cost for control of broom snakeweed in the 
southwestern United States is estimated at over $41 million. Dense 
broom snakeweed stands cause significant economic losses in the plains, 
prairie and desert areas of the central and southwestern United States. 
Snakeweed is a poisonous plant causing death and abortion in livestock 
and reduced productivity of associated vegetation.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. Ground surveys have been conducted statewide from 1989 to 
map snakeweed distribution and relative density patterns throughout 
every county in New Mexico. This project is in its fourth research 
year. A Geographic Information System--GIS--approach is used to relate 
snakeweed populations to plant communities and soil type in areas where 
snakeweed is particularly dense. Research is addressing three general 
areas which are, first, ecology and management; second, biological 
control studies; and third, toxicology and animal health research. A 
considerable amount of useful research and practical application has 
resulted from this special grant. As an example, in biological control, 
several plant pathogens and insects are proving to be effective in 
snakeweed's control. Another area of emphasis has been grazing 
management techniques and feeding studies to minimize toxicological 
effects on livestock. Feeding trials have demonstrated that snakeweed 
ingestion at 10 percent of diet did not impair fertility or semen 
characteristics in the test animal which was male rats.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $100,000; fiscal year 1990, $148,000; fiscal 
year 1991, $150,000; fiscal years 1992 and 1993, $200,000 per year; 
fiscal year 1994, $188,000; fiscal years 1995 and 1996, $169,000 each 
year; and fiscal year 1997, $175,000. A total of $1,499,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $249,251 state appropriations in 1991; $200,110 state 
appropriations in 1992; $334,779 state appropriations in 1993; $302,793 
state appropriations in 1994; $294,451 state appropriations in 1995; 
and an estimated $300,000 in state appropriations in 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at New Mexico State 
University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The project was initiated in 1989. Currently additional 
and related objectives have evolved and the anticipated completion date 
for these is 1999. Considerable progress has been made on many of the 
objectives. Anticipated completion date of the additional and related 
objectives that have resulted based on the current work would indicate 
another five years.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Each year the grant is peer reviewed and reviewed by 
CSREES's senior scientific staff. A summary of those reviews indicated 
progress in achieving the objectives.
         canola research special grant, kansas state university
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Canola Research grant.
    Response. Rapeseed lines from around the world are being evaluated 
for increased winter hardiness. Elite lines are being used to develop 
canola germplasm lines that will survive the winter in the central 
Great Plains. This will be accomplished using a plant breeding program.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The domestic demand for canola oil has been increasing 
rapidly. With little domestic production, most of the demand has been 
met by imports. Private seed companies are not devoting time or money 
to develop the cultivars needed for canola production in Kansas and 
central Great Plains. Oil seed crushing facilities in the region are 
shutting down for several months each year due to a lack of sunflowers/
soybeans grown in the area. A canola harvest in July would precede the 
sunflower or soybean harvest by three months, help crushing facilities 
continue crushing during this slow period, and maintain jobs. A canola 
industry in the area would also help spread the risk of the producers 
into more than just a small grain commodity base and into the oilseed 
market. Germplasm developed at Kansas State University is being 
evaluated from Virginia and Georgia to Wyoming and Texas and may help 
develop an industry in other areas of the country. The principal 
researcher believes this research to be of national, regional or local 
need.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal was to collect germplasm with increased 
winter hardiness and use it to develop cultivars with sufficient winter 
survivability to be grown in the central Great Plains. At present, 
nearly 700 rapeseed and canola quality lines have been acquired and 
tested. The hardiest have been used as parents to produce lines. In the 
past five years, over 800 crosses have been made. Field and laboratory 
testing began during the fall of 1993. In 1993-94, advanced selections 
from these populations had a 30% increase in winter survival over the 
best released cultivars in western Kansas and in environments where 
winter survival was not a factor, these same lines had a 20% yield 
advantage over the best released cultivars. In 1994-95 this germplasm 
was tested at 12 locations in seven states throughout the Great Plains 
and Midwest. Over all locations, several experimental lines that have 
shown increased winter hardiness in past years had yields equal to the 
best cultivars used as checks. The winter of 1995-96 had been severe in 
the Great Plains as well as most of the country. Severe winter kill is 
expected in the breeding nurseries with only the hardiest plants 
surviving. Advanced lines continued to demonstrate a winter survival 
advantage over previously released cultivars. Over the next several 
years, surviving plants will be advanced and those lines possessing 
superior traits will become the basis of our second generation of 
released cultivars. In 1995, KS3579 was released to other breeders as a 
germplasm. This line has shown significant improvement in winter 
hardiness and will be beneficial in increasing winter hardiness in 
canola cultivars around the world. A canola quality rapeseed cultivar 
is planned for release in the summer of 1997. It will be used as the 
basis for establishing production in south central Kansas, as well as 
other areas of the Great Plains.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Work began on this project in 1992. Funding for fiscal 
year 1992 and fiscal year 1993, was $100,000 per year; fiscal year 1994 
were $94,000; and fiscal years 1995 through 1997 were $85,000 each. A 
total of $549,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Kansas State University has provided $44,960 in fiscal 
year 1992, $21,321 in fiscal year 1993, and $22,336 in fiscal year 
1994, $23,399 in fiscal year 95, $24,513 in fiscal year 96 and $25,679 
in fiscal year 97. An additional $50,000 was provided through a grant 
from Dane G. Hansen Foundation for fiscal years 1993-1995.
    Mr. Skeen. Where is this work being carried out?
    Response. The work is being conducted at Kansas State University, 
Agricultural Experiment Station, Department of Agronomy. The primary 
research site is at Manhattan with additional field locations at 
Hutchinson, Hays, Colby, Belleville, Kingman, Garden City and Parsons, 
Kansas. Germplasm developed by Kansas State University is also being 
cooperatively tested by researchers in Texas, Missouri, Colorado, 
Nebraska, Illinois, Arkansas, Oklahoma, and Wyoming.
    Mr. Skeen. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Response. The original objectives were to develop the factors 
needed to establish canola production in Kansas and the Central Great 
Plains. The primary concern addressed by this project was the lack of 
cultivars adapted to the area. Advanced selections adapted for the 
growing conditions of the great Plains and representing a significant 
improvement in both winter hardiness and yield potential for our unique 
environment, are being developed. Foundation seed of the best of these 
lines will be increased over the 1996-97 growing season and released to 
certified seed growers in 1997. Industrial groups have been 
instrumental in developing a market for the area. Improved germplasm in 
the early generations continues to be identified so progress and 
cultivar improvement can continue. The average time between the initial 
cross and a released variety is 8 to 10 years. The first crosses made 
at Kansas State University were in 1993. Germplasm that is currently 
targeted for improvement will be released in 2007.
    Mr. Skeen. When was the last agency evaluation of this project: 
Provide a summary of the last evaluation conducted.
    Response. This project is reviewed annually, based upon the annual 
progress report and presentation at the Southern Extension and Research 
Activity Information Exchange Group for oilseeds (SERA-IEG-11). The 
review is conducted by the cognizant staff scientist who has determined 
that the research is in accordance with the mission of the agency.
        center for animal health and productivity, pennsylvania
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Center for Animal Health and Productivity grant.
    Response. This research is designed to reduce nutrient transfer to 
the environment surrounding dairy farms in the Chesapeake Bay 
watershed. Progress to date includes the development of a individual 
dairy cow model which will predict absorbed amino acids and the loss of 
nitrogen in manure. This model has been developed into user friendly 
software so that trained farm advisors can evaluate herd nutrient 
management status while on site. A whole farm model has been developed 
which integrates feeding and agronomic practices to predict utilization 
of nitrogen and farm surpluses. Using these tools, a survey of dairy 
farms in the region has been done to assess nitrogen status on dairy 
farms and potential management practices to reduce nitrogen excesses on 
dairy farms. Refinement of the model tools and research to refine 
estimates of the environmental fate of excess nitrogen from dairy farms 
is in progress.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes that reducing non-point 
pollution of ground and surface water by nitrogen from intensive 
livestock production units is of concern, and especially in sensitive 
ecosystems like the Chesapeake Bay. This research is designed to find 
alternative feeding and cropping systems which will reduce net nutrient 
flux on Pennsylvania dairy farms to near zero.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research remains the 
development of whole farm management systems which will reduce nutrient 
losses to the external environment to near zero. To date the 
researchers have developed their own models to more accurately 
formulate rations for individual dairy cows which permit the comparison 
of alternative feeding programs based upon both maximal animal 
performance and minimal nutrient losses in animal waste. This model is 
being tested on select commercial dairy farms to evaluate the extent to 
which total nitrogen losses in manure can be reduced without impacting 
economic performance of the farm. At the same time, whole farm nutrient 
models have been developed to evaluate alternative cropping systems 
which will make maximum use of nutrients from animal waste and minimize 
nutrient flux from the total farm system. These tools are currently 
being used to survey the current status of nutrient balance on farms in 
the area and efforts to fine tune the tools are in progress.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. A grant has been awarded from funds appropriated in 
fiscal year 1993 for $134,000 and in fiscal year 1994 for $126,000. In 
fiscal years 1995-1997, $113,000 has been appropriated each year. A 
total of $599,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. This information is not available at the present time.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at the University of 
Pennsylvania, College of Veterinary Medicine.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The University researchers anticipate that work currently 
underway will be completed by September 1998. This will complete the 
original objectives of the research.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The Center for Animal Health and Productivity project was 
last reviewed in June 1996. An on site review by agency technical staff 
was conducted in June 1995. It was concluded that project objectives 
are within the goals of the program, are within the mission of both the 
USDA and CSREES, and the institution is well equipped and qualified to 
carry out the research project.
              center for innovative food technology, ohio
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Center for Innovative Food Technology grant.
    Response. Funds from the fiscal year 1996 grant are supporting 
research projects on using neural network/fuzzy logic tools to develop 
a model of a growing and processing cycle for processing tomatoes, 
developing specifications for a system and to optimize the techniques 
necessary to satisfactorily package products sterilized non-thermally 
with pulsed electric field systems, to demonstrate whether an 
ultrasonic washing appliance has the capacity to kill common foodborne 
pathogens or modify it to do so, to demonstrate the feasibility of 
using enzyme linked immunosorbent assays in the measurement of 
pesticides in Great Lakes fish, to refine and optimize the performance 
of a prototype turkey deboning system, to develop a vision based 
inspection system for baked goods, and to develop electrostatic coating 
processes for applying powdered materials to food products.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes the value-added food 
processing industry is the largest industry in Midwestern states, 
including Ohio where the industry contributes over $17 billion to the 
annual economy. From an economic development point of view, processing 
and adding value to crops grown within a region is the largest possible 
stimulus to that region's total economic product. This program aims to 
partner with and encourage small and medium sized companies to 
undertake innovative research that might otherwise not be undertaken 
due to risk aversion and limited financial resources for research and 
development in these companies.
    Mr. Skeen. What was the original goal of the research and what has 
been accomplished to date?
    Response. The original goal of the research was to develop 
innovative processing techniques to increase food safety and quality or 
reduce processing costs. The neural network project has led to a model 
that will be used to relate growing and processing variables to product 
quality, resulting in higher product quality at lower cost. The pulsed 
electric field sterilization program has demonstrated the ability to 
produce high quality products with extended shelf stability. The 
research on immunosorbent assays has demonstrated benefits, beyond the 
original scope of the project, to the poultry industry by providing an 
inexpensive and timely method for measuring residual pesticide levels 
in turkeys. The coating project has generated several applications 
where the shelf life of products can be extended.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1995. The project received appropriations of $181,000 in fiscal years 
1995 through 1997. A total of $543,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. In fiscal year 1995, non-federal funds included $26,000 
from state funds and $70,000 from industry memberships. In fiscal year 
1996, non-federal funds included $26,000 in state funds and $80,000 in 
industry funds.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted in the laboratories of the 
Ohio State University and at various participating companies in Ohio, 
Illinois, and Pennsylvania.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional related 
objectives?
    Response. The principal investigator anticipates that some projects 
supported by the fiscal year 1996 grant will have been completed by 
February 28, 1997, while other projects will not be completed until 
February 28, 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An agency science specialist conducts a merit review of 
the proposal submitted in support of the appropriation on an annual 
basis. Since the agency has not yet received the proposal in support of 
the fiscal year 1997 proposal, the last review of the proposal was 
conducted on January 22, 1996. At that time, the agency science 
specialist believed that the projects addressed issues relevant to food 
manufacturing, were scientifically sound, and that satisfactory 
progress was being demonstrated using previously awarded grant funds.
                   center for rural studies, vermont
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Center for Rural Studies grant.
    Response. The University is developing and refining social and 
economic indicators used to evaluate the impact of economic development 
programming and activities. They are also perfecting a delivery format 
for technical assistance for community and small business development. 
A major focus of current research relates to utilizing the World Wide 
Web as a major delivery vehicle.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes that the database and 
analytical capability provide technical indicators and timely 
information to support entrepreneurial and community development 
activities in the State. The program is conducted in concert with other 
University and State agency outreach activities.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal was to create a database and analytical 
capability for rural development in Vermont. Examples of past 
accomplishments include thematic maps presented to help target child 
hunger programs and target places for programmatic intervention; 
analytical reports provided to guide the development of retail shopping 
areas; a reference volume, ``Economic Handbook for Vermont Counties,'' 
produced for public distribution to help Vermont citizens and leaders 
answer the most frequently asked questions about their State and 
counties; currently utilizing the World Wide Web to disseminate 
information and technical assistance.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1992 and the appropriation for fiscal years 1992-1993 was $37,000 per 
year; fiscal year 1994, $35,000; and fiscal years 1995-97, $32,000, for 
a total of $205,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Prior to receipt of any Federal funds in fiscal year 
1991, the Center was supported by $91,130 in State and other non-
federal funds. In fiscal year 1992, these funds increased to $101,298 
and to $143,124 in fiscal year 1993. The amount of non-federal dollars 
was $3,547 for fiscal years 1995-1996 and $2,931 in fiscal year 1997 
plus researcher's salary.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at the University of Vermont.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original completion date was September 30, 1993. The 
original objectives of the research project have been met. The 
completion of additional objectives is scheduled for August 31, 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates merit of research proposals as 
submitted. No formal evaluation of this project has been conducted.
                  chesapeake bay aquaculture, maryland
    Mr. Skeen. Please provide a description of the research funded 
under the Chesapeake Bay Aquaculture grant.
    Response. The objective of this research is to improve the culture 
of striped bass through genetics, reproductive biology, nutrition, 
health management, waste management and product quality. The research 
provides a balance between basic and applied research.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes the Mid-Atlantic region 
of the country has significant opportunities to contribute to the 
overall development of the domestic aquaculture industry. Research 
supported through this program can have broad application and enhance 
production efficiency and the sustainability of aquaculture as a form 
of production agriculture.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original research goal was to generate new knowledge 
that can be utilized by the aquaculture industry to address problems 
limiting the expansion of the industry in Maryland and the Mid-Atlantic 
region. The program focuses on closing the life cycle of the striped 
bass and its hybrids, enhancing production efficiency, and improving 
product quality under aquaculture conditions. Research is conducted in 
the areas of growth, reproduction and development, aquacultural 
systems, product quality, and aquatic animal health. Researchers are 
currently evaluating the performance of triploid striped bass. Progress 
has been made in developing controlled artificial spawning techniques 
and refining the nutritional requirements of striped bass. Scientists 
continue studies to characterize waste production as a function of 
feeding levels to reduce waste generation in striped bass production 
systems.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported under this grant began in fiscal year 
1990 and the appropriation for fiscal year 1990 was $370,000. The 
fiscal years 1991-1993 was $437,000 per year; fiscal year 1994, 
$411,000; and fiscal years 1995-1997 $370,000, each year. A total of 
$3,202,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The university reports the amount of non-federal funding 
for this program is as follows: in fiscal years 1991 and 1992, 
$200,000; in fiscal years 1993 and 1994, $175,000; in fiscal year 1995 
$400,000; and in fiscal year 1996 $536,000. The university reports that 
these funds are from direct state appropriations and other non-federal 
funding sources.
    Mr. Skeen. Where is the work being carried out?
    Response. Research is being conducted at the University of 
Maryland.
    Mr. Skeen. What was the anticipated completion date for the 
original objective of the project? Have those objectives been met? What 
is the anticipated completion date of additional or related objectives?
    Response. The original specific research objectives were to be 
completed in 1993. These specific research objectives have been met. 
The specific research outlined in the current proposal will be 
completed in fiscal year 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates the progress of this project on an 
annual basis. The university is required to submit an accomplishment 
report when the new proposal is submitted to CSREES for funding. The 
1996 review indicated the proposal was well written with objectives 
clearly stated, that adequate progress had been reported on previous 
work, and that the scientific expertise is appropriate for the proposed 
research.
                           coastal cultivars
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Coastal Cultivars grant.
    Response. This project will be undertaken to identify new 
ornamental, fruit, and vegetable crops for the lower coastal plain of 
Georgia and develop management systems for profitable production. This 
effort is designed to improve the rural economy and to help supply an 
expanding market for the products in that region and possibly beyond.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The proposal research under this project has regional 
significance for coastal zone land in the South Eastern U.S. on 
potential new plants for the growing market for ornamentals and 
speciality fruits and vegetables for the area.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to identify new 
plant cultivars to provide alternative crops with economic potential to 
the coastal area.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant begins in fiscal year 
1997 and the appropriation for fiscal year 1997 is $200,000.
    Mr. Skeen. What is the source and amount of nonfederal funds 
provided by fiscal year?
    Response. No funds have been expended to date.
    Mr. Skeen. Where is this work being carried out?
    Response. Research will be conducted at the University of Georgia 
coastal garden.
    Mr. Skeen. When was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The project is projected for three years duration and, 
therefore, should be completed following fiscal year 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The proposal is currently being evaluated for the fiscal 
year 1996 funding increment.
          competitiveness of agriculture products, washington
    Mr. Skeen. Please provide a description of the research that has 
been done under the Competitiveness of Agriculture Products research 
grant?
    Response. This grant improves the global competitiveness of value-
added agricultural and forest products produced in the Pacific 
Northwest region. It identifies and conducts needed research and 
disseminates the results through various activities such as trade 
shows, international conferences, and a variety of media. Research 
focuses on foreign market assessments, product development, and policy 
and trade barriers. Particular attention has been paid to developing 
the technology that can add value to U.S. agricultural and forest 
products in order to make U.S. exports more competitive.
    Mr. Skeen. According to the research proposal, or the principal 
researchers, what is the national, regional, or local need for this 
research?
    Response. The principal researchers believe that rural economic 
development and growth of the Pacific Northwest region is dependent 
upon the ability of the agricultural and forest product sectors to 
penetrate overseas markets, especially in Pacific Rim countries. Japan 
and China present especially attractive prospects for evolving U.S. 
food and forest products exports.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goals were to develop export markets for 
value-added food and forest products produced in the Pacific Northwest 
and to improve competitiveness of these industries.
    Research at Washington State University's International Marketing 
Program for Agricultural Commodities and Trade enables Pacific 
Northwest producers to grow and export Asian and other products never 
before produced in this country on a commercial basis. The Center 
identified export opportunities in East Asia and elsewhere and has 
developed production and marketing systems for Wagyu beef, azuki beans, 
edamame soybean, and wasabi radish, to name a few. Other promising 
products are in the pipeline leading toward commercialization. The 
Center is also developing economical and environmentally-friendly food 
processing techniques. It searches for scientific solutions to trade 
barriers. It monitors progress in multilateral trade agreements, 
leading to opportunities for trade liberalization.
    Research at the University of Washington's Center for International 
Trade in Forest Products has helped open the Japanese housing market to 
U.S. exports. The Center hosted a significant housing export conference 
in Seattle in September 1996 at which the Ambassador Walter Mondale and 
Japanese officials agreed to what has been a major breakthrough in U.S. 
export opportunities. Japanese builders have benefited from the 
Center's research. They have been taught how to lower their costs by 
using U.S. building techniques and products. Value-added exports have 
grown 200 percent since 1989 as Japan deregulated its housing market 
after recognizing the opportunities set forth by this research. Other 
research at the Center developed export and marketing information for 
prefabricated housing, red cedar, substitute products, Russia/China 
trade potential, impact of climate change on competitiveness, U.S./
Canadian trade, and impact of Western supply constraints on Southern 
forest products markets.
    Mr. Skeen. How long has the work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1992. The appropriation for fiscal years 1992-1993 was $800,000 each 
year; fiscal year 1994, $752,000; and fiscal years 1995-97, $677,000 
each year. A total of $4,383,000 has been appropriated.
    Mr. Robinson. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are as follows: $716,986 State appropriations, $209,622 product sales, 
$114,000 industry, and $661,119 miscellaneous for a total of $1,701,727 
in 1991; $727,345 State appropriations, $114,581 product sales, 
$299,000 industry, and $347,425 miscellaneous for a total of $1,488,351 
in 1992; $1,259,437 State appropriations, $55,089 product sales, 
$131,000 industry, and $3,000 miscellaneous for a total of $1,448,526 
in 1993; $801,000 State appropriations, $1,055,000 product sales, 
$1,040,000 industry, and $244,000 miscellaneous for a total of 
$3,140,000 in 1994; $810,000 state appropriations, $42,970 product 
sales, $785,000 industry, and $2,000,000 gift of a ranch due to the 
IMPACT Center's research on Wagyu Cattle, for a total of $3,637,870 in 
1995; and $844,000 State appropriations, $45,000 product sales, 
$900,000 industry, and $45,000 miscellaneous for a total of $1,789,000 
in 1996. The preliminary allocation for 1997 is $1,305,000 state 
appropriations, $92,000 product sales, $1,000,000 industry, and $85,000 
miscellaneous for a total of $2,542,000.
    Mr. Skeen. Where is the work being carried out?
    Response. The research program is being carried out by the 
International Marketing Program for Agricultural Commodities and Trade 
at Washington State University, Pullman, and the Center for 
International Trade in Forest Products at the University of Washington, 
Seattle.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. This is a continuing program of research with long-term, 
crop and animal improvement projects, and long-term agricultural and 
forest products market development projects. As projects are completed, 
new projects are begun. Some of the new projects can be completed by 
2000, but some improvement and development projects will take much 
longer to reach their full potential. Objectives have been met for 
certain products in certain markets, but unmet opportunities abound. 
With the exception of the improvement projects, most of the work can be 
completed by 2000.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted?
    Response. Projects are evaluated annually through review of 
progress reports and periodically through more extensive review. The 
U.S. Department of Agriculture reviewed the Washington State University 
project in 1991. The University of Washington Center is just completing 
a formal 5-year review. The report will be available early in 1997. In 
addition, the Center made comprehensive use of a broadly-construed 
Executive Board having industry, agency, and academic representation to 
review quarterly accomplishment reports and suggest additional 
activities. The last formal on-site Departmental review was in 1991, 
but the Department reviews the project annually and participates in the 
quarterly Executive Board reviews.
                      cool season legume research
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Cool Season Legume Research grant.
    Response. The Cool Season Legume Research Program involves projects 
to improve efficiency and sustainability of pea, lentil, chickpea and 
fava bean cropping systems collaborative research. Scientist from seven 
states where these crops are grown have developed cooperative research 
projects directed toward crop improvement, crop protection, crop 
management and human nutrition product development.
    Mr. Skeen. According to the research proposal, or principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes the original goal of 
this project was to improve efficiency and sustainability of cool 
season food legumes through an integrated collaborative research 
program and genetic resistance to important virus diseases in peas and 
lentils. Evaluation studies of biocontrol agents for root disease 
organisms on peas are underway. Other studies are evaluating 
integration of genetic resistance and chemical control. Considerable 
progress has been made using biotechnology to facilitate gene 
identification and transfer. Management system studies have addressed 
tillage and weed control issues.
    Mr. Skeen. How long has the work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1991 with appropriations for fiscal year 1991 of $375,000; fiscal year 
1992 and 1993 $387,000 per year; fiscal year 1994, $364,000; fiscal 
year 1995, $103,000; fiscal years 1996 and 1997, $329,000. A total of 
$2,274,000 have been appropriated.
    Mr. Skeen. What is the source and amount of nonfederal funds 
provided by fiscal year?
    Response. The nonfederal funds provided for this grant were as 
follows: 1991, $304,761 state appropriations, $14,000 industry, and 
$18,071 other nonfederal; 1992, $364,851 state appropriations, $15,000 
industry, and $14,000 other nonfederal; 1993, $400,191 state 
appropriations, $19,725 industry, and $10,063, other nonfederal, and 
1994, $147,607 nonfederal support. Nonfederal support for 1995 was 
$150,607 and for 1996 it was $386,887.
    Mr. Skeen. Where is this work being carried out?
    Response. Research has been conducted at agricultural experiment 
stations in Idaho, Oregon, Washington, Wisconsin, Minnesota, New York 
and New Hampshire. The funds have been awarded competitively among 
participating states and not all states receive funds each year.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The projected duration of the initial project was five 
years.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation?
    Response. The steering committee made up of growers, industry 
representatives and scientist review this project annually for merit 
relevance. Each annual proposal is made up of sub projects that have 
peer reviewed and selected to address priority issues within each of 
the broad objectives. The combined project is reviewed by CSREES before 
funds are awarded.
          cranberry-blueberry disease and breeding, new jersey
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Cranberry-Blueberry Disease and Breeding, New 
Jersey grant.
    Response. This work has focused on identification and monitoring of 
insect pests on blueberries and cranberries, the identification, 
breeding, and incorporation of superior germplasm into horticulturally-
desirable genotypes, identification and determination of several fungal 
fruit-rotting species, and identification of root-rot resistant 
cranberry genotypes. Overall, research has focused on the attainment of 
cultural management methods that are environmentally compatible, while 
reducing blueberry and cranberry crop losses.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. This project involves diseases having major impacts on 
New Jersey's cranberry and blueberry industries, but the findings here 
are being shared with experts in Wisconsin, Michigan, and New England.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal was the development of cranberry and 
blueberry cultivars compatible with new disease and production 
management strategies. Last year, over 75 blueberry selections were 
moved into advanced testing, and wild blueberry accessions resistant to 
secondary mummy berry infections were identified. The biology and 
seasonal life history of spotted fireworm on cranberry was determined. 
A pheromone trap-based monitoring system for cranberry fruitworm was 
developed and further refined for commercialization in 1997. Blueberry 
fruit volatiles attractive to blueberry maggot were identified and 
tested in the field. Seven major fungal fruit-rotting species were 
identified, and their incidence in 10 major cultivars of blueberry and 
blueberry were determined, and it is likely that resistance to fruit 
rots is specific to fungal species. Researchers identified about 20 
root rot-resistant cranberry genotypes in an artificially inoculated 
field trial.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriately by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1985, $100,000; fiscal years 1986-1987, $95,000 
per year; fiscal years 1988 and 1989, $260,000 per year; fiscal year 
1990, $275,000; fiscal years 1991-1993, $260,000 per year; fiscal year 
1994, $244,000; and fiscal years 1995-1997, $220,000 each year. A total 
of $2,769,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. State and other non-federal sources are providing funds 
in the amount of $93,970 for this grant in fiscal year 1997.
    Mr. Skeen. Where is this work being carried out?
    Response. This research is being conducted at the New Jersey 
Agricultural Experiment Station.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been meet? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated completion date for the original 
objectives was 1995. Those objectives have not been met. To complete 
the breeding, disease and insect management and provision of new 
management guidelines for extension and crop consultants, it is 
estimated that an additional three to nine years will be required.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The last agency evaluation of this project occurred in 
December, 1996. In summary, the evaluation state that the effort has 
continued to be highly productive, with various improved management 
strategies, plant material and environmentally-balanced pesticides 
being areas of major impact.
                            critical issues
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Critical Issues Special Research Grant.
    Response. These grant funds support research on critical issues 
impacting agriculture that require immediate attention. These funds are 
intended to initiate research efforts until other resources can be 
secured to address the critical issues. This program started in fiscal 
year 1996 when one half of our Critical Issues funds were allocated to 
initiate research on potato late blight, which is caused by a fungus, a 
new strain of which has spread through the nation causing extensive 
crop losses. The objective is to have a better understanding of the 
fungus to enable scientists to predict and manage outbreaks with an 
integrated pest management program. The other half of our 1996 Critical 
Issues funds were allocated to initiate research on vesicular 
stomatitis, a disease of horses, cattle, and swine which has symptoms 
very similar to those of food and mouth disease. Livestock producers 
are concerned about the potential adverse impact of quarantine measures 
as a result of the spread of this disease. The objective is to develop 
a better understanding of the disease so more effective control 
measures can be used.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. Both potato late blight and vesicular stomatitis have 
national impact of a critical nature and are therefore both very high 
priority efforts.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. Six research proposals have been funded to address potato 
late blight, and scientists have initiated their work on aspects of 
this epidemic. The first North American Late Blight Workshop was 
convened which involved potato growers and processors, national potato 
organizations, university scientists, and the chemical industry. The 
major contribution of this workshop was the resulting set of 
recommendations for short- and long-term efforts need to solve this 
problem, and workshop organizers set up an Internet homepage which 
invites dialogue on research and education needs for the management of 
late blight.
    Two research proposals have been funded to address vesicular 
stomatitis, which was identified as the highest priority problem in 
1996 in discussions with commodity groups, regulatory veterinarians and 
colleagues in ARS and APHIS. Work has been initiated under the two 
funded projects which are now focusing on transmission of the virus.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1999?
    Response. $200,000 was appropriated in both fiscal years 1996 and 
1997 for a total appropriation of $400,000 to date.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. This information is not currently available.
    Mr. Skeen. Where is this work being carried out?
    Response. Potato late blight work is being carried out at 
Washington State University, Oregon State University, the University of 
Idaho, the University of Wisconsin, and Pennsylvania State University. 
Vesicular stomatitis work is being carried out at Colorado State 
University and the University of Arizona.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The Critical Issues funds are intended to support the 
initiation of research on issues requiring immediate attention until 
other, long-term, resources can be secured. The objectives of the 
projects supported with these funds are short-term and are therefore 
expected to be met within 1-2 years.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Response. All projects were reviewed for scientific merit before 
funding decisions were made. Also, scientists whose work on potato late 
blight and vesicular stomatitis is supported with Critical Issues 
funding are in close contact with CSREES' National Program Leaders so 
that the agency is kept abreast of developments as they occur.
         dairy and meat goat research, prairie view a&m, texas
    Mr. Skeen. Please provide a description of the research that has 
been funded under the dairy goat research grant?
    Response. The program has addressed a range of issues associated 
with goat production. Research by scientists at the International Dairy 
Goat Center, Prairie View A&M University focuses on problems affecting 
goat production in the United States. Issues included are the study of 
nutritional requirements of goats, disease problems, methods to improve 
reproductive efficiency in the doe, the use of gene transfer to improve 
caprine genetics and the evaluation of breeding schemes to improve meat 
and milk production. Currently, research is in progress to develop a 
decision aid for use by small farmers engaged in dairy and meat goat 
production in the gulf coast region in order to ensure incorporation of 
realistic enterprise budget information in their planning process.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes that nationally, most 
of the farm enterprises that include goats are diverse and maintain a 
relatively small number of animals. Responding to disease, nutrition, 
breeding and management problems will improve efficiency of production 
and economic returns to the enterprise.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to conduct 
research that will lead to improvement in goat production among the 
many small producers in the United States. Research has been conducted 
to develop and improve nutritional standards, improve genetic lines for 
meat and milk production and to define mechanisms that impede 
reproductive efficiency in goats. Current efforts focus on the 
development of enterprise budget management tools for goat producers in 
the Texas gulf coast region.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have been awarded through appropriated funds as 
follows: $100,000 per year for fiscal years 1983-85; $95,000 per year 
for fiscal years 1986-88; no funds were appropriated in fiscal year 
1989; $74,000 for fiscal year 1990; $75,000 per year for fiscal years 
1991-1993; $70,000 for fiscal year 1994; and $63,000 per year for 
fiscal years 1995-1997. A total of $1,143,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The University reports no non-federal funds expended on 
this program.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at Prairie View A&M 
University in Texas.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The overall objective of this research is to support the 
needs of small farms engaged in the production of meat and milk from 
goats along the Texas Gulf Coast. The university researchers continue 
to address those needs on an annual basis and anticipate that work 
currently in progress will be completed by the end of fiscal year 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The Dairy/Meat Goat Research grant was reviewed last in 
June 1996. The project objectives are within the goals of the program, 
are within the mission of both USDA and CSREES, and the institution is 
well equipped and qualified to carry out the research project.
                delta rural revitalization, mississippi
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Center for Rural Studies grant.
    Response. The project has gone through several phases in the 
delineation of a strategy for a long-range development plan for the 
Mississippi Delta region. Phase I was completed with the delivery of a 
baseline assessment of the economic, social and political factors that 
enhance or impede the advancement of the region. Phase II of the 
project evaluated the potential for entrepreneurship and small business 
creation as mechanisms to improve economic conditions. Phase III is now 
focusing on technical assistance to Delta region manufacturing firms to 
strengthen their ability to provide employment and incomes. Continued 
emphasis on technical assistance and the development of appropriate 
data bases to guide development opportunities.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national regional or local need for this 
research?
    Response. The principal research believes that the databases, 
technical assistance, and analytical capability will provide more 
impact in support of entrepreneurial and community development 
activities in the State. The program is conducted in concert with other 
University and State agency outreach activities.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal was to develop an analytical baseline 
for the Delta region. A publication titled, ``A Social and Economic 
Portrait of the Delta,'' serves as an analytical baseline for further 
work. A Delta Inventors Society has been created to assist creative 
individuals in developing ideas which can be successfully 
commercialized. An Entrepreneurial Forum was established to help new 
business ventures with start-up advice and assistance. Finally, a 
venture capital association has been formed to help both inventors and 
businessmen find capital resources to carry out their plans. The 
emphasis of the project has now shifted to technical assistance for 
industrial development.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: FY 1989, $175,000; FY 1990, $173,000; FY 1991-1993, $175,000 
per year; FY 1994, $164,000; FY 1995-1997, $148,000 per year. A total 
of $1,481,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Total non-federal funds directed to this project, as 
reported by Mississippi State University, are: FY 1991, $117,866; FY 
1992, $84,402; FY 1993, $68,961. Reports for later years are incomplete 
at this time.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at the Mississippi State 
University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original completion date was September 30, 1990. The 
original objectives of the research project have been met. The 
completion of additional objective is scheduled for September 30, 1997.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates merit of research proposals as 
submitted. No formal evaluation of this project has been conducted.
                      drought mitigation, nebraska
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Drought Mitigation grant.
    Response. This grant supports the National Drought Mitigation 
Center program in the Department of Agricultural Meteorology at the 
University of Nebraska. The Center is developing a comprehensive 
program aimed at lessening societal vulnerability to drought by 
promoting and conducting research on drought mitigation and 
preparedness technologies, improving coordination of drought-related 
activities and actions within and between levels of government, and 
assisting in the development, dissemination, and implementation of 
appropriate mitigation and preparedness technologies in the public and 
private sectors. Emphasis is directed toward research and outreach 
projects and mitigation/management strategies and programs that stress 
risk minimization measures rather than reactive actions.
    Mr. Skeen. According to the research proposal, or the principal 
researchers, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes drought is a normal 
part of climate for virtually all regions of the United States. The 
impacts of drought are diverse and affect the economic, environmental, 
and social sectors of society. Almost without exception, the occurrence 
of widespread severe drought in the past decade has illustrated the 
inadequacy of existing assessment, mitigation, response, and planning 
efforts at the federal, state, and local level. Rather than the 
``crisis management'' approach of the past, a ``risk management'' 
approach is needed where the emphasis is on preventive measures, 
preparedness, education, and mitigation strategies. Until recently, 
little attention has been focused on drought among the long list of 
natural hazards that affect our nation. The Center is receiving non-
federal funds in support of this research from the University of 
Nebraska.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to create a 
National Drought Mitigation Center and develop a comprehensive program 
aimed at lessening societal vulnerability to drought. The Center has 
created an information clearinghouse for drought mitigation 
technologies and associated informational products. This has been 
accomplished through the development of a national drought management 
information system, an electronic portfolio of information available on 
the Internet. About 16,000 users each month connect to the National 
Drought Mitigation Center's home page to gather information on drought 
conditions and management strategies. This home page was used 
extensively by state and federal agencies during the 1996 drought to 
assist in the evaluation and response process. This home page networks 
potential users of drought-related information in the United States and 
elsewhere with information that would otherwise be unavailable or 
inaccessible to users.
    The National Drought Mitigation Center played an important role in 
the response of federal and state government to the 1996 severe drought 
in the Southwest and southern Great Plains states. The Center 
participated in the Multistate Drought Task Force workshop organized at 
the request of President Clinton and helped formulate long-term 
recommendations to improve the way this nation prepares and responds to 
drought. The Center was also a member of the Western Governors' 
Association's Drought Task Force. This task force has also developed 
recommendations to reduce the risks associated with the occurrence of 
drought in the western United States. The Center is actively involved 
with the Western Governor's Association in the implementation of these 
recommendations.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant received an 
appropriation of $200,000 in fiscal years 1995 through 1997, for a 
total appropriation of $600,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The University of Nebraska contributed $75,737 of non-
federal funds in support of this research in fiscal year 1995 and 
$58,977 in fiscal year 1996. The University of Nebraska will contribute 
$61,545 is fiscal year 1997.
    Mr. Skeen. Where is this work being carried out?
    Response. The research will be conducted at the University of 
Nebraska-Lincoln.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? What is the anticipated completion 
date of additional or related objectives?
    Response. The research conducted under this project is being 
undertaken under a series of 10 tasks that have been addressed, but 
these activities are ongoing. The national drought management 
information system has been established but much of this work is 
continuing in order to expand the information available through the 
clearinghouse and to keep it current. For example, the drought watch 
section of the Center's home page is updated monthly to provide users 
with up-to-date information on water and climate conditions nationwide.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The activities of the Center are continuously evaluated 
by users that have access to home page. They provide feedback and 
suggestions on a continuous basis. The Center also solicits input on 
its program and products at workshops and other meetings in which it 
participates.
    The Center has established a national advisory committee that 
consists of three representatives from state government, one from 
federal government, and one from a regional organization. These 
committee members are well known for their expertise in drought 
management. The purpose of this committee members are well known for 
their expertise in drought management. The purpose of this committee is 
to provide feedback to the Center on existing products and program 
direction. This national advisory committee met twice during 1996 to 
advise the director and staff.
                    environmental research, new york
    Mr. Skeen. Please provide a description of the research that has 
been funded under the environmental research grant.
    Response. The environmental research in New York consists of two 
main thrusts which are aimed at understanding the nitrogen flowing from 
agricultural activities and their impacts on adjacent ecosystem 
components, and the agricultural dimensions of global climate change. 
Included in the program are a technology transfer aspect and an 
environmental assessment activity.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes there is a need to 
understand the impacts of ecosystem components upon each other. As 
global change occurs, impacts will become critical.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The main objectives of this program are to identify and 
address interactions and feedbacks between agriculture ecosystems, 
natural ecosystems, and natural resources which affect the long-term 
well being of each. Agroecosystem management strategies that maintain 
agricultural productivity and environmental quality will be devised. 
Policies will be established for addressing problems at the interface 
between agriculture and the environment.
    Ongoing program activities are intended to meet the mentioned 
objectives. Some examples of projects are as follows: Several aspects 
of nitrogen supply interactions with crops and the recovery of 
fertilizer nitrogen at crop harvest. Water quality research has been 
focused on the relation of intensive animal production areas and 
contamination caused by nitrates. Geographic Information System 
capability is being developed to evaluate various scenarios regarding 
the future of agriculture in broad landscape changes.
    In the sixth year of the program, the principal investigators 
proposed to substantially complete research on the two main themes of 
their program to date, namely nitrogen flows from agricultural 
ecosystems to non-agricultural ecosystems and groundwater. A new 
project on carbon storage in soils will be added to continuing work on 
climate. Continuation of their involvement with the Remington Farms 
Sustainable Agriculture Project on the Eastern Shore of Maryland will 
extend the results of their nitrogen research programs to other farms. 
They will also continue two projects that focus on intervention 
strategies to improve management of agricultural systems; one will 
explore the potential for reducing herbicide use by using weather 
forecasts to predict weed competition, and the second will explore the 
use of constructed wetlands to off-set barnyard run-off. The principal 
investigators will expand their activities in watershed management by 
increasing support to the program that was begun last year.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1991 with an appropriation of $297,000. The fiscal years 1992-1993 
appropriations was $575,000 per year; $540,000 in fiscal year 1994; and 
fiscal years 1995 through 1997, $486,000 each year. A total of 
$3,445,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Dr. Robinson. In fiscal year 1991, Cornell University provided 
$27,893 and the State of New York provided $118,014. In fiscal year 
1992, Cornell University provided $37,476 and the State of New York 
$188,915. In fiscal year 1993, Cornell University provided $13,650 and 
the State of new York $243,251. In fiscal year 1994, the State of New 
York provided $214,989. In fiscal year 1995, the State of New York 
provided $233,085. In fiscal year 1996, the State of New York provided 
$388,301.
    Mr. Skeen. Where is this work being carried out?
    Response. This research is being conducted at Cornell University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original estimate was for a five-year program and 
many of the initial objectives in the nitrogen and climate change areas 
have been met. New objectives evolved from the original work and the 
program was also oriented to consider broader dimensions of 
environmental management, particularly strategies for community-based 
watershed management, involving linkage of technical knowledge with 
social and local governmental perspectives and needs. Estimated 
completion dates for current program elements are:
    1997-1998 program year: Impacts of Nhx deposition on forests; 
Landscape evaluation of denitrification; Nitrogen utilization in 
agricultural ecosystems; and, Contributions of agricultural ecosystems 
to climate forcing.
    1998-1999 program year: Nutrient processing wetlands; Use of 
weather forecasts in weed management; Use of constructed wetlands to 
remediate barnyard run-off; Effect of climate variability on crop 
production; and Carbon storage in soils.
    Completion beyond 1999: Watershed science and management; Effects 
of elevated CO2 on crop yield potential; and Remington farms 
sustainable ag. project (a 10-year project).
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates this project through the review of 
an annual proposal submission.
              environmental risk factors/cancer, new york
    Mr. Skeen. Please provide a description of the work that has been 
funded under the Environmental Risk Factors/Cancer research grant.
    Response. The Cooperative State Research, Education, and Extension 
Service has requested the university to submit a grant proposal that is 
currently being reviewed.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, and local need for this 
research?
    Response. The American Cancer Society has estimated that over 
184,000 women in the United States will be diagnosed with breast cancer 
in 1996. The role of environmental risk factors, such as pesticides, is 
of concern to women, the agricultural community, and policymakers. 
While some data exist in the scientific literature, little has been 
done to synthesize and evaluate these studies and make this research 
information available to the people who need it--the general public. 
This project, emphasizing risk reduction prevention information, will 
work at filling that void.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goals of this research are:
    1. To establish a database of critical evaluations on the current 
scientific evidence of breast carcinogenicity and effects on breast 
cancer risk for selected pesticides.
    2. To effectively communicate database information to the 
scientific community, federal agencies, public health professionals, 
the agricultural community, and the general public using innovative 
electronic methods of communication, in-service training sessions, and 
printed materials.
    3. To further develop the Breast Cancer Environmental Risk Factors 
World Wide Web to improve ease of use, add informational materials and 
hyperlinks, and determine the feasibility of developing an online, 
searchable bibliography on pesticides and breast cancer risk accessible 
through this Web site.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant is scheduled to begin in 
fiscal year 1997. The appropriation requested for fiscal year 1997 is 
$93,461.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $150,000 state appropriations for fiscal year 1996; 
$250,000 in state funds (New York) has been requested for fiscal year 
1997.
    Mr. Skeen. Where is this work being carried out?
    Response. This research will be conducted at the Cornell 
University, Ithaca, New York.
    Mr. Skeen. What was the anticipated completion date for the 
original objective of the project? Have those objectives been met? What 
is the anticipated completion date of additional or related objectives?
    Response. This is a new project--not yet funded--scheduled to begin 
in April 1997. The anticipated completion date is March 31, 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. As a new project, an evaluation has not been conducted, 
although the proposal is currently under review. Periodic progress 
reports are made throughout the year. A final evaluation will be made 
after March 31, 1998.
                    expanded wheat pasture, oklahoma
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Expanded Wheat Pasture, Oklahoma grant.
    Response. This project was designed to develop improved 
supplementation programs and new systems for technology delivery to 
reduce production risk of raising cattle on wheat pasture. The work 
involves evaluation of grazing termination date on grain and beef 
production, assess the impact of wheat cultural practices and develop 
an economic model to evaluate alternative decisions on grain/beef 
production. Additional effort is directed toward development of cool 
season perennial forage grasses to complement wheat pasture. The 
proposal for fiscal year 1996 has been received and is being processed.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal research believes that this work addresses 
the needs of wheat/cattle producers of Oklahoma as a primary focus. 
However, it would appear to have some application regionally in 
adjacent states. The principal researcher suggests the research will 
indicate mutual benefit to wheat grower and livestock producer.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to develop 
economically viable management systems for use of wheat for 
supplemental pasture for beef cattle before the crop starts making 
grain. This work has already shown how the use of feed supplements can 
increase net profit from cattle grazing on wheat pasture. The study has 
identified management practices, e.g., date of planting, cultivar 
selection, grazing intensity and date of cattle removal that produce 
the optimum grain yield and cattle gain. A Wheat/Stocker Management 
Model has been developed as a decision aid to help producers assess 
income risk in the operation. Work is underway on a Wheat Grazing 
Systems simulation model.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1989 and appropriations were as follows: fiscal year 1989, $400,000; 
fiscal year 1990, $148,000; fiscal year 1991, $275,000; fiscal years 
1992-1993, $337,000 per year; fiscal year 1994, $317,000, and fiscal 
years 1995-1997, $285,000 each year. A total of $2,669,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The nonfederal funds and sources provided for this grant 
were as follows: $175,796 state appropriations in 1991; $174,074 state 
appropriations in 1992; and $236,584 state appropriations in 1993. The 
non-federal support for 1994 was $234,058 for state appropriations. 
Funds for FY 1995 were $275,426, and for 1996 were $120,000.
    Mr. Skeen. Where is this work being carried out?
    Response. The research is being done at Oklahoma State University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. This project started in 1989 with a projection of 10 
years to complete the research objectives. Some objectives are nearing 
completion while others will probably require further study. A number 
of wheat cultivars have been identified which will tolerate grazing and 
still produce economic grain yields. The grazing cut off date for grain 
production has been established. However, year to year variation needs 
additional study in order to develop a reliable decision support 
system.
    Mr. Skeen. When was the last agency evaluation of this project? 
provide a summary of the last evaluation conducted.
    Response. This program has not been subjected to a comprehensive 
review. However, each year's funding cycle is reviewed internally and 
by CSREES scientist for scientific merit and relevance.
                   expert ipm decision support system
    Mr. Skeen. Please provide a description of the research that has 
been funded under the grant.
    Response. A prototype information and decision support system was 
developed in collaboration with Purdue University and the Department of 
Energy's Argonne National Laboratory that integrates and manages 
information from multiple data sources. Information on the status of: 
EPA review of pesticides, losses caused by pests, status of alternative 
tactics, status of minor use registrations, current research in 
progress, and priorities of IPM implementation teams are integrated in 
the Pest Management Information Decision Support System (PMI/DSS). 
Information on the genetic resistance of pests has been planned with 
Michigan State University but the resources to implement the plan have 
not been available to date. With the information in the current data 
base, commodity/pest problem are prioritized using a science-based 
logic developed by Argonne National Laboratory personnel based on key 
policy concerns. The need for decision support and information is 
greater than in the past with the passage of the Food Quality 
Protection Act of 1996. The act requires the Environmental Protection 
Agency (EPA) to place greater reliance on science, dietary exposure to 
pesticides, reasonable risks, and emphasis on children's diets and 
exposure. The act also recognizes IPM as helping to provide workable 
solutions to pesticide problems. The decision support system is 
incorporating increased information to address these needs. The data 
fields and sources of the data bases that will contribute to additional 
information are: Risk Assessments (EPA), Registered Alternatives by 
Commodities for pesticides Under EPA Review (EPA Registration Tapes), 
Critical Pest Problem with Removal of Suspect Pesticides (State IPM 
Teams and NAPIAP State Liaison Coordinators; Commodity Groups), State 
Crop Production (U.S. Census), Pesticide Tolerances on Commodities (EPA 
Data Bases), Market Basket Residues on Commodities (AMS and EPA 
Analyses), Dietary Habits of Adults and Children (1977 data base, and 
data bases to be developed), Method of Use and Reduction of Risk (State 
IPM Teams and NAPIAP State Liaison Coordinators; Commodity Groups), IPM 
Dependence (State IPM Team Data Bases).
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The PMI/DSS serves national, regional, and local needs 
for research and extension activities. At the national level, the 
system supports the USDA/USEPA Memorandum of Understanding (MOU) to 
find alternatives to pesticides under regulatory review or being lost 
due to genetic resistance. The data base has identified priorities for 
the Pest Management Alternatives request for proposals for the past two 
years and interacts with the project system of the IR-4 Minor Use 
Registration Program. It also is interacting with the identification of 
priorities for research and extension activities in the regional IPM 
Special Grant and Special Projects. It provides a mechanism for growers 
and grower organizations to interact with the priority process and the 
ultimate result is to help insure that farmers have alternatives for 
managing pests at the specific local level.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of the PMI/DSS is to refine the process to 
identify IPM needs of USDA, EPA, and states by addressing critical 
needs, reinforce state and federal partnerships to disseminate 
important pest management information for improved decision making, 
profitability, and environmental quality, and to address future 
applications and needs. In 1996 and 1997, the program addressed 
priority commodity pest management needs due to voluntary pesticide 
cancellations and regulatory cancellations responding to the MOU and 
supplemental MOU between EPA and USDA. The supplemental MOU was signed 
in April, 1996. In 1996, there were 58 pesticides and 374 uses 
identified and prioritized. The process included information on 
cancellations furnished by EPA, selected uses were sent to the states 
NAPIAP and IPM network and impacts of cancellations effecting 
individual state agriculture reported back for compilation in the 
decision support system. The results were used in the 1996 and 1997 
request for proposals for the Pest Management Alternatives Program. 
Twenty-five minor commodities on which 40 specific pest were identified 
in the 1997 request for proposals. This was the first time that we have 
identified specific commodity/pest combinations for which proposal were 
limited. Results were also used by the regional IPM request for 
proposals. As I previously stated, the program is currently addressing 
issues associated with the Food Quality Protection Act which increases 
the information requirements significantly.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. In fiscal year 1994 we expended $40,000 of CSRESS 
administrative funds and $90,000 from Science and Education Evaluation 
Funds to initiate collaborative work with the Argonne National 
Laboratory. In fiscal year 1995 we expended $172,000 as a Cooperative 
Agreement and Purdue University and Argonne National Laboratory from 
the Pest Management Alternative Special Grant Funds and $5,000 from 
NAPIAP funds. In fiscal year 1996 we expended $177,000 in a cooperative 
agreement with Purdue University and Argonne National Laboratory from 
Pest Management Alternative Special Grant Funds, $21,000 from Research, 
Extension, and Education Evaluation Funds, and $40,000 from NAPIAP 
funds (for development of NAPIAP data fields. In fiscal year 1997 we 
are expending $165,425 to Purdue University and Argonne National 
Laboratory. The total resources to date are $710,425.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. It is difficult for us to estimate the amount of non-
federal funds supporting the Pest Management Information, Decision 
Support System. Purdue University and Cornell University have 
contributed non federal resources to the oversight of the information, 
decision support system as well as a number of states that have 
provided information that is part of the information base. Many program 
areas are contributing data bases that are run on the Pest Management 
Information, Decision Support System.
    Mr. Skeen. Where is this work being carried out?
    Response. The bulk of the work is carried out in Washington, D.C. 
CSREES has National Program Leaders in IPM, NAPIAP, and IR-4 program 
areas working on the Pest Management Information, Decision Support 
System. The Argonne National Laboratory has a Washington, D.C. office 
where information, decision support personnel are housed and there are 
daily interactions between CSREES and other USDA staff personnel on a 
daily basis. Interactions and information is provided by every state in 
our system. We are in the process of institutionalizing this program by 
hiring and assigning dedicated staff to this area.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated complex date of additional or related 
objectives?
    Response. Our original estimates was two- to three-years with 
adequate resources to complete the developmental work. However, the 
design considerations become more complex as program needs dictate 
expansion of the information base such as the developments under the 
Food Quality Protection Act. In addition, the technology is moving so 
swiftly that we must continue to do updating. We feel we are reasonably 
meeting our objectives with resources that are available. As I 
indicated, we are institutionalizing this activity and it will become 
an ongoing activity of the agency of increasing importance.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Response. We have a guidance committee that gives us input on an 
ongoing basis. We conduct an annual evaluation of the progress in this 
program. A specific technical evaluation was made of the Toulmin-based 
logic that underlies the design and decision support process in fiscal 
year 1996. It was concluded that this science-based logic has 
significant relevance to decision making in agricultural pest 
management systems. We are currently developing plans for an intensive 
outside review of the system and proposed directions involving 
personnel in participating program areas, research and extension 
partners, and grower organizations. The review includes World Wide Web 
activities and evaluation input from a wide community of users and 
potential users.
         farm and rural business finance, illinois and arkansas
    Mr. Skeen. Please provide a description of the research that has 
been funded under the farm and rural business finance program.
    Response. The long-range plan of work for this program focuses on 
three principal areas. One is the financial management and performance 
of rural businesses which includes on-going research into financial 
management and decisionmaking by farm and argibusiness firms 
complemented by evaluation of the performance of existing firms and 
training programs for farm and rural business owners. The second area 
includes research on financial markets and credit institutions serving 
rural America with emphasis on pricing and credit evaluation of loans, 
evaluation of credit relationships, identification of key factors 
affecting the supply and demand for financial capital, and evaluation 
of financial innovations for farm and rural business finance. The third 
area addresses the impact of public policies and programs on the 
financial health of rural America, measures the effect of regulatory 
changes on the performance of financial institutions, evaluates 
organizational alternatives for rural credit markets and analyzes the 
effects of geographical liberalization of commercial banking on 
structure and performance.
    Mr. Skeen. What is the national, regional, or local need for this 
research?
    Response. The principal researcher believes traditional 
characteristics of agriculture such as capital intensive businesses, 
variable prices and production and seasonality present unique risks 
with important implications for the cost and availability of financial 
capital for farm and rural businesses. In the present uncertain policy 
and budget environment, identification of new sources of financial 
capital and innovative programs are essential to enhance the financial 
capacity for undertaking rural development programs and responding to 
growth opportunities in rural businesses.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal is to assist farmers and rural businesses with 
research-based information on financial management as they deal with 
changing and increasingly complex financial markets. The program has 
completed projects on the financial structure and efficiency of grain 
farms, risk and financial implications of vertical coordination in hog 
production, commercial bank access to agency market funds through 
government sponsored enterprises, and competitive challenges for 
bankers in financing agriculture. Additional projects in various stages 
of completion include investigate the financial implications of 
property tax reform at the State level and investment options for 
farmers and businesses during high income periods. Other projects weigh 
regulatory costs in rural lending, conduct statistical analysis of 
Chapter 12 bankruptcy filing data, and identify determinants of the 
type and terms of leases used in agriculture.
    Mr. Skeen. How long has the work been underway, and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work has been underway since 1992. Appropriations 
were $125,000 in FY 1992, $125,000 in FY 1993, $118,000 in FY 1994, and 
$106,000 in FY 1995 through FY 1997. Appropriations through FY 1997 
total $686,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal sources and funds provided for this 
program in FY 1992 total $259,427 with $58,427 in State appropriations, 
$189,000 from industry and $12,000 from miscellaneous sources. In FY 
1993, the total was $287,890 with $94,588 in State appropriations, 
$133,000 from industry and $25,000 from miscellaneous sources. In FY 
1994, the total was $391,000 with $221,000 coming from State 
appropriations, $45,000 from industry and $125,000 from miscellaneous 
sources. In FY 1995 the total was $185,000 where $46,000 came from 
State appropriations, $62,500 from industry and $76,500 from 
miscellaneous sources. In FY 1996, the total was $344,000 where 
$294,000 was appropriated from State sources and $50,000 from private 
sources. In FY 1997, $177,000 is being appropriated from State sources.
    Mr. Skeen. Where is the work being carried out?
    Response. The work is being carried out at the University of 
Illinois and University of Arkansas.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original objectives of the program were amended with 
additional funding and new termination dates which now extend to fiscal 
year 1998. While many of the objectives have been met, the principal 
researcher believes that new dimensions of the originally proposed 
objectives need to be addressed as a result of changing conditions and 
new financial environments. Anticipated completion date of these 
related objectives will extend into fiscal year 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the latest evaluation conducted.
    Response. The project is evaluated with the submission of the 
annual proposal and as progress reports are received. The program has 
supported projects which cover topics involving farm and rural business 
finance. During this past year, the projects have been responsive to 
the changing policy and financial risk environment including the 
examination of financial impacts of vertical coordination in the 
livestock industry and impacts of structural change within the rural 
finance sector. Evaluation of the program considers methodologies used 
to conduct specific projects, the impact the projects have on current 
issues, and products resulting from the projects.
                          floriculture, hawaii
    Mr. Skeen. Please provide a description of the research that has 
been funded under the floriculture program grant.
    Response. The research carried out with these funds involves 
wholesale and retail US and Japan market research, development of new 
varieties for aesthetic values and pest resistance, and pest and 
disease management strategies to meet quarantine needs and consumer 
expectations.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The researcher believes the tropical cut flower and 
foliage industry in Hawaii, which includes anthurium, orchids, 
flowering gingers, bird of paradise, heliconia, protea, and cut 
foliage--ti leaves and other greens--is worth over $50 million 
primarily in out-of-state sales. Development of disease resistant 
cultivars and quarantine pest and disease management strategies which 
reduced pesticide usage are included in the national high priority 
improved pest management systems.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of the research was to develop superior 
Hawaii anthuriums, orchids, protea, and exotic tropical flower 
varieties with disease resistance, particularly to anthurium blight 
which devastated the Hawaii anthurium industry through the mid-1980's 
and reduced Hawaii's market share. Additionally, research focused on 
development of post-harvest handling practices and quarantine pest 
control. To date, a new anthurium cultivar has been patented and 
released. Additional blight resistant cultivars are being propagated 
and tested by the anthurium industry. Disease resistant protea 
germplasm has been obtained from South Africa and is being used in the 
protea breeding program. A post-harvest hot water dip treatment has 
been developed and is being used commercially on tolerant cutflower 
species to meet quarantine requirements.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $300,000; fiscal years 1990-1993, $296,000 
per year; fiscal year 1994, $278,000; and fiscal years 1995-1997 
$250,000 each year. A total of $2,512,000 has been appropriated.
    Mr. Skeen. What is the source and amount of nonfederal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: State appropriations of $87,937.00 in 1995 and $87,937 
in 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted by the University of Hawaii 
at Manoa and Hilo.
    Mr. Skeen. When was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The objectives in the original project were to maintain 
Hawaii floricultural industry competitive. This objective continues to 
be the principal direction for the projects. Because the industry and 
the markets are changing, pests are becoming either resistant or newer 
strains, and quarantines are changing with technology the objective 
remains valid.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The individual projects funded under this Special 
Research Grant are evaluated through merit review to ensure that good 
science is being used. This evaluation is the major tool used to award 
funds to the projects.
       food and agriculture policy institute, iowa, and missouri
    Mr. Skeen. Please provide a description of the research that has 
been done at the food and agriculture policy institute program.
    Response. The Food and Agriculture Policy Research Institute 
(FAPRI) was established by Iowa State University and the University of 
Missouri, Columbia, in 1984. The purpose of the institute is to conduct 
comprehensive analyses and disseminate results about the economic 
impacts of U.S. food, farm, and trade policies to agricultural 
producers, agribusinessmen, and public policymakers. Iowa State 
conducts research on the economic interrelationships within and between 
domestic and foreign food and agricultural markets from the farm gate 
to market destinations; develops and maintains databases and analytical 
support systems to facilitate the analysis of agricultural and trade 
policy issues; and evaluates the impacts of U.S. and foreign commodity 
supply, demand, and public policy programs on agricultural trade. The 
University of Missouri maintains models of the domestic agricultural 
economy and directs its efforts primarily to the analysis of domestic 
policy issues. The two universities maintain linkages with a number of 
other universities who provide data and analytical support to the 
system.
    The universities maintain a comprehensive analytical modeling 
system of the U.S. and international food and agricultural sectors to 
evaluate near- and long-term economic implications of alternative farm 
policies for the basic commodities. The system is capable of providing 
economic information on potential impacts out to 10 years in the future 
of farm policies on farm prices, income, output, government program 
costs and means to enhance the management of farm programs at the 
national level.
    Mr. Skeen. According to the research proposal, or the principal 
researchers, what is the national, regional, or local need for this 
research?
    Response. The Nation's agricultural sector and its components are 
subject to numerous Federal policies and programs. FAPRI is the only 
publicly supported, non-federal organization with the analytical 
capability to assess and evaluate the numerous public policies and 
programs affecting the agricultural sector and report results to a 
broad constituency including farmers, agribusinessmen, and Federal and 
State policymakers.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal was to develop the analytical 
capability to assess and evaluate U.S. farm policies on the U.S. 
agricultural sector and disseminate this information to farmers, 
agribusinessmen, and public policymakers. The mission has been expanded 
to include assessment of trade and environmental policy impacts and 
their interaction with the agricultural sector at national, regional, 
and farm levels. The models in place are also used to assess fiscal and 
monetary policy implications and impacts of new technologies such as 
biotechnological innovations on the agricultural sector.
    Both institutions maintain large econometric models and data sets 
which are regularly updated to analyze farm and trade policy 
alternatives and the impacts of various programs on the several sub 
sectors of the agricultural economy. During the past year, the FAPRI 
completed over 45 studies addressing policy issues such as assessments 
of the 1996 Farm Bill and alternative ways of implementing its 
provisions. Numerous studies were completed addressing improvements 
made to the empirical modeling system to improve domestic and 
international policy capabilities. The FAPRI professionals made 
numerous public appearances throughout the U.S. to agricultural groups 
and Congressional committees and Executive branch groups addressing 
policy issues.
    New thrusts include development of two new baselines to complement 
the existing agricultural baseline used for agricultural policy 
analysis. These are the resource and environmental baseline and the 
food-nutrition-health baseline. Completion and incorporation of these 
baselines into the existing model framework will provide an integrated 
procedure to assess environmental and health policies on the 
agricultural and food sectors and implications of agricultural policies 
on the environment and public health.
    Mr. Skeen. How long has the work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal years 1984-1985, $450,000 per year; fiscal years 1986-
1987, $357,000 per year; fiscal year 1988, $425,000; fiscal year 1989, 
$463,000; fiscal year 1990, $714,000; fiscal years 1991-1993, $750,000 
per year; fiscal year 1994, $705,000; fiscal years 1995-1996, $850,000 
each year, and fiscal year 1997, $800,000. The total amount 
appropriated is $8,671,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are as follows: $260,355 State appropriations, $113,565 industry, and 
$37,913 miscellaneous for a total of $411,833 in fiscal year 1991; 
$321,074 State appropriations, $51,500 industry, and $35,100 
miscellaneous for a total of $407,674 in fiscal year 1992; $234,796 
State appropriations and $70,378 industry for a total of $305,174 in 
fiscal year 1993; $78,286 State appropriations, $43,925 industry, and 
$29,750 miscellaneous in fiscal year 1994 for a total of $151,961; 
$80,155 State appropriations, $37,128 industry, and $42,236 
miscellaneous for a total of $159,519 for fiscal year 1995; $124,123 in 
State appropriations with no other funding for fiscal year 1996; and 
$79,000 in State appropriations, $50,000 industry and $25,000 
miscellaneous for a total of $154,000 in fiscal year 1997.
    Mr. Skeen. Where is this work being carried out?
    Response. The program is carried out at the Center for Agriculture 
and Rural Development, Iowa State University and the Center for 
National Food and Agricultural Policy, University of Missouri.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. This is a continuing program of research and analysis for 
the purpose of assessing farm and related policy actions and proposed 
actions likely to affect the agricultural sector and its components.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. We have conducted no formal evaluation of this program. 
However, the project proposal is carefully reviewed for adherence to 
stated objectives and annual progress.
                         food irradiation, iowa
    Mr. Skeen. Please provide a description of the research that has 
been funded under the food irradiation grant.
    Response. Since the Linear Accelerator Facility was placed in 
operation in March 1993, studies on the effect of irradiation on shelf-
life extension, safety and quality of ground beef, beef steaks, ham, 
pork chops from loins, chicken breasts, and turkey have been conducted. 
Studies combining irradiation with high hydrostatic pressure and 
cooking, using whole chicken breasts, turkey and ham, have been 
conducted to determine the combination of these treatments that will 
yield a shelf-stable product while maintaining high eating quality. 
Several studies were conducted to determine whether consumers can 
detect a difference between irradiated and non-irradiated ground beef 
patties. Experiments were also conducted to investigate consumer 
acceptance of pork products irradiated to prevent trichinosis. Test 
markets of irradiated chicken breasts were conducted to determine 
consumers' willingness to pay for irradiated products.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes consumers' attention 
and concern about the safety of fresh meat and poultry has increased 
with recent outbreaks of foodborne illness from E. coli 0157:H7. The 
meat industry has also expressed interest regarding the quality of 
irradiated products, and how this process can be used to yield high 
quality fresh meats that are free of pathogens. With the recent 
outbreak of illness of thousands of Japanese due to E. coli 0157:H7 and 
the subsequent drastic reduction of U.S. beef exports to Japan, 
irradiation of beef could have significant economic impact on the 
nation's export of this high value product. Additionally, researchers 
from eight other research institutes have used the irradiation facility 
for research projects.
    Mr. Skeen. What was the original goal of the research and what has 
been accomplished to date?
    Response. The original goal of the research was to generate 
knowledge necessary to develop a research and technology transfer 
program leading to commercial use of irradiation of foods, whereby 
consumers would be provided with food products with enhanced safety. 
The effectiveness of irradiation, using an electron beam accelerator, 
in destroying known pathogenic bacteria in pork and beef has been 
determined. Mathematical models have been developed to predict the 
growth of bacteria in low-dose irradiated ground pork. Demonstration of 
irradiation technology has been presented to some commercial firms, and 
plans are being developed for some large scale test markets.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1991 when $100,000 was appropriated for this project. The 
appropriations for fiscal years 1992 and 1993 were $237,000 per year; 
fiscal year 1994, $223,000; and fiscal years 1995-1997, $201,000 each 
year. A total of $1,400,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The project received $1,037,270 in State of Iowa funds--
$1 million of which was for capital construction--in fiscal year 1991; 
$37,942 in state funds and $67,800 in industry grants in fiscal year 
1992; $68,897 in state funds, $78,300 in industry grants and $9,666 in 
user fees in fiscal year 1993, $70,652 in state funds, $35,420 in 
industry grants and $47,788 in user fees in fiscal year 1994; and 
$72,772 in state funds, $100,000 in industry grants and $55,211 in user 
fees in fiscal year 1995; and $81,540 in state funds, $115,300 in 
industry grants.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at Iowa State University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional related 
objectives?
    Response. The principal investigator anticipates that the project 
will continue through June 1998. Since irradiation continues to be 
viewed skeptically by many non-scientists as a tool for improving 
shelf-life and preserving food, and because optimal dose and use 
parameters are still being defined, additional research will be needed 
to move this technology to broader consumer acceptance and industry use 
to enhance safety of food projects. Until irradiation of red meat is 
approved by the Food and Drug Administration, research on the factors 
affecting the quality of irradiated red meat will be primarily 
conducted using the Iowa State University facility.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An agency science specialist conducts a merit review of 
the proposal submitted in support of the appropriation on an annual 
basis. A review of the proposal was conducted on December 20, 1996. 
Previous studies funded under this project have provided useful 
information toward understanding how irradiation can be useful in 
eliminating or reducing foodborne pathogens in meat products. It is 
anticipated that the proposed research will continue to further the 
understanding of how irradiation can be used to improve shelf-life and 
enhance safety of meats and meat products.
               food marketing policy center, connecticut
    Mr. Skeen. Please provide a description of the research that has 
been done under the Food Marketing Policy Center program?
    Response. The Food Marketing Policy Center was established in 1988 
at the University of Connecticut at Storrs. The Center conducts 
interdisciplinary research on food and agricultural marketing and 
related public policy issues that influence economic performance of the 
food marketing system. The Center studies how public policies and 
private sector organization and strategies affect food industry 
competitiveness and the delivery of food and services, their costs, 
prices, and safety. The Center works closely with the University of 
Massachusetts to carry out the research program.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The research proposal identifies an ongoing national need 
to continually improve the economic efficiency and operation of the 
U.S. food marketing system to benefit farmers, merchants, and 
consumers.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The ongoing research goal is to identify marketing 
problems and assess alternatives that improve economic performance of 
the U.S. agricultural and food marketing sector. The Center conducts 
research in conjunction with the Hatch regional research project NE-
165, ``Private Strategies, Public Policies and Food System 
Performance.'' The Center performs studies on food marketing, including 
a description of food quality issues and enhancement policies; private 
label food brands; advertising strategies of agricultural cooperatives; 
assessment of food retailing mergers and competition; and evaluation of 
state dairy regulations, branded product marketing strategies, 
supermarket chain entry, obligopsony in agricultural markets, and the 
impact of agricultural cooperatives on food processor market 
performance. The Center develops analytical methods to assess market 
performance. It has sponsored workshops on industrial organization 
issues. Food safety economic issues are addressed in two books and at 
workshops that summarize research done at the center and the regional 
research project.
    This grant will be used to support research on 12 projects with 
research targeted at three problem areas. They are factors shaping 
decisions by food firms and the consequent effects; impact assessment 
of public intervention on firm food safety and quality strategies; and 
analysis of public policies affecting competition in food markets. 
Projects include analyses of the effects of trade agreements on food 
quality and trade in food products; an assessment of the efficiency 
aspects of ex ante versus ex post approaches to food safety problems; 
firm strategic responses to food safety and nutrition regulation and 
effects on competition, market structure and food price levels; 
demographic patterns of food borne illness for high risk populations; 
market structure on food advertising activity; competitive strategies 
of cooperatives; basic research on oligopoly theory; and publication of 
new data sets on the food industry.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1988, $150,000; fiscal year 1989, $285,000; fiscal 
year 1990, $373,000; fiscal years 1991-1993, $393,000 per year; fiscal 
year 1994, $369,000; and fiscal year 1995 through 1997, $332,000 each 
year. A total of $3,352.00 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are State appropriations as follows: $234,259 in fiscal year 1991; 
$231,741 in fiscal year 1992; $201,288 in fiscal year 1993; $234,557 in 
fiscal year 1994; $219,380 in fiscal year 1995; and $134,399 in fiscal 
year 1996.
    Mr. Skeen. Where is the work being carried out?
    Response. The research is being carried out by the Connecticut 
Agricultural Experiment Station at Storrs and at the University of 
Massachusetts.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the projects? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original proposal in 1987 was for 24 months. The 
objective of conducting policy-oriented research on food manufacturing 
and distribution industries to assist state and Federal policy decision 
makers in improving the performance of the food system is still an 
ongoing public concern, given increasing levels of concentration in 
food processing according to the principal researcher. The current 
phase, as funded in fiscal year 1997, will be completed in 2001.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. CSREES annually reviews project reports, succeeding 
annual project proposals, research studies and educational programs.
                    food processing center, nebraska
    Mr. Skeen. Please provide a description of the research that has 
been funded under the food processing center grant.
    Response. The University of Nebraska Food Processing Center has 
been conducting short-term, highly applied research projects to assist 
small and mid-sized food processing companies and entrepreneurs to 
develop or improve processes and products and to develop new food 
processing enterprises. Projects were selected based on the estimated 
economic impact of the technical assistance or the criticality of the 
technical assistance to the future of the firm or venture. Priorities 
were placed on projects relating to the safety of the food product or 
process and to the fulfillment of regulatory mandates such as nutrition 
labeling, use of approved and effective ingredients, and adherence to 
regulations imposed by foreign governments. In addition, several 
research projects were conducted to improve or assess the quality, 
extend the shelf-life, or assess or improve the processing efficiency 
of specialty food products which impacted several processors or used 
alternative agricultural products.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes the primary impact of 
this project will be statewide. Small and mid-sized food processing 
companies and entrepreneurs have limited technological capabilities for 
addressing issues related to product development, process development, 
product and process evaluation, food safety, quality assurance, and 
regulatory mandates. The short-term research and technology transfer 
projects conducted as part of this overall project will aid these 
companies in appropriately addressing these oftentimes complicated 
issues.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of the research, as stated previously, is to 
assist small and mid-sized food processing companies and entrepreneurs 
to develop or improve processes and products and to develop new food 
processing enterprises. Technological evaluations were conducted for 
210 individuals or companies interested in developing new food 
processing businesses. These evaluations included formulations, 
processes, processing equipment, packaging, shelf-life, sensory, 
nutritional attributes, microbiological quality, regulatory 
considerations, and other factors, Additionally, microbiological 
analyses, shelf-life assessments, sanitation audits, and nutritional 
analyses were conducted for numerous Nebraska food companies.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1992. The appropriations were $50,000 per year for fiscal years 1992-
1993; $47,000 for fiscal year 1994; and $42,000 for fiscal years 1995-
1997 each year. A total of $273,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The Food Processing Center received $288,421 in State 
funds and $1,303,685 in food industry grants and miscellaneous sources 
from 1992 through 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at the University of 
Nebraska.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional related 
objectives?
    Response. Because this project supports ongoing technical 
assistance to clients, the objectives are ongoing.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An agency science specialist conducts a merit review of 
the proposal submitted in support of the appropriation on an annual 
basis. A review of the proposal was conducted on December 20, 1996. 
Progress under previous grants for this project appears to be 
satisfactory.
                 food systems research group, wisconsin
    Mr. Skeen. Please provide a description of the research that has 
been done under the Food Systems Research Group program.
    Response. The Group conducts research on contemporary issues 
affecting the organization and competitiveness of the U.S. food system 
in domestic and international markets. The issues include new 
technologies, market structure, and government policies and programs. 
Studies have been completed on pricing of cheddar cheese, fed cattle 
and hogs; changes in private label product markets: causes of 
structural change in the flour milling, soybean oil milling, wet corn 
milling, cottonseed milling, beef packing, and broiler processing 
industries; competition in U.S. food markets; and the relationship 
between U.S. food market structure and the industry's performance in 
global markets.
    Mr. Skeen. According to the research proposal, or the principal 
research, what is the national, regional or local need for this 
research?
    Response. The principal research believes that the U.S. food system 
is changing rapidly in response to a large number of global economic-
social-technical changes. Research is needed to determine the effects 
of these change on the system's organization and performance, and to 
ascertain needed adjustments in policies based upon sound research.
    Mr. Skeen. What was the original goal of this research, and what 
has been accomplished to date?
    Response. The original goal was to conduct research to assess and 
evaluate the organization and performance of the U.S. food industry and 
provide recommendations for improvements. The Food System Research 
Group recently completed a study of the National Cheese Exchange which 
resulted in a major public report, Congressional hearings, and a 
Wisconsin task force. Alternative pricing mechanisms are being 
developed to avoid the problems of a very thin market which is used to 
price a large volume of off-market sales. The group is also examining 
the impact of ``tough competition'' policies on industry performance. 
Deregulation in the United States and privatization in the U.K., 
Mexico, and Eastern Europe provide empirical bases for evaluating the 
impact.
    The Group has completed numerous studies on economic structure and 
performance issues of the U.S. food manufacturing and distribution 
system. Basic research is conducted on market theories; effects of 
mergers, new technologies, and firm conduct on industry structure and 
organization; factors affecting industry prices, profits, efficiency 
and progressiveness; and impact of public policies and regulations on 
food system organization and performance.
    Mr. Skeen. How long has this work been underway, and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal years 1976-1981, $150,000 per year; fiscal years 1982-
1985, $156,000 per year; fiscal years 1986-1989, $148,000 per year; 
fiscal year 1990, $219,000; fiscal years 1991-1993, $261,000 per year, 
fiscal year 1994, $245,000; and fiscal years 1995-1997, $221,000 per 
year. A total of $4,026,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are as follows: State appropriations of $120,304 in fiscal year 1991; 
$119,448 in fiscal year 1992; $85,188 in fiscal year 1993; $96,838 in 
fiscal year 1994; $100,869 in fiscal year 1995; $101,272 in fiscal year 
1966; and $112,842 in fiscal year 1997.
    Mr. Skeen. Where is the work being carried out?
    Response. The grant supports research at the University of 
Wisconsin, Madison.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have these objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original proposal in 1976 was for a period of 36 
months. The current phase of the program will be completed in 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. CSREES performed a merit review of the project in January 
1997 as it evaluated the project proposal for 1997 and concluded that, 
under this project, researchers conduct unique studies on the 
structure, conduct and performance of selected segments of the food 
industry. In spite of the growing concentration in food production-
processing and increasing public policy questions concerning the 
performance of this industry, few organizations are providing the 
research needed for public and private decision-making. Research 
results appear in several professional journals and popular press and 
researchers have ongoing dialog with private and public decision-
makers.
                      forestry research, arkansas
    Mr. Skeen. Please provide a description of the work that has been 
funded under the Forestry research grant.
    Response. The Arkansas Forest Resources Center has offered programs 
of teaching and research to the landowners of Arkansas and the 
surrounding region. This has been done through offering continuing 
education workshops for landowners. The educational thrust has combined 
Center and private dollars to establish computer software capability 
capable of use in the education of landowners and students. The Center 
includes one of only three Arc View learning centers for natural 
resources. The Center has acquired quality staff, well versed in the 
use of advanced technologies.
    Projects address issues of species diversity, richness, redundance, 
and the resilience of disturbed and undisturbed hardwood stands. 
Furthermore, evidence exists that neotropical migratory birds are 
indicators of ecosystem health. Factors implicated as influencing their 
breeding range include habitat destruction/alteration, forest 
fragmentation, etc. Thus, issues of re-establishment and the structure 
of regenerated hardwood stands are important for timber, non-timber 
values, and the quality of life enjoyed regionally, nationally, and 
internationally. These issues will grow in importance as Southern 
forests assume greater proportions of the national demand for hardwood 
fiber and wood.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, and local need for this 
research?
    Response. The principal researcher believes that with the reduced 
levels of production of wood products from the Northwest, Southern 
forests are increasingly bearing the brunt of providing the majority of 
wood products for the United States. This increased production makes 
more imperative the appropriate and efficient balance in the use of 
Southern forests in producing timber and non-timber outputs. This would 
prevent these conflicts, or at least reduce them significantly.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. Developing alternative forest management strategies for 
achieving multi-resource objectives; i.e., joint production of timber, 
wildlife, recreation, and other outputs of the forest on private, 
industrial, and non-industrial forest lands and public forest lands, is 
the thrust of goal one of the project. In the last year, significant 
progress has been made in several areas. Some examples include: 
developing intensive fiber farming systems as alternatives to soybeans 
for Mississippi farmers, taking the first step toward biological 
control of the Southern pine beetle by discovering the nutrient needs 
of predators of the beetle so they can be grown and studied in 
artificial cultures, and conducting the first survey of nonindustrial 
landowners in Arkansas for 15 years. The survey shows some areas for 
concerns, such as the fact that the average age of forest landowners is 
over 60. There will be a massive change in ownership in the next 10-20 
years. Landowners continue to not be aware of assistance programs and a 
concern about government programs and intervention on private land. 
This is information needed to prepare our institutions for transitions 
and to design more effective programs.
    Ongoing projects include a broad array of topics, competitively 
awarded within the Center, concerned with best management practices, 
ecological characteristics, effects of different management 
intensities, streamside buffer zone effectiveness, as well as the 
efforts mentioned previously.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1994. The appropriation for fiscal year 1994 was $470,000 and for 
fiscal year 1995 through 1997, $523,000 each year. A total of 
$2,039,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. During fiscal year 1994, more than $380,000 was funded by 
forest and related industries and private foundations. For fiscal years 
1995 and 1996, these figures were $815,000 and $910,000, respectively.
    Mr. Skeen. Where is this work being carried out?
    Response. This research is being conducted at the School of Forest 
Resources, the University of Arkansas at Monticello.
    Mr. Skeen. What was the anticipated completion date for the 
original objective of the project? Have those objectives been met? What 
is the anticipated completion date of additional or related objectives?
    Response. The primary project objectives are to be completed by the 
end of the fifth year of funding, and the specific objectives of each 
project will be met. Some projects have long-term objectives, typical 
of forestry research. These projects and objectives will be continued 
using the infrastructure and capacity developed with these Special 
Research Grants.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. In 1991, a Cooperative State Research, Education, and 
Extension Service team visited Monticello and reviewed faculty 
qualifications, supporting sources, and the feasibility of the 
proposal. The team exit report indicated the faculty was highly 
capable, the infrastructure needed strengthening, and the proposal 
concepts were feasible. Since 1991, there has not been a formal program 
review.
       fruit and vegetable market analysis, arizona and missouri
    Mr. Skeen. Please provide a description of the research that has 
been funded under the fruit and vegetable market analysis program.
    Response. The purpose is to provide timely knowledge of the impacts 
of trade, environmental, monetary, and other public policies and 
programs upon the Nation's fruit and vegetable industry to farmers, 
agribusinessmen, and policymakers through a program of empirical 
assessment and evaluation.
    Mr. Skeen. According to the research proposal, or the principal 
researchers, what is the national, regional or local need for this 
research?
    Response. The U.S. fruit and vegetable sector is experiencing 
increased growth from greater domestic and export demand. However, the 
growth of this sector depends upon its ability to compete domestically 
and internationally and to conform with the regulatory environment in 
which it operates. This program of research provides information to 
farmers and policymakers on the implications and impacts of various 
policies and programs.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal is to develop the analytical capability to 
assess and evaluate public policies and programs impacting the U.S. 
fruit and vegetable industry and disseminate the results to users. 
Proposals have been submitted that outline long-range plans and 
specific projects for funding. Models have been developed for potatoes, 
fresh market tomatoes, onions, broccoli, lettuce, cauliflower, oranges 
and apples. This grant will be used to develop models for processing 
market tomatoes, strawberries, celery, cucumbers and green peppers. 
Trade models for those commodities with a significant import and/or 
export sector will also be developed. These models feed in to a larger 
food and agricultural sector model to support analyses of cross 
commodity and policy effects.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1994. The appropriation for fiscal year 1994 was $329,000, and for 
fiscal years 1995-1997, $296,000 each year. A total of $1,217,000 has 
been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funding provided to this grant in fiscal 
year 1994 was $50,073 State appropriations and $11,000 industry for a 
total of $61,073; $21,876 State appropriations and $36,624 industry for 
a total of $58,500 for fiscal year 1995; a total of $62,400 from State 
and industry sources expected for fiscal year 1996; and approximately 
$50,000 from these sources in fiscal year 1997.
    Mr. Skeen. Where is the work being carried out?
    Response. The work is being carried out at Arizona State University 
and the University of Missouri.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The university researchers anticipate that work is an 
ongoing project to look at the impact of various public policy 
proposals on the U.S. fruit and vegetable industry.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. We have conducted no formal evaluation. However each 
annual proposal is carefully reviewed and work progress is compared 
with prior year's objectives.
                 generic commodity promotion, new york
    Mr. Skeen. Please provide a description of the research that has 
been done under the generic commodity promotion program.
    Response. The grant supports, in part, the National Institute on 
Commodity Promotion Research and Evaluation which provides objectives 
analyses of national and state commodity checkoff programs designed to 
enhance domestic and export demand.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The principle researcher believes that producers are 
contributing about $1 billion annually to commodity research and 
promotion funds designed to expand the domestic and export markets for 
their products. The number of commodity groups participating and the 
size of the funds available could continue to grow. There are national 
and regional needs to ascertain the effectiveness of such programs 
because of the large number of dollars involved and several questions 
about their effectiveness.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal is to determine the economic effectiveness of 
generic promotion programs designed to increase the sales of 
agricultural commodities in domestic and international markets. Recent 
accomplishments include: the impact of promotion and other factors on 
the sales of almonds, beef exports, pork exports, and wheat exports; 
development of a major database of commodity advertising expenditures 
for future research; new methods of measuring advertising wearout; and 
comparisons of research techniques to determine sensitivity of results 
based on various methods used.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by the grant began in fiscal year 
1994. The appropriation for fiscal year 1994 was $235,000 and for 
fiscal years 1995-1997, $212,000 each year. A total of $871,000 has 
been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal matching funds and sources allocated to 
this grant by Cornell University are as follows: $97,333 a year in 
State appropriations for fiscal years 1994-96; $97,333 for fiscal year 
1997. Collaborating institutions performing work under subcontract 
agreements have not provided information.
    Mr. Skeen. Where is this work being carried out?
    Response. The work is being carried out at Cornell University in 
collaboration with eight other land-grant universities.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have these objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original proposal in 1994 was for a period of 21 
months, however, the objectives for evaluating the benefits of 
promotion programs is a growing regional and national concern as 
producers take on greater responsibility for marketing their products. 
The current phase of the program will be completed in 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. CSREES performed a merit review of the project in January 
1997, as it evaluated the project proposal for 1997, and determined 
that the project provides leadership for a unique body of research and 
education on the impact of commodity promotion programs. Research 
results appear in several professional journals and popular press and 
researchers have ongoing dialog with private and public decision 
makers.
                             global change
    Mr. Skeen. Please provide a description of the research that has 
been funded under the global change grant.
    Response. Radiation from the sun occurs in a spectrum of 
wavelengths with a majority of wavelengths being beneficial to humans 
and other living organisms. A small portion of the short wavelength 
radiation, what is known as the Ultraviolet or UV-B Region of the 
spectrum, is harmful to many biological organisms. Fortunately, most of 
the UV-B radiation from the sun is absorbed by ozone located in the 
stratosphere and does not reach the surface of the earth. The discovery 
of a deterioration of the stratospheric ozone layer and the occurrence 
of an ozone hole over polar regions has raised concern about the real 
potential for increased UV-B irradiance reaching the surface of the 
earth and the significant negative impact this could have on all 
biological systems including man plus animals and plants of 
agricultural importance. There is an urgent need to determine the 
amount of UV-B radiation reaching the earth's surface and to learn more 
about the effect of this changing environmental force. The Cooperative 
State Research, Education and Extension Service, CSREES, is in the 
process of establishing a network for monitoring surface UV-B radiation 
which will meet the needs of the science community of the United 
States, and which will be compatible with similar networks being 
developed throughout the world. The fiscal year 1996 grant supports 
work through July 1997.
    This grant is part of a government-wide initiative. The research is 
closely coordinated with other Federal agencies involved in the U.S. 
Global Change Research Program UV-Monitoring Network Plan.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The principal researcher believes destruction of the 
stratospheric ozone layer, our shield from the full intensity of solar 
radiation, continues to increase. This creates a high priority need for 
information to document not only the levels of UV-B radiation reaching 
the earth's surface, but the climatology of that radiation. The United 
States, and the rest of the world, needs to know the strength of the 
UV-B radiation reaching the earth and the potential impact on all forms 
of life, especially animal and plant life of agriculturally important 
species. The principal researcher believes this research to be of 
national as well as regional and local importance.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The USDA UV-B Network is to provide accurate, 
geographically dispersed data on UV-B radiation reaching the surface of 
the earth and to detect trends over time in this type of radiation. A 
primary problem which had to be overcome in order to reach this goal is 
the development of instrumentation adequate to make the measurements 
required for the monitoring network. A major advance occurred during 
1996 with the availability to the network of a new multi-band 
instrument which will provide the spectral information needed to 
support both biological and atmospheric science research and to serve 
as ground-truth for satellite measurements. These instruments have been 
deployed and are currently in operation at ten monitoring sites across 
the United States. The researchers plan to have twenty sites 
operational by the summer of 1997.
    Two grants to design and build advanced spectroradiometers have 
been awarded under the National Research Initiative Competitive Grants 
Program. These instruments are to be used in a research network to make 
precise measurements of the total UV-B spectra at selected sites. The 
first of these instruments failed to meet spectral performance 
standards when tested and calibrated by the National Institute of 
Science and Technology. An alternative design which will result in much 
larger and difficult instrument to deploy is currently under 
development.
    To gain network experience, broadband instruments along with 
ancillary instruments have been installed at ten selected field sites 
and operated for the last 28-36 months. An additional ten sites have 
been developed during the last 12 months, including those equipped with 
the new multi-band UV instrument. Data from all sites is transmitted 
daily to Colorado State University for analysis, distribution and 
archiving. These data are available, within 24 hours of collection, on 
the Internet via a World Wide Web located in the Natural Resources 
Research Laboratory at Colorado State University. The Department of 
Agriculture is also a participant in the development of a central 
calibration facility located at Department of Commerce facilities in 
Boulder, Colorado to ensure uniform and acceptable calibration and 
characterization of all instruments used in interagency UV-B monitoring 
programs.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1992, and the appropriation for fiscal years 1992-1993 was $2,000,000 
per year; fiscal year 1994 was $1,175,000; fiscal year 1995 was 
$1,625,000; fiscal year 1996 was $1,615,000; and fiscal year 1997 is 
$1,657,000. A total of $10,072,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are as follows: $162,000 state appropriations in 1993; $183,106 state 
appropriations in 1994; and $285,430 provided by Colorado State 
University in 1995.
    Mr. Skeen. Where is this work being carried out?
    Response. Colorado State University is managing the operating 
network which, when completed, will include all regions of the country. 
At least thirty sites are planned for the climatological network 
including sites in Hawaii, Alaska and Puerto Rico in order to provide 
broad geographic coverage. Ten sites have been operational with broad 
band instruments for up to three years and it is planned to have at 
least twenty sites operational with new generation instruments by the 
summer of 1997. The research level network will begin with the first 
instrument to be installed at the Department of Energy Solar Radiation 
site near Ponca City, Oklahoma, as part of the Atmospheric Radiation 
Measurements field network.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. As with other weather and climate observations, this 
network will address an ongoing need for the predictable future. These 
measurements will provide information on the nature and seriousness of 
UV-B radiation in the United States and will provide ground truth 
validation to other predictions of UV-B irradiance.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency has assigned two technical staff to 
continuously monitor activities in the global change research program. 
A team of three experts in UV-B radiation measurement technology 
reviewed specifications for the development of the advanced 
spectroradiometers in July 1996 prior to the procurement of major 
components of the instrument. A panel of radiation spectra scientists 
was brought in to review data derived from the new multiband instrument 
in December 1996 to advise on the interpretation and analysis of data 
derived from these instruments. Agency staff is in contact with program 
management on a weekly basis and has visited the program headquarters 
four times during the last year.
              global marketing support services, arkansas
    Mr. Skeen. Please provide a description of the research that has 
been done under the global marketing support services program.
    Response. This grant supports the University of Arkansas Global 
Marketing Support Services program to provide research and service to 
agribusinesses. The objective of the university research is to identify 
potential foreign markets for Arkansas products and to conduct and 
disseminate foreign market assessment and evaluation studies to 
agribusiness firms.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The principal researcher believes the emerging importance 
of global trade to the nation's economy and the reduction of trade 
barriers world-wide presents unprecedented opportunities for 
cooperative public-private-university research to develop expertise in 
world markets
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal is to develop a university research and service 
organization to support international trade development activities by 
local area businesses. Research is conducted to determine the demand 
for specific Arkansas products in selected countries.
    Recent results include: twelve ``Industry/Company Opportunity 
Reports'' that provided local businesses with information about 
potential export markets; a report on consumer attitudes in Mexico and 
Columbia toward imported products; an evaluation of the food system in 
China, with emphasis on poultry sector; two new fact sheets; and 
additions to an electronic export information database that is accessed 
by local firms.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1994. The appropriation for fiscal year 1994 was $47,000; and for 1995 
through 1997, $92,000 a year. A total of $323,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are $90,000 per year in State appropriations for fiscal years 1994-
1996. Private funds also support this grant but an estimate is not 
available.
    Mr. Skeen. Where is this work being carried out?
    Response. This research is being conducted at the University of 
Arkansas, Fayetteville.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have these objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original proposal in 1994 requested funding for a 
period of 12 months, but the objectives for expanding the export 
capacity of small to medium-sized agribusiness firms will not be fully 
met until 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
provide a summary of the last evaluation conducted.
    Response. CSREES performed a merit review of the project in January 
1997 as it evaluated the project proposal for 1997. CSREES scientists 
are currently working with the university researchers to enhance the 
1997 proposal so that it adequately reflects the kind of work being 
conducted and to address timelines for the initiation of new research 
and the distribution of results.
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Grain Sorghum grant.
    Response. This project was designed to address the lack of yield 
improvement in grain sorghum cultivars, particularly when grown under 
dryland conditions where a considerable portion of this crop is grown. 
The research will focus on identification of early maturing lines which 
will shift more of the production to grain and less to vegetative 
growth and thereby making more efficient use of the limited water 
supply.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The focus of this research is toward the non-irrigated 
lands of Kansas where sorghum can produce a grain crop under conditions 
that would not be possible with corn and is therefore very important in 
the rotation with wheat. While the research is directed toward Kansas 
conditions, it would also apply to adjoining states.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research is to identify/develop 
grain sorghum cultivars that mature earlier with more of the production 
in grain rather than vegetative growth. This is a new project starting 
in fiscal year 1997, so no significant accomplishments can be reported 
at this time.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant begins in fiscal year 
1997 and the appropriation for fiscal year 1997 is $106,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. This is a new project, therefore no funds have expended 
on the proposed research.
    Mr. Skeen. Where is this work being carried out?
    Response. Research will be conducted at Kansas State University.
    Mr. Skeen. When was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. This is a new project starting in fiscal year 1997, so 
the objectives have not yet been met.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The research proposal will be peer reviewed prior to 
awarding of funds.
        grass seed cropping systems for sustainable agriculture
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Grass Seed Cropping Systems for Sustainable 
Agriculture grant.
    Response. This program was developed to provide management systems 
for sustainable grass seed production without field burning of the 
straw residue following harvest which results in adverse air quality 
problems. Grass seed yields are often significantly reduced the 
following season if the residue is not burned. Fiscal year 1996 grant 
proposal has been received and is being processed.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes that according to 
information provided by technical committees representing researchers 
and the grass seed industry, the need for this research is to develop 
sustainable systems of seed production that do not depend on field 
burning of straw residue. Much of the grass seed for the United States 
including lawn grasses is produced in the area. Field burning of straw 
residue creates unacceptable levels of air pollution and yields of some 
cultivar decline without burning.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal for this project is to develop grass 
seed production systems that do not depend on field burning of straw 
residue. To date joint planning by state experiment station 
administrators and researchers from the three states with industry 
input for an integrated regional research effort to solve the problem.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1994. The appropriation for fiscal year 1994 was $470,000, and for 
fiscal years 1995-1997, $423,000 each year. A total of $1,739,000 has 
been appropriated.
    Mr. Skeen. What is the source and amount of nonfederal funds 
provided by fiscal year?
    Response. The nonfederal support for this project in fiscal year 
1994 was $266,055, $298,052 for fiscal year 1995 and $282,053 in 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. The research will be conducted by the three state 
agricultural experiment stations in Idaho, Oregon and Washington.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. Completion of the initial objectives was anticipated to 
take 5 years and therefore should be completed in 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The entire project is reviewed annually by a steering 
committee for focus and relevance. The combined proposal is reviewed by 
CSREES before funds are awarded.
                         human nutrition, iowa
    Mr. Skeen. Please provide a description of the work that has been 
funded under the Human Nutrition, Iowa grant.
    Response. This research aims to develop animal and plant foods with 
nutritionally optimal fat content and to improve utilization of foods 
containing non-nutrient health protectants, components that may reduce 
health risks. The research includes human and animal nutrient 
utilization, consumer food choices, and economic impacts of nutritional 
optimization of food production and processing. The fiscal year 1996 
grant supports research efforts of 25 investigators from six 
disciplines through June 1997.
    Mr. Skeen. According to the principal researcher, what is the 
national, regional or local need for this research?
    Response. The research addresses food quality, nutrition and 
optimal health. Much of the research focuses on improving the 
nutritional quality of foods important to the economy of the Midwest, 
while making those improvements economically feasible. This work may be 
a model for the nation with regards to designing foods to improve human 
nutrition.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of the center for Designing Foods to Improve 
Nutrition, the administrative unit for this grant, is to improve human 
nutrition and health maintenance by determining how to improve animal 
and plant food fat content and how to increase availability of health-
protectant factors in the human food supply. The research includes food 
production, processing, consumer choices, biological utilization, and 
economic impacts.
    This research has identified soy oils which can be naturally 
hardened and early results indicate potential feasibility of processing 
these oils into shortenings, which may provide human health benefits in 
comparison with chemically saturated vegetable fats containing trans 
fatty acids. Additional work further verifying the feasibility of 
production of more highly unsaturated pork fat has also been conducted, 
with human feeding trials underway. A novel health-protective, 
cholesterol-lowering component of soy, the isoflavone daidzein, has 
been identified in a mouse feeding study. Further evidence has been 
found that oxygenated carotenoids potentially found in processed fruits 
and vegetables have greater antioxidant ability than the parent 
carotenoids. This greater antioxidant ability might be expected to 
decrease cancer and heart disease risk.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1991 with an appropriation of $300,000. The fiscal years 1992-1993 
appropriation was $500,000 per year; $470,000 in fiscal year 1994; 
$473,000 in fiscal years 1995 through 1997. A total of $3,189,000 has 
been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $293,000 university, $312,869 industry, and $14,000 
miscellaneous in 1991; $90,000 state appropriations, $473,608 
university, $131,160 industry, and $116,560 miscellaneous in 1992; 
$307,500 state appropriations, $472,081 university, and $222,267 
industry in 1993; $486,000 university, and $254,000 private in 1994; 
$210,000 university, and $200,000 private in 1995; and $613,770 
university and $207,811 private in 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at the Center for Designing 
Foods to Improve Nutrition, Iowa State University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original overall objective to design foods to improve 
nutrition is continuing to be addressed. A set of related objectives 
will be completed in 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The grant proposal for fiscal year 1996 was subjected to 
extensive peer review and the recommendations will be incorporated into 
the proposed renewal.
                       human nutrition, louisiana
    Mr. Skeen. Please provide a description of the work that has been 
funded under the Human Nutrition, Louisiana grant.
    Response. Obesity is a major problem in the United States. This 
grant, entitled Dietary Fat and obesity, will help answer three issues 
about this problem. Is there a specific preference for fat in some 
people, and if so, how is it controlled? Why do thin people adapt 
differently to a high fat diet than obese people? How do specific fatty 
acids in the diet influence body metabolism of lean and obese people 
differently?
    Mr. Skeen. According to the principal researcher, what is the 
national, regional or local need for this research?
    Response. Obesity is one of the most important and preventable 
problems in America today and its prevalence in Louisiana is among the 
highest in the nation. The results will expand the foundation for 
setting national dietary guidelines for individual fat intake.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The overall goal of this grant is to identify the basis 
for the susceptibility to obesity of some people who eat high fat diets 
and to understand how they differ from those people who are resistant 
to becoming obese when eating a high fat diet. The first project is 
aimed at identifying people who eat large amounts of fat and those who 
eat small amounts of fat. The researchers are taking several approaches 
to this problem, including specific laboratory tests and evaluations of 
people in free choice environments. In the second project, they have 
examined the effect of different levels and distributions of body fat 
on the way foods with different amounts of fat are used by the body. 
This will be followed by detailed studies on the processes by which 
adjustments to changes in body fat are made. The third project will 
evaluate the effect of different types of dietary fat on the metabolism 
and response to insulin. These studies have just begun.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1991 and the appropriation for fiscal years 1991-1993 was $800,000 per 
year; for fiscal years 1994-1997 was $752,000 per year. A total of 
$5,408,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds an sources provided for this grant 
were as follows: $523,100 state appropriations in 1991; $515,100 state 
appropriations and $2,216,606 private in 1992; $536,100 state 
appropriations and $940,000 private in 1993; $627,000 state 
appropriations and $3,775,000 private in 1994; $546,100 state 
appropriations and $3,100,000 private in 1995; and $1,471,000 state 
appropriations and $2,488,000 private in 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. Research will be conducted at the Pennington Biomedical 
Research Center, Louisiana State University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated completion date for the original 
objectives is fiscal year 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The grant proposal for fiscal year 1996 was subjected to 
extensive peer review, and in December 1996 an on-site panel of 
researchers evaluated the proposed objectives and experimental 
protocols. On the basis of the written comments from the reviewers, the 
proposal for fiscal year 1997 was revised.
                       human nutrition, new york
    Mr. Skeen. Please provide a description of the work that has been 
funded under the Human Nutrition, New York grant.
    Response. The work focuses on the basic biological roles of 
selected nutrients and other food components which are expected to 
increase or fall as consumption patterns move toward dietary 
guidelines. The objectives are to develop strategies for improving 
methods to monitor plant-based food consumption; approaches to increase 
their consumption by school-aged children; and an integrated analysis 
of availability, accessibility, and consumption of plant-based foods at 
the community level.
    Mr. Skeen. According to the principal researcher, what is the 
national, regional or local need for this research?
    Response. The research will contribute to the knowledge base needed 
by consumers to make informed decisions, businesses to plan for 
maintaining the world's most efficient food system, and those who make 
and implement policies related to agriculture, food and health outcomes 
as eating patterns shift to predominantly plant-food based diets.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The newly revised dietary guidelines reemphasize expected 
health benefits from the increased consumption of fruits, vegetables, 
and grain products. As pointed out in the response to the first 
question, investigations are carried out at the basic, clinical, and 
community levels. Brief synopses typifying the accomplishments are 
reported. Changes in the American diet are expected to alter lipid 
metabolism by impacting fat levels and composition. Lipoprotein lipase 
is a pivotal enzyme that regulates lipid metabolism. New understandings 
about the enzyme were reported. Researchers cloned a larger portion of 
the human lipoprotein lipase promoter than had been isolated 
previously. The activity, synthesis and secretion of lipoprotein lipase 
is decrease ten fold in young fat cells transfected with the hormone 
leptin, which suggests a new function for this hormone. In addition, 
investigators demonstrated that fatty acids enhance the differentiation 
of young fat cells and possible mechanisms are being explored. Work 
also has been done on strategies for improving the quality of school 
lunch programs. This work builds on an earlier study which showed the 
reluctance of children to consume unfamiliar foods to be a significant 
barrier. A coordinated effort by food service personnel, teachers, and 
cooperative extension has resulted in a successful program that 
introduces unfamiliar to school children by a variety of methods, such 
as the introduction of various ethnic foods as part of lessons on 
cultural diversity. Another portion of the work focuses on the 
interrelationships among the factors that influence food choice at the 
community, family and individual levels. The approach involves a unique 
integration of research and intervention. Results indicate that use of 
fruits and vegetables is positively associated with the previous 
consumption of fresh produce from a home garden; regional, cultural, or 
family traditions that emphasize these food groups, and health 
concerns. Limited access to low cost and preferred types of fruits and 
vegetables, and lack of time and skill for food preparation are 
significant barriers to consumption. A ``Life Course Model of Fruit and 
Vegetable Choices'' has been developed to guide further research and 
intervention efforts.
    Mr. Skeen. How long has this work been underway, and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have awarded from funds appropriated as follows: 
fiscal year 1989, $450,000; fiscal years 1990-1991, $556,000 per year; 
fiscal years 1992-1993, $735,000 per year; fiscal year 1994, $691,000; 
fiscal years 1995-1997, $622,000 each year. A total of $5,589,000 has 
been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources and provided for this 
grant were as follows: $154,056 state appropriations and $2,456 private 
in 1991; $238,430 state appropriations and $60,746 private in 1992; 
$19,401 state appropriations and $22,083 private in 1993; $202,441 
state appropriations and $1,175 private in 1994; $296,794 state 
appropriations in 1995; and $348,127 in state appropriations and 
$39,593 private in 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at Cornell University, New 
York.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original overall objective to integrate nutrition 
goals and food systems is continuing to be addressed. A set of related 
objectives will be completed in 1997 and a set of new related 
objectives are planned for an additional three years.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The grant proposal for fiscal year 1995 was subjected to 
extensive peer review, and the recommendations were incorporated into 
the ensuing experimental designs.
              illinois-missouri alliance for biotechnology
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Illinois Missouri Alliance grant.
    Response. The Illinois-Missouri Alliance has initiated a 
competitive grants program in agricultural biotechnology for research 
in targeted priority areas of need related to corn and soybeans. The 
scope of interest includes production, processing, marketing, 
utilization, inputs and support services, along with economic, social, 
environmental, and natural resource concerns. The Alliance has 
solicited research project proposals from scientists at Illinois and 
Missouri and other midwestern institutions, and have conducted peer 
reviews for science quality, commerical feasibility and potential 
economic impact to select the proposals that will be funded. In 1996 
the Alliance awarded four research grants at three institutions 
totaling $1,012,859. The Alliance also issued a second request for 
proposals and received fifteen proposals which are being reviewed by an 
external review panel of scientists employed by agribusinesses.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal investigator has indicated that the goal of 
the Alliance is the pre-commercial development of emerging 
biotechnology discoveries for agriculture. The midwestern region 
produces more than half of the nation's output of corn soybean crops, 
and the principal investigator believes it is critical to domestic food 
security and United States competitiveness in global agricultural 
markets. The Alliance is implementing a research strategy that it hopes 
will generate important biotechnological developments that are rapidly 
adaptable to unique local soil, climatic and socioeconomic conditions 
of the region.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. Fiscal year 1996 was the second year of funding for the 
Alliance. The research program focuses on the two major commodity 
crops, corn and soybeans, as produced, processed and marketed in the 
midwest. The goal is this biotechnology program is to fund integrated 
research and development projects that will lead to specifically 
defined practical technologies for commercialization. The projects 
funded in fiscal year 1996 include efforts to: 1. produce soybeans free 
of phytic acid to improve nutritional value and reduce phosphate 
pollution, 2. improve the protein quality of corn by increasing its 
lysine and tryptophan content, 3. increase oil content and change the 
fatty acid composition of soybeans to add value, and 4. commercialize a 
fast-acting recombinant baculovirus for control of European corn borer.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through 1997?
    Response. The work supported by this grant began in fiscal year 
1995 and the appropriations for fiscal years 1995 and 1996 were 
$1,357,000 each year, and for fiscal year 1997, $1,316,000. Thus a 
total of $4,030,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The Alliance has not specified a required amount of 
matching funds, but it is expected that most projects will have 
commitments for significant direct and in-kind non-federal support. 
Since Alliance projects are only now getting underway, the exact amount 
of the non-federal contribution is still unknown. The non-federal 
contribution is expected to be substantial, and a system for accounting 
for future non-federal contributions is in place.
    Mr. Skeen. Where is this work being carried out?
    Response. The research projects identified for funding in fiscal 
year 1995 is being conducted at the University of Illinois, the 
University of Missouri, and Iowa State University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. Each project proposal for Alliance funding has a target 
date for completion. The four initial projects were three-year studies 
with anticipated completions at the end of fiscal year 1998. Most of 
the second round of projects are also three-year studies with 
anticipated completions at the end of fiscal year 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The Illinois-Missouri Biotechnology Alliance was 
evaluated for scientific merit by an agency peer review panel on 
January 7, 1997. The panel recommended approval of the project pending 
receipt of supplemental information of administrative aspects of the 
project.
           improved dairy management practices, pennsylvania
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Improved Dairy Management Practices grant.
    Response. The research focuses on developing methods to help diary 
farmers in the adoption of new technology and management practices 
which lead to improved dairy farm profitability.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes the local need is the 
identification and implementation of profit enhancing management 
strategies for Pennsylvania dairy farms in response to changing market 
conditions and emerging technologies. The current focus is to develop 
economically-viable solutions to issues confronting Pennsylvania dairy 
farmers such as dealing with animal waste in an environmentally-
friendly manner, reducing the cost of forage production systems, 
including grazing systems, and to develop a better understanding of 
decision processes by dairy farmers.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research remains the same, 
which is the development of methods to help dairy farmers in the 
adoption of new technology and management practices which lead to 
improved dairy farm profitability. A farm management survey is complete 
and analysis of results is in progress. Farm financial models have been 
developed and are undergoing field test on selected farms have been 
conducted, and survey instruments are in place to monitor effectiveness 
of workshops. Research is currently underway to develop improved models 
for nutrient management on northeastern dairy farms, to evaluate the 
potential role of intensive grazing systems to replace harvested 
forage, and to better understand how decisions are made by dairy farm 
families. Refinements of an expert computer based system to assist 
dairy farmers in controlling the udder disease, mastitis, is underway. 
A study to evaluate the induction of lactation on dairy profitability 
is underway. An additional study to evaluate the impact of improved 
protein nutrition during late gestation on dairy cow performance has 
been initiated.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1992 and the appropriation for fiscal years 1992 and 1993 was $335,000 
per year. The fiscal year 1994 appropriation was $329,000 and $296,000 
each year in fiscal years 1995-1997. A total of $1,887,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount on non-federal funds 
provided by fiscal year?
    Response. During fiscal year 1992, $354,917 were from State 
funds,and $16,000 from industry, for a total of $370,417. During fiscal 
year 1993, $360,374 were from State funds and $16,000 from Industry for 
a total of $376,374. Information is not available for fiscal years 
1994-1996.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at Pennsylvania State 
University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The principal researcher anticipated completion of the 
original objectives by March 1994. The original objectives were met. 
Availability of continued funding has permitted the institution to 
develop a competitively awarded grant program within the institution to 
address priority issues related to management of dairy farms. Proposals 
are reviewed and ranked by peers in other institutions prior to award. 
It is anticipated that awards from the fiscal year 1997 appropriation 
will be complete in September 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency accepts technical review of specific proposals 
funded by this grant on an annual basis. The overall proposal is 
reviewed by the agency on an annual basis. In addition, technical staff 
conducted on-site reviews of the program in 1993 and in 1995. The 
overall objectives of the work funded by this grant has direct 
relationship to the development of an Integrated Management System as 
well as to aspects of animal production systems on animal well-being 
and impact on the environment.
                   improved fruit practices, michigan
    Mr. Skeen. Please provide a description of the work that has been 
done under the improved fruit practices grant.
    Response. This research will involve a multidisciplinary approach 
to reduce chemical use on apple, blueberry, and sour cherry, three 
important Michigan fruit crops, and improve the management of dry 
edible beans and sugar beets. Research will be conducted on crop 
management techniques and reduced chemical use.
    Mr. Skeen. According to the research proposal, or the principal 
research, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes Michigan's need for 
this research is to develop and maintain/expand their tree fruit and 
small fruits industry. There is a need to improve the culture and 
management of dry edible beans and sugar beets.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The planned objectives of the research are to reduce the 
chemical contamination of the environment from fruit production and 
improve production practices for beans and beets through 
multidisciplinary research, including pesticides, and the development 
of new nonchemical production methods.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1994. The appropriation for fiscal year 1994 was $494,000, and for 
fiscal years 1995-1997, $445,000 each year. A total of $1,829,000 has 
been appropriated.
    Mr. Skeen. What is the source and amount of nonfederal funds 
provided by fiscal year?
    Response. The nonfederal funds and sources provided for this grant 
in fiscal year 1994 were $437,338 from state appropriations and 
$135,000 from industry, for fiscal year 1995 were $574,494 from state 
appropriations and $127,000 from industry and a total of $908,969 for 
1996.
    Mr. Skeen. Where is this work being carried out?
    Response. Research will be conducted at Michigan State University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated completion date of this project is 1998. 
The PIs have reported significant progress toward improved cultural 
practices for these specialty crops which is expected to reduce the 
need for chemical pesticides.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. This project has not been subjected to a comprehensive 
review. The annual proposals including all of its subprojects are 
subjected to CSREES review before they are approved.
          institute for food science and engineering, arkansas
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Institute for Food Science and Engineering grant.
    Response. As the flagship center for the Institute for Food Science 
and Engineering, the Center for Food Processing and Engineering has as 
its objectives to facilitate and encourage value-added research and 
improve the efficiency and effectiveness of processing agricultural 
products. Its research program includes seventeen projects which have 
been funded and are underway or complete. The Center requires that 
researchers acquire the financial support of industry to support their 
research. Thus, five additional research projects have been approved 
but are awaiting funding from industry. The next request for proposals 
by the Institute will be issued on April 4, 1997. The Center for Food 
Safety and Quality, with a mission to conduct research on the safety 
and quality of foods relative to microbiological and chemical hazards, 
will be activated during this grant period.
    Mr. Skeen. According to the research proposal, or the principal, or 
the principal researcher, what is the national, regional or local need 
for this research?
    Response. The principal researcher believes the Institute will 
provide technical support and expertise to small and mid-sized food 
processors that usually do not possess adequate expertise in-house. The 
economy of the southern region will be improved through the creation of 
new jobs. The Institute will develop and disseminate scientific 
information and provide educational programs related to value-added 
further processing, storage and marketing of food products.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research is to establish an 
Institute of Food Science and Engineering at the University of 
Arkansas-Fayetteville. As noted in an earlier response, the Institute 
for Food Science and Engineering and the flagship Center for Food 
Processing and Engineering were established and several research 
projects were funded through the Center. Research demonstrated promise 
for a high pressure water spray to remove phomopsis decay and brown rot 
tissue from peaches for processing. Considerable progress was made in 
modifying commercially produced rice hull silicate to create silica 
gel. Other research results indicated that holding green and ripe 
peaches in elevated carbon dioxide atmospheres could reduce acidity and 
decay, possibly allowing fruits to ripen prior to processing without 
excessive losses to decay. The Institute provided information to new 
food business entrepreneurs on food regulations, safety, labeling, 
ingredients, packaging, and financial aspects of starting a food 
business and on marketing products. Several products were evaluated and 
specific recommendations made to those entrepreneurs.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1996, and the appropriation for fiscal years 1996 and 1997 was $750,000 
each year. A total of $1,500,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
include $184,700 in state funds and $93,000 from industry in fiscal 
year 1996, and $187,357 in state funds and $166,752 in industry funds 
in fiscal year 1997. The Institute received, as a donation worth 
$200,000 from industry, a trained sensory panel to qualify and quantify 
sensory properties of foods. Industry has pledged an additional 
$109,628 which has not yet been received.
    Mr. Skeen. Where is this work being carried out?
    Response. Research will be conducted at the University of Arkansas 
at Fayetteville.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional related 
objectives?
    Response. The principal researcher anticipates that work will be 
completed on the original goals in fiscal year 2005. The goals of this 
project related to establishing the centers of the Institute are 
sequential and have not been fully met. The Center for Human Nutrition 
is scheduled to be activated in 1999. It is expected that objectives 
related to research and service to food entrepreneurs will be ongoing 
and require ongoing support.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An agency science specialist conducts a merit review of 
the proposal submitted in support of the appropriation on an annual 
basis. A review of the proposal was conducted on January 13, 1997. The 
assessment was that satisfactory progress was demonstrated in meeting 
the goals of the Institute, noting that the timetable for activating 
the Center for Food Safety and Quality had been accelerated.
             integrated pest management/biological control
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Integrated Pest Management grant.
    Response. Research supported by Integrated Pest Management special 
grants continues to provide a science basis for the development of 
alternative approaches for managing pests including insects, mites, 
weeds, plant pathogens, and ectoparasites. Emphasis of the program has 
been on enhanced natural control. Enhanced natural control emphasizes 
increased use of biological control, cultural control, and host 
resistance practices and the management of genetic resistance of pests. 
Most of the research projects emphasize the development of natural 
control practices used in conjunction with selective pesticides and 
biopesticides when pest monitoring programs and pest populations 
warrant a pesticide application. In recent past years, a limited number 
of joint research/extension projects were initiated in the North 
Central Region, and in fiscal years 1996 and 1997, three to four joint 
projects were funded in each of the four regions. The extension 
component of the joint project, focusing on the education component for 
implementing new approaches, is funded by extension IPM funds for 
special projects. These joint projects are having an impact on the 
entire research community. Researchers are planning for the 
implementation of research from the beginning and throughout the 
research.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research.
    Response. This research program addresses the national priority to 
address IPM on 75 percent of the nations cropland by the year 2000. In 
particular, the research will provide the tools to take IPM to more 
bio-intensive levels which will have greater impact on environmental 
quality and consumer safety while maintaining the agricultural 
productivity, sustainability of protection practices, and 
competitiveness of American agriculture. This research program 
addresses the regional needs. The program is organized by regional 
competitive grant programs, and the request for proposals address both 
the national and regional needs and priorities. In the past year, 
jointly funded research and extension production region commodity teams 
with grower and private sector participation have identified priority 
needs. This research program addresses local needs. State IPM commodity 
interdisciplinary teams working with growers and private consultants 
have identified priority local needs which are addressed in the 
regional request for proposals. The fiscal year 1997 requests for 
proposals in all four regions have made measurable shifts in emphasis 
based on these priority setting activities.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal and current goal is to bring IPM into 
the 21st Century with a paradigm shift from past sole dependence on 
pesticides to an emphasis on natural control integrated with selective 
pesticides and biopesticides when pest population densities warrant 
their use. The more recent increase in joint research/extension 
collaboration has assisted bringing the accomplishments of research 
into implementation reality. It has also provided for better 
documentation and measurement of impacts of research and extension 
efforts. All four regions have produced 12 to 15 page brochures 
documenting the impacts of research and extension efforts. The titles 
are indicative of the goals: Integrated Pest Management in the North 
Central States, a sustainable approach to managing crop pests, using a 
combination of biological, cultural, and chemical tactics that reduce 
pests to tolerable levels that minimize economic, health, and 
environmental risks; Integrated Pest Management in the Northeast 
Region, 1996 update Involving Stakeholders; Integrated Pest Management 
in the Southern Region. At the heart of Integrated Pest Management is 
its dual focus on improving profitability and protecting vital natural 
resources; and Integrated Pest Management in the Western Region. IPM 
advances on 25-30 commodities are described in these brochures.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1981, $1,500,000; fiscal years 1982 through 1985, 
$3,091,000 per year; fiscal years 1986 through 1989, $2,940,000; fiscal 
year 1990, $2,903,000; fiscal year 1991, $4,000,000; fiscal years 1992 
and 1993, $4,457,000 per year; fiscal year 1994, $3,034,000; and fiscal 
years 1995-1997, $2,731,000 each year. A total of $52,668,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Non-federal funds are as follows: for fiscal year 1993, 
state appropriations, $841,017, product sales, $33,987, industry 
grants, $17,081, and other, $31,737; for fiscal year 1994, state 
appropriations, $2,303,458, product sales, $77,157, industry grants, 
$210,110, and other, $216,552.
    Mr. Skeen. Where is the work being carried out?
    Response. This research is being carried out in practically all of 
the State Agricultural Experiment Stations.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. There is a high priority for continuation of IPM research 
and for collaborative linkages with other research, extension, 
technology transfer, regulatory, and incentive programs to accomplish 
the transitions called for in the administration's policy for reducing 
overall risks from the use of pesticides through integrated pest 
management programs which lead to more sustainable agricultural 
production strategies and reduction in the use of pesticides. The 
future will bring more collaboration between program areas that address 
pest management building on the increased collaboration between 
research and extension. Integration is currently focused on the 
commodity production system. These are highly complex systems involving 
a network of organizations that impact on the system. Future levels of 
integration will address whole farm planning where issues of landscape 
ecology can be addressed and better interactions with water quality 
programs can take place. The rate of progress will be determined by the 
availability of resources.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Due to the complexity of the program, evaluations are 
done at a number of levels. All grants awarded are evaluated by peer 
scientists in the multiple disciplines comprising IPM. These peer 
reviews are conducted in the four regional IPM programs. Peer 
scientists are drawn from regions outside of the region conducting the 
review. State IPM commodity teams, with growers and private 
consultants, review plans and priorities for commodities programs. 
Production region commodity development programs have been reviewed by 
peer scientists at the national level.
                integrated production systems, oklahoma
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Integrated Production Systems, Oklahoma grant.
    Response. This grant focuses on the development of efficient 
management systems for production of watermelons and blackberries under 
intensively managed conditions. The work will address biotic and 
abiotic production components under Southeastern Oklahoma conditions 
for use in production guidelines. This will include planting densities, 
fertilizer studies, weed management and insect and disease control. The 
proposal for fiscal year 1996 has been received and is being processed.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for the 
research.
    Response. The principal researcher believes the need for this 
research is focused on the local area of Southeastern Oklahoma, an area 
that is economically depressed and in need of alternative crops to 
diversify the dominant cow/calf livestock production.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to develop new and 
alternative crops to supplement and diversify the cow/calf livestock 
agriculture of Southeastern Oklahoma with emphasis on horticultural 
crops. Work to date has shown promise for strawberries, blackberries, 
cabbage, melons and blueberries. CD-ROM technology transfer to research 
results to support an expert system will be developed for grower use.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Work supported by this grant started in fiscal year 1984 
and the appropriations were: fiscal year 1984, $200,000; fiscal year 
1985, $250,000; fiscal year 1986, $238,000; fiscal years 1987-1989, 
$188,000 per year; fiscal years 1990-1991, $186,000 per year; fiscal 
year 1992, $193,000; fiscal year 1993, $190,000; fiscal year 1994, 
$179,000; fiscal years 1995-1997, $161,000 each year. A total of 
$2,669,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal
    Response. The nonfederal funds and sources provided for this grant 
were as follows: $165,989 state appropriations in 1991; $160,421 state 
appropriations in 1992; and $164,278 state appropriations in 1993. 
Nonfederal support for 1994 was $141,850 for state appropriations. 
Funds for fiscal year 1995 were $129,552, and for 1996 were $146,000.
    Mr. Skeen. Where is this work being carried out?
    Response. This research is being done at the Wes Watkins 
Agricultural Research and Extension Center at Lane, Oklahoma, a branch 
of the Oklahoma State Agricultural Experiment Station.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original objectives of this project were to develop 
production system for alternative crops with economic potential for 
southeastern Oklahoma. Each year's funding cycle has address specific 
crop and management objectives to be completed over two years time. 
These short term objectives have been met for each of the completed two 
year projects. However the original objective of developing alternative 
cropping systems is very long term and have not been completed.
    Mr. Skeen. When the last agency evaluation of this project? Provide 
a summary of the last evaluation conducted.
    Response. Each of the annual project proposals has been put through 
the institutions review and is reviewed by CSREES scientists before 
approval. In addition to the annual review of individual proposals, a 
comprehensive review of the Lane Agricultural Center, where this 
research is conducted, was conducted in 1993. This review reviled that 
work supported by this grant is central to the mission of that station 
and represents an important contribution to the agriculture of the 
area.
                  international arid lands consortium
    Mr. Skeen. Please provide a description of the research that has 
been funded under the International Arid Lands Consortium.
    Response. Fiscal year 1996 was the third year that CSREES funded 
the International Arid Lands Consortium. The Forest Service supported 
the program during fiscal year 1993 to develop an ecological approach 
to multiple-use management and sustainable use of arid and semiarid 
lands. Projects that began in 1994-1996 will continue to be funded to 
address issues of land reclamation, land use, water resources 
development and conservation, water quality, and inventory technology, 
e.g. remote sensing.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes the Consortium is 
devoted to the development, management and reclamation of arid and 
semi-arid lands in the United States, Israel, and elsewhere in the 
world. The International Arid Lands Consortium will work to achieve 
research and development, educational and training initiatives, and 
demonstration projects. The current member institutions are the 
University of Arizona, The University of Illinois, Jewish National 
Fund, New Mexico State University, South Dakota State University, Texas 
A&M University, Kingsville. The United States Department of 
Agriculture's Forest Service works very closely with The International 
Arid Lands Consortium through a service-wide memorandum of 
understanding. The IALC's affiliate members include Egypt's Ministry of 
Agriculture and Land Reclamation Undersecretarial for Afforestation and 
Jordan's Higher Council for Science and Technology.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this consortium is to be 
acknowledged as the leading international organization supporting 
ecological sustainability of arid and semi-arid lands. To date, 35 
projects have been funded, 25 of which are to conduct research and 
development, 6 for demonstration projects, and 4 for international 
workshops. Funds approximating $1.91 million have been used to fund 
these projects.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. International Arid Lands Consortium was incorporated in 
1991. Funds were appropriated to the Forest Service in 1993. Additional 
funds were received during each of the years that followed. $329,000 
has been appropriated from CSREES for fiscal years 1994 through 1997 
for total appropriations of $1,316,000 for the 4-year period.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Members of the International Arid Lands Consortium have 
provided funds to support the consortium office in Tucson, Arizona, and 
for printed materials as needed. Each member has provided travel and 
operations support for semi-annual meetings, teleconferences, and other 
related activities. In fiscal years 1993-1996, $60,000 in state 
appropriations were provided. Industry provided $84,083 and $100,000 
and $25,000 in fiscal years 1993, 1995 and 1996, respectively. Amounts 
are not yet available for fiscal year 1997.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is currently being conducted at the University 
of Arizona, South Dakota State University, Texas A&M University, 
Kingsville, New Mexico State University, University of Illinois, and 
several research/education institutions in Israel.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the projects? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. Research projects started in 1993 have been completed. 
The projects started in 1994 and 1996 are expected to be completed 
within 6 months to 3 years depending upon the nature of the research or 
demonstration projects. Several demonstrations projects were completed 
and 4 international workshops were held during 1994 through 1996.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. This project is evaluated annually based on an annual 
progress report and agency participation in the Consortium Board of 
Directors meeting. The cognizant staff scientist has reviewed the 
project and determined that the research being conducted is in 
accordance with the mission of the agency.
                     iowa biotechnology consortium
    Mr. Skeen. Please provide a description of the work that has been 
funded under the Iowa Biotechnology Consortium grant.
    Response. This consortium is the focal point for cooperative 
biotechnology research endeavors between Iowa State University, the 
University of Iowa and the City of Cedar Rapids, Iowa to develop and 
test methods to improve wastewater treatment processes for agricultural 
wastes, and when possible, to convert by-product materials in 
agricultural wastes into useful new products. The overall objectives of 
this research are to conduct fundamental and applied research aimed at 
enhancing the recovery and utilization of byproduct materials though 
studies involving fermentation, enzyme catalysis and bioprocessing. The 
expection is that technologies will be developed from the research to 
reduce the burden of agricultural bioprocessing wastes on municipal 
waste management systems and to transform these wastes into 
commercially viable products.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. Developments in biotechnology have allowed for the 
development of improved management systems that increase the capacity 
and sophistication of agricultural waste processing. These researchers 
believe that technological breakthroughs are possible to deal 
effectively with the increasing burden of agricultural wastes and that 
useful byproduct materials can be recovered and recycled through 
bioprocessing of wastes, especially fermentation wastes.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goals of this project were aimed at 
enhancing the recovery and utilization of by-product materials arising 
from new and emerging industries using biotechnology. Recycling 
agricultural wastes, isolating useful byproducts and developing value 
added processing remain the primary thrusts of the project. The 
Consortium has established a network of researchers to assist them in 
finding uses for the by-product streams as concentrated steepwater and 
to find methods to concentrate by-products for industrial uses. The 
Consortium is also making important progress in the bioconversion, 
biocatalysis, membrane concentration, and bioseparation of fats and 
carbohydrates.
    Mr. Skeen. How long has this work been under way and how much has 
been appropriated through fiscal year 1996?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $1,225,000; fiscal year 1990, $1,593.000; 
fiscal year 1991, $1,756,000; fiscal year 1992, $1,953,000; fiscal year 
1993, $2,000,000; fiscal year 1994, $1,880,000; fiscal years 1995-1996, 
$1,792,000 each year; and in fiscal year 1997, $1,738,000. A total of 
$15,729,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Non-federal funds and sources provided for this grant 
were as follows: $623,803 from the State of Iowa, $42,813 from the city 
of Cedar Rapids in 1991; $768,287 from the State of Iowa, and $365,813 
from the city of Cedar Rapids in 1992; $858,113 from the State of Iowa, 
and $170,000 from the city of Cedar Rapids in 1993; $841,689 from the 
State of Iowa, and $36,000 from the city of Cedar Rapids in 1994; and 
$1,016,505 from the State of Iowa, and $36,000 from the city of Cedar 
Rapids in 1995.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at Iowa State University and 
the University of Iowa, in collaboration with the City of Cedar Rapids.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have these objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The Consortium was originally formed between the City of 
Cedar Rapids and the participating universities to assist the City in 
dealing with wastes associated with corn and oat processing and 
milling, biocatalysis to produce high-froctose syrups, and one of the 
largest fermentation facilities in the world. No firm date was 
established to complete this work. The researchers have worked closely 
with the City and the industries generating these wastes and have made 
significant progress in analyzing the waste streams and in devising 
laboratory procedures for extracting useful products. The City of Cedar 
Rapids is planning to invest funds from other sources in special waste 
treatment facilities to conduct large scale tests of new treatment 
methods.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The Iowa Biotechnology Consortium was evaluated for 
scientific merit by an agency peer review panel on January 7, 1997. The 
panel recommended approval of the project pending receipt of 
supplemental information. The Consortium was also featured in a 
biotechnology special grant seminar hosted by the agency on December 
16, 1996 at which the principal investigator presented research 
progress and highlights to an audience of agency scientists, 
administrators, and awards management staff.
                           jointed goatgrass
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Jointed Goatgrass grant.
    Response. Research is being conducted on control systems for 
jointed goatgrass in wheat production including integrated cultural 
management, weed bank studies, and modeling for management conducted as 
sub-projects by several states. The premier research project continues 
to be an ``Integrated Management'' study being conducted across states 
in the midwest and west. In this study, jointed goatgrass management is 
being evaluated based on planting dates, planting density, economic 
thresholds, and competitive varieties. Research is also being conducted 
on crop rotations, biological control, seed production and spread, and 
the development of computer-based decision aids. All funded work has a 
technology transfer plan and a national coordinator for technology 
transfer to insure that growers are fully informed about all options 
for managing this devastating weed. The National Technology Transfer 
Coordinator has been hired, with the concurrence of a steering 
committee, and that person is housed at the University of Nebraska. To 
maximize cooperation among scientists, an annual meeting is held among 
all investigators and the national steering committee to strengthen 
collaborations and optimize the distribution of limited funds.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. Jointed goatgrass infests nearly five million acres of 
winter wheat in the west and midwest and is spreading unchecked. It 
costs U.S. wheat growers an estimated $145 million annually. Control of 
jointed goatgrass in wheat is impossible with current methods because 
its seed survives in the soil for five or more years. Jointed goatgrass 
has increased rapidly in the past 20 years because of the widespread 
adoption of conservation tillage systems. Jointed goatgrass 
proliferated in such reduced tillage systems, and it seriously impedes 
the universal adoption of such practices. The research involves 
scientists from other states. The principal researcher and the National 
Wheat Growers Association believe this research is of national and 
regional importance.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of this project is to reduce the devastating 
effect of jointed goatgrass on wheat production and quality and to 
prevent its continued spread into new, non-infested areas. A jointed 
goatgrass population model has been constructed including a post-
harvest (fall) seed bank, spring seed band, and fall and spring 
germination, seeding mortality, mature plants and seed production. The 
underlying jointed goatgrass population model has been constructed with 
a vision that the weed management strategies are going to be long-term 
in nature and be focused on the impact of crop rotation, tillage and 
weather on jointed goatgrass population dynamics.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1994. The appropriation for fiscal year 1994 was $329,000, and for 
fiscal years 1995-1997, $296,000, each year. A total of $1,217,000 has 
been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: for 1994, $82,198 state appropriations, $82,256 from 
industry, and $14,871 miscellaneous; for fiscal year 1995, $67,442 
state appropriations, $38,496 from industry and $13,304 miscellaneous; 
and for fiscal year 1996, an estimated $70,000 state appropriations, 
$50,000 from industry, and $14,000 miscellaneous.
    Mr. Skeen. Where is this work being carried out?
    Response. The research is being conducted by University scientists 
in the states with serious infestations including Washington State 
University--the principal coordinating institution--Colorado, Kansas, 
Nebraska, Oklahoma, Utah, Oregon, Idaho, Montana, Wyoming, and South 
Dakota.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The project was initiated to accomplish significant 
results in about five years. The original objectives are being met, and 
the researchers anticipate that the original work may be completed in 
fiscal year 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Each year the grant is peer reviewed and reviewed by 
CSREES's senior scientific staff.
                 landscaping for water quality, georgia
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Landscaping for Water Quality, Georgia grant.
    Response. The project is a comprehensive multi-institution, multi-
agency, private producer partnership directed by the University of 
Georgia. The researchers believe it will lead to development of 
management and siting guidelines for animal agriculture based on 
landscape and watershed scale environmental quality considerations. 
Participating institutions and agencies are the University of Georgia, 
the Joseph W. Jones Ecological Research Center, the Middle South 
Georgia Soil and Water Conservation District, the USDA Agricultural 
Research Service, the USDA Natural Resources Conservation Service, the 
USDA Cooperative State Research, Education, and Extension Service, and 
the Georgia Department of Natural Resources. Growers from Brooks and 
Thomas counties, Georgia are key partners in the project.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The multi-disciplinary research team believes that the 
efficiency of modern confinement-based livestock feeding and production 
facilities and prevailing economies of scale have led to concentration 
of these facilities in several regions of the United States, including 
the Southeast. This regional concentration of animal production and 
processing has frequently led to degradation of regional water quality 
resulting from the excessive discharge of nutrients, organic matter, 
and pathogens to receiving waters. One factor contributing to these 
problems in the Southeast has been the historical concentration of 
animal processing and confinement production facilities in regions with 
inadequate crop land for proper management of manure resources. This 
research project may provide the knowledge base for the integration of 
increased animal production into a regional agricultural system without 
sacrificing water quality. The findings will be immediately applicable 
to the Southeast.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of this research project is to provide the 
knowledge base for the integration of increased animal production into 
a regional agricultural system without sacrificing water quality. The 
goal will be met by completing five specific objectives over a period 
of five years. The planned research is on schedule. Since the project 
began on February 1, 1996, significant progress has been made on three 
of the five objectives. Work on the final two objectives will begin 
once fiscal year 1997 funds become available. Specific accomplishments 
include:
    1. Completed installation and began sampling for chemical and 
biological water quality parameters at seven stream monitoring sites in 
the 390 square kilometer Piscola Creek Watershed, and continued 
sampling eight stream monitoring sites in the 340 square kilometer 
Little River Research Watershed.
    2. Nearing completion of Geographical Information System databases 
for these two watersheds including information on soils, hydrography, 
topography, and landcover.
    3. Began compiling a database listing all regulations, guidelines, 
and recommended management practices pertaining to animal agriculture 
and environmental quality in the southeast region.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1996 and the appropriation for fiscal years 1996 and 1997 was $300,000. 
A total of $600,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Information provided by the University indicates that 
$202,000 in state funds will be provided to support this grant during 
fiscal years 1996 and 1997. Similar amounts of state support are 
anticipated for future years. In addition, funds will be expended by 
the other participating non-federal institutions in support of this 
grant.
    Mr. Skeen. Where is this work being carried out?
    Response. This research is being conducted by an interdisciplinary 
team of 19 scientists led by researchers at the University of Georgia's 
National Environmentally Sound Production Agriculture Laboratory in 
Tifton and Athens, Georgia. The experimental aspects of the project are 
being conducted in the coastal plain region of Georgia in watersheds 
that are representative of southern Georgia, southeast Alabama, and 
north central Florida.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated completion date for the original 
objectives of the project was January 31, 1998. As discussed earlier, 
significant progress has been made on these objectives and they are on 
schedule. The anticipated completion date of additional or related 
objectives is January 31, 2001.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. As this project is still in its first year, a 
comprehensive external evaluation has not yet been conducted. However, 
the principal researcher is working with us to schedule an evaluation 
during 1997.
            livestock and dairy policy, new york, and texas
    Mr. Skeen. Please provide a description of the research that has 
been done under the livestock and dairy policy program grant?
    Response. The purpose of this grant is to assess the possible 
economic impacts on the U.S. livestock, poultry, and dairy sectors from 
various macreconomic, farm, environmental, and trade policies and new 
technologies. Both Cornell University and Texas A&M University conduct 
analyses of these policies and disseminate the information to 
policymakers, farmers, and agribusinessmen. Cornell focuses on dairy 
policies, and Texas A&M focuses on policies affecting livestock and 
poultry.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. Information on the implications of new and alternative 
farm, trade, and macroeconomic policies affecting the livestock and 
dairy sectors is of special interest to policy-making officials, 
farmers, and others. Such information enables farmers and 
agribusinessmen to make necessary adjustments to their operations to 
enhance profitability and for public officials to consider alternatives 
to sustain adequate supplies and minimize public program costs.
    Mr. Skeen. What was the original goal of this research and what has 
been done to date?
    Response. The original goal was to establish a specialized research 
program that could provide timely and comprehensive analyses of 
numerous policy and technological changes affecting livestock and dairy 
farmers and agribusinessmen and advise them and policymakers promptly 
of possible outcomes. This goal has been achieved. The program 
continues to provide assessments and evaluations of provisions and 
proposed changes in agricultural policies, the General Agreement on 
Tariffs and Trade, and the North American Free Trade Agreement; various 
income and excise tax measures; and alternative pricing measures for 
milk. The institutions are involved in several current studies relating 
to dairy provisions in the 1996 farm legislation. Both institutions 
maintain extensive outreach programs to disseminate results throughout 
the United States.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $450,000; fiscal year 1990, $518,000; fiscal 
years 1991-1993, $525,000 per year; fiscal year 1994, $494,000; and 
fiscal years 1995-1997, $445,000 each year. A total of $4,372,000 has 
been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response The non-federal funds and sources provided for this grant 
are as follows: $37,420 State appropriations in fiscal year 1991; 
$162,086 State appropriations and $133,278 product sales for a total of 
$295,364 in fiscal year 1992; and $301,817 State appropriations, $1,412 
industry, and $7,121 miscellaneous for a total of $310,350 in fiscal 
year 1993; $24,702 State appropriations, and $5,961 industry for a 
total of $30,663 in fiscal year 1994; $235,526 State appropriations for 
fiscal year 1995; $250,000 in State appropriations for fiscal year 
1996; and approximately $245,000 in State funding for fiscal year 1997.
    Mr. Skeen. Where is this work being carried out?
    Response. The research is being conducted at Cornell University and 
Texas A&M University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original objectives of this project have been 
achieved.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. We have conducted no formal evaluations of this project. 
Annual proposals for funding, however, are carefully reviewed and work 
progress is noted. Our agency contact is also in regular contact with 
principal researchers at each institution to discuss progress toward 
project objectives.
                   lowbush blueberry research, maine
    Mr. Skeen. Please provide a description of the research that has 
been funded under the lowbush blueberry research program
    Response. Interdisciplinary research is being conducted on many 
aspects of lowbush blueberry culture and processing includes 
investigation into factors affecting processing quality, biological 
control of insect pests, sustainable pollination, weed, disease and 
fertility management, cold hardiness and ground water protection.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. Maine produces 99 percent of all lowbush blueberries or 
33 percent of all blueberries in the United States. This work is of 
major local interest, and helps maintain the continued availability and 
high quality of this native fruit commodity. In addition, future 
efforts will be made to collaborate with IPM regional and state 
representatives in finding solutions to the specified pest concerns.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original research goal was to provide research 
answers to unique lowbush blueberry production, pest and processing 
problems. Research to date indicates that the field sanitizer was able 
to use heat to control insect pests without adversely affecting plant 
growth, providing a non-chemical alternative to pest management. 
Eumenid wasps were found to control red striped fireworm, providing a 
potential biological control. Native leafcutter bees and alfalfa 
leafcutter bees were found to increase lowbush blueberry fruit set and 
yield, providing an alternative to imported honeybees. Clonal variation 
was found to affect stem and flower bud hardiness that will prove to be 
important in clonal selection for planting. Control of monolina disease 
was found in using 4 ounces of propiconazole instead of 24 ounces of 
triforine thereby reducing the chemical needed for control of this 
disease. Boron and calcium were found to have more influence on the 
ability of the stigma to stimulate pollen germination than the 
germinability of the pollen grains themselves. A mechanical harvester 
was found to be effective and had yields and fruit quality comparable 
to hand harvest, providing growers with a more efficient tool to 
harvest blueberries. Economic weed thresholds have been determined for 
weed species, thereby giving growers a method to determine when to use 
control measures. Mowing proved as effective as wiping to suppress two 
of these species, providing a non-chemical control alternative. A rope 
wick wiper effectively controls weeds growing higher than blueberry 
plants without injuring the crop. Pesticide residues in lowbush 
blueberries were found to be well below federal tolerances. 
Carboxymethyl cellulose and various gums were found to control berry 
leakage, thereby improving quality for use in baked products. Products 
for use in food industry are being extracted from cull berries, thereby 
improving utilization and reducing waste.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1990, $170,000; fiscal year 1991, $202,000; fiscal 
years 1992 and 1993, $185,000 per year; fiscal year 1994, $208,000; and 
fiscal years 1995, 1996, and 1997 at $220,000 each year. A total of 
$1,610,000 has been appropriated.
    Mr. Skeen. What is the source and amount of nonfederal funds 
provided by fiscal year?
    Response. Director industry support from blueberry tax funds for 
1996 is about $65,000.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at the University of Maine.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original objectives have not yet been met. The 
University of Maine researchers estimate that the project will be 
concluded at the end of fiscal year 2001.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates this project on a yearly basis as 
funding is renewed. Project proposals are peer reviewed by the 
University of Maine review mechanism. Progress reports are submitted to 
the Cooperative State Research, Education, and Extension Service on a 
yearly basis as part of the review of the proposed project.
                        maple research, vermont
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Maple research grant.
    Response. The research increased understanding of how water moves 
from the soil into and through the maple trees, affecting tree growth 
and sap production. It examined the relationship of maple decline to 
acid precipitation. It measured the effectiveness of various fertilizer 
combinations in improving the health of declining maple trees. It 
identified sources of lead contamination in maple products and began 
testing lead-free equipment and possible commercial methods for 
removing lead from maple syrup.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. Maple products are an important source of seasonal income 
in maple-growing areas of rural America. Identifying the source of 
contamination during processing and identifying commercial methods to 
remove lead from products is important to assuring consumers that these 
food products are not harmful.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished?
    Response. The goal of this research is to conduct research on maple 
tree physiology, management of sugar maple stands, and related aspects 
of the maple industry to benefit the maple industry in Vermont and the 
Northeast. The U.S. Department of Agriculture approved an amendment to 
these goals to permit the research to focus on lead in maple products.
    Mr. Skeen. How long has this work been under way and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1985, $100,000; fiscal years 1986-1987, $95,000 
per year; fiscal years 1988-1989, $100,000 per year; fiscal years 1990-
1993, $99,000 per year; fiscal year 1994, $93,000; and fiscal years 
1995-1997, $84,000 each year. A total of $1,231,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $52,220 state appropriations and $10,345 product sales 
in 1991; $49,450 state appropriations and $18,950 product sales in 
1992; $49,575 state appropriation and $23,860 product sales in 1993; 
$44,543 state appropriation, $29,321 product sales, and $25,000 local 
support in 1994; $60,856 state appropriation, $12,000 product sales, 
and $19,090 local support in 1995; $83,000 state appropriation and 
$15,000 product sales in 1996; and $67,000 state appropriation, $11,000 
local support, and $15,000 product sales in 1997.
    Mr. Skeen. Where is this work being carried out?
    Response. This research is being conducted at the Vermont 
Agricultural Experiment Station.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives.
    Response. The work relative to maple tree physiology and management 
of maple stands has been completed so far as this project is concerned, 
but it continues under sponsorship of the U.S. Forest Service. The new 
objective of identifying sources of heavy metals in maple products and 
reducing them is underway. Anticipated completion date is 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. This project is evaluated annually by the U.S. Department 
of Agriculture through review of the project and any previous 
accomplishments. Although satisfactory progress was being made on the 
tree physiology and maple tree management aspects of the project, the 
project was amended to focus on lead in maple products.
                   michigan biotechnology consortium
    Mr. Skeen. Please provide a description of the work that has been 
funded under the Michigan Biotechnology Consortium grant.
    Response. The objective of the Michigan Biotechnology Consortium's 
research program is to develop bioprocessing technology to manufacture 
products from agricultural raw materials, to increase the utilization 
of raw materials, reduce surpluses, and to degrade agricultural and 
associated wastes, thereby decreasing environmental costs of 
agricultural products and processes. Bioprocessing may include 
fermentation, an enzymatic step, chemical catalysis, or physical 
modification of agricultural raw materials.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes the results from the 
research to develop bioprocessing technology to manufacture value-added 
products from agricultural raw materials, which increases their 
utilization and reduces agricultural commodity surpluses and 
environmental costs, will contribute to regional and national 
priorities.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research remains to select and 
develop market-viable technologies that will form the basis new 
companies, new jobs, and additional tax revenues produced for state, 
local and Federal governments. The Michigan Biotechnology Institute and 
Michigan State University have succeeded in developing numerous 
technologies that are now in the marketplace. Examples include the 
following: A process was developed to produce lactic acid through 
fermentation using corn as the feedstock resulting in a polymer for 
biodegradable plastics and a disinfectant. The properties of the 
polymer make it useful for non-woven applications such as medical 
packaging, clear blister bags, diapers, etc. Corn was used as a 
feedstock to develop plant growth formulations to enhance plant growth 
and productivity and reduce nitrogen fertilizer requirements. Growth 
promoters for high volume or high value crops have the potential for 
productivity increases of 15 percent and a reduction in nitrogen 
fertilizer use of 25 percent. Biodegradable plastic resins developed 
from cornstarch were made to product compostable films for agricultural 
mulch and other soluble firms, and for cellulose-base engineered 
theremoplastic resins. Biodegradable plastic resins from cornstarch 
were also developed for moldable products such as disposable cutlery, 
plastic containers, toys and toothbrushes. The market for resins for 
use in formulation and extrusion of plastics for all applications is in 
excess of $2 billion annually. Corn was also used for the development 
of all-natural flavors and derivatives including a salty flavor 
compound that can be produced to taste in non-sodium and non-potassium 
forms. Low-cost, readily-available carbohydrates were used to produce 
high-quality, high-value optically-pure chiral intermediates for the 
pharmaceutical and agrochemical industries: A sand/manure separation 
system for dairy farmers was developed to cost-effectively separate 
manure from sand and recycle both components. Many of these products 
are being explored for commercial development through licensing 
agreements with industrial partners or new company startups. In 
addition, there are many agri-based industrial products under 
development including: several succinate-based green chemicals for 
surfactants and detergents, new food ingredients and flavors, paint 
removers, adhesives, lubricants, and plastic resins; green solvents 
from fermentation of corn-derived materials; ethanol produced from 
cellulose; natural food preservatives, improved enzymes for processing 
starch and fructose production, food flavors and pigments, feed 
ingredients to improve digestibility of forage-based animal feed; 
biomass-based animal feeds; and agricultural waste treatment processes 
to improve methods to clean up herbicides and pesticides.
    Mr. Skeen. How long has this work been under way and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $1,750,000; fiscal year 1990, $2,160,000; 
fiscal year 1991, $2,246,000; fiscal years 1992-1993, $2,358,000 per 
year; fiscal year 1994, $2,217,000; fiscal year 1995, $1,995,000; and 
fiscal years 1996 and 1997, $750,000 per year. A total of $16,584,000 
has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $1,750,000 in State of Michigan appropriations, 
$160,000 from industry, and $1,000,000 from miscellaneous in 1991; 
$1,750,000 in State of Michigan appropriations, $175,000 from industry, 
and $1,000,000 from miscellaneous in 1992; $1,750,000 in State of 
Michigan appropriations and $100,000 from industry in 1993; $1,750,000 
in State of Michigan appropriations, $175,000 from industry, and 
$100,000 from miscellaneous in 1994; and $200,000 in State of Michigan 
appropriations and $2,035,000 from industry in 1995; $1,250,000 in 
State of Michigan appropriations and $350,000 from industry in 1996. A 
total of $13,545,000 has been provided to support this work by non-
federal sources.
    Mr. Skeen. Where is this work being carried out?
    Response. The research is being conducted on the campus of Michigan 
State University and at the Michigan Biotechnology Institute.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The Institute had reported specific milestones that it 
intended to be accomplished within the five-year period ending in 
fiscal year 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The Michigan Biotechnology Institute was evaluated for 
scientific merit by an agency peer review panel on January 7, 1997. The 
panel recommended approval of the project pending receipt of 
supplemental information on administrative aspects of the project. The 
Intitute was also featured in a biotechnology special grant seminar 
hosted by the agency on December 16, 1996 at which the principal 
investigator presented research progress and highlights to an audience 
of agency scientists, administrators, and awards management staff.
         midwest advanced food manufacturing alliance, nebraska
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Midwest advanced food manufacturing alliance 
grant.
    Response. The stated purpose of the Midwest Advanced Food 
Manufacturing Alliance is to expedite the development of new 
manufacturing and processing technologies for food and related products 
derived from United States produced crops and livestock. The Alliance 
involves research scientists in food science and technology, food 
engineering, nutrition, microbiology, computer science, and other 
relevant areas from 12 leading Midwestern universities and private 
sector researchers from numerous U.S. food processing companies. Close 
cooperation between corporate and university researchers assure that 
the latest scientific advances are applied to the most relevant 
problems and that solutions are efficiently transferred and used by the 
private sector. Fiscal year 1997 funds will support research from June 
1, 1997 through May 31, 1998.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
project?
    Response. The principal researcher believes the food manufacturing 
industry is the number one manufacturing industry in the Midwestern 
region and that opportunities for trade in high value processed food 
products will grow exponentially on a worldwide basis. The researcher 
believes the Alliance is positioned to fill the void in longer range 
research and development for the food industry.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal, as stated previously, was to expedite the 
development of new manufacturing and processing technologies for food 
and related products derived from United States produced crops and 
livestock. This is accomplished by conducting a research proposal 
competition among faculty from the 12 participating universities to 
fund research projects where matching funds are available from 
industry. Fourteen (14) projects were funded from fiscal year 1994 
funds with completion and final reports due by May 1, 1996. Ten (10) 
projects were funded from fiscal year 1995 funds with anticipated 
completion and final reports due by August 31, 1997. Ten (10) projects 
were also funded from fiscal year 1996 funds with anticipated 
completion and final reports due by May 31, 1998. Proposals are 
reviewed for scientific merit by independent scientists, and final 
selection of projects includes consideration of industrial interest and 
commitment on non-Federal matching funds.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1994. The appropriation for fiscal year 1994 was $470,000, and for 
fiscal years 1995-1997, $423,000 each year. A total of $1,739,000 has 
been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Industry matching funds were $823,148 in fiscal year 
1994, $414,164 in fiscal year 1995, and $576,600 in fiscal year 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. The work is being coordinated by the Nebraska 
Agricultural Experiment Station at Lincoln. Specific research projects 
are also being conducted at seven (7) other universities that are part 
of the Alliance.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional related 
objectives?
    Response. The overall objectives of the Alliance are ongoing.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An agency science specialist conducts a merit review of 
the proposal submitted in support of the appropriation on an annual 
basis. A review of the proposal was conducted on December 20, 1996. The 
principal investigator has provided descriptions of projects funded by 
this grant.
                  midwest agricultural products, iowa
    Mr. Skeen. Please provide a description of the research that has 
been done under the Midwest agricultural products program.
    Response. The Midwest Agribusiness Trade Research and Information 
Center does applied research to improve the global competitiveness and 
marketability of agricultural products produced in the Midwest and 
disseminates the results to small and medium-sized agribusinesses. 
Projects include analyses of potential markets for U.S. agricultural 
products and equipment/technology in several countries; attitudes of 
foreign consumers; and development of new/improved U.S. products to 
meet foreign needs.
    Mr. Skeen. According to the research proposal, or the principal 
research, what is the national, regional, or local need for this 
research?
    Response. The principal research believes that agribusiness firms 
in the United States, especially small to medium-sized firms, have a 
large unrealized potential to expand export sales and foreign business 
ventures. These untapped opportunities exist in well-established growth 
markets in the Pacific Rim and in newly opening markets such as Mexico, 
China, and Eastern Europe. The reluctance of small to medium-sized 
firms to explore these market opportunities is, in part, due to the 
high cost of market information and analysis and the perceived high 
risk of doing business in new markets with unfamiliar partners.
    Mr. Skeen. What was the original goal of this research, and what 
has been accomplished to date?
    Response. The goal is to enhance export of agricultural 
commodities, value-added products, and equipment produced by Midwestern 
agribusiness firms through research and education programs utilizing a 
close-working relationships with those firms.
    In the past year, several studies were completed and distributed to 
interested firms, and new ones were initiated. Completed studies 
included: an analysis of conditions and prospects for agribusiness 
ventures in Egypt; market analyses for U.S. agricultural products in 
Cameroon, Senegal, and Cote d'Ivoire; an assessment of market 
opportunities for food processing equipment in China; Mexican consumer 
response to U.S. pork products; comparative advantage of U.S. pork in 
North American markets; impact of NAFTA on Midwest beef industry; an 
evaluation of the need for government regulation for maintaining or 
improving the quality of 12 export commodities; case studies of 16 
outstanding food and agricultural exporters; evaluation of 60 varieties 
of corn for dry milling for the Mexican market.; suitability of 
microsoy flakes for markets in Pacific Rim and African countries; and 
use of the Internet for marketing goods and services. In addition 
several seminars and conferences were held, ``Global Connections'' 
newsletter was published regularly, and business contacts database kept 
up to date. As a result of much work to establish trading relationships 
with China, the Des Monies sister-city of Shijiazhuang, China 
established a trade office in Des Monies.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1992. The appropriation for fiscal years 1992-1993 was $700,000 per 
year; fiscal year 1994, $658,000; and fiscal years 1995-1997, $592,000 
per year. A total of $3,834,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are as follows; $185,495 State appropriations and $373,897 industry for 
a total of $559,392 in fiscal year 1992; $183,192 State appropriations 
and $318,966 industry for a total of $502,158 in fiscal year 1993; 
$127,948 State appropriations and $500,394 industry for a total of 
$628,342 in fiscal year 1994; $258,053 State appropriations and 
$389,834 industry for a total of $647,887 for fiscal year 1995; 
$165,425 State appropriations for fiscal year 1996; and $162,883 State 
appropriations for fiscal year 1997. Industry contributions continue 
but were not reported for 1996 & 1997.
    Mr. Skeen. Where is the work being carried out?
    Response. The program is carried out by Iowa State University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have these objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original proposal in 1994 was for a period of 24 
months, however, the objectives for expanding the export capacity of 
small to medium-sized agribusiness firms is an ongoing regional and 
national concern. The current phase of the program will be completed in 
1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. CSREES performed a merit review of the project in January 
1997 as it evaluated the project proposal for 1997 and concluded that 
the Midwest Agribusiness trade and Research Center at Iowa State 
University has a record of producing research and trade information for 
agribusinesses in the Midwest and other states. Research results appear 
in several professional journals and popular press.
                       milk safety, pennsylvania
    Mr. Skeen. Please provide a description of the research that has 
been funded under the milk safety grant.
    Response. The overall goal of the milk safety program is to provide 
insight into factors that help ensure an adequate and safe milk supply. 
Toward that end, the research has focused on factors that affect milk 
production, processing, manufacturing, and consumption. Special 
attention has been given to ways of preventing and/or treating 
pathogens that enter the milk supply.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes that the question of 
microbial safety is of paramount interest to the milk/dairy industry at 
all levels. Dairy products such as milk, nonfat dry milk, cheese, 
butter, and cream have been associated with several large outbreaks of 
staphylococcal food poisoning, and coagulase negative Staphylococcus 
infections are one of the most common intramammary infections of dairy 
cattle. Listeria monocytogenes is present in about 4% of raw milk, and 
it has the potential to grow to dangerous levels during refrigeration 
and storage, making pasteurization critical in preventing foodborne 
illnesses from this organism. Bovine mastitis is the most important 
infectious disease affecting the quality and quantity of milk produced 
in the nation, costing producers an average $180 per cow per year. The 
researchers believe ensuring safety of dairy products impacts not only 
consumer health and confidence in the safety of the food supply, but 
economic viability as well.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The research is aimed at minimizing or eliminating future 
foodborne disease outbreaks from milk and dairy products. A key 
accomplishment includes the discovery of potential approaches of 
enhancing natural defense mechanisms of the bovine mammary gland 
through vaccination and immunoregulation. Discoveries of factors 
influencing growth of Staphylococcus aureus could be used to prevent or 
contain growth of this pathogen in foods. Researchers have identified 
and sequenced a gene from this bacterium that is essential for growth 
under stressful conditions. A computer model of Listeria monocytogenes 
growth in dairy foods under dynamic refrigeration conditions and during 
extended storage is under development to provide producers and 
processors with a proven technology for further enhancing the safety of 
fluid milk and related products. Researchers have elucidated conditions 
that significantly enhance the survival of Listeria monocytogenes 
during heat challenge. Research also revealed that consumers having 
high general concern about milk and dairy product safety and nutrition 
were more likely to be female, to have lower levels of education, be 
non-white and report more attention to scientific news, health and 
nutrition news and news about government food safety regulatory 
attention.
    Mr. Skeen. How long has the work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded for milk consumption and milk 
safety from funds appropriated as follows: fiscal years 1986 through 
1989, $285,000 per year; fiscal year 1990, $281,000; fiscal year 1991, 
$283,000; fiscal year 1992, $284,000; fiscal year 1993, $184,000; 
fiscal years 1994-1997, $268,000 per year. A total of $3,244,000 has 
been appropriated for milk safety and milk consumption.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The University estimates that non-federal funds 
contributed to this project include the following costs and salaries: 
$265,000 for fiscal year 1991; $224,700 for fiscal year 1992; $142,600 
for fiscal year 1993; and $252,168 for fiscal year 1995. No data are 
currently available for fiscal years 1994 and 1996.
    Mr. Skeen. Where is the work being carried out?
    Response. The research is being conducted at the Pennsylvania State 
University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional related 
objectives?
    Response. The researchers anticipate that research supported by 
this grant should be concluded in 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An agency science specialist conducts a merit review of 
the proposal submitted in support of the appropriation on an annual 
basis. Since the agency has not yet received the proposal in support of 
the fiscal year 1997 proposal, the last review of the proposal was 
conducted on March 8, 1996. At that time, the agency science specialist 
believed that the projects addressed issues related to safety of milk 
and dairy food products, were scientifically sound, and that 
satisfactory progress was being demonstrated using previously awarded 
grant funds.
    Mr. Skeen. Please provide a description of the research that has 
been funded under the minor use animal drug program grant.
    Response. The National Agricultural Program to Approve Animal Drugs 
for Minor Species and Uses (NRSP-7) was established to obtain Food and 
Drug Administration clearance of animal drugs intended for use in minor 
species and for minor uses in major species. The funds for the special 
research grant are divided between the four regional animal drug 
coordinators and the headquarters at Michigan State University for 
support of the drug clearance program. The NRSP-7 funds are being 
utilized by the regional animal drug coordinators and by allocation to 
State Agricultural Experiment Stations to develop data required for 
meeting clearance requirements. Participants in the research program 
consist of the regional coordinators, State Agricultural Experiment 
Stations, USDA's Agricultural Research Service (ARS), the U.S. 
Department of Interior, schools of veterinary medicine, and the drug 
industry. Each year priorities are established for the various species 
categories including small ruminants, game birds, fur-bearing animals, 
and aquaculture species. The fiscal year 1996 grants terminate between 
April 1997 and September 1998. The 1997 grant proposals have been 
received and are being reviewed.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. Animal agriculture throughout the U.S. has relied on 
chemical and pharmaceutical companies to provide their industry with 
safe efficacious drugs to combat diseases. The need for approval from 
FDA's Center for Veterinary Medicine (CVM) for drugs to control 
diseases in minor species and for minor uses in major species has 
increased with intensified production units and consumer demand for 
residue-free meat and animal products. The high cost incurred to obtain 
data required by federal, regional, and local regulations to approve 
these drugs, when coupled with limited economic returns, has limited 
the availability of approved drugs for minor uses and minor species. 
The program provides research needed to develop and ultimately 
culminate in drug approval by FDA/CVM for the above purposes. The goals 
are accomplished through the use of regional animal drug coordinators 
as well as a national coordinator to prioritize the need, secure 
investigators at federal, state and private institutions, and oversee 
the research and data compilation necessary to meet federal regulations 
for approval. All drug approvals are national, although industry use 
may be regional. For example, aquaculture is concentrated in specific 
geographic sections of the country. The Administration believes this 
research to be of national, regional and local need.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original NRSP-7 goal to obtain FDA clearance of 
animal drugs intended for use in minor species and for minor uses in 
major species remains as the dominant goal. In recent years, the 
research program has expanded or given additional emphasis to 
aquaculture species, veal calves and sheep. In addition, several new 
animal drug requests from the game bird industry were received during 
the past year. The importance of environmental assessment, residue 
withdrawals and occupational safety have increasingly been given more 
attention during the approval process to help assure consumer 
protection. To date, 282 drug requests have been submitted to the Minor 
Use Animal Drug Program for clearance. Working in conjunction with many 
universities, the U.S. Department of Interior, ARS, and numerous 
pharmaceutical companies, 24 research projects are now active and will 
be continued through 1997 to establish data for clearances. Twenty four 
public master files have been published in the Federal Register 
providing clearance for drug use in minor species. Two additional 
public master files are currently being completed and several others 
are under review by FDA.
    The Center for Veterinary Medicine is cooperating and supporting 
this program to the fullest extent. The program is a prime example of 
Federal interagency cooperation in coordination with academic 
institutions, pharmaceutical industries and commodity interests to 
effectively meet an urgent need.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from appropriated funds in the 
amount of $240,000 per year for fiscal years 1982-85; $229,000 per year 
for fiscal years 1986-1989; $226,000 for fiscal year 1990; $450,000 for 
fiscal year 1991; $464,000 per year for fiscal years 1992 and 1993; 
$611,000 for fiscal year 1994; and $550,000 for fiscal years 1995-1997. 
A total of $5,741,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $156,099 state appropriations. $29,409 industry, and 
$11,365 miscellaneous in 1991; $265,523 state appropriations, $1,182 
product sales, $10,805 industry, and $59 miscellaneous in 1992; 
$212,004 state appropriations, $315 industry; and $103 miscellaneous in 
1993; $157,690 state appropriations, and $7,103 miscellaneous in 1994; 
$84,359 state appropriations in 1995; and $191,835 non-federal support 
in 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. The grants have been awarded to the four regional animal 
drug coordinators located at Cornell University, the University of 
Florida, Michigan State University and the University of California-
Davis, and to program Headquarters at Michigan State University. 
Research is conducted at these universities and through allocation of 
these funds for specific experiments at the State Agricultural 
Experiment Stations, ARS, the U.S. Department of Interior, and in 
conjunction with several pharmaceutical companies.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional related 
objectives?
    Response. Selected categories of the Special Research Grants 
program address important national/regional research initiatives. The 
overall objectives established cooperatively with FDA and industry are 
still valid. However, specific objectives continually are met and 
revised to reflect the changing priorities for FDA, industry, and 
consumers. Research projects for this program have involved 20 
different animal and aquaculture species with emphasis given in recent 
years to research on drugs for the expanding aquaculture industry and 
increasing number of requests from the sheep, veal calf, and game bird 
industries. The minor use animal drugs program involves research on 
biological systems that by their nature are ever changing and 
presenting new challenges to agriculture. Especially with the new 
sensitivities about safety and the environment, there is a high 
priority for continuation of these ongoing projects.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency conducted a formal review of the Minor Use 
Animal Drug Program in 1991. The program was found to be very 
productive and it was recommended that increased financial support 
should be sought in order to meet the national needs identified for the 
program. GAO also conducted a review of the program in 1991 and 
recommended additional support for the program. Each year the project 
is peer reviewed and twice a year the agency and representatives of the 
program meet with FDA to evaluate progress and to prioritize research. 
Biannually, a workshop is held to identify priorities for the program 
whereby producers, pharmaceutical companies, FDA, and researchers 
participate.
                      molluscan shellfish, oregon
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Molluscan Shellfish grant.
    Response. The research under this program was initiated in fiscal 
year 1995. A repository for the conservation of genetic material of 
molluscan shellfish was established during the first year of the 
project. This repository is serving as a source of genetic material for 
current breeding programs aimed at commercial production of shellfish 
with desirable traits.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The researchers indicate that there is a national need 
for a molluscan broodstock development program to benefit the 
commercial industry through conservation, genetic manipulation and wise 
management of the genetic resources of molluscan shellfish.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goals of this research program are to establish a 
repository for genetic materials of molluscan shellfish, to establish 
breeding programs for commercial production of molluscan shellfish, and 
to establish a resource center for the industry, researchers, and other 
interested parties in the United States and abroad.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1995 with an appropriation of $250,000; fiscal year 1996 was $300,000; 
and fiscal year 1997 is $400,000. A total of $950,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The university estimates a total of $135,454 of non-
federal funding in fiscal year 1995 primarily from state sources; in 
fiscal year 1996 no cost sharing provided.
    Mr. Skeen. Where is this work being carried out?
    Response. Research will be conducted at Oregon State University, 
Rutgers University, and the University of California at Davis.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. Although the specific research objectives outlined in the 
original proposal were to be completed in 1996, researchers anticipated 
that the original broad objectives would be completed in 1999. Progress 
has been made on major components of the research program. The 
anticipated completion date is for the broad research objectives is 
still 1999. The specific research outlined in the present proposal will 
be completed in fiscal year 1997.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates the progress of this project on an 
annual basis. The university is required to submit an accomplishment 
report when the new proposal is submitted to CSREES for funding. The 
1996 review indicated that the researchers were well qualified to 
conduct the research, the research is being conducted in close 
cooperation with the private sector.
                    multi-commodity research, oregon
    Mr. Skeen. Please provide a description of the research that has 
been done under the multi-commodity research program.
    Response. The purpose of this research program is to provide 
agricultural marketing research and analysis to support Pacific 
Northwest producers and agribusiness in penetrating new and expanding 
Pacific Rim markets for value-added products. The program examines the 
potential for increasing the competitiveness and economic value added 
of Pacific Northwest agriculture through improvements in food 
production, processing, and trade by assisting decision makers in 
developing economic and business strategies.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The principal researcher believes that Oregon and the 
other Pacific Northwest States produce a wide variety of agricultural 
commodities and products with commercial potential for export to 
Pacific Rim countries. Research and analysis is necessary to guide 
agricultural producers and processors in assessing these markets and 
developing market strategies and vlaue-added products, and marketing 
strategies tailored to specific Pacific Rim markets.
    Mr. Skeen. What was the original goal of this research, and what 
has been accomplished to date?
    Response. The goal of this proposed research project is to gain 
better scientific understanding of the technical, economic and social 
relationships that define Oregon's value-added agricultural sector, and 
examine how these factors affect the economic performance of this 
sector. Project objectives were to:
    1. Develop a pilot agricultural economic growth assessment model 
for Oregon's farm and value-added agricultural products. While 
developed as an Oregon-specific model, it is anticipated that the 
resulting approach and methodologies will be applicable to other 
Pacific Northwest state economies.
    2. Conduct and coordinate applied research focused on understanding 
the factors affecting the global competitiveness of Oregon agriculture 
and the roles of public policies influencing the long-term success of 
the industry.
    3. Reassess and modify as necessary existing economic performance 
benchmarks designated for the Oregon agricultural industry, and create 
strategies and actionable targets for industry performance to be 
achieved within defined time periods.
    4. Encourage and facilitate applied, industry-level research into 
value-added agricultural trade, marketing and policy issues affecting 
Oregon and the Pacific Northwest.
    5. Assess, on an on-going basis, related agricultural trade and 
marketing research across multidisciplinary fields at Oregon State 
University and other universities throughout the region. This will 
include work with affiliated universities to establish research 
projects that further the development of agricultural products, 
processes, or international markets.
    6. Establish, in collaboration with the Asian wheat foods industry, 
criteria for development of noodle of varieties best suited to Asian 
markets. This will enhance the competitiveness of U.S. wheats in the 
Asian wheat foods markets through the accurate description of wheat 
quality characteristics and the exploitation of wheat blends, an 
inherent strength of the U.S. multi-class wheat delivery system.
    Mr. Skeen. How long has this work been underway, and how much has 
been appropriated through fiscal year 1997?
    Response. The research began in fiscal year 1993 with an 
appropriation of $300,000. The fiscal year 1994 appropriation was 
$282,000, and fiscal years 1995 through 1997 appropriations are 
$364,000 for each year. The total amount appropriated is $1,674,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funding provided for this grant was 
$168,824 State appropriations in fiscal year 1992; $177,574 State 
appropriations in fiscal year 1993; and $162,394 State appropriations 
in fiscal year 1994. Due to a change in university policy, the 
university has not reported the amount of non-federal funds 
appropriated for fiscal years 1995-1997..
    Mr. Skeen. Where is the work being carried out?
    Response. The research program will be carried out at Oregon State 
University in Corvallis, and at the Agricultural Marketing and Trade 
Program in Portland, Oregon.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. This Special Grant is awarded on a year-by-year basis. 
Thus, Oregon State University has traditionally requested funds for 
this project on an annual basis and has budgeted the funds to 
individual sub-projects on that basis. Progress on original objectives 
is as follows: baseline data has been accumulated, an economic growth 
assessment model is being formulated and tested, global competitiveness 
is being assessed for value-added Pacific Northwest agricultural 
products, targets for performance are being worked out with 
agricultural industries to meet the demands for noodle production for 
Asian markets. Anticipated completion date is 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency reviews progress each year when a new proposal 
is submitted. We believe satisfactory progress is being achieved.
           multi-cropping strategies for aquaculture, hawaii
    Mr. Skeen. Please provide a description of the research funded 
under the multi-cropping strategies for aquaculture research grant in 
Hawaii.
    Response. In fiscal year 1993, the university redirected this 
research program to address the opportunities of alternative 
aquaculture production systems, including the ancient Hawaiian fish 
ponds on the island of Molokai. The university has developed a 
community based research identification process and has developed 
specific research projects to be included in this program. Current 
research includes work in the area of edible seaweed cultivation and 
the culture of the Pacific threadfin, a species indigenous to Hawaii. 
Previous research under this program led to the development of 
coproduction of shrimp and oysters in aquacultural systems. The 
technology developed from this program has been commercialized.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The principal researchers indicate that the primary need 
for this research is to assist the native Hawaiians in improving the 
profitability and sustainability of the ancient Hawaiian fish ponds and 
other appropriate aquaculture systems as part of a total community 
development program.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this program was to develop 
technology for the coproduction of shrimp and oysters in aquacultural 
production systems. Research led to the development of oyster 
production systems that have been field tested under commercial 
conditions. The current research effort is aimed at developing 
sustainable commercial aquaculture production systems on the island of 
Molokai. Hatchery techniques have been developed for the culture of the 
Pacific threadfin. Techniques for the culture of two edible aquatic 
plants have been refined. Multidimensional field testing and evaluation 
of existing and restored ancient Hawaiian fish ponds is currently 
underway.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. This research was initiated in fiscal year 1987 and 
$152,000 per year was appropriated in fiscal years 1987 through 1989. 
The fiscal year 1990-1993 appropriations were $150,000 per year; 
$141,000 in fiscal year 1994; and $127,000 in fiscal years 1995-1997, 
each year. A total of $1,578,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The university reports a total of $137,286 of non-federal 
funding for this program in fiscal years 1991-1994, $318,468 in fiscal 
year 1995. The primary source of non-federal funding was from state 
sources.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted through the University of 
Hawaii on the island of Molokai.
    Mr. Skeen. What was the anticipated completion date for the 
original objective of the project? Have those objectives been met? What 
is the anticipated completion date of additional or related objectives?
    Response. The completion date for the original project was 1993. 
The original objectives were met. The specific research outlined in the 
current proposal will be completed in fiscal year 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates the progress of this project on an 
annual basis. The university is required to provide an accomplishment 
report when the new grant proposal is submitted to CSREES for funding. 
In addition, in 1996 the CSREES program manager conducted a site visit 
to Molokai to meet with the principal investigator and industry 
cooperators. The 1996 review indicated that progress has been made in 
the implementation of the program despite the challenges of developing 
a community based program in such a unique social and cultural 
environment.
             national biological impact assessment program
    Mr. Skeen. Please provide a description of the work that has been 
funded under the National Biological Impact Assessment Program grant.
    Response. The National Biological Impact Assessment Program was 
established to facilitate and assess the safe application of new 
technologies for the genetic modification of animals, plants and micro-
organisms to benefit agriculture and the environment. This program was 
established in fiscal year 1989.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. During the last decade there has been an explosion of new 
information produced by rapid advances in biotechnology and its 
beneficial application to agriculture and the environment. The research 
proposed for this program fulfills an important national need to 
provide scientists easy access to relevant information that will 
facilitate the preparation of scientific proposals that comply with the 
oversight and regulatory requirements for testing potential 
biotechnology products and foster the safe application of biotechnology 
to benefit agriculture and the environment. This program supports the 
agricultural and environmental biotechnology community by providing 
useful information resources to scientists, administrators, regulators, 
teachers and the interested public.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of the National Biological Impact 
Assessment Program was to provide easy access to reliable information 
on public health and environmental safety of agricultural biotechnology 
research. Its objectives were to increase the availability, timeliness 
and utility of relevant information to the biotechnology research 
community; facilitate the compliance of biotechnology research with 
oversight and regulatory requirements for testing biotechnology 
products; and provide informational resources to the scientific 
community that would foster the safe application of biotechnology to 
agriculture and the environment. This same goal continues today. Each 
year much new information is added and integrated into the computerized 
database. The system has evolved to adapt new computer technologies and 
is now available via internet and the World Wide Web. This computer-
based information system now includes texts of Federal biotechnology 
regulations, proposed rules and policy statements; databases of biotech 
companies, and research centers, institutional biosafety committees and 
state regulatory contacts; resource lists of publications, directories, 
bibliographies and meetings; monthly newsletters developed and 
distributed by this program; relevant Federal Register announcements; 
and links to other electronic information resources. In addition, this 
program provides biosafety training through workshops for academic and 
corporate scientists, biosafety officers and state regulators. A Field 
Test Notebook has been developed as a reference text for these 
workshops.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $125,000; fiscal year 1990, $123,000; fiscal 
years 1991-1993, $300,000 per year; fiscal year 1994, $282,000; and 
fiscal years 1995-1997, $254,000 per year. A total of $2,192,000 has 
been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The co-principal investigator of this grant is Head of 
the Department of Biochemistry and Anaerobic Microbiology at Virginia 
Polytechnic Institute and State University. The university contributes 
his time to administer this grant which amounts to approximately $5,000 
each year.
    Mr. Skeen. Where is this work being carried out?
    Response. This grant award is with Virginia Polytechnic Institute 
and State University. Former and current partners in the program 
include The Pennsylvania State University, Louisiana State University, 
North Carolina Biotechnology Center, University of Arizona, University 
of Missouri, Michigan State University, Purdue University, and the 
National Agricultural Library.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. There remains a continuing need to address the safety of 
field testing of genetically modified organisms to benefit agriculture 
and the environment. This continues to be a rapidly expanding field. 
Increasing amounts of new information needs to be properly integrated 
into the computerized information system each year. This program has 
been very successful in providing essential, updated information on the 
conduct of safe field experiments. Thus, the program remains a high 
priority and needs to be continued.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The National Biological Impact Assessment Program was 
extensively reviewed by an external panel of scientists in October 
1994. The review report was highly complimentary regarding the 
Information Systems for Biotechnology funded by this special grant and 
recommended continuation of this program. The FY 97 proposal was peer 
reviewed and highly recommended for funding. Peer reviewers 
consistently conclude that the Information Systems for Biotechnology 
supported by this grant current, highly relevant, and useful 
information for the biotechnology research community. Scientists rely 
on this database as a source of current and accurate information in a 
rapidly changing field of science.
          nematode resistance genetic engineering, new mexico
    Mr. Skeen. Please provide a description of the work that has been 
funded under the Nematode Resistance Genetic Engineering Project grant.
    Response. This research is designed to investigate naturally 
occurring compounds from diverse sources that may confer pesticidal 
resistance if introduced into agronomic plants. The main target pests 
are plant parasitic nematodes. The work is using molecular biological 
techniques to incorporate genes into agronomic plant which will shorten 
the time frame to produce transgenic plants. Progress includes the a 
Diptheria A toxin has been engineered behind a root-knot promoter. The 
promoter triggers the toxin to kill the nurse cell, which is necessary 
for nematode development. Two proteinase inhibitor genes have been 
constructed and have been inserted into crop plants. The expression 
rate however is low at this time. Other genes that promote toxins have 
been constructed and inserted into experimental and crops plants. The 
bioassay with targeted pest appear very promising.
    Mr. Skeen. According to the research proposal, or the principal 
research, what is the national, regional, or local need for this 
research?
    Response. The principal researcher believes that the successful 
development of these techniques and subsequence transfer of nematode 
resistant genes into agromic plants will provide an environmentally-
sound system for all plants susceptible to plant parasitic nematodes.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to provide an 
alternative approach for the control of plant parasitic nematodes 
through the use of molecular biological technologies to transfer 
pesticide resistant to plants. A nematode-stimulated promoter element 
was engineered for insertion in front of a bacteria toxin. A unique 
technique utilizing insect intestinal membrane vesicles were used as 
tools for detection of specific protein binding domains. The synthetic 
gene, CRY3A Bt has been successful in field trains on potato and 
eggplants.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1991 and the appropriations for fiscal years 1991-1993 was $150,000 per 
year; $141,000 was appropriated in 1994: $127,000 in fiscal years 1995-
1997, each year. A total of $972,000 has been appropriated thus far.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $65,000 state appropriations in 1991; $62,000 in state 
appropriations in 1992; $75,000 in state appropriations in 1994; and 
$75,000 in 1995. For 1996, the University and the Plant Genetic 
Engineering Laboratory are providing matching contributions in faculty 
and staff salaries, facilities, equipment maintenance and replacement, 
and administrative support. In 1997, there are no matching non-federal 
funds.
    Mr. Skeen. Where is the work being carried out?
    Response. Research is being conducted at the New Mexico State 
University, and at collaborating universities in the region.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The estimated completion date for this project is 
estimated to be 2001.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The last evaluation of this project was a merit review 
conducted December 19, 1996. In summary, the overall goal of this 
project is to use molecular biological techniques to develop pesticide 
capability in plants of agronomic importance. The research 
accomplishments demonstrated the feasibility of insertion of toxin 
genes into plants for expression against nematodoes. The use of the 
synthetic CRY3A Bt gene has been successful in potato and eggplant in 
the field trials.
            nonfood agricultural products program, nebraska
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Nonfood Agricultural Products Program grant.
    Response. This work focuses on the identification of specific 
market niches that can be filled by products produced from agricultural 
materials, developing the needed technology to produce the product, and 
working with the private sector to transfer the technology into 
commercial practice. Major areas of application include starch-based 
polymers, use of tallow as diesel fuel, improvements in ethanol 
production, use of vegetable oil as drip oil for irrigation wells, 
production of levulinic acid, the extraction of wax from grain sorghum 
and production of microcrystalline cellulose from crop biomass.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes our ability to produce 
agricultural commodities exceeds our needs for food and feed. These 
commodities are environmentally-friendly feedstocks which can be used 
in the production of many biochemicals and biomaterials that have 
traditionally been produced from petroleum. The production of the 
commodities and the value-added processing of these commodities is 
regional in scope.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The objectives of the Center are to identify niche 
markets for industrial utilization of agricultural products, improve 
and develop conversion processes as needed for specific product 
isolation and utilizat6ion, provide technical, marketing and business 
assistance to industries, and coordinate agricultural industrial 
materials research at the University of Nebraska, Lincoln. 
Accomplishments include developing a formula that combines starch from 
corn and wheat, plastic resin from polystyrene and 
polymethylmethacrylate and compatibilizing agents to make loose fill 
packaging materials. Collaborations with the private sector to optimize 
the technology and to initiate a startup company are ongoing. Crude 
degummed and dried soybean oil has been proven to be an effective drip 
oil for irrigation wells. Archer Petroleum in Omaha is developing a 
marketing plan for regional distribution through 2500 distributors. 
Crude beef tallow has been converted to methyl esters and studied as 
diesel fuel. Fuel tests and extensive engine studies have shown it to 
be compatible with petroleum diesel and diesel engines. Starch has been 
converted to levulinic acid using acid hydrolysis and an extruder. As 
an antifreeze, levulinic acid has a freezing point of -18 degrees C, 
which is not as low as conventional antifreeze but is environmentally 
friendly. Other industrial uses of levulinic acid need to be explored. 
Protein films have been made and evaluated for potential use as 
coatings and in laminated packaging materials. These films may have a 
unique application for use as sprayed-in-place agricultural mulches. 
Seeds or plants cold be easily planted by puncturing the film on the 
soil surface. Preliminary studies show significant potential for such 
film applications in controlling soil erosion.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The funding levels for this project are $109,000 in 1990; 
$110,000 per year in fiscal years 1991-1993; $103,000 in fiscal year 
1994; $93,000 in fiscal year 1995; and $64,000 in fiscal years 1996 and 
1997. A total of $763,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-Federal funding for this project is: in fiscal 
year 1992, $315,000, fiscal year 1993, $330,000, fiscal year 1994, 
$330,000, fiscal year 1995, $309,000, and fiscal year 1996, $251,000 
and fiscal year 1997 $250,000. These funds were from Nebraska Corn, 
Soybean, Wheat, Sorghum and Beef Boards, World Wildlife Fund, Nebraska 
Bankers Association, United Soybean Board and National Corn Growers 
Association.
    Mr. Skeen. Where is this work being carried out?
    Response. This work is being conducted at the Industrial 
Agricultural Products Center, University of Nebraska, East Campus, 
Lincoln, Nebraska.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The objectives of the original projects have been 
completed. Specific objectives have been identified in each renewal 
request.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. This project is evaluated annually based on an annual 
progress report. The lead staff scientist has reviewed the project and 
determined that the research is conducted in accord with the mission of 
this agency.
                 north central biotechnical initiative
    Mr. Skeen. Please provide a description of the research that has 
been funded under the North Central Biotechnical Initiative grant.
    Response. The North Central Biotechnical Initiative administered by 
Purdue University conducts a regional competitive research grants 
program for biotechnology research to enhance the economic value and 
commercial use of plant-based agricultural products of the North 
Central Region. The Initiative has funded biomolecular studies with 
commercial potential in corn, soybean, rice, barley, and alfalfa, as 
well as studies on significant plant pests such as corn borer, corn 
rootworm, and fungal pathogens.
    Mr. Skeen. According to the research proposal, or the principle 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes that the proposal links 
public and private research in plant biotechnology for enhanced 
commercialization of agricultural research that will contribute to 
regional and national priorities. The principal researcher believes 
this research to be of national, regional or local need.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this project is to enhance the 
economic value and commercial use of plant-based agricultural products 
of the North Central Region. In 1996, the project awarded 13 grants for 
biomolecular studies with commercial potential in corn, soybean, rice, 
barley, alfalfa, and plant pests.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1995 and the appropriation for fiscal years 1995-1996 was $2,000,000 
per year and for fiscal year 1997, $1,940,000, for a cumulative 
appropriation of $5,940,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. At this time Purdue University has not allocated any 
direct non-federal funds for grants management. Purdue University staff 
are providing management and oversight support for the program. Non-
federal support may accrue to individual research projects funded under 
the grant.
    Mr. Skeen. Where is this work being carried out?
    Response. The funds are administered at Purdue University and the 
research is currently carried out at Purdue University, Iowa State 
University, Michigan State University, North Dakota State University, 
Ohio State University, University of Minnesota, University of Missouri, 
and University of Wisconsin.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The researchers anticipate that work may be completed in 
fiscal year 1999. Completion of initially awarded grants will be in the 
summer of 1998 for two-year awards and later for programs extending 
beyond two years.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The North Central Biotechnical Initiative was evaluated 
by an agency peer review panel on January 7, 1997. The panel expressed 
concerns about the project, primarily because of the brevity of the 
proposal and the absence for a proposal from the grant application. The 
agency requested additional information from the principal researcher, 
and the grant has been forwarded for final processing.
    The North Central Biotechnical Initiative was also featured in a 
biotechnology special grant seminar hosted by the agency on December 
16, 1996, at which the principal investigator presented progress and 
highlights to an audience of agency scientists, administrators, and 
awards management staff.
              oil resources from desert plants, new mexico
    Mr. Skeen. Please provide a description of the research that has 
been done under the Oil Resources from Desert Plants, New Mexico.
    Response. The Plant Genetic Engineering Laboratory has been 
exploring the potential for the production of high value industrial 
oils from agricultural products. The effort has been focused on 
transferring the unique oil-producing capability of jojoba into oilseed 
rape and soybean. With the development of technology to both isolate 
the enzyme components of oil biosynthesis and successfully transform 
the target plants, significant advances have been made with jojoba. In 
addition, oil enzymes have been studied in soybean, castor, oilseed 
rape, and meadowfoam.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes desert plant sources of 
valuable oils for industrial applications are typically low yielding 
and limited in climatic areas for farm production.
    Genetic engineering offers an opportunity to move genetic 
capability to high-yielding major crops. Many of the oils and their 
derivative acids, waxes, and others can directly substitute for imports 
of similar polymer materials, especially petroleum.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of the research is to transfer the unique oil-
producing capability of jojba and other native shrubs into higher 
yielding crops such as oilseed rape and soybean. This is a form of 
metabolic engineering and it requires the transfer of coordinate groups 
of genes and enzymes into the host plant to catalyze the necessary 
biochemical reactions. Progress has included characterization and 
isolation of several lipid biosynthetic enzymes along with associated 
genes, binding and molecular enhancers.
    Mr. Skeen. How long has this work been underway, and how much has 
been appropriated through fiscal year 1997?
    Response. This research began in fiscal year 1989 with a $100,000 
grant under the Supplemental and Alternative Corps program. Grants have 
been awarded under the Special Research Grant program as follows: 
fiscal year 1990, $148,000; fiscal year 1991-1993, $200,000 per year; 
fiscal year 1994, $188,000; fiscal years 1995-1996, $169,000 each year; 
and fiscal year 1997, $175,000. A total of $1,549,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Non-federal funds are not provided for operational 
portions of this research. However, New Mexico State University and the 
Plant Genetic Engineering Laboratory provide $90,000 for in-kind 
support per year including faculty salaries, graduate student stipends, 
facilities, equipment maintenance, and administrative support services.
    Mr. Skeen. Where is this work being carried out?
    Response. The research is being conducted by the Plant Genetics 
Engineering Laboratory at New Mexico State University, Las Cruces, New 
Mexico.
    Mr. Skeen. What was the anticipated completion date for the 
original objective of the project? Have those objectives been met? What 
is the anticipated completion date of additional or related objectives?
    Response. An estimate of the total time in Federal funds required 
to complete all phases of the projects is 3-4 years.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The Oil Resources from Desert Plants, New Mexico project 
was evaluated for scientific merit by an agency peer review panel on 
January 7, 1997. The panel recommended approval of the project pending 
receipt of supplemental information on administrative aspects of the 
project.
                 organic waste utilization, new mexico
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Organic Waste Utilization, New Mexico grant.
    Response. Composted dairy waste is utilized as a pretreatment to 
land application. Composting dairy waste before land application may 
alleviate many of the potential problems associated with dairy waste 
use in agronomic production systems. Composting may also add value to 
the dairy waste as a potential landscape or potting media substrate. 
High temperatures maintained in the composting process may be 
sufficient for killing enteric pathogens and weed seeds in dairy waste. 
Noxious odors and water content may be reduced via composting. 
Composted dairy waste may be easier to apply, produce better seed beds, 
and not increase soil salinity as much as uncomposted dairy waste.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes the research will 
address the utilization of dairy waste combined with other high-carbon 
waste from agricultural and industry, including potash and paper waste, 
for composting. This approach to waste management will have high impact 
for states where dairy and agriculture are important industry sectors. 
This is especially true for New Mexico and the southwest United States, 
where the dairy business is growing rapidly. This research will also 
provide an additional pollution prevention tool for the industrial 
sectors dealing with potash and paper waste.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of the research is to determine the 
feasibility of simultaneously composting of dairy waste from 
agriculture and industry. The research will determine effects of 
utilizing composted waste, as opposed to raw waste, as a soil amendment 
on plant growth, irrigation requirements, and nutrient and heavy metal 
uptake. Phase I, to determine the feasibility of simultaneous 
composting dairy waste with available high carbon wastes from 
agriculture and industry, has been completed. Phase II, to determine 
the appropriate ratios of waste to carbon substrate for successful 
composting, is 50% completed.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant begins in fiscal year 
1996 and the appropriation for fiscal year 1996 was $150,000, and for 
fiscal year 1997 is $100,000. A total of $350,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds for the duration of this grant from 
the state appropriated is $50,000. There is another $30,000 in-kind 
support from the industrial partners. Additionally, a sum of $15,000 
from the New Mexico State Highway Department is also being leveraged by 
this project.
    Mr. Skeen. Where is this work being carried out?
    Response. This work will be carried out in New Mexico under 
direction of the Waste-Management Education & Research Consortium in 
collaboration with The Composting Council and industrial partners, such 
as Enviro (Ohio), Plains Electric and McKinley Paper (New Mexico).
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives:
    Response. Completion date will be January 1999. Objectives are 
being met as the project continues.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. This project has been evaluated based on the annual 
progress report and research findings presented at the annual 
Composting Council Conference. The lead staff scientist has reviewed 
the project and determined that this research is conducted in 
accordance with the mission of this agency.
                   pasture and forage research, utah
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Pasture and Forage Research, Utah grant.
    Response. CSREES has requested the university to submit a grant 
proposal that has been received, and is being reviewed by the agency.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The proposed research under this Special Research Grant 
will address issues to forage production and utilization in Utah.
    Mr. Skeen. What was the original goals of this research and what 
has been accomplished to date?
    Response. The original goals of this project are to develop a 
comprehensive guide for the management of irrigated pastures to assist 
livestock producers, reduce cost, and increase net returns.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant begins in fiscal year 
1997 and the appropriation for fiscal year 1997 is $200,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. No funds have been expended on this project to date.
    Mr. Skeen. Where is this work being carried out?
    Response. Research will be conducted at the Utah Agricultural 
Experiment Station.
    Mr. Skeen. When was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The principal investigators anticipate the completion 
date for these objectives to be in 2002.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The proposal for the initial year's funding is currently 
under agency review.
                peach tree short life in south carolina
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Peach Tree Short Life in South Carolina grant.
    Response. Progress continued in 1996 with focus on the continued 
evaluation of longevity and productivity of Guardian rootstocks on 
peach tree short life sites in the southeast and replant sites 
throughout North America. More fundamental work has involved the 
biochemical characterization of the egg-kill factor produced by a 
bacteria on nematode eggs. Other basic studies involved the cloning of 
genes associated with production and expression of toxins from the 
bacteria.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The problem of the disease on peach, nectarine, and plum 
trees in the southeastern United States effects is very great. More 
than 70 percent of peach acreage in the southeast is effected. Due to 
the loss of chemical nematicides, this disease has increased to nearly 
three times the levels experienced when nematicides were in use. In 
South Carolina, an average of 100,000 trees died in the years between 
1980 and 1986. Continued studies on improvement of rootstock and the 
use of cultivar Guardian BY520-9 has potential to benefit the entire 
peach industry including California, New Jersey and Michigan where 
bacterial canker is a problem.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date.
    Response. The goal of this research was the continued evaluation of 
productivity of peach Guardian BY520-9 rootstocks on peach short life 
and investigations into novel management for ring nematodes by 
bacteria. Recent accomplishments include increased Guardian seed 
production that reached 600,000 commercial seeds. The rootstock is 
being tested in a 22 states and provinces and continues to perform 
well. Bulk seed lots of Guardian was shown to be resistant to root-knot 
nematodes. Fingerprinting using RAPD successfully separated root-knot 
nematode resistant rootstocks from susceptible ones. The unique 
insertion site in four Tn5 egg-kill factor minus mutants were 
identified. The bacteria, Pseudomonas aureofaciens BG33R was shown not 
to produce chitinase but other enzymes.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1981, $100,000; fiscal years 1982-1985, $192,000 
per year; fiscal years 1986-1988, $183,000 per year; fiscal year 1989, 
$192,000; fiscal year 1990, $190,000; fiscal years 1991-1993, $192,000 
per year; fiscal year 1994, $180,000, and fiscal years 1995-1997, 
$162,000 each year. A total of $3,041,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources for this grant were as 
follows: 149,281 state appropriations in 1991; $153,276 state 
appropriations in 1992; $149,918 state appropriations in 1993; $211,090 
state appropriation in 1994; $193,976 in state appropriation in 1995, 
$169,806 in state appropriation in 1996.
    Mr. Skeen. Where was this work carried out?
    Response. This research is being conducted at South Carolina 
Agricultural Experiment Station.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The researchers anticipated that the work may be 
completed in fiscal year 1998. Adequate progress has been made to 
assure that the objectives will be met before the completion date.
    Mr. Skeen. What was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The last agency evaluation was a merit review completed 
January 5, 1997. In summary, the evaluation of peach rootstocks with 
resistance to peach tree short life is of continued importance in 
managing this disease. The use of biological control strategies in 
suppression of plant parasitic nematodes are a complementary areas of 
research in that it can enhance disease management by protecting the 
peach rootstocks. Progress was made in all the objectives in 1996. Some 
accomplishments were the increased production and release of commercial 
Guardian seed and continued evaluation of the seed in 22 states and 
provinces. A molecular technique that separates resistant from 
susceptible peach rootstocks appeared successful in preliminary 
studies. Other accomplishments were on the identification of the Tn5 
egg kill factor.
               pest control alternatives, south carolina
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Pest Control Alternatives grant.
    Response. This grant supports research and technology transfer to 
provide growers with alternatives for managing pests and to implement 
the use of new alternatives reducing the sole reliance on chemical 
pesticides.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The investigators contributing to the research and 
technology transfer at South Carolina believe that need for the 
development of alternatives for managing pests on vegetables is a 
regional and national problem. Research contributions are projected by 
South Carolina to impact vegetable production in the Southern region 
and consumers of vegetable production from the Southern region. In 
addition, future efforts will be made to collaborate with Integrated 
Pest Management (IPM) regional and state team representatives in 
finding solutions to the specified problem area.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. the goal of this program is to investigate alternative 
methods of managing insects, plant diseases, and nematodes in vegetable 
crops as complements to or as substitutes for conventional chemical 
sprays. Principal accomplishments appear to rest in a four-year 
comparison of study plots of organically grown and conventionally grown 
vegetables. Residual nutrient levels in subplots treated with organic 
sources of fertilizer were greater than in subplots which received 
inorganic source of fertilizer. After four years of summer cropping 
followed by winter cover crop treatments, no herbicides nor pesticides 
have been applied to the study area. Weekly scouting has determined 
that harmful insect thresholds have not been reached. Naturally 
occurring beneficial insects were sufficient for pest control. The role 
of indigenous predators, parasites, and pathogens in controlling insect 
pests are being evaluated. Technology transfer to conventional and IPM 
systems has resulted in modified thresholds for caterpillar pests in 
collards and tomatoes which incorporate the impact of beneficials in 
the system and a sampling plan for tomato fruitworm which considers 
numbers of parasitized eggs used to schedule insecticide sprays. 
Numbers of insecticide sprays were reduced by 75-100 percent and the 
weight of marketable fruits was the same in plots receiving weekly 
sprays.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. This work supported by this grant began in fiscal year 
1992 and the appropriation for fiscal years 1992 and 1993 was $125,000 
per year. In fiscal year 1994 the appropriation was $118,000 and in 
fiscal years 1995 through 1997, $106,000 per year. A total of $686,000 
has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. South Carolina has provided $124,860 per year from State 
appropriations.
    Mr. Skeen. Where is the work being carried out?
    Response. This research and technology transfer program is being 
conducted at the South Carolina Agricultural Experiment Station, 
Clemson University at Clemson, Florence, and Charleston, South 
Carolina.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original objectives of the project were for five 
years. Funding last year completed the five-year duration, and 
researchers indicated that the work would be completed by the end of 
the last fiscal year. Research on objective A, Develop and evaluate 
microbial pest control agents for control of plant pathogens and insect 
pests of vegetables, is defuse and non-conclusive. It would be far 
superior for continued work in this area to be submitted to competitive 
peer review programs where the investigators would need to clearly 
focus specific activities and receive the benefit of the comments of 
peer scientists. Research on objective B, determine the efficacy of 
innovative cultural practices for vegetable production systems in South 
Carolina, and objective C, assess the role of indigenous predators, 
parasites, and pathogens in controlling insect pests, determine 
environmental and biological factors that influence the abundance and 
distribution of these indigenous beneficials, and consider the presence 
of natural enemies, as well as pests, in management decisions, is the 
area where the most progress appears evident. The base of information 
and orientation of the research in this area is adequate and of quality 
that the investigators could compete well in competitive grant programs 
such as sustainable agriculture or regional IPM grant programs, and 
would benefit from the peer review process. Progress in this area is an 
ongoing process as explanations are sought for the results being 
obtained. Research on objectives D, evaluate and develop germplasm, 
breeding lines and cultivars for resistance to major pathogens of 
commercially important vegetables, and objective E, transfer new 
technology to user groups, has not demonstrated any progress that would 
not be anticipated from ongoing conventional sources of funds.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. We evaluate this project annually when we process the 
grant. Last year we wrote to the South Carolina station indicating that 
they should consider initiating a comprehensive review with CSREES 
participation. CSREES plans to initiate this review before we process 
the 1997 grant.
                          pesticide clearance
                   (pest management for minor crops)
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Pesticide Clearance grant.
    Response. The Pest Management for Minor Crops (IR-4) Program, 
formerly the Pesticide Clearance Program, is a joint effort between the 
State Agricultural Experiment Stations, CSREES, and the Agricultural 
Research Service. IR-4 provides the national leadership, coordination 
and focal point for obtaining tolerance and safety data for pesticides 
and biological control agents for specialty crops such as horticultural 
crops. The agricultural chemical industries have not economically-
justified the time and expense to conduct the necessary research for 
pesticides with small market potential. With the Federal registration 
resulting from this research, a large number of small acreage crops 
such as vegetables, fruits, nuts, spices and other specialized crops 
have been provided with needed crop protection against pests. Protocols 
are written after careful review and inputs from representatives of 
grower groups, industry and researchers. The researchers then carry out 
field trials on priority needs to determine their effectiveness, safety 
and usefulness and then analyze the field grown commodities, where 
appropriate, to identify and quantify any residues that may persist. 
All of this is done according to the Environmental Protection Agency's 
(EPA) Good Laboratory Practices guidelines. The research program then 
assimilates the data from all the participating experiment stations, 
grower groups and chemical industry, and petitions are written for 
tolerances and Federal registration or reregistration. The 1996 grants 
terminate between March 1996 and March 1998.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The basic mission of IR-4 is to aid producers of minor 
food crops and ornamentals in obtaining needed crop protection 
products. IR-4 is the principal public effort supporting the 
registration of pesticides and biological pest control agents for the 
$31 billion minor crop industry. This is a national research effort 
which identifies needs by a network of users and state university and 
Federal researchers. This research is highly significant to national, 
regional or local needs.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal is to obtain minor use and specialty use 
pesticide registrations and assist in the maintenance of current 
registrations. And to assist with the development and registration of 
biopesticides and safer pesticide products useful in IPM systems for 
minor corps. This research effort has been responsible for data in 
support of 2,074 food use clearances, which include 1,127 since 1984, 
3,602 ornamental registrations, and research on 26 biopesticides 
resulting in 18 minor use registrations. The Pesticide Clearance 
program continues to have a high productivity which, according to EPA, 
results in 40% of all EPA pesticide registrations.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from appropriate funds as 
follows: Program redirection in fiscal year 1975, $250,000; fiscal year 
1979, $500,000; fiscal year 1977-1980, $1,000,000 per year; fiscal year 
1981, $1,250,000; fiscal years 1982-1985, $1,400,000 per year; fiscal 
years 1986-1989, $1,369,000 per year; fiscal year 1990, $1,975,000; 
fiscal year 1991, $3,000,000; fiscal years 1992-1993, $3,500,000 per 
year; fiscal year 1994, $6,345,000; and fiscal year 1995 through 1997, 
$5,711,000. A total of $52,529,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $891,856 state appropriations and $65,402 industry in 
1991; $1,002,834 state appropriations and $104,292 industry in 1992; 
$1,086,876 state appropriations and $310,133 industry in 1993; $550,160 
state appropriations, $408,600 industry and $924,169 miscellaneous in 
1994; $775,432 state appropriations, $266,714 industry and $751,375 
miscellaneous in 1995; $800,000 state appropriations, $250,000 industry 
and $800,000 miscellaneous in 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. Field work is performed at the State and Territorial 
Experiment Stations. Laboratory analysis is conducted primarily at the 
California, New York, Florida and Michigan Agricultural Experiment 
Stations with assistance by the Oregon, Hawaii, North Dakota, Arkansas, 
North Carolina, Washington, Virginia, Mississippi, Idaho, Pennsylvania 
and New Jersey Agricultural Experiment Stations. Protocol development, 
data assimilation, writing petitions, and registration processing are 
coordinated through the New Jersey Agricultural Experiment Station ARS 
is conducting minor use pesticide studies at locations in California, 
Georgia, Illinois, Maryland, Ohio, Oregon, South Carolina, Texas, and 
Washington. ARS laboratories in Georgia, Maryland and Washington are 
cooperating with analyses.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. Selected categories of the Special Research Grants 
program address important national and regional research initiatives. 
The pesticide clearance program, also referred to as pest management 
for minor crops, involves research on biological systems that by their 
nature are ever changing and presenting new challenges to agriculture. 
The IR-4 workload is anticipated to be long term because of the 
sensitivities about food safety and the environment, plus the 
reregistration of older pesticides mandated by the 1988 amendments to 
the Federal Insecticide, Fungicide, and Rodenticide Act--FIFRA. IR-4 
developed a strategy in 1989 to defend needed minor use pesticides that 
were subject to reregistration but would not be supported by industry 
for economic reasons. In addition, the Food Quality Protection Act 
calls for more extensive residue data requirements which would take 
into account an additional safety factor for infants and children. IR-4 
will fulfill these commitments by December 1997, the conclusion of 
reregistration process mandated by the FIFRA amendments. IR-4's updated 
strategic plan focuses on the registration of biopesticides and safer 
pest control technology for minor crops. This program thrust will be 
carried out along with the traditional minor crop pesticide clearance 
program.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Each year the program is peer reviewed and reviewed by 
CSREES' senior scientific staff. A summary of those reviews indicate 
excellent progress in the achieving the objectives. In addition to the 
yearly evaluations, the program received an on-site external review 
sponsored by CSREES in December 1990, and a GAO review, the results of 
which were published in June 1992. The GAO report notes that ``. . . 
limited funding by USDA . . . has restricted the number of research 
projects that IR-4 has been able to support. . . . IR-4 uses the 
existing land grant University infrastructure, establishes its research 
agenda to include those pesticides most likely to be approved by EPA, 
and annually reviews its research priorities.''
                  pesticide impact assessment program
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Pesticide Impact Assessment grant?
    Response. Research funded by the National Agricultural Pesticide 
Impact Assessment Program--NAPIAP--discovers, gathers, publishes, and 
distributes information relating to the use and effectiveness of pest 
management alternatives essential to the maintenance of U.S. 
agricultural crops and livestock production. These data involve 
evaluating the biologic and economic impact and consequences of 
restricting the use of key pesticides either through voluntary 
cancellations or regulatory action. NAPIAP data augments National 
Agricultural Statistic Service--NASS--data by conducting commodity 
based assessments on minor-use or small acreage crops. To insure that 
there is no duplication of effort, NAPIAP coordinates information 
collection with NASS and concentrates its pest management inquiries on 
commodities not surveyed by NASS.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. This program provides the Environmental Protection Agency 
(EPA) and the USDA with information on the use and effectiveness of 
pest management alternatives essential to the maintenance of U.S. 
agricultural crops and livestock production. EPA uses this information 
in making environmentally sound regulatory decisions which have minimal 
risk to human health and the economic balance of U.S. agriculture. USDA 
uses these data to identify commodity sites where there are critical 
pest threats to production because no or few pest management 
alternatives exist. This national research and information delivery 
effort involves USDA coordinated cooperative interactions with 
scientists in all State Agricultural Experiment Stations and 
Cooperative Extension Services. The USDA and EPA receive state 
generated agricultural information needed for sound regulatory 
decision-making and the state partner receives federal funds, 
participatory input into the regulatory process, and direct access to 
timely regulatory information.
    Mr. Skeen. What was the original and current goal of this research 
and what has been accomplished to date?
    Response. The National Agricultural Pesticide Impact Assessment 
Program--NAPIAP--has been an on-going research effort whose original 
goal in 1977 was to gather data to provide comprehensive assessments 
documenting what would be the impact on agriculture if certain 
pesticides would no longer be available. A federally coordinated 
network of state scientist contacts was developed in the intervening 
years as broader and more environmentally enlightened goals evolved 
within this program. Today the NAPIAP's goals are defined in its 
strategic plan as: first, in collaboration with USDA, EPA, and Land-
Grant partners, to focus activities on collecting and delivering high 
quality, science based pest management information for use in the 
regulatory process; and second, maintain and enhance a strong 
partnership between the USDA and the Land Grant System in order to 
continue the positive interactive flow of vital pest management 
information between the USDA, the regulatory community, and production 
agriculture.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: Fiscal years 1977-1981, $1,810,000 per year; fiscal years 
1982-1985, $2,069,000 per year; fiscal years 1986-1988, $1,968,000 per 
year; fiscal year 1989, $2,218,000; fiscal year 1990, $2,437,000; 
fiscal years 1991-1993, $2,968,000 per year; fiscal year 1994, 
$1,474,000; and fiscal years 1995-1997, $1,327,000 per year. A total of 
$42,244,000 has been appropriated.
    Mr. Skeen. What is the source and amount of the non-federal funds 
provided by fiscal year?
    Response. The majority of the cost of the state scientist and the 
NAPIAP program is born by the state partner. The exact contribution of 
each state is not known, nor has this information been requested to be 
reported to the federal partner during the duration of this program. 
The federal program funds provided to the states by the Cooperative 
State Research, Education, and Extension Service have been used by 
state partners to partially defray their costs of staffing a Pesticide 
Impact Assessment Program State Liaison Representative on their Land 
Grant campus. The remainder of the salary costs, facility costs, 
clerical support expenditures, supplies and program costs of the 
program's State Liaison Representative have been born by each state and 
these costs are considered the state funding provided to support this 
program. State estimates of their contributions to this program have 
ranged from 3 to 6 times the federal dollars that have been provided to 
support their cooperative efforts.
    Mr. Skeen. Where is this work being carried out?
    Response. This work is underway at State Agricultural Experiment 
Station in 53 states and Territories. Competitively awarded research 
funds which fill both national and regional information needs are 
coordinated through a lead state in each of the four regions of the 
United States: California--West; Ohio--North Central; Northeast--
Pennsylvania; and Florida--South.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional objectives?
    Response. The National Agricultural Pesticide Impact Assessment 
Program--NAPIAP--has been an on-going research effort whose original 
goal in 1977 was to gather data to provide comprehensive assessments 
documenting what would be the impact on agriculture if certain 
pesticides would no longer be available. A federally coordinated 
network of state scientist contacts was developed in the intervening 
years as the information needs of the regulatory agency increased. This 
is a multi-agency on-going program strongly supported by dollars and 
personnel within CSREES, ARS, ERS, and the Forest Service which is 
attempting to address the ever increasing data needs for information by 
EPA in recent years. As the impacts of the Food Quality Protection Act 
become more widely realized and IPM implementation requires 
measurements to comply with the Government Performance and Results Act, 
there will be an even greater need for pest management information 
traditionally gathered, developed, and processed by the NAPIAP.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. A comprehensive evaluation and review of the national 
component of the National Agricultural Pesticide Impact Assessment 
Program--NAPIAP--was conducted in February 1995. The review panel's 
report was published in June 1995. The review team was composed of 10 
scientists from EPA, Industry, and the Land Grant System. The recurring 
theme that emerged from the 1995 review was a directive to focus the 
NAPIAP program on data collection on the benefits of pest management 
alternatives. To address this directive, CSREES brought together the 
programmatic and budgetary components of CSRS and CES into a single 
coordinated NAPIAP effort. This reorganized program is now supported by 
parallel funding of PL 89-106 and Smith-Lever 3, d, dollars. In 
addition to NAPIAP program allocation funds, there is a regionally 
based competitive grants program designed to: first, quantify the usage 
of different pest management alternatives; second, quantify yield and 
quality data related to pest management alternatives, and third measure 
other benefit parameters related to agricultural pest management. A 
summary of the 14 published recommendations from the review panel and 
how the federal program has addressed them is available.
                   phytophthora root rot, new mexico
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Phytophthora Root Rot, New Mexico grant.
    Response. Work has continued to focus in general on development of 
strategies for sustainable vegetable production in irrigated lands. 
Work has continued on the search for Phytophthora root rot resistance 
in chilies, identification of molecular markers for rot tolerance 
genes, investigation on irrigation modification as a means to manage 
root rot, and soil bed temperature control as a means to control 
disease.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. Because the Phytophthora disease threatens chili 
production in west Texas, New Mexico, and Eastern Arizona, this problem 
is of state- and regional-scale significance.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal was to improve chili production through 
genetically superior cultivars, combined with new improved cultural 
practices. Researchers have developed a highly effective disease screen 
that selects resistant seedings, found that genes for resistance to 
root rot do not provide protection against Phytophthora foliar blight, 
that a wild species of Capsicum is immune to the fungus, and that 
molecular markers are useful to introgress genes for tolerance. They 
also found that alternate row irrigation and drip irrigation 
significantly reduce Phytophthora root rot. Control of soil temperature 
with soil mulches can greatly impede the progression of root rot in the 
irrigated fields.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1991 with an appropriation of $125,000 for fiscal year 1991. The fiscal 
years 1992-1993 appropriation was $150,000 per year; $141,000 in fiscal 
year 1994; and $127,000 in fiscal years 1995-1997, each year. A total 
of $947,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds supporting this project amount to 
$255,319, from state appropriations and the California Pepper 
Commission.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at New Mexico State 
University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated completion date for the original 
objectives was 1995. Those objectives have not been met. Related 
programs deal with research and development efforts designed to prevent 
or manage diseases impacting vegetable production in irrigated areas, 
and cooperators estimate that the objective of these programs should be 
met by 2002.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The last agency evaluation was made in December, 1996. In 
summary, the evaluation stated that the overall goal of this project is 
control of various soil-borne diseases of irrigated vegetable crops in 
New Mexico, with applicability to other southwest U.S. production 
areas. Specifically, the current effort focuses on Phytophthora root 
rot of chilies.
                   postharvest rice straw, california
    Mr. Skeen. Please provide a description of the research that has 
been funded under the grant.
    Response. The postharvest rice straw special grant is new in 1997 
and has two main objectives: (1) characterize current capabilities, 
costs and constraints in harvesting and handling rice straw as a 
renewable material for commercial products and (2) investigate 
alternative harvest and handling systems and evaluate their specialized 
equipment and system designs.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. California legislation mandates reduction in the amount 
of open rice straw burning, the principal method of rice straw 
disposal. Efficient harvest and handling may make rice straw a suitable 
raw material for user businesses while meeting straw burning 
regulations and improving air quality. The principal researcher 
believes this research to be of regional and local need.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. This research was initiated in 1997. The goal is to 
demonstrate efficient and economic rice straw harvest and handling, 
thereby establishing rice straw as a feedstock for value-added 
manufacturing and other uses.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1996?
    Response. The work supported by this grant begins in fiscal year 
1997 and the appropriation for fiscal year 1997 is $100,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The University of California-Davis cites cooperation by 
the California Rice Industry Association and the California Rice 
Research Board. Cost-sharing support from non-federal funds is not 
included. Cost-sharing may become available from industry later in the 
project as prototype harvest and handling equipment and systems for 
rice straw are developed and tested.
    Mr. Skeen. Where is this work being carried out?
    Response. Research will be conducted at the Department of 
Biological and Agricultural Engineering, University of California-
Davis, California.
    Mr. Skeen. What is the completion date for the original objectives 
of the project? Have those objectives been met? What is the anticipated 
completion date of additional or related objectives?
    Response. It is anticipated by the University of California-Davis 
that the postharvest rice straw project will be completed in 2002, 
after a five year period to meet objectives.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Since this (1997) is the first year for the postharvest 
rice straw project, no evaluation has been conducted.
                        potato cultivars, alaska
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Potato Cultivars, Alaska, research grant.
    Response. This research will focus on the development of potato 
cultivars that might be useful as disease resistant seed stock for the 
contiguous U.S.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. This research will focus on the development of potato 
cultivars that might be useful as disease resistant seed stock for the 
contiguous U.S.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. This research will focus on the development of potato 
cultivars that might be useful as disease resistant seed stock for the 
contiguous U.S.; funding for this project was initiated in fiscal year 
1997, so no accomplishments have been made under the grant to date.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant begins in fiscal year 
1997. Funding is appropriated in fiscal year 1997 for $120,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. No information on non-federal funds have been reported to 
CSREES yet.
    Mr. Skeen. Where is this work being carried out?
    Response. The research will be conducted in the state of Alaska.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives.
    Response. It is anticipated that the completion date for the 
original objectives will be within a 5-year period.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Because this is a new project in fiscal year 1997, the 
agency has not had an opportunity to evaluate the project, but will 
follow its procedures of reviewing the University's proposal and the 
resulting progress reports.
                            potato research
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Potato Research grant.
    Response. Scientists at several of the State Agricultural 
Experiment Stations in the Northeast, Northwest, and North Central 
States, are breeding new potato varieties, high yielding, disease and 
insect resistant potato cultivars, adapted to the growing conditions in 
their particular areas, both for the fresh market and processing. 
Research is being conducted in such areas as protoplast regeneration, 
somoclonal variations, storage, propagation, germplasm preservation, 
and cultural practices.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes this research effort 
addresses needs of the potato producers and processor. Research areas 
being studied include storage and postharvest handling of potatoes and 
their effect on potato quality. Potato producer and processor needs are 
breeding and genetics, culture factors and pest control on potato 
production.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal was to improve potato production 
through genetics and cultural practices as well as improve storage for 
quality potatoes for processing and fresh market. This research has 
resulted in a number of new high yielding, good quality, disease and 
insect resistant, russet type cultivars, which are now being used in 
the processing industry and in the fresh market. Research by the 
Pacific Northwest States of Washington, Oregon and Idaho has resulted 
in the release of a number of cultivars, including Gemchip, Calwhite, 
Century Russet, Ranger Russet, Frontier Russet and Chipeta. In 
addition, North Dakota developed Norkatah as a result of this program.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1983, $200,000; fiscal year 1984, $400,000; fiscal 
year 1985, $600,000; fiscal years 1986-1987, $761,000 per year; fiscal 
year 1988, $997,000; fiscal year 1989, $1,177,000; fiscal year 1990, 
$1,310,000; fiscal year 1991, $1,371,000; fiscal years 1992 and 1993, 
$1,435,000 per year; fiscal year 1994, $1,349,000; and fiscal years 
1995 through 1997, $1,214,000. A total of $15,438,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $401,424 state appropriations, $4,897 product sales, 
$249,830 industry, and $30,092 miscellaneous in 1991; $567,626 state 
appropriations, $6,182 product sales, $334,478 industry, and $44,323 
miscellaneous in 1992; $556,291 state appropriations, $9,341 product 
sales, $409,541 industry and $44,859 miscellaneous in 1993; $696,079 
state appropriations, $21,467 product sales, $321,214 industry, and 
$226,363 miscellaneous in 1994; $935,702 state appropriations, $35,376 
product sales, $494,891 industry, and $230,080 miscellaneous in 1995; 
and an estimated $900,000 state appropriations, 410,000 product sales, 
$400,000 industry, and $200,000 miscellaneous in 1996.
    Mr. Skeen. Where is this work being carrier out?
    Response. The research work is being carried out at the Cornell, 
Idaho, Maine, Maryland, Michigan, North Dakota, Oregon, Pennsylvania, 
and Washington State Agricultural Experiment Stations.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The project was initiated to accomplish significant 
results in about five years. Because the research is based on genetic 
varietal development, progress in developing new potato varieties takes 
from 5 to 10 years.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Each year the grant is peer reviewed and reviewed by 
CSREES's senior scientific staff. A summary of that review indicated 
progress in achieving the objectives. In addition, the agency has at 
least one formal meeting with representatives from the potato industry 
to review research needs.
                     preharvest food safety, kansas
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Preharvest Food Safety grant.
    Response. The project is to examine the incidence of shedding of e. 
coli 0157:H7 in feces of beef cattle and the impact of various 
management procedures such as calving, weaning, routine cattle handling 
for vaccination, etc. on the frequency and amount of shedding of these 
bacteria. The study will focus on the differences between small and 
large cow-calf operations in Kansas.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The presence of E. coli in cattle destined for slaughter 
and entry of meat products into the human food chain has given impetus 
to the need for understanding the ecology of the organism and the 
impact of management strategies, including herd size, on the prevalence 
of the organism and likelihood of contamination of meat supplies.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to determine the 
relative incidence of shedding of E. coli 0157:H7 from beef cattle in 
small and large cow-calf operations and the impact of various 
management events in the production cycle on this bacterial shedding. 
The principal researcher expects this information will assist in 
reducing the prevalence of this organism in beef cattle and, thus, 
reduce the incidence of food-borne illness in humans due to this 
bacterium. To date, the research team has established new highly 
effective and rapid detection systems for identifying the E. coli 
organisms in feces of cattle. The cooperating herds have been 
identified and initial collections have been made. Collaborative 
arrangements have also been established with scientists at the 
University of Nebraska-Lincoln for doing more intensive work with 
animals that are identified as ``shedders''. At this time they have met 
all of their goals on time and expect to continue to do so.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1996. The appropriation for fiscal years 1996 and 1997 was $212,000. A 
total of $424,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. During fiscal year 1996 non-federal funds provided to 
this project were $150,000 in state appropriations and $91,450 in 
contributed indirect costs. It is anticipated that a similar 
contribution will be made by Kansas State University in fiscal year 
1997.
    Mr. Skeen. Where is this work being carried out?
    Response. This research is being conducted at Kansas State 
University, of Nebraska-Lincoln and at ranches in Kansas, Nebraska and 
Colorado.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated completion date was October 1, 1998, for 
the original objectives. At this time, the research team has completed 
all objectives that were planned for Year 1 of the grant and are 
working on the objectives for Year 2. It is anticipated that the other 
original objectives will be completed on schedule and the project 
should terminate in late 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates the progress of this project on an 
annual basis. The principal researcher has provided regular progress 
reports which have confirmed that the objectives are being accomplished 
in a timely manner.
             preservation and processing research, oklahoma
    Mr. Skeen. Please provide a description of the research that has 
been funded under the preservation and processing grant.
    Response. Research has focused on the effects of preharvest and 
postharvest factors on the market quality of fresh and minimally 
processed horticultural products, including factors affecting marigold 
petal pigment content, minimal processing procedures for extending the 
shelf life and reducing the oil content of pecans, and harvest quality 
evaluations for watermelons, pecans and peaches. Researchers are 
developing harvester prototypes for multiple harvest of marigold 
flowers and drying and threshing systems for marigold petal drying and 
separation. Work is ongoing to develop a fruit orienting mechanism to 
be incorporated into an on-line grading system and to develop 
integrated harvesting/postharvest handling systems for fresh market and 
processing market horticultural products. Research is also ongoing to 
develop methods to determine textural properties of pecans, determine 
optimum operating parameters for supercritical carbon dioxide and other 
alternative partial oil extraction, and develop and optimize modified 
atmosphere packaging techniques for pecan shelf life extension. Fiscal 
year 1997 funds will support research from July 1, 1997 through June 
30, 1999.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes that technological 
improvements in fruit, nut and vegetable handling systems are 
critically needed to supply domestic markets and to support continued 
participation in international commerce and thus serves the national 
need. Regionally, processing systems under development for commercial 
adaption provide crucial solutions required for market expansion of 
pecans, affecting product market potential and value throughout the 
southern U.S. Locally, improvements in postharvest handling and 
processing are necessary to support growth of the industry and ensure 
competitive involvement in national and international commerce of 
horticultural commodities uniquely suited for production in Oklahoma.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of the research has been to define the major 
limitations for maintaining quality of harvested fruits, vegetables and 
tree nuts and prescribe appropriate harvesting, handling and processing 
protocols to extend shelf life and marketability of harvested 
horticultural commodities, thus maintaining profitability of production 
systems and assuring an economic market niche for Oklahoma producers 
and food processors. A systems approach to develop complementary 
cropping, harvesting, handling and processing operations has resulted 
in development of improved handling systems for cucurbit and tree fruit 
crops. Matching funding has supported development of nondestructive 
processing systems for partial oil reduction of tree nuts, to extend 
shelf life and lower the calorie content for the raw or processed 
product, resulting in development of a business plan for a commercial 
facility. Technologies and procedures previously developed for cucurbit 
and tree fruit systems are now being applied to support development of 
profitable okra, pepper, sage, basil, tree nut, sweetcorn, and marigold 
cropping, handling and light processing systems, with a targeted 
completion date of 1999. Research from this project provided the basis 
for commercial high relative humidity storage of peaches.
    Mr. Skeen. How long has the work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997.
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1985, $100,000; fiscal year 1986, $142,000; fiscal 
year 1987, $242,000; fiscal years 1988 and 1989, $267,000 per year; 
fiscal year 1990, $264,000; fiscal year 1991, $265,000; fiscal year 
1992, $282,000; fiscal year 1993, $267,000; fiscal year 1994, $251,000; 
and fiscal years 1995-97, $226,000; each year. A total of $3,025,000 
has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Support from the State of Oklahoma, through the Oklahoma 
Agricultural Experiment Station and through the Oklahoma Centers for 
Advancement of Science and Technology, have been provided as follows: 
fiscal year 1991, $126,900; fiscal year 1992, $209,783; fiscal year 
1993, $219,243; fiscal year 1994, $308,421; fiscal year 1995, $229,489; 
and fiscal year 1996, $336,570, for a total of $1,460,405 in state 
funds. An additional $16,100,000 has been committed by the State of 
Oklahoma for development of an Agricultural Products and Food 
Processing Center to support, among other programs, the horticulture 
processing initiatives, and to begin operation in the spring of 1997. 
The Oklahoma State University Division of Agriculture Sciences and 
Natural Resources has appropriated approximately $2 million dollars to 
staff the facility.
    Mr. Skeen. Where is the work being carried out?
    Response. This work is being conducted at the Oklahoma State 
Agricultural Experiment Station, in conjunction with ongoing production 
research at the Wes Watkins Agricultural Research and Extension Center 
and the South Central Agricultural Research Laboratories.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional related 
objectives?
    Response. The principal investigator anticipated that the fiscal 
year 1996 grant would support work through June 1998. It is expected 
that ongoing research will be completed in 2001.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An agency science specialist conducts a merit review of 
the proposal submitted in support of the appropriation on an annual 
basis. A review of the proposal was conducted on December 20, 1996. 
Though research progress was satisfactory, development and commercial 
adoption of new practices and equipment has been less certain. The 
project was evaluated as part of a comprehensive CSREES program site 
review in the fall of 1995, with a recommendation by the review team to 
continue to value-added product development.
             red river corridor, minnesota and north dakota
    Mr. Skeen. Please provide a description of the research that has 
been done under the Red River Corridor program.
    Response. The purpose is to conduct a program of research to assess 
emerging international trade opportunities for the Red River trade 
region and develop the means to be able to compete for such 
opportunities in order to stimulate economic development. Projects were 
initiated to assess the Corridor's transportation infrastructure, 
research and development capability, competitive position, export 
opportunities in Europe and Latin America, and trade strategies. 
Emphasis is placed on technology and information transfer to inform 
users and potential users. The University of Minnesota has submitted a 
grant proposal for fiscal year 1997 to CSREES, and the grant has been 
awarded.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The researchers believe there is a regional need to find 
new and alternative markets to replace traditional markets that have 
little or no growth potential and to develop the capabilities to 
compete successfully for these markets. International trade is expected 
to support continued economic growth in this primarily rural, 
agriculturally dependent region.
    Mr. Skeen. What was the original goal of this research, and what 
has been accomplished to date?
    Response. The goal is to identify and assess export market 
opportunities and develop strategies and programs to improve the 
region's competitiveness in international trade. The program has 
completed studies on transportation services and costs, the region's 
trade position on specialty crops and metal fabrication, agro-
industrial research and development capabilities, and export 
opportunities through collaboration with Canada. Studies in progress 
include trade strategies of selected European regions and their 
implications for regional trade strategies, trade opportunities with 
Mexico, bilateral technology transfer among businesses in the region, 
assessment and implications of Latin American transportation systems on 
trade, opportunities and linkages between rural Mexico and the Red 
River region, and relationships between social structure and rural 
development. This grant will be used to fund projects to expand the use 
by rural businesses of state-of-the-art telecommunications technologies 
to expand markets and up-grade worker skills.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1992. The appropriation for fiscal years 1992-1993 was $200,000 per 
year, $188,000 in fiscal year 1994, and $169,000 in fiscal years 1995-
1997. A total of $1,095,000 has been appropriated
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are as follows: $4,300 State appropriations and $2,269 miscellaneous 
for a total of $6,569 in fiscal year 1992; $16,000 State 
appropriations, $4,138 industry, and $16,688 miscellaneous for a total 
of $36,826 in fiscal year 1993; and $1,600 State appropriations, $1,637 
industry, and $29,501 miscellaneous for a total of $32,738 in fiscal 
year 1994. The preliminary allocation of non-federal matching funds for 
fiscal year 1995 is $2,000 State appropriations, $7,500 industry, and 
$6,500 miscellaneous for a total of $16,000. Therefore, a total of 
$91,133 non-federal funds has been provided through fiscal year 1995. 
Data for fiscal year 1996 are not available at this time.
    Mr. Skeen. Where is the work being carried out?
    Response. The research program is carried out by the University of 
Minnesota, Crookston, in collaboration with North Dakota State 
University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The researchers indicate that this phase of the program 
may be completed in fiscal year 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. A merit review was conducted of this project in 1996 
which indicated that it has contributed to the strengthening of 
communications to rural America regarding international trade 
opportunities. A site visit is scheduled for 1997 to assess the 
project.
                  regional barley gene mapping project
    Mr. Skeen. Please provide a description of the work that has been 
funded under the Regional Barley Gene Mapping Project grant.
    Response. The objectives of this project are to: construct a 
publicly available medium resolution barley genome map; use the map to 
identify and locate loci, especially quantitative trait loci 
controlling economically important traits such as yield, maturity, 
adaption, resistance to biotic and abiotic stresses, malting quality, 
and feed value; provide the framework for efficient molecular market-
assisted selection strategies in barley varietal development; identify 
chromosome regions for further, higher resolution mapping with the 
objective of characterizing and utilizing genes of interest; and 
establish a cooperative mapping project ranging from molecular genetics 
to breeding that will be an organizational model for cereals and other 
crop plants. The fiscal year 1995 grant proposal has been received and 
is being processed.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes barley breeders 
nationwide need information about the location of agriculturally 
important genes controlling resistance to biotic and abiotic stresses, 
yield, and quality factors in order to rapidly develop new, improved 
cultivars and respond to disease and pest threats. This project 
provides that information along with appropriate molecular markers to 
track these traits through the breeding and selection process.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this project has been to develop a 
restriction fragment length polymorphism map for barley and associated 
important genetic traits as a map to provide closely linked molecular 
markers for barley breeders. The project successfully mapped 300 
molecular markers. Portions of the map are described as very dense and 
contain key location points for enhanced utility. The project is now 
using the map to locate quantitative traits loci of economic 
importance. These include genetic determinations for yield, maturity, 
rust resistance, plant height, seed dormancy, and components of malting 
quality. Technical papers have been published to report research 
results to the scientific community.
    Mr. Skeen. How long has this work been under way and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1990, $153,000; fiscal year 1991; $262,000; fiscal 
years 1992-1993, $412,000 per year; fiscal year 1994, $387,000; and 
fiscal years 1995-1997, $348,000 each year. A total of $2,670,000 has 
been appropriated.
    Mr. Skeen. What is the source and amount of nonfederal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are as follows: $203,760 from industry in 1991; $212,750 from industry 
in 1992; $115,000 from industry in 1993; and $89,000 from industry in 
1994; and $35,000 from the State of Washington and $108,000 in other 
nonfederal funding, for a total of $143,000 in 1995. An estimated total 
of $163,000 of non-federal funds supported this project.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted in the following state 
agricultural experiment stations; Oregon, Colorado, Washington, 
Montana, Idaho, North Dakota, Minnesota, New York, Virginia and 
California.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original objective of the ``Regional Barley Gene 
Mapping Project'' was to produce a genetic map of agronomically 
important traits of the barley genome. The anticipated time to complete 
this task was estimated at 10 years with completion in 1999. Many 
important genes have been mapped, some of which are being used to 
improve barley cultivars.
    Mr. Skeen. When was the last agency evaluation of this project? 
provide a summary of the last evaluation conducted.
    Response. This project is made up of many competitively awarded sub 
projects that are reviewed annually by a peer panel and selected for 
relevance to the original objective and scientific merit of the 
proposed research. This project has been judged as an exceptionally 
productive project which serves as a model for multi institutional-
multi disciplinary competitively awarded research project.
               regionalized implications of farm programs
    Mr. Skeen. Please provide a description of the research that has 
been done under the program on regionalized implications of farm 
programs grant.
    Response. The purpose of this research is to estimate the impacts 
of farm, trade, and fiscal policies and programs and assess their 
alternatives on the economic viability of typical crop and livestock 
production operations located in different regions of the United 
States.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes there is a need for 
research that provides an assessment and evaluation of the potential 
impacts of Federal farm, trade, and fiscal policies on the economic 
viability and competitiveness of farmers located in different regions 
of the United States. Policy impacts vary regionally because of 
differences in farm productivity, input costs, climate, farm 
enterprises and size. The research results are widely used by farmers 
and public policymakers concerned about minimizing policy and program 
inequities between regions and farm sizes.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original, as well as current, goal was and continues 
to be to provide the farm community, extension, and public officials 
information about farm, trade, and fiscal policy implications by 
developing regionalized models that reflect farming characteristics for 
major production regions of the United States. The researchers have 
developed a farm level policy analysis system encompassing major U.S. 
farm production regions. This system interfaces with existing 
agricultural sector models used for farm, macroeconomic, and trade 
policy analysis. The universities have expanded the number and types of 
representative farms to 80. Typical farm models also are being 
developed for Mexico and Canada under a collaborative agreement for use 
in analyzing impacts of the North American Free Trade Agreement.
    Some 25 policy studies were completed this past year at the request 
of policymakers and farm groups including analyses of the impacts of 
various farm policy proposals on representative crop farms in the U.S., 
elimination of the rice program, conservation reserve program impacts 
on farms in the Great Plains, and revised baseline projections for 
representative farms. The representative farms were used extensively 
for analysis of farm level impacts of the alternative farm program 
proposals considered for the 1996 Farm Bill as well as implementation 
alternatives after passage of the Bill.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1990 and the appropriation for fiscal year 1990 was $346,000. The 
fiscal years 1991-1993 appropriations were $348,000 per year; $327,000 
in fiscal year 1994; and $294,000 in each of the fiscal years 1995 
through 1997. A total of $2,599,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $288,843 State appropriations and $46,773 industry for 
a total of $335,616 in fiscal year 1991; $45,661 State appropriations 
in fiscal year 1992; $33,979 State appropriations in fiscal year 1993; 
$40,967 State appropriations in fiscal year 1994; $161,876 State 
appropriations in fiscal year 1995; $187,717 State appropriations for 
fiscal year 1996; and $137,100 for fiscal year 1997.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted by the Texas A&M University 
and University of Missouri at Columbia.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The researchers believe this program is of a continuing 
nature for the purpose of assessing the impacts of existing policies 
and issues and proposed policy and program changes at the individual 
firm level for feed grain, wheat, cotton, rice, oilseed and livestock 
producers.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. No formal evaluation of this project has been carried 
out.
                             rice modeling
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Rice Modeling grant.
    Response. The purpose of this research project is to develop a rice 
industry model with domestic and international components to aid U.S. 
farmers, millers, and policymakers in making production, investment, 
marketing and public policy decisions.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
reasearch?
    Response. Research is needed to assist both the U.S. rice industry 
and national policymakers in assessing the impact of existing and 
proposed changes in public policies for rice. This research enables 
improved analysis of both international and domestic policy changes on 
rice production, stocks, prices of substitute crops and consumption.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to develop 
international, national and regional models to analyze the impact of 
foreign and domestic policy changes, and forecast changes in 
production, stocks, prices of substitute crops and consumption.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1996. The appropriation for fiscal years 1996 and 1997 was $395,000 for 
a total of $790,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. For the 1996 fiscal year, state appropriations are 
estimated to be $178,000; and for 1997, approximately $150,000.
    Mr. Skeen. Where is the work being carried out?
    Response. The research is being carried out at the University of 
Arkansas-Fayetteville and the University of Missouri-Columbia.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The researchers anticipate that the domestic portion of 
the rice model will be complete by September 30, 1997. The 
international modeling research is a little over half completed and the 
researchers estimate another 5 years is required.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. We have conducted no formal evaluation of this project. 
However, each annual proposal is carefully reviewed for adherence to 
stated objectives and annual progress is discussed with the principal 
investigators.
                       rural development centers
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Rural Development Centers Program grant.
    Response. The overall objectives of the research agenda of the five 
rural development centers are to: Improve economic competitiveness and 
diversification in rural areas; support management and strategic 
planning for economic development; create community capacity through 
leadership; assist in family and community adjustments to stress and 
change; and promote constructive use of the environment. The function 
of the Centers is to increase the productivity of regional faculty both 
in doing research on rural issues and in using that research to do 
effective outreach with rural communities.
    Mr. Skeen. According to the research proposal, or one of the 
principal investigators, what is the national, regional or local need 
for this research?
    Response. The number of research faculty who are addressing broader 
rural issues is declining in many places. The multi-disciplinary, 
multi-state work supported by the Centers becomes even more crucial in 
a period of reduced research emphasis. Critical needs are being met by 
Center support including public lands policy, changing rural migration 
patterns, fiscal alternatives for local-governments, and forest 
stewardship education. Specific needs for regional research are 
reviewed annually by the Centers. The focus of proposals varies from 
year-to-year depending on the shifting priorities of rural clients.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The Rural Development Center mission is to strengthen 
rural families, communities, and businesses by facilitating 
collaborative socio-economic research and extension through higher 
education institutions in the various regions. Research programs are 
undertaken after evaluating broader regional and national priorities. 
Following are some accomplishments of selected research activities 
conducted under the auspices of various centers.
    A group of economists from Oregon, Washington, and Nevada used 
recent developments in regional economic modeling to look at the 
effects on rural and urban economies of reduced timber harvests in 
Oregon and of limited grazing on public lands in northern Nevada. 
Rural-Urban Interdependence and Natural Resource Policy, a publication 
recently released by the Western Rural Development Center, reports 
these studies in detail. This report reflects core-periphery input-
output modeling that has grown out of an earlier research project 
supported by the Center.
    Northeast Center staff have been working with faculty of the 
University of Minnesota Extension Service and West Virginia University 
Extension Service to alter and condense a business retention and 
expansion notebook. Retaining and expanding existing businesses in 
communities is an effective alternative approach to industrial 
recruitment. The resulting publication will appeal to and be 
appropriate for use by community leaders/volunteers interested in 
helping businesses maintain or expand their services in their 
community. The community development approach to solving business 
problems is what makes these materials so appealing. The authors are in 
their final stages of editing, and the materials should be available 
for purchase by the spring of 1997.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1971, $75,000; fiscal year 1972, $225,000; fiscal 
year 1973, $317,000; fiscal years 1974-1981, $300,000 per year; fiscal 
years 1982-1985, $311,000 per year; fiscal years 1986-1987, $363,000 
per year; fiscal year 1988, $475,000; fiscal year 1989, $500,000; 
fiscal year 1990, $494,000; fiscal years 1991-1993, $500,000 per year; 
fiscal year 1994, $470,000; and fiscal years 1995-1997, $423,000 per 
year. A total of $9,695,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Non-federal funds available to the four Regional Centers 
for Rural Development were: fiscal year 1991, $1,117,000; fiscal year 
1992, $790,000; fiscal year 1993, $900,000; fiscal year 1994, $776,591; 
and fiscal year 1995, $710,050; for a total of $4,293,641 across the 
five years for which there are complete data.
    Mr. Skeen. Where is this work being carried out?
    Response. The regional rural development centers include the 
following: Northeast Regional Center for Rural Development, 
Pennsylvania State University; North Central Regional Center for Rural 
Development at Iowa State University; Southern Rural Development Center 
at Mississippi State University; and Western Rural Development Center 
at Oregon State University. There is also a rural development project 
at North Dakota State University which receives funding from the annual 
Rural Development Centers appropriation. Most of the research sponsored 
by the four regional centers is actually performed by resident faculty 
at land-grant universities in the respective region through 
subcontracts from that center's grant.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated date of additional or related objectives?
    Response. The regional rural development centers were established 
to provide an ongoing ``value added'' component to link research and 
extension and by doing so to increase rural development under the 
special conditions in each region. The work of the Centers is being 
carried out in all 50 states and in some territories. The Centers 
compile a report of annual accomplishments and share those with the 
states in the region. The list of needs is constantly evolving and is 
being addressed through projects that are matched to the constantly 
shifting local agenda. The current phase of the program will be 
completed in 1997.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The Centers enlist the help of advisory committees that 
help establish operating rules and provide professional, technical 
counsel and peer evaluation of Center projects. Advisory committee 
members are qualified to fulfill these roles because they are directly 
involved in the scholarship of rural development and are knowledgeable 
on changing issues in rural areas. Specific site evaluations have been 
undertaken as follows:
    Western Rural Development Center--November 1994.
    North Central Center--July 1992.
    Northeast Center--May 1993.
    Southern Center--August 1995.
                        rural policies institute
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Rural Policies Institute grant.
    Response. The Rural Policy Research Institute (RUPRI) is a 
consortium of three universities designed to create a comprehensive 
approach to rural policy analysis. The Institute conducts research and 
facilitates public dialogue to increase public understanding of the 
rural impacts of national, regional, state, and local policies on rural 
areas of the United States.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. There is a need to be able to estimate the impacts of 
changing programs and policies on rural people and places. Objective 
public policy analysis can provide timely and accurate estimates of the 
impacts of proposed policy changes to allow more reasoned policy 
discussions and decisions.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of the Rural Policy Research Institute 
was to create a new model to provide timely, accurate, and unbiased 
estimates of the impacts of policies and new policy initiatives on 
rural people and places. The Institute has completed a number of 
successful policy research projects and developed three analytic models 
central to its mission. These projects focus on the rural implications 
of health care, education, housing, rural development, tax and 
telecommunications policy proposals. In addition, the Institute uses 
expert panels to provide policy decision support to a number of policy 
making groups at national and State levels.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by these grants began in fiscal year 
1991 and the appropriation for fiscal year 1991 was $375,000. The 
fiscal year 1992 appropriation was $525,000; for fiscal year 1993, 
$692,000; for fiscal year 1994, $494,000; and fiscal years 1995-1997, 
$644,000 each year. A total of $4,018,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Aggregated non-federal funds to support the Rural Policy 
Research Institute across the three universities involved include 
unrecovered indirect costs, salary support from university and other 
non-federal sources, and various other grants, contracts, and 
reimbursable agreements. They amounted to $316,458 for fiscal year 
1991; $417,456 in fiscal year 1992; $605,302 in fiscal year 1993; 
$537,834 in fiscal year 1994; and $584,516 in fiscal year 1995; 
$576,782 in fiscal year 1996; and $186,859 in 1997. Total non-federal 
funding to date is $3,225,207.
    Mr. Skeen. Where is this work being carried out?
    Response. The Institute's member universities are: the University 
of Missouri-Columbia; the University of Nebraska-Lincoln; and Iowa 
State University, Ames.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. Current funding will sustain activity through January 
1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. We have conducted no formal evaluation, however, annual 
project proposals are carefully reviewed, as are policy analyses 
produced by RUPRI.
       seafood harvesting, processing, and marketing, mississippi
    Mr. Skeen. Please provide a description of the research that has 
been funded under the seafood harvesting, processing, and marketing 
grant.
    Response. Research related to seafood safety, quality and by-
product utilization has been supported by this grant. Compounds that 
are generally recognized as safe and naturally occurring viruses have 
been tested for their potential to control pathogenic Vibrio vulnificus 
that is associated with gastroenteritis and fatal septicemia following 
consumption of raw oysters. The researchers have also evaluated a new 
impedance technology to objectively and rapidly determine the freshness 
of seafoods. Researchers are also testing steam pasteurization to 
reduce catfish microflora and extend shelf life.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes that needs reflected in 
the project include providing consumers with affordable alternative 
seafood products. Alternative sources of seafood protein are needed 
because of a drastic decline in natural harvests due to 
overexploitation. Other needs addressed in this project include 
reducing pollution during seafood and aquaculture food processing by 
converting byproducts into value-added food ingredients or materials. A 
regional interest for the Gulf coast is the potential devastation of 
the oyster industry if harvests are severely restricted during warm 
months. The present project seeks to provide alternative processing 
strategies to control foodborne disease agents in oysters. Locally, 
catfish processors are a major employer of the severely economically 
depressed Delta region of Mississippi. By further enhancing the value 
of catfish products, this project seeks to improve the livelihood of 
individuals both on the Gulf coast and in the aquaculture region of the 
state.
    Mr. Skeen. What was the original goal of the research and what has 
been accomplished to date?
    Response. The original goals of the research were to improve the 
quality and safety of catfish and improve the utilization of catfish 
byproducts and underutilized marine species. Due to successes of the 
original project, subsequent efforts are focusing on additional uses of 
seafood and aquaculture foods by improving processing strategies and 
providing alternative products from waste materials. The project has 
thus expanded to include crab, shrimp, oysters, freshwater prawns, 
hybrid striped bass, and crawfish.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1990 when $368,000 was appropriated for this project. The 
appropriations for fiscal years 1991-1993 were $361,000 per year; 
fiscal year 1994, $339,000; and fiscal years 1995-1997, $305,000 each 
year. A total of $2,705,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The State of Mississippi contributed $1,949 to this 
project in fiscal year 1991; $41,286 in fiscal year 1992; $67,072 in 
fiscal year 1993; $91,215 in fiscal year 1994; $147,911 in fiscal year 
1995; and $61,848 in fiscal year 1996. Product sales contributed $7,044 
in 1991, $13,481 in 1992, $13,704 in 1993, and $5,901 in 1994. Industry 
grants contributed $14 in 1992 and $31,796 in 1993. Other non-federal 
funds contributed $80 in fiscal year 1991, $838 in 1992, and $17,823 in 
1993. The total non-federal funds contributed to this project from 1991 
through 1996 was $501,962.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted by scientists in the 
Departments of Food Science and Technology and Agricultural Economics 
of the Mississippi Agricultural and Forestry Experiment Station at 
Mississippi State University and at the Coastal Research and Extension 
Center, Seafood Processing Laboratory, in Pascagoula, Mississippi.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional related 
objectives?
    Response. The principal investigators anticipate that research on 
the original objectives will be completed in 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An agency science specialist conducts a merit review of 
the proposal submitted in support of the appropriation on an annual 
basis. Since the agency has not yet received the proposal in support of 
the fiscal year 1997 proposal, the last review of the proposal was 
conducted on March 18, 1996. At that time, the agency science 
specialist believed that the projects addressed needs and interests of 
the regional seafood and aquaculture industries.
                          small fruit research
    Mr. Skeen. Please provide a description of the research that has 
been funded under the small fruit program grant.
    Response. Research carried out using funding for this Special 
Research Grant has been to enhance the production and quality of small 
fruits in the Pacific Northwest which includes Idaho, Oregon, and 
Washington. Research has been focused on cold hardiness, breeding and 
genetics, and pest management.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes Washington, Oregon, and 
Idaho are important states for growing, processing, and marketing small 
fruits such as strawberries, blackberries, raspberries, grapes and 
cranberries. Research is needed to help solve the myriad of problems in 
order to remain competitive and expand markets.
    Mr. Skeen. What was the original goal of this research and what has 
to be accomplished to date?
    Response. The original goal of this project was to improve the 
production and quality of small fruits in the Pacific Northwest through 
research on cold hardiness, breeding and genetics, and pest control. 
Research progress to date for Oregon is the evaluation of new 
strawberry germplasm from Chile and North America for resistance to 
fruit rot, aphids, spider mites, and weevils; virus indexing of small 
fruit germplasm; better color stability of processed strawberries; 
increasing cranberry production through better weed control; and 
improving wine quality. Work is continuing in Washington on fruit 
physiology; cold hardiness of strawberries, grapes, and red 
raspberries; pest management of cranberries; and breeding of pest 
resistant strawberries. Idaho work continues on postharvest research 
for better marketability and adapting small fruit crops to high 
elevation growing conditions. Oregon and Washington are jointly 
carrying out marketing studies to identify new market niches for berry 
crops and wines.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1991 and the appropriation for fiscal year 1991 was $125,000. The 
fiscal years 1992 and 1993 appropriation was $187,000 per year, fiscal 
year 1994 was $235,000, and fiscal years 1995-1997 are $212,000 each 
year. A total of $1,370,000 has been appropriated.
    Mr. Skeen. What is the source and amount of nonfederal funds 
provided by fiscal year?
    Response. The nonfederal funds and sources provided for this grant 
were as follows: 1991, $1,562,078 state appropriations, $40,933 product 
sales, $62,993 industry, $357,266 other nonfederal; 1992, $1,465,969 
state appropriations, $90,453 product sales, $119,164 industry, 
$287,976 other nonfederal; 1993, $1,539,255 state appropriations, 
$91,954 product sales, $161,141 industry, $416,712 other nonfederal; 
1994, $368,375 state appropriations, $45,430 industry and $90,822 other 
nonfederal; and $1,185,249 for fiscal year 1995.
    Mr. Skeen. Where is this work being carried out?
    Response. The research is being conducted at Oregon State 
University, Washington State University and the University of Idaho. 
Oregon State University is the lead university.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original objectives of the project are still valid 
today. The main goal was to have a competitive industry to satisfy the 
needs of those using blueberries. However, the researchers anticipate 
that most of the objectives will be met within five or six years.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. These projects are evaluated on a yearly basis through a 
peer review mechanism set up by the University of Maine and by staff 
from the Cooperative State Research, Education, and Extension Service. 
Peer review ensures that good scientific practices and rationales are 
used while university and national staff reviews ensures that 
objectives are addressed and budgets are within the policies and 
regulations.
      southwest consortium for plant genetics and water resources
    Mr. Skeen. Please provide a description of the work that has been 
funded under the Southwest Consortium for Plant Genetics and Water 
Resources Program grant.
    Response. New Mexico State University, Los Alamos National 
Laboratory, Texas Tech University, the University of Arizona and the 
University of California at Riverside entered into a cooperative 
interdisciplinary research agreement constituted as the Southwest 
Consortium on Plant Genetics and Water Resources to facilitate research 
relevant to arid and semi-arid land adaptation. The overall goal of the 
Consortium is to bring together multidisciplinary scientific teams to 
develop innovative advances in plant biotechnology and related areas to 
bear on agriculture and water use in arid and semi-arid regions.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The Southwest Consortium for Plant Genetics and Water 
Resources is addressing the need for an integrated program that 
identifies specific problems of southwest agriculture, coordinates 
water and biotechnology research aimed at solving these problems, and 
facilitates the transfer of this information for commercialization. The 
specific research objectives of the Consortium include the development 
of crops with resistance to: drought and temperature extremes, adverse 
soil conditions, and pests and parasites. The Consortium is also 
identifying technologies for improved water and nutrient delivery. This 
research has national, regional and local applications.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goals of this Consortium remains to 
facilitate research to provide solutions for arid and semi-arid crop 
adaption. Five participating institutions have developed research plans 
consistent with the Consortium's goals. Subgrants are awarded 
competitively following peer review to support research that would 
solve problems unique to southwest agriculture. Specific attention is 
given to interdisciplinary agricultural research. The Consortium has 
discovered a gene that makes plants more resistant to water stress. 
They have identified a genetic marker for salt tolerance and have 
compared a genetic system of wild plant species to domestic crops for 
differences in drought response. One research team has cloned a gene 
from alfalfa that controls an important biosynthetic pathway, another 
is working out the complex metabolism of salt tolerance in resistant 
plant types, and other teams have identified genes involved in pest 
resistance, herbicide tolerance and nutritional enhancement of arid-
land forage.
    Mr. Skeen. How long has this work been underway and how much been 
appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1986, $285,000; fiscal years 1987-1989, $385,000 
per year; fiscal year 1990, $380,000; fiscal years 1991-1993, $400,000 
per year; fiscal year 1994, $376,000; and fiscal years 1995-1997, 
$338,000 each year. A total of $4,410,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The Consortium's host institution, New Mexico State 
University, reports matching non-federal funds of $80,000 in state 
appropriations in 1992; $100,000 in 1993; $100,000 in 1994; $100,000 in 
1995; and $100,000 estimated in state appropriations for 1996. These 
funds exist in the form of researchers' salaries, facilities, equipment 
maintenance and administrative support.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted by a consortium of 
institutions comprised of New Mexico State University, Los Alamos 
National Laboratory, Texas Tech University, University of Arizona, and 
University of California at Riverside. New Mexico State University is 
the lead institution.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The project was initiated in 1986 and accomplished 
significant results in the first five years. Currently additional and 
related objectives have evolved and anticipated completion date for 
these is 2001. Many of the objectives of this research have been met.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Each year the grant is peer reviewed and reviewed by 
CSREES's senior scientific staff. A summary of that review indicated 
excellent progress in achieving the objectives.
                    soybean cyst nematode, missouri
    Mr. Skeen. Please provide a description of the research being 
funded under the Soybean Cyst Nematode, Missouri grant.
    Response. The research being funded by this grant is crucial to the 
development of effective management strategies to understanding host-
parasite relations of the pathosystem and each of its components. Two 
new nematode resistant soybean lines have been or will be released in 
1996. The need for breeding soybean lines to develop resistant 
varieties with a broad spectrum of resistance continues. More 
fundamental research involves the utilization of new molecular 
technologies to identify genes responsible for resistance. Other 
aspects of the works relate to field management strategies for these 
nematodes including cultural and biological applications.
    Mr. Skeen. According to the research proposal, or the principal 
investigator, what is the national, regional or local need for the 
research?
    Response. The soybean cyst nematode, Heterodera glycines is the 
most serious pest of soybean in the United States. The problems 
continue to increase in the Midwest where 12 states have yield 
reductions in soybean because of this nematode. Due to the nematodes 
ability to adapt to resistant varieties over time, new varieties are 
continually needed.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was managing the 
soybean cyst nematode, Heterodera glycines through the development of 
new resistant soybean varieties and the use of biological and cultural 
management strategies. To date, a new soybean variety that has 
resistance to Heterodera glycines race 3 and moderator resistance to 
race 14 has been developed and will be released shortly. This variety 
also has resistance to Phytophthora sojae. Further, approximately 1,000 
lines resulting from resistant soybean lines were selected for progeny 
row planting and 150 lines advanced to 1996 yield tests. Delsoy 5500, a 
soybean variety in maturity group V, was released in 1996 to five state 
experiment stations. A single dominant gene was determined to be a 
condition of resistance by two PI lines of soybean for Heterodera 
glycines, race 3 while there was a two gene difference between two PI 
line for race 5. The cultural studies involving no-till and disk-till 
varied in different locations while the effects of six cropping 
sequences indicated that Heterodera glycines can develop in the winter 
on certain host crops.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. This is a renewal of grant that started in 1991. Grants 
have been awarded from funds as follows: fiscal year 1980-1981, 
$250,000 per year; fiscal year 1982, $240,000; fiscal years 1983-1985, 
$300,000 per year; fiscal years 1986-1989, $285,000 per year; fiscal 
year 1990, $281,000; fiscal year 1991, $333,000; fiscal years 1992-
1993, $359,000 per year; fiscal year 1994, $337,000; and fiscal years 
1995-1997, $303,000 per year. A total of 5,358,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $105,012 state appropriations in 1991; $84,368 state 
appropriations in 1992; $168,017 state appropriations in 1993; $118,725 
state appropriations in 1994; $33,498 state appropriations in 1995; and 
$33,723 state appropriation in 1997.
    Mr. Skeen. Where is this work carried out?
    Response. This research is being conducted at the Missouri 
Agriculture Experiment Station and the University of Missouri.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated completion date for the major objectives 
was 1996. Many of the objectives are being met but genetic interaction 
of the soybean cyst nematode/soybean is extremely complex. The 
anticipated completion date of the continuing research is 1998.
    Mr. Skeen. What was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The last evaluation of this project was a merit review in 
December, 1996. In summary, continued development of new management 
strategies for the soybean cyst nematode is extremely important.
           spatial technologies for agriculture, mississippi
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Spatial Technologies for Agriculture, Mississippi 
grant.
    Response. At the request of CSREES the University submitted a grant 
proposal that is being reviewed. This project will evaluate the 
Components of Advance Spatial Technology for Agriculture (ASTA), also 
known as site-specific farming and precision farming, to improve the 
level of crop management and thereby improve farm income while avoiding 
adverse environmental impacts. Integration of ASTA Components included 
computers, Global Positioning, Geographic Information System and Yield 
Monitor will permit combining yield maps with agronomic data and 
variable rate technology for application of seed, fertilizer, and 
pesticides, as well as other management practices to specific sites at 
precisely the right amounts for optimum production with minimum inputs.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The proposed research under this Special Research Grant 
will focus on evaluation of site-specific technology evaluation and 
utilization for the major agronomic crops in Mississippi. In addition, 
the technology evaluation information would apply to many other crops 
wherever site-specific or precision farming systems are used.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this project is to develop 
production management strategies utilizing site-specific technologies 
to enhance crop production efficiencies and environmental quality.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant begins in fiscal year 
1997, and the appropriation for fiscal year 1997 is $350,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. No funds have been expended on this project at this time.
    Mr. Skeen. Where is this work being carried out?
    Response. Research will be conducted at the Mississippi 
Agricultural Experiment Station.
    Mr. Skeen. When was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The principal investigators anticipate the completion 
date for these objectives to be in 2002.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The proposal for the initial year's funding is currently 
under agency review.
             steep iii--water quality in pacific northwest
    Mr. Skeen. Please provide a description of the research that has 
been funded under the STEEP III--Water Quality in the Pacific Northwest 
grant.
    Response. The STEEP III study was established in 1996 as the third 
phase of the tri-state STEEP Program entitled ``Solutions to 
Environmental and Economic Problems,'' to meet the needs of farmers and 
ranchers in the Pacific Northwest in solving severe problems with soil 
erosion and water quality, while maintaining economically and 
environmentally sustainable agricultural production.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes the Pacific Northwest 
wheat region is subject to severe wind and water erosion, which has 
taken a heavy toll of the topsoil in a little more than 100 years of 
farming. Due to the hilly terrain, water erosion has reduced potential 
soil productivity in the high rainfall areas of the region by about 
50%. Wind erosion has reduced productivity on the sandy soils in the 
lower rainfall areas. Also, off-site environmental costs of water 
erosion are large. Although many of these are difficult to measure, 
they include damage from sediment to recreational areas, roadways, and 
other areas which costs taxpayers millions of dollars annually. Wind 
erosion, which occurs mostly in the spring and fall, also can be costly 
and environmentally damaging, and causes increasing concerns for human 
health and safety from blowing dusts. Water quality degradation is of 
increasing concern in the agricultural areas of this region, since 
sediment is a major pollutant of surface water runoff which may contain 
varying amounts of chemicals. The complex hydrology of the region's 
landscape has made it difficult to identify the sources of these 
chemicals in surface and ground waters.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The primary goals are: to obtain and integrate new 
technical/scientific information on soils, crop plants, pests, energy, 
and farm profitability into sustainable, management systems; to develop 
tools for assessing the impacts of farming practices on soil erosion 
and water quality; and to disseminate conservation technology to the 
farm.
    The original STEEP and STEEP II projects for erosion control, and 
the successor STEEP III program for erosion and water quality control, 
have provided growers a steady flow of information and technologies 
that have helped them meet economic, environmental, and resource 
conservation goals. Through the adoption of these technologies, the 
researchers believe wheat growers have been able to reduce soil 
erosion, improve water quality, and maintain or increase farm 
profitability. This has been accomplished through a tri-state, multi-
disciplinary approach of basic and applied research and through 
technology transfer and on-farm testing to assist growers with applying 
these research findings on their farms. The on-farm testing program has 
been especially successful because growers are involved directly in the 
research and education effort. For example, the on-farm testing program 
has evaluated conservation options that growers can use to meet Farm 
Bill conservation compliance requirements.
    STEEP programs have helped position farmers with new conservation 
technologies well in advance of deadlines to meet current and 
anticipated policy requirements. This preparation protects farmers 
against potential penalties and loss of government program benefits.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1991, and the appropriations for fiscal years 1991-1993 were $980,000 
per year; in fiscal year 1994, $921,000; in fiscal year 1995, $829,000; 
and in fiscal years 1996 and 1997, $500,000 per year. A total of 
$5,690,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $938,812 state appropriations, $63,954 product sales, 
$156,656 industry, and $16,994 miscellaneous in 1991; $1,025,534 state 
appropriations, $75,795 product sales, $124,919 industry, and $88,696 
miscellaneous in 1992; $962,921 state appropriations, $62,776 product 
sales, $177,109 industry and $11,028 miscellaneous in 1993; $1,069,396 
state appropriations, $46,582 product sales, $169,628 industry, and 
$22,697 miscellaneous in 1994; and $1,013,562 state appropriations, 
$31,314 industry, and $107,151 miscellaneous in 1995. In 1996, 
Washington received $231,724 state appropriations; Oregon passed 
Measure 5 which reduced revenues and imposed funding restrictions so 
they were unable to provide any non-Federal cost-sharing or matching 
funds; and Idaho contributed $81,525 state support, and $86,242 in 
estimated non-Federal grant support, for a total non-Federal 
contribution of $167,767.
    Mr. Skeen. Where is this work being carried out?
    Response. The work under STEEP III will be done at laboratories and 
field research sites at the University of Idaho, Oregon State 
University, and Washington State University. Cooperative on-farm 
testing will be conducted in cooperation with growers on their fields 
in Idaho, Oregon and Washington.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The STEEP II project was completed in 1995. The results 
are compiled and are available as of January 1997 in a final, 5-year 
report. The STEEP III project started in 1996 and will continue through 
the year 2000 as a 5-year project.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The Cooperative State Research, Education, and Extension 
Service program manager annually reviews progress reports and proposes 
new research on the STEEP Program, and attends the annual meetings to 
assess progress. However, the program is evaluated each year by three 
committees: grower, technical, and administrative. Annual progress is 
reported at an annual meeting and compiled into written reports. These 
reports and the meeting are reviewed annually. Grower and industry 
input is solicited at the annual meeting on research objectives and 
accomplishments.
      sustainable agriculture and natural resources, pennsylvania
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Sustainable Agriculture and Natural Resources, 
Pennsylvania, project.
    Response. This project studies the cycling of nutrients from animal 
agricultural production systems through soil and water into crops and 
back to food for animals or directly to humans in the case of vegetable 
production.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what it is the national, regional, or local need for this 
research?
    Response. Environmental degradation is a major concern of 
agricultural production near urban areas, especially with regard to 
pest management and pesticide use, nutrient loading of soils and water 
associated with chemical fertilizers and animal and poultry manures.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to understand the 
cycling of nutrients from animal agricultural production systems 
through soil and water into crops and back to food for animals or 
directly to humans in the case of vegetable production. Conventional 
science in the late 1980's and early 1990's held that if only all 
animal wastes were composted, the nutrient management problems would 
disappear. However, the results of this research to date show that this 
is a more complex problem. If farmers are to manage their farm lands 
properly, indicators of soil quality and health must be developed that 
can be used by agricultural producers and consultants. Efforts under 
this project have been devoted to this goal.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported under this grant began in fiscal year 
1993. The appropriation for fiscal year 1993 was $100,000, and $94,000 
was appropriated in each of the fiscal years 1994 through 1997 for a 
total of $476,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. A total of $195,901 in matching support from university, 
state and private industry sources was provided in fiscal year 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is to be conducted by the Pennsylvania State 
University with cooperators throughout the state.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of this project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated completion date for the overall original 
project objectives in 1998. It is anticipated that the original 
objectives will be met at the end of 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last agency evaluation conducted.
    Response. There has not been a formal evaluation of this project, 
but progress reports have been submitted to the agency and reviewed by 
our scientific staff.
                   sustainable agriculture, michigan
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Sustainable Agriculture, Michigan program grant.
    Response. This project is intended to develop agricultural 
production systems that are highly productive and profitable as well as 
being environmentally sustainable. More specifically, this project will 
examine how to achieve a high nutrient flow from soil to crops and 
animals, and back to soil, with low loss to ground and surface waters.
    Mr. Skeen. According to the research proposal or the principal 
researcher, what is the national, regional, or local need for this 
research.
    Response. The principal researcher believes there is a need to 
better understand the biological processes occurring in Michigan's 
high-nutrient-flow crop and animal systems. With high water tables, 
networks of lakes and slow-moving streams, and concern about 
environmental standards, field contamination by agricultural production 
materials is a high priority.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The specific goals of this research are to develop an 
agroecological framework for decision-making, develop crop and cover 
crop rotations, develop water table management strategies, and develop 
rotational grazing systems. Accomplishments to date include an 
extension publication on agroecology, development of on-farm compost 
demonstration sites, collection of research data and computer software 
models on water table management, and completion of initial research 
trials on rotational grazing at three sites in Michigan.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997.
    Response. The work supported by this grant began in fiscal year 
1994 with an appropriation of $494,000; $445,000 were appropriated in 
fiscal years 1995 through 1997, bringing total appropriations to 
$1,829,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Matching funds were provided at the state level for 
$511,900 in FY 1994, $372,319 in FY 1995, and $359,679 in FY 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. This work is being carried out in Michigan at several 
locations by Michigan State University. Locations include the Kellogg 
Biological Station and the Upper Peninsula Experiment Station.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of this project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. This project is currently scheduled to go through March 
31, 2000.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last agency evaluation conducted.
    Response. Findings from this project have demonstrated that 
rotational grazing reduces production costs, and increases net profits, 
compared to traditional cow management. This project has also shown 
that composting is an effective way of stabilizing livestock waste, 
controlling odor, and improving nutrient composition for later land 
application. The computer modeling done with this project has shown 
reduced contamination of groundwater through alternative management 
practices employed in the project.
               sustainable agriculture systems, nebraska
    Mr. Skeen. Please provide a description of the research that has 
been funded under the integrated crop and livestock research program 
for Nebraska.
    Response. This project is aimed at integration of field crops, 
animal production, agroforestry, livestock waste management, and 
diversified enterprises to meet production, economic, and environmental 
quality goals.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research.
    Response. Farmers and ranchers in Nebraska and throughout the 
Midwest face increasing difficulties in maintaining profitable 
operations that are sustainable under increased production costs and 
more stringent environmental regulations. They continue to seek 
alternative production systems, integration of crop and animal 
enterprises, value-added products, including those from woody 
perennials, and new marketing approaches to secure more of the food 
dollar. Work on crop residue utilization is highly important to assess 
the loss of erosion mitigation when grazing occurs as well as the 
benefits of winter forage to production of lean beef. Erosion is still 
a major problem with monoculture cropping, and work with contour 
strips, residue management, and animal grazing is essential to provide 
good recommendations to farmers for how to manage fragile lands.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. This project has involved several components, with a 
number of results to date. In improving erosion control through 
grazing, calves were fed cornstalks from October through March, and fed 
some supplements. The calves had lower costs of production, and reduced 
need for grain feed. The researcher's work on integrative cropping and 
agroforestry has shown that diversifying rotations centered around 
soybeans has provided increased economic returns. In the objective 
dealing with compost utilization, compost has provided increased 
sources of nitrogen and improved soil quality. Reports from this 
project have been disseminated through extension and through a 
sustainable agriculture newsletter.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through FY 1997.
    Response. This project began in fiscal year 1992, with an 
appropriation of $70,000; subsequent appropriations are as follows: 
$70,000 in fiscal year 1993; $66,000 in fiscal year 1994; and $59,000 
in fiscal years 1995 through 1997. Total appropriations to date are 
$383,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Matching funds provided for this research include state 
funds in the amount of $25,313 for FY 1992, $26,384 for FY 1993, 
$27,306 for FY 1994, and $36,091 in FY 1995.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted by the University of Nebraska 
at several locations in Nebraska, with the major part of the project at 
the Agricultural Research and Development Center near Mead, Nebraska.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of this project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The current project proposes work through March 31, 1998. 
It is expected that current objectives of the project will be met by 
this time period.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last agency evaluation conducted.
    Response. Findings from this project have shown that young cattle 
can be fed with lower costs if cornstalks are used as part of their 
ration. This system also allowed for a cropping pattern that reduced 
erosion. The corn, soybean, and agroforestry system showed the highest 
net income of the systems tested.
         sustainable pest management for dryland wheat, montana
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Sustainable Pest Management for Dryland Wheat 
grant.
    Response. This research will address pest issues of the dryland 
wheat areas of eastern Montana.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The proposed research is specifically designed to address 
pest issues of the dryland wheat area of eastern Montana.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to provide pest 
management information to dryland wheat producers of eastern Montana 
where crop loss can approach $100 million per year.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1996?
    Response. The work supported by this grant begins in fiscal year 
1997 and the appropriation for fiscal year 1997 was $200,000.
    Mr. Skeen. What is the source and amount of nonfederal funds 
provided by fiscal year?
    Response. No funds have been expended to date.
    Mr. Skeen. Where is this work being carried out?
    Response. Research will be conducted at Montana State University 
Experiment Station.
    Mr. Skeen. When was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The project is proposed for duration of 3 years and 
therefore should be completed after fiscal year 1999.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The expected completion date of the project is FY 1999. 
Assessment of the precision of biological control organisms and 
estimates of profitability, marketability, and risk will be used to 
assess progress.
                 swine waste management, north carolina
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Swine Waste Management, North Carolina, grant.
    Response. CSREES has received the grant proposal from North 
Carolina State University and is being processed at this time. The 
objectives of this project are: (1) To develop a prototype system for 
treatment of animal waste which will be used to study and optimize a 
new and innovative swine waste management treatment process; (2) to 
provide funds for additional technical staff to perform the work under 
this project; (3) to purchase additional analytical equipment; and (4) 
to provide funding for operation of the prototype facility. The 
prototype facility will consist of a set of eight tanks which will be 
connected by piping or hoses to enable researchers to test a variety of 
different strategies for treatment of animal waste, including anaerobic 
or aerobic digestion, removal of nutrients such as nitrogen and 
phosphorus, and alterations in the sequence of these various 
operations.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher has stated that North Carolina 
now ranks second in the United States in both pork and poultry 
production. The problem of waste management has become critical because 
adequate land for application of waste in not available in some areas, 
water quality problems have been noted in both surface and ground 
waters, nutrients from several lagoon failures have created serious 
pollution problems in rivers and coastal areas, and communities have 
become less tolerant of odor problems.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to enhance the 
design, development, and implementation of alternative swine waste 
management strategies and treatment systems. The project is awaiting 
the initial award of funds so no progress can be reported at this time.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant begins in fiscal year 
1997 and the appropriation for fiscal year 1997 is $215,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The exact amount of non-federal funds to be contributed 
to this project in fiscal year 1997 is not known. However, faculty time 
from three individuals will be contributed to this project so it is 
anticipated that the non-federal contribution will be substantial.
    Mr. Skeen. Where is this work being carried out?
    Response. This research will be conducted at North Carolina State 
University in Raleigh, North Carolina.
    Mr. Skeen. What was the anticipated date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Response. The anticipated completion date is October 1, 1997. The 
project is just getting started so there is no interim progress to 
report at this time.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An evaluation of this project has not undertaken since 
fiscal year 1997 was the first year funds were appropriated for this 
grant.
         tillage, silviculture and waste management, louisiana
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Tillage, Silviculture, and Waste Management 
Research Grant?
    Response. This research has five components: Rice and Cotton 
Tillage, Dairy and Poultry Waste Management, and Bald Cypress 
Silviculture. More specifically, the Rice scientists are looking for 
ways to improve stand establishment; the Cotton scientists are focusing 
on the use of tillage systems to combat harmful insect populations; the 
Waste Management Scientists are quantifying the environmental and 
economic effectiveness of approved dairy and poultry waste disposal 
systems; and the Silviculturists are conducting a problem analysis of 
Louisiana's Bald Cypress forest.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. Since the crops, forest, and waste issues extend beyond 
the borders of Louisiana, this research may have application outside 
the state.
    Mr. Skeen. What was the original goal of this research, and what 
has been accomplished to date?
    Response. The original goals were to: improve conservation tillage 
in rice and cotton production, to determine the effectiveness of no-
discharge dairy waste treatment facilities, to determine permissible 
poultry litter land-treatment rates, and to evaluate wetland forest 
regeneration problems. All components of the project have established 
research studies and are monitoring progress. Each year the principal 
investigator initiates a review of the sub-projects and, in this 
fashion, is encouraging good dialogue and cooperation among the sub-
project investigators and their respective departments. For instance, 
Louisiana State University's Poultry and Forestry Scientists are 
working closely to establish application rates and procedures for 
applying poultry waste to forest plantations.
    Mr. Skeen. How long has this project been underway, and how much 
has been appropriated, by fiscal year, through fiscal year 1997?
    Response. The work began in fiscal year 1994. The appropriation for 
fiscal year 1994 was $235,000, fiscal year 1995--$212,000, and fiscal 
year 1996--$212,000. This totals $659,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. State funding in support of these areas of research 
exceeds $750,000 annually.
    Mr. Skeen. Where is this work being carried out?
    Response. Investigations are being conducted on the main campus at 
Louisiana State University as well as the Experiment Stations at 
Calhoun and Washington Parish, LA.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
projects?
    Response. The original work was scheduled for completion in 1999. 
Early term objectives have been met even though they suffered the loss 
of a promising graduate student.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The last field evaluation was completed on December 12, 
1995. The evaluation summary complimented the scientist on the 
interdisciplinary components associated with this project, along with 
their investigative procedures, report writing, and external 
networking.
                   tropical and subtropical research
    Mr. Skeen. Please provide a description of the research that has 
been funded under the tropical and subtropical research program grant.
    Response. The Tropical and Subtropical Research (T-STAR) Program is 
operating in coordination with the Caribbean Basin Administrative Group 
and the Pacific Basin Administrative Group. State Agricultural 
Experiment Stations that are members of the Caribbean group are 
Florida, Puerto Rico, and the Virgin Islands; members of the Pacific 
group are Hawaii and Guam.
    Non-member institutional interests are represented by the Executive 
Director of the Southern Region Agricultural Experiment Station 
Directors, who is a member of the Caribbean group, and the Executive 
Director of the Western Region Agricultural Experiment Station 
Directors, who is a member of the Pacific group. The Agricultural 
Research Service also has representation on the two groups, as does the 
CSREES scientist who manages the T-STAR grant program.
    Funds for the program are divided equally between the two Basin 
Administrative Groups. The research objective of the program developed 
by the principal researchers is to improve the agricultural 
productivity of many of the subtropical and tropical parts of the 
United States. Special research grants have been awarded for research 
on controlling insect, disease and weed pests of crops; increasing the 
production and quality of tropical fruits, vegetables and agronomic 
crops; promoting increased beef production through development of 
superior pastures; detection of heartwater disease of cattle and the 
influence of heat stress on dairy cattle reproduction; better use of 
land and water resources; developing computer models for efficient crop 
production systems and animal feeding systems: developing computer 
models for land-use decisions; using biotechnology methodologies for 
improving plant resistance to viral and bacterial diseases; using 
biotechnology to develop non-chemical, or biological, strategies for 
controlling insect pests; and potential for growing new speciality 
crops. Fiscal year 1997 proposals have been requested.
    Mr. Skeen According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researchers believe there is a need for the 
T-STAR program to provide research-generated knowledge that enables 
informed choices in the responsible use of natural resources, 
facilitates the health and well being of American citizens through 
improved food safety and nutrition, provides frontline protection for 
the rest of the nation's farms and ranches from serious plant and 
animal diseases and pests, and enhances the ability of U.S. farmers to 
produce crops efficiently and economically and/or to introduce new 
crops and agricultural products with export potential to gain market 
share abroad. On a regional basis, the T-STAR program addresses the 
unique challenges of practicing tropical agriculture, that is presence 
of pests year-around, heat stress, post-harvest processing to meet 
regulatory requirements for export, etc. The local need of Americans 
living in tropical regions of the nation for T-STAR knowledge-based 
products to design and implement sustainable agricultural development 
within fragile tropical agroecosystems--particularly on tropical 
islands--and to develop new crops and niche markets.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to increase the 
production and quality of tropical crops; control pests and diseases of 
plants and animals; promote increased beef production and conserve land 
and water resources. In fiscal year 1996, grants were supported for 
research on control strategies for Melon thrips; the biochemical nature 
of resistance to rust in nutsedge; development of bioherbicides for 
nutsedges; development of tomato cultivars with resistance to the 
spotted wilt virus; development of pheromones for monitoring and 
controlling the citrus root weevil; reducing the effects of heat stress 
in dairy cattle; development of a decision support system for vegetable 
production; finding cucurbits with resistance to silverleaf, developing 
a computer program for optimal supplementation strategies for beef and 
dairy cattle on tropical pastures; characterizing new strains of citrus 
tristeza virus in the Caribbean basin; determining the economic 
threshold for the citrus leaf miner on limes; using viral replicase 
genes to engineer rapid detection methods for geminiviruses; developing 
makers of bacterial spot resistance genes in tomato; breeding snap and 
kidney beans for resistance to golden mosaic virus and for heat 
tolerance; searching for resistance to papaya bunchy top disease; 
developing weed controls for yam production; and bioengineering 
ringspot virus resistance in papaya.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The operation of the tropical and subtropical research 
program was transferred from ARS to CSREES, with CSREES funding being 
first provided in fiscal year 1983. Funds in the amount of $2,980,000 
per year were appropriated in fiscal year 1983 and 1984. In fiscal year 
1985, $3,250,000 was appropriated. In fiscal years 1986, 1987, and 
1988, $3,091,000 was appropriated each year. $3,341,000 was 
appropriated in fiscal year 1989. The fiscal year 1990 appropriation 
was $3,299,000. The fiscal years 1991-1993 appropriations are 
$3,320,000 per year; $3,121,000 in fiscal year 1994; $2,809,000 in 
fiscal years 1995-1996; and $2,724,000 in fiscal year 1997. A total of 
$46,546,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. For fiscal year 1996, more than $1 million of nonfederal 
funds were provided to the T-STAR program from state appropriations. 
These state funds were in the form of faculty salary time commitments 
and indirect costs covered by the institutions.
    Mr. Skeen. Where is this work being carried out?
    Response. This research is being conducted in Florida, Puerto Rico, 
Virgin Islands, Hawaii, and Guam. Work is also being done in other 
Pacific and Caribbean countries through agreements between institutions 
but not using federal funds.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project. Have those objectives been met? 
What is the anticipated date of additional related objectives?
    Response. Research on tropical crop and animal agriculture to 
increase productivity, net profits, decrease harmful environmental 
impacts, conserve water, and natural resources. The need to continue 
with this project has been expressed by producers in the area, 
importers in the U.S. mainland and the institutions involved.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The projects that are funded by the T-STAR Special 
Research Grant have been peer reviewed by panels of scientists in the 
U.S. to assure that good science is undertaken. Also as part of the 
grant renewal process, progress reports are reviewed by the two 
Administrative Groups and by the grant manager at the national level. 
Workshops in which research results and their application for 
agricultural production are developed every two years. Research papers 
are published in the appropriate regional, national, and international 
forums available.
    The development in 1995 of the Strategic Plan for T-STAR provided a 
mechanism to define priorities, examine program direction, and 
recommend operational changes. One of the principal points considered 
was to bring the Caribbean and Pacific Basin components closer and 
better coordinated. T-STAR and the coordination which it implies was an 
outcome that will make this program better.
                          urban pests, georgia
    Mr. Skeen. Please provide a description of the research that has 
been funded under the urban pests program grant.
    Response. This research is focused on urban pests with specific 
emphasis on termites and ants.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes subterranean termites 
and ants are significant economic pests in the southeastern United 
States. Damage and control costs for termites in Georgia were estimated 
at $44.5 million in 1993. It is estimated that Professional Pest 
Control Operators apply over 23 million pounds of active ingredient in 
and around homes each year. Chemicals currently registered for 
controlling these pests are less efficacious than desired and applied 
at an intensity that exceeds most agricultural settings.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of the termite research is to better understand 
the foraging activities of subterranean termites and their responses to 
selected environmental cues in order to tailor monitoring and 
predictive strategies with efficacious conventional and alternative 
methods of control. Specific accomplishments in the subterranean 
termites research in 1996 are as follows:
    A third year of data on termite foraging behavior was collected and 
completed in 1996. Three years of data indicates Subterranean termite 
colonies in Georgia are <500,000 termites per colony and are 
characteristically smaller than those in Florida and Canada, but are 
within the same size range of those in Mississippi. It is believed that 
colonies of subterranean termites are nonindigeneous to Florida and 
Canada and are not subject to the same competitive interactions as 
those colonies that are native to Georgia and Mississippi. However, 
structures attacked by subterranean termites in Georgia are often 
attacked by more than one distinct colony. Three manuscripts have been 
published and one is in press in this area of research.
    Studies with termite baits in 1995 have demonstrated the 
seasonality of termite feeding activity and behavior impacts the timing 
of application and the timeframe for expected results from termite 
baiting. Research in 1996 demonstrate that the active ingredient used 
in termite baits must display a lack of dose-mortality effects for at 
least two weeks to insure consistent, significant, and long-term 
suppression of termite activity. Three manuscripts have been published.
    Mitochondrial DNA preliminary work indicated that human transport 
of termite-infested materials is the primary mode of termite dispersion 
and could result in a higher frequency of hybrid formation within the 
genus Reticulitermes. One manuscript has been accepted for publication.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The research supported by this grant began in fiscal year 
1991, and the appropriation for fiscal years 1991-1993 was $76,000 per 
year. In fiscal year 1994 the appropriation was $71,000 and in fiscal 
years 1995-1997 the appropriation was $64,000 each year. A total of 
$491,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
by fiscal year were as follows: 1991-none, 1992-$26,000, 1993-$18,000, 
1994-$59,530 and 1995-$59,539.
    Mr. Skeen. Where is the work being carried out?
    Response. This research and technology transfer is being conducted 
at the Georgia Agricultural Experiment Station in Griffin, Georgia.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The grants have been processed on a year to year basis 
pending the availability of funds, however, the original objectives 
were essentially a five- to eight-year plan of work. CSREES 
entomologists judge that excellent progress has been made on foraging 
behavior and the identification and development of termite baits. The 
publication of the research results has also been excellent.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. This project has been evaluated on an annual basis by 
CSREES, and the progress has been excellent. Last year we documented 
the progress on foraging behavior, genetic isolation of termite 
colonies, new chemistry soil termiticides, the killing potential and 
repellency of several strains of the fungus Metarhizium anisopliae, 
termite baits and feeding activity and behavior that impacts the time 
frame for expected results from termite baiting. A peripheral objective 
on Argentine ants was completed last year with the development of 
commercial baiting stations used on the outside periphery of buildings. 
This method was proven effective in preventing infestations in 
apartment complexes and reducing ant complaints by residents.
            viticulture consortium, new york and california
    Mr. Skeen. Please provide a description of the research that has 
been funded under the grant.
    Response. The University of California and Cornell University in 
New York received funding research in the spring of 1996 on varietal 
responses of grapes, modeling of water requirements, management of 
diseases including phyloxera and other cultural aspects of grape 
production. These fiscal year 1996 funds will be used by the lead 
institutions to fund projects in the various grape producing states 
within their region.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The research being carried out is designed to help the 
viticulture and wine industries remain competitive in the United States 
and in the global market. Both these industries have a positive effect 
on the United States balance of payments.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research is to maintain or 
enhance the competitiveness of the U.S. viticulture industry in the 
global market.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1996, $500,000; fiscal year 1997, $500,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds used in conjunction with this grant 
have not been accounted for because these projects are in their first 
year and have not yet been evaluated. However, monitoring of non-
federal funds used to further the projects will be carried out.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted in various states which 
include California, Washington, New York, and Pennsylvania.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The research priorities set by the guidance group were 
not all addressed nor will they be in the near future.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Since this is a new project, an evaluation has yet to 
occur.
                       water conservation, kansas
    Mr. Skeen. Please provide a description of the research that has 
been funded under the water conservation program grant.
    Response. This research program is designed to develop and 
disseminate technical and economic information on the efficient use of 
water for irrigated crop production in western Kansas. The following 
objectives comprise this program for the fifth year of the project: (1) 
develop regression models to estimate the longevity of subsurface drip 
irrigation systems using calculations of annual system performance 
deterioration based on 11 years of operating pressures and flow rates; 
(2) develop efficient advanced irrigation management procedures for 
subsurface drip irrigation systems for corn; (3) identify and evaluate 
the technically and economically feasible modifications to irrigation 
systems for irrigation of corn, wheat and grain sorghum as affected by 
well capacity, institutional water restrictions, and new federal farm 
program and; (4) increase the availability of irrigation research 
information and best management practice recommendations to Kansas 
irrigators through a series of extension bulletins and updates based on 
research-based information.
    An advanced study was conducted to evaluate the water use 
efficiency of high frequency deficit subsurface drip irrigation for 
corn production. The 1994-1996 results indicate that corn yields can be 
maintained at a level nearly equal to fully irrigated crop production 
at significantly lower water inputs when daily deficit irrigation is 
used. An advanced subsidy was initiated in 1996 to develop water/land 
allocation strategies for corn using subsurface drip irrigation. This 
substudy was initiated as a result of the changes in the federal farm 
program which allow greater planning flexibility. These changes removed 
the need of irrigated to protect base acreages, so economic efficiency 
will be a strong determinant in water/land allocation strategies. This 
substudy along with economic and system longevity analyses will be 
continued in 1997.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. Water is a precious resource to farmers in the Great 
Plains. Corn is a principal crop for feeding stock. To produce corn in 
the Great Plains, additional water applied as irrigation enhances 
production. The most common irrigation methods are furrow irrigation or 
center pivot irrigation. The need to conserve water has turned 
attention to drip irrigation as an efficient alternative.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The research goal is to determine the feasibility of 
subsurface drip irrigation and other alternative irrigation systems in 
western Kansas to sustain irrigation corn production to support the 
beef feedlot industry. The project also supports an educational effort 
through collection and dissemination of information on efficient 
irrigation methods.
    The project has a significant and active technology transfer and 
extension program. In 1996 alone, one paper was given an international 
conference, three referred journal articles were submitted, two 
extension publications were published, and ten other miscellaneous 
presentations and publications were made. The computer program 
Irrigation Economics Evaluation System is complete and will be 
distributed by the Kansas State University Cooperative Extension 
Service in 1997.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1993 with an appropriation of $94,000; $88,000 in fiscal year 1994; and 
$79,000 in fiscal years 1995-1997 each year. The total funds 
appropriated are $419,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $781,232 state appropriations, $55,205 product sales, 
$60,907 industry and miscellaneous in 1991; $868,408 state 
appropriations, $37,543 product sales, $35,484 industry and 
miscellaneous in 1992; $833,324 state appropriations, $54,964 product 
sales, $144,225 industry and miscellaneous in 1993. Amounts for other 
fiscal years are not available.
    Mr. Skeen. Where is this work being carried out?
    Response. The research is being conducted at Kansas State 
University. The field portion of the research is being conducted on 
Research Centers at Colby and Garden City, Kansas. Additional work is 
being carried out on campus at the Departments of Agronomy and 
Agricultural Economics in Manhattan, Kansas.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated date of additional or related objectives?
    Response. The original anticipated completion date for the project 
was May 31, 1998, following the funding in Fiscal Year 1997. The 
original objectives of the project appear to be on track for completion 
by that date.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The project has been peer reviewed. The reviewers felt 
the project concept to be valid and the timetable for accomplishments 
to be on target. The research as outlined in the proposal is within the 
mission of the Agricultural Experiment Station and is a high priority 
to Kansas agriculture.
                       water management, alabama
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Water Management, Alabama grant.
    Response. The program components of the Water Management, Alabama 
project include: renovation as a water quality enhancement practice for 
pastures fertilized with poultry waste, the efficacy of a new biocidal 
polymer water filter against Cryptosporidium oocysts and Giardia cysts, 
improving effluent quality of the in-pond raceway fish culture system 
through removal and infiltration of fish wastes, relationships between 
landscape characteristics and nonpoint pollution inputs to coastal 
estuaries, and resource management for enhancement of environmental 
quality as conservation reserve program contracts expire in the Alabama 
Black Belt.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researchers believe that perennial 
pastureland is the most common disposal area for waste collected from 
confined animal operations in the humid Southeast. This is especially 
true in broiler chicken productions areas such as Alabama, where litter 
is generated, since this material can be used as both fertilizer and 
feed in associated cattle operations. Most broiler production in this 
region is highly concentrated where topography and soil fertility limit 
row crop production. Although application of high rates of poultry 
wastes to perennial pastures in these areas has the potential to cause 
environmental pollution, operators have few alternatives to land 
application. This research provides solutions and/or potential 
recommendations for utilization of broiler litter in the best manner to 
protect water from both nitrogen and phosphorous application. With the 
considerable acreage that is coming off the Conservation Reserve 
Program, this research will give guidance to landowners and government 
agencies in the best use for the land. Published guideline handbooks 
have been distributed and the researchers believe they are providing 
much assistance to landowners, county agents, Natural Resources 
Conservation Service personnel, and others in applying best management 
practices.
    The potential for Geographic Information Systems to be major tools 
for determining the best use for land so as to protect the environment 
will be enhanced because of this study. Entire watersheds can be 
protected as landowners, land use planners and government entities make 
decisions for the future. The data provided by this study are 
particularly important in light of proposed revisions to the Coastal 
Zone Management Act. Given concerns regarding land use activity in the 
coastal zones, these data may provide indications of which combinations 
of land use and land forms may be problematic in terms of water 
quality.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. This is a new grant, however, water quality work has been 
ongoing in Alabama in recent years. This previous research will be used 
to strengthen and backdrop work for this grant.
    Previous research has shown the relationships between cattle foot 
traffic, forage canopy, ground cover, root biomass, and nutrient uptake 
for grazed versus hayed tall fescue following two renovation tillage 
treatments. As a followup to this research, 25 Conservation Reserve 
programs were surveyed. This included 300 sampling points, each 
covering 300 acres. Instrumentation was installed on several of the 
properties for measurement of soil erodability.
    Non-point source pollution in streams is being examined using the 
Geographic Information System and Remote Sensing analysis tools to 
assess the relationships between land use complex and water quality. 
Lands within each sub-watershed were classified according to their use, 
and the location of forested land use relative to the stream channel 
was noted. A linkage model was developed which relates land use/land 
cover with non-point source pollution.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant begins in fiscal year 
1997 and the appropriation for fiscal year 1997 is $170,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
for fiscal year 1996 are as follows: $894,344 state appropriations; and 
$572,342 miscellaneous. It is anticipated that the University will more 
than match federal funds for this grant with state appropriations and 
miscellaneous non-federal funds in fiscal year 1997.
    Mr. Skeen. Where is this work being carried out?
    Response. This work is being conducted at the Auburn University 
Main Campus, and at the Upper Coastal Plain Substation at Winfield, 
Alabama, the Tennessee Valley Substation at Belle Mina, Alabama, the 
Black Belt Substation at Marion Junction, Alabama, the Sand Mountain 
Substation at Crossville, Alabama, and on private forest land near 
Greenville, Alabama.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. It is anticipated that the completion date of the project 
will be August 31, 1998, even though selected objectives will be met 
sooner. Work is proceeding on all objectives and some of them have 
already been met. Some objectives will be completed at the end of 
summer 1997 and others will continue through August 31, 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The Program manager from the Cooperative State Research, 
Education, and Extension Service reviewed and evaluated the proposed 
research prior to the award of the grant, and reviewed and evaluated 
the annual progress reports from the Principal Investigator, following 
internal review by the University. Annual progress reports are due to 
be submitted by the individual research investigators to the University 
on March 1, 1997, after which a University evaluation will be made on 
each segment with the project leaders and department heads during March 
and April, 1997, prior to submission to the Cooperative State Research, 
Education, and Extension Service for review and approval.
                             water quality
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Special Research Grants Water Quality Program.
    Response. The Cooperative State Research, Education, and Extension 
Service (CSREES) continues support of this national, competitively-
awarded program as part of USDA's Water Quality Initiative. The program 
supports research to investigate the impacts of non-point source 
pollution from agriculture on water quality and to develop improved, 
sustainable agricultural practices and systems that protect the 
environment and are economically profitable. Also, this program 
supports research on five Management Systems Evaluation Area (MSEA) 
projects as part of the Midwest Initiative on Water Quality to develop 
new farming systems that protect water quality, with research located 
at 10 sites throughout the Corn Belt. This program is conducted jointly 
with the State Agricultural Experiment Stations, USDA's Agricultural 
Research Service and Natural Resources Conservation Service, the U.S. 
Environmental Protection Agency, the U.S. Geological Survey, extension 
specialists, and other Federal, State, and local agencies. The water 
quality grants have supported more than 300 research projects across 
the country. In fiscal years 1996 and 1997, funds were awarded to the 
five MSEA projects in the Midwest to continue the water quality systems 
research started in 1990. In 1996, new projects were initiated as 
Agricultural Systems for Environmental Quality. The new projects focus 
on watershed-scale agriculture production systems that reduce pollution 
of soil and water while maintaining productivity and profitability.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research.
    Response. Concerns have been raised by the public about the 
possible risks to the environment and soil and water quality from the 
use of agricultural chemicals. Better methods of detection of minor 
amounts of chemical in water have made the public, farmers, and policy-
making more concerned about the use and management of these agriculture 
chemicals and wastes, while meeting the challenge of maintaining the 
efficiency and productivity of agricultural production systems. Water 
quality continues to be of high priority at local, regional, and 
national levels. Results from the research are providing technologies 
to reduce pollutants, guidelines for site-specific farming and improved 
farming and improved farming systems.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goals of the program were to determine the 
extent to which agriculture has impacted groundwater quality, and to 
develop new, improved, cost effective agricultural systems that enhance 
groundwater quality. During the past three years, focus and allocation 
on resources have increased for surface water quality. Major progress 
has already been made on these goals. Examples of some of the results 
of recently completed research include the following: (1) Nitrogen 
continues to be of concern as a pollutant in our Nation's waters. The 
rapid expansion of the Hypoxic zone in the Gulf of Mexico in 1993 has 
focused additional attention on nitrates coming from several sources, 
including agriculture. Nitrogen testing research and implementation of 
the Pre-sidedress Nitrogen Test in the Northeast and Midwest is helping 
producers match the supply and demand for nitrogen, thus reducing 
excess application; (2) Crop rotations can significantly reduce nitrate 
pollution. In the Pacific Northwest, nitrate lost from the root zone of 
irrigated potatoes can be effectively recaptured by following with a 
grain or forage crop; (3) The Management System Evaluation Area 
modeling group has adapted, improved, and verified the usefulness of 
the Root Zone Water Quality Model as a tool for extending MSEA results 
beyond the research sites. The model predicts the movement of water and 
agricultural chemicals.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal 1997?
    Response. The work under the Water Quality Program began in fiscal 
year 1990 with an appropriation of $6,615,000. The subsequent 
appropriations were as follows: $8,000,000 in fiscal year 1991; 
$9,000,000 in fiscal year 1992; $8,950,000 in fiscal year 1993; 
$4,230,000 in fiscal year 1994; and $2,757,000 in fiscal years 1995 
through 1997. A total of $45,066,000 has been appropriated for the 
Special Research Grants Water Quality Program.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal years?
    Response. The non-federal funds in support of the Water Quality 
Program, provided by state appropriations, industry, product sales, and 
other local sources, have averaged approximately $1,000,000 annually 
since the program began in 1990.
    Mr. Skeen. Where is this work being carried out?
    Response. Funds provided under the Water Quality Program have been 
awarded to institutions in virtually every state, so work is being 
carried out in all parts of the country. The MSEA projects of the 
Midwest Initiative on Water Quality are headquartered in Iowa, 
Minnesota, Missouri, Nebraska, and Ohio, with satellite locations in 
North Dakota, South Dakota, and Wisconsin. Three new projects located 
in Indiana, North Carolina, and Ohio were initiated in fiscal year 
1995.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have these objectives been met? 
What is the anticipated completion date of additional or related 
objectives.
    Response. The original goals of the USDA Water Quality Research 
Plan were to: (1) assess the seriousness and extent of agriculture's 
impact on groundwater quality, and (2) develop new and improved 
agricultural systems that are cost effective and enhance groundwater 
quality. The original project was developed for five years with the 
expectation that it would be reviewed and possibly extended beyond the 
five year period if warranted. The 1995 review of the program 
identified a need for increased attention to surface water quality 
problems. The research funded under the Special Research Grants Program 
has produced significant progress in understanding the impacts of 
agricultural practices on surface and groundwater pollution, and in 
developing improved agricultural systems that are economically and 
environmentally sustainable. Implementation of some of these improved 
agricultural systems is already underway in a number of states. The 
focus over the next five states will be on developing and implementing 
agricultural systems that utilize the results of research funded under 
this program. The March 1995 Water Quality Users Conference brought 
together research findings and new technologies that have been 
developed.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An external review team evaluated the Management System 
Evaluation Areas and associated component projects. All MSEA projects 
have an impressive record of successfully implemented interdisciplinary 
teams to study water quality problems. Credibility and confidence in 
experimental data has been assured by implementation of quality 
assessment/quality control procedures, and a diversified delivery 
system/educational outreach effort will be a necessary key component of 
MSEA success.
                       weed control, north dakota
    Mr. Skeen. Please provide a description of the research that has 
been funded under the New Methods of Weed Control, North Dakota grant.
    Response. The project is designed to reduce the environmental 
pollution caused by the extensive usage of herbicides for weed control 
and provide growers with environmentally safe weed control systems. The 
present project address three areas; one being crop production 
practices, second, weed biology and herbicide resistance, and third, 
efficient herbicide usage. In crop production practices, systems 
experiments have been established at three locations that include crop 
rotation, tillage, seeding method and timing; these variables are 
incorporated into sustainable, reduced tillage and conventional 
systems. Results being monitored include the effect of weed control 
intensity on long-term weed infestations and economic returns. The 
emphasis in weed biology research is with kochia, wild oat, and green 
foxtail that are herbicide-resistant. In efficient herbicide usage, 
several factors are being studied such as application methods to 
improve weed retention of herbicides and weed-detecting sprayers to 
treat only areas where weeds are present.
    Mr. Skeen. According to the research proposal, or the principal 
researchers, what is the national, regional or local need for this 
research?
    Response. The research addresses new methods to control weeds using 
systems control with multi-year, multi-crop rotations, reduced 
pesticide applications, that better simulate a typical on-farm sequence 
than short-term grants. Some variables included in the research are 
reduced pesticide applications and techniques to enhance herbicide 
efficacy.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal was to develop new, efficient weed 
control methods. To accomplish this, long-term field experiments have 
been initial to obtain basic crop-weed biology and production system 
information. The first three years of the rotation experiements have 
been completed in 1993 through 1995. Changes in weed populations were 
beginning to occur in 1995 and the environmental conditions were 
atypically wet during these three years; these observations support the 
need to complete at least two cycles of the rotation for a total of at 
least eight years to obtain reliable scientific information. The 
improved efficiency of weed control method has developed adjuvants to 
overcome the antagonism of salts, which naturally occur in water and 
reduce the efficacy of some herbicides. Another approach is adjuvants 
to reduce the herbicide rate required and/or to improve their 
performance consistency. Kochia genetic lines have been developed that 
are homozygous for resistance to various studies to determine 
inhertiance and possible spread of herbicide resistance. Fields are 
being monitored for the development of kochia resistance to dicamba. A 
better understanding of how herbicide-resistance weeds occur in a 
population should be useful to developing methods to prevent herbicide 
resistance from becoming an unmanageable problem.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1992 and the appropriation for fiscal years 1992 and 1993 was $500,000 
per year; $470,000 in fiscal year 1994; and $423,000 in fiscal years 
1995 through 1997. A total of $2,739,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: no matching in 1991; $27,030 state appropriations in 
1992, $48,472 state appropriations in 1993, $41,969 state 
appropriations in 1994, $71,847 state appropriations in 1995, and an 
estimated $70,000 state appropriation in 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at North Dakota State 
University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original anticipated completion date was a minimum of 
5 years, with an additional 5 years currently being projected. The 
original objectives have been satisfactory met, but the research with 
biological traits of herbicide-resistant weeds require more time, 
depending upon whether the traits prove to be simply inherited or 
involve multiple genes with a complex inheritance. The anticipated 
completion date of the additional and related objectives is 2001.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Each year the grant is peer reviewed and reviewed by 
CSREES's senior scientific staff. A summary of that review indicated 
excellent progress in the achieving the objectives.
                         wheat genetics, kansas
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Wheat Genetics, Kansas grant.
    Response. This project provides partial support for the Wheat 
Genetics Resource Center at the University of Kansas, which focuses on 
collection, evaluation, maintenance and distribution of exotic wheat 
related germplasm needed to develop new wheat cultivar resistant to 
disease, insects, and environmental stress.
    Mr. Skeen. According to the research proposal or the principal 
research, what is the national, regional or local need for this 
research?
    Response. The principal researchers believes most cultivated 
varieties of wheat are derived from common sources. They lack the rich 
genetic diversity needed to develop resistance to diseases, insects and 
environmental stress. The replacement of genetically rich primitive 
cultivar and land races by moderm, more uniform cultivars all over the 
world is causing erosion of wheat germplasm resources. New pests or 
those that have overcome varietal resistance pose a constant threat to 
the nations wheat production. Genetic resistance often resides in wild 
relatives of wheat. The reseachers believe this program, which was 
established in Kansas, is providing service to wheat breeders 
nationwide.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished?
    Response. The original goal of this reseach was to enhance the 
genetic diversity available to wheat breeders nationally and 
internationally by collecting, evaluating, maintaining and distributing 
germplasm derived from wild relatives of wheat. To date 25 germplasm 
releases have been made containing new genes for resistance to such 
pests as Hessian fly, greenbug, leaf rust, soilborne mosaic virus and 
Russian wheat aphid Germplasm stocks with resistance to leaf rust and 
powdery mildew are under development. Evaluation of germplasm for 
important resistance genes was carried out by Center scientists and 
cooperating institutions. The Center filled 30 requests from U.S. wheat 
breeders for seed from the germplasm collection and 57 requestss for 
seed of germplasm releases, as well as large numbers from international 
breeders.
    Mr. Skeen. How long has this week been underway and how much has 
been appropriated through fiscal year 1997?
    Response. Work supported by this grant began in fiscal year 1989. 
Appropriations were for fiscal year 1989, $100,000; fiscal year 1990, 
$99,000; fiscal year 1991, $149,000; fiscal years 1992-1993, $159,000 
per year; fiscal year 1994, $196,000; and fiscal years 1995-1997, 
$176,000 each year. A total of $1,390,000 has been appropriated.
    Mr. Skeen. What is the source and amount of nonfederal funds 
provided by fiscal year?
    Response. The nonfederal funds provided for this grant were as 
follows: $493,285 state appropriations, $31,414 product sales, and 
$84,610, other non-federal in 1991; $414,882 state appropriations, $14, 
259 product sales, and $102,086 other non-federal in 1992; and $533,848 
state appropriations, $32,297 product sales, and $163,937 non-federal 
in 1993, $468,960 in 1994; $563,671, non-federal funding for 1995 and 
$457,840 of non-federal support for 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. This research is being conducted at Kansas State 
University by the Wheat Genetics Resource Center.
    Mr. Skeen. When was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The collection, evaluation and enhancement of Wheat 
germplasm is continual process. Therefore this project does not have a 
defined completion date. The PI anticipate continuing the work for an 
indefinite period of time.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. This Special Grant has not been subjected to a 
comprehensive review. However each annual proposal is peer reviewed at 
the institution and reviewed by CSREES scientists.
                       wood utilization research
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Wood Utilization research grant.
    Response. The new wood utilization knowledge and technologies 
discovered help maintain a vigorous, competitive, domestic forest 
industry. This, in turn, helps achieve sustainable forests since 
improved utilization extends timber supplies. The research includes: 
meeting environmental objectives in timber harvesting and forest 
products manufacture; extending the timber resource through research, 
including management; exploiting pesticides developed from forest 
trees; wood machining; introducing small forest products industries to 
wood technology; and developing new products from wood and recycled 
materials.
    Mr. Skeen. According to the research proposal, or the principal 
researchers, what is the national, regional, or local need for this 
research?
    Response. Research at four of the centers improves the utilization 
of those forest species that grow in these regions, i.e. western 
conifers, southern pines, Lake States hardwoods, and northeastern 
forests. The other two centers conduct research in specific 
subdisciplines, i.e. machining of wood and incubator technology 
transfer. The wood machining work at North Carolina State University 
improves wood machining. Wood industry incubator work at Duluth, 
Minnesota, contributes to rural development of local economies.
    Mr. Skeen. What was the original goal of this research, and what 
has been accomplished to date?
    Response. The original goal was to generate new knowledge that 
would benefit the forest industry. This goal has been fine-tuned to 
place additional emphasis on environmental stewardship, resource 
extension, technology transfer, and scientist education. Research that 
extends the resource benefits forest ecosystems and increases the 
competitiveness of the forest products industry. In addition, the 
principal researchers believe consumers benefit from the more efficient 
production. For example, quality control procedures have saved $200,000 
per year in one mill and $300,000 per year in a second through reduced 
waste. The researchers estimate that hand-held calculator programs 
developed by this research have resulted in savings of nearly 
$1,000,000 to woodworkers. Research has reduced the cost of cleanup of 
superfund sites by tenfold due to the use of biodeterioration 
technology. Water quality is believed to have been improved due to the 
introduction of bacteria that consume polychlorinated phenols in 
contaminated water sources. Laser cutting of wood holds potential for 
high savings in raw materials. Systems analysis of sawmill operations 
has allowed managers to improve the efficiencies of operation. 
Improvements in membrane pressing of cabinet doors has improved 
production and product quality. The research developed a dielectric 
wood defect deterioration system to improve automated production 
systems. These are a few examples of the benefits from continuing 
research in wood utilization. Each of these centers has an advisory 
committee that establishes priorities and peer reviews research 
proposals.
    Mr. Skeen. How long has this work been underway, and how much has 
been appropriated, by fiscal year, through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1985, $3,000,000; fiscal years 1986 through 1989, 
$2,852,000 per year; fiscal year 1990, $2,816,000; fiscal years 1991 
and 1992, $2,852,000 per year; fiscal year 1993, $4,153,000; fiscal 
year 1994, $4,176,000; and fiscal year 1995-1996, $3,758,000 per year. 
A total of $39,309,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Mississippi State University non-federal funds were; 
State appropriations $2,498,800, $2,178,725, $2,353,225, and 
$2,331,691, $2,650,230, and $2,778,535 for 1991, 1992, 1993, 1994, 
1995, and 1996, respectively. In addition, industrial funds averaged 
$553,700 for those 4 years in support of the Mississippi Forest 
Products Laboratory. Oregon State University state appropriations were: 
$1,337,962, $1,394,304, $1,256,750, $1,252,750, $1,417,755, and 
$1,117,000 for 1991, 1992, 1993, 1994, 1995, and 1996, respectively. 
Estimated non-public support averages $500,000 per year. Michigan State 
University non-federal contributions for 1994 totaled $910,481. Three 
new locations were added in 1994: University of Minnesota-Duluth non-
federal match was $590,000, $550,000, and $560,000 for 1994, 1995, and 
1996. North Carolina State University was $126,000, $165,000, and 
$135,000 for 1994, 1995, and 1996. University of Maine was $600,000, 
$445,723, and $459,100 for 1994, 1995, and 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. There are six locations. The initial three--Oregon State 
University, Mississippi State University, and Michigan State 
University--were joined by the University of Minnesota-Duluth, North 
Carolina State University, and the University of Maine in fiscal year 
1994.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original objective was to build and maintain strong 
regional centers of wood utilization research to address the Nation's 
needs for wood products through strengthening university wood products 
research and graduate education. These centers have been established, 
and wood utilization improves each year as a result. Projects begun in 
1997 will be completed by 2001.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Progress reports from the six centers are reviewed yearly or more 
frequently. Center directors last met together in June 1996. Centers 
all have advisory committees which meet periodically. The U.S. 
Department of Agriculture conducts informal on-site reviews 
periodically. The Duluth and Oregon sites were visited in 1996. A 
Departmental panel reviewed the original three centers in 1992 and 
1993. At that time, the original objectives were broadened. The centers 
have responded to the review recommendations by increasing their focus 
on meeting environmental objectives by conducting research leading to 
sustained timber production; extending the timber supply through 
improved processing; developing new structural applications for wood; 
and developing wood extractives to substitute for pesticides, 
preservatives, and adhesives.
                             wool research
    Mr. Skeen. Please provide a description of the research that has 
been funded under the wool research grant.
    Response. The overall goals for this research are the development 
of objective measures of wool, mohair, cashmere and other animal fibers 
to increase profitability of the sheep and Angora goat industries. 
Specific objectives include: develop and evaluate measurement 
techniques for rapid objectives evaluation of wool, mohair, cashmere 
and other animal fibers; increase the use of objective measurements to 
increase fiber production, quality and income to producers, and 
increase consumer acceptance of wool fabrics. The fiscal year 1996 
grants terminate between January 1997 and April 1998. The 1997 grant 
proposals have been received and are being reviewed.
    Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. Collaboration exists among researchers in Texas, Wyoming 
and Montana associated with this grant and other federal, university 
and industry scientists on a wide basis to assure responsiveness to the 
needs of those involved in wool and mohair production, marketing and 
processing.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The overall goal for this research to develop objective 
measures of wool, mohair, cashmere and other animal fibers to increase 
profitability of the sheep and Angora goat industries remains the 
primary emphasis of the research. Computer software programs for the 
automatic image analysis system are being evaluated and improved for 
the purpose of measuring the average diameter and distribution of 
animal fibers. Software is also being modified to permit rapid, 
accurate measurement of other fiber properties such as fiber style 
crimp and character. Near infra red reflectance analysis was compared 
to standard practices for yield measurement of mohair. Progress was 
again made to improve the quantity and quality of fibers produced from 
sheep and goats. Selection and crossbreeding experiments, part of a 
national study, were conducted to evaluate wool characteristics, 
reproduction, and lamb quantity and quality of crosses between Merino 
and Rambouillet breeds. Correlation studies were completed to compare 
the measurements made by the laser scan image analyzer with those made 
by microprojection. Numerous scientific and technical papers were 
published during the past year.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Grants have been awarded from appropriated funds in the 
amount of $150,000 for fiscal years 1984-1985; $142,000 per year for 
fiscal years 1986-1989; $144,000 for fiscal year 1990; $198,000 for 
fiscal year 1991; and $250,000 per year for fiscal year 1992-1993; 
fiscal year 1994, $235,000; and fiscal years 1995-1997, $212,000 each 
year. A total of $2,581,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year.
    Response. The non-federal funds and sources provided for this grant 
were as follows: $150,913 state appropriations, $11,800 product sales, 
$5,817 industry, and $3,556 miscellaneous in 1991; $111,394 state 
appropriations, $25,451 product sales, $41,442 industry, $3,068 
miscellaneous in 1992; and $152,699 state appropriations, $39,443 
product sales; $40,804 industry and $3,556 miscellaneous in 1993; 
$150,094 state appropriations, $35,284 product sales, $36,484 industry 
and $3,556 miscellaneous in 1994; and $67,345 state appropriations, 
$10,000 product sales; $34,325 industry contributions in 1995; and 
$39,033 non-federal support in 1996.
    Mr. Skeen. Where is this work being carried out?
    Response. The research is in progress at the Texas A&M University, 
Texas Agricultural Experiment Station, the University of Wyoming and 
Montana State University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional related 
objectives?
    Response. The original objectives to improve the efficiency and 
profitability of wool, mohair and cashmere production and marketing are 
still valid. Specific objectives for individual laboratories and 
experiments are continually revised to reflect the changing priorities 
for the wool and mohair industries and consumers. It is anticipated 
that five years will be required to complete the current research.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The principal investigators from the three institutions 
meet annually to evaluate progress and prioritize research according to 
industry needs. The research for this Special Grant is a component of a 
regional research project which entails coordination by the agency, 
reporting of accomplishments annually, and overall project peer review 
every three years. Last year the regional research project was reviewed 
and approved for renewal. Annually, Special Research Grant proposals 
are submitted to the agency for review and approval. The design and 
procedures in the most recent proposal were deemed to be adequate to 
supply the data necessary to fulfill the objectives. Excellent 
facilities and equipment are available to provide scientists with 
complete fleece analyses for objective measurements of wool and mohair. 
The investigators are able to conduct unique experiments as a result of 
the very specialized instrumentation available for the project. The 
agency representative periodically visits the research facilities and 
reviews progress, the most recent in May of 1994. It was concluded that 
the research was addressing the priorities of the U.S. wool and mohair 
industry, contributing to the introduction of value-based marketing 
systems, assisting in the establishment of a nucleus for U.S. cashmere 
production, and being effectively coordinated with other research 
laboratories. Research results are annually reported to the industry 
and the agency providing the means for adoption of new practices to 
improve the marketing of wool and mohair.
            agricultural development in the american pacific
    Mr. Skeen. Please provide a description of the research that has 
been done under the Agricultural Development in the American Pacific 
program.
    Response. The Agricultural Development in the American Pacific 
(ADAP) project allows the Land Grant research, extension, and 
instruction programs of the five participating institutions--American 
Samoa Community College, College of Micronesia, Northern Marianas 
College, University of Guam and University of Hawaii--to collaborate 
and cooperate to enhance their impact on agriculture and communities. 
ADAP is a mechanism to address common regional client-based issues 
while maintaining cultural, rural, economic and environmental 
integrity. When American Samoa assumes the Chair of ADAP in 1997, it 
will be the first time in the program's ten-year history that ADAP will 
be lead by an institution other than Hawaii. Detailed preparations are 
underway for a formal review by CSREES in July 1997. The five 
institutions have nearly completed the required review document and 
have formed three categories for future priorities: sustainable 
systems, collaboration/partnerships, and communication systems. ADAP 
Deans/Directors will use this review as input to formulating a new 
strategic plan articulated by and for the American Pacific.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, that is the national, regional or local need for this 
research?
    Response. The principal researcher believes the five participating 
institutions are geographically dispersed yet facing many similar 
issues which can best be served through extensive networking and 
communication. ADAP facilitates communications and seeks to raise 
levels of academic achievement and improve the quality of education. In 
addition to a capacity building degree studies program for bachelors, 
masters and doctoral students, ADAP in 1996 opened a new area in 
faculty/staff development to improve institutional capability and 
credibility. For 1997, each ADAP institution will self-determine their 
best means for electronic communications and an independent assessment 
of overall electronic communication needs will be conducted.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. ADAP 's original goals are embodied in the 1992 strategic 
plan, namely to develop human resources within the institutions, to 
more effectively manage agricultural programs within and among the 
institutions, and to focus resources available on ADAP mission needs. 
Priority projects for 1997 include: animal health survey, livestock 
waste management, dietary guidelines for Pacific foods, artificial 
insemination demonstration/education, youth-at-risk assessment, and 
market information collaboration with ``state'' Departments of 
Agriculture.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year 1997?
    Response. This work has been underway for seven years with an 
annual appropriation of $650,000 to the former Extension Service. In 
fiscal year 1994, an appropriation of $608,000 was made to CSREES to 
continue the ADAP program. The fiscal year 1995 appropriation was 
$544,000 and fiscal year 1996 and 1997 were $564,000 each year. The 
appropriation total to CSREE is $2,280,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Non-federal funds are not provided. Unspecified in-kind 
support, such as facilities, equipment and administrative support, are 
provided by each institution and, in some specific projects, by non-
ADAP collaborating institutions.
    Mr. Skeen. Where is this work being carried out?
    Response. This work is being carried out by American Samoa 
Community College, College of Micronesia, Northern Marianas College, 
University of Guam, and the University of Hawaii.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The ADAP program has been gradually achieving original 
program objectives, particularly in the areas of improvements in 
institutional capacity and communications. The 1997 formal review by 
CSREES will evaluate achievement of the objectives of the 1992 
strategic plan. It is anticipated that an additional 5 to 10 years will 
be needed to fully achieve collaborative integration of the American 
Pacific land grant programs.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The ADAP program was last evaluated by a review team in 
1992 which prepared a 5 year strategic plan. That strategic plan has 
guided the ADAP mission an activities, including the call for the 
forthcoming formal program review.
             alternative fuels characterization laboratory
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Alternative Fuels Characterization Laboratory 
research grant.
    Response. The principal researchers believe these research and 
information dissemination activities have advanced the utilization of 
ethanol-based and other alternative fuels. They believe they have 
resolved issues affecting the use of ethanol in conventional and 
reformulated gasolines. The research addressed evaporative emissions 
from fuels, performance of vapor control sorbents, the environmental 
effects of ethanol fuels, and developing an ethanol-based fuel for 
piston-engine aircraft. Dissemination involved promoting ethanol fuels 
in the Red River Valley.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The researchers believe the need is to ensure the 
availability of unbiased scientific data to ensure that renewable fuels 
are represented accurately in the marketplace. The project is 
developing partnerships with public and private sectors in advancing 
cleaner burning fuels technology. Fuels from renewable resources will 
reduce U.S. dependence on overseas petroleum, while providing cash 
crops for farmers. Renewable fuels are essential to energy and economic 
sustainability, benefitting people, communities, and the Nation.
    Mr. Skeen. What was the original goal of this research, and what 
has been accomplished to date?
    Response. One goal is to compare alternative fuels to conventional 
fuels, and promote alternative fuels through the international Red 
River Valley Clean Cities Coalition. Another goal is to provide 
consumers with information regarding the efficiencies of the broad 
range of fuels, and provide information on conversion of agricultural 
materials and other biomass materials to alternative fuels. The program 
was instrumental in building North Dakota's first public ethanol 
fueling site and in solving cold-start problems.
    Mr. Skeen. How long has this work been underway, and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported in part by this grant began in fiscal 
year 1991. The appropriations for fiscal years 1991 through 1993 were 
$250,000 per year, $235,000 in fiscal year 1994, $204,000 in fiscal 
year 1995, and $218,000 in fiscal years 1996 and 1997. A total of 
$1,625,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Over the duration of the grant, about $845,000 in non-
federal funding has been allocated toward performance of grant 
objectives. For fiscal year 1996, non-federal funding was $105,000. In 
fiscal year 1995, it was $50,000. In fiscal year 1994, it was $60,000. 
In fiscal year 1991-1993, non-federal funding was $630,000, which 
included $600,000 from the Illinois State Geological Survey to evaluate 
an ethanol-based process for coal desulfurization.
    Mr. Skeen. Where is this work being carried out?
    Response. The University of North Dakota, Grand Forks, is the site 
of the Energy and Environmental Research Center, a major research 
laboratory employing over 250 scientists and technicians.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives.
    Response. The anticipated completion date for the original 
objectives of the project was April 30, 1992. This research has been 
completed, and its results have been published. In 1995, the scope and 
collaborative abilities of this program were expanded to include the 
Red River Valley Clean Cities program and collaborative efforts with 
industry and economic development partners. Most of the research and 
dissemination activities now underway could be completed by 2000.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation?
    Response. The last agency on-site evaluation was conducted in July 
1996 by the U.S. Department of Agriculture. The program was given a 
very favorable review based on its ability to forge partnerships with 
both regional and national public and private organizations committed 
to commercial development of alternative fuels, its ability to 
disseminate research results to an international technical audience, 
and its ability to provide up-to-date research and unbiased information 
in response to scientific needs, regulatory demands, and public 
requests.
              center for agriculture and rural development
    Mr. Skeen. Please provide a description of the research that has 
been done under the center for agriculture and rural development 
program.
    Response. The research provides current economic information of 
international trade in agriculture and analyses of the implications of 
trade policy alternatives on the agricultural sector of the United 
States and other countries.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. According to the proposal, trade negotiations and 
agreements are of national concern to policymakers, farmers, and 
agribusiness industries because of the implications for maintaining or 
opening markets and establishing terms of trade and prices. Typical 
agreements are extremely complex, requiring analysis by specialists to 
determine outcomes and to provide objective and accurate information to 
those impacted by such agreements.
    Mr. Skeen. What was the original goal of this research, and what 
has been accomplished to date?
    Response. The original goal was to assess and evaluate various 
proposals affecting agricultural trade, to provide analytical support 
to the Office of the U.S. Trade Representative, and to provide 
information to farmers and agribusiness firms on the competitive 
implications of such agreements.
    An extensive number of theoretical studies and empirical and 
descriptive analyses of policy issues and technical problems pertaining 
to the Uruguay Round of negotiations were used by negotiators and the 
agribusiness community. Studies included the development of 
international trade models and assessments of trade options for meat, 
dairy, feed and cereal grains, oilseeds, and other commodities; impacts 
of the agreement upon selected countries; and reforms needed for 
compliance. Analysis included determination of the value and 
implications of export subsidies, import protection, and internal 
support mechanism and levels. Knowledge developed in this phase is now 
being used to monitor the effects of Uruguay Round implementation and 
the differential impacts for developed, developing and transitional 
economies.
    This grant supports six projects focusing on General Agreement on 
Tariffs and Trade monitoring and implementation problems; implications 
of the General Agreement on Tariffs and Trade for Eastern Europe, 
Baltic and the Newly Independent States; development of a model to 
assess the North American Free Trade Agreement and its linkages with 
the General Agreement on Tariffs and Trade; trade implications of U.S. 
food and development aid in developing countries; integration of China 
into world agricultural markets; and special projects as requested for 
the U.S. Trade Representative's office.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. This research program was initiated in fiscal year 1989. 
Grants have been awarded from funds appropriated as follows: fiscal 
year 1989, $750,000; fiscal years 1990 and 1991, $741,000 per year; 
fiscal years 1992-1993, $750,000 per year; fiscal year 1994, $705,000; 
fiscal year 1995, $612,000; fiscal year 1996, $655,000 and fiscal year 
1997, $355,000. A total of $6,059,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are as follows: $111,210 State appropriations and $175,616 
miscellaneous for a total of $286,826 in fiscal year 1991; $113,779 
State appropriations and $173,117 miscellaneous for a total of $286,896 
in fiscal year 1992; $120,138 State appropriations and $164,707 
miscellaneous for a total of $284,845 in fiscal year 1993; $161,673 
State appropriations and $32,000 miscellaneous for a total of $193,673 
in fiscal year 1994; $161,000 State and $30,000 miscellaneous for a 
total of $191,000 in fiscal year 1995; $70,000 State appropriations and 
$44,000 miscellaneous for a total of $114,000 in fiscal year 1996. 
Fiscal year 1997 preliminary information indicates $60,325 in State 
appropriations and information is not yet available on miscellaneous 
funds.
    Mr. Skeen. Where is the work being carried out?
    Response. The research program is carried out by the Center for 
Agriculture and Rural Development at Iowa State University.
    Mr. Skeen. What was the anticipated completing date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The university researchers anticipate that the work 
should be completed in 1998 with analyses of the final agreement of the 
Uruguay Round and related trade agreements and dissemination of these 
results. Work covered by the most recent agreement would be completed 
by the end of 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Evaluation of this project occurred as a part of the 1997 
project review and approval process. We found that this project was 
useful in estimating impacts of the Uruguay Round provisions on world 
trade in important U.S. agricultural commodities.
                center for north american studies, texas
    Mr. Skeen. Please provide a description of the research that has 
been done under the Center for North American Studies program.
    Response. The purpose of this grant is to develop linkages with 
educational and other institutions in Mexico and Canada to share data 
and faculty, conduct research identifying trade opportunities and 
marketing problems, conduct policy analysis, and develop a broad range 
of training programs preparing agricultural/agribusiness firms for 
international marketing opportunities.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The program director believes that citizens of the United 
States, Mexico and Canada have some similar concerns about the impact 
of the North American Free Trade Agreement (NAFTA), and that new, 
innovative approaches involving international cooperation are needed to 
assess and evaluate these issues. Research and training are needed to 
provide information to evaluate alternatives for expanding U.S. exports 
and resolving potential social, economic, and environmental conflicts.
    Mr. Skeen. What was the original goal of this research, and what 
has been accomplished to date?
    Response. The goal is to promote strong agricultural ties among the 
three North American countries, ensure the continued competitiveness of 
U.S. agriculture, and foster greater cooperation among the three 
countries in resolving critical agricultural issues of common interest. 
As a result of this project, cooperative study, research, policy 
analysis, and training programs have been developed and presented to 
U.S. producers and agribusiness managers, reaching over 2,600 people 
regarding trade opportunities in Mexico, impacts of expanded trade on 
selected agricultural sectors, and the procedures of international 
marketing. The Center recently co-sponsored the Tri-National Research 
Symposium, ``NAFTA and Agriculture: Is the Experiment Working?'' in San 
Antonio with 215 participants, of which 100 were from Mexico. The 
proceedings are available electronically through the Symposium Web page 
on the Internet. Research comparing the competitiveness of major 
agricultural production sectors is focused on Mexico's dairy, 
livestock, meat, feed grain, and fresh vegetable industries. 
Information databases on North American agriculture are being built to 
support the Center programs and are accessible on the Web. The 
electronic database on NAFTA and agriculture currently contain over 
2,400 articles from major U.S., Canadian, and Mexican publications. A 
study of trans-boundary trade and environmental linkages found that 
existing institutions in both countries do not adequately address 
environmental losses or gains.
    Mr. Skeen. How long has this work been underway, and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Work supported by this grant began in fiscal year 1994 
with an appropriation of $94,000; $81,000 in fiscal year 1995; and 
$87,000 in fiscal years 1996 and 1997. A total of $349,000 has been 
appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are as follows: $39,000 State appropriations in fiscal year 1994 and 
$54,000 in fiscal year 1995. The annual State contributions for fiscal 
years 1996 and 1997 exceed $60,000.
    Mr. Skeen. Where is the work being carried out?
    Response. The program is being carried out at Texas A&M University 
through the Texas Agricultural Experiment Station in collaboration with 
the Louisiana State University Agricultural Center, and other 
universities and agencies of the Texas A&M University System.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have these objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original proposal in 1994 was for a period of 12 
months. The current phase of the program will be completed in the year 
2000.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Response. CSREES performed a merit review of the project in August 
1996 as it evaluated the project proposal for 1996 and concluded that 
progress on the four objectives was made and that a satisfactory plan 
of work had been planned for the next funding period. Linkages were 
made with counterparts at Mexican institutions and cooperative research 
projects are being planned. Similar linkages will be made with 
counterparts in Canada.
                   data information system questions
    Mr. Skeen. Please provide a description of system development 
activities that have been funded.
    Response. Cooperative State Research, Education, and Extension 
Service (CSREES) is in the process of funding a cooperative agreement 
with the University of Arkansas to provide national leadership in 
coordinating the efforts of our university partners in helping us 
determine appropriate content for a Research, Education, and Economics 
Information System--REEIS--wide information system. In addition, the 
University of Arkansas will provide essential services in managing and 
coordinating a national Steering Committee responsible for overseeing 
the overall design, development, testing, and implementation of 
Research, Education, and Economics Information System (REEIS). 
Similarly, funds have been allocated to employ a technical services 
manager and a program analyst to oversee contracting with outside 
sources to design and launch REEIS and to comply with the necessary 
clearances and regulations applicable to information technology 
systems. In addition, funds have been allocated to secure a temporary 
director through the Intergovernmental Personnel Act (IPA) to 
coordinate and guide the overall aspects of development, testing, and 
implementing REEIS. Remaining funds are being allocated for contracting 
with a private sector firm to conduct a strategic audit of available 
data and a national needs assessment.
    Mr. Skeen. What is the national, regional or local need for this 
activity?
    Response. USDA's Research, Education, and Economics (REE) mission 
agencies and their university partners lack a central, integrated, 
user-friendly electronic information system capable of providing a 
knowledge base of the thousands of programs and projects for which they 
are responsible that focus on food, agriculture, natural resources, and 
rural development. Such an information system is increasingly needed to 
enable the Department and its partners to readily conduct both 
comprehensive baseline and ongoing assessments as well as evaluations 
of research, education, extension, and economics programs and projects. 
In recent years, this need has become more urgent for several reasons. 
First, the United States needs a visionary public funded research and 
development program to produce essential knowledge and innovations for 
meeting growing competition in a global market--which is largely 
attributable to the expanding research and development efforts of 
foreign nations. Second, a comprehensive information system is needed 
to serve as a primary reference source for development of new research 
and education projects on such diverse issues as increasing 
productivity in agriculture and processing, improving the safety and 
quality of food, and enhancing the sustainability of the environment 
and rural communities. Third, Federal/State policy makers and 
administrators are requiring empirical analyses to account for 
historical, current, and future use of public funds and to provide a 
basis for redirecting funds to higher priority problems. Fourth, the 
Government Performance and Results Act (GPRA) has imposed reporting 
demands which current, decentralized information systems are not 
prepared to adequately satisfy.
    Mr. Skeen. What was the original goal of this initiative and what 
has been accomplished to date?
    Response. The original goal of this initiative was to develop an 
information system that can provide real-time tracking of research, 
extension and education projects and programs; has the capability to 
communicate vertically between field, state and Federal locations; will 
enable the REE agencies and their partners to conduct rapid and 
comprehensive policy assessments and program evaluation analyses; 
facilitates assessment of technologies and practices employed in 
extension, education, economics and research activities at the field 
and/or regional levels; provides clear and transparent public access to 
relevant parts of the information; and provides information management 
tools to enhance the timeliness and accuracy of REE-wide responses to 
inquiries about program objectives and expenditures.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Congress first appropriated $.4 million for REEIS in FY 
1997 to begin planning its design and development. We are in the 
process of establishing a National Steering Committee to provide advice 
and guidance throughout the development and implementation process. The 
Steering Committee will be chaired by a notable administrator of 
extension and research at a key land-grant university. It will be 
comprised of both users and producers of Research, Education, and 
Economics agencies' data, including program officials and program 
leaders, information system managers from other Federal agencies, 
representatives from Federal oversight agencies, program/project 
leaders representing partner institutions, and private sector users of 
REE data. Ultimately, this body will be responsible for recommending 
work specifications and for assessing the quality of work performed by 
an experienced and successful private contractor specializing in 
public-sector information systems.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Non-federal funding does not apply at this time.
    Mr. Skeen. Where is this work being carried out?
    Response. Leadership responsibility for REEIS resides within the 
Cooperative State Research, Education, and Extension Service's Science 
and Education Resources Development division. This provides for 
effective integration of the Current Research Information System, the 
Food and Agricultural Education Information System, and appropriate 
extension data bases. CSREES is working closely with all REE agencies 
and with the university system via a cooperative agreement with the 
University of Arkansas. We hope also to use the Intergovernmental 
Personnel Act to secure an IPA from another university to carry out 
REEIS essential management responsibilities. In addition, a process is 
underway to engage a private sector firm specializing in public-sector 
information systems to design, develop, test, and implement REEIS.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. It is anticipated that REEIS can be operational by the 
year 2000. The current appropriation of $400,000 will cover start-up 
costs such as establishment of a National Steering Committee, 
preparation and specifications for contracting with an outside firm, 
selection of a contractor, a needs assessment, identification of 
functional requirements, a draft plan for designing and developing the 
system including recommendations for in-house hardware, operating 
system, and software programs. The $600,000 increase request for FY 
1998 will allow for implementing, testing, and refining a prototype, 
including preparation of an operations manual and a full-scale 
implementation and maintenance plan.
    The Research, Education, and Economics Information System meets a 
high priority national need for a continuing national information 
system. REEIS is being designed to meet the data information needs of 
all REE agencies and their university and private sector cooperators. 
It will link data systems on research, education, extension, and 
economics. Therefore, annual maintenance costs will be ongoing.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted? Provide a summary 
of the last evaluation conducted.
    Response. An evaluation of Research, Education, and Economics 
Information System is not appropriate at this early stage of 
development.
                     geographic information system
    Mr. Skeen. Please provide a description of the research that has 
been funded under the geographic information system program.
    Response. The program is designed to transfer evolving geographic 
information systems technologies to state and local governments. This 
technology--and in particular--the related technologies including 
Internet access for information, data bases, and telecommunication for 
cooperative system development are sufficiently complicated that most 
of the people familiar enough with them to serve as effective transfer 
agents are researchers. The current program is being carried out by a 
non-profit corporation, The National Center for Resource Innovations 
whose directors and participants are the sub-contractors who are 
carrying out the program. These sub-contractors range over a wide 
spectrum of sizes and special areas of site based expertise involving 
different Departments in four academic institutions, one regional 
development authority and one non-profit corporation working on agro-
environmental problems in the Chesapeake Bay. A new site at the 
University of New Mexico has been added by the Board this year. This 
unique institutional arrangements has helped fill a unique role in 
linking some of the otherwise balkanized efforts of agencies and 
academic institutions and now seven regions of the country.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The principal researcher believes few national programs 
have impact without translation to the local environment, including 
either regional, state, or local government level. Much progress has 
been made in developing computer based information systems ranging from 
data on transportation systems to the quantity of a resource. Given a 
geographic dimension, these information systems provide an invaluable 
vehicle for sharing information over the various levels of government 
and even facilitate the integration of disparate data. The work of this 
project is needed to transfer this technology to state and local 
governments whose limited training budgets and sometimes isolated 
location make it difficult to use the latest technology. The technology 
developed in this program is useful in improving the management of our 
natural resources. While concentrating on issues related to 
agriculture, the independent, non-profit nature of the National Center 
for Resource Innovations facilitates linkages across disciplinary and 
institutional barriers, make it possible to use work at the state and 
local levels which was initiated at the Federal level. While the early 
phases of GIS concentrated on building information systems related to 
rural physical and natural resources, the current challenges is to 
integrate human economic, social and demographic information to better 
understand the relationship of human communities to the landscape. 
There is a need for this to better understand the technology consumer. 
In addition, there is a need for integrated information about other 
biological system including insects, plants, and animals as we extend 
our work to include whole farm management within an ecosystem-based 
environment.
    In the context, newer high capacity technologies are also beginning 
to provide other dimensions--those of high level time related 
phenomena, including weather-associated transport of biological 
materials and their relationship to food producing systems. CSREES has 
funded seminal research in integrated pest and animal management in the 
1970's and 1980's. At the other end of the spatial scale, the role of 
the public sector in geographic information system based precision 
farming technologies, data capture, and information synthesis as the 
subject of a current study group.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this work was to serve as a pilot 
project for the transfer of geographic information systems technology 
to local governments as related to natural resources. It has carried 
out this function in a useful way. With impetus from this project and 
similar efforts economic and biological data are being presented in 
maps fashion useful to state and local governments and individuals. 
This project has provided the impetus and linkages to facilitate 
planning work done in South Georgia with some assistance given to local 
tax assessment and parcel identification by a Department of Commerce 
sponsored Economic Development Authority. The Chesapeake project has 
linked seven state conservation entities in an effort to develop better 
watershed models and decision support systems. The Arkansas portion of 
the project has focused on training to educate county employees with 
regard to the technology of geographic information systems and 
geographic positioning systems. The University of Wisconsin has 
continued to simultaneously support the high technology end of the 
evolution of new tools and seek new ways to implement change while 
measuring the impact of such implementation. The work in North Dakota 
has continued to focus on geographically referenced real time weather 
information for payments and others. And, in the smallest of the 
efforts under this program, the efforts at Central Washington have 
provided training for a number of State personnel and others from 
various levels and institutions on how to utilize geographic 
information systems.
    It is anticipated that the fiscal year 1997 grant will support work 
under this program through March 1998. The proposal for this work in 
1996 has been received and reviewed.
    Mr. Skeen. How long has this work been under way and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1990, $494,000; fiscal year 1991, $747,000; fiscal 
years 1992 and 1993, $1,000,000 per year; fiscal year 1994, $1,011,000; 
fiscal year 1995, $877,000; fiscal year 1996, $939,000; and fiscal year 
1997, $844,000. A total of $6,912,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. For fiscal year 1990 through fiscal year 1996, to date, 
the work in this program had $4,553,252 in non-federal support. In 
fiscal year 1990 non-federal support was $714,940 consisting of 
equipment, data bases, and other miscellaneous contributions from 
foundations, city, and state governments. In fiscal year 1991 non-
federal support was $25,000 from county government. In fiscal year 1992 
non-federal support was $366,016 from county government, computer 
companies, and state governments consisting of equipment, software, 
facilities, and miscellaneous support. In fiscal year 1993, non-Federal 
support was $713,900 consisting of financial and miscellaneous support 
from foundations, county and state governments. In fiscal year 1994, 
the non-Federal support was $713,643. In fiscal year 1995 the non-
Federal support was $987,000. In fiscal year 1996 it was $567,173. It 
is anticipated to be $456,582 in fiscal year 1997.
    Mr. Skeen. Where is this work being carried out?
    Response. The National Center for Resource Innovation Chesapeake 
Bay is located in Rosslyn, Virginia. The group is working under a 
memorandum of understanding with several states of the Chesapeake Bay 
watershed project. The southeastern center, in Valdosta, Georgia, in 
affiliation with the South Georgia Regional Development Center, has 
developed a comprehensive plan for the City of Adel as a model for 
other urban centers in their ten-county region. The southwestern 
center, in Fayetteville, Arkansas serves local governments through its 
training facilities at the University basing is technical approach on 
their expertise and past experiences with the federally developed 
system known as GRASS. They have developed pilot projects for some 
local jurisdictions and state level data bases which they have provided 
online. Central Washington University focuses on training in ARC/INFO 
for state planning and in three local governments and the Yakima Nation 
in the Yakima watershed. The north central center in Grand Forks, North 
Dakota, in affiliation with the University of North Dakota, focuses on 
relating real time weather data to other spatial attributes. In 
addition, this center has sought to implement ideas developed in other 
centers in the distance learning concept. The University of Wisconsin-
Madison, functioning as the Great Lakes center, continues a long 
history of involvement in the application of this technology at the 
local level with strong focus on soils/land-use and the institutional 
aspects of the integration of a new technology.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original objectives are to build new institutional 
frameworks for developing and disseminating geographic and related 
information to local decisionmakers has been largely completed. Each 
site has developed unique approaches to solving the greatest needs in 
their region for applications of these modern technologies and many 
innovative applications of these techniques have been implemented. New 
technologies, including Internet based educational and information 
exchange have created tremendous demand among National Center Resource 
Innovations' customers to expand its program to include these new 
technologies in order to bring their primarily rural users into new 
eras of public education and information management. Last year, 
National Center Resource Innovation became a valued educator about the 
public roles in and information needs for precision farming. The 
Center's view is that information that can sustain individual farmer's 
decisions can also be extended to the needs of thelocal public 
agencies. Integrating temporal information such as weather, and 
satellite imagery--is needed by everyone who needs to model future 
effects of their decision upon land processes. The Center is moving 
forward into these new territories to facilitate many of the newest 
initiatives of federal agencies who must work together to build modern 
systems for public policy. As resources continue to be used and 
planning continues to be required; as technology continues to evolve, 
systems, knowledge and decisions must continue to get better. It is 
reasonable to assume that while the need exists for the latter, a 
definitive completion date for the Center's work may not exist.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. No formal evaluation of this project has been developed 
by CSREES. In addition, each Center site prepared a cost-effectiveness 
study. Each site developed the study using the help of external users. 
The study found that for each federal dollar expended on this program, 
$7.40 in value was realized. The analysis will be repeated for fiscal 
year 1997.
                     gulf coast shrimp aquaculture
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Gulf Coast Shrimp Aquaculture grant.
    Response. Work under this program has addressed important research 
needs necessary for the development of a U.S. marine shrimp farming 
industry. Studies have been conducted on growout intensification, 
prevention and detection of diseases, seed production, and the 
development of high health and genetically improved stocks. Performance 
trials on selected stocks in various production systems have been 
conducted. Seed production systems have reached commercial feasibility. 
Protocols for viral detection have been improved and have led to the 
development of specific pathogen free stocks of commercial importance. 
A number of important viral pathogens of marine shrimp have been 
identified. Researchers have responded rapidly to viral infections that 
have severely impacted the U.S. shrimp farming industry. Researchers 
will intensify efforts aimed at preventing new introductions of exotic 
viral pathogens. In fiscal year 1997, emphasis will be placed on the 
industry seed supply, disease control, environmental quality, and 
production systems.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The principal researcher indicates that there is 
potential to enhance domestic production of marine shrimp through 
aquaculture in order to reduce the annual trade deficit in marine 
shrimp, which is approximately $2 billion. Research could improve the 
supply of high quality seed, improve shrimp health management, and 
enhance production efficiency in shrimp culture systems. The U.S. has 
the opportunity to become a major exporter of shrimp seed and 
broodstock, and disease control technologies, products and services. 
Increased efforts are needed to prevent the introduction and spread of 
a number of exotic viral pathogens of shrimp.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal was to increase domestic production of 
marine shrimp through aquaculture. Studies have been conducted on 
growout intensification, prevention and detection of diseases, seed 
production, and the development of specific pathogen free stocks. 
Commercially viable shrimp seed production systems have been developed. 
Diagnostic techniques for a number of important viral pathogens have 
been developed. High health genetically improved stocks are being 
developed and evaluated under commercial production conditions. 
Researchers have responded to severe disease outbreaks caused by the 
introduction of exotic viral pathogens into U.S. shrimp farms. In 
addition, scientists are currently developing biosecurity protocols to 
prevent additional introductions of viral disease agents.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. Grants have been awarded from funds appropriated as 
follows: fiscal year 1985, $1,050,000; fiscal year 1986, $1,236,000; 
fiscal year 1987, $2,026,000; fiscal year 1988, $2,236,000; fiscal year 
1989, $2,736,000; fiscal year 1990, $3,195,000; fiscal year 1991, 
$3,365,000; fiscal year 1992-1993, $3,500,000 per year; fiscal year 
1994, $3,290,000; fiscal year 1995, $2,852,000; fiscal year 1996, 
$3,054,000; and fiscal year 1997, $3,354,000. A total of $35,394,000 
has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The U.S. Marine Shrimp Farming Consortium estimates that 
non-federal funding for this program approaches 50 percent of the 
Federal funding for fiscal years 1991-1996. The source of non-federal 
funding is primarily from state and miscellaneous sources. In-kind 
contributions from the industry were not included in this estimate, but 
are substantial as the program is dependent upon industry cooperation 
to carry out large scale commercial trials.
    Mr. Skeen. Where is this work being carried out?
    Response. The work is being carried out through grants awarded to 
the Oceanic Institute, Hawaii and the Gulf Coast Research Laboratory in 
Mississippi. In addition, research is conducted through subcontracts at 
the University of Southern Mississippi, Tufts University, the Waddell 
Mariculture Center in South Carolina, the Texas Agricultural Experiment 
Station, and the University of Arizona.
    Mr. Skeen. What was the anticipated completion date for the 
original objective of the project? Have those objectives been met? What 
is the anticipated completion date of additional or related objectives?
    Response. The anticipated completion date for the original specific 
research objective was 1987. The original specific objectives have been 
met, however broader research goals have not been met. Researchers 
anticipate that the specific research outlined in the current proposal 
will be completed in fiscal year 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates the progress of this program on an 
annual basis. The institutions involved in this program submit a 
detailed accomplishment report each year prior to the submission of the 
new grant proposal. In addition, the agency conducts an in-depth on 
site review of the program every three years. The 1997 review of the 
program indicates that the progress during the last twelve months has 
been well documented; close linkage between the research and the U.S. 
shrimp farming industry has greatly enhanced the commercialization of 
research findings; and the proposed research represents a logical 
progression of previous work conducted under the program.
        national education center for agricultural safety, iowa
    Mr. Skeen. Please provide a description of the research that has 
been funded under the grant.
    Response. CSREES has requested the college to submit a grant 
proposal that has been received. The proposal is currently being 
reviewed. The Northeast Iowa Community College is requesting funding 
for a national center for agricultural safety education. The center 
will conduct a safety training needs assessment of workers and 
employees involving in production agriculture, plan, implement, and 
evaluate training on safety and health issues derived from the needs 
assessment, and provide hands-on training for farm accident rescue.
    Mr. Skeen. According to the research proposal, or principal 
researcher, what is the national, regional, or local need for this 
research?
    Response. The National Safety Council estimated that 800 
agricultural work deaths occurred in 1995. Of these deaths 55 percent 
resulted from unintentional injuries suffered in farm tractor 
overturns. Another 140,000 disabling injuries were recorded in 1995 in 
agricultural work incidents. Many of these injuries resulted from farm 
machinery entanglements, working with livestock, and highway collisions 
between farm machinery and vehicles. Emergency medical services 
personnel are often exposed to the same hazards as the victims they are 
attempting to rescue. Emergency medical services personnel must be 
prepared to deal with these hazards under stressful environmental 
conditions.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of this research is to provide on-site, hands-on 
training of emergency response personnel who may be called on to 
respond to a wide range of agriculture related accidents and 
emergencies. Participants in the short course offered by the center 
would than be prepared to pass on their knowledge to others when they 
return to their communities. There are no accomplishments to date.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant begins in fiscal year 
1997 and the appropriation for fiscal year 1997 is $300,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
are as follows: $1,000,000 state appropriations, and $65,802 
miscellaneous in fiscal year 1997.
    Mr. Skeen. Where is this work being carried out.
    Response. Research will be conducted at the Northeast Iowa 
Community College, Peosta, Illinois.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have these objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated completion date for the original 
objectives is September 30, 1997.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. There has been no evaluation of this project yet as it is 
to be newly funded in 1997.
                  mississippi valley state university
    Mr. Skeen. Please provide a description of the project that has 
been funded under the Curriculum Development and Strengthening-
Mississippi Valley State University grant.
    Response. Funds were used to strengthen academic programs, 
including accreditation and reaccreditation. Of the ten programs 
eligible for accreditation, nine have been accredited. Assessment of 
the criteria has begun for the remaining eligible program. Academic 
programs have been broadened to include more agriculture-related 
courses consistent with the needs of students from the Mississippi 
Delta, students from other parts of the State, as well as out-of-state 
students. Curriculum additions have had a positive impact on student 
enrollment. Courses continue to be modified to reflect the needs of 
graduates as well as employers in the Mississippi Delta, with 
particular emphasis on those areas that employers have the greatest 
need. The funds continue to provide enhancements related to other 
program and administrative support areas that positively impact program 
delivery and administration at Mississippi Valley State University.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The primary need for this project is to satisfy a local 
need. The need is for strengthening university capacity and curriculum 
development at Mississippi Valley State University. Degree programs in 
Accounting, Mass Communications, Music and Public Administration have 
been added since the 1988 plan was developed. The Criminal Justice 
program has been developed into a departmental unit with social work in 
order to provide for improved administration and academic counseling. A 
master's program in Criminal Justice is now offered. The baccalaureate 
major in chemistry and the master's program in Elementary Education 
have been reinstated.
    Mr. Skeen. What was the original goal of this project and what has 
been accomplished to date?
    Response. The original goal was to provide funding to strengthen 
the academic programs of the university. The academic programs have 
been strengthened as evidenced by student recruitment, which has 
improved to show a positive ratio between applications received and 
students admitted. Approximately one half of the applicants are 
enrolled. Increased quality of instruction and programs have benefitted 
students. This is reflected in the higher graduation rate, increased 
student enrollment, enriched faculty and improved community 
relationship.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. This program was initiated in fiscal year 1987. Grants 
have been awarded from funds appropriated as follows: fiscal year 1987, 
$750,000; fiscal years 1988 and 1989, $625,000 per year; fiscal year 
1990, $617,000; fiscal year 1991, $642,000; fiscal years 1992 and 1993, 
$668,000 per year; fiscal year 1994, $593,000; fiscal year 1995, 
$544,000; fiscal year 1996, $583,000; and fiscal year 1997, $565,510. A 
total of $6,880,510 was appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Mississippi Valley State University received State and 
private funding during the period of this grant. The State figures 
provided here are for enhancement funds provided in addition to the 
University's standard formula generated funds. The sources and amounts 
are as listed:

                                                     SOURCE                                                     
----------------------------------------------------------------------------------------------------------------
                           Fiscal year                                 State          Private          Total    
----------------------------------------------------------------------------------------------------------------
1987............................................................               0        $168,640        $168,640
1988............................................................               0         186,036         186,036
1989............................................................         $68,658         190,258         258,916
1990............................................................         207,879         369,358         577,237
1991............................................................         333,263         337,700         670,963
1992............................................................         349,427         470,220         819,647
1993............................................................          35,750         358,680         394,430
1994............................................................         590,890         568,970       1,159,860
1995............................................................         841,654         530,300       1,371,954
1996............................................................       1,197,917         590,824       1,788,741
----------------------------------------------------------------------------------------------------------------

    Mr. Skeen. Where is this work being carried out?
    Response. These funds are intended to strengthen programs at 
Mississippi Valley State University. The program has been carried out 
on the campus at Itta Bena and at off-campus sites in Anguilla and 
Greenville and the Greenwood Center since the Spring Semester of 1996.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The objectives of the current grant will be completed by 
September 30, 1997.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The program has been evaluated on an annual basis by the 
agency. The annual progress report for fiscal year 1996 revealed steady 
progress in the academic programs. For example, the Social Work 
Department had significant positive changes in the quantity and quality 
of the faculty. The Business Department offered a component dealing 
with Agricultural land lease in the business law classes and the other 
classes had topics on input and output analysis, agricultural 
stimulations and initial farm planning.
                 pm-10 study, california and washington
    Mr. Skeen. Please provide a description of the research that has 
been funded under the PM-10 study, California and Washington research 
grant.
    Response. The research on PM-10 is being conducted by scientists at 
the University of California-Davis and Washington State University. The 
California program has focused on developing and refining methods to 
accurately measure and detect the sources of PM-10 emissions from 
various agricultural practices, and to investigate alternative 
practices for reducing potential air pollution on susceptible 
California crops and soils. In addition, the California project is also 
measuring PM-2.5 and even more refined size distributions, as well as 
identifying the constituents in all emissions samples in order to 
better characterize the size distribution and possible sources of the 
emissions. The Washington State University scientists are using refined 
instruments on field sites to measure and predict the effects of wind 
erosion and agricultural practices in the Columbia River Basin region 
on PM-10 emissions, with the assistance of a portable wind tunnel. 
Alternative cropping systems, tillage practices, rotations, and weed 
control practices are being developed and compared for control of PM-10 
emission pollution under Columbia River Basin conditions.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes there has been growing 
national concern over the potential health and safety aspects of air 
pollution from dusts and suspended particulate matter, resulting in 
passage of the 1990 Clean Air Act which requires the monitoring and 
control of such pollution. Because of particular problems from PM-10 
emission in the arid regions of the Western U.S., more accurate 
information is needed on the role of agricultural operations in 
intensively cultivated soils in California and the Columbia River 
Basin, as sources of PM-10 pollution, in order to assist growers to 
develop alternative agricultural management practices to control PM-10 
emissions.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goals of this research were to measure the 
PM-10 emission rates from significant crop and tillage practices, to 
determine the source of PM-10 emissions on soils in agricultural 
regions of southern California and the Columbia River Basin in the 
Pacific Northwest, and to explore cost-effective alternative 
agricultural practices to control these emissions. The third year of 
field measurements are being completed on PM-10 emissions on production 
practices on almonds, figs, walnuts, wheat, and from dairy farms and 
feedlots in California, and on a number of agricultural practices in 
the rainfed and dryland croplands in the Columbia River Basin. 
Susceptible climatic and soil conditions and tillage and cropping 
practices have been identified and are being used to develop prediction 
tools to assist growers to adopt alternative practices to reduce 
potential air pollution by PM-10 particulate emissions. Measurements 
continue to be taken in these areas. In addition, preliminary efforts 
are underway to collect ammonia samples. This is important because the 
peaks in PM-10 emissions in California occur in December and January. 
Plans have also been developed to study the impacts of land preparation 
techniques on emissions.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The work supported by this grant began in March 1994. The 
appropriation for fiscal year 1994 was $940,000; fiscal year 1995, 
$815,000; and for fiscal years 1996 and 1997, $873,000 per year. A 
total of $3,501,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The program is matched by State funds in the form of 
salaries, benefits, and operating costs.
    Mr. Skeen. Where is this work being carried out?
    Response. This work is being directed by participating scientists 
at the University of California-Davis, and at the Washington State 
University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated completion date of the original 
objectives of this project is 2000. The first four objectives of the 
project on soil particle characterization are nearing completion. The 
objectives on field control will continue. Quarterly reports on the 
entire project to date are available.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency's Program Manager annually reviews the 
research progress reports and proposed new research, and attends the 
annual meetings of the program to assess progress. The program is also 
evaluated each year by technical, administrative, and agency personnel. 
Progress is reported at research review meetings three times a year. 
Printed reports are available from each meeting. Grower and public 
advisory committees are consulted for input on research progress and 
objectives.
                      rural partnerships, nebraska
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Center for Rural Studies grant.
    Response. The Rural Partnership Project is a comprehensive effort 
to transform the way that Federal, State, and local institutions 
deliver education and services to rural constituents. It is designed to 
address the issues of mandates; community strategic planning and 
project implementation, impact of devolution on local governments; 
profiling of rural constituents as to challenges, gaps in services, and 
opportunities; impact modeling; and sustaining development 
organizations.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researchers believe delivery and evaluation 
of programming delivered by Federal agencies is undergoing significant 
transitions. Research needs to direct the most effective and efficient 
means of program delivery and impact. This project is designed to 
provide insights and experience in alternative delivery formats in 
conjunction with partners at local, state, regional, and federal 
levels.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of this research was to provide 
guidance in the delivery of information, technical assistance, strategy 
related to rural economic development. Nebraska has transformed many of 
its education and service delivery formats based on this applied 
research activity. This project received Vice-President Gore's ``Hammer 
Award'' in December 1996.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The work supported by this grant began in fiscal year 
1996 and the appropriation for FY 1996 and FY 1997 was $250,000. A 
total of $500,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Non-federal funds were limited to staff and researcher 
support.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at the University of 
Nebraska.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. This is an on-going research activity. The project which 
was begun in 1996 is now demonstrating early impacts of restructured 
delivery and implementation approaches for programs. The existing 
project is scheduled for completion September 30, 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates merit of research proposals as 
submitted. No formal evaluation of this project has been conducted.
                        water quality--illinois
    Mr. Skeen. Please provide a description of the research that has 
been funded under the water quality program grant.
    Response. The Illinois Groundwater Consortium grew out of a FY 1990 
appropriation of $500,000 to Southern Illinois University at Carbondale 
to focus on the short- and long-term effects of agricultural chemical 
contamination on the environment, the groundwater, and ultimately, 
human health and welfare. As a result of this appropriation, the 
University joined forces with the Illinois State Geological Survey, 
Illinois State Water Survey, University of Illinois Cooperative 
Extension Service, and the University of Illinois Agricultural 
Experiment Station to create the Illinois Groundwater Consortium. The 
Consortium's primary mission, then and now, is to effectively work 
toward providing a scientifically-valid basis upon which meaningful 
agricultural chemical management and regulatory decisions can be based. 
The Consortium has worked to address the concerns of the agricultural 
and agrichemical industries as well as the valid concerns of the 
agencies charged with protection of environmental quality. Examples of 
topics currently under study include:
    1. Flood-Induced Loading of Agricultural Chemicals to Public Water 
Supply Wells in Selected Reaches of the Illinois River
    2. Development of a Conceptual Framework for Sustainable Ecosystem-
Based Management of Floodplains Along the Mississippi River
    3. The Impact of Flooding on the Water Quality of an Alluvial 
Aquifer at Henry, Illinois: First-Year Progress
    4. Conservation Compliance and Agricultural Producers in the Corn 
Belt: Implications for Strategic Planning and Policy Implementation
    5. Transport and Fate of Agrichemicals in an Alluvial Aquifer 
During Normal and Flood Conditions: A Preliminary Study
    6. Nitrogen Dynamics of Agricultural Watersheds in Central Illinois
    7. Assessing the Reliability and Stability of Policies to Reduce 
Agricultural Chemicals in Public Water Supplies
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes that, as the Consortium 
enters its seventh year, the FY 1997 appropriation is targeted to 
research pertaining to the impacts, recovery, and remediation of the 
Midwestern region after flooding. The 1993 and 1995 flooding of the 
Mississippi, Missouri, and Illinois Rivers, and their tributaries, 
created devastating effects on the farm lands, communities, and natural 
resources of the area. These effects have major implications for 
agricultural practices, water quality, and public policy decisions. 
This natural catastrophe has resulted in a need for further studies 
examining the impact of the flooding on surface/groundwater, soils and 
their rehabilitation, biodiversity, and on economic and public policy 
in the region. In addition, there is the need to disseminate results to 
the public to enable the Consortium findings to be beneficial in the 
near term to those needing the information. To facilitate this work, 
the Consortium expanded its participant institutions in 1995 to include 
Southern Illinois University at Edwardsville. Southern Illinois 
University at Edwardsville's strategic location in the heart of the 
flood damage area, as well as its qualified research scientists who 
work in the Consortium's high priority research areas, will strengthen 
the capabilities of the Consortium. The highest priorities of the 
Consortium is the funding of research upon which public policymakers 
working on land use or groundwater protection issues in flood plain 
areas can base decisions, and the broad dissemination of this 
information.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The Illinois Groundwater Consortium was established to 
coordinate and support research on agricultural chemicals in Illinois 
groundwaters. The research team has accomplished an improved 
understanding of the fate and movement of agricultural chemicals under 
Illinois crop production conditions. A publication supported by the 
Consortium entitled, ``Buried Treasure: 50 Ways Farmers Can Protect 
Their Groundwater,'' has received widespread acceptance and use for lay 
audiences.
    The Illinois Groundwater Consortium has accomplished a major step 
toward coordination and exchange of information/research results 
relating to groundwaters in Illinois. The Groundwater Bulletin reports 
research results from the Consortium. The Bulletin reports on atrazine 
studies, nitrogen management, farming practices for more efficient 
chemical use, geological impacts and policy options to safeguard 
groundwaters.
    The Consortium investigators took an active role in monitoring and 
investigating herbicide, pesticide and coliform impacts during and 
after the Mississippi River Flood of 1993. The research continues today 
on the long-term impacts of flooding and management of the affected 
areas. The findings from this study will be useful in restoring the 
flooded cropland to full productivity and in establishing a base upon 
which policy management decisions can be made.
    The Consortium annually publishes a proceedings of its annual 
conference. The 1996 Proceedings of the Sixth Annual Conference 
contains 320 pages of research results. The Consortium represents an 
exceptionally productive cooperative effort involving several 
universities and agencies.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Research grants have been awarded from funds appropriated 
as follows: fiscal year 1990, $494,000; fiscal year 1991, $600,000; and 
fiscal years 1992-1993, $750,000 per year; fiscal year 1994, $666,000; 
fiscal year 1995, $460,000; and fiscal years 1996 and 1997, $492,000. A 
total of $4,704,000 has been appropriated.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The non-federal funds and sources provided for this grant 
were as follows: $255,891 state appropriations in 1991; $447,237 state 
appropriations in 1992; $644,054 state appropriations in 1993; and 
$623,124 state appropriations in 1994. Non-federal and state funds for 
1995 and 1996 have exceeded the federal funds.
    Mr. Skeen. Where is this work being carried out?
    Response. The work is being carried out by the Illinois Groundwater 
Consortium and coordinated by the Carbondale campus of Southern 
Illinois University. The research is being conducted by staff at the 
University of Illinois, Southern Illinois University, the Illinois 
State Geological Survey and the Illinois Water Survey at locations 
across the State.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The project was planned as a five-year study of the 
impacts and recovery of flooding in the Midwest. In the original 
proposal and subsequent proposals, we identified both short-term 
objectives which are project goals that could be accomplished within 
one to two years and long-term objectives which are project goals that 
could be accomplished within two to five years. In calendar year 1996, 
we completed two years of studies involving 26 projects, and in 
calendar year 1997, we will begin eight new projects. These projects 
are spread across areas identified as high priority, including studies 
of flood impacts on soil productivity and remediation, movement of 
chemicals in water and soils, bacteria and microbial life, plants and 
aquatic life, and on public policy impact. Progress in meeting short-
term and long-term objectives has been excellent. The most complex task 
is coordinating research projects on flood issues involving multiple 
issues, such as biological, social, economic and political issues, 
where effective solutions await the expansion of research databases. It 
is anticipated that the projects will be completed in the year 2000.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. From its beginning, the projects funded through the 
Illinois Groundwater Consortium involve reviews by at least three 
faculty/researchers drawn from 27 different universities, state and 
federal labs and surveys, USDA research laboratories, and other 
research centers. This review system enables the IGC Advisory Committee 
to select projects with scientific merit from the group of proposals 
submitted for funding consideration. The titles, principal 
investigators names and affiliations, and budgets are submitted to USDA 
for review along with the IGC proposals for funding.
                      water quality--north dakota
    Mr. Skeen. Please provide a description of the research that has 
been funded under the water quality program grant.
    Response. The overall objective of the research is to develop an 
understanding of the occurrence, transport and fate of agricultural 
chemicals found in representative field settings in the Northern Great 
Plains region of the United States. The ultimate goal is to provide a 
scientifically valid basis for management and regulation of these 
chemicals. This past year, the scope of the program was expanded to 
include water management issues in the Red River of the North drainage 
basin. The Red River Water Management Consortium, a partnership between 
public and private sectors, was established to address critical water 
quality and quantity issues in an area where agriculture is the 
predominant industry. A major objective of the Consortium program is to 
utilize results from the initial phases of this research program to 
find economical, practical, and timely technological solutions to water 
supply and water quality problems. By providing co-funding for the 
program. Red River Water Management Consortium members become active 
stakeholders in the research. This partnership ensures the practicality 
of the research performed and provides a model for the wise stewardship 
of water resources in other drainage basins in the United States.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The principal researcher believes that the nation needs a 
scientifically valid basis upon which meaningful agricultural chemical 
management and regulatory decisions can be made. Chemicals in 
groundwater present both a public health problem and an environmental 
quality problem of significant short-term and long-term importance on a 
local, regional and national scale. In addition, the principal 
researcher has established a water management consortium consisting of 
industry, municipalities, and other entities in partnership with state 
and Federal governments as a mechanism for transferring the results of 
this research program to the public.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal of the research program was to 
understand the occurrence, transport, and fate of agricultural 
chemicals in representative field settings in the northern Great Plains 
region so that scientifically valid decisions could be made for their 
management and regulation. Work on five of the seven sites originally 
instrumented under this program has been completed. Research at the two 
remaining sites is directed toward answering questions that have arisen 
during the course of this research program, specifically to determine 
the long-term trends in nitrate concentrations in a surficial aquifer 
under irrigated agriculture and to determine the source and trends for 
sulfate in a similar setting.
    Results from this program have been reported in journals, 
conference proceedings, and through presentations at national, state, 
and local meetings. To date, more than 40 presentations or publications 
have been made. In addition, two doctoral dissertations and one 
master's thesis have resulted from this program. Examples of important 
results have obtained from this research include the following:
    1. An understanding of agricultural chemical occurrence in 
groundwater as determined by physical, chemical, and biological 
processes, transport mechanisms, management practices, and climatic 
factors.
    2. Nitrate contamination of groundwater in the northern Great 
Plains region of the United States is of even greater concern than 
pesticide contamination.
    3. Biological denitrification is an extremely important process 
that determines the occurrence and distribution of nitrate and sulfate 
in aquifers in the northern Great Plains region.
    4. Preferential flow mechanisms control the movement of water and 
contaminants in glaciated settings. Widely used flow models that do not 
account for preferential flow can severely underestimate the travel 
time and depth of contaminants.
    5. Transport of pesticides on airborne particulate matter may 
present a major health threat and is an extremely important and poorly 
understood mechanism for the movement of pesticides to groundwater 
recharge areas.
    Finally, the researchers have established the Red River Water 
Management Consortium as a mechanism for transferring the results of 
the initial research to vested stakeholders in the region and to the 
general public in order to address water quantity and quality problems 
resulting from agricultural practices and agricultural development. 
Sustainable agricultural development throughout the United States must 
rely on a far better understanding of our water resources and the 
application of new water management technologies to address changes in 
the agriculture industry.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. In 1989, $1.0 million was appropriated under the ground 
water research program. Beginning in 1990, funds have been earmarked 
under the Direct Federal Administration program. Work supported by this 
grant was initiated in fiscal year 1990 with an appropriation of 
$987,000. Subsequent appropriations have been $750,000 in fiscal year 
1991, $500,000 per year in fiscal years 1992-1993; $470,000 in 1994; 
$407,000 in fiscal year 1995; and $436,000 in fiscal years 1996 and 
1997. A total of $5,486,000 has been appropriated for this water 
quality research program.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Red River Water Management Consortium members provide 
cofunding to support their participation in the program. Cofunding 
provided by Red River Water Management Consortium members for fiscal 
year 1996 totaled $59,700. Interest in this program is growing, and it 
is anticipated that at least $80,000 in cost- share will be obtained 
during the 1997 fiscal year through membership fees. These funds are 
provided directly to the program and do not include in-kind costs 
incurred by the participants. In-kind costs incurred by the 
participants are estimated to be several hundred thousand dollars, 
although this estimate cannot be verified at this time.
    Field activities to determine the long-term trends of nitrate and 
sulfate and to determine the source of sulfate are being conducted in 
cooperation with the North Dakota State Water Commission. Water samples 
collected at the Elk Valley field site are being analyzed at the North 
Dakota State Water Commission laboratory. For this 3-year effort, 1996-
1998, they have estimated a cash-equivalent funding in the amount of 
$33,660. In addition, the North Dakota State Water Commission will 
conduct field sampling for the Energy and Environmental Research Center 
in the summer of 1997 to investigate the source of sulfate found in 
groundwater in the Elk Valley aquifer. They have estimated the cash 
equivalent cost of these services to be approximately $12,000.
    Mr. Skeen. Where is this work being carried out?
    Response. Research is being conducted at the University of North 
Dakota through its Energy and Environmental Research Center and at 
field sites in North Dakota and Montana. In addition, a portion of the 
pesticide research was conducted at North Dakota State University. 
Cooperative efforts have resulted in work also being performed at 
cooperative institution locations such as, University of Waterloo, 
Victoria University, University of Montana, the Red River Resource 
Conservation and Development Council offices, and the North Dakota 
State Water Commission.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The anticipated completion date for the original 
objectives of the project, specifically the field related research, was 
fall 1995. This research has been completed and the sites have been 
decommissioned, with the exception of those relating to long-term 
nitrate and sulfate monitoring and analysis. Work on nitrate and 
sulfate trends and occurrence such as activities resulting from initial 
findings of this research program, is scheduled for completion in 1999. 
The Red River Water Management Consortium was established in 1996 as a 
mechanism for transferring the information derived from this research 
program to the technical community and to the public for use in 
addressing water quality and quantity issues relating to agriculture 
and agricultural development. It is anticipated that Red River Water 
Management Consortium activities will continue for several years in 
order to meet the objectives as defined by the non-federal sponsors and 
the agency.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The last agency evaluation of this project was conducted 
in September 1996. The U.S. Department of Agriculture Technical Project 
Officer, Dr. Maurice Horton, attended a meeting of the Red River Water 
Management Consortium to evaluate and determine the status of this 
effort, which is currently the focus of research program activities. 
Dr. Horton was impressed with the progress made by the Red River Water 
Management Consortium during its first year and believes this program 
is an excellent example of how federal and state agencies, research and 
academic institutions, private industry, and the general public can 
work together to solve problems in an economic manner to benefit 
people, communities, and the nation.
                       beef improvement--arkansas
    Mr. Skeen. Please provide a description of the program that has 
been funded as the Arkansas Beef Improvement Program.
    Response. The Arkansas Beef Improvement Program utilizes beef 
cattle farms to demonstrate cost-effective management practices. An 
Arkansas Beef Improvement Program Executive Committee provides overall 
direction for the program. A second aspect of the Arkansas Beef 
Improvement Program is to inform all Arkansas cattle producers of the 
knowledge gained from the program.
    Mr. Skeen. What is the national, regional or local need for this 
program?
    Response. The project addresses primarily local needs by setting 
goals, evaluating resources and selecting the management practices that 
will help the cattle producer achieve those goals in the decision-
making process.
    Mr. Skeen. What was the original goal of this program and what has 
been accomplished to date?
    Response. The original goal of the Arkansas Beef Improvement 
Program was to enhance the profitability and efficiency of Arkansas 
cattle producers.
    Accomplishments to date include the establishment of demonstration 
farms, collection of benchmark data including soil tests, production 
information, forage analyses and budgets, and renovation of pastures to 
increase grazing capacity. Identification of mineral deficiencies in 
beef cattle have been detected and corrected through proper 
supplementation and ration balancing. Three of the ten farms averaged a 
32 percent increase in pounds of beef sold per animal unit. Various 
management changes including parasite control and forage/pasture 
management have been instituted. Use of a cow-calf enterprise budget 
has helped the producers identify both efficient and inefficient 
management practices and take corrective actions. Additional 
Accomplishments for the Beef Improvement Program:
    Increased the net calf crop percentage from 85.6% to 96.0%--an 
increase of 10.4%.
    Supplemental feed costs decreased by $23.93 per animal resulting in 
a total farm saving of approximately $3,000.
    205-day adjusted weaning weights have increased 7.6%--from 478 to 
514 pounds.
    Preweaning average daily gain has increased 7.5%--from 1.87 pounds 
to 2.01 pounds.
    Weaning weight efficiency increased 5.1%--from 45.4% to 47.7%.
    Production costs decreased 36.9%, with the break-even cost per 
pound of beef sold decreasing from $.60 to $.50.
    Mr. Skeen. How long has the program been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. $184,000 has been devoted to this project from fiscal 
year 1993 through 1996 for a total of $736,000. In fiscal year 1997, 
$197,000 has been appropriated for this project for a total funding 
amount of $933,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. $95,000 has been provided by the state of Arkansas.
    Mr. Skeen. Where is the work being carried out?
    Response. Ten Arkansas demonstration farms were selected, one in 
each of ten counties, to reflect the different types of cattle 
operations and cattle producers in the area. Farm sizes ranged from 140 
to 920 acres with an average of 360 and herd sizes ranged from 20 to 
170 head, averaging 66 head per farm.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The Arkansas project started with 6 demonstration farms 
in 1992 and added 4 more farms in 1993. When the farms were selected, 
it was agreed the Extension team would work with the Arkansas cattle 
producers for 5 years. Therefore, the first 6 demonstration farms 
completed the program at the end of 1996, and remaining 4 farms will 
complete the program at the end of 1997. Data from the final year will 
be collected and summarized for evaluation. The objective of the 
Arkansas program was to demonstrate cost-effective management 
practices. The Arkansas Beef Improvement Program has been very 
successful with achieving its objectives.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. A CSREES review of the project is conducted annually. The 
1996 review noted the project is taking a sound approach to improving 
beef production efficiency and profitability in Arkansas. The review 
complimented the approach by the project to disseminate the results 
widely through publications and educational programs for the benefit of 
other producers in Arkansas and beyond.
                         delta teachers academy
    Mr. Skeen. Please provide a description of the program that has 
been funded under the Delta Teachers Academy project.
    Response. The Delta Teachers Academy, which operates out of offices 
located in New Orleans, Louisiana, is conducted by the organization 
known as the National Faculty, headquartered in Atlanta, Georgia. It 
should be noted that our State Extension partners are not involved in 
this project. The National Faculty Delta Teachers Academy was launched 
in 1992 with a pilot grant of $500,000 from the United States 
Department of Education. The United States Department of Agriculture's 
funding for the project began in 1994. The Delta Teachers Academy 
project is providing approximately 645 teachers at 40 sites throughout 
the seven Lower Mississippi Delta states with development opportunities 
by teaming them with university scholars in on-site sessions and 
residential summer institutes. The subjects focused on during these 
training opportunities are English, geography, history, mathematics, 
and science.
    Mr. Skeen. What is the national, regional, or local need for this 
project?
    Response. According to the grant recipient, the 219-county area 
comprising the Lower Mississippi Delta region has been cited in reports 
by the Educational Testing Service and the National Center for 
Education Statistics as notably lagging in student performance in core 
academic areas. In 1989, Volunteers in Service to America characterized 
the area as the poorest region in the country. According to the 
Southern Regional Education Board, at least five of the Delta states 
have 20 percent or more of their school-age populations in poverty, 
with Mississippi topping the list at 34 percent. In its report to 
Congress in 1990, the Delta Development Commission cited serious 
educational problems including poor student performance in core content 
areas, demoralized teachers with little or no opportunity for academic 
development, and region-wide difficulty in recruiting and retaining 
qualified teachers. The Commission also stressed the links between 
these problems and the pervasive poverty and depressed economic 
conditions that characterize much of the seven state Delta region. The 
Commission's report also cited that 75 percent of the region's 
workforce lacks the basic reading skills necessary for technical 
training and specifically cites the need for improved teacher training 
as one means for breaking the cycle of poverty and economic non-
competitiveness.
    Mr. Skeen. What was the original goal of the program and what has 
been accomplished to date?
    Response. The original and continuing goal of the project is to 
address the problem of insufficient professional development 
opportunities for the elementary and secondary teachers of the seven-
state region. The Academy project has focused on the core subjects of 
English, geography, history, mathematics, and science. Humanities, 
language arts, social studies, reading, civics, and interdisciplinary 
subjects are also covered by some sites. The Delta Teachers Academy 
began by offering educational development activities for 100 teachers 
from approximately 50 rural districts at 10 sites. Training has now 
been expanded to include 645 teachers at 40 sites across the entire 
seven-state region. The project has improved teacher recruitment and 
retention in the region.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. A total of 13,661 million dollars has been appropriated 
to the Department of Agriculture for this project, including 2 million 
dollars in fiscal year 1994, 3.935 million dollars in fiscal year 1995, 
3.876 million dollars in fiscal year 1996, and 3.850 million dollars in 
fiscal year 1997.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. There are no non-federal funds identified for this 
project.
    Mr. Skeen. Where is the work being carried out?
    Response. The Delta Teachers Academy project is coordinated out of 
The National Faculty's Southern Region office in New Orleans, 
Louisiana. The project is being conducted at 40 sites selected from 
within the seven-state Lower Mississippi Delta region including the 
states of Arkansas, Kentucky, Illinois, Louisiana, Mississippi, 
Missouri, and Tennessee.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original objective was to provide three full years of 
training to each faculty term established by the Delta Teacher Academy 
program. Training consists of four two-day academic sessions and one 
two-week summer institute for each team. This objective has been met 
for the original 24 faculty teams first funded under the Fiscal Year 
1994 Department of Agriculture grant. The 15 additional teams 
established in 1995 have received two years of in-service training, and 
the one new team established in Fiscal Year 1996 has received one year 
of training. By the end of the current Fiscal Year 1997 grant, 39 of 
the 40 faculty teams established by the Delta Teachers Academy will 
have met the original objective of the program. Objectives for the 
Fiscal Year 1997 grant include completing training for the 240 teachers 
at the 16 sites established during 1995 and 1996 and expanding 
professional development activities to an additional 340 teachers at 19 
new sites throughout the seven-state Delta region. Additional 
objectives include sustaining professional development activities for 
the 350 teachers at 27 former Delta Teachers Academy sites through a 
new Academy Fellow Program and cultivating 15 to 20 potential sites for 
establishing new programs in Fiscal Year 1998. The anticipated 
completion date for any new program sites established in Fiscal Year 
1997 would be at the end of the year 2000.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. An assessment of the short-term impact of the Delta 
Teachers Academy by Westat, Inc. of Rockville, Maryland was completed 
in May 1995. Westat's study found that the vast majority of 
participants reported that the Academy had met their personal and 
professional needs by renewing their enthusiasm for teaching, improving 
their self-confidence, increasing their sense of professionalism, 
improving their knowledge of specific content areas, enhancing their 
teaching methods, and providing opportunities to interact with peers. 
The study also provided considerable evidence that teachers are 
applying what they have learned from the Academy in their own 
classrooms. For example:
    86 percent said Academy activities had enhanced their knowledge of 
the academic subjects they teach;
    88 percent said the Academy had helped them develop new teaching 
skills and strategies;
    95 percent said they were now better equipped to pursue further 
professional development;
    88 percent said the Academy had prepared them to assume leadership 
roles in their schools;
    89 percent noted changes in their students' work habits, attitudes, 
aspirations, and achievements.
    A United States General Accounting Office review of the Academy's 
programs was also conducted in Fiscal Year 1995. The General Accounting 
Office report--GAO/RCED-95-208 included summary statistics on over 
1,000 teacher evaluations of Academy sessions as well as the General 
Accounting Office's own survey of participants. The General Accounting 
Office found that on average, participants reported that the Academy 
was more effective than any other teacher development program they had 
participated in, was very effective in renewing or enhancing knowledge 
in one or more academic subjects, and was generally effective in 
enhancing the teaching skills and strategies required for teaching 
challenging academic content.
    In addition, a site visit of the Delta Teachers Academy offices in 
New Orleans, Louisiana and of the National Faculty's Summer Institute 
at Tulane University was conducted by the Cooperative State Research, 
Education, and Extension Service's National Program Leader for Higher 
Education and Evaluation, during July 1996. The site visit confirmed 
that participating teachers are very enthusiastic about the Delta 
Teachers Academy program, that the instruction provided by The National 
Faculty's university scholars is on target and appropriate to the K-12 
teachers' needs, and that the facilities are very well suited to 
program requirements. The site visit further confirmed that the Delta 
Teachers Academy has strengthened the participating teachers' ability 
to teach by improving their content knowledge base, helped them become 
leaders of other teachers by requiring them to conduct staff 
development back at their home schools, and had a positive impact on 
student learning. School superintendents report greater student 
enthusiasm, more homework, and higher test scores for students whose 
teachers were in the Delta Teachers Academy program.
                     extension specialist, arkansas
             (extension farm management education project)
    Mr. Skeen. Please provide a description of the program that has 
been funded under the ``Extension Farm Management Education Project.''
    Response. The Federal funds support a small/family farm management 
and marketing education program, headquartered at the South Central 
Family Farm Research Center, a USDA-ARS facility in Booneville, 
Arkansas.
    The program takes research generated at the Center and adapts it to 
management and marketing education programs to meet the needs of small 
family farmers and provides support to county and state extension 
personnel who actually deliver these programs.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
program?
    Response. According to the grant recipients, nearly three fourths 
of all U.S. farms have gross sales less than $50,000. In the 10 state 
area served by the Booneville Center this percentage is even higher. 
Both the research and extension programs are targeted to the needs of 
this small, family farm audience. The eight specific objectives of this 
project cover a variety of management and marketing needs of smaller 
farm operators to help them improve family income through improved 
management and marketing skills.
    Mr. Skeen. What is the original goal of this program and what has 
been accomplished to date?
    Response. The original goal of the program was to develop a small/
family farm management and marketing education program based on the 
research program of the Booneville Research Center, to which considers 
the limitations and potentials faced by small family farmers as they 
decided how to improve farm efficiency and technology use, how to 
minimize risk under severe capital constraints, and how to combine farm 
enterprises on limited acreage to best utilize available family labor 
while minimizing capital investment.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. This project began in fiscal year 1992 with an 
appropriation of $92,000. Subsequent federal funds were $92,000 in 
fiscal year 1993; $92,000 in fiscal year 1994; $92,000 in fiscal year 
1995; $91,080 in fiscal year 1996 and $91,080 in fiscal year 1997. 
Appropriations to date total $550,160.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The Arkansas Cooperative Extension Service has provided 
the following state funds: $59,040 in fiscal year 1992; $55,680 in 
fiscal year 1993; $55,446 in fiscal year 1994; $55,446 in fiscal year 
1995; $54,446 in fiscal year 1996; and $46,364 in fiscal year 1997. 
Nonfederal funds provided to date amount to $324,422.
    Mr. Skeen. Where is the work being carried out?
    Response. The Arkansas Extension Farm Management Program is 
headquartered in Booneville, Arkansas, and serves the 10 south central 
states included in the service area of the ARS South Central Family 
Farm Research Center.
    Mr. Skeen. What was the anticipated date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Response. The original proposal in 1992 was for a 12 month period; 
however the emphasis of the program has shifted as the educational 
needs of the target audience and as the research program of the Center 
have changed. During the current fiscal year, program emphasis is on 
provision of information about alternative farm enterprises and 
updating farm management application software. The current phase of the 
program runs through February of 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. CSREES performed a merit review of this program in 
January 1997 as we reviewed the proposal for 1997. The review concluded 
the project has been successful in meeting the specific educational 
needs of an underserved clientele group. The review also pointed out 
this program serves as an excellent example of cross-agency, and 
public-private, coordination and cooperation.
                   extension specialist, mississippi
    Mr. Skeen. Please provide a description of the program that has 
been funded as the Basic Weather Service for Research and Extension 
Project.
    Response. The Basic Weather Service and Extension project is a two 
phase program. The first year funding will be used to gather and 
disseminate critical agricultural weather data for producers and 
researchers in Mississippi and surrounding states.
    Mr. Skeen. What is the national, regional or local need for this 
program?
    Response. The grant proposal states that the Ag Weather Service 
facility was closed recently at Stoneville, Mississippi. This action 
has created a void in the availability of and access to critical 
weather data that producers and researchers use to make management 
decisions and formulate research projects, respectively.
    Mr. Skeen. What was the original goal of this program and what has 
been accomplished to date?
    Response. This is a first year project and the goal is to collect, 
maintain, and disseminate weather information for producers and 
researchers in Mississippi and surrounding states.
    Mr. Skeen. How long has the program been underway and how much has 
been appropriated by fiscal year through 1997?
    Response. This is a new program which is being planned and 
initiated this year. The first year appropriation is $50,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The State of Mississippi through the Mississippi 
Cooperative Extension Service and Delta Research & Extension Center is 
providing $41,350 in state appropriated funds to support this project 
in 1997.
    Mr. Skeen. Where is the work being carried out?
    Response. The project will be conducted at the Delta Research & 
Extension Center in Stoneville, Mississippi.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of the additional or related 
objectives?
    Response. This project is expected to continue into a Phase II 
program.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. This is a new project being initiated this fiscal year 
and for this reason no evaluation has been conducted yet.
                 income enhancement demonstration, ohio
    Mr. Skeen. Please provide a description of the program that has 
been funded under the ``Income Enhancement Demonstration Project for 
Northwest Ohio.''
    Response. The Federal funds support the Agricultural Business 
Enhancement Center which plays a major role in the development of the 
agricultural sector of Northwest Ohio. The Center provides a variety of 
management training programs, helps farms and other agribusinesses 
develop comprehensive business plans, and facilitates business 
networking.
    Mr. Skeen. According to the research proposal, or the principal 
research, what is the national, regional, or local need for this 
program?
    Response. This grant is targeted to local Northwest Ohio needs. 
Farmers and other agribusiness firms must be able to adapt to a large 
number of major changes affecting the entire food system from the 
farmer to the consumer. These include changes in farm programs, 
globalization of markets, new technologies, information systems, 
consumers' concerns for food safety and nutrition, and society's 
concern for protecting the environment. Individuals, families, firms 
and communities in northwest Ohio need to understand the changes, 
develop and implement effective strategies for managing change.
    Mr. Skeen. What was the original goal of this program and what has 
been accomplished to date?
    Response. The original goal of the project was to help people 
develop new businesses and restructure and expand existing businesses 
in order to enhance incomes in Northwest Ohio. Recent accomplishments 
include several workshops to improve the management and marketing 
capacity of local farms and agribusiness firms. At the close of a 
special workshop of women in agriculture, 75 percent said their 
participation would improve management of the family farm. The Center 
has a major role in examining the feasibility of a new tomato 
processing plant in the region. The Center continues to conduct 
economic research on market opportunities, provide a variety of 
management training programs, help individual farms and other 
agribusinesses develop comprehensive business plans, and facilitate 
networking with businesses in other regions of the United States and 
around the world.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. The project began in fiscal year 1991. Appropriations 
have been as follows: $145,000 in fiscal year 1991; $250,000 in fiscal 
years 1992 through 1995; and $246,000 in fiscal years 1996 and 1997. 
Appropriations to date total $1,637,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. The State of Ohio has appropriated the following funds: 
$35,100 in fiscal year 1991; $72,368 in fiscal year 1992; $56,930 in 
fiscal year 1993; $30,547 in fiscal year 1994; $49,935 in fiscal year 
1995; $51,432 in fiscal year 1996; and $48,664 in fiscal year 1997. 
Non-federal funding provided to date totals $344,976.
    Mr. Skeen. Where is the work being carried out?
    Response. The Agricultural Business Enhancement Center is located 
in Bowling Green, Ohio and serves eight counties in the Toledo 
Metropolitan Area. Project leadership and data analysis is being 
provided by the Department of Agricultural Economics, Ohio State 
University, Columbus, Ohio.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have these objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original proposal in 1991 was for a period of 12 
months. The current phase of the program will be completed in September 
1997.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. CSREES performed a merit review of the project in January 
1997 as it evaluated the project proposal for 1997, and concluded that 
it plays a major role in enhancing the competitiveness of the 
agricultural sector in eight counties of Northwest Ohio and that it has 
been effective in stimulating economic development in that area.
                  integrated cow/calf management--iowa
    Mr. Skeen. Please provide a description of the program that has 
been funded as ``CHIPS: Cow-Calf Integrated Resource Management 
Program.''
    Response. CHIPS is an integrated cow-calf resource management (IRM) 
program which originally targeted an eleven county area in southeast 
Iowa. The intent of the program is to improve the area's rural economy 
by maximizing the profit potential of individual livestock operations. 
The CHIPS concept was also initiated to promote the development of 
forage systems which utilize highly erodible land (HEL), including land 
to be released in the CRP program. The geographical area where CHIPS 
services are offered systematically expanded to over 20 southeast and 
south central Iowa counties through fiscal year 1995. Expansion of the 
CHIPS program in area covered, services offered, and cooperator numbers 
continued to increase in 1996, with technical support expanding to an 
additional 14 counties in east central and southwest Iowa.
    Mr. Skeen. What is the national, regional or local need for this 
program?
    Response. Southeast Iowa contains extensive areas of marginal lands 
which are highly erosive (HEL) and should not be intensively farmed 
with row crops. These rolling hills are capable of producing high 
quality forages and are supportive to the cattle industry. 1996 marks 
the beginning of the release of Conservation Reserve Program (CRP) 
contracts--with thousands of these acres categorized as HEL. CHIPS is 
instrumental in assisting producers as sound management decisions are 
finalized regarding these CRP acres. CHIPS's long-term sustainable 
approach supports cow-calf production on this marginal ground and 
provides one-on-one assistance as economic and production decisions are 
made. The importance of the CHIPS program is highlighted by the current 
depressed economic state of the cow-calf industry. Negative financial 
returns have been a reality over the past 18 months and most economists 
predict this financial environment will continue in 1998.
    Mr. Skeen. What was the original goal of this program and what has 
been accomplished to date?
    Response. The overall goal of CHIPS is to have a positive effect on 
the area's economy by improving the long-term profit potential of the 
local cattle industry. To address this broad project goal, CHIPS has 
set forth the following objectives:
    Improve profit potential of cooperator farms.
    Identify issues and trends in management data.
    Raise the awareness and understanding of over 2,000 agricultural 
producers in southeast Iowa about cow-calf production on highly erosive 
land and the integrated resource management concept.
    Provide over 130 producers with intensive technical assistance to 
develop goals and individualized farm recommendations, including 
management areas such as pasture and forage production, rations, 
utilization of resources, record systems, and government farm program 
compliance. During 1997, the number of operations served is expected to 
increase to approximately 200.
    Help producers develop management skills to improve efficiency and 
reduce costs of production as CHIPS recommendations are implemented.
    Over 130 cooperators, involving approximately 11,000 beef cows, are 
currently enrolled and participating in the CHIPS program. Four full-
time technicians and one part-time specialist have conducted over 600 
farm/office consultations during FY 96 to develop specific on-the-farm 
recommendations and assist with the problem solving and decisionmaking 
process. These contacts involved a wide variety of technical 
assistance, with primary emphasis on nutrition, cost-effective ration 
development, genetic evaluation, value added practices, and cow 
production concerns. Over 60 cooperators have incorporated the Cow Herd 
Appraisal of Performance Software (CHAPS) and Standardized Performance 
Analysis (SPA) programs in their operations. During FY 96, 3000 head of 
beef animals were permanently identified to facilitate record and data 
collection. More than 7500 cattle were weighed and monitored to 
evaluate performance and production levels. Over 250 forage samples 
were collected and analyzed, with the information being utilized in 
over 300 individualized ration recommendations. Selected management 
recommendations are highlighted by CHIPS technicians on a monthly 
basis. These financial and/or performance impacts are summarized in a 
report prepared and distributed quarterly.
    Two networking projects are being developed through the efforts of 
the staff involved with the CHIPS program. A CHIPS Heifer Development 
Program was initiated in November, 1996, coordinating the management of 
over 200 breeding heifers from 10 CHIPS cooperators. The goal of this 
program is (1) to incorporate technological advances in the area of 
heifer development, and (2) to improve the genetic base of these ten 
operations through the use of artificial insemination, genetic 
evaluations, and nutritional management. A CHIPS Feedlot Program is 
also being developed which will provide cooperators, regardless of the 
size of the operation, and opportunity to retain ownership of their 
animals from birth to market. This value-added approach will expand the 
marketing opportunities for individual cow-calf operations and improve 
the profit potential for cooperators with genetically superior animals. 
A state-wide bull test evaluation is also being monitored by CHIPS 
personnel in conjunction with the Iowa Cattlemen's Association.
    Mr. Skeen. How long has the program been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. $138,000 was approved for fiscal year 1992; $138,000 was 
approved for fiscal year 1993; $276,000 for fiscal year 1994; $350,000 
for fiscal year 1995; $345,000 for fiscal year 1996; and $345,000 for 
fiscal year 1997. Federal funding through fiscal year 1997 totals 
$1,592,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. CHIPS participants pay client fees of approximately $3.00 
per cow. This fee structure is on a sliding scale which adjusts for cow 
herd size. To date, approximately $60,000 has been collected from CHIPS 
cooperators.
    Mr. Skeen. Where is the work being carried out?
    Response. The CHIPS program is currently being operated in 
southeast and south central Iowa and involves the following counties: 
Van Buren, Davis, Jefferson, Wapello, Appanoose, Monroe, Mahaska, 
Keokuk, Washington, Henry, Des Moines, Louisa, Wayne, Marion. Lucas and 
Lee in southeast Iowa and Clarke, Decatur, Ringgold, Union, Adair, 
Adams, and Taylor in the south central area. The fiscal year 96 
expansion effort extends CHIPS services to the following counties in 
east central and southwest Iowa: Jackson, Dubuque, Jones, Cedar. 
Clinton, Scott, Linn, Johnson, Fremont, Page, Mills, Montgomery, 
Pottawattamie, and Cass. With this expansion effort CHIPS is offering 
program services to approximately 60% of the state's cow-calf 
operations.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The CHIPS program was initially projected to address the 
goals and objectives of the project in a three year time frame.
    The objectives and goals of the CHIPS program will continue to be 
modified to meet the needs of the cooperators and to adjust to the 
rapidly changing cattle industry. The level of technical assistance and 
method of program delivery will require adaptation to meet the ``new'' 
objectives which emerge. Expansion of value added services is an area 
of increased interest by cooperators. Discussion with Precision Beef 
Alliance, a value added pasture-to-plate program, is scheduled.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. A CSREES review of this project is conducted annually. 
The CSREES project liaison met with the project leader during 1996 to 
discuss plans for expansion of the CHIPS program. The 1996 review found 
a comprehensive approach to enhancing the cow-calf industry in Iowa 
with a strong educational effort in addition to hands-on assistance 
with records and management decision making. The review noted 
activities to make CHIPS self-supporting and to evaluate its impact on 
producers.
                  pilot technology project, wisconsin
    Mr. Skeen. Please provide a description of the program that has 
been funded under the Wisconsin Pilot Technology Project.
    Response. Primary industrial extension activity of the 
Manufacturing Technology Transfer program is the delivery of technical 
assistance to manufacturing companies. Executive direction in 
determining the assistance required will be provided by the Stout 
Technology Transfer Institute with direct consultation and long-term 
in-plant assistance delivered primarily through the efforts of 
university Project Managers and Co-op students. Direct assistance may 
be delivered through staff of the University of Wisconsin System (both 
two- and four-year institutions, and Extension services); the Wisconsin 
Technical College System; secondary schools; the private sector 
(professional societies, and private consultants, or attendance at 
state or national seminars. The projects also draws on many other state 
resources to add expertise and capacity to network facilitation and in-
plant extension activities.
    Mr. Skeen. What is the national, regional, or local need for this 
research?
    Response. American's manufacturers continue to face tremendous 
global competition. There are enormous pressures to improve the quality 
of products; reduce the time consumed to bring new products to market; 
and there remains an ever increasing demand to reduce the cost of 
products. Currently there is a strong movement in manufacturing to use 
speed-to-market combined with new product introduction as a tool to 
obtain a competitive advantage. While high quality and cost 
efficiencies continue to be mandatory commitments for today's 
manufacturers, great value is now being placed on speed-to-market. 
Large companies are not the only ones influenced by these trends. Small 
and medium-size manufacturers often supply larger firms. Hence, they 
must be able to quickly process large amounts of information and solve 
complex problems.
    Mr. Skeen. What is the original goal of this program and what has 
been accomplished to date?
    Response. The Manufacturing Technology Transfer program's principal 
objective is the development of a competitive, secure manufacturing 
base through the mechanism of industrial extension. The program 
principally targets small and medium size manufacturers in rural 
Wisconsin. This funding will: (1) continue to provide valuable 
industrial extension service to the target audience; (2) support the 
continued empirical development of an industrial extension model, and 
(3) investigate the use of super computer technologies to support 
global competitiveness of manufacturers. Specific accomplishments have 
been to:
    a. Perform plan evaluations.
    b. Identify opportunities for productivity improvements.
    c. Implement new organizational and operational methods.
    d. Investigate new manufacturing technology, with focus on super 
computing.
    e. Establish quality assurance/total quality systems.
    f. Establish ongoing training programs.
    g. Deliver on-site instruction in new technologies, improve methods 
and processes.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. This project has been underway since FY 1992 and was 
funded for $165,000 in FY 1992, FY 1993, FY 1994, FY 1995, and for 
$163,000 in FY 1996 and FY 1997 a total of $986,000.
    Mr. Skeen. What is the source of and amount of non-federal funds 
provided by fiscal year?
    Response. No non-federal funds have been provided for this project.
    Mr. Skeen. Where is this work being carried out?
    Response. The work will be carried out by the University of 
Wisconsin-Stout.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original proposal in 1992 was for a period of 12 
months. However, the Manufacturing Technology Transfer Program was 
developed as a continuously evolving industrial extension strategy for 
serving the needs of the manufacturing community. As an ongoing 
project, the Manufacturing Technology Transfer Program is measured by 
success in meeting the objectives of the past five years' proposals, 
including the delivery of modernization assistance and development of 
an industrial extension model. The current phase of the program will be 
completed in 1997.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. To measure the success of the project, a client 
evaluation process has been developed which includes an evaluation 
questionnaire. At the conclusion of interaction, each client is asked 
to evaluate services by completing a survey which reflects the 
program's stated goals and results are available annually. Evaluations 
indicate significant forward strides in job creation, new businesses, 
expanded productivity, and enhanced international competitiveness.
                  range policy development, new mexico
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Range Policy Development research grant.
    Response. The project is collecting economic data on a statewide 
basis. The data is being used to build an economic model that will 
allow policymakers to better understand how local and state economies 
are tied to primary industries, notably those industries using public 
lands.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the local, regional, or national needs for this 
research?
    Response. In New Mexico and throughout the western states, local 
economies are frequently tied to the use and management of public range 
and forest lands. By describing how local industries provide personal 
income as well as local, state, and Federal tax revenues, we may be 
better prepared to estimate the impacts of proposed legislation and to 
craft policies that will enhance, rather than detract, from local 
economies.
    Mr. Skeen. How will the results of this evaluation be used?
    Response. Each New Mexico county will have a detailed input/output 
model developed from state and county tax revenue data. The results of 
the economic model forecasts will be shared with county decisionmakers 
in public forums across the state.
    Mr. Skeen. How long has this work been under way and how much has 
been appropriated through fiscal year 1997?
    Response. This project was initiated in December 1994. It has been 
funded year-to-year to accomplish annual objectives. The first tier of 
objectives met in 2 years. The project objectives are being revised for 
fiscal year 1997, and we anticipate another 2 years to complete the 
second phase of the project in September 1998. The total appropriation 
has been $570,240. However, $189,120 in 1997 funds have not yet been 
awarded because we have not yet received a request from the 
institution.
    Mr. Skeen. What is the source and amount of non-federal funds to 
support this project?
    Response. The project budget does not indicate any non-federal 
support. However, the economists working with this project have 
initiated a regional research project to follow up with the model, and 
the regional project includes investments from universities in seven 
western states.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. According to the project coordinator, most of the 
original objectives have been accomplished. The investigators are 
currently collecting data to allow incorporation of other industry and 
government sectors into the model. These objectives should be 
accomplished in 2 years.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The proposal for continuing funding underwent merit 
review by a team of CSREES National Program Staff in June 1996 and a 
review of progress by the project liaison in November 1996. Both 
reviews were positive and returned recommendations that the project 
receive the funding earmarked for it in FY's 96 and 97.
               rural center aids/std prevention, indiana
    Mr. Skeen. Please provide a description of the program that has 
been funded under the Rural Center for HIV/STD Prevention in Indiana.
    Response. This program created the Rural Center for AIDS/STD 
Prevention, formerly named the Rural Center for the Study and Promotion 
of HIV/STD Prevention, jointly between Indiana University, Bloomington, 
Indiana and Purdue University, West Lafayette, Indiana. The Center is 
headquartered at Indiana University. The purposes of the Rural Center 
for AIDS/STD Prevention are (1) the development and evaluation of 
innovative educational material and approaches designed to reduce HIV/
STD risk behavior and incidence in rural areas, and (2) the 
investigation of the social and behavioral barrier to HIV/STD 
prevention, the findings from which can be applied to the creation of 
prevention programming.
    Mr. Skeen. What is the national, regional, or local need for this 
program?
    Response. The grant request states that many perceive that HIV/STD 
is only a problem in large urban areas. However, HIV/STD are found 
everywhere, including small towns and rural areas, suburbs, and large 
cities. HIV/STD are becoming increasingly serious in non-urban areas.
    Mr. Skeen. What was the original goal of this program and what has 
been accomplished to date?
    Response. The goals of this project are (1) the development and 
evaluation of innovative educational material and approaches designed 
to reduce HIV/STD risk behavior and incidence in rural areas, and (2) 
the investigation of the social and behavioral barrier to HIV/STD 
prevention, from which findings can be applied to the creation of 
prevention programming. Information has been compiled on the incidence 
and costs of rural HIV/STD; educational materials have been developed 
for field testing and evaluation; a national rural HIV/AIDS 
videoconference has been conducted; and a newsletter established. 
Accomplishments in FY 1996 included the development of computer 
software and peer educational material; expansion of the Prevention 
Resources Library; analysis of selected HIV/STD-related determinants of 
rural adolescents, adults, and migrant farmworkers; needs assessments 
of women and children with HIV; modeling of the HIV epidemic; and 
caregiver/persons with AIDS/community linkages. In FY 1997, proposed 
projects include assessing the health and family correlates of HIV/STD-
risk behavior, development of HIV/STD prevention education material, 
modeling the effects of multiple drug therapies, and assessing the HIV 
education needs of rural special education students.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. This is the fourth year of funding for this program. Work 
began on January 3, 1994. The fiscal year 1997 funding for this program 
is $246,000. Total funds appropriated to date are as follows: $250,000 
in fiscal year 1994 and 1995; and $246,000 in fiscal years 1996 and 
1997 for a total amount of $992,000.
    Mr. Skeen. What is the source of and amount of non-federal funds 
provided by fiscal year?
    Response. The source of non-federal funds for this program is state 
of Indiana appropriated funds to Indiana University. The amount of non-
federal funds are $145,406 in fiscal year 1994; $83,141 fiscal year 
1995; $91,979 in fiscal year 1996; and $115,166 in fiscal year 1997 for 
a total non-federal funding amount of $435,692.
    Mr. Skeen. Where is this work being carried out?
    Response. The work is being carried out jointly in the Department 
of Applied Health Science and the Center the AIDS Research, Indiana 
University, Bloomington, Indiana, and the Department of Sociology, 
Purdue University, West Lafayette, Indiana.
    Mr. Skeen. What was the anticipated completion date of the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Response. The Center was established to provide leadership, 
particularly in the Midwest, in efforts toward stopping the spread to 
HIV infections and sexually transmitted diseases in rural areas since 
no other such center existed. The first year's objectives were to 
develop a rural AIDS education needs assessment, develop innovative 
youth educational material, develop a resources center, evaluate a new 
school-based curriculum, develop family intervention strategies for 
decreasing adolescent risk behaviors, to assess the clinical and 
psychological needs of rural women and children with HIV, assess the 
needs of family caregivers for rural persons with AIDS, and examine the 
financial impact of HIV/STD on rural families. Since these projects are 
funded on an annual basis, the completion date for project objectives 
has been the end of each fiscal year.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency receives quarterly and annual progress reports 
on the project. Based on these reports, the agency has found that the 
Center has consistently met its objectives in educational material 
development and educational program delivery. The Center has become the 
primary source of HIV, AIDS, and other STD educational materials and 
programs for rural America.
                      rural development, oklahoma
    Mr. Skeen. Please provide a description of the program that has 
been funded under the Rural Development, Oklahoma Project.
    Response. This program provides technical assistance to small 
business in support of job creation. It provides evaluation of new 
products and processes that may result in new industries or that may be 
applied to improve existing manufacturing processes. The program has 
resulted in job creation and industrial development through the 
operation of business incubators, new product and process fairs 
marketing assistance to rural entrepreneurs, financial assistance for 
plant expansion and new business starts.
    Mr. Skeen. What is the national, regional, or local need for this 
research?
    Response. The operation of the rural incubator program that 
provides a stable and nurturing environment that small businesses need 
to grow into profitable concerns. These incubators consist of buildings 
designed for the specific purpose of starting a new manufacturing or 
technology-based company. Also small business needs access to technical 
assistance, worker training, technology transfer, financial aid, and 
business management assistance in order to stay competitive in domestic 
and world markets.
    Mr. Skeen. What was the original goal of this program and what has 
been accomplished to date?
    Response. The original goal of the program was to assist rural 
business in Southeast Oklahoma to get systematic access to improved 
technology, training, financial and business management assistance. 
Many accomplishments have resulted including financial assistance. 
Rural Enterprise, Inc., is a Certified Development Corporation for the 
Small Business Administration. As result, Rural Enterprise, Inc., has 
obtained financing for entrepreneurs and businesses totaling 
$66,392,855. Specific Technical assistance efforts have included: 
working with a company regarding different ways to cut a radius in a 
board to allow a forklift to pick up pallets from the side making it a 
4-way unit; working with a technology transfer center to assist a 
client in the design of a muffler for air tools to provide statistical 
data on descible reduction and frequency harmonics reductions; working 
with a company to identify and solve an engineering problem they were 
having with a new product.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Appropriations to date are follows: $433,000 in fiscal 
years 1988 and 1989; $430,000 in fiscal year 1990; $431,000 in fiscal 
year 1991; $300,000 in fiscal years 1992 through 1995; and $296,000 in 
fiscal years 1996 and 1997. Appropriations total $3,519,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. No non-federal funds have been provided for this project.
    Mr. Skeen. Where is this work being carried out?
    Response. The work is being carried out at Rural Enterprises, Inc., 
in Durant, Oklahoma.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been meet? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original proposal in 1988 was for a period of 12 
months. However, the objectives of Rural Enterprises, Inc., are on-
going because of the nature of the activity. The clientele is diverse 
and decentralized. The engineering and management and consultation 
model being pursued with individual clients results in a situation 
where hundreds of problems are being pursued simultaneously and when 
solved are replaced by new issues resulting from international 
competition, regulations, training needs, and changeover costs. The 
next phase of the program will be completed in 1997.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. CSREES staff responsible for project liaison have 
conducted on-site visits and have formed evaluations through the 
agency's merit review process. Rural Enterprises itself conducts an 
ongoing evaluation process to measure the organization's effectiveness 
and efficiency in accomplishing its objectives and this is documented 
on a quarterly basis through our reporting system. Significant numbers 
of jobs and new business have resulted from the program.
                      rural development, nebraska
    Mr. Skeen. Please provide a description of the program that has 
been funded under the Nebraska Rural Development Project.
    Response. The Center for Rural Community Revitalization and 
Development, Nebraska Cooperative Extension Service has supported an 
on-going applied research/outreach effort to improve the delivery and 
impact of land grant programming to small and rural communities and 
businesses. The grant has allowed the institution and other State and 
Federal agencies to refine the delivery and efficiency of programming 
within the State of Nebraska. It has supported the development of 
program partnerships and alternative means of providing technical 
support to rural constituencies.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. The Center is providing cutting-edge approaches in the 
development and delivery of technical assistance to rural 
constituencies. Information age technology is being incorporated into 
the delivery of both university and Federal/State agency programming.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The original goal was to provide improved technical 
assistance to distressed rural businesses and/or emerging businesses in 
distressed communities. Through a series of 72 workshops in 67 
communities over 1,341 business owners/managers were provided technical 
assistance. Currently, new strategies are being developed to provide 
technical assistance in a more cost efficient method.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. The project has been operating since October 1978 and 
Federal appropriations through fiscal year 1993 were $1.74 million. For 
fiscal years 1994, 1995, and 1996, $400,000 per year were appropriated; 
and for 1997, $386,000 was appropriated. Total funding to date is 
$3,326,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. All Federal funds have been matched by an equivalent 
amount of non-federal funds each year of operation through FY 1995. The 
FY 1995 amount was $99,305. The non-federal support has been primarily 
in the form of staff for the past two fiscal years.
    Mr. Skeen. Where is the work being carried out?
    Response. Research is being conducted at the University of 
Nebraska.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original completion date was September 30, 1989. The 
original objectives of the research project have been met. The 
completion of additional objectives is scheduled for September 30, 
1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates merit of research proposals as 
submitted. No formal evaluation of this project has been conducted.
             rural development through tourism, new mexico
    Mr. Skeen. Please provide a description of the program that has 
been funded under the Rural Economic Development Through Tourism 
(REDTT) Project in New Mexico.
    Response. The Rural Economic Development Through Tourism Project is 
a rural-based economic development activity to create new jobs and 
sources of income in small and rural communities in a seven county area 
of New Mexico. The focus of the development is on tourism and related 
businesses. The program supports training, strategic planning, and 
technical assistance for communities and tourism businesses.
    Mr. Skeen. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Response. This is a pilot project to demonstrate the effective 
development and implementation of training, education, and technical 
assistance related to rural tourism. Tourism development is a strong 
area of interest to many small and rural communities throughout the 
United States.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The New Mexico Cooperative Extension was to spearhead a 
comprehensive program to assist small and rural communities in 
increasing economic development opportunities through tourism. A 
regional task force composed of extension representatives and community 
leaders from business, industry, education, and government at the 
federal, state, and local levels guides the development and 
implementation of effective and efficient programming to support rural 
tourism development. The results of REDTT include a video, a public 
relations program, an image study, a regional tourism map and guide, a 
regional tourism bus package, festival planning workshops, development 
of a regional agricultural tour, and development of a mini-grants 
funding program.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated through fiscal year 1997?
    Response. In fiscal years 1992, 1993, 1994, 1995, and 1996, 
$230,000 was appropriated each year. For fiscal year 1997, $227,000 has 
been appropriated for a total funding amount of $1,377,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. In fiscal year 1992, $38,764 of state matching funds were 
provided. For fiscal years 1993, 1994, 1995, and 1996, $39,360 of state 
funds were provided. Fiscal year 1997 funds of $39,040 are being 
provided.
    Mr. Skeen. Where is this work being carried out?
    Response. Research/programming is being supported at the New Mexico 
State University.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original completion date was September 30, 1993. The 
original objectives of the research project have been met. The 
completion of additional objectives is scheduled for March 31, 1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency evaluates the merit of research proposals as 
they are submitted. No formal evaluation of this project has been 
conducted.
                     rural rehabilitation, georgia
    Mr. Skeen. Please provide a description of the program that has 
been funded under the Rural Rehabilitation project in Georgia.
    Response. The program has tested the feasibility of providing 
satellite-based adult literacy education, in association with 
vocational rehabilitation services, to handicapped adults in rural 
Georgia. The program has developed curriculum, tested and adapted 
technology, established student recruitment and retention strategies, 
expanded to Statewide coverage, and provided successful adult literacy 
education.
    Mr. Skeen. What is the national, regional, or local need for this 
program?
    Response. A state task force has estimated that 25 percent of 
Georgia's adult population is functionally illiterate, Illiteracy is 
regarded as a form of disability in Georgia.
    Mr. Skeen. What was the original goal of this program and what has 
been accomplished to date?
    Response. The original goal of this program was to prove that 
distance learning can be an effective tool for reaching and teaching 
functionally illiterate adults in rural areas. This program has 
demonstrated that satellite-based literacy training, in cooperation 
with vocational rehabilitation services, can successfully provide adult 
literacy education designed to improve critical reading, writing, and 
thinking skills for handicapped rural adults. The program now enrolls 
about 640 students per quarter, with approximately 70 percent expected 
to complete the full eight quarters of literacy education. Over the 
past eight years, test scores and attendance rates of students in the 
satellite-based program have shown that distance learning is an 
effective delivery system for instructing low-level readers and non-
readers. Test scores and attendance rates of students in this program 
have been comparable to those of students in traditional, urban 
classes.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Funding for this program was initially appropriated in 
fiscal year 1989, and the program has been in operation since March 
1989. Through fiscal year 1997, appropriations for this program have 
been as follows: $129,000 in fiscal year 1989; $256,000 in fiscal year 
1990; $256,000 in fiscal year 1991; $256,000 in fiscal year 1992; 
$250,000 in fiscal year 1993; $250,000 in fiscal year 1994; $250,000 in 
fiscal year 1995; $246,000 in fiscal year 1996; and 246,000 in fiscal 
year 1997. Funds appropriated to date total $2,139,000.
    Mr. Skeen. What is the source of and amount of non-federal funds 
provided by fiscal year?
    Response. The FY 1997 source of non-federal funds provided for this 
program are state appropriated funds from the Georgia Department of 
Adult Education. Prior years' sources also included private 
contributions from the Woodruff Foundation and other local foundations. 
Through FY 1997, the total amount of non-federal funds provided the 
project has been $6,697,581. The breakdown by fiscal year is $164,000 
in fiscal year 1988; $270,500 in fiscal year 1989; $809,675 in fiscal 
year 1990; $656,765 in fiscal year 1991; $65,000 in fiscal year 1992; 
$1,019,821 in fiscal year 1993; $20,000 in fiscal year 1994; $872,500 
in fiscal year 1995; $1,500,000 in fiscal year 1996; and $1,319,320 in 
fiscal year 1997.
    Mr. Skeen. Where is this work being carried out?
    Response. The Georgia Tech Satellite Literacy Project is sponsored 
and operated by four organizations: Georgia Institute of Technology's 
Center for Rehabilitation Technology, the Center for Rehabilitation 
Technology (CRT), Inc., Literacy Action, Inc. and the Georgia 
Department of Technical and Adult Education. The program grantee is 
CRT, Inc., a private, not-for-profit business advisory board to the 
Center for Rehabilitation Technology, College of Architecture, Georgia 
Institute of Technology, from which the literacy instruction is 
provided. The 100 classes at 77 adult literacy classroom sites, 
dispersed throughout the State of Georgia and one site in Virginia, 
included 18 technical schools, 42 adult learning centers, 8 high, 
middle or elementary schools, 3 universities, 3 libraries, 2 
rehabilitation centers, and one other site.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. It was anticipated that it would take three years to 
demonstrate that distance learning can be an effective tool for 
reaching and teaching functionally illiterate adults in rural areas. 
That original objective was met in FY 1991. Additional objectives since 
FY 1991 have been to expand the outreach of the satellite based adult 
literacy program to enough additional sites throughout the state of 
Georgia so that all potential participants have reasonable access to 
the program; to continually upgrade the quality of class programming 
and the technical capacities of the system. It is anticipated that the 
latest technological upgrades, expanding the capacity of the program 
more than twenty-five-fold (from seventy-seven to over 2,000 downlink 
sites), and six-fold increase in broadcast hours, and making materials 
available as supplemental tools to all Georgia literacy classes, will 
be completed by the end of the current project period, February 28, 
1998.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. The agency receives annual reports on the project. Based 
on these reports, the agency has found that the project has made 
progress in demonstrating the feasibility of utilizing distance 
learning technology and teaching methods to provide adult literacy 
education programs to handicapped adults throughout the state of 
Georgia. The project has been successful in applying the latest 
distance education technology to both control the program cost per 
participant and, most recently, to expand the availability of the 
program.
         technology transfer projects, oklahoma and mississippi
    Mr. Skeen. Please provide a description of the program that has 
been funded under the Oklahoma and Mississippi Technology Transfer 
Projects.
    Response. The original work plans involved the transfer of 
uncommercialized technologies from Federal laboratories and 
universities to rural businesses and communities. Over time, the 
objectives have evolved to providing more one-on-one assistance to 
small manufacturers. This type of assistance responds to the stated 
needs of the small manufacturing community and fills a recognized gap 
in the existing service provider community.
    Mr. Skeen. What is the national, regional, or local need for this 
research.
    Response. Manufacturing extension programs throughout the country 
have identified one-on-one engineering technology assistance as a 
critical need for small manufacturers as they attempt to become more 
competitive and profitable. Oklahoma State University and Mississippi 
State University are the only public service providing organizations 
that have the demonstrated capability to provide such assistance in 
their respective areas.
    Mr. Skeen. What is the original goal of this program and what has 
been accomplished to date?
    Response. The primary goal of these programs is to contribute to an 
increase in business productivity, employment opportunities and per 
capita income by utilizing technology and information from Federal 
laboratories; Rural Enterprises Development Corporation and Industrial 
Technology Research and Development Center in Durant, Oklahoma; 
Mississippi State Food and Fiber Center; Vocational-Technical Education 
System; Center for Local Government Technology; Cooperative Extension 
Service; and other university departments and non-campus agencies. 
Specific program objectives are to:
    Develop greater profitability of existing enterprises.
    Aid in the acquisition, creation or expansion of business and 
industry in the area.
    Establish an effective response process for technological and 
industrial related inquiries.
    Devise effective communication procedures regarding the program for 
the relevant audiences.
    Mr. Skeen. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. Funding appropriated to date is as follows: $350,000 in 
fiscal years 1984 and 1985; $335,000 in fiscal year 1986; $333,000 in 
fiscal years 1987 through 1990; $331,000 in fiscal years 1991 through 
1995; and $326,000 in fiscal years 1996 and 1997. Appropriations to 
date total $4,674,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Although no non-federal funds have been required, 
Oklahoma State University and Mississippi State University have 
provided considerable amounts of matching support from state funds over 
the life of the project. For the past four years, for example, support 
has included a significant portion of engineering faculty salaries as 
well as the administrative support of county and district extension 
staff.
    Mr. Skeen. Where is this work being carried out?
    Response. The work is being carried out at Mississippi State 
University and Oklahoma State University which are providing on-site 
assistance to small manufacturers.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Response. The original proposal in 1984 was for 12 months. The 
original objectives have been, and continue to be met. Although 
individual client projects have a beginning and end, the technology 
transfer process is continuous. Over the past years, specific and 
measurable annual objectives and the achievement of objectives have 
been documented in annual reports. The objectives of both programs have 
been to: (1) continue to delivery of high-quality engineering 
assistance and technology transfer services to small manufacturers; (2) 
conduct joint workshops, client referral, and joint research and 
application projects; and (3) demonstrate a value of service to clients 
many times project operating costs. The current phase of the program 
will be completed in 1997.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Response. Site visits and merit reviews have been conducted 
annually on these projects as well as client surveys by project staff 
themselves. Survey results have documented significant job creation, 
productivity enhancement, and local community economic activity.
                         wood biomass, new york
    Mr. Skeen. Please provide a description of the research that has 
been funded under the Wood Biomass research grant?
    Response. The objective of this program is to expand, implement, 
and gain acceptance of wood biomass as a sustainable, renewable and 
environmentally friendly fuel source. Moreover, the program is viewed 
as a means of stimulating alternative forest products for the Nation's 
Central and Northern hardwood forests regions.
    Mr. Skeen. According to the research proposal, or the principal 
researchers, what is the national, regional, or local need for this 
research?
    Response. The principal researchers believe that the project is of 
national interest. Biomass research studies through the U.S. Department 
of Agriculture and the Department of Energy span 20 or more years. As a 
result, the Nation is in a position to scientifically produce 
alternative fuels for power generation systems. Moreover, the 
Department of Agriculture and the Department of Energy research can 
provide information on the value of tree plantings to carbon 
sequestration, rural economic development, and soil erosion and 
sedimentation associated with conventional agriculture.
    Mr. Skeen. What was the original goal of this research and what has 
been accomplished to date?
    Response. The goal of this project is to promote, via applied 
research and technology transfer: wood biomass for energy as an 
alternative farm product; the wise stewardship of land resources; the 
use of domestic, renewable and sustainable energy; and enhanced farm 
profitability.
    To accommodate this, scientists at the State University of New York 
are planting willow trials on several sites and under several 
conditions. Site preparation occurred during the spring and summer of 
1996. Some planting occurred during the fall of 1996, and more is 
scheduled for the spring of 1997. Cornell University has hired a person 
to coordinate technology transfer resulting from this and predecessor 
projects.
    Mr. Skeen. How long has the work been underway and how much has 
been appropriated by fiscal year through fiscal year 1997?
    Response. This aspect of the program began with an appropriation of 
$200,000 in fiscal year 1995; $197,000 was appropriated in fiscal years 
1996 and 1997 for a total of $594,000.
    Mr. Skeen. What is the source and amount of non-federal funds 
provided by fiscal year?
    Response. Four state partners and approximately 18 private partners 
contribute resources at a ratio of approximately 1.5 to 1 for this 
project.
    Mr. Skeen. Where is the work being carried out?
    Response. The field work is being conducted near Syracuse, NY. 
Electronic and print media allows Cornell's technology transfer 
activities to extend far beyond that point. The scope of this project 
has local, state, regional, national, and international implications.
    Mr. Skeen. What was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the completion date of additional or related objectives?
    Response. The completion date for the original objectives of the 
project, willow cultivar planting, was September 30, 1996. With the 
addition of some new dimensions to the project, the completion date is 
now April 1, 1998. Because of the timing of one of the awards and some 
weather-related problems, not all of the original objectives have been 
met. Most of the unmet objectives should be completed by early summer.
    Mr. Skeen. When was the last agency evaluation of the project? 
Provide a summary of the last evaluation conducted.
    Response. This project is reviewed annually through a merit 
examination of the annual proposes plan of work. In addition, the 
Project Administrator monitors progress through the reading of a series 
of required reports, plus frequent phone and e-mail contacts. The 
Project Administrator also met with the Principal Investigator in his 
office to discuss the project during the investigator's travels to the 
Washington, D.C. area.
             government performance and results act (gpra)
    Mr. Skeen. GPRA, known as the Results Act, requires each executive 
agency to issue, no later than September 30, 1997, a strategic plan 
covering at least five years. In addition to a mission statement 
grounded in legislative requirements, the plans are to contain general 
goals and objectives that are expected to be outcome or results 
oriented (such as to improve literacy) as opposed to output or activity 
oriented (such as to increase the number of education grants issued). 
What progress is the agency making in developing its strategic plan, 
including defining its mission and establishing appropriate goals?
    Response. The Cooperative State Research, Education, and Extension 
Service is working with the Research, Education, and Economics Mission 
Agency and our Land-Grant University Partners to complete a 
Comprehensive Strategic Plan that will be submitted by the September 
30, 1997, deadline. A mission statement, goals, and objectives have 
been defined and will respond to the directive of the Government 
Performance and Results Act--GPRA--of 1993. A draft plan has been 
developed and is being linked to state programs such that outputs and 
outcomes can be reported.
    Mr. Skeen. Has the agency identified conflicting goals for any of 
its program efforts? If so, what are the performance consequences of 
these conflicting goals and what actions--including seeking legislative 
changes--is the agency taking to address these conflicts?
    Response. CSREES has identified no conflicting goals for program 
efforts related to CPRA.
    Mr. Skeen. Strategic plans must be based on realistic assessments 
of the resources that will be available to the agency to accomplish its 
goals. As you are developing your strategic plan, how are you taking 
into account projected resources that likely will be available--
especially as we move to a balanced budget? What assumptions are you 
making? How are you ensuring that your goals are realistic in light of 
expected resources?
    Response. The Strategic plans are based on realistic assessments of 
the resources that will be available. As required under the law, plans 
will be developed to cover a five-year time period. Annual performance 
plans will be developed to link proposed activities to the Federal 
budget process. We are assuming level or declining Federal budgets to 
ensure that goals and objectives are realistic.
    Mr. Skeen. For Congress, the heart of the Results Act is the 
statutory link between agency plans, budget requests, and the reporting 
of results. Starting with fiscal year 1999, agencies are to develop 
annual performance plans that define performance goals and the measures 
that will be used to assess progress over the coming year. These annual 
goals are to measure agency progress toward meeting strategic goals and 
are to be based on the program activities as set forth in the 
President's budget. What progress have you made in establishing clear 
and direct linkages between the general goals in your strategic plan 
and the goals to be contained in your annual performance plans? OMB 
expressed concerned last year that most agencies had not made 
sufficient progress in this critical area.
    Response. Our agency has developed a draft strategic plan 
representative of the broad goals established by the REE Mission 
Agency. These goals have been interpreted into a strategic plan that 
outlines agency and partner responsibilities in the broad context. This 
plan is supplemented with a performance plan that brings into focus the 
specific activities that will take place by our land-grant universities 
and other partners to conduct research, extension and higher education 
programs and report accomplishments. This establishes the formal 
response to accountability standards mandated in the Government 
Performance and Results Act of 1993. Our agency is in the process of 
conducting regional orientation sessions for land-grant institutions, 
such that administrators and other program staff clearly understand the 
framework of the performance plan and how they will link their program 
planning and reporting to that of our agency.
    Mr. Skeen. More specifically, how are you progressing in linking 
your strategic and annual performance goals to the program activity 
structure contained in the President's budget? Do you anticipate the 
need to change or modify the activity structure to be consistent with 
the agency's goals?
    Response. The goals developed by CSREES will fit seamlessly into 
the structure in the President's budget. At the present time, we see no 
need to modify the activity structure to be consistent with agency 
goals.
    Mr. Skeen. Overall, what progress has your agency made--and what 
challenges is it experiencing--defining results-oriented performance 
measures that will allow the agency and others to determine the extent 
to which goals are being met?
    Response. Because of the accountability standards of GPRA and the 
fact that results-oriented performance measures are required, we are 
planning orientation sessions for agency staff and land-grant 
university partners to describe expectations and give guidance on how 
to develop the kinds of performance measures acceptable for 
accountability reporting under GPRA. A concern for us is, not what is 
to be reported, but how much should be reported to OMB and Congress in 
defending budget requests and describing performance plans. We expect 
guidance from OMB on this issue. In addition, the agency is designing a 
management information system, the Research, Education, and Extension 
Information System, to tract program investments and accomplishments 
useful for analysis of GPRA goals and objectives.
    Mr. Skeen. If applicable, what lessons did the agency learn from 
its participation in the Result Act pilot phase and how are those 
lessons being applied to agency-wide Results Act efforts? What steps is 
the agency taking to build the capacity (information systems, personnel 
skills, etc.) necessary to implement the Results Act?
    Response. All USDA Mission Areas/Agencies have prepared draft 
Strategic Plans which are currently being reviewed by an Under/
Assistant Secretary--or other relevant official, the Senior Policy 
Staff, and the Secretary. Upon completion of the review, the Department 
plans to provide copies of the Strategic Plan--including an overall 
Departmentwide Executive Summary and the Strategic Plans for individual 
Mission Area/Agencies--to relevant Congressional Committees. 
Thereafter, we will look forward to meeting with Members of Staff to 
discuss our Strategic Plan and to solicit their input and advice on 
refinements to that Plan. We plan to provide copies of the Department 
Strategic Plan to the following Committees:
    House Agriculture Committee.
    House Appropriations Committee.
    House Economic and Educational Opportunities Committee.
    House Government Reform and Oversight Committee.
    House Resources Committee.
    Senate Agriculture, Nutrition, and Forestry Committee.
    Senate Appropriations Committee.
    Senate Energy and Natural Resources Committee.
    Senate Governmental Affairs Committee.
    Mr. Skeen. The Results Act requires agencies to solicit and 
consider the views of stakeholders as they develop the strategic plans. 
Stakeholders can include state and local governments, interest groups, 
the private sector, and the general public, among others. Who do you 
consider to be your agency's primary stakeholders and how will you 
incorporate their views into the strategic plans?
    Response. CSREES considers its primary stakeholders to be the Land-
Grant and other University Partners who implement programs using 
Federal formula, special grant, and competitive grant funds. We have 
maintained an open and continuing dialogue to incorporate their views 
in the strategic plan and annual performance plans.
    Mr. Skeen. For the Results Act to be successful, agencies with 
similar missions, goals, or strategies will need to ensure that their 
efforts are coordinated. What other Federal agencies are you working 
with to ensure that your strategic plans are coordinated? What steps 
have you taken to ensure that your efforts complement and do not 
unnecessarily duplicate other Federal efforts?
    Response. To coordinate our efforts we are working with other 
Research, Education, and Economic agencies within the Department--
Agricultural Research Service, Economic Research Service, and National 
Agricultural Statistics Service. Other agencies collaborate with us and 
will be involved as appropriate to improve program efficiency, 
eliminate unnecessary duplication, and enhance education and research 
programs with the university community.
    Mr. Skeen. The Results Act requires agencies to consult with 
Congress as they develop their strategic plans. Since these plans are 
due in September, now is the time for agencies to begin the required 
consultations. What are your plans for congressional consultation as 
you develop your strategic plan? Which Committees will you consult 
with? How will you resolve differing views?
    Response. We recognize the expectation that agencies consult with 
Congress as strategic plans are developed. CSREES will consult on its 
plan in partnership with the USDA Chief Financial Officer.
    Mr. Skeen. In passing the Results Act, Congress sought to 
fundamentally change the focus of Federal management and decisionmaking 
to be more results-oriented. Organizations that have successfully 
become results-oriented typically have found that making the 
transformation envisioned by the Results Act requires significant 
changes in what they do and how they do it. What changes in program 
policy, organization structure, program content, and work process has 
the agency made to become more results-oriented?
    Response. The results-oriented mandate of GPRA has changed the 
philosophy of building our budget and reporting results. Greater 
emphasis will be placed on describing realistic expectations in the 
budget process and describing how their expectations will have been met 
as outgrowths of the five-year strategic plans and annual performance 
plans.
    Mr. Skeen. How are managers held accountable for implementing the 
Results Act and improving performance?
    Response. CSREES managers have been involved in all aspects of the 
GPRA planning activities. Each understands that their role in managing 
agency programs and the need to link future programs to the goals 
adopted by the agency.
    Mr. Skeen. How is the agency using Results Act performance goals 
and information to drive daily operations?
    Response. Developing the new strategic plan will result in more 
efficient use of staff and discretionary resources in responding to the 
five goals and thirteen objectives included in the Strategic Plan.

                Pest Containment and Quarantine Facility

    Mr. Fazio. I was impressed by the emphasis in each of the 
testimonies by Undersecretary Woteki, Dr. Knipling, and Dr. Robinson 
about the fight against pests and the fight for integrated pest 
management and for food safety. The continuing emphasis on these 
technologies, bioengineered pest-resistant plants, and monitoring 
pesticide levels under the Food Quality Protection Act will have 
increasing importance in the years to come.
    Those missions just happen to dovetail with the mission of the Pest 
Containment and Quarantine Facility at UC-Riverside and UC-Davis. We 
need about $7 million to complete the federal share for this project. 
Although USDA traditionally does not request funds for these CSREES 
projects, I think you are aware of the value of this facility for 
exactly the priorities you have laid out in your testimony. Perhaps you 
could outline for the committee just how a facility like Riverside/
Davis facility can complement some of the missions you have emphasized 
today.
    Response. Plant pest management, including pests such as insects, 
nematodes, bacteria, fungi, viruses and weeds, is in a state of 
transition. Traditional pest control strategies based on use of 
synthetic chemical pesticides are being phased out. This is due to 
several factors including: pest populations that have developed 
resistance to chemical pesticides; public pressure to avoid pesticide 
contamination of food and the environment; discovery that some 
pesticides thought to be safe may in fact be carcinogenic; and high 
costs of multiple pesticide applications. The most attractive 
alternative to synthetic chemicals is biological pest control. This 
strategy includes use of parasites; microorganisms; predators; and 
genetically-engineered insects, microorganisms, or resistant plants. 
Sophisticated biological pest control methods are made possible by the 
development in recent years of recombinant DNA technology, which allows 
cloning of genes and stable insertion of such genes into the insects or 
microorganisms. To assay the efficacy of exotic or genetically-
engineered bio-control agents, quarantine and physical containment 
facilities may be needed to insure safety before field releases are 
made.
    Mr. Fazio. How would USDA accomplish some of these missions without 
this facility--I understand that the containment level offered by the 
proposed Davis facility for this type research is available at very few 
installations throughout the U.S.?
    Response. Currently, there are a limited number of facilities with 
Biosafety level 3 capability available for biological control 
experimentation with recombinant germplasm and with exotic pests. The 
facilities at the University of California-Davis and the University of 
California-Riverside could significantly accelerate the efforts to 
develop new, innovative, and environmentally-compatible pest control 
technologies.
           chemical and non-chemical research appropriations
    Mr. Fazio. How much money or what percent of USDA research 
appropriations are now spent on chemical and non-chemical research on 
crop and livestock pests and weeds? Are these resources focused on IPM 
and, if not, why not?
    Response. Approximately 75 percent of research appropriations for 
pest management are focused on non-chemical research conducted by 
CSREES and its land-grant partners. Hatch and McIntire-Stennis formula 
programs and competitive grants funded by the National Research 
Initiative all emphasize fundamental and applied research on non-
chemical approaches and the development of biointensive Integrated Pest 
Management--IPM--systems. Much of the work on chemical research is 
focused on the development of short-term reduced risk pesticides where 
registrations are being lost due to regulatory and voluntary 
cancellations by registrants. In addition, there is an effort to 
develop more selective chemical pesticides, some of which are 
biopesticides, to preserve predators and parasites and other beneficial 
organisms in cropping systems grown with IPM systems.
                             pm-10 research
    Mr. Fazio. The subcommittee approved $873,000 for FY 1997 through 
the CSREES budget for PM-10--research about particulate matter and air 
quality that is critical both to California and the rest of the nation. 
The need in our state is great but, unfortunately, this research money 
is currently being split between California and Washington state. 
Describe the nature of research going on at the institutions in both 
states and any other states under this research program, tell us how 
they complement one another, and what your proposal in the FY 1998 
budget is in this area?
    Response. As directed by Congress in establishing the PM-10, 
California and Washington research grant, the funding from the 
Cooperative State Research, Education, and Extension Service--CSREES--
is divided equally between the two States. According to the principal 
investigators, research by both the University of California at Davis 
and Washington State University address serious public concerns related 
to particulate emissions and resulting effects on air quality and 
potential effects on human health. The overall objectives of both the 
California and Washington program are to determine the role of 
agricultural land and production and management practices as sources 
and causes of particulate emissions and to develop alternative or 
improved practices to reduce these emissions. Because of quite 
different climatic and soils conditions and types of cropping systems 
and management practices, the specific research objectives differ quite 
distinctly between the two states' programs.
    The PM-10 research in California is centered around the intensive 
production of cotton, grain crops, and fruit and nut crops, such as 
almonds, figs, and other high-value crops. Production of these crops 
requires intensive tillage, cultivation, and harvesting operations 
which can create potential problems for dust or particulate emissions. 
Research by scientists at the University of California at Davis is 
developing sampling and monitoring programs to determine the source and 
extent of PM-10 particulates in these agricultural production areas and 
is developing unique ``fingerprinting'' techniques to more precisely 
pinpoint the sources of origin. In addition, the California research is 
developing knowledge on the PM-10 emission-potential of various field 
crop operations to be used as a basis for developing new control 
methods for PM-10 emissions from California agriculture.
    In Washington, the production of the major crops of dryland wheat 
and grain in low rainfall areas requires the extensive use of crop-
fallow rotations to conserve soil moisture. This results in leaving 
large acreages of soils with no crop cover, with potential for periodic 
severe wind erosion, and severe air pollution problems. Other PM-10 
particulate emission problems are related to the practice of crop 
residue burning in grass seed production fields to control pests and 
permit efficient operation of planting equipment. Researchers in 
Washington State University and USDA scientists are developing new data 
on the sources of PM-10 emissions during wind events and the sources of 
such emissions as a basis for effective and economic control practices. 
These studies include alternative conservation or no-tillage cropping 
systems to increase water intake and reduce soil loss by wind and to 
conserve crop or vegetative residue cover on soils susceptible to wind 
erosion.
    According to the research's principal investigator(s), both 
California and Washington scientists collaborate and share information 
gained on PM-10 monitoring and sampling techniques, and, in cooperation 
with USDA scientists, are developing new ``fingerprinting'' techniques 
that will help determine and distinguish between agricultural and non-
agricultural sources of PM-10 emissions. The research reports that 
studies in California and Washington both include collaboration between 
Federal and state scientists in other states with similar PM-10 
concerns or with ongoing research that is complementary. For example, 
both states have cooperative wind erosion and PM-10 emissions research 
with Federal and state scientists in Texas and Kansas who have 
extensive experience and laboratory resources devoted to wind erosion 
control on Great Plains soils. Washington scientists collaborate 
closely with scientists in the neighboring states of Idaho and Oregon 
on joint cropping systems studies. Both studies included participation 
of private farmers and growers in field research studies to ensure the 
research results are practical and economic and to increase their 
adoption by other growers.
    Mr. Fazio. Do you intend to keep or alter the state distribution in 
the future--what would make you consider doing so?
    Response. The principal investigator believes the research in both 
California and Washington is very important to prevent agricultural 
losses and to protect human health. However, in keeping with the 
Administration's policy of awarding research grants competitively, no 
further Federal funding for this program as currently positioned is 
requested. Research could be continued at the state's discretion using 
formula funds, or the principal investigators could apply for the 
competitive grants program under the National Research Initiative or 
the Fund for Rural America.

                       Economic Research Service

                           farming operations
    Mr. Skeen. Update the Committee on the size of farming operation it 
takes to support a family of four.
    Response. Data on farm revenues and expenses have been collected 
through USDA's annual Farm Costs and Returns survey and reported every 
year since 1984. The larger the farm, the more likely it is to have 
partners, shareholders, etc. Results for 1995 show that 16-20 percent 
of farms were large enough that, relying solely on farm income, a 
family of four would have income above the official poverty threshold.
    If ``adequate'' income is the ability to cover average household 
expenditures, data show that 7-9 percent of farms generated sufficient 
income to cover expenditures for at least one household, if farming was 
the only source of earnings. The average farm with ``adequate'' income 
had sales of more than $200,000 and assets valued at $800,000 to 
$1,300,000. Ability to generate ``adequate'' income varies across size 
of farm, type of commodity, specialty, and region. For example, tobacco 
farms with net farm income above the poverty threshold had average 
gross sales of $110,500 and assets valued at an average of $388,100. 
This contrasts with dairy farms which had gross cash income of $267,200 
and assets valued at $726,000, on average. Farms in the Appalachian 
Region meeting family expenses with net farm income had average gross 
cash income of $260,400 and net worth of $674,800, while farms in the 
Pacific needed $807,300 in average gross cash income. These farms in 
the Pacific averaged $1.8 million in assets.
    On average, farm households are on par with other households in the 
United States--both earning approximately $45,000. In 1995, about 
three-fourths of all farm households had total household incomes above 
the poverty level for a family of four. Household income includes not 
only the share of income generated by the farm, but also income from 
off-farm sources. Because almost three-quarters of farms have gross 
sales less than $50,000--small farms typically lose money--most farm 
households rely on off-farm income sources for family income. ERS has 
typically used the $50,000 mark to classify what is called a 
``commercial-size'' farm. But, even commercial-farm households have 
significant off-farm income.
                         farm household income
    Mr. Skeen. Please update the table on page 168 of last year's 
hearing record that shows the level and sources of income for farm 
operator households. Please provide a copy of the latest table for the 
record.
    Response. Annual estimates of farm operator household income are 
published eleven times a year in Agricultural Outlook. The most recent 
table, published in the March 1997 issue, indicates that farm household 
income averaged $44,392 in 1995. About 11 percent of average farm 
household income was from farm sources, with the remainder from off-
farm jobs and businesses, investments, and transfer payments, like 
Social Security.
    Following is an updated table that shows average income to farm 
operator households.

[Page 448--The official Committee record contains additional material here.]


                        farm income implications
    Mr. Skeen. Last year you indicated that only 12 percent of 
household income was from farm income. What are the short and long 
range implications of this?
    Response. The most important short-run implication is that operator 
households, in general, are affected more on a day-to-day basis by 
changes in the business cycle and in the local nonfarm economy than by 
changes in the farm economy. This is true because most farm households 
do not operate farms that could support a family. Only $1,000 in 
agricultural sales is necessary for an operation to qualify as a farm, 
and nearly half of farm households operate farms with gross sales less 
than $10,000. Most of the operators of these farms have a nonfarm 
occupation or are retired. Households operating farms with gross sales 
of $500,000 or more received one-fourth of their income from off-farm 
sources. For many households, farm income remains critical.
    Over time, farm productivity has grown, leading to farm 
consolidation opportunities to engage in, off-farm work for operators 
of less competitive small farms, and fewer operator households relying 
heavily on their farms for income. These trends will continue, with 
long-run implications for the nature of the local economy in the 556 
farm-dependent counties relying on farming for 20 percent of locally 
generated income. Farm structure will continue to change, with fewer 
and larger commercial farms and a large number of ``residential 
farms.'' In the future, it will be even more important to distinguish 
among the size and types of farms when describing distribution of 
income and effects of changes in the farm economy. The low percentage 
of average household income coming from farming reflects the increasing 
concentration of production as well as the $1,000 farm definition.
                      farm and pesticide use data
    Mr. Skeen. Your budget request includes an increase of $281,000 for 
data acquisition and analysis of farm practices and pesticide use. What 
is the total amount you intend to expend on this initiative in fiscal 
year 1998?
    Response. ERS has taken steps to refocus and improve use of the 
limited amount of farm and production practice survey funds available 
to the Agency. Several surveys of farm business financial performance 
and crop production practices were consolidated to create a new survey 
that we call the Agricultural Resource Management Study (ARMS). While 
the new integrated survey will enable ERS to link farm financial and 
economic data with data on adoption and use of resource-conserving 
production practices, we will be limited in the amount of geographical 
and physical detail that we will be able to provide. Likewise, the 
sample size will constrain the amount of distributional analysis that 
our analysts will be able to undertake to provide insight on either 
various types and sizes of farm operations such as wheat, cotton, or 
corn, or on environmentally vulnerable conservation areas.
    The $281,000 increase included in the FY 1998 budget would be added 
to the funds ERS is now using to support and analyze ARMS data. In FY 
1997, ERS allocated $4.1 million to this activity.
                               data funds
    Mr. Skeen. The data component of this request would be directed 
toward three options, depending on information already collected. How 
do you know these funds will even be needed?
    Response. The intent is to use the funds to increase knowledge 
about the costs and benefits of resource-conserving production 
practices. As I stated, ERS has developed a survey approach to link 
farm finance and economic data with data on adoption and use of 
environmentally-sensitive production practices. Enumeration of the ARMS 
will not be complete until late Spring 1997. Results of the ARMS will 
be carefully evaluated to determine whether the new funds would be most 
efficiently used to support an expansion in sample size or new 
questions to assure that appropriate economic data are collected and to 
enhance spatial coverage of the survey, an expansion in the number of 
commodities surveyed, or to expand the linkage between practice 
adoption, economic data, and natural resource characteristics such as 
those collected by the Natural Resources Inventory. Regardless of the 
choice made on how to best allocate the additional funds, steps taken 
by the Agency to address critical data voids would be enhanced by 
availability of the additional funding.
                             farm practices
    Mr. Skeen. Do you have any preliminary results from the farm 
practices and pesticide use study? For example, how has the adoption of 
alternative farming practices affected production costs and farm 
income? Are there any regional patterns to the adoption of alternative 
farming practices?
    Response. We have on-going work to determine the relationship 
between farming production systems and production costs and returns. We 
have already released results on production practices, input 
characteristics, and commodity costs and returns for hogs, barley, and 
milk. Our analysis of milk costs and returns has been expanded to the 
dairy farm business and the dairy's contribution to the whole farm. 
Economic basebooks on wheat and rice will be released in FY 1997, with 
basebooks on burley tobacco, oats, grain sorghum, and peanuts due for 
release in FY 1998. Each basebook will be followed with a farm business 
analysis.
    Beginning in 1995, we have included several survey questions about 
water and pest management strategies to determine whether water 
management practices and/or tillage practices were adjusted to control 
pests. Questions were also asked about factors that influenced the 
choice of these strategies. The 1996 Agricultural Resource Management 
Study--ARMS--survey data will be even more inclusive, as the Cropping 
Practices Survey and the National Animal Health Monitoring System are 
incorporated into ERS' on-going farm business and enterprise costs and 
return accounts surveys. Corn, flue-cured tobacco, and cow-calf will be 
the first commodities studied with these new data.
                         agricultural practices
    Mr. Skeen. Also, can you draw any preliminary conclusions about the 
profitability and environmental effect of integrated pest management, 
nutrient management, irrigation, and precision farming?
    Response. The integration of two major ERS survey efforts in 1996 
combined economic, environmental, and demographic data to increase 
efficiency and to enable analyses of financial performance and 
production practices. Costs and returns data has been linked with 
detailed questions about the adoption of pest, nutrient, soil, and 
water management strategies. In addition, the economic and demographic 
data can be linked with some natural resource attributes to provide 
insight into whether the productive capacity of the land affects 
producers' adoption decisions, and whether the land on which 
agricultural practices are used are vulnerable to soil erosion or 
chemical leaching. The data from the new, integrated Agricultural 
Resource Management Study (ARMS) survey are not yet available for 
analysis. Precision farming is an emerging technology to manage spatial 
variability of soils and pests by making more precise application of 
seeds, fertilizers, and pesticides to small areas with similar 
characteristics. The technology is so new--in most cases only 1 year 
and for a few farms 2-3 years--that not enough economic data are 
available for a reliable evaluation. Research is planned to determine 
how the adoption of selected management practices affect production 
costs and farm income for corn, flue-cured tobacco, and cow-calf 
producers. The second year of the effort will target soybeans, cotton, 
and sugar cane growers. Because of sample size and crop coverage, the 
survey can not be expanded to obtain data on production practices in 
environmentally-sensitive regions.
    Mr. Skeen. One of the objectives of the farm practices and 
pesticide use work was to provide insights into developing practices 
that are economically attractive to producers. What insight has the 
study provided so far?
    Response. The costs and returns data associated with the use of 
alternative pest management practices from the 1996-97 Agricultural 
Resource and Management (ARMS) survey will be available by summer 1997. 
Previous surveys did not contain observations that addressed financial, 
demographic, environmental, and production factors that are critical to 
understanding choices made by producers. Analysis of the ARMS survey 
data should provide insights into some aspects of the economic benefits 
of the adoption of alternative practices for corn production, but 
sample size and crop coverage may not be adequate to compare relative 
profits between practices.
                 linking ers data collection to the nri
    Mr. Skeen. As you know, the Natural Resources Conservation Service 
collects and analyzes natural resource data for the Natural Resource 
Inventory. Are you working with NRCS to link the NRI with the data you 
are collecting?
    Response. We have had a long standing joint data collection effort 
with NRCS and their predecessor agency, SCS. Under the Water Quality 
initiative we cooperated with them in linking production data and input 
data to NRI points in several river basins. Analysis of this data is 
continuing and the output from this study is targeted for publication 
in 1997.
    In 1996, ERS and NASS cooperated with NRCS by using the Agriculture 
Resource Management Study as a vehicle to integrate 2,500 NRI sample 
points with the NASS list frame sample. The project was experimental in 
nature. Primarily it attempted to gain efficiency in data collection, 
linking resource information to the production of specific commodities. 
This effort produced less than was expected in terms of completed 
records for the target commodities at the NRI sample points. This 
suggests that while resources are required for production of 
commodities, commodity oriented studies are limited in gathering 
information about resource issues. However, ERS and NRCS are continuing 
to discuss methods of gaining efficiency, including more effective 
prescreening of the proposed NRI sample points relative to their 
production of the target commodities. Based on our mutual interest in 
data collection and analysis, ERS and NRCS will continue to work 
together in developing information that will help resolve both resource 
and agricultural production issues.
                       integrated pest management
    Mr. Skeen. Please provide the Committee with a table that shows the 
percentage of cropland using IPM over the past five years.
    Response. Unfortunately, I am not able to provide a table that 
shows IPM use over the past five years. National surveys are not 
conducted annually for all major crops. Instead, crops are targeted 
such that growers of all the major commodities are surveyed every few 
years. The National Agricultural Statistical Service (NASS), working 
with ERS, is developing a survey plan to ensure that a national 
assessment of IPM use can be made in 2000. National surveys can be used 
to estimate the adoption of individual practices, but such surveys are 
hard to use to analyze the continuum of IPM use from ``low IPM'' that 
may be defined as the use of scouting only to ``high IPM'' that would 
entail a suit of practices such as alternating pesticides, spot 
treatment, use of biologic controls, or crop rotation to break the pest 
cycle. The effectiveness of any pest management strategy depends on the 
crop, region, pest pressures, and economic factors. Pest scouting, for 
example, was used on 64 percent of corn acreage in 1993, 85 percent of 
acreage for fall potatoes, and 69 percent of soybean acreage. For a 
given crop, there also can be wide variation in adoption rates. For the 
corn acres mentioned above, scouting was done on 76 percent of the 
acres in Illinois but only 46 percent in Wisconsin. The most recent 
summary of IPM use on major field crops and selected fruits and 
vegetables was published by ERS in 1994 in the report, Adoption of 
Integrated Pest Management in the United States, which estimated that 
about one-half of the Nation's crop acreage was under IPM as defined by 
the use of scouting and thresholds.
                         agricultural practices
    Mr. Skeen. When will the work on farm practices and pesticide use 
be completed?
    Response. The ERS program on resource-conserving practices and 
chemical use is an ongoing effort designed to provide a richer 
understanding of why farmers adopt these technologies, the effect of 
adoption on the costs of production, how these practices are related to 
changes in environmental quality, and the role of public policy in 
encouraging adoption of resource-conserving technology. Delivering 
information and research results to the agricultural, environmental, 
and consumer communities is a priority activity. ERS has published 
several documents on the use of pest, water, soil, and nutrient 
management strategies in professional journals and through more widely 
distributed outlets, such as Agricultural Outlook. An updated edition 
of the comprehensive handbook, Agricultural Resources and Environmental 
Indicators (AREI) which contains data and analysis on trends in input 
use and production practices, will be distributed in July, 1997. The 
AREI Updates series provides timely summaries of data from ERS and NASS 
surveys. In addition, ERS will publish the proceedings of the Third 
National Integrated Pest Management Symposium/Workshop which contains a 
synthesis of our current understanding of who is adopting IPM, the 
barriers to IPM adoption, problems in measuring IPM adoption, and the 
costs and benefits of IPM.
                       integrated pest management
    Mr. Skeen. Given USDA is over half way to its deadline for 
enhancing the use of Integrated Pest Management, will the results be 
available in time to help meet the goal of having IPM practiced on 75 
percent of the Nation's cropland by the year 2000?
    Response. The 1994 ERS report Adoption of Integrated Pest 
Management in the United States estimated that about one-half of the 
Nation's crop acreage was under IPM as defined by the use of scouting 
and thresholds. Adoption varies widely depending on crop, region, and 
pest problems. The national surveys conducted by the National 
Agricultural Statistics Service (NASS) in cooperation with ERS have 
limited crop coverage and sample size. Therefore, it will take several 
survey cycles with 1996 being the first integrated survey year, to 
cover the major field crops, vegetables, and fruits with respect to the 
use of select pest management practices.
                         agricultural practices
    Mr. Skeen. How will the information developed in the farm practices 
and pesticide use study be used to encourage implementation of improved 
farming practices? How will the information be delivered to producers? 
Is agribusiness involved in any phase of the study?
    Response. ERS has published several documents on the use of pest, 
water, soil, and nutrient management strategies in professional 
journals and internal papers. Delivering information and research 
results to the agricultural, environmental, and consumer communities is 
a priority activity. An updated edition of the comprehensive handbook, 
Agricultural Resources and Environmental Indicators (AREI) which 
contains data and analysis on trends in input use and production 
practices, will be distributed in 1997 in hardcopy and on the Internet. 
The AREI Updates series, also available in hardcopy and on the 
Internet, provides timely summaries of data from ERS and NASS surveys. 
In addition, ERS will publish the proceedings of the Third National 
Integrated Pest Management Symposium/Workshop which contains a 
synthesis of our current understanding of who is adopting IPM, the 
barriers to IPM adoption, problems in measuring IPM adoption, and the 
costs and benefits of IPM. Participants of the Symposium/Workshop 
represented agribusiness, individual farmers, universities, government 
agencies, and environmental and consumer groups. ERS research on 
factors that influence the adoption of improved farming practices is 
used to develop policies and implementation strategies to encourage 
such adoption. For example, ERS research results are used by CSREES to 
better target extension efforts and deliver assistance to producers.
                    developing performance measures
    Mr. Skeen. Another component of the increase in your 1998 request 
is for $125,000 to support development of reliable performance 
information for GPRA. You state that agencies are finding that 
developing measures that can be compared across agencies is virtually 
impossible. Are you requesting additional funds to do the impossible?
    Response. The wording about the virtual impossibility of developing 
measures that can be compared across agencies emphasizes the complexity 
of the tasks involved in implementing GPRA. Developing measures for 
deriving the benefits from this outcome oriented management approach 
depends on at least two critical and interrelated aspects--setting the 
goals correctly and finding appropriate indicators to measure progress 
toward the goals.
    The first challenge regarding setting performance goals, measures, 
and indicators is to make the goals output-oriented, not input-
oriented, and measure results not process. A second goal setting 
challenge relates to the relative importance to be given to cost 
effective outcomes versus effectiveness at any cost. A third, and 
perhaps the most difficult, challenge is balancing goal setting between 
outcomes which the agency can definitely control, versus broader policy 
outcomes sought. Simplistic reliance on quantitative measurements can 
inhibit rather than contribute to successful outcomes. Setting quantity 
goals for people served and reports produced may undermine the quality 
of the service and the reports. Setting inappropriate or too few goals 
can generate energy to the wrong ends. Setting too many goals may lead 
to confusion about, or even set conflicting priorities.
    The special expertise the ERS will bring to this multi-agency 
effort will be in providing perspective and advice on bridging customer 
satisfaction measurement--e.g., responsiveness and courtesy shown to 
customers--with measuring success in meeting basic goals for the 
program--e.g., retiring most environmentally sensitive lands at lowest 
cost to U.S. taxpayers. ERS will also work with other agencies under 
the initiative to develop performance measures that can be compared 
between different agencies that are measuring similar outputs and 
outcomes.
               statistical expertise for gpra measurement
    Mr. Skeen. You are one agency among others in a $1.6 million effort 
to improve statistical expertise for GPRA measurement. Provide a list 
of the government agencies involved along with how much each is 
requesting to support this initiative.
    Response. The following table summarizes participation by agency in 
this effort which includes: (a) $1.6 million to develop or refine 
comparable ``turn-key'' data collection and measurement resources for 
use by agencies throughout the Government; (b) $0.75 million to develop 
standardized questions and satisfaction scales for common elements of 
Federal services; and (c) $1.2 million to add 10 Federal agencies to 
the American Consumer Satisfaction Index. The additional funding for 
ERS would allow it to participate regarding performance measurement 
issues under the turnkey sampling portion a and question development in 
the standard instruments and scales portion b.

                                           GPRA MEASUREMENT ACTIVITIES                                          
----------------------------------------------------------------------------------------------------------------
                                                                               Standard                         
                                                                    Turnkey  instruments    Customer      Total 
                              Agency                               sampling   and scales  satisfaction    $000  
                                                                     $000        $000      index $000           
----------------------------------------------------------------------------------------------------------------
Bureau of Labor Statistics.......................................       400         200   ............       600
Bureau of Transportation Statistics..............................       100          50          120         270
Census...........................................................       200         100   ............       300
Energy Information Agency........................................       200          50          360         610
Economic Research Service........................................       100          25   ............       125
National Agricultural Statistical Service........................       250          50          240         540
National Center Health Statistics................................       250         200          480         930
Statistics of Income.............................................       100          75   ............       175
                                                                  ----------------------------------------------
      Total $000.................................................     1,600         750        1,200       3,550
----------------------------------------------------------------------------------------------------------------

            1996 farm bill and economic research activities
    Mr. Skeen. With the shift from price supports to production 
flexibility payments, how have the activities and functions of the 
agency changed?
    Response. The shift price supports to production flexibility 
payments will have little effect on the primary function of the 
Economic Research Service, which is to provide economic research, 
information, and analysis for more informed public and private 
decisions related to food, agriculture, resources, and rural America. 
The farm policy shift, however, has led to a redirection or reemphasis 
in research activities within the Agency. For example, the 1996 Farm 
Bill's removal of acreage bases and planting restrictions, and 
decoupling of support payments from production decisions will require a 
major research effort to understand analytically commodity supply 
response and regional production adjustments in this changing policy 
environment. The Farm Bill also shifts much of the burden of managing 
market risk from the government to the producer. The ERS research 
program has responded by redirecting resources toward the study of the 
economics of alternative market risk management strategies. Research 
activities are also underway to study the international price 
volatility aspects of the Farm Bill and the implication for global food 
security.
    The shift in farm programs has also led the Agency to evaluate the 
changing nature of agricultural market information needs. One working 
hypothesis underlying our study of agricultural market information 
needs is that as markets become less reliant on government support and 
more market oriented, market-related information, like that provided by 
ERS, becomes more important. This hypothesized positive relationship 
between market orientation and the value of market information was 
recently suggested as the reason that private sector attendance at 
USDA's 1997 Agricultural Outlook Conference was double what it had been 
in pre-1996 Farm Bill years.
                 trade, risk management and production
    Mr. Skeen. You anticipated receiving more questions on trade 
opportunities, risk management, and production patterns. Has this been 
the case?
    Response. Yes, we have had an increase in interest in each of these 
areas. In the area of trade opportunities, we have received a wide 
variety of requests, ranging from inquiries regarding increased 
opportunities created by NAFTA and the Uruguay Round to implications of 
the Farm Bill for global food security.
    In the area of risk management, we are continuing our close working 
relationship with USDA's Risk Management Agency, and receive many 
inquiries from the Congress, research organizations, and producers. 
Many questions have centered around the wide array of alternative risk 
management strategies that producers use--ranging from diversification, 
spreading sales over the year, and keeping equity in cash to the use of 
hedging, forward contracting, crop insurance, and revenue insurance--
and the effectiveness of these strategies in reducing producers' risk 
of low incomes. We have also received many questions regarding expected 
changes in risk management strategies under the new Farm Bill, as well 
as questions on the potential for producers to adversely select across 
the various new risk management products, and ways that current 
Federally-subsidized insurance-based programs could be modified to 
improve actuarial soundness and producer acceptance.
    We have found greater interest in changing production patterns and 
acreage response under the 1996 Farm Bill environment. We contribute 
both domestic and international analysis regarding expected acreage 
shifts, production patterns, and acreage response to the monthly Inter-
Agency Commodity Estimates Committee for grains, oilseeds, and cotton. 
In addition, we are undertaking an in-depth study of acreage response, 
focusing initially on the estimation of elasticities for corn in the 
North Central region. Many questions on such supply response issues 
have been raised by policymakers, other USDA agencies, and various 
research organizations.
                             1996 farm bill
    Mr. Skeen. Can you tell the Committee what effect the shift to 
production flexibility payments is having on commodity production, 
planting decisions, farm income, agricultural markets, the Federal 
budget, and the environment?
    Response. The shift to production flexibility contract payments 
decouples production decisions from government payments, thereby 
accelerating trends of the previous two major farm acts toward greater 
market orientation. Production of most field crops over the next 7 
years is expected to be similar to what would have occurred if the 
previous law had been extended because the links between government 
payments and producer planting decisions had weakened over the last 10 
years.
    Greater market orientation in the domestic agricultural sector 
under the 1996 Farm Bill puts U.S. farmers in a favorable position for 
competing in the global marketplace. In addition, trade programs under 
the 1996 Farm Bill are targeted to place more emphasis on markets with 
greatest potential for U.S. exports.
    Budgetary outlays for production flexibility contract payments over 
1996 to 2002 are lower than deficiency payments were over the previous 
7 years. In addition, since production flexibility contract payments 
are not linked to market prices, budgetary exposure falls within a 
narrow range, unlike potential outlays with deficiency payments.
    Aggregate net farm income is higher under the 1996 Act than 
projected under previous legislation. With favorable market conditions 
for U.S. agricultural products, deficiency payments under a 
continuation of previous farm law would have been lower than income 
support payments under the 1996 Act. However, with government payments 
fixed under the 1996 Act, farm income could become more variable. As a 
result, farmers will place increased attention on risk management.
    The primary conservation program is the Conservation Reserve 
Program. The CRP was re-authorized in the 1996 Farm Act and has been 
redesigned to target the most environmentally sensitive cropland.
                    production flexibility contracts
    Mr. Skeen. What proportion of farm income will come from production 
flexibility contracts in 1997?
    Response. During 1990-95, the latest years for which ERS has final 
estimates, government payments made up about 5 percent of farm cash 
income and averaged $9 billion per year. Our most recent forecast 
predicts that all government farm payments will average 4 percent of 
farm cash income in both 1996--actual 1996 data is not yet available--
and 1997. We estimate production flexibility payments in 1997 would 
account for about 3 percent of farm cash income.
                        transition to post-2002
    Mr. Skeen. The 1996 Farm Bill calls for production flexibility 
contract payments to end in 2002 with payments of just over $4.0 
billion that year. How are farmers planning to manage the loss of $4.0 
billion in income and what is USDA doing to ease the transition, if 
payments are discontinued?
    Response. Many farmers appear to be increasingly aware of the need 
to better manage their income risk under the 1996 Farm Act environment, 
a situation that is accentuated by the possible loss of $4.0 billion in 
income after 2002. Data are currently being collected through USDA's 
Agricultural Resource Management Study that address changes in 
management strategies in response to the new policy environment. 
Preliminary estimates examining the relationship between financial 
performance and the use of strategies will be available in mid-summer.
    To help producers manage their farm income risk and to ease the 
transition if production flexibility contract payments are eliminated 
in 2002, USDA has been actively involved in developing new types of 
safety nets. New pilot revenue insurance programs have been recently 
developed, and were first offered in the spring of 1996 for selected 
crops in selected areas. These programs--one developed by USDA, the 
other by American Agrisurance, a private company--were expanded to 
cover winter wheat in the fall of 1996 and additional crops and 
geographic areas in the spring of 1997. A further private sector 
product, developed by the Iowa Farm Bureau, is being offered in spring 
1997 for the first time. In total, revenue insurance is available in 
selected areas for corn, soybeans, wheat, grain sorghum, and cotton. 
These revenue insurance products are subsidized and reinsured by USDA.
    The revenue insurance concept has been quite popular with producers 
in many areas. For example, Crop Revenue Coverage (CRC), the product 
developed by American Agrisurance, was first offered in the spring of 
1996 for corn and soybeans in Iowa and Nebraska. Producer participation 
was quite high, with CRC covering about one-third of the corn and 
soybean acreage in the two States. Participation was somewhat lower for 
winter wheat, and much interest is focused on producer participation 
this current spring, with expanded crop and county coverage. In part, 
due to considerable producer interest, the FY 1998 President's Budget 
submission requests that revenue insurance be expanded from a pilot 
program to nation-wide coverage, potentially expanding the revenue 
protection available to farmers.
    In addition, USDA has examined various other types of risk 
management programs to expand the safety net to producers, ranging from 
a re-tooled options pilot program to an income stabilization account 
approach. USDA has also taken steps to initiate a risk management 
education program, focusing not only on the price- and yield-based 
income risks faced by producers, but also the financial risks they 
face.
                           farm bill changes
    Mr. Skeen. With the shift from price supports to production 
flexibility payments, how have the activities and functions of the 
agency changed?
    Response. The shift from price supports to production flexibility 
payments will have little affect on the primary function of the 
Economic Research Service, which is to provide economic research, 
information and analysis for more informed public and private decisions 
related to food, agriculture, resources and rural America. The farm 
policy shift, however, has led to redirection or reemphasis in research 
activities within the Agency. For example, the Farm Bill's removal of 
acreage bases and planting restrictions, and decoupling of support 
payments from production decisions will require a major research effort 
to understand analytically commodity supply response and regional 
production adjustments in this changing policy environment. The Farm 
Bill also shifts much of the burden of managing market risk from the 
government to the producer. The ERS research program has responded by 
redirecting resources toward the study of the economics of alternative 
market risk management strategies. Research activities are also 
underway to study the international price volatility aspects of the 
Farm Bill and the implication for global food security. The shift in 
farm programs has also led the Agency to evaluate the changing nature 
of agricultural market information needs.
    Mr. Skeen. Can you tell us what effect changes in the 1996 Farm Act 
are having on commodity production, planting decisions, farm income, 
and agricultural markets?
    Response. The shift to production flexibility contract payments 
decouples production decisions from Government payments, thereby 
accelerating trends of the previous two major farm acts toward greater 
market orientation. Production of most field crops over the next 7 
years is expected to be similar to what would have occurred if previous 
law had been extended because the links between government payments and 
producer planting decisions had weakened over the last 10 years.
    Greater market orientation in the domestic agricultural sector 
under the 1996 Farm Act puts U.S. farmers in a favorable position for 
competing in the global marketplace. In addition, trade programs under 
the 1996 Farm Bill are targeted to place more emphasis on markets with 
greatest potential for U.S. export gains.
    Aggregate net farm income is higher under the 1996 Act than 
projected under previous legislation. With favorable market conditions 
for U.S. agricultural products, deficiency payments under a 
continuation of previous farm law would been lower than income support 
payments under the 1996 Farm Bill. However, with Government payments 
fixed under the 1996 Farm Bill, farm income could become more variable. 
As a result, farmers will place increased attention on risk management.
                        risk management research
    Mr. Skeen. Provide a brief description of the work you are doing in 
the area of risk management.
    Response. ERS work on risk management covers a wide range of issue 
areas and levels of detail, from broad policy issues to improvements 
that could be made in specific USDA programs. At the broad policy 
level, we are developing a risk management synthesis piece that 
examines the wide array of risk management alternatives available to 
producers--including forward contracting, diversification, futures, and 
insurance--and the effective use of these strategies among producers 
with different characteristics and in different situations.
    In addition, we have included questions in the most recent 
Agricultural Resource Management Study (ARMS) addressing changes in 
risk management under the new 1996 Farm Act environment. Data are being 
collected on a wide range of diverse management strategies that farmers 
began using, or changed the use of, because farm programs changed.
    We have also been investigating the effectiveness of alternative 
risk management tools--including revenue insurance, crop insurance, and 
the use of forward sales and options--in reducing risk across different 
regions. Our findings indicate that the probability of an 
extraordinarily low revenue for a ``representative'' corn producer who 
sells an entire crop at harvest varies from about 8 percent in the 
central Corn Belt to 22-23 percent in States such as South Dakota and 
North Carolina. In contrast, revenue insurance--or the combined use of 
crop insurance and a forward sale--reduce the risk of a very low 
revenue to essentially zero in the central Corn Belt and to about 5-7 
percent in more marginal producing States. We are expanding this 
analysis to additional crops and areas, and will publish a 
comprehensive report on these findings later this year.
    We are also examining improvements that could be made to current 
federally-subsidized risk management tools. We have reviewed the rate-
setting methodologies underpinning current revenue insurance programs, 
and are examining the Standard Reinsurance Agreement and the risk borne 
by private companies. We are conducting evaluations of the current 
peanut, potato, and peach crop insurance programs, focusing on 
developing recommendations for improving actuarial soundness and 
producer satisfaction. We also prepare analyses of the feasibility of 
insuring crops that are not currently insured, and have prepared 
analyses of prevented planting provisions, the new farmer pilot, and 
other topics.
                         modeling capabilities
    Mr. Skeen. Please assess your modeling capabilities. What are your 
strengths and weaknesses? How often are your models updated to include 
more accurate assumptions?
    Response. The strength of the models at ERS is their generally high 
level of empirical sophistication. More than perhaps any other part of 
the discipline of economics, agricultural economists have long sought 
understanding of the food and agricultural sector by constructing and 
estimating complex models of producer, consumer, and market behavior. 
Today many important public policy issues, such as water pollution and 
food safety, involve both market and non-market phenomena, and ERS 
modelers are continually challenged to value outcomes--cleaner water, 
healthier food in ways that can be incorporated into traditional 
empirical models. Compared to many other areas of government activity 
and intervention, agricultural--and to a lesser extent, food and 
natural resource--policy is extremely well supported by empirical 
models whose structures are largely derived from the tenets of economic 
theory.
    For ERS, the current biggest weakness is the models' necessary 
reliance on observations of past producer, consumer, and government 
behavior. The record of the past provides the basis for estimating 
important market and policy relationships, which are useful in 
understanding the future to the extent that it is similar to the past. 
However, when policy changes dramatically, as it has with respect to 
commodity production with the 1996 farm bill, the models' reliability 
in looking ahead may be constrained. The same would be true of models 
that try to represent the behavior of nutrition assistance program 
recipients, for example, under welfare reform. The reliance on 
historical data in statistical estimation of model relationships is 
almost impossible to avoid, but often there are other ways to gain 
insight into changes in future behavior and adjust the models structure 
or coefficients accordingly. These modifications are under continuous 
consideration by ERS analysts.
                        research with iowa state
    Mr. Skeen. EPA has entered into an agreement with Iowa State 
University for agricultural modeling; do you have any similar 
agreements with research institutions? Are there any advantages for you 
to work with EPA and Iowa State?
    Response. Although ERS is not knowledgeable about the specifics of 
the EPA/Iowa State relationship, it is worth noting that EPA does not 
itself have the analytical capacity to build large models of 
agricultural sector behavior. Therefore, EPA's contract with Iowa State 
likely makes sense as a complement to its in-house expertise. Moreover, 
Iowa State's particular knowledge of farm and environmental conditions 
in the Midwest would seem very useful to EPA as it considers regulation 
of farm chemicals. ERS has, within the past five years, had two 
agreements with Iowa State that drew on its knowledge of Midwestern 
agriculture to consider atrazine management and then, more generally, a 
range of alternative pesticide and fertilizer management options in the 
region. In these cases, Iowa State's regional modeling expertise was a 
direct complement to the national perspective that ERS provides on 
agricultural and natural resource issues. Under such circumstances, 
collaboration among Federal agencies and State universities makes a 
strong contribution to policy and program development. ERS supports 
exploiting the complementarity of ERS and university expertise, as 
evidenced by the agreements with Iowa State. More generally, ERS has 
entered into cooperative agreements with universities to collaborate on 
study of commodity market conditions, food policies, and a range of 
issues to which the university perspective is a valuable addition.
                              model access
    Mr. Skeen. Who has access to your models?
    Response. All the models that ERS generates are in the public 
domain, as they are the intellectual property of the U.S. government. 
The only legitimate constraints on access to ERS models arise when 
confidentiality of data sources must be protected. However, there are 
well-established procedures for protecting confidentiality that 
generally do not limit access of those with legitimate research 
interests.
    Ease of access to ERS models, however, is a different issue. The 
agency is continually striving to ensure its major policy and 
forecasting models are available not only to other researchers but also 
to public and private sector interests. Clear documentation of data 
sources and estimation techniques, for example, must be made available 
along with the actual specification of the model itself, and there is 
some unevenness across the ERS program in the level of information 
available. Access to the latest versions of models may be complicated 
by continual updating of model structure and estimation, but it should 
be possible to make the need for and timing of any changes more 
transparent. Models are generally intermediate inputs into larger 
analytical endeavors, so model documentation is important but the 
context in which they are used really determines their value and 
interpretation. The quality of ERS work will benefit by having its 
models widely accessible, as review by research peers and practitioners 
can lead to important improvements.
                               data needs
    Mr. Skeen. Accurate, up-to-date, data is essential to modeling and 
policy analysis. Please describe your most urgent data collection needs 
and their relationship to policy analysis.
    Response. ERS senior management has made assessment of the agency's 
data requirements a top priority. Examination of the history of ERS 
data purchase expenditures documents the variability of purchases in 
recent years. Given the expectation of only slightly increased 
appropriations in future years, it is imperative that scarce resources 
be directed to the most critical data purchases. Accordingly, and for 
the first time, the agency senior managers will ``retreat'' to the US 
Arboretum on April 8, to devote a day to: an inventory of current data 
sources both in terms of surveys directly commissioned by ERS and 
secondary in terms of data made available by other Federal agencies, 
such as Census, and other private and public sources and to discuss how 
to set data priorities in the future.
    Data priorities must be clearly linked to the needs of the research 
program, itself largely policy-driven. At the present, a general 
observation can be made that the breadth of ERS responsibilities in the 
future will transcend a traditional focus on commodity markets. In FY 
1997, all $4 million ERS data purchase funds will go to support the 
Agricultural Resource and Management Survey, administered by NASS. This 
new and innovative survey combines, for the first time, questions about 
farm finances and crop and livestock production and natural resource 
management practices. ARMS is a critical underpinning of a large part 
of the ERS program, but it cannot supply information about consumer 
demand, about foreign market behavior, or any number of other important 
economic phenomenon. ERS would be pleased to report to the Committee on 
its findings with respect to data needs, following our retreat.
                                 napiap
    Mr. Skeen. How much did your agency contribute to the National 
Agricultural Pesticide Impact Assessment Program in fiscal year 1996 
and what do you anticipate contributing in fiscal year 1997?
    Response. ERS contributed $300,000 to the National Agricultural 
Pesticide Impact Assessment Program (NAPIAP) in FY 1996. These funds 
were used to support the salary of the Deputy Director of NAPIAP and 
ERS staff who contribute to NAPIAP assessment activities. ERS estimates 
that its contribution in FY 1997 will also be $300,000.
                         global food assessment
    Mr. Skeen. What were the results of your annual global food 
assessment analysis in 1996?
    Response. Food aid needs for 65 developing countries are estimated 
at 9 million tons for 1996/97, 35 percent below the estimate needs for 
1995/96. This reduction in needs can be attributed to good harvests in 
many regions and a forecast decline in world grain prices that is 
expected to raise commercial import capacity.
    Sub-Saharan Africa is expected to experience the sharpest decline 
in food aid needs due to a record grain harvest. The region's needs in 
1996/97 are estimated to fall 40 percent to 3.4 million tons. Grain 
production is up significantly in Southern Africa due to expanded 
plantings and favorable weather; as a result, 1996/97 food aid needs 
are estimated at just over 400,000 tons, compared with 1995/96 receipts 
of about 800,000 tons. The regions two largest food aid recipients in 
1995/96 Angola and Mozambique, have had dramatic recoveries in grain 
production due to the end of civil wars that had plagued these 
countries for nearly two decades. East Africa's 1996/97 needs declined 
by almost half from last year's estimates. Output in Ethiopia has 
surged in the last couple years due to an end in the civil war, major 
policy reforms, and favorable weather conditions.
                               user fees
    Mr. Skeen. Update the user fee table that appears on page 169 of 
last year's hearing record to include fiscal year 1996 actuals and 
fiscal year 1997 estimates.
    Response. The following is a table that shows our user fee 
receipts.

                            USER FEE RECEIPTS                           
------------------------------------------------------------------------
                        Fiscal year                             Amount  
------------------------------------------------------------------------
1988.......................................................      $49,000
1989.......................................................      140,000
1990.......................................................      312,000
1991.......................................................      338,000
1992.......................................................      327,000
1993.......................................................      312,000
1994.......................................................      425,000
1995.......................................................      339,000
1996.......................................................      353,000
1997 estimate..............................................      350,000
------------------------------------------------------------------------

                   internet information dissemination
    Mr. Skeen. As you move toward greater use of the Internet to 
disseminate data and reports, how will your user fees and publication 
costs be impacted.
    Response. All ERS situation and outlook reports have been available 
on the Internet since 1995 and our other periodicals and many of our 
research monographs are available now. Our experience has been that the 
Internet is only a partial substitute for distribution of printed 
reports--many agency customers do not have access to the Internet and 
others with access still want and need the printed products. And the 
Internet has made many more customers aware of our outputs. 
Accordingly, our publication costs are essentially unchanged. User fee 
income peaked in 1994 as the decrease in fees from customers that have 
switched from printed reports to electronic copies on the Internet have 
not entirely been offset by sales to new customers generated by 
Internet publicity.
                         pesticide data program
    Mr. Skeen. In addition, update the Pesticide Data Program table 
that appears on page 169, to include fiscal year 1996 actuals and 
fiscal year 1998 estimates.
    [The information follows:]

                  ERS PESTICIDE DATA PROGRAM (1991-98)                  
------------------------------------------------------------------------
                                                     Thousand    Staff  
                    Fiscal year                      dollars     years  
------------------------------------------------------------------------
1991..............................................      1,900         20
1992..............................................      1,900         19
1993..............................................      1,750         18
1994..............................................      1,200         11
1995..............................................      1,200         11
1996..............................................          0          0
1997 estimate.....................................          0          0
1998 estimate.....................................          0          0
------------------------------------------------------------------------

                environmental quality incentives program
    Mr. Skeen. Your agency conducts an ongoing research program related 
to USDA conservation and water programs. Last year you said that your 
agency planned on working with the Natural Resources Conservation 
Service and the Farm Services Agency to insure that the Environmental 
Quality Incentives Program (EQIP) rules are designed to maximize 
environmental benefits per dollar expended. Please report on how ERS 
contributed to the EQIP rulemaking.
    Response. ERS was an active participant on the interagency-
interdepartmental work group that developed EQIP rulemaking issues and 
options that were presented to the Secretary of Agriculture. ERS took 
the lead in developing two decision memoranda that related directly to 
the ability of EQIP to maximize environmental benefits per dollar 
expended. The first of these addressed what process USDA would use to 
allocate EQIP funds across the various and competing conservation needs 
of the Nation. We stressed that regardless of the exact process used, 
it was essential that at some point comparisons of relative 
environmental cost-effectiveness of funding decisions be made from a 
national perspective to insure that the program was purchasing the most 
overall environmental improvement. The option recommended by the work 
group called for States, with input from local work groups, to annually 
propose EQIP priority areas for funding. The proposals would be 
prioritized by a national interagency-interdepartmental review team. 
The review team's recommendations would be made to the Chief of NRCS 
for approval of funding with FSA concurrence. States would then carry 
out program delivery within funded priority areas using a process to 
rank producer applications for environmental cost-effectiveness. This 
two-state targeting process is obviously more complicated than the 
single-state process used for the CRP. Under the CRP, conservation 
practices are mainly limited to permanent grass or tree cover. This 
simplifies the prioritization process in that producer bid comparisons 
need only consider differing environmental vulnerability and contract 
costs. In the case of EQIP, the prioritization process also needs to 
take into account the differing costs and effectiveness of a multitude 
of crop and livestock practices which can vary from one location to 
another. Because the priority area proposal process was new to the 
States and there was little time to prepare extensive EQIP proposals 
for 1997, NRCS opted to determine State funding allocations for 1997 
based primarily on a national rating system incorporating 26 
environmental and other factors.
    The second decision memorandum developed by ERS addressed how the 
performance of EQIP would be evaluated including the criteria for 
evaluation, who would do the evaluation, how often evaluation would be 
performed, and how the results of the evaluation would be used. 
Maintaining program efficiency over the life of the program requires 
periodic assessment of program performance using various indicators. 
Redirecting and enhancing program activities and efforts over time is 
made possible by effective program evaluation. ERS also worked with 
NRCS to develop the rating process for use in prioritizing EQIP 
priority area proposals.
                         eqip rule improvements
    Mr. Skeen. Could the EQIP rules be improved? If so, how?
    Response. We believe that the rules the Department is establishing 
for EQIP operation are consistent with achieving an environmentally 
cost-effective program. The challenge lies in the quality of the 
information gathered to inform annual EQIP funding decisions and the 
possibility of moving away from historic State cost-share funding 
allocations when indicated by the national prioritization process.
    Because the EQIP priority area proposal funding process was new and 
there was little time for the States to prepare extensive EQIP 
proposals for submission to the national office for 1997, NRCS judged 
that the proposals they received could not be used to exclusively 
determine 1997 EQIP funding allocations. Instead, they based their 1997 
State funding allocations primarily on a formula that incorporated 26 
national environmental and other factors. An adjustment constraint was 
also placed on the formula such that the 1997 EQIP funding allocation 
to a State could not be significantly less than the historic allocation 
of cost-share funds received by the State. For future years steps can 
be taken to improve the quality of the information contained in State 
priority area proposals so that they can play a major role in EQIP 
funding decisions.
                             eqip analysis
    Mr. Skeen. Have you conducted an analysis on this program: If so, 
what did you find?
    Response. Because 1997 is the first year of real program operation, 
we have not yet conducted an analysis of EQIP.
                             water quality
    Mr. Skeen. Two years ago in the House report, the Committee 
encouraged ERS to work with the Farm Service Agency and the Natural 
Resources Conservation Service in the area of pollution prevention. The 
Committee also asked that you report on the progress of programs that 
incorporated the goal of pollution prevention such as the integrated 
crop management program and the water quality incentive program. The 
report was to be completed by September, 1995, but at last year's 
hearing you were unable to discuss results from the report because it 
was still under review. For the record, summarize the results of this 
report.
    Response. In this report, which was submitted to Congress in April 
1996, ERS with ARS, FSA, CSREES, and NRCS, reviewed U.S. Department of 
Agriculture programs that address water quality and pollution 
prevention. The programs covered include the Agricultural Conservation 
Program, Water Quality Incentive Program, Integrated Crop Management 
Program, Colorado Salinity Control Program, USDA's Water Quality 
Program, Conservation Compliance, Conservation Reserve Program, Wetland 
Reserve Program, and Integrated Farm Management Program Option. The 
review contains: descriptions of the program of activity; legislative 
and administrative history; statistical summaries on program 
enrollment, practices installed, payments, etc.; and an assessment of 
pollution prevention activities. Program summaries and progress are 
based on information from a variety of sources, including published 
statistical summaries, ERS program assessments, and the findings of 
other government and private research. A summary section reviews the 
strengths and weaknesses of the voluntary approach towards pollution 
prevention that is the basis for most of USDA's pollution prevention 
programs.
    Federal efforts to protect and improve water quality are 
increasingly emphasizing prevention of water pollution from 
agricultural sources. Controlling agricultural sources of pollution can 
be difficult because it is frequently impossible to trace the source of 
the water impairment back to a particular source. In addition, because 
farms differ by type of enterprise, by resource characteristics such as 
soil type or proximity to water, by ownership patterns, and by 
attitudes towards business risk, no single approach to pollution 
prevention or water quality will work for all farmers in any region. 
Instead multiple approaches are needed.
    In FY 1994, the USDA spent an estimated $3.5 billion on voluntary 
resource conservation and other environmental programs and activities, 
many of which address water quality. USDA uses six broad approaches to 
achieve conservation and environmental goals: technical assistance and 
education; financial assistance such as cost-sharing; public works 
projects; rental and easement programs; data and research programs; and 
programs ``linked'' to commodity programs.
    Typically, one or two of these approaches are evident in the many 
programs and activities USDA uses to address water quality and 
pollution prevention. For example, the Agricultural Conservation 
Program, and the Colorado Salinity Control Program provided technical 
assistance and cost-sharing for practice installation. Rental and 
easement programs--primarily land retirement programs--pay farmers to 
take land out of production and place it in conservation uses and 
provide technical assistance to help manage retired land.
    Technical assistance plays a crucial role in programs that are 
``linked'' to commodity programs, such as conservation compliance. 
Conservation compliance requires that any lands classified as highly 
erodible must be farmed using an approved conservation system in order 
to retain eligibility for USDA program benefits.
    USDA research programs support the other five approaches. R&D 
activities include: research on new and alternative crops and 
agricultural technologies to reduce agriculture's adverse impacts on 
water resources; research that estimates the economic impacts of 
policies, programs, technologies designed to improve water quality and 
prevent pollution; and environmental and conservation data collection. 
USDA also administers competitive grants and coordinates conservation 
and water quality research conducted by State Agricultural Experiment 
Stations and Land Grant Universities.
    The progress of USDA's pollution prevention programs, in terms of 
water quality improvements, is often difficult to measure. For non-
targeted programs, water quality monitoring is impractical, and 
noticeable improvements in water quality are unlikely, particularly in 
the short run. Of the geographically targeted programs, the Colorado 
River Salinity Control Program is the only one that is showing some 
measure of water quality protection. For other targeted projects, water 
quality monitoring is inadequate for tracking changes in quality that 
might result from USDA efforts. In those cases where adequate 
monitoring has been established in a project area, more time must pass 
before any trends in water quality can be expected to be detected. One 
of the findings of past watershed projects is that changes in water 
quality can be detected only after a sufficiently long period of time.
    Recent research indicates that technical and financial incentive 
structures for most of USDA's pollution prevention programs are 
limited. Experience suggests that a mix of education, technical, and 
financial assistance offered over an extended period of time is 
necessary to encourage farmers to adopt alternative management systems. 
Yet most USDA programs offer only one or two of these types of 
assistance. The Hydrologic Unit Area projects and Demonstration 
Projects of the Water Quality Program started out with the most 
balanced mix of education, technical, and financial assistance of all 
USDA's targeted programs. However, since 1993, the amount of financial 
assistance made available to these projects has dropped to zero. 
Research and experience with other projects and programs indicates that 
education and technical assistance by themselves are inadequate for 
encouraging farmers to adopt most of the kinds of practices necessary 
to improve water quality.
    Given the current limits in the offered incentives, producers tend 
to adopt new practices solely on the basis of profitability, rather 
than for reasons of stewardship. Evidence suggests that producers 
generally do not consider local water quality to be a concern. Making a 
strong linkage between production activities and personal health would 
be necessary to get farmers to adopt alternative practices that reduce 
net returns. Targeting programs to geographic areas with known problems 
increases the likelihood of success. Targeting raises the level of 
local involvement and concern, increases program cost-effectiveness, 
and increases the probability that water quality protection will be 
achieved. Newer USDA programs such as the Environmental Quality 
Incentives Program and the new Conservation Reserve Program signup 
emphasize greater use of targeting for environmental problems.
                             data purchases
    Mr. Skeen. Please update the table that appears on page 170 of last 
year's hearing record showing data purchases, to include fiscal year 
1996 actuals and estimates for fiscal years 1997 and 1998.
    Response. Following is a table that shows our data acquisition 
purchases.

Data acquisition purchase

        Fiscal year                                     Thousand dollars
1989....................................................          $3,527
1990....................................................           4,806
1991....................................................           5,960
1992....................................................           5,453
1993....................................................           6,237
1994....................................................           3,011
1995....................................................           2,819
1996....................................................           2,844
1997 estimate...........................................           4,000
1998 estimate...........................................           4,000
                     cooperative marketing of grain
    Mr. Skeen. A report on cooperative marketing associated with United 
States and Canadian grain for exports was also under review at this 
time last year and you were unable to summarize the study results. For 
the record, summarize the results of this study.
    Response. The Secretary submitted the report to Congress in 
December last year. I am pleased to summarize the results of the study.
    The report concluded that a cooperative marketing venture would 
require considerably more compatibility of institutions, laws, and 
economic structures than currently exists. Contrasting systems of 
highly controlled grain marketing by the Canadian Government and the 
Canadian Wheat Board and the relatively unregulated open-market system 
within the United States pose a significant obstacle to a cooperative 
venture. Levels of government support for agriculture have declined in 
both the United States and Canada; nonetheless, significant differences 
in marketing institutions and regulatory environment remain. 
Significant differences in grain quality standards and varietal 
controls, cleaning requirements, blending restrictions, transportation 
regulations and systems, and pricing practices also exist. A U.S.-
Canada wheat exporting cooperative would require a commitment from 
producers in both countries for price pooling arrangements, as well as 
compatible rules and regulations. Even with commitments on pricing and 
regulations, studies of international commodity cartels indicate that 
they rarely sustain their effectiveness in the long run.
                    congressionally mandated studies
    Mr. Skeen. Please provide a list of all Congressionally mandated 
studies that your agency performs.
    Response. We carry out several recurring Congressionally mandated 
studies that include an annual report on trends in family farm 
operations (7 U.S.C. 2266); an annual global assessment of food 
production and needs and planned programming of food assistance for the 
coming year (7 U.S.C. 1736); an annual report on foreign ownership of 
agricultural land (7 U.S.C. 3504); annual estimates of costs of 
production for wheat, feedgrains, cotton, and dairy commodities (7 
U.S.C. 1441); a monthly table of farm to retail price spreads and two 
annual reports on food costs, price spreads, and marketing costs (7 
U.S.C. 1622); and annual and bi-monthly reports on foreign agricultural 
trade of the United States (13 U.S.C. 301).
    The North American Free Trade Agreement (NAFTA) Implementing Bill 
mandates a biennial report on the performance and impacts of NAFTA with 
a specific focus on commodities affected by the agreement, investment 
in agriculture and rural communities, employment impacts, and any other 
information the Secretary of Agriculture determines to be important 
(Subtitle B--Agriculture). The first of these biennial reports was due 
March 1, 1997. ERS has an established NAFTA monitoring task force and 
has already issued six monitoring reports that have reported on the 
same factors as the biennial report. The first biennial report for 
Congress is now in the clearance phase.
    At this time, we are also actively working on four one-time studies 
requested by Congress. The report mandated by Section 650 of the 
Federal Agriculture Improvement and Reform Act of 1996 to assess the 
availability of credit in rural areas for agriculture, housing, and 
rural development has been completed by ERS and is going through final 
Departmental clearance. We are conducting a study as mandated under 
Title I, Section 15, of the Federal Agriculture Improvement and Reform 
Act of 1996 regarding the potential impact of World Trade Organization 
obligations under the Uruguay round that grants access of additional 
cheese to the United States. The report on this study is due June 30, 
1997. We are managing the sustainable agriculture economic impact study 
congressionally mandated under Title XVI, Subtitle B of the Food, 
Agriculture, Conservation, and Trade Act of 1990. This study is being 
conducted in collaboration with six land grant universities, the 
Environmental Protection Agency, and the Cooperative State Research 
Education, and Extension Service and is now near completion. We are 
also conducting a study in cooperation with the Natural Resources and 
Conservation Service on conservation tillage as directed by the House 
and Senate 1997 Appropriations Bill Reports. We expect to complete this 
study by the end of 1997.
    The study to investigate the advantage and disadvantages of 
marketing grain in a cooperative exporting venture with Canada that was 
requested by the Senate Committee on Appropriations in their 1995 
Committee Report was completed by ERS and transmitted to Congress in 
December 1996.
                          nutrition education
    Mr. Skeen. ERS is assisting the Cooperative State Research, 
Education, and Extension Service and the Food and Consumer Service in 
an evaluation of a joint Extension/WIC nutrition education initiative. 
Please report on the status of the project.
    Response. Under this 3-year FY 1993 initiative, 18 Cooperative 
Extension System projects were competitively awarded funding for the 
development of community nutrition education programs. ERS met with the 
project leaders on several occasions to provide guidance and technical 
assistance on evaluation strategies. ERS submitted a first-year 
progress report in August 1995. Following that, ERS met with project 
directors at a conference to discuss progress and ways to improve the 
evaluation with appropriate statistical analyses, using control/
comparison groups, and reporting results in a standard manner.
    The projects have implemented a variety of innovative educational 
techniques to address the nutritional needs of hard-to-reach 
populations. The first year reflected substantial progress in enhancing 
interagency cooperation between WIC and Extension at the local level, 
fulfilling a primary objective of this initiative to strengthen 
referral networks and improve program efficiency. Many projects have 
already reported positive changes in either dietary intake, infant 
feeding, and/or food preparation behaviors. ERS will prepare a summary 
report after all projects are complete and individual project reports 
are submitted.
                         food program delivery
    Mr. Skeen. Has ERS done research on how efficiently USDA food 
programs are delivered?
    Response. Yes, USDA is the federal leader in the movement to use 
Electronic Benefit Transfer (EBT) technology for assistance programs. 
In addition to lowering delivery costs, EBT is expected to reduce the 
stigma associated with food stamp participation and use. Since an 
estimated 30-40 percent of eligible households do not participate in 
the program, a change in the propensity to enroll could have large 
budgetary consequences. ERS is studying how EBT might affect Food Stamp 
Program participation rates and the Food Stamp Program budget.
    In addition, a current ERS project looks at the commodity 
procurement operations of USDA/FSA. The National School Lunch Program 
is the largest client for those operations, but commodities are also 
procured on behalf of other USDA food programs. The research focuses on 
USDA product specifications, inspection requirements, and labeling 
rules; it also covers auction methods used to obtain supplies from 
competing vendors. The project to be completed by Summer 1997, will 
evaluate the likely effects of changes in USDA procurement methods.
                 economic conditions and food programs
    Mr. Skeen. How closely is the need for WIC, Food Stamp, and Child 
Nutrition Programs tied to economic conditions?
    Response. The Food Stamp Program is the largest of USDA's food-
assistance programs, accounting for almost two-thirds of total food-
assistance expenditures. As an entitlement program, all people meeting 
the program's eligibility requirements are automatically entitled to 
assistance. Participation in the Food Stamp Program is usually 
inversely related to the Nation's economic health. For example, from 
fiscal 1989 through fiscal 1994, average monthly participation rose 
from less than 19 million to 27.5 million due to rising poverty rates, 
the economic recession, and declining median family incomes. 
Participation in the Food Stamp Program decreased in both fiscal 1995 
and 1996 as economic conditions improved.
    Participation in the National School Lunch Program, which accounts 
for the majority of total outlays for the child nutrition programs, has 
been relatively stable in recent times. Changes in the number of free 
and reduced-price meals served correlates roughly with the poverty 
rate.
    The Special Supplemental Nutrition Program for Women, Infants, and 
Children (WIC) provides food, nutrition counseling, and access to 
health services for low-income women, infants, and children. Applicants 
must meet income and ``nutritional risk'' eligibility criteria to 
qualify for program benefits. Unlike the Food Stamp and National School 
Lunch Programs, WIC is not an entitlement program and has been limited 
by the funds appropriated each year. WIC has never served more than 75 
percent of the eligible population, despite increases in funding over 
the past decade. An economic downturn would increase the size of the 
eligible population lowering the coverage rate if funds were held 
constant.
    Not all people who are eligible for a food assistance program 
actually apply. There are a number of reasons for nonparticipation. 
Some people are unaware of the program or presume they are not eligible 
for benefits, others feel that the benefits are not worth the effort to 
obtain, while still others may not participate because of the perceived 
stigma. In 1994, about 71 percent of all eligible persons, and 69 
percent of all eligible households participated in the Food Stamp 
Program. These participating households received 81 percent of total 
potential food stamp benefits. Each school day in fiscal year 1996, 
about 58 percent of all children in the participating schools and 
resident childcare institutions, participated in the School Lunch 
Program. An estimated 80 percent of the WIC eligible population would 
participate if the program was fully funded.
                             welfare reform
    Mr. Skeen. What is the effect of welfare reform on USDA food 
programs?
    Response. The Act's biggest changes are to the Food Stamp Program, 
which include the denial of food stamp benefits to most legal 
immigrants, the requirement for able-bodied adults to meet new work 
requirements, and across-the-board cuts in food stamp benefits. States 
now have the option of operating a simplified Food Stamp Program for 
households in which all members participate in the Temporary Assistance 
for Needy Families program (TANF). Under the simplified program, States 
may determine food stamp benefits using TANF rules which may be more 
restrictive than Food Stamp Program rules, regular food stamp rules, or 
a combination of the two. A requirement of the Act is that the State's 
simplified programs may not increase Federal food stamp costs.
    Other food-assistance programs, including the School Breakfast 
Program, the Summer Food Service Program, Child and Adult Care Food 
Program, will be impacted to a lesser degree. In addition, States now 
have the option to provide or deny most immigrants benefits from the 
WIC, Summer Food Service Program, Child and Adult Care Food Program, 
Commodity Supplemental Food Program, TEFAP, and the Food Distribution 
Program on Indian Reservations.
    The net effect of these changes will be a reduction in Federal 
spending for food assistance. Estimates from the Congressional Budget 
Office project that the Act will lower spending in the Food Stamp 
Program, child nutrition programs, and the food donation programs by 
about $30 billion over the 1997-2002 period. However, these are 
estimates, since there is still much uncertainty about how States will 
use their new found flexibility and how strict the Federal government 
will be in enforcing work requirements in locations with high 
unemployment. In addition, the Food Stamp Program will be indirectly 
affected by the Act's changes to other welfare programs. Since food 
stamp benefits generally rise as a household's income falls, a 
reduction in cash assistance may increase food stamp benefits for 
eligible households. Therefore, much of the projected Federal budgetary 
savings from the new legislation will depend on whether welfare 
recipients can obtain jobs that make them self-sufficient.
                         haccp compliance costs
    Mr. Skeen. At last year's hearing you indicated that the Food and 
Consumer Economic Division would report in December 1996, on the 
findings from an evaluation of HACCP compliance costs in meat slaughter 
and processing establishments. The purpose of this effort was to model 
how alternative pathogen control strategies alter plant costs since 
primary cost data was not collected. What are the findings of this 
report?
    Response. Our analysis was based on cost information supplied by 
FSIS, regulatory requirements stated in the preliminary and final 
versions of the HACCP rule, and Census data. We found that the 
regulatory compliance costs of the final HACCP rule were about 50 
percent of those associated with the proposed HACCP rule. We also found 
that the cost impacts of the proposed HACCP rule were lower for single-
species, new multi-species plants, high-volume plant costs were lower 
than low-volume plants, and single-process plant costs were lower than 
multi-process plants. More generally, we found that the preliminary 
HACCP rule had lower larger plants costs impacts than smaller ones. 
However, by substantially changing those regulatory requirements that 
provided only marginal food safety benefits, FSIS greatly reduced the 
cost advantage enjoyed by large plants in the final HACCP rule. We 
concluded that it would be difficult to distinguish the impact of HACCP 
costs on firm profitability or survival from the natural economic 
forces affecting the industry.
                        follow-up on haccp costs
    Mr. Skeen. As follow-up to its HACCP study, is ERS collecting data 
on the impact of HACCP on actual costs incurred by meat processors and 
on livestock and or meat prices?
    Response. Data on the costs incurred by meat processors resulting 
from HACCP would be a valuable input for evaluating the effects of food 
safety inspection. ERS currently has no plans to conduct such a survey. 
ERS's research on production in the slaughter and processing sectors is 
planned in coordination with Food Safety and Inspection Service (FSIS). 
This research relies heavily on the Census of Manufacturers obtained 
from the Bureau of Census and to a more limited extent on program 
operation data number of inspectors, inspector hours, and food safety 
violations from FSIS. The Census of Manufacturers data provide a 
comprehensive snap-shot of slaughter and processing plants, but are 
less valuable for tracking the incidence of policy through time because 
data are collected so infrequently.
                       costs in the meat industry
    Mr. Skeen. Last year your agency reported preliminary findings on 
the Food and Consumer Economics Division's study of changes in costs in 
the meat and poultry industries. Have the preliminary results discussed 
last year changed with further analysis?
    Response. The study found that there are economies of scale in meat 
and poultry slaughter, that is, larger plants have lower per animal 
slaughter costs than smaller plants. Moreover, changes in product mix, 
toward boxed beef and pork, have favored large plants because of scale 
economies in those operations. These economies are not large, as large 
slaughter plants can deliver products to retailers for costs only 3-5 
percent below small plant costs, but the scale economies are important, 
as production shifted sharply over time to lower cost large plants. 
Finally, the evidence also suggests that the current largest plants 
would not realize lower costs by becoming larger still; currently, the 
largest plants appear to exhaust scale economies.
                         slaughter plant models
    Mr. Skeen. Also, describe how the red meat and poultry slaughter 
plant models are being used.
    Response. The red meat and poultry slaughter plant models are being 
used to estimate theimportance of scale economies in slaughter and to 
identify the role of scale economies in accounting for changes in 
industry concentration. In the future, they can be used to estimate the 
effects of changes in factor prices, such as wage rates or livestock 
prices, on wholesale beef and poultry prices.
                      benefits and costs of haccp
    Mr. Skeen. Your agency is collaborating with FSIS, FDA, and CDC to 
evaluate the benefits and costs of using HACCP approaches to improve 
food safety. When will the results of this evaluation be available?
    Response. ERS has recently completed a study of the benefits and 
costs of HACCP approaches to improve the safety of meat and poultry 
products. The study considered several different scenarios on how the 
application of HACCP techniques to meat and poultry inspection would 
lead to lower levels of foodborne pathogens and prevent illness and 
deaths from pathogen-related diseases. The benefits of reducing the 
levels of pathogens subject to control under HACCP include the savings 
in medical costs and lost productivity as illnesses related to 
pathogens in meat and poultry products are reduced. The study also 
evaluated the implementation and compliance costs of HACCP and compared 
them to the expected benefits of pathogen control. Benefits and costs 
were measured over a 20-year time frame.
    The low and high estimates for potential benefits are due to the 
current uncertainty is correct, the analysis shows that the new HACCP-
based program must reduce pathogens by 15 to 17 percent for benefits to 
outweigh projected costs. If the high estimate is the correct estimate, 
the new program needs to reduce pathogens by only 4 to 5 percent to 
generate net societal benefits.
                           foodborne illness
    Mr. Skeen. Last year you stated that ERS was looking at a range of 
policy alternatives for reducing the risk of foodborne illness. What 
conclusions can be drawn about policies such as consumer education 
programs, safe food handling labels, and meat and poultry irradiation.
    Response. Food safety and reduction of foodborne illness is 
everyone's concern. There are many actions that consumers, retailers, 
and food-service workers can take to reduce the likelihood of food 
contamination or illness from microbial pathogens in meat and poultry. 
These actions fall into three broad categories: time and temperature 
control, proper cooking, and proper handling.
    Since 1993 the USDA has required that all packaged meat and poultry 
products include a label providing information on safe handling and 
preparation. In addition, USDA has begun a number of educational 
efforts to raise public awareness of the importance of safe food 
handling and to provide information on how consumers can protect 
themselves from the risks of foodborne illness, including an 800 
hotline number.
    If everyone adopted safe food handling and preparation practices 
the risk of foodborne illness could be substantially reduced. To be 
effective, labeling and educational efforts must change consumer 
behavior, and this change in behavior must be continually reinforced if 
the health benefits are to persist. Evidence indicates that labeling 
and education efforts can have some effect in promoting safer food 
handling and cooking practices, but no firm conclusions can be drawn.
    Irradiation of meat and poultry products can also reduce pathogens 
and prevent foodborne illness, but to date irradiated foods have found 
only limited acceptance in the market, and only a few food products 
have been approved for treatment by irradiation.
    The Federal government, through the President's Food Safety 
Initiative, is taking action to prevent foodborne illnesses through 
application of HACCP techniques in meat and poultry processing. The 
Initiative also calls for improving education among consumers, 
distributors, retail and food service workers, and institutional food 
handlers. Understanding and practicing proper food handling procedures 
from the farm to table can reduce foodborne illness and reinforce the 
efforts already underway to reduce food safety risks through 
application of HACCP in food processing. No conclusion can yet be drawn 
of the extent to which these education efforts can decrease the costs 
of foodborne illnesses.
                        marketing opportunities
    Mr. Skeen. Are there opportunities for agribusiness to create 
markets for foods processed with special treatments for controlling 
foodborne pathogens?
    Response. Yes, there are opportunities. However, to turn the 
concern into viable marketing opportunities for food with improved 
safety characteristics, several necessary conditions must be met. 
Limited sales in the health care and food service markets have occurred 
from poultry products irradiated to reduce foodborne pathogens. Recent 
testmarketing has also occurred in certain grocery stores of shell eggs 
pasteurized to reduce the pathogen Salmonella enteritidis. To enter 
such markets, agribusiness, first, must be able to identify and 
anticipate the current and emerging consumer concerns and respond to 
them with products addressing the concerns. Second, agribusiness must 
understand consumer preferences for risk-reducing strategies. A strong 
preference for self-control, through food preparation and consumption 
practices, tends to limit, though not necessarily preclude, 
opportunities for safer food. Third, the potential market size must be 
sufficient to support viable operations. Markets for safer food may 
grow over time as consumers become more aware of the importance of 
safer food, and as the number of individuals susceptible to foodborne 
illnesses such as the elderly and immuno-compromised grows. Fourth, 
agribusiness must be able to recover added costs. This would not only 
require efficient technology but also that a sufficient number of 
consumers be informed of the benefits of safer food, have trust in the 
information, and perceive the need for safer food. Fifth, market 
institutions must support innovations. For example, incentives to 
introduce safer food are stronger if improved and regular 
characteristics can be distinguished from each other by consumers and 
if truthfulness in product claiming is required by regulations.
                             budget request
    Mr. Skeen. Provide a detailed breakout of your budget request to 
the Secretary; the Secretary's request to OMB; and OMB's allowance.
    Response. The ERS budget request to the secretary was $67,485,000. 
The specific increase items in this request were $2,360,000 for pay 
costs, $424,000 for inflation, $3,092,000 for relocation costs, 
$1,500,000 for analysis of resource-conservation production practices, 
and $7,000,000 for nutrition linkages to agriculture.
    The Secretary's request to OMB for ERS was $54,971,000, and 
included increases of $795,000 for pay costs, and $1,067,000 for 
analysis of resources-conservation production practices.
    The OMB allowance to ERS was $54,310,000, and included increase of 
$795,000 for pay costs, $281,000 for analysis of resource-conservation 
production practices, and $125,000 for GPRA measurement tools.
                            farm employment
    Mr. Skeen. You estimated there was some reduction in U.S. farm 
employment in 1994 and 1995, but expected an improvement in the 
employment situation in 1996. Was this the case?
    Response. There has been a small, 34,000 worker, growth in 
agricultural employment since 1994, from 3,409,000 to 3,443,000. 
Estimates of farm employment itself are hard to determine. The 
Department of Agriculture has dropped its annual farm employment 
estimates. When the Bureau of Labor Statistics (BLS) conducts its 
monthly Current Population Survey of households, however, its uses 
households with agricultural workers as the basis for the 3.4 million 
agricultural workers estimate. A more detailed listing of the published 
BLS household data reveals agricultural employment data included some 
agricultural service workers--198,000 in veterinary services, 803,000 
in landscape and horticultural services, and 196,000 in other 
agricultural services,--as well as 2,247,000 farm workers, Based on the 
1990 Census, the BLS revised these estimates in 1994. The revised 
series is not strictly comparable to previous estimates.
                            nafta monitoring
    Mr. Skeen. The Commercial Agricultural Division is continually 
monitoring the NAFTA agreement. Would you give us a status report?
    Response. The North American Free Trade Agreement (NAFTA) between 
the United States, Mexico, and Canada has operated for three years 
since it went into effect on January 1, 1994. When assessing the impact 
of NAFTA in relation of Mexico, it is important to point out that 
opening of Mexico to both trade and foreign investment has been 
underway since the mid 1980s. NAFTA has helped lock in the gains 
achieved since the mid 1980s and has defined rules by which further 
trade and investment can proceed.
    There have been other factors besides the NAFTA agreement that have 
influenced U.S. trade with Canada and Mexico since 1993. There has been 
a slow devaluation of the Canadian dollar, a major devaluation of the 
Mexican peso in late 1995 and a subsequent recession, weather anomalies 
across North America, rapid economic growth in other parts of the world 
in relation to Canada and Mexico, and a relatively strong U.S. economy 
in relation to Canada and Mexico. These factors are interrelated and 
with the exception of the drought in Mexico, have tended to slow the 
growth of U.S. exports to Mexico and Canada while encouraging imports.
    The United States increased its agricultural exports to Mexico and 
Canada by $2.7 billion dollars between 1993 and 1996. The path 
associated with Mexico was a major increase in 1994, a sharp decline in 
1995 because of the peso devaluation, and then a strong gain in exports 
again in 1996. U.S. agricultural imports from Mexico and Canada have 
shown a steady upward trend throughout the 1993 to 1996 period, 
increasing by $3.2 billion. The net trade surplus was almost $2 billion 
in 1994 with a negative balance in 1995 and a rebound in 1996 to $1 
billion. Overall, the U.S. had a cumulative net trade balance of $2.9 
billion over the 3 years. Agricultural exports to Mexico and Canada 
have increased from $8.87 billion to $11.59 billion in 1996. U.S. 
imports expanded from $7.33 billion to $10.55 billion.
    Our analysis shows that total U.S. agricultural exports to Mexico 
and Canada in 1996 were about 3 and 7 percent higher, respectively, as 
a result of NAFTA. Similarly U.S. agricultural imports from Mexico and 
Canada were about 7 and 5 percent higher, respectively. NAFTA has 
increased agriculture's share of total investment in all three North 
American countries by small magnitudes. For the United States, we 
estimate investment in the U.S. agriculture sector was 0.1 percent 
higher as a result of NAFTA.
    The impact on employment in agriculture and agriculturally-related 
industries has been positive but very small, on the order of 0.1 
percent. Total employment in the United States has increased by 10.3 
million since the beginning of 1994, with farm employment up. While 
there have been cases of specific job losses due to import competition 
or the relocation of production facilities, the overall increase in 
employment suggests that such losses have been more than offset by job 
gains elsewhere in the agricultural or general economy.
    We have had a NAFTA Monitoring Task Force in place since the 
agreement went into effect and have published a series of reports, the 
latest being ``NAFTA: Year Three'' which we released in October 1996. 
This year, we had the additional responsibility to prepare the 
Congressionally mandated biennial NAFTA report for the Department. We 
have submitted the report for Departmental review and it will be sent 
to Congress following that process.
                         rural jobs and income
    Last year you provided a table showing the distribution of jobs and 
income across industries in rural nonmetropolitan America for 1993. 
Would you provide a more recent table for the record?
    Response. Following is an updated table that shows nonmetro nonfarm 
earnings and jobs by industry.

          NONMETRO NONFARM EARNINGS AND JOBS BY INDUSTRY, 1994          
------------------------------------------------------------------------
                                     Share of     Share of    Job growth
                                     earnings       jobs       1990-94  
                                    (percent)    (percent)    (percent) 
------------------------------------------------------------------------
Agri. services, forestry, fishing          1.2          1.8         21.8
Mining...........................          2.5          1.4        -13.5
Construction.....................          5.6          5.2          9.9
Manufacturing....................         23.2         16.9          4.1
Transportation, public utilities.          6.3          4.2          7.6
Wholesale trade..................          3.9          3.2          6.2
Retail trade.....................         10.9         17.0         10.7
Finance, insurance, real estate..          3.2          4.4          4.4
Services.........................         18.7         22.2         14.0
Government.......................         18,7         16.5          4.5
                                  --------------------------------------
      Total nonfarm..............         94.3         93.0          8.1
Farming..........................          5.7          7.0         -6.1
                                  --------------------------------------
      Total nonmetro.............        100.0        100.0          7.0
------------------------------------------------------------------------
 Source: Calculated by ERS from data provided by the Bureau of Economic 
  Analysis.                                                             

                 national rural development partnership
    Mr. Skeen. What is the status of the Rural Development Initiative 
or 1990 and the Rural Development Councils that were established? What 
kind of assistance is ERS providing the Councils and the National Rural 
Development Partnership?
    Response. The initiative has been continued by the Clinton 
Administration and there are currently 39 Councils. The councils 
continue to work on rural development within their respective States 
and on a few select issues at the national level. ERS continues to pass 
through funding for several of the councils via cooperative agreements. 
In addition, ERS provides the partnership with briefings and 
consultations and contracts, from time to time, with in-state 
researchers to assist the councils.
              foreign ownership of u.s. agricultural land
    Mr. Skeen. How much U.S. agricultural land is under foreign 
ownership?
    Response. Foreign ownership of U.S. agricultural land has remained 
relatively stable from 1981 through 1995, varying slightly above or 
below 1 percent of the privately owned agricultural land in the United 
States. Foreign persons reported owning 15.1 million acres, or slightly 
more than 1 percent of the 1.3 billion acres of privately owned U.S. 
agricultural land--farm and forest property--as of December 31, 1995. 
This represents a 899,744 acre decrease from the comparable 1994 
period. The sources of this data are reports submitted to the U.S. 
Department of Agriculture under the Agricultural Foreign Investment 
Disclosure Act (AFIDA) of 1978. Under AFIDA, agricultural land is 
broadly defined as all land used for agricultural, forestry, or timber 
production.
    Foreign holdings in 1995 by major land use were distributed as 
follows: forest land, 50 percent of total foreign holdings; grassland, 
pasture, and range, 31 percent; cropland, 16 percent; and non-
agricultural land, 3 percent.
    Foreign persons from Canada, the United Kingdom, Germany, 
Switzerland, the Netherlands Antilles, and the British Virgin Islands 
accounted for nearly two-thirds of the foreign-held acreage. Japanese 
nationals owned 3 percent of the foreign owned acres. The largest 
number of acres owned by foreign nationals was in Maine; most of the 
northern one-third of which is densely forested. Foreign holdings 
account for 16 percent of Maine's privately owned agricultural land. In 
addition, Maine in 1995 had 20 percent of total foreign-owned 
agricultural land nationwide. After Maine, foreign holding are 
concentrated along the Gulf Coast states and in the West, containing 32 
and 34 percent, respectively, of all reported foreign holdings of U.S. 
agricultural land.
    Corporations owned 72 percent of the foreign held acreage; 
partnerships, 20 percent; and individuals, 6 percent. Estates, trusts, 
institutions, associations, and other legal entities owned the 
remaining 2 percent.
                            buyout authority
    Mr. Skeen. Do you plan to use the buyout authority provided in the 
fiscal year 1997 appropriation bill?
    Response. Yes, ERS used the buyout authority between October 1 and 
December 31, 1996. The buyout was restricted to Grades 14 and above and 
clerical employees. Three employees retired under the buyout authority 
during that period.
                           senior executives
    Mr. Skeen. ERS has one senior executive for every 63 employees, 
about one quarter the Department average. The only USDA agency with a 
greater concentration of senior executives is the Cooperative State 
Research, Education, and Extension Service. Can you explain why ERS 
appears to be top heavy with senior executives?
    Response. ERS has nine senior executive or SES positions. Two of 
these positions are for the Administrator and the Associate 
Administrator. A third SES position is for an employee on a special 
budget project that supports all of the Research, Education, and 
Economics Mission Area agencies. Five other SES positions are Directors 
of ERS Divisions. The ninth SES position heads the Office of Energy and 
New Uses, which became part of ERS under the Department reorganization. 
All of the SES positions have received Departmental approval and are 
consistent with both the Departmental Reorganization Plan and the USDA/
OMB streamline plans.
    ERS is a scientific research agency that employs mostly Ph.D. 
agricultural economists and very few support staff. The SES staff 
manage a complex social science research program that requires, in 
addition to management and leadership skills, a great deal of technical 
expertise and professional stature.
                             other services
    Mr. Skeen. Object Class 25.2, Other Services, indicates a $125,000 
or 11 percent increase from 1997 to 1998. Please discuss the reason for 
this increase.
    Response. The increase relates to planned agreements with private 
institutions for implementation of the FY 1998 ERS increases associated 
with GPRA measurement tools and resource-conservation production 
practices. We plan to develop agreements with the institutions to 
develop survey instruments to implement GPRA requirements. We also plan 
to improve our data collection efforts on a wide range of farming 
practices, including livestock waste management, nutrient and pesticide 
management, and irrigation management.
                           object class 25.2
    Mr. Skeen. Provide a subobject class breakout of object class 25.2 
for both fiscal years.
    Response. Following is a table that shows the breakout for object 
class 25.2.

                   OTHER SERVICES (OBJECT CLASS 25.2)                   
                        [In thousands of dollars]                       
------------------------------------------------------------------------
                       Services                           1997     1998 
------------------------------------------------------------------------
Training..............................................      300      300
Agreements with private research institutions.........      311      436
Agreements with private contractors for agencywide                      
 services.............................................      532      532
                                                       -----------------
      Total...........................................    1,143    1,268
------------------------------------------------------------------------

                credit for socially disadvantaged groups
    Mr. Skeen. Has ERS done any research on how well rural financial 
markets and lenders meet the needs of socially disadvantaged groups?
    Response. The agency has not undertaken any research which 
specifically addresses the question of how well rural financial markets 
serve socially disadvantaged groups. Information on the characteristics 
of rural borrowers is not generally available, and even less is known 
about those who were unsuccessful in their attempts to acquire credit. 
Nonetheless, ERS as examined the ability of commercial and subsidized 
lenders to serve the needs of low equity farmers--a group which 
includes many disadvantaged borrowers. Our research indicates that 
there are limits on how useful credit can be in helping beginning and 
limited-resource farmers establish sustainable businesses. Loans are of 
limited use to those who cannot afford to borrow enough to acquire 
commercially viable farms. As a result, while ensuring that socially 
disadvantaged groups are treated fairly by rural lenders and financial 
markets is an important policy concern, ERS research indicates that 
credit programs cannot be relied upon to meet all of their development 
needs.
                           rural credit study
    Mr. Skeen. Has ERS completed the report to Congress on the demand 
for and availability of credit in rural areas for agriculture, housing, 
and rural development called for in the 1996 Farm Bill? If so, what are 
your findings?
    Response. We have cooperated with the Department's Rural 
Development mission area and have solicited input from an 
interdepartmental advisory panel, to examine the issues raised by 
Congress in Section 650 of the Federal Agriculture Reform and 
Improvement Act of 1996. Our draft report has been reviewed by the 
Department's program agencies as well as the Department of the 
Treasury, OMB, the Farm Credit Administration, the Small Business 
Administration, and the Federal Housing Finance Board, and others. The 
report is currently being reviewed by the Secretary's Office before 
being transmitted to the Congress. Since the report has not yet been 
cleared by the Department, I am not able to discuss its findings or 
conclusions in detail. However, based on our assessment of the 
available evidence, rural America is not burdened with widespread 
credit market failures. Nonetheless, the study provides evidence that 
localized financial market imperfections exist in rural areas which 
could be alleviated with targeted government intervention to assist the 
affected borrowers and communities.
                               tax reform
    Mr. Skeen. If Congress considers tax reform, is ERS prepared to 
estimate the impacts on farmers and ranchers when specific details are 
available?
    Response. Yes, ERS has primary responsibility within the Department 
for analyzing the effects of tax policies on farmers and rural America. 
The agency provides economic advice and counsel on agricultural tax 
issues associated with significant tax legislation or proposals to the 
Department's policy officials and others. We regularly monitor 
developments in the tax area and are prepared to analyze the 
implications for farmers of fundamental tax reform.
                        ers performance in 1996
    Mr. Skeen. The performance goals and indicators included in your 
explanatory notes list performance indicators for 1996. How well did 
you perform?
    Response. ERS met and even exceeded most of the output goals listed 
for 1996 in the 1998 budget submission packages. More important than 
the numerics is knowing how ERS economic analyses provided through the 
various venues improved decisions on important issues. ERS, in working 
to find performance measures and indicators that capture and convey 
this information, still finds narratives essential to explain how ERS 
improves public and private decision making regarding agriculture, 
food, the environment, and economic development. For instance, ERS in 
1996:
          prepared the Department's major reference report on the 
        Federal Agricultural Improvement and Reform Act of 1996;
          showed how nutrition knowledge and diet/health information 
        promote healthier diets and how nutrition intake changes as 
        consumers alter food purchases in response to changes in food 
        prices and personal income;
          demonstrated that the Federal Government has a unique role in 
        supporting agricultural research that benefits multi-State 
        regions and that supports the missions of the USDA program 
        agencies;
          provided analytic support for USDA's Food Safety and 
        Inspection Service Hazard Analysis and Critical Control Point 
        (HACCP) systems rule and documented cost-of-illness analysis 
        for bacterial pathogens;
          briefed Congressional staff on sanitary and phytosanitary 
        issues affecting international trade and provided technical 
        support to policy makers working on World Trade Organization 
        issues such as domestic agricultural support commitments and 
        technical barriers to trade;
          demonstrated that because climate change will likely occur on 
        a gradual basis over several decades, agricultural producers 
        and agricultural technology providers will have opportunities 
        to adapt to the modified environment;
          provided assessments of various proposals identified as 
        pending in the legislative or Departmental policy arenas 
        related to farm loan market efficiency, the earned income tax 
        credit, rural development block grants, and USDA's beginning 
        farmer programs; and
          improved USDA rule-making by providing information of the 
        cost-effectiveness of the Conservation Reserve, the Wetlands 
        Reserve, the Environmental Quality Incentives, and other 
        conservation programs.
                               historians
    Mr. Skeen. Do you still have a staff of historians to support the 
Department?
    Response. The agency no longer has a staff of historian. However, a 
few researchers from that staff are still in ERS, working on different 
issues.
                national research council review of ers
    Mr. Skeen. The National Academy of Sciences National Research 
Council is overseeing a two year review of ERS. Please describe for the 
Committee the nature of the Academy's review, including when the review 
began, its scope, who is involved, the process, how the review is being 
funded, and any preliminary results.
    Response. ERS has asked the National Research Council (NRC) to 
convene a panel of social science experts to assess the quality and 
effectiveness of the ERS research program, its management, and 
structure. Panel membership will be drawn from leading disciplinary 
experts with backgrounds in university research as well as Federal 
research management, some with direct experience in dealing with 
problems of the food and agriculture system, some without. Drawing on 
the richness of the panel members' knowledge as well as their 
consultation with ERS and the range of relevant institutions, the 
resultant report will identify general principles for improving the 
quality and effectiveness of research in an intramural social science 
research program directed to serve Departmental program needs. Included 
in the scope of the panel's deliberations will be consideration of the 
definition of appropriate quality standards for ERS research, use of 
peer review, value of external advice, principles for research resource 
allocation, enhancement of collaborative and interdisciplinary research 
with other USDA and federal agencies, leveraging of research done in 
universities and elsewhere in the Federal government, means of 
fostering professional development in the analytical staff, and 
effective dissemination of research results.
    The NRC is expected to announce its selection of the panel 
membership in March of 1997, and the panel should begin its work by 
May. Completion would be expected in spring of 1999, with an interim 
report in mid-1998. The contract with the NRC was completed in 
September 1996 under the terms of Executive Order 12832, which 
identifies the National Academy of Sciences complex as a sole source of 
scientific advice, able to provide the appropriate ``measure of 
expertise, independence, objectivity, and audience acceptance'' deemed 
necessary in this case. The experts on the NRC panel serve without 
compensation, under the terms of the Academy's Congressional charter.
                   agricultural economic information
    Mr. Skeen. ERS is also conducting a study of the public and private 
supply of and demand for economic information on domestic and foreign 
agricultural performance and commodity markets. When will this study be 
complete?
    Response. ERS will complete its agricultural economic information 
market study by mid-1998. Through this study we hope to address a 
number of questions, including who our clients are, how they use 
agricultural economic information, what other sources of information 
they use, and what role this information plays in their decision making 
process.
    The study is being conducted in three phases. The first, which 
began late last year, examines the public supply of agricultural 
economic information. We are talking to producers of information in 
four USDA agencies: the Economic Research Service, the Foreign 
Agricultural Service, the World Agricultural Outlook Board, and the 
Agricultural Marketing Service. The second phase consists of analyzing 
the demand for information within the Department of Agriculture. The 
study team has already interviewed a number of Assistant and Under 
Secretaries, Administrators, Directors and Branch Chiefs to determine 
whether, and how, various offices within USDA use agricultural 
information. Next, a random sample of USDA analysts outside of ERS will 
be selected and asked what agricultural information they use and how 
they use it. In the final phase of the study, the team will turn to 
individuals and groups outside of USDA to determine their agricultural 
information needs and uses. We have already conducted one focus group 
consisting of various types of information users and plan to continue 
this process. Additionally, we will work with a cooperator to analyze 
the private supply component of the agricultural economic information 
market.
    From this ambitious effort we hope to improve our understanding of 
the information market so that we can continue to provide our clients, 
both within and outside of USDA, with relevant, accurate, and timely 
information related to food, agriculture, and natural resources.
                    ers support of usda policymaking
    Mr. Skeen. Would it help ERS to improve its support of USDA agency 
policy making if there was a Board of Directors comprised of the Heads 
of USDA agencies?
    Response. The REE mission area has established such a mechanism to 
promote coordination and cooperation among research and program 
agencies across the board. ERS certainly values the interaction that 
forum can promote. At the same time, ERS has an obligation to 
strengthen its relation with each agency individually because agency 
missions vary and so therefore does the research support required. 
Currently, ERS is working to inventory fully the work we do for more 
than two dozen USDA agencies and to determine ways to improve linkages, 
especially with reference to orienting the ERS core research program to 
meet and, most importantly, anticipate program agency needs.
          economic and physical science research collaboration
    Mr. Skeen. How often does your agency collaborate with the 
Agricultural Research Service? Do you think there are additional 
opportunities to integrate the physical science research underway at 
ARS with economics? Have you considered co-locating staff at ARS 
laboratories?
    Response. USDA reorganization has promoted ERS collaboration with 
ARS, CSREES, and NASS generally. Formally, ERS collaborates with ARS on 
a range of significant policy issues whose analysis requires 
multidisciplinary work; major examples would be global change, water 
quality, pesticide assessment, and natural resource management. On an 
informal and ad hoc basis, ERS and ARS scientists increasingly find 
opportunities to work together. The ERS Office of Energy and New Uses 
has been active in promoting use of economic methodology in the 
evaluation of ARS utilization work, collaborating with ARS laboratories 
across the country. This month a group of senior ERS analysts will lead 
the ARS senior management from across the country in a seminar aimed at 
understanding the economic trends shaping the food and agriculture 
industry in the US and around the world.
    ERS and ARS believe there are additional opportunities for 
collaboration, especially with respect to setting national public 
sector research priorities. This work would most logically be carried 
out in dialogue between the Washington, DC-based ERS staff and the ARS 
senior program staff in Beltsville, MD, capitalizing on the ERS 
expertise on national, aggregate level analysis. ERS might be most 
useful to ARS laboratories outside Washington as a broker to identify 
those with the relevant economic expertise and appropriate knowledge of 
local conditions. Fifteen years ago, the ERS field staff located at 
land grant universities (many in proximity to ARS laboratories) was 
brought to Washington. At that time, ERS had some 1,000 employees, with 
about half that many today. Sending analysts back to the field would 
cripple the agency's ability to support Department-wide programmatic 
and policy needs, likely without fully satisfying ARS requirements.
                         users of ers analyses
    Mr. Skeen. Who are the primary users of ERS analyses, inside and 
outside the government?
    Response. The ultimate beneficiaries of ERS's program are the 
American people, whose well-being is improved by informed public and 
private decision making. ERS has identified policy makers and key 
institutions who share that commitment and routinely make or influence 
public policy and program decisions. ERS shapes its program and 
products principally to serve these key decision makers: the U.S. 
Congress; White House and USDA policy officials and program 
administrators/managers; other Federal agencies and State and local 
government officials, and domestic and international environmental, 
consumer, and other public groups, including farm and industry groups 
interested in public policy issues. ERS depends heavily on working 
relationships with other organizations and individuals to accomplish 
its mission. Key partners include: the National Agricultural Statistics 
Service (NASS) for primary data collection; universities for research 
collaboration; the media as disseminators of ERS analyses; and other 
government agencies and departments for data information and services. 
ERS stakeholders are its customers and partners, its staff, 
cooperators, and contractors, and most importantly American citizens 
and taxpayers.
    ERS maintains close contacts with its key decision makers and its 
partners through formal and informal channels from collaboration by 
senior officials to daily contacts between ERS researchers and program 
managers in other agencies to formal participation in department and 
government initiatives. ERS sought review of an early draft of its 
strategic plan through a variety of venues including REE sponsored 
listening sessions around the country, a session at the American 
Agricultural Economics Association annual meeting, and the ERS home 
page as well as internal USDA review. ERS has consulted and will 
continue to consult with the National Agricultural Research, Extension, 
Education, and Economics Advisory Board. The current draft reflects 
changes as a result of feedback. The review process, however, remains 
ongoing. USDA will soon be sending the draft ERS strategic plan to 
Congress for review and consultation. Future program evaluations from 
stakeholders and changing internal and external environments will 
result in updating and refinement.
       price and income variability in the post-1996 environment
    Mr. Skeen. In 1997, your agency will conduct research on the 
potential effects of domestic and international policy changes on 
commodity price and farm income variability. When can the Committee 
expect to see the results of this research?
    Response. Our research analyzing the effects of policy changes on 
commodity price and farm income variability will be available to the 
Committee early in 1998. This research is examining the impacts on 
commodity price and farm income variability associated with two 
different policy regimes--the 1990 Farm Act and the 1996 Farm Act. The 
study is being conducted using Monte Carlo methods within the ERS Food 
and Agricultural Policy Simulator model.
    This research will provide useful insights into the new risk 
environment under the 1996 Act. At face value, it is unclear whether 
crop prices will be more volatile in the future than under past 
policies and programs. Some policy-related changes--such as planting 
flexibility and trade liberalization--are likely to reduce price 
variability. Other changes, such as reduced stockholding by the 
Government, would work to increase variability, and the impact of other 
changes--such as the elimination of acreage reduction programs--are 
unclear.
    The outlook for price variability, combined with the elimination of 
market-responsive deficiency payments, has implications for income 
variability. In the past, deficiency payment rates varied inversely 
with market prices to provide some degree of income stability to 
farmers. Under the 1996 Act, production flexibly contract payments 
remain fixed regardless of prices. When making production, marketing, 
and financial decisions, increased attention will be placed on risk 
management to deal effectively with year-to-year fluctuations in 
income. Our research will quantify the implications for price and 
income variability on investment, enterprise selection, marketing 
practices, and business organizations in the post-1996 Farm Bill 
environment.
                  china and world agricultural markets
    Mr. Skeen. Briefly describe China's evolving role in world 
agricultural markets.
    Response. China has one of the world's largest agricultural 
economies. For most major agricultural commodities such as wheat, rice, 
corn, cotton, hogs, poultry, fruit, and vegetables, China ranks first, 
second, or third in production, stocks, consumption, or trade. Since 
economic reforms were initiated in the early 1980s, China's 
agricultural imports and exports increased rapidly from $8.7 billion in 
1986 to $24 billion in 1995. U.S. agricultural exports to China rose 
from $.06 to $2.6 billion during this same time period. In 1996, U.S. 
exports were $2.1 billion and imports $600 million. This does not 
include significant trade through Hong Kong, which is difficult to 
measure.
    China has become a significant exporter of corn, soybeans, 
vegetables, fruits, poultry meat, and ornamental plants in recent 
years. This has often led to trade friction; for example, China's 
exports of garlic to Korea, Japan, the U.S., and the EU. Increasing 
consumption in China has been limiting exportable surpluses of some of 
these commodities, particularly corn and soybeans.
    Changes in government policy in the past decades have had dramatic 
effects on China's agricultural imports. The current governor's grain 
responsibility system which promoted grain self-sufficiency in 1995 and 
1996 has had the effect of reducing PRC grain imports. Corn imports, 
which had increased to 4.3 million tons in 1994/95, fell to 50,000 tons 
in 1996/97. China's high barriers to agricultural trade, such as its 
phytosanitary regulation on TCK smut in wheat, interfere with trade. 
Regional disparities contribute to trade volatility. While North China 
produces a surplus of corn, the South is in deficit, but the two areas 
are now well linked by transportation.
    ERS expects China's grain production to increase in the coming 
decades but domestic demand will exceed supplies. Population and 
economic growth along with preferences for more meat, eggs, and dairy 
products will boost demand above supplies. For 2005, imports of 14 
million tons of wheat, 1.5 million tons of rice, and 7.5 million tons 
of corn are forecast.
                              dairy policy
    Mr. Skeen. As part of your analysis of the 1996 farm bill you will 
be looking at the effects of the changes in milk marketing orders and 
the establishment of the Northeast Dairy Compact. What are the findings 
of this research?
    Response. The Department is currently working on the proposals for 
the reform of the Federal Milk Marketing Orders (FMMO). ERS, as part of 
the Interagency Dairy Analysis Task Force (IDATF), has been working 
with the Agricultural Marketing Service (AMS) as well as the Office of 
the Chief Economist (OCE) in developing and reviewing proposals on the 
aspects of order reform as well as the evaluation of the Northeast 
Dairy Compact.
    AMS has just released some preliminary order consolidation 
proposals and some alternative pricing mechanisms. As the details of 
these proposals are developed, ERS will work closely with AMS and IDATF 
to provide the regional economic impacts on supply, price, farm income, 
and consumer costs. However, milk marketing order reform is still in 
the preliminary stages of development and the details of these 
proposals are insufficient to provide any solid analysis of impacts. 
ERS is currently developing analytical tools so that we are in position 
to provide the analysis when these policies are more clearly defined in 
the proposed rule to be published in December, 1997.
    The establishment of the Northeast Dairy Compact is presently under 
a court order to provide more detailed reasoning behind the 
Department's finding of compelling public interest. Pending a positive 
outcome of the court challenge for the compact, and the determination 
of compact pricing levels, ERS will be analyzing the economic impact on 
producers, consumers and government costs.
                   supply response under the 1996 act
    Mr. Skeen. You will also focus on estimating potential changes in 
farmers' planting behavior because of the removal of program planting 
requirements. What are the findings of this research?
    Response. Our approach to estimating supply response under the 1996 
Farm Act is based on an analysis of farmers' use of normal flex acres 
(NFA) for program crops between 1991 and 1995. This procedure provides 
an estimate of how acreage responds to prices in a more flexible 
environment. A regional approach is being taken, with supply response 
for each region estimated by combining cross-section and time-series 
data. At present, results from the North Central region are available.
    Our North Central region analysis uses the example of a corn farm 
with a 100 acre base. Combing the elasticities from the NFA analysis 
with an acreage price elasticity of 1.11 and historical payment acres 
with an elasticity of 0.17 provides an own-price elasticity of 0.26 for 
the entire corn farm, evaluated at average planting levels. This means 
that a 1-percent rise in corn prices would result in a 0.26 percent 
increase in corn plantings, compared to the 0.17 percent estimated for 
payment acres prior to the 1996 Act. As expected, our estimates show 
that producers are likely to shift their plantings more readily between 
corn and other crops on the bulk of their acres--primarily soybeans in 
the North Central region--in the post-1996 Farm Bill environment.
    As expected, compared to corn price elasticity, the cross-price 
elasticity between soybean prices and corn acreage is slightly lower--
at -0.25. This estimated cross-price elasticity between soybean prices 
and corn acreage, again evaluated at average planting levels, is 
derived from the -1.75 estimate for corn NFA acreage and a -0.10 cross-
price elasticity calculated for the farm's payment acres. The estimate 
means that a 1-percent rise in soybean prices would result in a 0.25 
percent reduction in corn plantings, compared to the 0.10 percent 
estimated for payment acres prior to the 1996 Farm Bill. In summary 
with the removal of Program Planting requirements, we would expect corn 
acreage to be more responsive than before to changes in corn and 
soybean prices.
    When other regional estimates are completed, the results will be 
summed to estimate a national acreage price elasticity. These estimates 
will be used to improve USDA's short- and long-term baseline 
projections, and provide insights into producer behavior in the post-
1996 Farm Act environment.
                              food prices
    Mr. Skeen. In the explanatory notes you state that abrupt and 
powerful changes in significant supply and demand forces have directly 
challenged your understanding of food price formation. Would you 
describe this statement in further detail for the record?
    Response. Industrialization of agricultural production and 
distribution including vertical coordination throughout the food 
marketing system is accelerating the consolidation of farms and food 
marketing firms. The effect of these forces on wholesale and retail 
food prices is not well understood. Often it is claimed that increasing 
vertical coordination and concentration leads to market power by firms 
and higher consumer prices. Some research suggests, however, that 
consolidation, when driven by consumer demand, often means improvement 
in the quality and variety of products. We need a better understanding 
of the product attributes valued by consumers. For example, how much 
would consumers be willing to pay for fat in frankfurters? How much, if 
at all, do consumers value labels and a clearly defined standard for 
organic foods? Better information about how the structure of food 
distribution and production affects the marketing and price of food is 
needed to gauge the effects of policy shocks like minimum wage 
legislation on the retail food prices.
                          conservation reports
    Mr. Skeen. The Natural Resources and Environment Division will 
evaluate and synthesize existing research on how best to achieve water 
quality and conservation goals. This will result in three reports. When 
will these reports be released?
    Response. The first report, Partial Interests in Land: Policy Tools 
for Resource Use and Conservations (AER-744), has just recently been 
released. Some of the major findings of this report are summarized in 
the October 1996 issue of Agricultural Outlook.
    The second report, on water quality programs affecting agriculture, 
is scheduled for release in May. The report has undergone extensive 
peer review from researchers in universities and other Federal 
agencies. Authors are currently responding to reviewer comments to 
strengthen the report. A summary of water quality and USDA water 
quality programs will also be included in the upcoming edition, 
Agricultural Resources and Environmental Indicators. Information about 
water quality and agriculture is also available at ERS' website at 
http://www.econ.ag.gov. A summary of the major findings of the report 
will also appear in the May 1997 issue of Agricultural Outlook.
    The third report, on agricultural conservation policies, is 
currently on hold. ERS staff have been actively engaged in the 
evaluation and implementation of rules and guidelines for the 
Conservation Title of the 1996 Farm Bill. ERS has focused its energies 
on this high priority task.
                              chemical use
    Mr. Skeen. This division also plans to publish a comprehensive 
report on chemical use in agriculture. When can the Committee expect a 
copy of this report?
    Response. NRED releases results of its research program on 
agricultural chemical use in a number of published sources. Basic 
survey data information is summarized in periodic AREI Update 
publications. More detailed discussion of economic and policy factors 
affecting pesticide and fertilizer use will also be included in the 
Agricultural Resources and Environmental Indicators report due out this 
Spring. ERS will publish the proceedings of the Third National 
Integrated Pest Management Symposium Workshop, ``Designing Integrated 
Pest Management Programs: Putting Customers First and Learning What 
Works.''
    Discussion of chemical use is also often included in ERS 
publications on related topics. For example, relationships between 
chemical use and water quality are included in ERS' upcoming water 
quality report (see the above question). In this case, the area of 
interest is not chemical use per se, but rather the impacts of chemical 
use and the implications of these impacts for environmental and 
agricultural policy design. The economics of adoption of IPM and 
nutrient management are discussed in another upcoming ERS report on 
sustainable agriculture and technology adoption. This latter report is 
currently under peer review and is scheduled for release this summer. 
Major findings of the report are summarized in the March 1997 issue of 
Agricultural Outlook.
                  ethanol industry and fuel oxygenates
    Mr. Skeen. As a result of extensive work on the ethanol industry, 
ERS has developed a working model for predicting ethanol production for 
use in supporting USDA's baseline process as well as risk assessment 
and cost-benefit analysis of fuel oxygenates. What has been shown to 
date?
    Response. For ethanol modeling activities, ERS has procured monthly 
data on fuel oxygenate, gasoline, octane, and energy input prices from 
outside sources and combined those data with ERS data on corn, corn 
oil, corn gluten feed, corn gluten meal, and distiller dried grains 
prices. The resulting data set is being used to investigate the 
economic relationships between these prices and the quantity of ethanol 
produced, and to estimate the importance of these relationships 
relative to each other. Thus far, the relationships between ethanol and 
gasoline prices and net corn costs per gallon of ethanol have been 
found to demonstrate a strong influence on ethanol production and use 
decisions.
    The EPA/DOE/USDA risk assessment and cost-benefit analysis group 
has produced work on the effects of oxygenates, including ethanol, and 
has focused on modeling micro environmental exposures to fuel toxics. 
This analysis has shown that most toxic emissions to which people are 
exposed are likely to be from exhausts. Ethanol and other oxygenates 
reduce emissions of toxic engine exhaust. Thus, an ability to predict 
fuel ethanol use will provide information on the amount of toxic 
exposure and cancer risk avoided by using ethanol or other oxygenates 
in gasoline.
                          rural manufacturers
    Mr. Skeen. What are some of the problems that rural manufacturers 
face when they compete in a global economy?
    Response. The results of ERS's recently completed survey of 
manufacturers suggest that rural manufacturers are not lagging urban 
manufacturers in adjusting to heightened global competition, but this 
adjustment is not without serious problems.
    Rural plants are just as likely as urban plants to report that they 
have improved their product quality and lowered production costs in the 
past three years. While rural plants are slightly behind in the 
adoption of new technologies and improved products, these differences 
are largely accounted for by the types of industries that tend to 
locate in rural areas.
    The quality of available labor is the local problem that rural 
manufacturers cited most often as a barrier to their competitiveness. 
About a third of the respondents reported this as a major problem, 
compared to about a fifth for the next most often cited problems, 
environmental regulations and State and local taxes. Problems of 
infrastructure and access to markets and information were cited far 
less often. In some areas, however, particularly in the Great Plains, 
the Delta, and remote rural areas, manufacturers cite problems in 
attracting managers and professionals, access to training for 
production workers, and access to airports.
                     president's biomass initiative
    Mr. Skeen. Briefly describe the two projects you have in support of 
the Presidential biomass initiative including the cost of each.
    Response. In a collaborative effort with USDA, DOE is pursuing the 
development and deployment of integrated biomass power projects that 
couple dedicated energy feedstock production with advanced power 
conversion technologies. Through this initiative, three cost-shared, 
multi-partner projects were initiated in FY 1996. In total, by 2001 
these projects could bring on line over 175 megawatts (MW) of renewable 
biomass power, sustained by over 200,000 acres of dedicated energy 
crops. The overall objective of these projects is to validate the 
economic and environmental benefits of integrated biomass power 
deployments, with a particular emphasis on the realization of benefits 
in rural areas where development opportunities are scarce.
    The first award under this solicitation was signed on May 6, 1996, 
with Niagara Mohawk Power Corporation of Syracuse, NY, representing the 
Salix Consortium. The Salix Consortium plans to integrate dedicated 
short-rotation woody crops willows with power conversion via co-firing 
with coal. Gasification tests will also be conducted. A major project 
goal is to achieve an unsubsidized delivered cost of willow feedstocks 
at less than $2 per million BTU by the year 2000. In the initial phase, 
by 2001 a total of up to 47 MW of biomass power capacity will be 
produced at three project sites, with a total of 6,000 acres of land 
dedicated to supplying willow feedstocks to these applications. The 
estimated USDA contribution to this project for phase I is $200,000 
using Natural Resource and Conservation Service programs and 
authorities and $1 million for phase II.
    The Iowa project, sponsored by the Chariton Valley Resource 
Conservation and Development, Inc., is focused on growing switchgrass 
for co-firing or direct gasification. The goal of this project is to 
merge Iowa's agricultural potential with long-term energy requirements 
to develop a locally sustainable source of biomass fuel. The project 
calls for 35 MW of electrical power production using 30,000 to 40,000 
acres of dedicated switchgrass feedstocks. USDA's contribution is to 
allow 4,000 acres of conservation reserved program land to be used for 
demonstration purposes for growing switchgrass for the project.
    The Minnesota Agri-Power Project, submitted by the Minnesota Valley 
Alfalfa Producers, proposes to build an alfalfa processing plant 
integrated with an advanced power plant system in Granite Falls, MN, to 
provide a base-load electric power source and a competitively priced 
source of value added alfalfa-based products such as leaf meal for 
livestock. This project plans to use air blown, fluidized bed 
gasification technology to process alfalfa stems and other biomass to 
produce a hot, clean, and low-heating value gas that will be used to 
power a combined cycle system. Up to 180,000 acres of land will be put 
into alfalfa production in response to this project. USDA is not 
involved in any explicit cost share on this project. However, ARS has 
worked closely with the Minnesota Alfalfa Growers to enhance the 
quality of the leaf meal as livestock feed.
    Economic analysis has started as support to the initiative. ERS and 
the University of Tennessee entered into a cooperative agreement with 
DOE to analyze the economics of energy crops production. Energy crops 
include switchgrass, hybrid poplar, and hybrid willow. An economic 
model will be developed specifically to analyze the potential influence 
of energy crop production on agricultural commodity prices and farm 
income. Developing and implementing this analytical framework will 
require an expansion of the University of Tennessee's Policy Analysis 
System. The estimated total cost of this research is $85,000 to be 
funded by DOE.
                               nutrition
    Mr. Skeen. Research has shown that away-from-home foods have higher 
levels of total fat and saturated fat and lower levels of cholesterol, 
dietary fiber, calcium, iron, and sodium than home prepared foods. As 
more and more people eat out, there is some concern that the nutrient 
quality of diets will diminish. What can the Federal government do to 
address this situation?
    Response. Americans are becoming more aware of nutrition issues. 
However, they seem to be less attentive to the importance of nutrition 
when they eat out. Recent ERS studies have shown that foods prepared 
away from home for children and adults are generally lower in 
nutritional quality than foods prepared at home. One reason for this 
may be that the nutritional quality of away-from-home foods is not 
readily apparent or available. Another reason may be that consumers pay 
more attention to taste and entertainment factors than to nutrition 
when eating out.
    The Federal government plays an active role in providing nutrition 
education and setting standards for nutrition labels and claims. In 
collaboration with USDHHS, USDA publishes nutrition guidelines, such as 
those depicted graphically in the USDA Food Guide Pyramid, to help 
consumers choose diets that meet their nutritional needs.
    School meals are an important component in children's diets. To 
improve the nutritional quality of school meals, USDA launched the 
School Meal Initiative for Healthy Children. Providing healthy meals is 
the first important step in improving children's diets. But no meal, 
however healthy, will have an effect on health unless it is eaten. USDA 
has developed a nationwide nutrition program, Team Nutrition, to help 
schools implement the Schools Meals Initiative for Healthy Children.
                    environmental policies and trade
    Mr. Skeen. Describe in further detail how environmental polices 
will affect agricultural trade?
    Response. In general, studies have found that environmental 
policies signed to reduce pollution have not led to significant changes 
in trade. The main reason for this is that the costs of environmental 
compliance have tended to be small in relation to overall costs on an 
aggregated sectoral basis and, therefore, there has been little change 
in comparative advantage. However, these regulations may have 
significantly affected some localities or commodities or may be more 
significant in the future. For example, the Department's National 
Agricultural Pesticide Impact Assessment Program (NAPIAP) examined the 
short-term economic implications of banning methyl bromide (MB) for 
soil and product fumigation. the NAPIAP assessment found that effects 
on the United States would be costly because currently available 
alternative control practices are less effective or more expensive than 
MB. In the European Union, the Nitrate Directive attempts to restrict 
the application of livestock manure and chemical fertilizers in areas 
with high nitrate levels.ERS research has indicated that the Directive, 
due to take effect in 1999, may significantly reduce livestock 
production and exports by Belgium, the Netherlands, and Denmark.
                    agricultural institute in turkey
    Mr. Skeen. What was the agency cost to assist Turkey in the 
establishment of an Agricultural Economics Research Institute?
    Response. There was no cost to ERS. We were fully reimbursed for 
out assistance in establishing the Agricultural Economics Research 
Institute.
                              gao reports
    Mr. Skeen. Provide a brief description of the findings and 
recommendations of the two GAO Reports listed in the explanatory notes. 
Also, tell the committee the status of each.
    Response. The objective of the GAO motor fuels report relating to 
issues surrounding reformulated gasoline, oxygenated fuels, and 
biofuels was to summarize results of existing studies relating to the 
cost effectiveness of reformulated gasoline, assess the potential for 
oxygenates to reduce the use of petroleum, and to summarize ongoing 
federal research on biofuels. The conclusions of GAO were that the 
extent and nature of air pollution in any particular area will be a 
determinant of what pollution control measures will be most cost 
effective. GAO concluded that oxygenates could displace about 3.6 
percent of estimated gasoline consumption in 2010. GAO also concluded 
that research in the Department of Energy and the Department of 
Agriculture was reducing the cost of producing ethanol from both 
cellulosic biomass and corn. The GAO motor fuels report which is 
completed was informational and did not include specific 
recommendations for follow-up. GAO investigators talked to ERS Office 
of Energy and New Uses analysts. We felt GAO did not sufficiently 
critique the cost effectiveness of the reformulated gasoline program as 
reflected in the Department of Agriculture's review comments to GAO.
    The objective of GAO for the report on statistical agencies was to 
identify the statutory authorities establishing 11 federal agencies or 
their activities along with the confidentiality and disclosure 
provisions under which they operate, to review mandatory reporting 
requirements, and determine the uses of statistical products the 
agencies produce to support the administration of federal programs. The 
GAO review included the Economic Research Service and the National 
Agricultural Statistics Service in the Department of Agriculture. GAO 
concluded that the statutory framework of the federal statistical 
system is complex including statutes on confidentiality and mandated 
reporting requirements. GAO also concluded that the agency products are 
critical to the functioning of the Nation. The Economic Research 
Service operates under an authorizing statute and two confidentiality 
and disclosure statutes. GAO also listed five mandated reporting 
requirements for ERS and an additional six statutes associated with 
interagency and interdepartmental statistical information reporting 
requirements in support of federal program administration. This GAO 
report as completed, was also informational, and contains no 
recommendations nor any departmental or agency review comments.
                          technical assistance
    Mr. Skeen. What work are you doing for the Foreign Agricultural 
Service in fiscal year 1997 for $4.0 million?
    Response. We are providing technical assistance to establish the 
capacity to provide timely, reliable agricultural situation and outlook 
information and to conduct sound economic analysis in Bulgaria, China, 
Mexico, Romania, Russia, and Ukraine. The activities have been 
undertaken as part of the Emerging Democracies and Emerging Markets 
Programs. ERS frequently works with other USDA agencies--such as the 
National Agricultural Statistics Service and the Agricultural Marketing 
Service--which assist countries in the collection of statistical and 
market news data. Better information and analysis are necessary for the 
functioning of market-oriented agricultural systems, for increased US 
exports, and for sound investment decisions by American companies. The 
Russian project was a highlight of the recent US-Russia Binational 
Commission meeting, where Secretary Glickman reported to Vice President 
Gore and Russian Prime Minister Chernomyrdin on the successful 
completion of our joint work.
                     global climate change spending
    Mr. Skeen. What is the total amount the agency spent on global 
climate change in fiscal year 1996 and estimates for fiscal year 1997?
    Response. ERS spent approximately $800,000 on global change 
research in fiscal year 1996 and expects to spend approximately 
$800,000 in fiscal year 1997. This level of expenditure is consistent 
with budgeted amounts as reported in Our Changing Planet: The FY 1997 
U.S. Global Change Research Program, supplement to the President's 
Fiscal Year 1997 Budget. As described in Our Changing Planet, as of 
1997 the global change program includes the following components: (1.) 
Seasonal to interannual climate variability. (2.) Climate change over 
decades to centuries. (3.) Changes in ozone, UV radiation, and 
atmospheric chemistry, and, (4.) Changes in land cover and in 
terrestrial and marine ecosystems. In 1996, ERS summarized findings of 
its program on long-term climate change in ``Agricultural Adaptation to 
Climate Change: Issues of Longrun Sustainability,'' AER-740. With this 
phase of research completed, the research program has focused on the 
potential impacts of changes in climate variability on the farm sector 
and interactions between climate change, land use, biodiversity, soil 
and water resources, and future world food needs. This focus means that 
most of ERS research on global change is now covered under components 1 
and 4 as described in Our Changing Planet.
                              ers offices
    Mr. Skeen. Update the table that appears on page 181 of last year's 
hearing record showing the breakout of budget and staff-years of ERS 
offices to include fiscal year 1997.
    Response. Following is a table that shows the budget and staff year 
breakout for ERS offices.

                            ERS OFFICES BUDGET AND STAFF YEARS, FISCAL YEARS 1995-97                            
                                             [Dollars in thousands]                                             
----------------------------------------------------------------------------------------------------------------
                                                                             Fiscal year--                      
                                                     -----------------------------------------------------------
                                                             1995                1996                1997       
                  Offices/Divisions                  -----------------------------------------------------------
                                                                   Staff               Staff               Staff
                                                        Budget     years    Budget     years    Budget     years
----------------------------------------------------------------------------------------------------------------
Commodity Analysis Division.........................     $16,677     179     $15,283     172     $16,398     172
Food and Consumer Economics Division................       4,863      60       4,742      55       5,063      55
Information Services Division.......................       7,597     103       7,390      99       7,866      99
Natural Resources and Environment Division..........      10,262     113      10,825     103       9,256     103
Rural Economy Division..............................       9,245     118       9,866     105       9,623     105
Office of Energy and New Uses.......................         905       6         929       6         600       6
Office of the Administrator.........................       1,139       9       1,352      11       1,486       9
Administrative and Financial Management Division....       2,789      37       2,740      40       2,817      40
                                                     -----------------------------------------------------------
      Total.........................................      53,477     625      53,127     591      53,109     591
----------------------------------------------------------------------------------------------------------------

                             credit survey
    Mr. Skeen. What were the results of a 1995 survey of credit market 
experiences of independent businesses in urban and rural communities?
    Response. In the spring of 1995, the National Federation of 
Independent Business (NFIB) surveyed over 3,600 member firms concerning 
their experience with credit and financial institutions during the 
previous three years. These data are still being analyzed, but 
preliminary results suggest that rural firms are generally satisfied 
with their local credit markets. Asked whether their primary financial 
institution is a reliable source of credit, 49 percent of sampled rural 
firms rated their lender good, compared with 37 percent of the urban 
firms. Only 9 percent of rural firms, and 13 percent of urban 
respondents, failed to eventually obtain a loan the last time they 
tried to obtain credit. Surveys of this sort typically find that 
availability of credit is the most important factor for small 
businesses. But on this survey, few rural firms specified credit 
availability as their most significant concern with the current 
practices of their financial institutions. More firms complained about 
interest rates, collateral requirements, and fees and service charges. 
This result may reflect a contrast of a strong economy in 1995 to the 
recession of a few years earlier. Most firms that are successful in 
obtaining loans, can now afford to criticize loan terms. A plurality of 
41 percent of the rural firms reported that bank loans were their 
primary source of working capital, with 32 percent depending on 
retained earnings. At 35 percent, retained earnings was the most common 
source for urban firms, with 31 percent depending on banks as the 
primary source.
                  sanitary and phytosanitary barriers
    Mr. Skeen. The agency has an ongoing study that quantifies the 
effects of sanitary and phytosanitary barriers on U.S. agricultural 
exports. What are the latest findings?
    Response. In 1996 the Economic Research Service participated in an 
interagency effort to inventory questionable technical barriers to 
trade in U.S. agricultural exports. The inventory was based on survey 
responses from 50 Foreign Agricultural Service posts overseas and 
reviewed by technical experts in regulatory agencies and private 
company cooperators, shielding domestic producers from foreign 
competition, and disputes among countries commonly arise when the 
scientific basis or other rationale of a trade barrier is challenged.
    The 1996 inventory includes 315 questionable issues in 63 
countries, over 90 percent were considered questionable because they 
violated one of the principles of the Sanitary and Phytosanitary 
Agreement. About half the issues listed in the inventory have the prima 
facie rational of protecting plant health in the importing country. 
Measures imposed under the rationale of food safety account for about 
20 percent of the issues. About 12 percent concern the health of 
animals. On a dollar impact basis, technical barriers in the East Asian 
region are estimated to account for nearly half of the impact on U.S. 
agricultural exports. Technical barriers in Mexico, Canada, and Latin 
America have the second largest impact on agricultural exports. 
Processed products are the product category most affected by technical 
barriers to trade.
                   trade impact of technical barriers
    Mr. Skeen. The total impact of trade barriers was estimated at $4.7 
billion in 1995. What was it for 1996?
    Response. The total impact of trade barriers identified in the 1996 
survey was $4.97 billion.
                  public and private r&d expenditures
    Mr. Skeen. Please update the table that appears on page 179 of last 
year's hearing record showing the breakout of public and private 
activities for basic, applied, and development research.
    Response. The data reported in the table was compiled from various 
independent sources and cannot be readily updated. Furthermore, 
breaking down research allocation into basic, applied, and development 
research is difficult as there can be substantial overlap between these 
categories. Therefore, the numbers reported in the table should be 
viewed as a general description of the types of activity performed by 
each component of the U.S. agricultural research system. The general 
description suggests that the public sector--USDA and State 
Agricultural Experiment Stations--allocate a much larger share of its 
research resources to basic, or pre-commercial research, while the 
private sector places more emphasis on development research. It is 
unlikely that these general tendencies change substantially over time. 
The table is reproduced below in greater detail, but it has been 
updated.

 SHARES OF AGRICULTURAL RESEARCH EXPENDITURES DEVOTED TO BASIC, APPLIED 
                       AND DEVELOPMENTAL RESEARCH                       
                              [In percent]                              
------------------------------------------------------------------------
                                      Basic       Applied               
                                     research     research   Development
------------------------------------------------------------------------
ARS..............................        54.4         37.9          7.7 
USDA Total.......................        48.3         43.1          8.6 
SAES.............................        45.2         47.9          6.9 
Total Public.....................        47.3         45.4          7.3 
Private..........................        15.0         43.5         41.5 
------------------------------------------------------------------------
Sources: Public research data are from CRIS, 1993; Private research data
  from a 1984 survey reported in ``A Survey of U.S. Agricultural        
  Research by Private Industry III,'' Washington, DC: Agricultural      
  Research Institute 1985.                                              

                conservation reserve program differences
    Mr. Skeen. How are the bid rankings and rental rate screening 
procedures for the new Conservation Reserve Program different from the 
old program?
    Response. Nine CRP signup periods were held from 1986 through 1989 
under the authority of the Food Security Act of 1985. These signups 
were subject to mandatory minimum annual enrollment levels as set forth 
in the 1985 Act. In an effort to meet these enrollment levels, USDA did 
not rank bids for acceptance. Rather, bids were accepted as long as 
ownership and land eligibility criteria were met, and the rental rate 
requested by the producer did not exceed a USDA maximum acceptable 
rental rate--MARR--established for the area. There was one MARR for 
each area and this amount eventually became known to producers. As a 
result, producers could receive rental payments in excess of prevailing 
cash rents for enrolling less productive land. Also, MARR's were 
sometimes set too high in relation to average cash rents, primarily in 
the Great Plains, also contributing to overpayment.
    In signups 10-12, held in 1991-92, the rental payment requested by 
a producer was screened against a soil productivity-adjusted estimate 
of the rent that could be earned on local comparable cropland. Bids 
that exceeded this amount, adjusted for other costs incurred by 
producers due to CRP participation, were rejected. The bid screen 
amounts used in these signups were not related to the MARR's that were 
uniformly applied within areas in signup periods 1-9. Eligible easement 
bids, primarily filter strips, and wellhead protection bids that 
survived the rental rate screen were automatically approved for CRP 
enrollment. Other bids that survived the rental rate screen were ranked 
for acceptance based on the ratio of an environmental benefits index--
EBI--to the government cost of the contract. In signups 10-12, the EBI 
was comprised of seven coequal indicators--surface water quality, 
ground water quality, soil productivity, conservation compliance 
assistance, tree planting, Hydrologic Unit Areas identified by the USDA 
Water Quality Initiative, and conservation priority areas. When 
submitting a bid, producers were not informed of the rental rate screen 
amount for their soil or how the EBI was calculated.
    In signup 13, held in September 1995, the rental payment requested 
by a producer was also screened against a soil productivity-adjusted 
estimate of the rent that could be earned on local comparable cropland. 
Unlike signups 10-12, the bid cap was known by producers prior to 
signup. Bids that exceeded this amount were rejected. Applicants could 
increase the likelihood that their bids were accepted by bidding less 
than the bid cap for their soil. The bid acceptance process used in the 
13th signup used a modified EBI compared with that used in signups 10-
12. The EBI was comprised of 5 factors: water quality protection--both 
ground water and surface water, a maximum of 20 points--creation of 
wildlife habitat--a maximum of 20 points--, control of soil 
erodibility--a maximum of 20 points--, tree planting--a maximum of 10 
points--, and a cost factor based on the annual rental rate requested 
by the producer--a maximum of 30 points--. Environment priority--EP--
bids such as filter strips automatically received maximum environmental 
factor scores. In addition States could develop their own EBI to be 
used in place of the national EBI. Colorado, Missouri, Nebraska, and 
Oregon, developed their own EBI.
    Future signups will be operated similar to signup 13. However, 
county-level soil rental rate caps have been updated to reflect local 
cash rents over 1994-96 and the environmental benefit index will be 
comprised of 7 factors: wildlife habitat benefits--100 points maximum--
; water quality benefits from reduced water erosion, runoff, and 
leaching--100 points maximum--; on-farm benefits of reduced wind or 
water erosion--100 points maximum--; long-term benefits of cover beyond 
the contract period--50 points maximum--; air quality benefits from 
reduced wind erosion--25 points maximum--; benefits from enrollment in 
conservation priority areas--25 points maximum--; and a cost factor 
based on the annual rental rate requested by the producer. The weight 
of the cost factor will be determined following the signup.
                  distribution of flexibility payments
    Mr. Skeen. One of the issues raised during the formulation of the 
1996 Farm Bill concerns the distribution of production flexibility 
payments. Please provide the Committee with estimates of the 
distribution of payments based on farm sales, farm size, and state.
    Response. The new legislation required a farm operator to have a 
crop acreage base and to have been a participant in a farm commodity 
program for at least 1 of the previous 5 years. Thus, the distribution 
of government payments is not expected to change dramatically. Data 
from the 1995 Farm Costs and Returns Survey show that government 
payments were 4 percent of gross cash income. The average participating 
farm received $8,225. Farms having sales over $250,000 received 31 
percent of total payments and produced 47 percent of program 
commodities. Almost half of the payments accrued to farmers in the Corn 
Belt and northern Plains, where farms are predominantly cash grains. 
Government payments were 6-7 percent of gross cash income in these two 
regions. Another 17 percent of payments went to farmers in the Lake 
States. Entities other than the farm operators interviewed in the FCRS 
also received payments, but we have no data on the distribution of 
payments to those groups.
    We have no evidence that landlords and nonoperator landowners will 
earn a larger proportion of government payments under the Farm Bill 
than they did under the previous farm legislation. Land owners could 
attempt to change the distribution of payments through renegotiating 
leases to require that tenants give them a larger share of government 
payments. Leases, however are subject to market forces and in many 
cases tenants have substantial market power. Also, since Farm Bill 
payments are scheduled to decline over the life of the legislation any 
changes in leases would likely be temporary.
    ERS anticipated the changes in the programs by adding several 
questions to the 1996 Agricultural Resource Management Study in order 
to monitor any changes. Questions specifically address the distribution 
of government payments to operators and share-rent landlords, changes 
in plantings, and changes in the management of the farm as a result of 
the new legislation. Questionnaires are being enumerated now and data 
will be available after June 1997.
effects of r&d on productivity, commodity prices, and the distribution 
                             of farm income
    Mr. Skeen. You have recently completed a report investigating the 
effects of agricultural research. The Report found that between 1915 
and 1985 the annual rate of return on investments in agricultural 
research ranged between 35 to 60 percent. Did the report evaluate how 
research has affected agricultural productivity prices, commodity 
prices, and the distribution of farm income?
    Response. The estimate of the rate of return to agricultural 
research is based on the relationship between research investment and 
agricultural productivity. The gains from improvements in agricultural 
productivity--i.e., benefits from research--are shared broadly in 
society among farm producers, the food processing and retailing sector, 
and consumers. Although our report did not specifically examine the 
distribution of benefits from research, other studies have shown that 
in the long run, most of the gains from agricultural research are 
passed on to consumers through lower food prices. Productivity gains 
associated with research result in lower production costs for producers 
due to newly developed efficient production techniques. Among the farm 
sector, early adopters of successful new technologies earn substantial 
benefits, while late adopters or nonadopters may become less 
competitive producers. That is, early adopters benefit from lower 
productions costs. As new technologies diffuse across all producers, 
the widespread adoption of the more cost effective technologies results 
in lower overall production costs which are passed on to consumers as 
lower commodity prices.
        economic impact on high quality environmental amenities
    Mr. Skeen. Has the Natural Resources and Environment Division 
estimated the economic impact of high quality environmental amenities 
in rural areas?
    Response. The Natural Resources and Environment Division has a 
history of estimating the market and ``non-market'' economic benefits 
of agricultural conservation programs, such as the Conservation Reserve 
Program--CRP--, to better inform policy decisions about conservation 
programs. Agricultural conservation programs often improve, not only 
resources on the farm, but improve the environmental amenities in the 
larger rural area. Improving the environment creates two major sources 
of economic impacts. First, market activity is affected in a variety of 
ways, such as a decline in expenditures for farm production inputs, and 
the resulting effects on the local economy. Second, persons coming in 
contact with the environment experience ``non-market'' benefits in the 
form of better recreational opportunities and reduced health hazards. 
To date, most of the analysis at NRED has focused on the benefits of 
the CRP because it is believed that this program has profoundly 
influenced the environment quality of rural areas. One study--Young and 
Osborn--has examined market factors resulting from this program and two 
studies--Ribaudo et. al and Feather and Hellerstein--have examined the 
non-market benefits of an improved environment resulting from the CRP. 
Work is currently under way to expand and improve upon these estimates. 
More generally, studies illustrating how to measure the benefits of 
improved water quality--Ribaudo and Hellerstein--and what these 
benefits are for rural surface water--Crutchfield et. al--and rural 
ground--potable--water have been accomplished. We would be happy to 
supply you with more details about the research results or copies of 
the full reports.
    The Rural Economy Division of the ERS has recently begun an 
analysis to classify U.S. counties into four categories based on a 
ranking of the environmental amenities available in the county. At this 
stage in its development, the natural amenities index is based on a 
number of climatic and topographical conditions. Development of a valid 
indicator is a first step to being able to identify the economic 
impacts from environmental amenities of an area.
               research on hypoxic zone in gulf of mexico
    Mr. Skeen. Is your agency doing research on the hypoxic zone in the 
Gulf of Mexico just off the Coast of Louisiana and Texas? If so, please 
provide the Committee with a summary of the research.
    Response. ERS is collaborating with scientists at USGS to evaluate 
alternative nutrient management policies in the Mississippi Basin for 
addressing the hypoxic zone in the Gulf of Mexico. USGS is providing 
the modeling of nutrient fate and transport, and ERS is providing data 
on fertilizer use and other sources of nutrients in the basin. ERS will 
identify critical regions in the basin for nutrient management, and 
identify alternative management policies, including those involving 
point sources.
                        national income accounts
    Mr. Skeen. Please discuss with the committee how the national 
income accounts would change if adjustments were made for depleting or 
degrading the Nation's soil, water, and habitat resources.
    Response. The Natural Resources and Environment Division has 
released a report ``Accounting for the Environment in Agriculture'' 
which developed a framework for incorporating natural capital and 
environmental goods into the existing national income accounts--U.S. 
Department of Agriculture--1995--. Accounting for the Environment in 
Agriculture. Technical Bulletin Number 1847. October--. As examples of 
the potential scope of accounting adjustments needed in the 
agricultural sector, the effects of soil erosion on agricultural 
productivity and income, the economic effects of decreased surface-
water quality, and the depletion of ground-water stocks are presented. 
Estimated adjustments to net agricultural income are in the range of $4 
billion and have declined as a percentage of net farm income since 
1982. About 85 percent of the adjustment is caused by agriculture's 
contribution to the decline in surface-water quality while the 
remainder is due to the impact of agricultural production on declines 
in the stock of ground-water.
    The report acknowledges the adjustments presented are incomplete. 
Because the objective of the analysis was to illustrate some of the 
adjustments necessary to improve the national income accounts, the 
report considers a few of the key agricultural effects on the 
environment. Other adjustments, including additional environmental 
damages and valuing environmental services, are necessary to accurately 
measure the impacts of agriculture on the national income accounts. For 
example, because of data limitations, the report does not present 
values for the benefits of landscape preservation or wildlife habitat. 
On the cost side, the report does not examine how soil quality 
characteristics, other than erodibility, affect productivity or 
wildlife habitat. The authors also caution that national estimates may 
mask significant regional or local problems. Estimated costs of erosion 
in terms of lost productivity, for example, is not a significant 
national problem, but may be a significant regional or state problem.
                         food related projects
    Mr. Skeen. Provide a list of all ongoing and planned studies being 
conducted in the food and nutrition assistance program area. Include a 
brief description statement for each study and evaluation.
    Response. We have several ongoing and planned research projects in 
this area. ERS is conducting research to assess the impacts of 
economic, social, demographic, diet-health information, and program 
variables on the nutrition and health of low-income consumers including 
program participants. This includes two broad areas of research: the 
effects of these factors on diet quality and the link between diet 
quality and health outcomes. For example, this research will isolate 
the effects of changes in the Food Stamp and WIC Programs on nutrient 
intakes of children, including iron-deficiency anemia, and on the rate 
of low weight births among program-eligible women, both costly 
nutrition-related outcomes. This research effort will also assess the 
potential synergisms between food assistance and nutrition education in 
improving dietary intakes. Additional research will explore the impacts 
of diet-health-nutrition information on the overall quality of diets. 
These projects will improve our ability to evaluate the impacts of 
alternative and/or complementary strategies for improving the health 
and economic well-being of low-income Americans.
    All States have been mandated to implement Electronic Benefits 
Transfer EBT systems for use in the Food Stamp Program by 2002. EBT 
systems generally use some sort of credit or debit card technology for 
the payment of approved food purchases. USDA has established the 
feasibility of this technology and evaluated its effect on food 
retailers, financial institutions and current recipients. But, there is 
little evidence about how EBT will affect food stamp participation 
rates. Conceptually, EBT should lower the stigma associated with 
participation and increase the number of participants. Since 
approximately 30-40 percent of households eligible for the FSP do not 
participate, EBT has the potential to significantly increase 
participation, and, hence, program funding needs. ERS is assessing the 
impact of EBT on program participation and will forecast participation 
and funding levels resulting from EBT implementation.
    Another project assesses and develops strategies for combining 
models of household economic decision making with models of 
agricultural production and the general economy. Results will allow us 
to better assess the impact of program changes including welfare 
legislation on the food industry, the agricultural sector, labor 
markets, and the general economy.
    ERS is conducting research on the relationships among food 
insecurity defined as an adequate food supply, income, food spending, 
food assistance programs, and household socioeconomic and demographic 
characteristics. This research will provide a basis for examining the 
impact of welfare reform on food security.
                         costs of food research
    Mr. Skeen. What is the total amount of money spend by ERS in this 
area of work?
    Response. ERS spends about $0.5 million per year in the food and 
nutrition assistance area. This amount includes staff support for data 
management and research activities.
                       food research coordination
    Mr. Skeen. How is this work coordinated with the studies and 
evaluation being conducted by the Food and Consumer Service to 
eliminate overlapping or duplicative work?
    Response. ERS and the Office of Analysis and Evaluation at the Food 
and Consumer Service [FCS] have a mutual interest in conducting 
analyses designed to improve our understanding of USDA's food 
assistance and nutrition programs. Our analysts meet throughout the 
year to discuss research issues and strategies, data needs and 
availabilities, and how to address mutual research interests. Several 
of our ongoing research projects are being conducted for FCS. This 
includes our work on food security and the linkage between food 
assistance programs and agriculture. In addition, FCS frequently 
requests help from ERS analysts to provide technical reviews of project 
proposals and draft research manuscripts.
             progress in developing the ers strategic plan
    Mr. Skeen. GPRA known as the Results Act, requires each executive 
agency to issue, no later than September 30, 1997, a strategic plan 
covering at least five years. In addition to a mission statement 
grounded in legislative requirements, the plans are to contain general 
goals and objectives that are expected to be outcome or results 
oriented--such as to improve literacy--as opposed to output or activity 
oriented--such as to increase the number of education grants issued--.
    What progress is the agency making in developing its strategic 
plan, including defining its mission and establishing appropriate 
goals?
    Has the agency identified conflicting goals for any of its program 
efforts? If so, what are the performance consequences of these 
conflicting goals and what actions--including seeking legislative 
changes--is the agency taking to address these conflicts?
    Response. In 1991, 30 years after ERS was established, the Agency 
held a major conference of present and past policy makers--including 
several Secretaries of Agriculture, Deputy Secretaries, and former ERS 
Administrators--, industry and non profit organization representatives, 
distinguished academicians, and ERS staff to consider the role and 
future of ERS. That dialogue, and subsequent ones based on the 
proceedings, led to a major 1993-94 program review. The resulting 
``building block reports'' were the basis for discussion at senior 
management level strategic sessions that resulted in development of the 
first portions of the strategic plan, including the mission statement 
and definition of customers and stakeholders. The building block 
reports, subsequent strategic planning activities by each of the new 
divisions, and the REE strategic plan combined to form the foundation 
for the ERS strategic plan. The general goals to which ERS seeks to 
contribute reflect its legislative mandate and the guidance of the 
department. The first complete draft of the ERS strategic plan for the 
reorganized ERS was completed in March 1996. A revised draft based on 
review comments is now with the Department for review.
    The agency found no conflicting goals among its program efforts and 
seeks no legislative changes.
                        projected ers resources
    Mr. Skeen. Strategic plans must be based on realistic assessments 
of the resources that will be available to the agency to accomplish its 
goals. As you are developing your strategic plan, how are you taking 
into account projected resources that likely will be available--
especially as we move to a balanced budget? What assumption are you 
making? How are you ensuring that your goals are realistic in light of 
expected resources?
    Response. Consistent with the assumptions about its program level 
contained in the FY 1998 President's budget, the ERS strategic plan 
assumes some further erosion in real levels of funding through 2002. 
Policy makers and program managers increasingly will be called to 
defend the efficiency and equity consequences of public policies, 
regulations, and programs. Recent legislation establishing the Office 
of Risk Assessment and Cost-Benefit Analysis--ORACA--within USDA is 
evidence of this trend toward increased reliance on economic analysis. 
In the case of ORACA, ERS is routinely consulted. Tighter budgets in 
other USDA mission areas and other federal agencies involved in food, 
development, and environmental issues will decrease their already 
limited internal ability to analyze the economic effects of policies 
and programs. This will make the economic perspectives that ERS 
provides even more important to development of efficient, equitable 
policies, programs, and technologies. In real terms, the ERS budget has 
declined about 30 percent from its 1979 peak. From FY 1993 to FY 1996 
the ERS appropriation was reduced 10 percent in nominal terms--$59 
million to $53 million--or 20 percent in real terms. The Agency will 
continue to seek interdisciplinary expertise from its partners and 
stakeholders to supplement and complement ERS's capabilities. ERS will 
use telecommunication and computer technology developments to enhance 
analytical tools and improve communication with customers and partners. 
Increasing flexibility in procurement and personnel regulations offers 
new opportunities for more a responsive, adaptive, and efficient ERS.
        linking strategic plan and annual performance plan goals
    Mr. Skeen. For Congress, the heart of the Results Act is the 
statutory link between agency plans, budget requests, and the reporting 
of results. Starting with fiscal year 1999, agencies are to develop 
annual performance plans that define performance goals and the measures 
that will be used to assess progress over the coming year. These annual 
goals are to measure agency progress toward meeting strategic goals and 
are to be based on the program activities as set forth in the 
President's budget.
    What progress have you made in establishing clear and direct 
linkages between the general goals in your strategic plan and the goals 
to be contained in your annual performance plans? OMB expressed concern 
last year that most agencies had not made sufficient progress in this 
critical area.
    More specifically, how are you progressing in linking your 
strategic and annual performance goals to the program activity 
structure contained in the President's budget? Do you anticipate the 
need to change or modify the activity structure to be consistent with 
agency's goals?
    Overall, what progress has your agency made--and what challenges is 
it experiencing--defining results-oriented performance measures that 
will allow the agency and others to determine the extent to which goals 
are being met?
    Response. Quantitatively and definitively establishing that 
decision makers make particular decisions because of the provision of 
analyses is widely acknowledged as extremely difficult. ERS has and 
continues to experiment with a variety of qualitative and quantitative 
indicators to help measure the relevancy and accessibility of outputs 
for customers. Indicators may include: 1--call backs for follow up 
analysis from policy makers; 2--requests for ERS staff as primary 
speakers at important meetings; 3--articles in major public media that 
correctly and effectively use ERS analysis and data; and 4--changes in 
legislation, regulation, and design of social science programs related 
to agriculture, food, natural resources, and rural areas.
    Interpreting the results of measurements against indicators is not 
a straight forward process. If ERS analysis is objective, analysis on 
the efficacy, efficiency, and equity impacts of specific policies, 
programs, and regulations will at any one time support some customers' 
proposals but not others. Analysis may show that an export promotion 
program helps corn exporters at the expense of beef exporters. Research 
may show that a water allocation proposal costs farmers but benefits 
recreation interests. The corn exporters and farmers in such cases may 
not fully appreciate the relevancy, accessibility, and objectivity of 
ERS analysis. The history of ERS demonstrates this challenge 
convincingly. The demise of ERS's predecessor agency, the Bureau of 
Economic Analysis, in the 1950s and dispersal of its operations to 
other USDA agencies is generally attributable to its controversial 
research on conditions in the rural South. ERS continues to 
constructively deal with this challenge that analytical organizations 
face in providing relevant and objective analysis. ERS does not 
anticipate the need to change or modify the program activity structure 
contained in the President's budget to be consistent with the agency's 
goals.
                            lessons learned
    Mr. Skeen. If applicable, what lessons did the agency learn from 
its participation in the Results Act pilot phase and how are those 
lessons being applied to agency-side Results Act efforts? What step is 
the agency taking to build the capacity--information systems, personnel 
skills, etc.--necessary to implement the Results Act.
    Response. ERS was not in the Results Act pilots phase. ERS, 
however, individually and in conjunction with REE mission area 
strategic and performance planning activities has been briefed by staff 
from agencies participating in the pilot tests such as the Army 
Research Labs and other experts in planning and evaluating research in 
the private sector such as Mycogen Company, Pioneer Hi-Bred 
International, and Ocean Spray. Lessons from them included:
    Do not make strategic planning and performance measurement so 
difficult that no one has time to work on achieving goals.
    Good planning is an ``ever-green'' process and that use of 
assessments leads to further refinements of strategic and annual plans.
    People will perform to indicators--make sure the indicators lead to 
the correct outcome.
    Research agencies face special difficulties in tying research 
results to broader outcomes in part because of long payout times.
    All ERS managers received formal training in results focused 
planning and assessment as early as June 1995, and the education 
process continues from special briefings held for all staff on the 
Results Act and the ERS strategic plans to directly involving staff in 
drafting the ERS and REE strategic and annual plans.
                            ers stakeholders
    Mr. Skeen. The Results Act requires agencies to solicit and 
consider the views of stakeholders as they develop the strategic plans. 
Stakeholders can include state and local governments, interest groups, 
the private sector, and the general public, among others. Who do you 
consider to be your agency's primary stakeholders and how will you 
incorporate their views into the strategic plan?
    Response. The ultimate beneficiaries of ERS's program are the 
American people, whose well-being is improved by informed public and 
private decision making. ERS has identified policy makers and key 
institutions who share that commitment and routinely make or influence 
public policy and program decisions. ERS shapes its program and 
products principally to serve these key decision makers: the U.S. 
Congress; White House and USDA policy officials and program 
administrators/managers; other Federal agencies and State and local 
government officials, and domestic and international environmental, 
consumer, and other public groups, including farm and industry groups 
interested in public policy issues. ERS depends heavily on working 
relationships with other organizations and individuals to accomplish 
its mission. Key partners include: the National Agricultural Statistics 
Service--NASS--for primary data collection; universities for research 
collaboration; the media as disseminators of ERS analyses; and other 
government agencies and departments for data information and services. 
ERS stakeholders are its customers and partners, its staff, 
cooperators, and contractors, and most importantly American citizens 
and taxpayers.
    ERS maintains close contacts with its key decision makers and its 
partners through formal and informal channels from collaboration by 
senior officials to daily contacts between ERS researchers and program 
managers in other agencies to formal participation in department and 
government initiatives. ERS sought review of an early draft of its 
strategic plan through a variety of venues including REE sponsored 
listening sessions around the country, a session at the American 
Agricultural Economics Association annual meeting, and the ERS home 
page as well as internal USDA review. ERS has consulted and will 
continue to consult with the National Agricultural Research, Extension, 
Education, and Economics Advisory Board. The current draft reflects 
changes as a result of feedback. The review process, however, remains 
ongoing. USDA will soon be sending the draft ERS strategic plan to 
Congress for review and consultation. Future program evaluations from 
stakeholders and changing internal and external environments will 
result in updating and refinement.
            coordinating strategic plans with other agencies
    Mr. Skeen. For the Results Act to be successful, agencies with 
similar missions, goals, or strategies will need to ensure that their 
efforts are coordinated. What other federal agencies are you working 
with to ensure that your strategic plans are coordinated? What steps 
have you taken to ensure that your efforts complement and do not 
unnecessarily duplicate other federal efforts?
    Response. ERS in developing its strategic and annual performance 
plans maintains its commitment to meeting the needs of agencies within 
and outside USDA for economic analysis of policies, programs, and 
technologies aimed at making U.S. agriculture competitive providing 
safe and healthy diets, enhancing the environment, and supporting 
economic development. ERS has a historical network of formal and 
informal contacts with all relevant agencies--naming just a few, 
Foreign Agricultural Service, Food and Consumer Service, Food and Drug 
Administration, Natural Resource Conservation Service, Environmental 
Protection Agency, and Rural Business and Cooperative Service--which it 
draws upon in developing its strategic and annual performance plans. 
The REE mission area leadership has directly coordinated development of 
the plans for ERS, the Agricultural Research Service, the Cooperative 
State Research, Education, and Extension Service, and the National 
Agricultural Statistics Service; involved these agencies staffs first 
hand in developing the overall REE plan; and established formal 
participation by the program agencies listed above and staff in USDA's 
Offices of Budget and Program Analysis and the Chief Financial Officer.
                      consultations with congress
    Mr. Skeen. The Results Act requires agencies to consult with 
Congress as they develop their strategic plans. Since these plans are 
due in September, now is the time for agencies to begin the required 
consultations. What are your plans for the congressional consultation 
as you develop your strategic plan? Which Committees will you consult 
with? How will you resolve differing views?
    Response. All USDA Mission Areas/Agencies have prepared draft 
Strategic Plans which are currently being reviewed by the Under/
Assistant Secretary (or other relevant official), the Senior Policy 
Staff, and the Secretary. Upon completion of the review, the Department 
plans to provide copies of the Strategic Plan (including an overall 
Departmentwide Executive Summary and Strategic Plans for individual 
Mission Areas/Agencies) to relevant Congressional Committees. 
Thereafter, we will look forward to meeting with Members or Staff to 
discuss our Strategic Plan and to solicit your input and advice on 
refinements to that Plan. We plan to provide copies of the Department 
Strategic Plan to the following Committees:
    House Agriculture Committee, House Appropriations Committee, House 
Economic and Educational Opportunities Committee, House Government 
Reform and Oversight Committee, House Resources Committee, Senate 
Agriculture, Nutrition, and Forestry Committee, Senate Appropriations 
Committee, Senate Energy and Natural Resources Committee, and Senate 
Governmental Affairs Committee.
          effect of results act on ers programs and operation
    Mr. Skeen. In passing the Results Act, Congress sought to 
fundamentally change the focus of federal management and decision 
making to be more results-oriented. Organizations that have 
successfully become results-oriented typically have found that making 
the transformation envisioned by the Results Act requires significant 
changes in what they do and how they do it.
    What changes in program policy, organization structure, program 
content, and work process has the agency made to become more results-
oriented?
    How are managers held accountable for implementing the Results Act 
and improving performance?
    How is the agency using Results Act performance goals and 
information to drive daily operations?
    Response. ERS has always been concerned with providing analyses to 
underpin development and operation of efficient, effective operation of 
government and private activities from increasing exports and food 
safety to enhancing natural resources and rural economies. The nature 
of ERS mission to provide economic analyses on the impacts of a broad 
array of policies, programs, and technologies and its reliance on 
scientific research methods means that the ERS culture is basically 
results-oriented. This orientation has affected the way ERS 
historically has approached program planning and evaluation, 
development of its business processes, and its use of employee 
recognition and evaluation systems. ERS continues to challenge: 1--
policy makers and program managers throughout government to consider 
the effects of alternative policy and program implementation options, 
2--ERS suppliers and cooperators to provide goods and services to ERS 
in the most cost effective manner, and 3--ERS staff to demonstrate how 
their research makes a difference including the net social benefit of 
research itself.
    Although this orientation eases adjustment to Results Acts 
requirements, ERS is using the opportunities to more explicitly 
articulate and measure how ERS analyses improve the quality of public 
and private decision making on issues affecting agriculture, food 
consumption, natural resources, and economic development. ERS is 
experimenting with different quantitative and qualitative output 
indicators to measure and report its performance and is looking at 
alternatives for tying research performance evaluations to performance 
goals. ERS will be developing improved opportunities for customer 
feedback to better establishing how ERS can help decision makers make 
more informed decisions. The National Academy of Sciences National 
Research Council is overseeing a major 2-year review of the ERS program 
and will make recommendations for further improvements in research 
methods and practices. In the second half of 1998, ERS will be 
implementing recommendations concerning external advice, peer review, 
and collaborative efforts to ensure that ERS analysis meets 
disciplinary standards, is relevant for and highly accessible to public 
and private decision makers, and is conducted in a cost effective 
manner. ERS is also conducting an extensive study of the public and 
private supply of and demand for economic information on domestic and 
foreign agricultural performance and commodity markets. The goal is to 
understand ERS's role and effectiveness in providing market information 
that will contribute to development of sound public policies, better 
managed public programs, and competitive market conditions.
                 government performance and results act
    Mr. Skeen. Both the budget request for the Economic Research 
Service and the National Agricultural Statistics Service include 
increases to support an initiative to provide statistical support for 
GPRA measurements to all Federal agencies across the government. The 
increase for ERS is $125,000 and for NASS it is $540,000. The total 
initiative involves eight federal agencies and $1.6 million.
    1. Who are the other six agencies?
    2. Briefly describe this initiative and tell us what you expect to 
accomplish.
    3. Most Federal agencies are well into developing their performance 
and outcome measurements. How will this information be timely and 
helpful?
    Response. The initiative ``Provide Statistical Expertise for GPRA 
Measurement'' draws upon the expertise of not only ERS and NASS, but 
also the Bureau of Labor Statistics, Bureau of Transportation 
Statistics, Census, Energy Information Agency, National Center for 
Health Statistics, and the Statistics of Income in the Internal Revenue 
Service.
    The initiative includes three major parts: a-- $1.6 million to 
develop or refine comparable ``turn-key'' data collection and 
measurement resources for use by agencies throughout the Government; 
b-- $0.75 million to develop standardized questions and satisfaction 
scales for common elements of Federal services; and c-- $1.2 million to 
add 10 Federal agencies to the American Consumer Satisfaction Index. 
The additonal funding for ERS and NASS would allow ERS to participate 
regarding performance measurement issues and NASS regarding sampling 
issues under the turnkey sampling portion a and ERS and NASS to 
contribute to question development and NASS to scales development in 
the standard instrument and scales portion b.
    The overall initiative statement explains a number of reasons for 
undertaking the activities. Many agencies have been struggling with 
measurement problems associated with outcome based performance. 
Consistent concepts, scales, and sampling methods are critical for 
reliable performance-based comparisons among Departments. Many Federal 
services contain common dimensions--e.g. courtesty, timeliness, 
knowledge--that are currently measured on different scales that 
undermine useful comparisons. Many agencies have asked for help in 
developing a catalog of tested questions and satisfaction scales. The 
American Consumer Satisfaction Index is the only nation-wide 
standardized satisfaction measure that permits consistent comparison of 
private sector products and services with Federal agency products and 
services.

               National Agricultural Statistical Service

                         demand for information
    Mr. Skeen. How has the 1996 Farm Bill affected the demand for 
information from NASS? Have you seen a change in the kind of 
information, frequency of reports, or accuracy of the data needed by 
your customers?
    Response. There is increased interest in all acreage reports 
beginning with the Prospective Plantings report in March, the June 
Acreage report in June and the Winter Wheat and Rye Seedings report in 
January. The uncertainty of what farmers will plant has increased due 
to producers having more freedom to shift planting based on economic 
factors and other cultural practice factors instead of farm program 
requirements. Therefore, these acreage reports have taken on a much 
more significant role of informing the public about the year's crop 
production prospects.
    The 1996 Farm Bill also places greater emphasis on producers 
receiving their income based on market prices. Therefore, less 
government intervention in crop prices creates a more free market that 
responds to market information, such as NASS's crop production 
forecasts and estimates, as well as to trade statistics and other 
information that impacts the price of commodities in the world market.
                         pesticide information
    Mr. Skeen. Please report on how the information you began 
collecting last year in whole-farm pesticide use surveys is being used. 
Who are the primary users of this data?
    Response. The information will be added to the current National 
Agricultural Statistics Service (NASS) pesticide use data base. The 
whole-farm survey is adding new data that has never been available 
prior to 1997. Pesticide use totals on range and pasture acres, general 
farm usage, and cattle, sheep, hogs, and poultry inventories are 
examples of commodities covered in the whole-farm pesticide survey. 
Users of the information include government agencies, such as many 
agencies within the Department of Agriculture (USDA) and the 
Environmental Protection Agency (EPA). Both USDA and EPA use the 
information to produce pesticide benefit and risk assessments, which 
are critical during product re-registration. Land grant universities, 
farm organizations, and private sector organizations also are primary 
users of the data and rely on NASS to produce reliable pesticide use 
estimates. In addition, the whole-farm pesticide use surveys, which 
cover all States as well as virtually all uses, meet the requirements 
of Section 1491 of the Food and Agriculture Bill of 1990 which was also 
part of the 1996 Farm Bill.
                       census and sampling frames
    Mr. Skeen. How will the responsibilities for collecting data for 
the Census of Agriculture affect the NASS sampling frame?
    Response. With the transfer of the responsibility for the Census of 
Agriculture to NASS, the duplication of maintaining two separate lists 
of agriculture producers will no longer be needed. The combined list 
will become the NASS sampling frame for its regular survey program.
                    status of census of agriculture
    Mr. Skeen. Please report to the Committee on the status of the 1997 
Census of Agriculture.
    Response. The 1997 Census of Agriculture program is on schedule 
with the questionnaires already at the printers. The scope of the 1997 
Census of Agriculture will remain comparable with prior censuses. On 
February 2, 1997, 68 of the 79 employees currently working full-time on 
the 1997 Census of Agriculture were officially transferred to NASS, and 
8 of the 11 employees not transferring are currently detailed to NASS 
to work on the 1997 Census of Agriculture by the Bureau of the Census.
    A print contract was awarded in January which starts the process 
for printing and assembly of more than 9 million mail packages between 
now and October. The census mail list will be reviewed in May to 
eliminate duplication. This is the first of two unduplication phases 
required to reduce the size of the mail list prior to the addressing of 
approximately 2.75 million report forms beginning in November. NASS's 
45 field offices are being utilized in an effort to reduce the final 
mail-out by 750,000 records.
    A joint Census Bureau/NASS Planning Team has been working for over 
a year to examine all functions associated with the census of 
agriculture. The team reviewed all operations and determined that 
certain activities should be assigned to the NASS field offices, and 
the remaining work kept at the Census Bureau's Jeffersonville, Indiana 
central processing office. In general, the mailout, data capture, 
editing operations, and all computer processing systems will be handled 
on a contractual basis through the Census Bureau. Data collection, data 
analysis, tabulation, and publication will be shared throughout the 45 
NASS field offices. The NASS field offices will also provide assistance 
to all 2.75 million persons receiving the 1997 Census of Agriculture 
questionnaire through a new toll-free telephone number included on all 
questionnaires mailed to respondents. The census mail-out will occur in 
mid-December of this year. This plan integrates the resources of the 
two agencies and will reduce the time needed to release the results by 
about 6 months, as compared to the 1992 Census of Agriculture.
    In addition, the 1997 Census of Agriculture program includes a 
census of outlying areas--Puerto Rico, Virgin Islands, Guam, and the 
Northern Marianas--as well as a horticulture census, and the Farm and 
Ranch Irrigation Survey. All of these programs are in the process of 
being planned as part of the upcoming census cycle.
                            farm definition
    Mr. Skeen. The minimum farm sales threshold to be considered a farm 
has been an issue. Have you changed the definition for the 1997 Census?
    Response. No, the definition of a farm remains at $1,000 in annual 
value of sales, the same definition used since 1974.
                         census data collection
    Mr. Skeen. Please discuss any major changes, additions, or 
deletions from prior Agricultural Census data collection.
    Response. The 1997 Census of Agriculture will collect essentially 
the same information as the 1992 Census. A few minor improvements were 
made in an effort to reduce duplication and to modernize the breakout 
of tractors to include a separate category for those over 100 
horsepower.
    Most content additions to the Census of Agriculture resulted from 
revising the Standard Industrial Classification system. The revised 
system is known as the North American Industrial Classification System 
(NAICS), and is endorsed by Canada, Mexico, and the United States. 
NAICS caused the addition of maple sap gathering and short-rotation 
woody crops, including Christmas trees to the agricultural sector. 
Also, farms which are totally enrolled in the Conservation Reserve 
Program will be counted as farms and included in the farm count.
    Some extra list building sources are being added to improve the 
coverage of minority-owned farms. A new data collection procedure will 
be implemented to account for Native American operators who live on 
reservations.
                           census cycle costs
    Mr. Skeen. Update the table that appears on page 46 of last year's 
hearing record showing the full cycle costs by line item for the Census 
to include actuals and revised estimates.
    [The information follows:]

[Page 491--The official Committee record contains additional material here.]


                     census forms and response rate
    Mr. Skeen. Fiscal year 1998 will be the year NASS actually collects 
the Census Agricultural data. How long will it take an average farmer 
or rancher to fill out the form and what kind of response rate do you 
expect from the 2.5 million forms mailed to farmers and ranchers?
    Response. Based on previous tests and the most recent census, it 
takes 5-120 minutes to complete the census report form, with most 
respondents completing the form in an average of 60 minutes. The wide 
variation in time is due to differences in farming operations. For 
example, it would take a very short time for a farmer who only grew one 
crop to complete the questionnaire, compared to a large, complex 
agricultural enterprise producing multiple crops and raising many kinds 
of livestock. This includes the time for reviewing the instructions, 
searching and gathering the needed data, and completing the form. The 
1992 Census of Agriculture had a response rate of 85 percent. I would 
expect a similar response rate for the 1997 Census of Agriculture, 
provided the same mandatory reporting authority is provided to NASS as 
previously given to the Census Bureau.
                          census authorization
    Mr. Skeen. Funding for the Census was included in the fiscal year 
1997 appropriations bill in anticipation that authorizing legislation 
needed to transfer the function from the Department of Commerce to USDA 
would follow. This did not happen. What is the likelihood of 
legislation passing before we do our bill this year?
    Response. I believe the likelihood is very good since the 
legislation introduced last year had very strong bipartisan support in 
both the House and the Senate. Therefore, we are hopeful that the 
authorizing legislation will pass early in this session of Congress.
    Mr. Skeen. What happens if you don't get the legislation needed to 
carry out the Census?
    Response. Without the authorizing legislation, census of 
agriculture improvements and future census preparations would be 
jeopardized. For the 1997 Census of Agriculture, a decision would need 
to be made whether to collect the 1997 Census of Agriculture on a 
voluntary basis using NASS's authority to collect agricultural 
statistics, or to use the Bureau of the Census Title 13 authority to 
collect the data on a mandatory basis. Each option has a major 
deficiency. First, using the voluntary option would increase data 
collection costs and reported data quality would decrease because the 
census responses would be voluntary. Without mandatory authority, more 
nonresponse follow-up is needed which increases costs since farmers are 
not as responsive to mail requests which are not identified as 
``mandatory.'' The second option would prevent NASS from fully 
assisting with the census since it would not have access to detailed 
program files that are integral to the program transfer and needed for 
effective data edit and future mail list processes. This would negate 
all the efficiencies gained by the merger of the two programs.
    If the authorizing legislation does not pass Congress as a fast-
track, independent bill, efforts will be made to include the 
legislation as part of the re-authorization of the Research Title.
                            census staffing
    Mr. Skeen. Do you plan to hire additional personnel to work on the 
Census? If so, how many and will they be hired at the state level or 
Federal level?
    Response. Yes. Additional temporary employees will be employed by 
our State offices utilizing the existing National Association of State 
Departments of Agriculture (NASDA) cooperative agreement. Staff in 
NASS's State offices will primarily be involved in providing telephone 
assistance, as well as telephone and face-to-face data collection 
support. In Jeffersonville, Indiana, the Census Bureau will provide 
temporary employees appointed at the Federal level. This staff will 
primarily be involved in data capture and editing activities.
    Mr. Skeen. Provide a table that shows a breakout of staff years 
devoted to Census work.
    Response. Since the responsibility for the census of agriculture 
did not transfer to NASS until the beginning of fiscal year 1997, we 
have broken out the staff-years being utilized at NASS and at the 
Bureau of the Census for that fiscal year only.
    [The information follows:]

      Staff-years Estimated to be Utilized on Census of Agriculture     
------------------------------------------------------------------------
                                           Bureau of the                
               Fiscal year                    Census         USDA/NASS  
------------------------------------------------------------------------
1997....................................         34(\1\)              80
1998....................................  ..............            253 
------------------------------------------------------------------------
\1\ Represents staff-years of Census employees before they transferred  
  to NASS on February 2, 1997.                                          

                      national resources inventory
    Mr. Skeen. As you are aware, the Natural Resources Conservation 
Service collects data on the status of the Nation's private lands 
through the National Resources Inventory (NRI). Have you explored ways 
that the Agricultural Census data can be integrated with the NRI data?
    Response. Yes, NASS has been working with NRI with its evaluation 
of the existing sampling program used for the NRI. However, we have not 
explored the feasibility of integrating this work with the census of 
agriculture. I am sure we will discuss this option as well as other 
means of making maximum use of the data collected by the census of 
agriculture.
                     nass efficiency and the census
    Mr. Skeen. In last year's hearings you mentioned that transferring 
the Census of Agriculture to NASS would improve the integration of 
Census data and regular NASS survey operations and that there would be 
an enhancement in efficiency. Please provide for the record some 
concrete examples of these benefits.
    Response. The major efficiency gain is that there will no longer be 
a need for the Census Bureau and NASS to maintain two separate lists of 
farms. The combined list will be used by NASS for the censuses of 
agriculture as well as for the regular ongoing survey program. Also, by 
providing NASS's field offices with the capability to review and 
improve the accuracy of the census mail list, the size of the 3.5 
million unit mail list used to enumerate the less than 2 million farms 
will be significantly reduced, resulting in reduced mailings, 
processing, and staff costs, as well as respondent burden. Finally, we 
will withhold mailing census report forms to those farms and ranches 
that will be contacted during December by the State offices for regular 
NASS survey interviews, such as the Cattle on Feed report. During these 
interviews, census data will also be collected for about 80,000-100,000 
farms and ranches. This will be the first effort to reduce response 
burden by integrating the data collection efforts between ongoing NASS 
surveys and the census.
    Mr. Skeen. Please report to the Committee on the use of the 
Internet to distribute NASS reports. Has this reduced your costs or 
saved time?
    Response. Providing all NASS reports and electronic data products 
on the Internet has significantly improved customer service. Reports on 
the Internet are available to a broader audience than the historical 
subscribers to paper reports or those who purchased diskettes. We are 
also loading the graphics from the reports and the presentation to the 
Secretary of Agriculture on the Internet. This provides publishers the 
opportunity to use charts and maps when presenting the current 
agriculture situation, which were not previously available. Since there 
are still a number of data users who continue to want hard copies of 
our reports, there has not been any significant savings. In fact, with 
the major increase in the number of users of NASS data due to the 
Internet, additional staff time has been expended responding to 
questions about the estimates.
    Mr. Skeen. Do you have any customer feedback on the use of the 
Internet to disseminate NASS data and reports? Does your system record 
the number of users and does it provide opportunities for recording 
customer satisfaction?
    Response. NASS had 73,180 accesses on the USDA Web Server for the 
week of January 27, 1997 to February 2, 1997. During that week, the 
Today's Reports page was accessed 1,541 times. The Web Server 
statistics for the six months prior to February 1997, showed that NASS 
pages on the Internet had over 944,000 accesses. There were 7,473 total 
Subscriptions to NASS reports via e-mail. NASS has a feedback form on 
its Home Page. In addition, we receive many requests for information 
via e-mail. However, most of the requests we receive are for data, 
rather than feedback. The feedback we have received at meetings and 
conferences has been very positive. Many data users would like to have 
an on-line database of commodity estimates, in addition to the specific 
reports. Users would also like to have reports in PDF (portable 
document file) format. Both of these enhancements are under evaluation 
at this time.
                              enumerators
    Mr. Skeen. Please update the Committee on the number of survey 
interviewers that are employed under a cooperative agreement with the 
National Association of State Departments of Agriculture (NASDA).
    Response. During 1996 there were 3,267 part-time employees employed 
under a cooperative agreement with NASDA. They live in mostly rural 
areas throughout the United States.
    Mr. Skeen. Please update the table that appears on page 47 of last 
year's hearing record, showing the number of NASDA employees, the 
amount you reimbursed NASDA for these employees, and what percentage 
this reimbursement is of your total budget, to include fiscal year 1996 
actuals and fiscal year 1998 estimates.
    Response. The following updated table shows the number of NASDA 
employees, NASDA agreement amounts, and the percent of NASS obligations 
for the last 10 years, including estimates for fiscal year 1998.

----------------------------------------------------------------------------------------------------------------
                                                                                       NASDA                    
                                                                       Number of     agreement   Percent of NASS
                                Year                                     NASDA         amount    obligations \2\
                                                                     employees \1\     ($000)                   
----------------------------------------------------------------------------------------------------------------
1988...............................................................         3,597        12,900           18.9  
1989...............................................................         3,568        12,600           17.8  
1990...............................................................         3,975        14,300           18.7  
1991...............................................................         3,775        16,900           19.5  
1992...............................................................         3,784        18,000           19.4  
1993...............................................................         3,851        16,900           18.2  
1994...............................................................         3,500        15,500           17.0  
1995...............................................................         3,500        15,300           17.0  
1996...............................................................         3,267        15,700           17.3  
1997...............................................................     \3\ 3,500    \3\ 17,000           15.4  
1998...............................................................     \3\ 3,800    \3\ 21,500           16.5  
----------------------------------------------------------------------------------------------------------------
\1\ The number of employees NASDA issued a W-2 including employees who worked at any time during the year. The  
  peak number of employees working at any one time is during the first two weeks of June when approximately     
  2,100 enumerators are utilized nationwide.                                                                    
\2\ Obligations include NASS appropriations plus incoming reimbursements for services provided by NASS.         
\3\ Estimated increase based on additional work due to the addition of the census of agriculture.               

                          state office funding
    Mr. Skeen. Update the table that appears on page 48 of last year's 
hearing record, showing funding levels for NASS state offices by 
including fiscal year 1996 actuals and fiscal year 1997 estimates.
    Response. The following is a 10-year table showing the State and 
Federal contributions including estimates for fiscal year 1997. It is 
important to note that the State cooperators' contributions over this 
10-year period have nearly kept pace with the Federal contribution, 
increasing 31 percent, as compared to a 35 percent Federal increase.

                                          FUNDING OF NASS STATE OFFICES                                         
                                              [Dollars in millions]                                             
----------------------------------------------------------------------------------------------------------------
                 NASS state offices collocated in cooperator space                    All NASS state offices in 
-----------------------------------------------------------------------------------  cooperator or federal space
                                                                                   -----------------------------
                        Year                          Federal  Cooperator   Total   Federal  Cooperator   Total 
----------------------------------------------------------------------------------------------------------------
1988................................................     19.2        6.1      25.3     37.9        9.7      47.6
1989................................................     20.3        7.2      27.5     39.5       10.9      50.4
1990................................................     20.8        7.9      28.7     41.4       12.1      59.5
1991................................................     23.8        8.2      32.1     47.3       12.2      59.5
1992................................................     28.6        8.2      33.8     50.3       12.3      62.7
1993................................................     25.5        8.0      33.5     49.8       12.1      61.9
1994................................................     23.2        7.7      30.9     46.3       12.2      58.5
1995................................................     22.2        7.3      29.5     48.0       11.8      59.8
1996................................................     21.3        7.6      28.9     47.8       12.4      60.2
1997\1\.............................................     25.8        7.8      33.6     51.3       12.7      64.0
----------------------------------------------------------------------------------------------------------------
\1\ Estimated.                                                                                                  

                   international technical assistance
    Mr. Skeen. For the record, please submit a list of the countries to 
which NASS is currently providing technical assistance.
    Response. NASS is conducting technical assistance on a cost 
reimbursable basis this fiscal year in Albania, China, Ethiopia, 
Kazakstan, Mexico, Morocco, Nicaragua, Poland, Romania, Russia, and 
Ukraine.
                            ongoing services
    Mr. Skeen. Did you eliminate any ongoing services during fiscal 
year 1996?
    Response. No services were eliminated during fiscal year 1996.
                          discontinued reports
    Mr. Skeen. Did you discontinue any reports during fiscal year 1996? 
Do you plan to discontinue any reports in fiscal year 1997? If so, 
please provide a list of these reports for the record, showing the 
frequency of the report, the total number of copies published each 
year, and the reason you are discontinuing the report.
    Response. No reports were discontinued in fiscal year 1996 and none 
are planned to be discontinued in fiscal year 1997.
                              report fees
    Mr. Skeen. Please provide for the record a list of all reports that 
are distributed on a user fee basis and give the fee for each report.
    Response. A list of all reports that are distributed on a user fee 
basis along with the fee for each report for the record are shown in 
the following table.

[Page 496--The official Committee record contains additional material here.]


                          cooperative research
    Mr. Skeen. Do you still operate a cooperative research program? If 
so, please provide a list of all cooperative research agreements that 
were signed during fiscal year 1996, including a brief description of 
each agreement as well as its cost.
    Response. Yes, NASS does conduct an ongoing cooperative research 
program with several universities as a way of introducing new 
statistical techniques and methodologies into the NASS operational 
program. In fiscal year 1996, a new agreement was signed with George 
Mason University for $15,000. The following is a list of NASS funded 
ongoing and new cooperative research projects for fiscal year 1996.

             LIST OF FY 1996 COOPERATIVE RESEARCH AGREEMENTS            
------------------------------------------------------------------------
             Cooperator                  Amount           Purpose       
------------------------------------------------------------------------
University of California............      $30,000  Develop improved     
                                                    CASES software for  
                                                    computer assisted   
                                                    interviewing.       
George Mason University.............       15,000  Research aligning    
                                                    agricultural census 
                                                    results with        
                                                    estimates from NASS 
                                                    sample surveys.     
University of Houston...............       35,000  Research and analysis
                                                    in the development  
                                                    and documentation of
                                                    ``list only''       
                                                    estimators.         
Ohio State University...............       25,000  Research and analysis
                                                    in small area       
                                                    estimation.         
------------------------------------------------------------------------

                         cooperative agreements
    Mr. Skeen. Please provide a list of all cooperative agreements that 
were signed during fiscal year 1996, including the amount and purpose 
of each agreement. Also include in this list all those agreements 
planned for fiscal year 1997.
    Response. Following is a list of all cooperative agreements that 
were signed during fiscal year 1996, as well as a list of agreements 
planned for fiscal year 1997.

[Pages 498 - 504--The official Committee record contains additional material here.]


                          reimbursable surveys
    Mr. Skeen. Please provide a list of all surveys done on a 
reimbursable basis.
    Response. The following is a list of all the surveys done on a 
reimbursable basis in fiscal year 1996.

 National Agricultural Statistics Service Reimbursable Surveys, FY 1996 
------------------------------------------------------------------------
               Source                              Project              
------------------------------------------------------------------------
Agricultural Marketing Service       Milk Price Data                    
                                     Customer Satisfaction              
                                     Survey for Export Guide            
                                     Rail Shippers Survey               
                                     Pesticide Data Program             
Agricultural Research Service        Assistance on Food Consumption     
                                      Survey Data                       
Animal Plant Health Inspection       National Animal Health Monitoring  
 Service                              System                            
                                     Animal Damage Control              
                                     Agricultural Quarantine Inspection 
Economic Research Service            Farm Costs and Returns             
Farm Service Agency                  County Estimates                   
                                     Feed Grain County                  
                                     Estimates                          
Food and Consumer Service            Healthy Eating Index               
Forest Service                       Grazing Fees                       
                                     Retirement Survey                  
Modernization of Administrative      Customer Service                   
 Processes                                                              
Natural Resources Conservation       Land Use                           
 Service                                                                
Department of Commerce               Nonresponse Follow-up              
Department of the Interior           Grazing Fees                       
Iowa State University                Nematode Study                     
State Department of Agriculture      Crop Reporting Services            
------------------------------------------------------------------------

                            special surveys

    Mr. Skeen. Your agency conducted 152 special surveys in fiscal year 
1996. Provide a list for the record including the total cost of each 
survey.
    Response. In fiscal year 1996, approximately 152 special surveys 
were conducted. Following is a list of 127 special surveys and 
projects; some contain multiple surveys which were counted as one since 
the funding was reported under one project.

[Pages 506 - 510--The official Committee record contains additional material here.]


                             budget request

    Mr. Skeen. Provide a detailed breakout, by item, of your budget 
request to the Secretary, the Secretary's request to OMB, and the OMB 
allowance.
    Response. On a comparable basis, a budget of $123,732,000 was 
submitted to the Secretary, who recommended a budget of $120,543,000 to 
OMB. The OMB allowance was $119,877,000 and included funds for the 
Government Performance and Results Act (GPRA) measurement. The $540,000 
for GPRA measurement was not included in NASS's or the Secretary's 
request. NASS's request to the Secretary did include $990,000 for the 
development of a National Spatial Data Infrastructure geospatial 
cropland data layer.
                     computer assisted interviewing
    Mr. Skeen. In your testimony last year, you reported to the 
Committee that, based on a trial in Indiana, costs of using laptop 
computers to assist interviewers exceeded their benefits due to an 
unexpected increase in hardware costs. Have technological changes in 
the computer industry or price reductions changed your assessment?
    Response. While there have been technological changes and price 
reductions in the computer industry, it is still not cost effective for 
our rather demanding application. Many of our face-to-face interviews 
occur outside, literally in the farmers' fields, subject to harsh 
environmental elements, such as bright sunlight, and hot and human 
conditions. In addition, the interviewers must carry aerial photographs 
(approximately 3 feet by 3 feet), on which crop field boundaries will 
be drawn. This requires us to use very lightweight (a maximum of 4 
pounds) computers with a high quality display. Because some of the 
interviews are conducted in the fields, battery life becomes an issue. 
Battery life of top quality laptops average 2-4 hours. The survey 
applications that are conducted primarily through face-to-face 
interviews are very complex and require a 486 computer with at least 8 
MB of RAM to run them. This requirement and the monitor requirement 
eliminate the use of palmtop computer models. The next lightest models, 
the subnotebook computer models, are being designed and marketed for 
corporate travel. These models include many more features than we need, 
which adds cost and reduces the battery life.
    Most other survey organizations using computers for personal 
interviews are conducting the interviews inside the respondents' homes. 
These organizations therefore can (and do) use heavier (7 pounds or 
more) computers and do not rely on batteries unless the respondent 
requests it. However, NASS will continue to monitor the cost 
effectiveness of using laptop computers in the hope that in the future 
this technology becomes affordable.
    Mr. Skeen. Please update the Committee on the status of computer 
assisted telephone home interviewing.
    Response. NASS has researched Computer Assisted Personal 
Interviewing (CAPI) since the early 1990's. During the last couple of 
years, the research was limited to work with the June Area Survey and 
major multiple frame surveys. This effort proved that this type of 
interviewing was a capable tool for collecting data on a laptop 
computer. NASS also proved that the technology could support the 
electronic transmission of data into the state office. However, NASS 
has decided to terminate further implementation of CAPI since NASS does 
not conduct the type of surveys that lend themselves to CAPI. Most 
surveys are of very short duration (less than 2 weeks) and are frequent 
in occurrence. The overhead of supporting CAPI significantly increases 
the per survey unit cost in this environment. In addition, the cost of 
laptop computers has increased. With potentially between 1,000 and 
1,500 field enumerators to equip with laptop computers, the start-up 
costs for CAPI are prohibitive at this time.
                     number of farms, land in farms
    Mr. Skeen. Please update the table that appears on page 62 of last 
year's hearing record, showing the number of farms operating in the 
U.S., the acreage of land being farmed, and the total U.S. acreage to 
include fiscal year 1996 actuals.
    [The information follows:]

            1985-1996 U.S. TOTAL LAND AND FARM LAND COMPARED            
------------------------------------------------------------------------
                                                    Land in   Total land
                                       Number of   farms \1\   area \2\ 
                Year                   farms \1\   (million    (million 
                                       (1,000's)    acres)      acres)  
------------------------------------------------------------------------
1985................................       2,293       1,012  ..........
1986................................       2,250       1,005  ..........
1987................................       2,213         999  ..........
1988................................       2,201         994  ..........
1989................................       2,175         991  ..........
1990................................       2,146         987       2,263
1991................................       2,117         982  ..........
1992................................       2,108         979  ..........
1993................................       2,083         976  ..........
1994................................       2,065         973  ..........
1995................................       2,072         972  ..........
1996................................       2,063         968  ..........
------------------------------------------------------------------------
\1\ Source: USDA, Farms and Land in Farms.                              
\2\ Source: U.S. Bureau of Census.                                      

                            farm definition
    Mr. Skeen. What definition of a farm do you use in collecting the 
data shown in the table that appears on page 62 of last year's report?
    Response. A farm is defined as ``any establishment from which 
$1,000 or more of agricultural products were sold or would normally be 
sold during the year.'' Government payments are included in sales. 
Institutional farms, experimental and research farms, and Indian 
Reservations are included as farms. To be considered a farm, the place 
must be operating on June 1. Places with all their acreage enrolled in 
the Conservation Reserve Program or other government programs are 
considered operating. This basic definition has been in place since 
1974.
                             strategic plan
    Mr. Skeen. NASS completed work on a long-range strategic plan in 
fiscal year 1994 which resulted in four strategic initiatives. These 
are NASS data system 2000, NASS survey design 2000, NASS leadership 
program, and NASS customer service outreach. What is the status of each 
initiative?
    Response. Significant progress has been made on each of the four 
NASS strategic initiatives. The Data System 2000 initiative has 
resulted in a new organizational unit dedicated to the implementation 
of an interactive data base to improve analysis capabilities for all 
NASS employees. Data access for data users has also been materially 
improved via more electronic data availability and an Internet Home 
Page. The media now have better facilities to use in the lockup area 
and are able to get the time sensitive data to a wide audience more 
quickly after the reports are released than in the past. A new list 
sampling frame system has also been developed which will make it easier 
and more efficient for NASS to manage its list of data providers and 
users.
    The Survey Design 2000 initiative has resulted in NASS redesigning 
the way it will sample from its list sampling frame to make samples as 
efficient and effective as possible and continually aligned with the 
changing nature of American agriculture. The area frame samples have 
also been redesigned. They were divided into two components, summer and 
fall, to serve beginning and end of crop season needs targeted toward 
those crop and livestock commodities best served by the area frame. 
Some data needs, such as farm numbers, land values, rural statistics 
can be served by the combined use of both area frame surveys.
    The Leadership Program initiatives have resulted in a new employee 
performance evaluation program and enhanced merit award system to 
recognize employee contributions toward the strategic goals of the 
Agency. Career path choices available to all NASS employees have been 
clarified and communicated. The leadership committee also investigates 
opportunities for the Agency to gain operating efficiencies and 
administrative improvements that will strengthen the infrastructure of 
NASS.
    The Customer Service Outreach initiative has resulted in naming a 
customer service coordinator attached to the Associate Administrator. 
This person ensures rapid response to public inquiries for NASS data as 
well as responding to those seeking help or direction in dealing with 
the broad services of USDA or the Federal Government. A toll-free 
information hotline was established as part of this initiative to give 
data users and the public easy and direct access to NASS services. 
Information about NASS and the NASS Strategic Plan, as well as current 
and historical data series, are accessible through the NASS Home Page 
via the Internet. The media are important customers who help to get 
official statistics communicated to everyone as rapidly as possible 
upon release. NASS has worked closely with them to facilitate and 
expedite their work. Producers and others who both supply and use data 
are also extremely important customers. NASS is renewing its efforts to 
serve these stakeholders while minimizing the reporting burden 
associated with securing the needed information.
                            data system 2000
    Mr. Skeen. Provide a detailed time line for completion of the NASS 
Data System 2000 initiative, including how much it will cost.
    Response. NASS is in a constant state of re-engineering due to 
changes in program and technology. The NASS Data System 2000 is a 
strategic initiative designed to provide a comprehensive plan for 
streamlining information management in NASS which will increase the 
efficiency, timeliness, and accessibility of information. Under the 
Data System 2000 initiative, four databases will form the basic data 
storage and information processing architecture for the future. These 
databases represent sub-projects to the initiative. They are described 
as follows:
    1. The Historical Data Warehouse database will store information 
for the majority of our surveys and the census data at the reporter 
level. The warehouse will be used for sampling information, research, 
analysis, and historical data use during an interview. The warehouse is 
scheduled to be built and populated with important current year NASS 
data and will have the structure ready to receive data from the 1997 
Census of Agriculture in 1998.
    2. The NASS Estimates Database System (NEDS) stores and manages 
survey indications and official estimates in the estimating program at 
a summarized level (national, State, regional, county, etc.). NEDS will 
provide a standardized software tool for use by both the field offices 
and headquarters for survey indication review and estimate submission 
for all commodities. NEDS is currently being used for several 
commodities. Completion of NEDS for all commodities is projected to be 
the end of 1999.
    3. Enhanced List Maintenance Operations (ELMO) is the name given to 
the name and address database and its associated applications 
pertaining to NASS's list of farm operators and agribusinesses. ELMO is 
currently operational in 12 States and will be installed in all States 
by October 1997.
    4. The Published Estimates Database is NASS's public database of 
official estimates and historical data. This database is being 
transformed to a database which will be accessible via the Internet. 
The inital Internet version is scheduled for access in the summer of 
1997.
    The total cost of the four components of the Data System 2000 is 
extremely difficult to determine. The initiatives are in various stages 
of development which complicates cost analysis. Rapidly changing 
technology and changing costs for hardware and software complicate cost 
estimates, particularly for the out-years. Many costs are part of 
normal maintenance and upgrade plans. Extra costs are being incurred 
relating to the data warehouse and the upgrading of NASS systems to be 
compatible with the Census Bureau. Procurement of the data warehouse 
software and the upgrading of equipment is projected to total 
approximately $5 million through fiscal year 2000.
                           customer outreach
    Mr. Skeen. Another one of your strategic initiatives is Customer 
Service Outreach. Outreach usually implies reaching out to new 
customers or underserviced customers. How are you identifying new 
customers?
    Response. All new NASS publicity materials and NASS reports 
distributed across the country now contain the NASS toll-free 
Agricultural Statistics Hotline number to invite new customers or help 
those seeking additional information on NASS products and services. A 
customer profile is logged into a database at the Hotline for future 
reference.
    The new Census Publicity and Outreach Committee was established to 
oversee the transition of the newly acquired Census of Agriculture to 
NASS, to educate the public and to promote the 1997 Census of 
Agriculture as it now relates to USDA.
    The recent installation of an autofax system (NASSfax) provides 
another means of providing quick access to users. The autofax system 
permits customers to access the data at their convenience.
    NASS continues to improve the Internet Home Page to attract new 
customers by providing an attractive, user-friendly, and informative 
web site. Today's Reports on the Home Page, provides quick and easy 
access to information on the Nation's agriculture less than 5 minutes 
after release. This feature continues to delight old users and attract 
new customers looking for immediate access to information.
    NASS continues to utilize the Internet to educate the public 
concerning the NASS's function, programs, and services. Agency 
Information is now a separate button on the Home Page, providing anyone 
browsing the NASS Home Page quick access to the function of the Agency, 
the strategic plan, etc. The new NASS Home Page also contians a direct 
link to the newly acquired Census Division and the NASS Research 
Division. These two divisions have unique data sets available that the 
general public and academia can access.
    A free catalog of NASS products and services is advertised in 
numerous NASS publications and offered as another incentive to attract 
new users to NASS products and services. A feedback questionnaire 
(available on the Internet), the autofax, and the Hotline are used to 
identify and communicate with new customers.
    The NASS staff continues customer outreach by presenting numerous 
talks and demonstrations at Data Users Meetings, commodity expositions, 
and agricultural trade fairs. These demonstrations feature NASS on the 
Internet, the use of NASS data, and distribution of material to educate 
people about products and services available. Farm groups are also 
provided data collection and analysis briefings and tours of NASS's 
report release operation.
    To further assure that NASS Internet customers are not under 
serviced, all NASS employees were offered training to educate them on 
the Internet and NASS data available on the Internet. This training was 
designed to help staff improve customer service to users seeking data 
on the Internet. A NASS on the Internet handbook has been provided to 
all employees as a desk reference. One segment of the Handbook 
discusses specific customer service questions and answers.
                      other services object class
    Mr. Skeen. Provide a sub-object class breakout for Object Class 
25.2, Other Services, for fiscal years 1996, 1997, and 1998.
    Response. A sub-object class breakout for object class 25.2 
(appropriated portion only) for fiscal years 1996, 1997, and 1998 
follows. The net increase of $4.3 million for NASDA in 1998 is for the 
1997 Census of Agriculture.

                           NATIONAL AGRICULTURAL STATISTICS SERVICE OTHER SERVICES\1\                           
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal years--                 
                                                              --------------------------------------------------
                                                                     1996             1997             1998     
----------------------------------------------------------------------------------------------------------------
National Association of State Departments of Agriculture                                                        
 (NASDA) for data collection work............................      $14,249,000      $14,589,000      $18,894,000
Training (regular-nonspecialized)............................          197,000          213,000          248,000
ADP..........................................................        2,283,000        2,433,000        2,383,000
Cooperative Agreements, (excluding ADP and NASDA)............        1,105,000        1,294,000        1,294,000
Miscellaneous................................................          440,000          405,000          660,000
      Total..................................................       18,274,000       18,934,000       23,479,000
----------------------------------------------------------------------------------------------------------------
\1\ Excludes reimbursable work for others.                                                                      

                   purchases from government accounts
    Mr. Skeen. Also, provide a sub-object class breakout for object 
class 25.3, purchases of goods and services from government accounts, 
for fiscal years 1996, 1997, and 1998.
    Response. Following is a sub-object class breakout of object class 
25.3 (appropriated portion only) for fiscal years 1996, 1997, and 1998.

----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal years--                 
                                                              --------------------------------------------------
                                                                     1996             1997             1998     
----------------------------------------------------------------------------------------------------------------
ARS for Administrative Services..............................       $2,811,000       $2,784,000       $2,818,000
National Finance Center (NFC)................................          229,000          311,000          315,000
Management Council Assessment for Security \1\...............          116,000          147,000          148,000
Working Capital Fund Assessments excluding NFC...............          142,000          153,000          155,000
Bureau of the Census for work on the Census of Agriculture...  ...............   \2\ 10,212,000   \3\ 15,000,000
Miscellaneous................................................          615,000          526,000          434,000
                                                              --------------------------------------------------
      Total..................................................        3,913,000       14,133,000       19,670,000
----------------------------------------------------------------------------------------------------------------
\1\ Building security.                                                                                          
\2\ For census salaries and printing costs incurred prior to transfer to NASS.                                  
\3\ The mail-out, data capture, editing operations, all computer processing systems will be on a contractual    
  basis with the Census Bureau. NASS is conducting the data collection, data analysis, tabulation, and          
  publication operations.                                                                                       

                      estimates and survey changes
    Mr. Skeen. Please report to the Committee on how the plan to change 
the estimates and survey programs was evaluated by commodity 
organizations and data users. When will you implement the new plan?
    Response. The estimates program and survey changes were placed on 
hold after it was learned that the responsibility for conducting the 
census of agriculture was to be transferred to NASS. We felt it was 
prudent to implement changes after the results of the census were known 
and could be used in the decision process. We received only limited 
input from industry groups and much more information will have to be 
obtained before final decisions are made. Current plans are to evaluate 
NASS's current crop programs in light of the 1997 Census of Agriculture 
data, gather the necessary industry input, and implement acceptable 
changes in the 1999 crop year.
                            toll-free number
    Mr. Skeen. NASS has established a toll-free number for customer 
use. Please update the Committee on how many calls have been received 
in 1995 and 1996.
    Response. The toll-free number was activated in May 1995 and was 
published in reports and brochures, and on the Internet. The Hotline 
received 603 calls during 1995. Nearly 4,200 calls were received during 
1996, for an average of 350 per month. The calls peaked at over 400 
during several months in 1996.
                             remote sensing
    Mr. Skeen. Are there any opportunities to use remote sensing 
technology used in national security work to estimate crop acreage 
planted or yields?
    Response. NASS staff recently participated in a small pilot level 
study to evaluate the potential use of National Technical Means (NTM) 
data for crop acreage estimation and crop yield forecasting. The study 
concluded that there was indeed pertinent information in NTM data for 
these purposes.
    However, NASS does not possess the analytical infrastructure for 
routine utilization of NTM data, or the soon to be launched commercial 
very high resolution systems. Currently and in the foreseeable future, 
mid-resolution systems like Landsat and SPOT and commercial plans such 
as those by Resource 21, seem best suited to our domestic needs for 
large area crop monitoring. If commercial very high resolutions 
systems, such as those planned by Space Imaging/EOSAT, Earthwatch and 
OrbImage, are successfully launched, then a potential use by NASS would 
be for small scale quality control sampling.
                           impact of wildlife
    Mr. Skeen. Please report to the Committee the final results of a 
nationwide survey to identify the impact of wildlife on agriculture.
    Response. Two-thirds of the U.S. farmers surveyed reported 
suffering crop and livestock losses to wildlife. The species most 
frequently cited as causing damage were hoofed animals, with 34 percent 
of respondents reporting damage. Deer were the most frequently named 
species causing damage to field crops, fruits, nuts, and vegetables. 
Coyotes were the most frequently named species causing damage to 
livestock, while mice and rats accounted for most of the damage to 
stored grains. Producers in the north central States reported the 
highest incidence of damage while producers in the west reported the 
lowest incidence.
                            minority farmers
    Mr. Skeen. One of the recent issues facing USDA are allegations 
that it has not always been equitable in dealing with minority farmers. 
The secretary's task force investigating this issue has recently filed 
a report. Do you feel that NASS is adequately meeting the needs of 
socially disadvantaged and limited resource farmers?
    Response. No. Therefore, plans are underway to improve the coverage 
of minority farms for the upcoming 1997 Census of Agriculture. These 
plans include providing, for the first time, a count of Native American 
operators on reservations. NASS is utilizing additional sources of 
minority farm names and addresses and allocating additional NASS 
resources for nonresponse follow-up to increase coverage.
                         performance indicators
    Mr. Skeen. In your 1998 explanatory statement you display 1996, 
1997, and 1998 performance indicators for three performance measures. 
How well did you perform in 1996?
    Response. In 1996, NASS exceeded its coverage goal, with 92 percent 
of agricultural cash receipts covered by NASS's current production 
statistics program, compared to the published goal of 91 percent. NASS 
exactly met the 99.9 percent goal for percentage of reports issued that 
meet the scheduled release date. NASS exceeded its published timeliness 
goal of 25.9 days between the start of data collection and the release 
of the report, by almost one day in 1996.
                            rental payments
    Mr. Skeen. The object class breakdown of your budget request shows 
that object class 23.2, rental payments to others, is proposed to 
increase 192 percent in fiscal year 1998. Please provide the Committee 
with a detailed accounting of this increase.
    Response. The entire increase of 192 percent or $325,000 in object 
class 23.2 is for office space rental for the census of agriculture 
personnel who transferred from the Bureau of the Census to NASS.
                               equipment
    Mr. Skeen. Object class 31, equipment, more than doubled in fiscal 
year 1997. What accounts for this increase?
    Response. The additional funds for equipment for fiscal year 1997 
are for equipping the State Statistical Offices with an up-to-date wide 
area network to handle the increased workload associated with the 
census of agriculture. The equipment must be purchased and installed in 
fiscal year 1997 to be ready in time for processing of the census.
                     number of survey interviewers
    Mr. Skeen. Last year you reported that there were about 3,600 part-
time staff employed as survey interviewers. In this year's explanatory 
statement you indicate that the part-time employment level is about 
3,200. Have you reduced the number of part-time interviewers? If so, 
why?
    Response. Yes. For 1996 there were 3,267 part-time staff employed 
as interviewers. Sample sizes were reduced for some surveys. The number 
of interviewers used on the midyear survey, the largest survey done in 
1996, was about 2,100 interviewers, compared to about 2,500 
interviewers for 1995. We have continued to look for efficiencies in 
our data collection program and have been able to reduce the sample 
size for some surveys and change the data collection method for others.
                            gpra measurement
    Mr. Skeen. You show a $540,000 increase in your 1998 budget request 
for GPRA measurement. Since no funds are available in 1997 for this 
initiative, will work done in 1998 make a timely contribution to 
performance measurement?
    Response. Yes, since this initiative is designed to take advantage 
of existing sampling, testing, data collection, and measurement 
resources within the eight Federal statistical agencies, the work done 
in 1998 would make a timely contribution to performance measurement. 
For example, existing ``off-the-shelf'' sampling schemes could be used 
to support valid measurement of performance goals.
    Mr. Skeen. You state that development of meaningful and useful 
measures and indicators is proving to be a challenging task and that 
the formulation of measures that can be compared across agencies is 
extremely difficult. Would you please elaborate on this statement in 
further detail for the record?
    Response. Federal agencies are struggling with GPRA and are looking 
for assistance to develop meaningful measures for gauging performance 
as well as help with sample design, questionnaire development, and 
survey methodology to ensure reliable results. Sound design, conformity 
in survey questions, and use of standardized questions and satisfaction 
scales are essential to meaningful results which can be tracked over 
time. Agencies also need to be able to compare measures across the 
Federal Government and with recognized industry standards.
    Mr. Skeen. Provide some specific examples of measures that will be 
used as comparisons across agencies.
    Response. Customer satisfaction measures need to be comparable 
across agencies. For example, measures of timeliness, courtesy, 
accuracy, and completeness are standard components of customer 
satisfaction.
    Mr. Skeen. Eight Federal statistical agencies are participating in 
this GPRA initiative. Provide the Committee with a list of these 
agencies as well as what each agency's budget request is for fiscal 
year 1998.
    Response. The eight participating agencies and the associated 
budget request for this initiative are as follows: Bureau of Labor 
Statistics, $600,000; Bureau of Transportation Statistics, $270,000; 
Bureau of Census, $300,000; Energy Information Administration, 
$610,000; Economic Research Service, $125,000; NASS $540,000; National 
Center for Health Statistics, $930,000; Statistics of Income (IRS), 
$175,000. The total for all agencies is $3.55 million.
    Mr. Skeen. One of the goals of this GPRA initiative is to add 10 
Federal agencies to the American Customer Satisfaction Index, ACSI. 
What is the ACSI and what does it do?
    Response. The ASCI is managed by the University of Michigan and the 
American Society of Quality Control, and is the only proven, recognized 
methodology and system for measurement and comparison of government and 
private sector products and services. The unique benchmark comparison 
methodology used by ACSI has already been adopted as the official 
measure of customer satisfaction in three countries and was adopted in 
1996 for the countries of the European Union. The GPRA initiative 
includes $1.2 million for ACSI measurements of 10 programs: two rural 
or food programs, four health and welfare programs, one infrastructure 
program, and three to be selected from other government services, such 
as the environment or export promotion programs.
                        jeffersonville, indiana
    Mr. Skeen. The Geographic Breakdown of Obligations and Staff years 
reveals a large, 596 percent, increase in obligations and staffing in 
Indiana. Why is the increase in Indiana so large?
    Response. It is because of the census of agriculture. The Bureau of 
the Census has a mailing and processing center in Jeffersonville, 
Indiana. NASS plans to use the Jeffersonville facility for the mailing 
and processing of over 2.75 million Census questionnaires for the 1997 
Census of Agriculture.
                           customer feedback
    Mr. Skeen. In your status of programs report you indicated that you 
conducted a telephone survey to obtain customer feedback. Please 
provide the Committee with a summary of the highlights of the survey.
    Response. A small survey was conducted on telephone calls received 
to briefly review with the caller the service received when contacting 
the NASS Hotline. Highlights of the telephone follow-up survey 
indicated customer satisfaction was good or excellent based on 
responses to the questions. The survey had questions on promptness, 
accuracy, helpfulness, and whether people would use the service again. 
All respondents indicated they would use the service again and over 80 
percent felt they had received prompt and helpful service from NASS 
staff.
    We learned that we are on the right track with the toll-free line 
and the training provided to the staff to enhance knowledge of NASS 
products and services. We also learned that we should follow-up more 
quickly after we have assisted a customer. Calling back even a month 
later, some people did not remember they had contacted us or why they 
had contacted us. Some Hotline callers did not care to take the extra 
time to give their name or telephone number, if they had only ``a 
simple question'' and had been given an answer while on the telephone 
or if they were calling for a subscription and needed to be connected 
to our sales order desk.
                           loan subsidy rates
    Mr. Skeen. What was the result of the assistance NASS provided to 
the Rural Development budget division on predicting loan subsidy rates?
    Response. A final report, Estimating Cash Flows and Subsidy Rates 
in USDA Rural Housing and Farm Loan Programs, was delivered to the 
Office of the Inspector General and the respective agencies. The report 
outlines deficiencies in the existing models, describes work done to 
provide better supporting data for model assumptions, describes an 
appropriate approach to model building and assessment, and provides 
alternative models for critical aspects of the cash flow modeling. 
Based on comments from the auditors, agency implementation of the 
suggestions in the report could form a basis for removal of audit 
findings and provide an appropriate process for maintaining a clean 
audit.
                            data collection
    Mr. Skeen. Why does USDA need to collect so much data on 
agriculture? Other industries are not as dependent on Federal data 
collection. Why can't we just let the markets operate?
    Response. There is no other industry like agriculture where 
producers have so little control over the prices they receive for their 
products. In order for the markets to efficiently operate, there needs 
to be timely, accurate, and unbiased information available at the time 
to all parties involved in the marketing channel, and NASS is the sole 
source for this information. Large agribusinesses and private 
consulting firms have information gathering systems for internal use, 
but if the markets were left at the mercy of these data, unfair 
advantage and price manipulation could occur since the accuracy of the 
data would be unknown, and information would not be equally available 
to all parties. The small farm operators, in particular, would be most 
harmed by this information void. In addition, looking at the global 
market, the United States would be at a severe disadvantage if timely 
information were not readily available on U.S. commodity supplies and 
prices. Finally, agricultural statistics are relied upon by many others 
in the private sector, Congress, universities, and other government 
agencies.
    The entire food and agriculture industry today employs one out of 
six employees in the United States and depends on the basic supply 
statistics provided by NASS. Agricultural statistics cover an extremely 
large number of different commodities which are grown under varying 
weather conditions in different regions of the United States. Because 
of the broad distribution of agricultural production, the industry 
needs not only current information on what is being produced, but also 
must know where it is being produced in order to efficiently plan their 
business. No other industry in the United States is so decentralized or 
affected so frequently by changing weather conditions, requiring 
frequent surveys to measure what the situation is at any specific time. 
Inventories of the supply of the various commodities is essential to 
support the United States' expanded effort to export agricultural 
commodities.
                economic research service reimbursement
    Mr. Skeen. You anticipate receiving $4,150,000 from the Economic 
Research Service for farm costs and returns and agricultural resource 
management study. This is an increase of $1,645,000 and 13 staff years 
above the fiscal year 1996 reimbursement. Briefly describe this work 
for the record and tell the Committee how the increase will be used.
    Response. The funding received from the Economic Research Service 
(ERS) is higher than 1996, but still below the levels received just a 
few years ago. ERS has allocated increased data collection funds 
primarily for a new survey called the Agricultural Resource Management 
Study. NASS and ERS have collaborated on redesigning two older surveys 
and combined them into this new study. This new project integrates 
several important USDA estimation and research programs, producing a 
much more useful data set. NASS will survey more than 65,000 farmers 
and ranchers. Information collected includes pesticide use on major 
field crops, integrated Pest Management practices, farm finance 
information (farm/household income, expenses, assets, and liabilities), 
cost of production information, risk management strategies, and 
information to report on the status of the family farm. ERS, NASS, and 
others can link these data items together because of the new integrated 
survey design. The new design significantly increases USDA's economic 
research capacity and statistics program. The new sample is larger than 
the two survey samples it replaced which is the reason for the 
increased funding received from ERS.
                         childhood injury data
    Mr. Skeen. You expect to do some work for the National Institute of 
Occupational Safety and Health in fiscal years 1997 and 1998. Describe 
this work in further detail for the record.
    Response. The National Institute of Occupational Safety and Health 
(NIOSH) designed the project to collect information about childhood 
injuries occurring on farms and ranches in the U.S. However, NOISH 
recently decided to postpone the project for one year. Several concerns 
were raised about some segments of farm workers, primarily the migrant 
farm workers, that needed further research by NIOSH.
                         data collection costs
    Mr. Skeen. You are requesting a total increase of $640,000 for 
increased data collection costs. Does this increase cover more than 
costs related to salaries and expenses of state surveyors?
    Response. Most of the increased costs are associated with increased 
salaries for the NASDA enumerators. In addition, it covers the costs 
associated with increased mileage and per diem rates that are 
authorized by GSA.
    Mr. Skeen. What is the salary increase for NASDA employees in 
fiscal year 1998? What are the increased costs for per diem and 
mileage?
    Response. For fiscal year 1998, the salary increase is expected to 
be $470,000. Per diem will be up $30,000, and increased mileage costs 
are estimated at $140,000.
                         indexes of prices paid
    Mr. Skeen. Why was the publication of the indexes of prices paid by 
farmers expanded from a quarterly program to a monthly program?
    Response. NASS expanded the publication of indexes of prices paid 
from a quarterly to monthly program to obtain comparability with its 
monthly prices received program. Based upon correlation analysis, NASS 
was able to use price movements of similar input indexes from BLS 
monthly data to update the NASS monthly input indexes for some 30 major 
input sub-groups. NASS can therefore publish monthly prices paid 
indexes with no additional data collection or survey expense for eleven 
months. NASS maintains its core surveys of input prices in April of 
each year as the basis of its prices paid program. In prior years, 
these prices paid surveys were conducted quarterly.
                            migrant workers
    Mr. Skeen. What are the number of migrant workers that were 
reported in November 1996?
    Response. The actual number of migrant workers is not published. 
The percent of all hired workers that are migrant workers is provided 
quarterly in the following table along with the total number of hired 
workers.

                   ALL HIRED WORKERS <SUP>1 AND PERCENT MIGRANT WORKERS: UNITED STATES, BY QUARTER,                  
                                                   1995-96 \2\                                                  
                                                 [In thousands]                                                 
----------------------------------------------------------------------------------------------------------------
                                               January            April             July             October    
                                         -----------------------------------------------------------------------
                  Year                      All    Percent    All    Percent    All    Percent    All    Percent
                                           hired   migrant   hired   migrant   hired   migrant   hired   migrant
                                          workers  workers  workers  workers  workers  workers  workers  workers
----------------------------------------------------------------------------------------------------------------
1995 \3\................................  .......    (\4\)  .......    (\4\)    1,414     12.4    1,256     11.6
1996....................................      713      5.7      987      7.5    1,346     13.1    1,226     11.1
----------------------------------------------------------------------------------------------------------------
\1\ Includes agricultural service workers.                                                                      
\2\ Definition ``Migrant Worker'' is a farm worker whose employment required travel that prevented the farm     
  worker from returning to his/her permanent place of residence the same day.                                   
\3\ Data first collected during July 1995 survey.                                                               
\4\ Not available.                                                                                              

                            milk production
    Mr. Skeen. Submit a five year table that shows a summary of milk 
production estimates by State.
    Response. Following is a 5-year table of milk production.

[Pages 520 - 521--The official Committee record contains additional material here.]


                            hispanic cheese
    Mr. Skeen. Hispanic cheese and nonfat ice cream estimates were 
added to the monthly and annual manufactured dairy products reports. 
What are Hispanic type cheeses?
    Response. Hispanic cheese is a unique type of cheese with good 
melting characteristics. It is often used as a sauce. Technically, the 
product standard of identity defines it as ``a natural cheese with a ph 
of 5.7 or higher and a moisture content of 40 percent or more.'' 
Hispanic-type cheeses have become increasingly popular and now account 
for almost 1 percent of U.S. cheese production each month. It is 
produced primarily in California and Wisconsin.
               statistical highlights of u.s. agriculture
    Mr. Skeen. What timeframe does the publication ``Statistical 
Highlights of U.S. Agriculture'' cover?
    Response. The publication ``Statistical Highlights of U.S. 
Agriculture'' 1995/96 covers crop production data for the years 1992-
1995. Inventory numbers for livestock reflect the number on hand 
January 1 of 1993-1996. Price data and value of production reflect the 
same 4-year period.
    Mr. Skeen. This publication was released in June 1996. When will 
the next issue be released?
    Response. Current plans are to release the 1996/97 publication in 
May 1997.
    Mr. Skeen. Submit a copy of the latest publication for the record.

    [Clerks note.--The publication is too lengthy for reprint. 
A copy is retained in Committee files.]

                              mann library
    Mr. Skeen. What is the cost of the cooperative agreement with the 
Mann Library of Cornell University?
    Response. For fiscal year 1996 it was $10,996 and for 1997 it is 
expected to be $11,000.
                               home page
    Mr. Skeen. Approximately half of the state field offices have their 
own home page. Is the information duplicative in nature to the 
information provided from headquarters?
    Response. Thirty-six of the forty-five NASS State field offices 
currently have their own Home Pages. The States' Home Pages contain 
additional local data not provided through the headquarters Home Page. 
The State field office home pages also contain a link to the NASS Home 
Page which helps customers find national data and statistics that are 
not available locally.
                                training
    Mr. Skeen. A needs assessment for customer service training was 
conducted and the results are currently being evaluated. A proposal for 
training, including necessary training on new Census duties, is being 
prepared. Will this training have occurred before the survey begins?
    Response. Three major training sessions for the Census of 
Agriculture are planned for the NASS staff during the next year. Two of 
these sessions will be held before the 1997 Census of Agriculture 
begins and one will take place in the spring of 1998, after the census 
data collection is underway. State Statisticians, Deputy State 
Statisticians, and Headquarters managers will be trained on general 
procedures for the 1997 Census of Agriculture at a seminar on April 21-
24, 1997. Another seminar will be conducted in September 1997 for the 
two primary census coordinators from each State office. A third 
training session will be held during the spring of 1998 to train staff 
on procedures for the analytical review phase. Finally, appropriate 
training will be conducted at the State level for the NASDA enumerator 
staff prior to the start of the data collection period for the 1997 
Census of Agriculture.
                         land area based survey
    Mr. Skeen. Your agency has changed its land area based survey to 
consider the United States as a whole, rather than each state 
independently. What impact has this had on providing needed state level 
information?
    Response. NASS uses several survey methods to provide state level 
information. The change to consider the United States as a whole has 
changed the area based sample size in most States, but each State still 
has an area sample. Implementation of the change will not be completed 
until the 1998 crop season. All but the very smallest producing States 
will have information for major crop items with little change in 
precision. In some cases it will be better. For some estimates we use 
the land based survey as the main indication. Most of the other 
information is based on list plus land area samples or list only 
samples. The change in the land area based sample will have negligible 
impact on this State level information.
    In addition, NASS will implement a land area based survey in the 
fall of 1997. This survey will make additional land area based samples 
available for use to collect State level information.
                             cattle deaths
    Mr. Skeen. What were the results of the study of the magnitude and 
causes of death loss to the cattle industry your agency conducted for 
APHIS?
    Response. Detailed information on cattle and calf death losses was 
collected in conjunction with the January 1996 Cattle Inventory Survey. 
Results were released May 17, 1996. The report showed total death 
losses during 1995 of 4.4 million head, with a total cost to farmers 
and ranchers of $1.8 billion. Predators accounted for 2.7 percent of 
these losses. By type, coyotes were reported to have caused the largest 
share of predator losses, while respiratory problems were the leading 
cause of other deaths.
                         census of agriculture
    Mr. Skeen. The budget request for the National Agricultural 
Statistics Service includes an increase of $18.8 million for the Census 
of Agriculture. The Census is conducted every five years and in the 
past it has been conducted and paid for by the Department of Commerce. 
We provided funding in the fiscal year 1997 ag appropriations bill for 
Census work in anticipation that the authorizing Committee would pass 
legislation needed to transfer the function from Commerce to USDA. This 
did not happen. Where did this legislation end up last year? What 
happened with the funds provided this year? Where you able to carry out 
the work or did you just transfer the money to Commerce to do the work? 
What is the likelihood that legislation transferring the Census 
functions to USDA will be enacted before we do our bill this year? What 
happens to both the Census and the funding if you don't get this 
legislation passed?
    Response. The authorizing legislation passed the House last year on 
July 22, 1997, as H.R. 3665. Unfortunately there was not sufficient 
time for the legislation to pass the Senate before adjournment. I 
believe the likelihood of authorizing legislation being enacted this 
year is very good since this legislation had strong bipartisan support 
last year and had very broad industry support.
    Without the authorizing legislation, census of agriculture 
improvements and future census preparations would be jeopardized. For 
the 1997 Census of Agriculture, a decision would need to be made 
whether to collect the 1997 Census of Agriculture on a voluntary basis 
using NASS's authority to collect agricultural statistics or to use the 
Bureau of the Census Title 13 authority to collect the data on a 
mandatory basis. Each option has a major deficiency. First, using the 
voluntary option would increase data collection costs and reported data 
quality would likely decrease because the census responses would be 
voluntary.
    The second option, using Title 13 authority, would prevent NASS 
from fully assisting with the census since it would not have access to 
detailed program files that are integral to the program transfer and 
needed for effective data edit and future mail list processes. This 
would negate all the efficiencies gained by the merger of the two 
programs.
    Even without the authorizing legislation, the temporary authority 
provided in the Agricultural Appropriations Act of 1997 made it 
possible to move ahead with preparations for the 1997 Census of 
Agriculture. On February 2, 1997, 68 of the 79 employees currently 
working full-time on the Census of Agriculture were officially 
transferred to USDA/NASS.
    We plan to not only keep the definition of a farm intact at $1,000 
sales, continue the Census of Agriculture for outlying areas, and 
continue the follow-on Irrigation and Horticultural Censuses, but we 
also have made a number of major improvements. First, the use of NASS 
field offices in preparing the final census mail list is expected to 
reduce by 750,000 the number of nonfarms, i.e., retired, deceased, 
owner-nonoperators being mailed the 1997 Census questionnaire. Second, 
the release of the census data will be more timely by the use of the 
NASS field offices to review the results. The 1997 Census of 
Agriculture report is now planned to be released in December 1998, 
almost 9 months ahead of any previous agricultural census. Third, the 
Puerto Rican Census of Agriculture will make greater use of its 
Department of Agriculture staff as well as to redesign the area frame 
survey needed to do a better job of measuring small farms. Finally, a 
new program to increase the coverage of minority farmers in the census 
of agriculture is being implemented to reduce the 23 percent 
undercoverage reported in the 1992 Census of Agriculture.
             government performance and results act (gpra)
    Mr. Skeen. GPRA, known as the Results Act, requires each executive 
agency to issue, no later than September 30, 1997, a strategic plan 
covering at least five years. In addition to a mission statement 
grounded in legislative requirements, the plans are to contain general 
goals and objectives that are expected to be outcome or results 
oriented (such as to improve literacy) as opposed to output or activity 
oriented (such as to increase the number of education grants issued). 
What progress is the agency making in developing its strategic plan, 
including defining its mission and establishing appropriate goals? Has 
the agency identified conflicting goals for any of its program efforts? 
If so, what are the performance consequences of these conflicting goals 
and what actions--including seeking legislative changes--is the agency 
taking to address these conflicts?
    Response. NASS recently completed the third update of its Strategic 
Plan originally developed in 1994. We have now incorporated the goals 
of the USDA Research, Education and Economics (REE) mission area of 
which NASS is a part. There are no conflicting goals.
    Frankly, government activities such as statistics will be extremely 
difficult to measure based on ``outcomes.'' Statistics provide 
quantitative information that in turn is used to aid in decision 
making. However, many other factors must be considered in decision 
making; therefore, to attempt to isolate the statistical information 
from other information seems impossible. Empirical studies of the 
impact NASS statistics have on the efficiency of various commodity 
markets have shown that there is a very positive public benefit derived 
from the investment in basic statistics. There is also evidence that 
the availability of statistical information promotes exports of U.S. 
agricultural commodities, but again this would be impossible to measure 
because of all the factors that contribute to the trade of agricultural 
products in the world.
    Mr. Skeen. Strategic plans must be based on realistic assessments 
of the resources that will be available to the agency to accomplish its 
goals. As you are developing your strategic plan, how are you taking 
into account projected resources that likely will be available--
especially as we move to a balanced budget? What assumptions are you 
making? How are you ensuring that your goals are realistic in light of 
expected resources?
    Response. NASS goals are public service oriented. We propose to 
maximize statistical services to the agricultural sector as permitted 
by budget. The demand for additional information for making decisions 
continues to grow but we are not assuming comparable increases in 
budget. Goals were developed with consideration to resource 
availability, including the need to redirect resources from lower 
priority programs to be able to respond effectively to the changes in 
the agricultural industry. NASS's Strategic Initiative, Survey Design 
2000, made the assumption that new funding would not be available to 
support new demands for data for the growing horticultural industry or 
the equine industry. Therefore, some other programs may need to be 
reduced or discontinued in order to support expansion into these new 
areas.
    Mr. Skeen. For Congress, the heart of the Results Act is the 
statutory link between agency plans, budget requests, and the reporting 
of results. Starting with fiscal year 1999, agencies are to develop 
annual performance plans that define performance goals and the measures 
that will be used to assess progress over the coming year. These annual 
goals are to measure agency progress toward meeting strategic goals and 
are to be based on the program activities as set forth in the 
President's budget. What progress have you made in establishing clear 
and direct linkages between the general goals in your strategic plan 
and the goals to be contained in your annual performance plans? OMB 
expressed concern last year that most agencies had not made sufficient 
progress in this critical area. More specifically, how are you 
progressing in linking your strategic and annual performance goals to 
the program activity structure contained in the President's budget? Do 
you anticipate the need to change or modify the activity structure to 
be consistent with the agency's goals? Overall, what progress has your 
agency made--and what challenges is it experiencing--defining results-
oriented performance measures that will allow the agency and others to 
determine the extent to which goals are being met?
    Response. Performance goals have been incorporated into the 
strategic plan within each of the general goals. Annual performance 
plans will be established from the general performance goals and 
include new performance goals for new budget initiatives.
    The program activity structure in the President's budget provides 
for an Estimates Program, Statistical Research, and the Census of 
Agriculture. The NASS strategic plan serves all three areas. No change 
in activity structure is anticipated.
    NASS struggled with defining results-oriented performance measures 
as have most other agencies. We involved all levels of the organization 
to define agency performance measures and promoted the generation of 
performance goals by individual units within NASS. Measures have been 
put in place to determine our current standing relative to our goals.
    Mr. Skeen. If applicable, what lessons did the agency learn from 
its participation in the Results Act pilot phase and how are those 
lessons being applied to agency-wide Results Act efforts? What steps is 
the agency taking to build the capacity (information systems, personnel 
skills, etc.) necessary to implement the Results Act?
    Response. NASS did not participate in the pilot phase of the 
Results Act. However, feedback was provided by OMB and the pilot 
agencies that was useful for generating the NASS Strategic Plan and 
performance measures. Being a statistical organization, NASS is well 
positioned to use available information systems and personnel skills to 
implement the Results Act. We are also cooperating and assisting other 
agencies with customer service and GPRA measures.
    Mr. Skeen. The Results Act requires agencies to solicit and 
consider the views of stakeholders as they develop the strategic plans. 
Stakeholders can include state and local governments, interest groups, 
the private sector, and the general public, among others. Who do you 
consider to be your agency's primary stakeholders and who will you 
incorporate their views into the strategic plans?
    Response. NASS stakeholders include farm operators, agribusinesses, 
agricultural sector services, processing, and cooperative 
organizations, State Agriculture Departments, USDA and other federal 
government entities, the media, employees, and the consuming public. 
Stakeholder views were sought out and used in the development of the 
strategic plan. Feedback and consultation is elicited every year 
through NASS sponsored Data Users Meetings, which are held in different 
locations around the country. NASS participation in farm organization 
and industry meetings, and through consultation with the media as well 
as State and National policy makers. The Census Advisory Committee on 
Agriculture Statistics and the newly formed Research, Education, 
Extension, and Economics Advisory Committee will be asked for input 
into NASS's strategic plans this spring. A meeting with stakeholders is 
also scheduled for March 25 when input will be obtained for NASS's 
strategic plan.
    Mr. Skeen. For the Results Act to be successful, agencies with 
similar missions, goals, or strategies will need to ensure that their 
efforts are coordinated. What other federal agencies are you working 
with to ensure that your strategic plans are coordinated? What steps 
have you taken to ensure that your efforts complement and do not 
unnecessarily duplicate other federal efforts?
    Response. NASS fully participates in the interagency committees and 
professional organizations that serve and facilitate interaction among 
statistical agencies. NASS interacts regularly with the Committee on 
National Statistics at the National Academy of Sciences and the Council 
on Professional Associations on Federal Statistics. NASS is an active 
member of the Interagency Council on Statistical Policy, which was 
created by the Paperwork Reduction Act of 1996 to improve the 
coordination of all Federal statistical activities. Each of the members 
of the Council have shared their strategic plans and performance 
measures with the other members of the Council. NASS participates in 
OMB statistical methodology committees, attends GPRA round table 
discussions with other research organizations, takes leadership roles 
in the American Statistical Association and Washington Statistical 
Society, and sponsors/attends seminars where the programs of other 
agencies are described. Comparisons of statistical services provided by 
various agencies and cooperation (to the extent permitted by exiting 
law) among the agencies serve to make sure programs are complementary.
    Mr. Skeen. The Results Act requires agencies to consult with 
Congress as they develop their strategic plans. Since these plans are 
due in September, now is the time for agencies to begin the required 
consultations. What are your plans for congressional consultation as 
you develop your strategic plan? Which Committees will you consult 
with? How will you resolve differing views?
    Response. All USDA mission areas/agencies have prepared draft 
Strategic Plans which are currently being reviewed by an Under/
Assistant Secretary (or other relevant official), the Senior Policy 
Staff, the Secretary, and OMB. Upon completion of the review, the 
Department plans to provide copies of the Strategic Plan (including an 
overall Departmentwide Executive Summary and the Strategic Plans for 
individual mission areas/agencies) to relevant congressional 
Committees. Thereafter, we will look forward to meeting with members or 
staff to discuss our Strategic Plan and to solicit your input and 
advice on refinements to the plan. We would plan to provide copies of 
the Department's Strategic Plan to the following committees: House 
Agriculture Committee, House Appropriations Committee; House Economic 
and Educational Opportunities Committee, House Government Reform and 
Oversight Committee, House Resources Committee, Senate Agriculture, 
Nutrition, and Forestry Committee, Senate Appropriations Committee, 
Senate Energy and Natural Resources Committee, and Senate Governmental 
Affairs Committee.
    Mr. Skeen. In passing the Results Act, Congress sought to 
fundamentally change the focus of federal management and decision 
making to be more results-oriented. Organizations that have 
successfully become results-oriented typically have found that making 
the transformation envisioned by the Results Act requires significant 
changes in what they do and how they do it. What changes in program 
policy, organization structure, program content, and work process has 
the agency made to become more results-oriented? How are managers held 
accountable for implementing the Results Act and improving performance? 
How is the agency using Results Act performance goals and information 
to drive daily operations?
    Response. The NASS Strategic Plan focused the attention of 
functional organization units on desired outcomes. Significant progress 
has been achieved on four strategic initiatives that were developed 
from the strategic plan. These initiatives were: Data System 2000, 
Survey Design 2000, Leadership Program, and Customer Service Outreach. 
As a result of these initiatives, we are now or soon will be oriented 
to an interactive data based environment with more powerful analysis 
tools available to employees. We are restructuring our list and area 
frame surveys to support greater efficiency in future sampling. We have 
instituted a new employee performance evaluation system and updated 
employee development plans and career paths. Data customers have new 
electronic routes to statistical data via an Internet web page and the 
media are better served to get time critical data to the widest 
possible audience in a more timely fashion.
    Managers participated in developing performance measures and are 
responsible for making the measurements by which current status is 
determined relative to goals. They are held accountable to contribute 
to progress toward stated goals.
    NASS is using the Results Act to promote actions in daily 
operations consistent with ``what gets measured gets done, and what 
gets rewarded gets done well.'' As part of the Leadership Program 
strategic initiative, the awards program was modified to provide for 
recognition and rewards to employees who make significant contributions 
toward NASS strategic goals.

[Pages 527 - 918--The official Committee record contains additional material here.]




                               I N D E X

                               ----------                              

                     AGRICULTURAL RESEARCH SERVICE

                                                                   Page
Aflatoxin Research...............................................    69
Africanized Bees................................................. 84-86
Agriculture Research Investment.................................109-112
Alcohol Consumption..............................................    82
Apple Fire Blight................................................    13
Aquaculture Research............................................. 70-72
ARS Scientists and Staff-Year Ceilings..........................186-187
ARS Research Projects............................................ 14-15
ARS-Owned Aircraft...............................................   213
BARD............................................................. 31-32
Behoust, France..................................................   214
Biodegradable Plastic............................................    72
Biographical Sketches:
    Catherine O'Connor Woteki....................................   527
    Floyd Horn...................................................   528
    E.B. Knipling................................................   529
Biotechnology Research and Development Corporation (BRDC)........ 74-75
Blueberry/Cranberry Research.....................................    75
Brucellosis Research.............................................    76
Budget:
    ARS Budget Requests.......................................... 33-38
    ARS Program Requests, FY 1998................................ 40-44
Buildings and Facilities, Modernization.........................195-199
Canola Research..................................................    76
Centers of Excellence............................................    68
Citrus Tristeza Virus............................................    77
Citrus Root Weevil...............................................    77
Contingency Fund.................................................   220
Cooperative Agreements........................................... 54-57
Corn Germplasm...................................................   109
CRADA's..........................................................    69
CRIS Projects Termination.......................................138-183
Current Occupancy of ARS Facilities...........190-193, 208-212, 215-219
Dissemination of Research Information............................   233
Explanatory Statement............................................   609
Extramural Activities........................................46-52, 185
FDA Joint Institute for Food Safety and Applied Nutrition........   233
Food Intake Survey...............................................    18
Fresno, California.............................................215, 230
Fungal Phytase...................................................   229
Genetically-Engineered Fruits and Vegetables.....................   233
Germplasm....................................................79-80, 136
Golden Nematode Research......................................... 11-12
Grape Virology...................................................    81
Grape Phylloxera................................................. 80-81
Grape and Wine Research..........................................    13
Grasshopper and Mormon Cricket...................................    82
Guayule..........................................................    83
Honey Bees.......................................................    86
Human Nutrition:
    Human Nutrition Center at Little Rock, Arkansas.............. 17-18
    Human Nutrition Initiative................................... 60-67
    Human Nutrition Research..................................9-11, 137
I-R 4 Research...................................................    86
Integrated Pest Management Plan..................................   231
Iowa State.......................................................    14
Jointed Goat Grass Control Research..............................    87
Kenaf............................................................    88
Laboratory Closures..............................................   112
Late Blight Potato Research.....................................101-102
Leflar School of Law Agricultural Library........................   222
Library Fees.....................................................   221
Location Administrative Support.................................132-134
Locoweed Research................................................    89
Low-Input Sustainable Agriculture................................ 89-90
Lyme Disease.................................................90-91, 231
Major Issues in Research........................................184-185
Management Reductions...........................................125-129
Maricopa Agricultural Center.....................................   232
Methyl Bromide..........................................24, 91, 93, 230
Montpelier, France...............................................   214
Mushroom Research................................................    93
NAL Object Class.................................................   221
NAL Information Centers.........................................223-225
NAL Usage........................................................   108
NAL Repair and Maintenance.......................................   108
Narcotics Control Research.......................................    94
National Arboretum...............................................    94
New Research Facilities..........................................   213
New Crops........................................................ 94-96
Northwest Small Fruits Research Center...........................    96
Nutrition Centers................................................ 16-17
Object Class Table...............................................    53
Patents..........................................................    69
Peanut Research..................................................    96
Pear Thrips......................................................    96
Peas, Lentils, and Legumes.......................................    97
Pecan Research...................................................    97
Plant Gene Expression Center.....................................    98
Plant Science Base Budget........................................    59
PM-10 Research................................................24-25, 50
Polyacrylamide...................................................    22
Post-Harvest Pathogen Reduction Research.........................    59
Potato Research..................................................99-101
Pre-Harvest Food Safety Research.................................    59
Project Terminations--ARS.......................................117-124
Questions Submitted for the Record:
    Chairman Skeen...............................................    31
    Mr. Livingston...............................................   228
    Mr. Walsh....................................................   229
    Mr. Fazio....................................................   230
    Ms. DeLauro..................................................   231
    Mr. Pastor...................................................   232
    Mr. Barcia...................................................   232
Repair and Maintenance...........................................   220
Research, Education, and Economics...............................   229
Savings:
    Administrative Savings.......................................    45
    Lapsed Salaries..............................................    58
Soil and Water Research.........................................102-106
Southern Regional Research Center................................   228
Soybean Research.................................................   106
Status of Current Activities....................................200-202
Steep II Research................................................   202
Strategic Planning Task Force on Facilities.....................113-117
Strategic Plan and GPRA........................................200, 225
Streamlining Plans..............................................188-189
Sweet Potato Whitefly............................................   203
Swine Research...................................................    68
Taxol Research...................................................   204
Technology Transfer..............................................   205
Tobacco Research.................................................   206
Tropical/Subtropical Research....................................   206
Urban Pest Control...............................................   207
Utilization Centers.............................................207-208
Vomitoxin........................................................   232
Weslaco, Texas...................................................   215
Witness Statements:
    Dr. Woteki...................................................   533
    Dr. Knipling.................................................   549

      Cooperative State Research, Education, and Extension Service

1890 Institutions and Tuskegee University........................   224
1890 Facilities Program..........................................   288
4-H Youth Enrollment............................................281-282
Aflatoxin research, Illinois....................................291-292
Agency Audits....................................................   237
Agrability.......................................................   292
Agricultural development in the American Pacific................409-410
Agricultural diversification and specialty crops, Hawaii........292-293
Alliance for food protection, NE, GA............................293-294
Alternative crops................................................   250
    Canola.......................................................   250
    Crambe/Rapeseed..............................................   250
    Hesperaloe..................................................250-251
    North Dakota................................................295-296
Alternative crops for arid lands................................294-295
Alternative fuels characterization lab..........................410-411
Alternative marine and fresh water species.......................   297
Animal health and disease research...............................   245
Animal medical drug use clarification act........................   241
Animal Science Food Safety Consortium...........................297-299
Apple Fire Blight, Michigan and New York........................299-300
Aquaculture centers.............................................246-249
Aquaculture research.............................................   302
    Illinois.....................................................   300
    Louisiana....................................................   301
    North Carolina...............................................   303
Audit Reports....................................................   285
Babcock Institute................................................   303
BARD............................................................290-291
Barley feed for rangeland cattle, Montana.......................304-305
Beef improvement, Arkansas......................................426-427
Biodiesel research..............................................305-306
Biographical Sketches:
    Catherine O'Connor Woteki....................................   527
    Floyd Horn...................................................   528
    B.H. Robinson................................................   530
Biotechnology, Oregon............................................   306
Biotechnology risk assessment..................................291, 238
Broom snakeweed.................................................307-308
Buildings and Facilities.........................................   264
Canola research............................................250, 308-309
Capacity Building Grants Program...........................244-246, 256
Center for Agriculture and Rural development....................411-412
Center for Animal Health and Productivity.......................309-310
Center for Innovative Food Technology, Ohio.....................310-311
Center for North American Studies...............................412-413
Center for Rural Studies, Vermont...............................311-312
Chemical and non-chemical research appropriations...............444-445
Cheaspeake Bay aquaculture, Maryland............................312-313
Children, youth, and family networks funded by CSREES...............277
Children's nutrition research center................................285
Coastal cultivars...................................................313
Competitive Grants..................................................242
Competitiveness of agricultural products, Washington............313-315
Cool season legume research.........................................315
Cranberry/Blueberry disease and breeding, New Jersey............315-316
Critical agricultural materials.................................246-247
Critical issues.................................................316-317
Dairy and meat goat research....................................317-318
Data information system question................................413-415
Delta rural revitalization, Mississippi.........................318-319
Delta Teachers Academy..........................................427-429
Drought mitigation..............................................319-320
EFNEP...........................................................278-279
Environmental research, New York................................320-321
Environmental risk factors/cancer, New York.....................321-322
Expanded wheat pasture, Oklahoma................................322-323
Expert IPM decision support system..............................323-325
Explanatory Statement...............................................707
Extension activities............................................269-270
Extension Farm Management Education Project.....................429-430
Extension Specialist:
    Arkansas....................................................429-430
    Mississippi.....................................................430
Farm and rural business finance, Illinois and Arkansas..........325-326
Federal administration..........................................262-268
Floriculture, Hawaii................................................326
Food and Agricultural Policy Institute, Iowa and Missouri.......327-328
Food irradiation, Iowa..........................................328-329
Food Marketing Policy Center, Connecticut.......................329-330
Food and Nutrition..............................................288-290
Food Processing Center, Nebraska....................................331
Food Safety Initiative..........................................272-276
Food Systems Research Group, Wisconsin..........................331-332
Forestry research, Arkansas.....................................332-334
Fruit and vegetable market analysis, Arizona and Missouri...........334
Generic Commodity promotion, New York...........................334-335
Genome Mapping......................................................242
Geographic information system...................................415-417
Global change...................................................335-337
Global marketing support services, Arkansas.....................337-338
Good Laboratory Practice............................................240
Government Performance and Results Act (GPRA)...................442-444
Grass seek cropping systems for Sustainable Ag..................338-339
Gulf coast shrimp aquaculture...................................417-418
Hesperaloe......................................................250-251
Hispanic Education Partnerships Grants Program......................256
    Iowa........................................................339-340
    Louisiana...................................................340-341
    New York....................................................341-342
Illinois-Missouri Alliance for Biotechnology....................342-343
Improved dairy management practices, Pennsylvania...............343-344
Improved fruit practices, Michigan..................................344
Improved pest control...........................................257-261
Income enhancement demonstration................................430-431
Institute for food science and engineering, Arkansas............345-346
Integrated cow/calf management..................................431-433
Integrated pest management/biological control..............271, 346-347
Integrated production systems, Oklahoma.........................347-348
International Arid Lands Consortium.............................348-349
International Programs..........................................285-286
Iowa Biotechnology Consortium...................................349-350
IR-4 program and pesticide clearance............................239-240
Jointed Goatgrass...............................................350-351
Landscaping for water quality, Georgia..........................351-352
Livestock and dairy policy......................................352-353
Lowbush Blueberry research......................................353-354
Maple research..................................................354-355
Michigan Biotechnology Consortium...............................355-357
Midwest Advanced Food Manufacturing Alliance........................357
Midwest agricultural products, Iowa.............................357-358
Milk Safety, Pennsylvania.......................................359-361
Minor use animal drugs..........................................240-241
Mississippi Valley State University.............................419-420
Molluscan shellfish, Oregon.....................................361-362
Multi-commodity research, Oregon................................362-363
Multi-cropping strategies for aquaculture, Hawaii...............363-364
Multicultural Scholars Program..................................284-285
National 4-H recognition model..................................283-284
National agricultural pesticide impact assessment...............286-288
National biological impact assessment program...................364-365
National Education Center for Agricultural Safety, Iowa.........418-419
National Research Initiative...................................239, 243
Native American Institutions Endowment Fund.....................255-256
Nematode resistance genetic engineering.........................365-366
Nonfood agricultural products...................................366-367
North Central Biotechnical Initiative...........................367-368
Oil resources from desert plants, New Mexico....................368-369
Organic Waste Utilization, New Mexico...........................369-370
Overhead rates...................................................   241
Peach tree short life, South Carolina...........................370-371
Peer Panels......................................................   264
Pest containment and quarantine facility.........................   444
Pest control alternatives, South Carolina.......................371-372
Pest management for minor crops.................................373-374
Pesticide clearance.............................................373-374
Pesticide Data Program...........................................   240
Pesticide impact assessment program...................256, 272, 374-376
Pilot technology project, Wisconsin.............................433-434
Plant Genome Mapping............................................238-239
PM-10 Research...................................................   445
PM-10 Study.....................................................420-421
Porcine reproductive and respiratory syndrome....................   246
Postharvest rice straw, California..............................376-377
Potato cultivars, Alaska........................................377-379
Preharvest food safety, Kansas..................................379-381
Prepared Statement...............................................   290
Project terminations.............................................
Questions Submitted For the Record:
    Chairman Skeen...............................................   234
    Mr. Fazio....................................................   444
    .............................................................
Rangeland research..............................................249-250
Range Policy Development, New Mexico............................434-435
Red River corridor, Minnesota and North Dakota..................381-382
Regionalized implications of farm programs......................383-384
Rice modeling...................................................384-386
Rural Center AIDS/STD Prevention, Indiana.......................435-436
Rural development centers..................................251, 279-281
    Nebraska....................................................437-438
    Oklahoma....................................................436-437
Rural partnerships, Nebraska....................................421-422
Rural rehabilitation, Georgia...................................438-440
Rural Policies Institute........................................386-387
Seafood harvesting, processing and marketing....................387-388
Small Business Innovation Research Program......................237-255
Small fruit research............................................388-389
Southwest consortium for plant genetics and water resources.....389-390
Soybean cyst nematode, Missouri.................................390-391
Spatial technologies for agriculture, Mississippi................   391
Steep II-Water Quality in Pacific Northwest.....................391-393
Sustainable agriculture..........................................   277
    Michigan....................................................393-394
    Nebraska....................................................394-395
    Pennsylvania.................................................   393
    SARE Program................................................251-254
Sustainable pest management for dryland wheat, Montana..........395-396
Swine wast management, North Carolina............................   396
Technology Transfer Projects, Oklahoma and Mississippi..........440-441
Tillage, silviculture, and waste management, Louisiana..........396-397
Tobacco research.................................................   238
Tropical and subtropical research...............................397-399
Urban pests, Georgia............................................399-400
Viticulture Consortium, New York and California..................   400
Water conservation, Kansas......................................400-402
Water management, Alabama.......................................402-403
Water quality...................................................403-404
    Illinois....................................................422-424
    North Dakota................................................424-426
Weed control, North Dakota......................................404-405
Wheat genetics, Kansas...........................................   406
Witness Statements:
    Dr. B.H. Robinson............................................   564
Wood Biomass....................................................441-442
Wood utilization research.......................................406-408
Wool research...................................................408-409
Youth at risk program............................................   277

                       Economic Research Service

Agricultural Economic Information...............................470-471
Agricultural Practices..........................................449-451
Agricultural Institute in Turkey.................................   477
Biographical Sketches:
    Catherine O'Connor Woteki....................................   527
    Floyd Horn...................................................   528
    Susan Offutt.................................................   531
Biomass Initiative..............................................475-476
Budget Request...................................................   465
Buyout Authority.................................................   468
Chemical Use.....................................................   474
China and World Agricultural Markets............................472-473
Congressionally Mandated Studies.................................   461
Conservation Reports.............................................   474
Conservation Reserve Program Differences.........................   480
Cooperative Marketing of Grain...................................   461
Credit for Socially Disadvantaged Groups........................468-469
Credit Survey...................................................478-479
Dairy Policy.....................................................   473
Data Needs.......................................................   456
Data Funds.......................................................   448
Data Collection and NRI.........................................449-450
Data Purchases...................................................   460
Distribution of Flexibility Payments............................480-481
Economic and Physical Science Research Collaboration.............   471
Economic Impact on High Quality Environmental Amenities.........481-482
Environmental Policies and Trade................................476-477
Environmental Quality Incentives Program.........................   458
EQIP Rule Improvements..........................................458-459
EQIP Analysis....................................................   459
ERS Offices......................................................   478
Ethanol Industry and Fuel Oxygenates.............................   475
Explanatory Statement...........................................861-885
Farm Bill........................................................   453
Farm Bill Changes................................................   454
Farm Bill and Economic Research..................................   452
Farm Income Implications.........................................   448
Farm Household Income...........................................446-447
Farm and Pesticide Use Data......................................   448
Farm Practices..................................................448-449
Farm Employment..................................................   466
Farming Operations...............................................   446
Food Program Delivery............................................   462
Food Research Coordination.......................................   483
Food Prices......................................................   474
Food Program and Economic Conditions............................462-463
Food Related Products...........................................482-483
Food Research Costs..............................................   483
Foodborne Illness...............................................464-465
Foreign Ownership of U.S. Agricultural Land.....................467-468
GAO Reports......................................................   477
Global Climate Change Spending...................................   478
Global Food Assessment...........................................   457
GPRA............................................................487-488
GPRA--Linking Strategic Plan and Annual Performance Goals.......484-485
GPRA--Statistical Expertise.....................................451-452
GPRA--Lessons Learned............................................   485
GPRA--Progress In Developing ERS Strategic Plan.................483-484
GPRA--Performance Measures.......................................   451
GPRA--Consultations with Congress................................   486
GPRA--Coordinating Strategies with Other Agencies................   486
GPRA--Effects of Results Act on ERS Programs and Operation......486-487
GPRA--ERS Stakeholders..........................................485-486
GPRA--Projected ERS Resources....................................   484
HACCP Compliance Costs...........................................   463
HACCP Costs Follow-Up...........................................463-464
HACCP Benefits and Costs.........................................   464
Historians.......................................................   470
Hypoxic Zone in Gulf of Mexico Research..........................   482
Integrated Pest Management......................................450-451
Internet Information............................................457-458
Iowa State Research.............................................455-456
Marketing Opportunities..........................................   465
Meat Industry Costs..............................................   464
Model Access....................................................456-457
Modeling Capabilities............................................   455
NAFTA Monitoring.................................................   466
National Research Council Review of ERS..........................   470
National Income Accounts.........................................   482
Nutrition........................................................   476
Nutrition Education..............................................   462
Object Class.....................................................   468
Other Services...................................................   468
Performance in 1996.............................................469-470
Price and Income Variability in the Post-1996 Environment........   472
Production Flexibility Contracts.................................   453
Public and Private R&D Expenditures..............................   479
Questions Submitted for the Record:
    Chairman Skeen...............................................   446
R&D Effects on Productivity......................................   481
Risk Management Research........................................454-455
Rural Jobs and Income............................................   467
Rural Development Partnership....................................   467
Rural Credit Study...............................................   469
Rural Manufacturers..............................................   475
Sanitary and Phytosanitary Barriers..............................   479
Senior Executives................................................   468
Slaughter Plant Models...........................................   464
Supply and Response under the 1996 Farm Bill....................473-474
Support of USDA Policymaking.....................................   471
Tax Reform.......................................................   469
Technical Assistance.............................................   477
Trade Impact of Technical Barriers...............................   479
Trade, Risk Management and Production...........................452-453
Transition to Post 2002.........................................453-454
User Fees........................................................   457
Users of ERS Analyses...........................................471-472
Water Quality...................................................459-460
Welfare Reform...................................................   463
Witness Statements...............................................   584

                National Agricultural Statistics Service

Agricultural Data Needs..........................................   518
Appropriation Language...........................................   900
Available Funds and Staff Years.................................894-896
Biographical Sketches:
    Catherine O'Connor Woteki....................................   527
    Floyd Horn...................................................   528
    Donald Bay...................................................   532
Budget Request...................................................   511
Cattle Deaths....................................................   523
Census of Agriculture:
    Authorizing Legislation................................491, 523-524
    Cycle Costs.................................................489-490
    Data Collection..............................................   489
    Efficiency From Integration..................................   492
    Forms and Response Rate......................................   491
    Jeffersonville, IN Facility..................................   517
    Sampling Frames..............................................   488
    Staffing.....................................................   491
    Status.......................................................   488
Childhood Injury Data............................................   518
Computer Assisted Interviewing...................................   511
Cooperative Agreements..........................................496-504
Cooperative Research.............................................   496
Customer Service:
    Customer Service Telephone Survey............................   517
    Feedback from Internet.......................................   492
    Toll-free Number.............................................   515
Data Collection Costs...........................................518-519
Demand for Information...........................................   488
Economic Research Service Reimbursement..........................   518
Enumerators....................................................493, 516
Estimates and Survey Changes.....................................   515
Explanatory Notes...............................................886-893
Farm Definition................................................489, 512
Geographic Breakdown of Obligations and Staff-Years..............   907
GPRA:
    Budget Initiative...........................................516-517
    Consultations with Congress.................................525-526
    Coordinating Strategies with Other Agencies..................   525
    Effect on NASS Programs and Operation........................   526
    Lessons Learned..............................................   525
    Performance Measures........................................524-525
    Projected NASS Resources.....................................   524
    Progress in Developing Strategic Plan........................   524
    Stakeholders.................................................   525
Hispanic Cheese..................................................   522
International Technical Assistance...............................   494
Internet:
    Customer Service.............................................   492
    Home Page....................................................   522
Justification of Increases and Decreases........................903-906
Land Area Based Survey...........................................   523
Loan Subsidy Rates...............................................   517
Mann Library.....................................................   522
Migrant Workers..................................................   519
Milk Production.................................................519-521
Minority Farmer Coverage........................................515-516
National Resources Inventory.....................................   492
Number of Farms, Land in Farms..................................511-512
Object Classes:
    Equipment....................................................   516
    Object Class Schedule........................................   898
    Other Services Object Class..................................   514
    Purchases from Government Accounts..........................514-515
    Rental Payments..............................................   516
Ongoing Services.................................................   494
Passenger Motor Vehicles.........................................   899
Performance in 1996..............................................   516
Permanent Positions by Grade and Staff-Year Summary..............   897
Pesticide Information............................................   488
Prices Paid......................................................   519
Project Statement................................................   902
Questions Submitted for the Record:
    Chairman Skeen...............................................   488
Riembursable Surveys.............................................   505
Remote Sensing...................................................   515
Reports:
    Discontinued.................................................   494
    Fees.........................................................   494
    Internet.....................................................   492
    Sold by Subscription.........................................   495
Special Surveys.................................................505-510
State Office Funding.............................................   493
Statistical Highlights of U.S. Agriculture.......................   522
Status of Program...............................................908-918
Strategic Plan:
    Customer Outreach...........................................513-514
    Data System 2000.............................................   513
    Initiative Overview.........................................512-513
Summary of Increases and Decreases...............................   901
Training.........................................................   522
Wildlife Impact on Agricultural Production.......................   515
Witness Statement...............................................597-608

                                <all>
</pre></body></html>
